No. ____________

IN THE

DEAN PHILLIP CARTER,
Petitioner,
v.
RON BROOMFIELD,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

APPENDIX IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI

CUAUHTEMOC ORTEGA
Federal Public Defender
MICHAEL D. WEINSTEIN*
CELESTE BACCHI
Deputy Federal Public Defenders
321 East 2nd Street
Los Angeles, California 90012-4202
Telephone: (213) 894-7526
Facsimile: (213) 894-1102
Michael_Weinstein@fd.org
Attorneys for Petitioner
DEAN PHILLIP CARTER
*COUNSEL OF RECORD

App.
No.

Document

Page
1

1.

Carter v. Davis, No. 13-99003 & 13-99007, U.S. Court of Appeals
for the Ninth Circuit. Order denying petition for rehearing,
entered June 10, 2020

2.

Carter v. Davis, No. 13-99003 & 13-99007, U.S. Court of Appeals
for the Ninth Circuit. Opinion entered December 26, 2019

3.

Carter v. Chappell, No. 06-01343, U.S. District Court for the
Southern District of California. Post-Judgment Order,
entered June 3, 2013

4.

Carter v. Chappell, No. 06-01343, U.S. District Court for the
Southern District of California. Judgment entered March 19, 2013

82

5.

Carter v. Chappell, No. 06-01343, U.S. District Court for the
Southern District of California. Final order denying petition for
writ of habeas corpus and issuing certificate of appealability,
entered March 18, 2013

83

6.

Carter v. Chappell, No. 06-04532, U.S. District Court for the
Central District of California. Judgment entered March 1, 2013

7.

Carter v. Chappell, No. 06-04532, U.S. District Court for the
Central District of California. Order denying first amended
petition for writ of habeas corpus entered March 1, 2013

8.

In re Dean Phillip Carter, On Habeas Corpus, No. S153780,
California Supreme Court. Order Denying Petition for a Writ
of Habeas Corpus entered June 17, 2010

9.

In re Dean Phillip Carter, On Habeas Corpus, No. S153790,
California Supreme Court. Order Denying Petition for a Writ
of Habeas Corpus entered June 17, 2010

10.

In re Dean Phillip Carter, On Habeas Corpus, No. S090230,
California Supreme Court. Order Denying Petition for a Writ
of Habeas Corpus entered June 28, 2006

11.

In re Dean Phillip Carter, On Habeas Corpus, No. S096874,
California Supreme Court. Amended Order Denying Petition
for a Writ of Habeas Corpus entered September 13, 2006

3
76

84
85

231

233

235

236

App.
No.

Document

Page

12.

People v. Carter, No. S014021, California Supreme Court.
Order denying petition for rehearing entered October 26, 2005

238

13.

People v. Carter, No. S023000, California Supreme Court.
Opinion Affirming Judgment, modified and rehearing denied,
entered October 26, 2005

240

14.

People v. Carter, No. S014021, California Supreme Court Opinion
Affirming Judgment entered August 15, 2005

15.

People v. Carter, No. A-089330, Excerpts from Reporter’s
Transcript, Volume 42, pp. 5092-5096, July 5, 1989

16.

People v. Carter, No. A-089330, Excerpts from Reporter’s
Transcript, Vol. 44, pp. 5209-5212, 5292, July 10, 1989

17.

People v. Carter, No. A-089330, Excerpts from Reporter’s
Transcript, Vol. 45, pp. 5391-5395, July 17, 1989

18.

People v. Carter, No. A-089330, Excerpts from Reporter’s
Transcript, Vol. 49, Testimony of Jerry Lee Carter, July 26, 1989

19.

People v. Carter, No. A-089330, Excerpts from Reporter’s
Transcript, Vol. 54, Testimony of Howard Gillingham,
January 11, 1990

20.

People v. Carter, No. A-089330, Clerk’s Transcripts, Vol. IV

21.

People v. Carter, No. A-089330, Clerk’s Transcript, Vol. VI

22.

People v. Carter, No. CR-90280 Excerpts from the Reporter’s
Transcript Vol. 52, Testimony of Melissa Glick, June 10, 1991

23.

People v. Carter, No. CR-90280 Excerpts from the Reporter’s
Transcript Vol. 54, Testimony of Monte Buchsbaum, M.D.,
June 13, 1991

24.

People v. Carter, No. CR-90280 Excerpts from the Reporter’s
Transcript, Vol. 56 re Penalty Phase Closing Arguments,
June 18, 1991

521

25.

Declaration of Howard W. Gillingham, July 15, 2000
(PWHC Ex. 64)

527

276
402
408
415
422
440

479
485
491
497

App.
No.

Document

Page

26.

Declaration of Marcia A. Morrissey, July 12, 2000
(PWHC Ex. 66)

542

27.

Declaration of Josephine Dedina, July 1, 2000
(PWHC Ex. 62)

547

28.

Declaration of Marion L. Pasas, June 3, 2000
(PWHC Ex. 67)

552

29.

Cohen Interview with Edna Buffas, May 16, 1987
(PWHC Ex. 70)

556

30.

Cohen Interview with Pollyanne Reasner, July 6, 1987
(PWHC Ex. 74)

31.

Cohen Interview with Jerry Carter, October 17, 1987
(PWHC Ex. 72)

562

32.

Pasas Interview with Bertha Adsuna
(PWHC Ex. 68)

568

33.

Declaration of Mindy S. Rosenberg, Ph.D., June 14, 2007
(PWHC Ex. 78)

570

34.

Nome Public School Records
(PWHC Ex. 3)

628

35.

Seward Public School Records
(PWHC Ex. 4)

632

36.

Wasecha Report, March 11, 1969
(PWHC Ex. 11)

634

37.

Norton Sound Hospital Records
(PWHC Ex. 8)

635

38.

Probation Report of Kenneth E. Brown, January 25, 1971
(PWHC Ex. 6)

637

39.

Probation Report of Barton Penny, April 30, 1973
(PWHC Ex. 9)

640

40.

Case History Report of S. R. Sobel, Counselor, January 17, 1975
(PWHC Ex. 10)

646

559

App.
No.

Document

Page

41.

Psychological Evaluation by Kathi Smith, March 22, 1978
(PWHC Ex. 24)

647

42.

Declaration of Myla H. Young, Ph.D., March 19 2001
(PWHC Ex. 61)

648

43.

Declaration of Adrian Raine, July 12, 2000
(PWHC Ex. 59)

658

44.

Declaration of David Foster, M.D., July 18, 2000
(PWHC Ex. 75)

669

45.

Declaration of Natalie N. Brown, Ph.D., June 4, 2007
(PWHC Ex. 77)

46.

Declaration of Paul D. Connor, Ph.D., March, 22, 2009
(PWHC Ex. 96)

754

47.

Declaration of Richard S. Adler, M.D., March 24, 2009
(PWHC Ex. 95)

790

48.

Declaration of Cherryl Stavish, March 7, 2007
(PWHC Ex. 91)

818

49.

Declaration of Arthur “Guy” Martin, March 1, 2007
(PWHC Ex. 88)

823

50.

Declaration of Vaughn Johnson, March 7, 2007
(PWHC Ex. 87)

828

51.

Declaration of Charles Reader, April 4, 2007
(PWHC Ex. 89)

830

52.

Declaration of Catherine Dickson, March 3, 2007
(PWHC Ex. 82)

833

53.

Declaration of Cecil Johnson, March 3, 2007
(PWHC Ex. 86)

836

54.

Declaration of Michael Ahmasuk, March 2, 2007
(PWHC Ex. 80)

839

711

Case: 13-99003, 06/10/2020, ID: 11717317, DktEntry: 68, Page 1 of 2

FILED
JUN 10 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

DEAN PHILLIP CARTER,

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

13-99003

v.

D.C. No. 2:06-cv-04532-RGK
Central District of California,
Los Angeles

KEVIN CHAPPELL, Warden, San
Quentin State Prison,

ORDER

Petitioner-Appellant,

Respondent-Appellee.

DEAN PHILLIP CARTER,
Petitioner-Appellant,
v.

No.

13-99007

D.C. No.
3:06-cv-01343-BEN-KSC
Southern District of California,
San Diego

KEVIN CHAPPELL, Warden, San
Quentin State Prison,
Respondent-Appellee.

Before: RAWLINSON, CLIFTON, and BYBEE, Circuit Judges.
The panel judges have voted to deny appellant’s petition for rehearing.
Judge Rawlinson voted to deny the petition for rehearing en banc, and Judges
Clifton and Bybee recommended denying the petition for rehearing en banc.
The full court has been advised of the petition for rehearing en banc and no
Petitioner's App. 1 - 1

Case: 13-99003, 06/10/2020, ID: 11717317, DktEntry: 68, Page 2 of 2

judge has requested a vote on whether to rehear the matter en banc. Fed. R. App.
P. 35.
Appellant’s petition for rehearing and petition for rehearing en banc, filed
March 23, 2020, is DENIED.

2
Petitioner's App. 1 - 2

(1 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 1 of 69

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DEAN PHILLIP CARTER,
Petitioner-Appellant,

No. 13-99003
D.C. No.
2:06-cv-04532-RGK

v.
RON DAVIS, Warden, San
Quentin State Prison,
Respondent-Appellee.

Appeal from the United States District Court
for the Central District of California
R. Gary Klausner, District Judge, Presiding
DEAN PHILLIP CARTER,
Petitioner-Appellant,

No. 13-99007
D.C. No.
3:06-cv-01343-BENKSC

v.
RON DAVIS, Warden, San
Quentin State Prison,
Respondent-Appellee.

OPINION

Appeal from the United States District Court
for the Southern District of California
Roger T. Benitez, District Judge, Presiding

Petitioner's App. 2 - 3

(2 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 2 of 69

2

CARTER V. DAVIS
Argued and Submitted March 28, 2019
San Francisco, California
Filed December 26, 2019
Before: Johnnie B. Rawlinson, Richard R. Clifton,
and Jay S. Bybee, Circuit Judges.
Per Curiam Opinion

SUMMARY*

Habeas Corpus / Death Penalty
In appeals arising from Dean Phillip Carter’s habeas
corpus petitions challenging his convictions and death
sentences in separate cases in Los Angeles and San Diego
Counties, the panel (1) affirmed district court judgments in
the Central and Southern Districts of California denying his
petitions; (2) granted, as to one claim in the Central District,
Carter’s supplemental motion to expand the certificate of
appealability; and (3) otherwise denied the supplemental
motion to expand the certificate of appealability.
The Central District certified two claims for review:
(1) that an irreconcilable conflict between Carter and trial
counsel resulted in a denial of his Sixth Amendment rights,
and (2) that trial counsel rendered ineffective assistance

*

This summary constitutes no part of the opinion of the court. It has
been prepared by court staff for the convenience of the reader.

Petitioner's App. 2 - 4

(3 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 3 of 69

CARTER V. DAVIS

3

because they refused to allow Carter to testify in his own
defense.
•

The panel held that even if Carter were able to
demonstrate a complete breakdown in communication or
prove that an irreconcilable conflict with trial counsel
existed under this circuit’s precedent, his irreconcilableconflict claim would fail because the U.S. Supreme Court
has never held that an irreconcilable conflict with one’s
attorney constitutes a per se denial of the right to effective
counsel. The panel explained that this proves fatal to
Carter’s claim because AEDPA conditions habeas relief
on a determination that the state-court decision
unreasonably applied “clearly established Federal law” as
pronounced by the U.S. Supreme Court.

•

The panel held that the California Supreme Court
reasonably determined that counsel did not perform
deficiently by refusing to let Carter testify, and that even
if counsel performed deficiently by refusing to do so, the
California Supreme Court’s determination that Carter
cannot show prejudice was not an unreasonable
application of law.

The Southern District certified two claims for review:
(1) that Carter’s trial counsel rendered ineffective assistance
at the penalty phase, and (2) that Carter was deprived of his
right to the competent assistance of a psychiatric expert.
•

The panel held that Carter failed to establish that the
California Supreme Court was unreasonable in denying
relief on his contentions that counsel performed
deficiently (a) by focusing on the positive aspects of
Carter’s career and family life as a result, rather than

Petitioner's App. 2 - 5

(4 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 4 of 69

4

CARTER V. DAVIS
giving greater emphasis to his traumatic childhood; and
(b) by failing to conduct an adequate investigation into
Carter’s mental health, including the possibility that he
suffered from fetal alcohol syndrome.

•

The panel held that Carter failed to establish that Ake v.
Oklahoma, 470 U.S. 68 (1985), or any other U.S.
Supreme Court decision would cause jurists of reason to
disagree with the reasonable arguments in support of the
California Supreme Court’s denial of his claim that he
was deprived of the right to competent assistance of a
psychiatric expert at trial. The panel wrote that, as Carter
conceded, the U.S. Supreme Court has never interpreted
Ake to guarantee a due process right to effective expert
assistance at trial.

The panel issued a certificate of appealability on one
claim, not certified by the Central District, alleging
ineffective assistance of counsel at the penalty phase. The
panel affirmed the denial of relief on that claim because the
California Supreme Court’s determination that counsel
satisfied the deferential standard set forth in Strickland v.
Washington, 466 U.S. 668 (1984), is not contrary to or an
unreasonable application of federal law. The panel wrote that
the California Supreme Court may reasonably have
concluded that the investigation supporting counsel’s decision
not to introduce more mitigating evidence was reasonable,
and that even if Carter’s defense team performed deficiently,
the California Supreme Court could reasonably have
concluded that Carter was not prejudiced by their
performance.

Petitioner's App. 2 - 6

(5 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 5 of 69

CARTER V. DAVIS

5

The panel denied a certificate of appealability as to the
rest of the claims not certified by the Southern and Central
District Courts.

COUNSEL
Michael D. Weinstein (argued) and Mark Yim, Deputy
Federal Public Defenders; Hilary Potashner, Federal Public
Defender; Office of the Federal Public Defender, Los
Angeles, California; for Petitioner-Appellant.
Annie Featherman Fraser (argued), Deputy Attorney General;
Holly D. Wilkens, Supervising Deputy Attorney General;
Julie L. Garland, Senior Assistant Attorney General; Gerald
A. Engler, Chief Assistant Attorney General; Xavier Becerra,
Attorney General; Office of the Attorney General, San Diego,
California; for Respondent-Appellee.

OPINION
PER CURIAM:
In separate proceedings in Los Angeles and San Diego,
Dean Phillip Carter (Carter) was convicted of murder, rape,
robbery, and burglary and sentenced to death. Carter filed
petitions for writs of habeas corpus in the United States
District Courts for the Central District of California and for
the Southern District of California. The district courts denied
Carter’s petitions.

Petitioner's App. 2 - 7

(6 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 6 of 69

6

CARTER V. DAVIS

In appeal No. 13-99003, we affirm the judgment of the
Central District and deny Carter’s motion to expand the
certificate of appealability (COA) as to all claims except
claim 6, regarding ineffective assistance of counsel at the
penalty phase.
In appeal No. 13-99007, we affirm the judgment of the
Southern District and deny Carter’s motion to expand the
COA.
I. BACKGROUND
Carter stood trial in Los Angeles County and San Diego
County for charges stemming from a crime spree throughout
California in Spring 1984. In the Los Angeles proceedings,
Carter was accused of the rape and murder of Bonnie Guthrie
and the burglary of her residence; and of the murder of Susan
Knoll, rape and murder of Jillette Mills, and the burglary of
their shared residence. In San Diego County, Carter was
accused of the murder and robbery of Janette Cullins and the
burglary of her residence; and of the rape, forcible oral
copulation, and robbery of B.S.1 and the burglary of her
residence. In both the Los Angeles and San Diego
proceedings, prosecutors also introduced evidence of Carter’s
prior convictions for rape, robbery, and assault of J.S. in
Ventura County, and of his connection to the murder of Tok
Kim in Alameda County. The crimes occurred over four

1

We identify living victims of sex crimes only by their initials in this
opinion.

Petitioner's App. 2 - 8

(7 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 7 of 69

CARTER V. DAVIS

7

California counties over a period of about three weeks. We
describe them briefly and chronologically.2
A. The Crimes
On March 25, 1984, Carter broke into the San Diego
home of B.S. wielding a knife and demanded money. After
taking B.S.’s cash, he raped her, hog-tied her, and stole her
car.
On March 27, Carter raped J.S. at knifepoint in her
Ventura County apartment, cut her face, strangled her twice
to the point at which she lost consciousness, and stole cash
from her.3
On April 1, Carter met Tok Kim at a bar in Lafayette,
California, and offered to help her with car trouble. Over the
next two days, a service station manager named David Hogan
observed Carter and Kim at his station together. Hogan
observed that Carter was wearing sunglasses and a black
“Members Only” style jacket. On the night of April 10,
Kim’s neighbor heard Kim arguing in her Oakland apartment
with an unidentified man who was not her boyfriend. Kim’s
co-workers notified her apartment manager after Kim did not
appear for work on two consecutive days. On April 13, the
2

The facts set forth in this opinion are taken directly from the most
recent reasoned state-court decisions issued in the challenged proceedings:
People v. Carter, 117 P.3d 476 (Cal. 2005) (Los Angeles) and People v.
Carter, 117 P.3d 544 (Cal. 2005) (San Diego).
3

A Ventura County jury convicted Carter of the rape, robbery, and
assault of J.S. He does not seek relief from these convictions here.
However, prosecutors introduced evidence of these convictions in both of
Carter’s death penalty trials.

Petitioner's App. 2 - 9

(8 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 8 of 69

8

CARTER V. DAVIS

apartment manager found Kim’s body on her bedroom floor.
The pathologist who performed the autopsy could not
determine the cause of death because of the body’s advanced
stage of decomposition but testified that a curtain tie found
beneath her neck could have been used to strangle her. 4
On April 11, Culver City, California resident Susan Knoll
went absent from her job at a bank. Knoll’s co-worker took
a call from an unidentified man who informed her that Knoll
had been in a traffic accident and was being treated for minor
injuries at a hospital. The same day, after Knoll’s roommate
Jillette Mills failed to respond to her brother’s attempts to
contact her, the brother and a friend searched for Mills at her
apartment, place of employment, and college but were unable
to find Mills or her car. The two men then climbed a fence to
enter Mills’s and Knoll’s unlocked apartment and found the
bodies of both women stacked in the closet.
Investigators discovered Kim’s vehicle outside of Mills’s
and Knoll’s apartment. Inside the vehicle was a pair of
sunglasses, which Hogan identified as matching a pair he
observed Carter wearing at his station while with Kim.
Mills’s white Datsun was missing. Inside the apartment,
investigators retrieved a palm print matching Carter’s from
the bathroom sink. An autopsy determined that Knoll died of
manual strangulation and Mills died of ligature strangulation.
Both women also suffered injuries consistent with having
struggled against an assailant and had seminal fluid on their
genital areas. Mills additionally suffered injuries to her
genital area consistent with traumatic sexual assault.

4
Carter has never faced charges relating to Kim’s death. Prosecutors
introduced evidence of the circumstances surrounding her death, however,
in both of Carter’s death penalty trials.

Petitioner's App. 2 - 10

(9 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 9 of 69

CARTER V. DAVIS

9

Also on April 11, the manager of Bonnie Guthrie’s
apartment building in Los Angeles entered Guthrie’s
apartment with a repairman. Guthrie was Knoll’s best friend.
The manager observed Guthrie lying on her bedroom floor
and remarked to the repairman that she was sleeping. The
next day, the manager noticed Guthrie’s vehicle in the garage
and wondered why she had not gone to work. He entered the
apartment, observed Guthrie lying in the same position, and
notified police. An autopsy determined that Guthrie died of
ligature strangulation and that she had suffered injuries to her
genital area consistent with traumatic sexual assault. Two
days after the discovery of Guthrie’s body, a witness found
Guthrie’s wallet in a San Diego shipyard, approximately fifty
feet from a white Datsun matching the description of Mills’s
missing vehicle.
On April 12, Carter visited the San Diego apartment of
Janette Cullins and her roommate Cheri Phinney. Carter and
Cullins knew one another socially, and had met for drinks and
dinner with other friends on two occasions in February and
March 1984. On March 24, Carter had attempted to contact
Cullins through her friend Cathleen Tiner. When Tiner told
Cullins that Carter had called for her, Cullins became upset.
Cullins had also told her former roommate, Nancy
McEachern, that if Carter called for her she did not want to
speak with him. When Carter visited Cullins on April 12,
Cullins asked Phinney to come through the living room so
that Carter would be aware that someone else was in the
apartment. Carter left the apartment after an hour.
That evening, Cullins and Tiner attended the symphony
together. Cullins informed Tiner that Carter was back in
town. At 11:00 p.m., Cullins left Tiner’s apartment and was
never seen alive again. Between 11:15 and 11:30 p.m.,

Petitioner's App. 2 - 11

(10 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 10 of 69

10

CARTER V. DAVIS

Cullins’s neighbor observed a white Datsun matching the
description of Mills’s missing vehicle outside of Cullins’s
apartment. The neighbor observed the vehicle drive away at
11:30, nearly hitting another vehicle while making a U-turn
and running through a stop sign.
On April 13, Phinney and McEachern each attempted to
contact Cullins without success. At midday, McEachern
drove to Cullins’s apartment and encountered Carter, who
was driving a white Datsun. Carter asked McEachern if
Cullins was home. That evening, Carter unexpectedly visited
Tiner at her home and commented that Cullins had “stood
[him] up” that day. Tiner then unsuccessfully attempted to
contact Cullins.
The following day, Phinney and McEachern searched
Cullins’s apartment and found her partially clothed body in
her bedroom closet. A police investigation found damage to
the front door consistent with a forced entry. An autopsy
determined that Cullins died of ligature strangulation and that
she had sustained a wound consistent with the use of a sharp
knife either while she was dying or after she had died.
On the same day Cullins’s body was discovered, a
pedestrian found a wallet containing Cullins’s driver’s license
and credit cards in bushes next to a sidewalk on North Harbor
Drive in San Diego. The pedestrian testified that he had seen
a white Datsun matching the description of Mills’s missing
vehicle parked within one block of where he had found the
wallet during the same week. Later that day, police recovered
Guthrie’s purse from the same area of North Harbor Drive.
On April 17, an Arizona Highway Patrol officer observed
Mills’s white Datsun driving erratically on Interstate 40 in

Petitioner's App. 2 - 12

(11 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 11 of 69

CARTER V. DAVIS

11

Yavapai County, Arizona. The officer initiated a traffic stop
and discovered Carter alone in the vehicle with what
appeared to be a burnt marijuana cigarette and placed Carter
under arrest on suspicion of driving under the influence.
While searching the vehicle for marijuana, the officer
discovered Cullins’s bank identification card between the
driver’s seat and center console.
A full search of the vehicle recovered the following items:
a suitcase, Korean-made wood-handled knife, yellow rubber
gloves, and a gold chain, all belonging to Kim; a supermarket
card belonging to Knoll; towels, athletic wear, and
photographic equipment, all belonging to Mills; three handwoven sweaters belonging to Guthrie; a key ring belonging to
Cullins; a piece of paper with Cullins’s bank password
written on it; and a black “Members Only” jacket matching
the description of the jacket Hogan had seen Carter wearing
while with Kim. The jacket contained a butcher knife, a
knee-high nylon sock, and a business card from Hogan’s
service station.
Bank records revealed that all but $4.06 of Cullins’s bank
account balance had been withdrawn from an ATM on April
13, the day after she was last seen alive. A video of the
transaction showed a man wearing one of Guthrie’s sweaters
and a black jacket withdrawing the funds. A handwriting
expert testified that there were “very strong indications” that
Cullins had written the password on the slip of paper
recovered from the Datsun but also could neither eliminate
nor identify Carter as the writer.

Petitioner's App. 2 - 13

(12 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 12 of 69

12

CARTER V. DAVIS

B. Criminal Proceedings
1. Los Angeles County
The Los Angeles trial regarding the crimes against Knoll,
Mills, and Guthrie was bifurcated into guilt and penalty
proceedings. At the guilt phase, Carter’s counsel rested
without calling any witnesses or putting on a defense. Carter
was convicted on all counts. At the penalty phase, Carter’s
counsel presented an extensive mitigation case detailed
below. Carter was sentenced to death.
2. San Diego County
The San Diego trial, which followed his conviction in Los
Angeles County, was also bifurcated into guilt and penalty
proceedings regarding the murder of Cullins and the rape of
B.S. Carter stipulated before trial that he had been convicted
of the murders of Knoll, Mills, and Guthrie.
At the guilt phase, counsel put on a defense by calling
several witnesses. But the jury found Carter guilty of the
murder of Cullins, and found true the special circumstances
that the murder was committed while lying in wait, during the
commission of both a robbery and a burglary, and that Carter
had previously been convicted of the murders of Knoll, Mills,
and Guthrie. It further found Carter guilty of the robbery of
Cullins and the burglary of her residence and found that he
had inflicted great bodily injury during the course of these
crimes. The jury also found Carter guilty of the forcible rape,
forcible oral copulation, and robbery of B.S. and the burglary
of her residence, and determined that Carter had used a
deadly weapon (a knife) in the commission of each of his
crimes against B.S.

Petitioner's App. 2 - 14

(13 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 13 of 69

CARTER V. DAVIS

13

At the penalty phase, counsel presented a mitigation case
similar to that presented in the Los Angeles trial. The jury
returned a recommendation of the death penalty. The court
imposed a death sentence.
C. California Supreme Court Proceedings
Carter’s convictions and sentences were appealed to the
California Supreme Court. While those appeals were
pending, Carter filed his first round of state habeas petitions
in that court. In 2005, the California Supreme Court affirmed
the convictions and death sentences in two separate, reasoned
opinions. People v. Carter, 117 P.3d 476 (Cal. 2005) (Los
Angeles); People v. Carter, 117 P.3d 544 (Cal. 2005) (San
Diego). The court affirmed both judgments in their entirety
with the exception of the San Diego court’s finding of the
special circumstance of lying in wait on the Cullins murder
charge, which it set aside. Carter sought review of these
decisions in the Supreme Court of the United States, which
denied his petitions for writ of certiorari in 2006. Carter v.
California, 547 U.S. 1099 (2006) (mem.) (Los Angeles);
Carter v. California, 547 U.S. 1043 (2006) (mem.) (San
Diego).
In 2006, the California Supreme Court summarily denied
Carter’s habeas petitions on the merits. Carter filed two
subsequent rounds of state habeas petitions in 2007 and 2010.
The California Supreme Court summarily denied each of
those petitions on the merits in 2010.
D. Federal Habeas Proceedings
Carter initiated the instant proceedings in 2007. In a
petition for writ of habeas corpus filed in the United States

Petitioner's App. 2 - 15

(14 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 14 of 69

14

CARTER V. DAVIS

District Court for the Southern District of California, he
asserted seventeen claims for relief related to his San Diego
County trial. Two days later, he filed a petition for writ of
habeas corpus in the United States District Court for the
Central District of California, asserting seventeen additional
claims for relief related to his Los Angeles County trial.
Carter filed amended petitions in both federal district courts
in 2010, reducing the number of claims in his Southern
District petition to sixteen.
In 2013, the Central District of California published a
146-page order dismissing two of Carter’s claims without
prejudice and denying the rest of his claims on the merits.
The district court granted a COA on two of Carter’s claims:
that an irreconcilable conflict between Carter and trial
counsel resulted in a denial of his Sixth Amendment rights
(Certified Claim 1, and Claim 1 of the First Amended
Petition); and that trial counsel rendered ineffective assistance
because they refused to allow Carter to testify in his own
defense (Certified Claim 2, and Claim 5(D) of the First
Amended Petition). It denied a COA on the remaining
claims.
Later in 2013, the Southern District of California
published a 318-page order denying all claims on the merits.
The district court granted a COA on two claims: that trial
counsel had rendered ineffective assistance during the penalty
phase (Certified Claim 1, and Claim 3 of the Second
Amended Petition); and that Carter was deprived of his right
to the competent assistance of a psychiatric expert (Certified
Claim 2, and Claim 4 of the Second Amended Petition). It
denied a COA on the remaining claims. Carter filed a motion
under Federal Rule of Civil Procedure 59(e) or 60(b) to
vacate the order denying his petition and allow him to return

Petitioner's App. 2 - 16

(15 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 15 of 69

CARTER V. DAVIS

15

to state court to further develop the evidentiary record. The
Southern District denied this motion in a reasoned decision.
Carter timely appealed both district court orders.
II. STANDARD OF REVIEW
“We review the district court[s’] denial of a habeas
petition de novo.” Jones v. Harrington, 829 F.3d 1128, 1135
(9th Cir. 2016). Carter’s habeas petitions are subject to the
Antiterrorism and Effective Death Penalty Act of 1996
(AEDPA), which forecloses federal habeas relief for “any
claim that was adjudicated on the merits in State court”
unless the state court’s decision was (1) “contrary to, or
involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the
United States”; or (2) “based on an unreasonable
determination of the facts in light of the evidence presented
in the State court proceeding.” 28 U.S.C. § 2254(d).
These standards are “intentionally ‘difficult to meet.’”
Woods v. Donald, 135 S. Ct. 1372, 1376 (2015) (per curiam)
(quoting White v. Woodall, 572 U.S. 415, 419 (2014)).
“‘[C]learly established Federal law’ for purposes of
§ 2254(d)(1) includes only ‘the holdings’” of Supreme Court
decisions; it does not include Supreme Court dicta or circuit
precedent. Woodall, 572 U.S. at 419 20 & n.2; see Parker v.
Matthews, 567 U.S. 37, 48 49 (2012) (per curiam). A statecourt decision is “contrary to” clearly established Supreme
Court precedent “if it ‘applies a rule that contradicts the
governing law set forth in [the Supreme Court’s] cases’ or if
it ‘confronts a set of facts that are materially indistinguishable
from a decision of [the Supreme] Court and nevertheless
arrives at a [different] result.’” Price v. Vincent, 538 U.S.

Petitioner's App. 2 - 17

(16 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 16 of 69

16

CARTER V. DAVIS

634, 640 (2003) (quoting Williams v. Taylor, 529 U.S. 362,
405 06 (2000)). A state-court decision “involve[s] an
unreasonable application” of clearly established Supreme
Court precedent if “it correctly identifies the governing legal
rule” but then applies that rule to the facts of a particular case
in an “objectively unreasonable” way, such that the state
court’s ruling rested on “an error well understood and
comprehended in existing law beyond any possibility for
fairminded disagreement.” Woodall, 572 U.S. at 421, 426 27
(citations omitted). Finally, a state-court decision is “based
on an unreasonable determination of the facts” if “we are
convinced that an appellate panel, applying the normal
standards of appellate review, could not reasonably conclude
that the finding is supported by the record.” Murray v.
Schriro, 745 F.3d 984, 999 (9th Cir. 2014) (citation and
internal alteration omitted).
These deferential standards apply to each claim
adjudicated on the merits in state court, regardless of whether
the state court disposed of the claim in a reasoned opinion or
a summary ruling. Harrington v. Richter, 562 U.S. 86, 99
(2011). We generally “look to the last reasoned state court
decision to address the claim” on the merits. White v. Ryan,
895 F.3d 641, 665 (9th Cir. 2018) (citing Wilson v. Sellers,
138 S. Ct. 1188, 1192 (2018)). If there is no reasoned statecourt decision, we must “determine what arguments or
theories . . . could have supported[] the state court’s
decision.” Richter, 562 U.S. at 102.
Finally, even if a habeas petitioner satisfies one of the
§ 2254(d) prongs for relief, he must show that the claimed
trial error “resulted in ‘actual prejudice.’” Davis v. Ayala,
135 S. Ct. 2187, 2197 (2015) (quoting Brecht v. Abrahamson,
507 U.S. 619, 637 (1993)). “Under this test, relief is proper

Petitioner's App. 2 - 18

(17 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 17 of 69

CARTER V. DAVIS

17

only if the federal court has grave doubt about whether a trial
error of federal law had substantial and injurious effect or
influence in determining the jury’s verdict.” Id. at 2197 98
(internal quotation marks omitted).
III. CERTIFIED CLAIMS
We begin with the claims certified by the district courts.
For three of the four claims, the “clearly established Federal
law,” 28 U.S.C. § 2254(d)(1), is the Supreme Court’s
decision in Strickland v. Washington, 466 U.S. 668 (1984),
which held that the Sixth Amendment guarantees a criminal
defendant the “right to the effective assistance of counsel” at
both the guilt and penalty phases of a capital trial. Id. at
685 87. Under Strickland, a defendant claiming denial of
effective assistance of counsel “bears the burden to meet two
standards.” Weaver v. Massachusetts, 137 S. Ct. 1899, 1910
(2017).
First, the defendant “must show deficient
performance that the attorney’s error was ‘so serious that
counsel was not functioning as the “counsel” guaranteed the
defendant by the Sixth Amendment.’”
Id. (quoting
Strickland, 466 U.S. at 687). Under Strickland, our inquiry
is highly deferential, and we “must apply a ‘strong
presumption’ that counsel’s representation was within the
‘wide range’ of reasonable professional assistance.” Richter,
562 U.S. at 104 (quoting Strickland, 466 U.S. at 689). “To
overcome that presumption, a defendant must show that
counsel failed to act ‘reasonably considering all the
circumstances.’” Cullen v. Pinholster, 563 U.S. 170, 189
(2011) (alteration omitted) (quoting Strickland, 466 U.S. at
688). The relevant inquiry is “whether an attorney’s
representation amounted to incompetence under ‘prevailing

Petitioner's App. 2 - 19

(18 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 18 of 69

18

CARTER V. DAVIS

professional norms,’ not whether it deviated from best
practices or most common custom.” Richter, 562 U.S. at 105
(quoting Strickland, 466 U.S. at 690). And given the
“temp[tation] for a defendant to second-guess counsel’s
assistance after conviction or adverse sentence,” the Supreme
Court has strongly cautioned us against drawing the
conclusion “that a particular act or omission of counsel was
unreasonable” just because it “proved unsuccessful.”
Strickland, 466 U.S. at 689.
Second, the defendant must “demonstrate prejudice ‘a
reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.’” Buck v. Davis, 137 S. Ct. 759, 776 (2017)
(quoting Strickland, 466 U.S. at 694). In the context of a
death sentence, “[t]he question is whether there is a
reasonable probability that, absent the errors, the sentencer
would have concluded that the balance of aggravating and
mitigating circumstances did not warrant death.” Pinholster,
563 U.S. at 198 (alteration omitted) (quoting Strickland,
466 U.S. at 695).
“Surmounting Strickland’s high bar is never an easy
task,” and “[e]stablishing that a state court’s application of
Strickland was unreasonable under § 2254(d) is all the more
difficult.” Richter, 562 U.S. at 105 (citations omitted). Our
review under AEDPA is “doubly deferential,” as we must
“afford ‘both the state court and the defense attorney the
benefit of the doubt.’” Donald, 135 S. Ct. at 1376 (quoting
Burt v. Titlow, 571 U.S. 12, 15 (2013)).

Petitioner's App. 2 - 20

(19 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 19 of 69

CARTER V. DAVIS

19

A. Claims Certified by the Central District: Claims 1 and
5(D)(1), Carter’s Conflict with Counsel
The Central District issued a COA for two largely
overlapping claims, which it addressed together. The
certified claims effectively present two questions on appeal:
whether the California Supreme Court’s decisions that
(1) Carter was not denied his Sixth Amendment right to
counsel because of an “irreconcilable conflict” with his trial
counsel and (2) counsel’s performance in refusing to let
Carter testify was not deficient, and even if it was, Carter was
not prejudiced, were contrary to or an unreasonable
application of clearly established federal law. For the reasons
stated below, we hold that the California Supreme Court did
not violate clearly established federal law in denying Carter
relief.
1. Carter’s Attorneys and the Marsden Hearings
Ezekiel Perlo was initially appointed lead counsel and
represented Carter, along with Marcia Morrisey, for over two
years during 1986 1988. About a year prior to trial, in March
1988, the court appointed Rowan Klein to assist Carter in his
motion to substitute counsel, which under California law is
referred to as a Marsden motion. See People v. Marsden,
465 P.2d 44 (Cal. 1970). The trial court held a Marsden
hearing in which Klein notified the court that conflicts
between Perlo and Carter had “led to a total breakdown of the
attorney-client relationship” and that Carter wanted a new
attorney to be appointed in place of Perlo. The trial court was
troubled by this “easily made,” “blanket statement” that
would further delay a trial already “long overdue.” It
nevertheless agreed that the conflict between Perlo and Carter
did not give it “much choice” but to grant the motion. The

Petitioner's App. 2 - 21

(20 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 20 of 69

20

CARTER V. DAVIS

court appointed Howard Gillingham lead counsel a week
later, and he and Morrissey represented Carter throughout the
duration of the trial.
a. July 5 (First Marsden Hearing)
On July 5, 1989, just after the prosecution rested during
the guilt phase, Gillingham requested an ex parte hearing to
apprise the trial court of a disagreement between him and
Carter. Gillingham invoked Marsden in requesting the
hearing but did not say anything that would suggest Carter
had requested new counsel. Gillingham stated he wanted to
“spread something on the record regarding the defense
strategy and position.” He informed the court that it was his
and Morrissey’s “firm belief that [they] should rest” and not
put on a defense at the guilt stage. He noted that there were
a number of potential witnesses he could call but that they
made the “tactical decision not to call those witnesses.” He
did not mention Carter as one of those witnesses. Gillingham
acknowledged Carter emphatically disagreed with the
decision not to call any witnesses and that Carter wanted the
disagreement preserved in the record. Gillingham argued that
this was a situation where the appointed lawyers “should call
the shots.” The trial court agreed, noting “the record is clear”
and that “in these matters the decisions should be with the
counsel.” Carter did not speak during the hearing and
Gillingham subsequently testified that, based on his belief
that the “lawyer ought to do the talking,” he had instructed
Carter not to speak unless the court directly addressed him.
b. July 10 (Second Marsden Hearing)
Carter later testified that after the first Marsden hearing,
he complained to Gillingham for leaving out “a couple of

Petitioner's App. 2 - 22

(21 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 21 of 69

CARTER V. DAVIS

21

things,” including telling the court about his desire to testify,
and for not “ma[king] it as clear as [Carter] would have
liked.” Thus, on July 10, after both parties had rested but
prior to closing arguments, Gillingham requested another
hearing, which he noted “probably should be done in a sealed
basis again under People versus Marsden.” The hearing was
brief and Gillingham stated:
Your honor, one further thing, in all modesty,
I think I neglected to do it the other day, and,
that is, in addition, by not putting on the
witnesses, it also precluded the potential of
Mr. Carter testifying based on . . . what those
witnesses would have testified to and the
effect of their testimony.
The court responded: “You just wanted to add that?”
Gillingham said he had nothing further and the court ordered
the exchange sealed.
That same day, after closing arguments, the court held
another ex parte hearing, which did not appear to invoke
Marsden. It was also very brief and Gillingham added:
Your Honor, Mr. Carter asked me to spread
upon the record that he does not agree with
the closing argument that counsel made, that
he had asked me what it was, and that he was
not informed of the type of argument. And he
certainly does not feel that it was adequate,
and this just compounds the problem of the
lack of defense by the argument that counsel
made.

Petitioner's App. 2 - 23

(22 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 22 of 69

22

CARTER V. DAVIS

The court responded by noting the “record is clear” and again
sealed the record. Carter did not speak during either of these
exchanges.
c. July 17 (Third Marsden Hearing)
On July 17, while the jury was deliberating, Gillingham
again requested a hearing “under the ambit of Marsden.”
Gillingham informed the court:
Mr. Carter continues to express
disappointment . . . [with] the manner in
which to this point the case has been handled
by counsel. He specifically would ask me to,
as I understand it, ask you to appoint Mr.
Rowen Klein . . . [to] prepare and file a new
trial motion or some motion pre-penalty
phase. This is part of the reason for the
Marsden.
I will say that counsel opposes that
motion. . . . We have discussed Mr. Carter’s
now constitutional rights under the ultimately
famous case of Feretta. . . . He is not making
that request today.
The court denied the request as untimely and noted that while
Klein may ultimately be able to help Carter file a motion for
new trial, it was not the appropriate time to consider such a
motion.

Petitioner's App. 2 - 24

(23 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 23 of 69

CARTER V. DAVIS

23

d. September 5 (Fourth Marsden Hearing)
On September 5, after the jury returned a death verdict
but prior to sentencing, Gillingham once again requested an
ex parte hearing under Marsden. The following colloquy
took place:
Gillingham: Your Honor, as you know,
throughout the case there have been various
instances where Mr. Carter’s feelings,
opinions, et cetera, as to how the case was
being run surfaced. That has happened again,
and my own personal opinion, for what it’s
worth, is, it’s probably well taken. We asked
to be here under People versus Marsden, and
it’s my impression and belief that Mr. Carter
does not have confidence in the ability of
Miss Morrissey to proceed with his defense.
This is not a knee jerk reaction. We’ve
discussed it.
Court: So without your opinion on the merits
of his displeasure, you feel there are righteous
differences of opinion here?
Gillingham: Yes, I do, your honor.
Court: And possibly is. You would be unable
ethically or intellectually to pursue the types
of claims that Mr. Carter would be making on
a motion for new trial and other issues?
Gillingham: Absolutely, and I do feel
strongly about it, that assuming new counsel

Petitioner's App. 2 - 25

(24 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 24 of 69

24

CARTER V. DAVIS
were available, the most expeditious judicial
and most fair way to proceed, Miss Morrissey
and I should be relieved. That is Mr. Carter’s
request, which I understand it is.
...
Court: And Mr. Carter, is that your desire to
have Mr. Klein appointed to represent you in
this proceedings from now on?
Carter: Yes, it is.
Court:
And do you agree with Mr.
Gillingham’s statement that there is a
difference
Carter: Definitely.
Court: I don’t really see I have much choice
in this matter. At this point I don’t want to
pry, and I certainly respect the tremendous
amount, not only Mr. Gillingham and Miss
Morrissey’s legal abilities, but their ethical
standards as well, a[nd] if they feel that this is
the correct thing to do, I certainly would
agree.

The trial court then appointed Klein to represent Carter on his
motion for a new trial.

Petitioner's App. 2 - 26

(25 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 25 of 69

CARTER V. DAVIS

25

e. Hearing on Motion for a New Trial
Klein moved for a new trial based, in part, on the conflict
between Gillingham and Carter. The court held a hearing on
the motion and Gillingham was called to testify about his
representation. Gillingham testified that he and Morrissey
recognized it was a “potential death case” and that they had
made the “tentative decision” to try it as a penalty case. He
admitted that the cases pending in Oakland and San Diego
“had to be some factor” in that decision. As an example of
how this decision affected the trial strategy, Gillingham noted
that “the voir dire of the jurors was almost entirely death
focused.” Gillingham testified that Carter “wanted to put on
at all times a full-blown defense” and “contest [] guilt” which
included the “possibility” of Carter testifying. Gillingham
observed that Carter’s comments were at times “framed in the
negative,” such as: “Aren’t you going to do something?”;
“Where are the witnesses?”; and “What are you going to do?”
Gillingham further testified that in each of the hearings
discussed above he had always intended to accurately convey
Carter’s desires but that he likely did not do so very well.
Carter also testified during the hearing on the motion for
new trial. Carter said he told his attorneys he “wanted to
present a defense” and that he “was more concerned about the
guilt phase and that [he] felt it was necessary for [him] to
testify.” They did not settle on a defense strategy before trial
because Gillingham told him they could not fully plan their
strategy until they saw the prosecution’s case. He said the
first serious discussion with his counsel about the defense
case, including him testifying, was the day before the
prosecution rested. At that time, Gillingham told him that he
was not planning on putting on a defense, and if they were
not going to put on a defense, Carter would not testify. Carter

Petitioner's App. 2 - 27

(26 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 26 of 69

26

CARTER V. DAVIS

was “upset,” and told Gillingham that he “wanted to call
witnesses, put on a defense and testify.” Carter noted he had
discussed trial strategy with Gillingham “around” ten times
prior to trial.
One time after voicing his disagreement to Gillingham,
Carter stated that Gillingham responded by telling him, “[a]s
hard as it is sometimes a lawyer has to play god.” Carter
testified he was particularly upset that he would not be able
to testify as a result of Gillingham’s decision not to call
witnesses and that he had requested the Marsden hearings to
“indicate to the court that I was not happy with what
[Gillingham] was doing and I wanted to make sure it was
clear that it was over my objection that he was doing it.” On
cross-examination, Carter conceded that he had not thought
about how his decision to testify could affect the other
pending cases. And when asked whether Gillingham stated
Carter’s view “completely and accurately,” Carter responded,
“As far as I recall.”
Klein argued that as soon as the court learned Carter
wanted to testify, it was constitutionally obligated to seek a
waiver of Carter’s right to testify. The court orally denied the
motion for a new trial without expressing its reasoning.
f. California Supreme Court Proceedings
On direct appeal to the California Supreme Court, Carter
argued the trial court erred by failing to adequately inquire
into the conflict with his counsel and by failing to appoint
new counsel once the conflict was disclosed. Carter,
117 P.3d at 530. The California Supreme Court denied this
claim on its merits. Id. at 530 34. It rejected Carter’s claim

Petitioner's App. 2 - 28

(27 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 27 of 69

CARTER V. DAVIS

27

that his conflict with Gillingham denied Carter his right to
conflict-free, effective representation and held:
Here, the record supports the People’s
position that defendant, a person with a
sophisticated view of the criminal justice
system from the inside, complained
sufficiently during proceedings conducted in
the trial court so as to create a colorable
appellate issue, but not sufficiently to obligate
the trial court to relieve his counsel.
Id. at 532 33 (internal quotation marks omitted). The court
agreed with the prosecutor who argued the motion for a new
trial that “Mr. Carter was a defendant who wanted things his
way. . . . Mr. Gillingham did not do them his way for valid
legally sufficient reasons, and Mr. Gillingham indicated this
. . . displeasure of Mr. Carter, but in the end, Mr. Carter
acceded to Mr. Gillingham’s trial strategy.” Id. at 533 n.40
(second alteration in original).
The court also denied Carter’s claim that the trial court
failed to sufficiently inquire into the conflict, concluding:
[W]e are satisfied from the record before us
that in the course of conducting three
Marsden hearings, the trial court adequately
inquired as to the issues raised by the defense,
and that counsel fairly characterized the
nature of the conflict for the trial court. . . .
[D]efendant fails to persuade us that his
conflict with defense counsel over trial tactics
and strategy (including the decision whether

Petitioner's App. 2 - 29

(28 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 28 of 69

28

CARTER V. DAVIS
defendant should testify), the trial court’s
inquiries into that conflict, or the court’s
refusal to appoint new counsel prior to the
conclusion of the penalty phase, either
singularly or in the aggregate, deprived
defendant of his state or federal constitutional
rights.

Id. at 534.
2. Irreconcilable Conflict
In his federal habeas petition, Carter argued he was
denied his constitutional right to “conflict-free, effective
counsel” because of “an irreconcilable conflict with his courtappointed attorneys” and that the California Supreme Court’s
opinion to the contrary was an “unreasonable application” of
clearly established federal law and “based on an unreasonable
determination of the facts.”
The Sixth Amendment guarantees criminal defendants the
right to effective assistance of counsel at all critical stages of
the proceeding. Coleman v. Alabama, 399 U.S. 1, 7 (1970).
It ensures defendants “an effective advocate,” but does not
guarantee the defendant “will inexorably be represented by
the lawyer whom he prefers.” Wheat v. United States,
486 U.S. 153, 159 (1988).
We have stated that “to compel one charged with [a]
grievous crime to undergo a trial with the assistance of an
attorney with whom he has become embroiled in
irreconcilable conflict is to deprive him of the effective
assistance of any counsel whatsoever.” Brown v. Craven,
424 F.2d 1166, 1170 (9th Cir. 1970); see Stenson v. Lambert,

Petitioner's App. 2 - 30

(29 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 29 of 69

CARTER V. DAVIS

29

504 F.3d 873, 886 (9th Cir. 2007). Concluding that such
conflicts are tantamount to a denial of counsel altogether, we
have held a defendant “need not show prejudice” as would
ordinarily be required under a claim of ineffective assistance
of counsel. United States v. Moore, 159 F.3d 1154, 1158 (9th
Cir. 1998); see also id. (“[I]f the relationship between lawyer
and client completely collapses, the refusal to substitute new
counsel violates [defendant’s] Sixth Amendment right to
effective assistance of counsel.”). Carter argues that if he can
establish an “irreconcilable conflict” existed between him and
Gillingham under the three-step inquiry we set forth in
Moore, he need not demonstrate the conflict prejudiced his
defense. See 159 F.3d at 1158 59.5
Even under our circuit’s precedent, the conclusion that an
irreconcilable conflict did not exist based on the disagreement
between Carter and Gillingham was reasonable. Carter,
117 P.3d at 533. “[O]nly where there is a complete
breakdown in communication,” have we recognized an
irreconcilable conflict claim. Stenson, 504 F.3d at 886. At
the hearing on the motion for a new trial, both Carter and
Gillingham testified that they spoke many times before and
throughout the trial about tactical decisions. The evidence
simply does not demonstrate “a total lack of communication”
between Carter and Gillingam. Schell v. Witek, 218 F.3d
1017, 1026 (9th Cir. 2000). Moreover, “[d]isagreements over
strategical or tactical decision do not rise to level [sic] of a

5

We fashioned a three-part test in Moore to determine whether a
conflict rises to the level of “irreconcilable.” See Moore, 159 F.3d at
1158–59. Specifically, we consider “(1) the extent of the conflict; (2) the
adequacy of the inquiry [by the trial court]; and (3) the timeliness of the
motion [for substitution of counsel].” Id.

Petitioner's App. 2 - 31

(30 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 30 of 69

30

CARTER V. DAVIS

complete breakdown in communication.” Stenson, 504 F.3d
at 886 (citing Schell, 218 F.3d at 1026).
Even if Carter were successfully able to demonstrate a
complete breakdown in communication or prove that an
irreconcilable conflict existed under the Moore factors,
Carter’s irreconcilable-conflict claim would still fail. This is
because the Supreme Court has never endorsed this line of
precedent from our court. It has never held that an
irreconcilable conflict with one’s attorney constitutes a per se
denial of the right to effective counsel. This proves fatal to
Carter’s claim because AEDPA conditions habeas relief on a
determination that the state-court decision unreasonably
applied “clearly established Federal law” as pronounced by
the U.S. Supreme Court. 28 U.S.C. § 2254(d)(1); Williams,
529 U.S. at 365. Although we may look to our circuit’s
precedent to see if we have already held a rule is clearly
established, our decisions may not “be used to refine or
sharpen a general principle of Supreme Court jurisprudence
into a specific legal rule that [the] Court has not announced.”
Marshall v. Rodgers, 569 U.S. 58, 64 (2013) (per curiam);
see Parker, 567 U.S. at 49 (holding the Sixth Circuit erred in
applying its circuit’s “multistep test” that bore scant
resemblance to the general rules announced by the Supreme
Court). Carter does not cite to any Supreme Court case
holding that an irreconcilable conflict between a lawyer and
his client constitutes a constructive denial of his right to
counsel, with no showing of prejudice required. Nor has he
pointed to Supreme Court precedent that resembles our test
in Moore.

Petitioner's App. 2 - 32

(31 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 31 of 69

CARTER V. DAVIS

31

The Supreme Court cases Carter cites are inapposite, as
they all deal with conflicts of interest between other clients
the counsel represented. See Wheat, 486 U.S. at 163 64
(holding in multiple-representation cases, a district court must
help protect criminal defendants against counsel’s conflict of
interest); Wood v. Georgia, 450 U.S. 261, 271 72 (1981)
(discussing potential conflicts arising from counsel hired by
defendants’ employer); Holloway v. Arkansas, 435 U.S. 475,
482 (1978) (holding joint representation of codefendants is
not per se unconstitutional). The type of conflict Carter has
alleged, however, is one over defense strategy. The term
“conflict” can refer to different forms of conflict, and care
must be taken not to mix them up. We have expressly
declined to extend the conflict-of-interest analysis in Wheat,
Wood, and Holloway to the type of conflict Carter alleges.
We rejected arguments similar to Carter’s in another capital
habeas case:
[Petitioner’s] disagreement with [his counsel]
is better characterized as one over trial
strategy . . . . We can find no clearly
established Supreme Court precedent holding
that this kind of disagreement amounts to an
actual conflict of interest. The Washington
Supreme Court correctly determined that no
clearly established federal law supports
[Petitioner’s] construction of “conflict of
interest” as describing a disagreement
between attorney and client over trial strategy.

Petitioner's App. 2 - 33

(32 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 32 of 69

32

CARTER V. DAVIS

Stenson, 504 F.3d at 886.6 We are “not aware” of any
Supreme Court case suggesting the Sixth Amendment is
violated because the defendant “dislike[s] or distrust[s]” his
counsel. Plumlee v. Masto, 512 F.3d 1204, 1211 (9th Cir.
2008); see also Larson v. Palmateer, 515 F.3d 1057, 1067
(9th Cir. 2008).
Carter similarly fails to cite to any Supreme Court
precedent establishing that a trial court’s failure to inquire
into the nature of the attorney-client relationship is a per se
violation of a defendant’s Sixth Amendment rights. Carter
admits that the Supreme Court cases he relies on “do not
explicitly hold that a trial court must ask the defense attorney
and defendant about a conflict” but contends that the
“requirement is implicit in the holdings.” AEDPA requires
more than pointing to implicit holdings or dicta; it requires
that the law be clearly established. Williams, 529 U.S. at 412.
In arguing the California Supreme Court’s opinion
contains an unreasonable determination of the facts, Carter
mischaracterizes the opinion as holding there was no conflict
between Carter and Gillingham. The court, however,
recognized the conflict and accurately described it as

6

Admittedly, we relied on our own precedent in Stenson, as Carter
urges this panel to do, but that decision was rendered before the Supreme
Court’s more recent admonitions against relying on circuit precedent.
That opinion involved a habeas petition in a capital case where the court
held that an “irreconcilable conflict” with counsel was a constructive
denial of the Sixth Amendment right to effective counsel. Significantly,
our opinion in that case did not hold that the right to “conflict-free”
counsel, as Carter uses that term, was clearly established by any Supreme
Court case law. Rather, it simply analyzed the claim under the Moore test
without citing any similar Supreme Court case. See Stenson, 504 F.3d
at 886–88.

Petitioner's App. 2 - 34

(33 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 33 of 69

CARTER V. DAVIS

33

“dissatisfaction with counsel’s trial strategy and tactics.”
Carter, 117 P.3d at 534.
In sum, Carter’s attempt to avoid the Supreme Court’s
established framework for ineffective-assistance-of-counsel
claims by looking to this circuit’s articulation of the right to
effective counsel is unavailing and we review Carter’s claim
under Strickland, which is the clearly established federal law
for claims alleging ineffective assistance of counsel, as
determined by the Supreme Court. See Ayala v. Chappell,
829 F.3d 1081, 1096 (9th Cir. 2016).
3. Ineffective Assistance of Counsel by Refusing to Let
Carter Testify
a. Prior Rulings
As described above, during the first Marsden hearing,
Gillingham told the court he and Morrissey “firm[ly]
belie[ved] that [they] should rest” and not put on a defense at
the guilt stage. He explained they made the “tactical decision
not to call [potential] witnesses,” despite Carter’s
disagreement. The trial court agreed with Gillingham that “in
these matters the decisions should be with the counsel.”
During the second Marsden hearing, Gillingham clarified that
“by not putting on the witnesses, it also precluded the
potential of Mr. Carter testifying.”
The California Supreme Court determined that Carter
“had ample opportunity during the course of [these] Marsden
hearings to inform the court that he wished to testify, against
the advice and over the objection of defense counsel, even if
defense counsel were permitted to decline to present any
other defense witnesses who would support defendant’s own

Petitioner's App. 2 - 35

(34 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 34 of 69

34

CARTER V. DAVIS

testimony,” but he did not. Carter, 117 P.3d at 533 (emphasis
in original). The court reasoned that since Gillingham
repeatedly informed the court of conflicts that arose with
Carter, it could assume that if Carter “told his counsel that
[he] insisted upon testifying despite the absence of any other
defense witnesses, his counsel would have conveyed that
demand to the trial court.” Id. Since there was no such
evidence, the court concluded that “on this record we may not
assume that defendant in fact had insisted upon testifying
even where no other defense witnesses would be presented to
support his testimony.” Id. at 533 34. “[I]n the end,” the
court found, “Mr. Carter acceded to Mr. Gillingham’s trial
strategy.” Id. at 533 n.40.
The district court agreed that Carter never insisted on
testifying even if no other defense witnesses would be
presented. It found that: the California Supreme Court’s
determination that Carter “acceded through his conduct to
Gillingham’s trial strategy, as a factual matter, was not
unreasonable” in light of the facts that “[a] defendant is
‘presumed to assent to his attorney’s tactical decision not to
have him testify,’” United States v. Pino-Noriega, 189 F.3d
1089, 1094 (9th Cir. 1999) (quoting United States v. Joelson,
7 F.3d 174, 177 (9th Cir. 1993)); Carter’s and Gillingham’s
testimony that Carter wanted to put on a full-blown defense
and testify after the presentation of defense witnesses was
consistent; and Carter failed to move for new counsel when
Gillingham intended to rest.
b. Performance
Carter argues that it was deficient performance not to
allow him to testify because (1) doing so against Carter’s
wishes conflicted with an objective standard of

Petitioner's App. 2 - 36

(35 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 35 of 69

CARTER V. DAVIS

35

reasonableness under prevailing professional norms, and
(2) Gillingham did not have an informed basis for making the
decision, as he did not go over “in detail” what Carter’s
testimony might be. We conclude the California Supreme
Court reasonably determined that counsel did not perform
deficiently. See Carter, 117 P.3d at 526.
As to professional norms, Carter argues that at the time of
trial, the Supreme Court had established that a criminal
defendant has a fundamental constitutional right to testify in
his own defense, citing Rock v. Arkansas, 483 U.S. 44, 49, 51,
53 (1987). But the California Supreme Court did not
conclude that Carter lacked a right to testify in his own
defense if he had asserted that right. Indeed, it expressly
acknowledged that “[a]lthough tactical decisions at trial are
generally counsel’s responsibility, the decision whether to
testify, a question of fundamental importance, is made by the
defendant after consultation with counsel.” Carter, 117 P.3d
at 533. Rather, the court concluded that although Carter
repeatedly told counsel that he preferred to call witnesses
(including himself) and present a defense case, he never
insisted that he wanted to testify even if counsel made the
tactical choice not to call witnesses “in the end, Mr. Carter
acceded to Mr. Gillingham’s trial strategy.” Id. at 533 &
n.40. This was not an unreasonable determination of fact.
Carter argues that it was, in part, because he was unable
to speak during the Marsden hearings because Gillingham
told him not to. He also complains that the court did not ask
him about whether he wanted his attorneys to present a
defense or to testify. However, the transcripts reveal that
Carter at least felt comfortable talking to Gillingham during
these hearings to urge him to add things to his presentations
at these hearings. When the court asked Gillingham at the

Petitioner's App. 2 - 37

(36 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 36 of 69

36

CARTER V. DAVIS

first Marsden hearing whether there was anything further,
Gillingham initially replied there was not, but then said
“[w]hoops, just a moment” while Carter told him about other
possible witnesses, which Gillingham immediately relayed to
the court.
Moreover, Carter’s own descriptions of what he told
Gillingham included both his desire to present a defense by
calling other witnesses and his desire to testify himself: he
“wanted to call witnesses, put on a defense and testify;” he
“wanted them to subpoena the witnesses [he] wanted to call,
and . . . to put on a defense; and [he] wanted to testify,” he
was “unhappy” because he “wanted to present a defense and
[he] wanted to testify.” Similarly, Carter stated he was
dissatisfied with Gillingham’s presentation to the court in the
first Marsden hearing because he thought Gillingham “left
out a couple of things” by not “mention[ing] all the witnesses
that [Carter] wanted to call, and he also didn’t tell the court
that [Carter] wanted to testify on [his] own behalf.”
Additionally, Carter conceded that as far as he could recall,
Gillingham accurately conveyed his objections. This lends
further support to the California Supreme Court’s finding that
“Mr. Carter acceded to Mr. Gillingham’s trial strategy.” Id.
at 533 n.40. And Carter points to no Supreme Court case
establishing that a client has a right to testify under these
circumstances.
Carter’s argument that counsel did not have an informed
basis for making the decision not to present a defense because
he did not go over “in detail” what Carter’s testimony might
be also fails. The California Supreme Court could reasonably
have determined that counsel’s decision to focus on the
penalty phase in the hope that the jury would spare Carter’s
life was a reasonable tactical decision, made after discussions

Petitioner's App. 2 - 38

(37 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 37 of 69

CARTER V. DAVIS

37

with Carter about what he would say if he testified. Such a
decision is not altogether uncommon in capital trials,
especially where the attorney believes the defendant’s guilt is
clear, the evidence overwhelming, and the crime heinous.
Florida v. Nixon, 543 U.S. 175, 190 91 (2004). Counsel
explained to Carter that their decision not to present a
defense, including to not have Carter testify, was this sort of
“tactical decision.”
c. Prejudice
Even if counsel performed deficiently by refusing to let
Carter testify, the California Supreme Court’s determination
that Carter cannot show prejudice was not an unreasonable
application of law. See Carter, 117 P.3d at 526. Carter
argues that there is a reasonable probability the result would
have been different if he had testified because (1) he would
have explained the strongest evidence against him, and (2) he
would have created a reasonable doubt that he had the
required level of intent for first-degree murder. We disagree.
Carter never describes what explanation he would have
given for driving a car belonging to one of the victims at the
time he was arrested or for having the belongings of several
of the victims in the car. Carter admits that his possession of
those belongings was “[p]erhaps the strongest evidence
against” him, without indicating how he might have
explained that away. Nor does he explain how he would have
undercut the physical evidence connecting Carter to the crime
scenes the palm print and semen. We cannot conceive of an
explanation which would have created a reasonable
probability that he would not have been found guilty.
Strickland, 466 U.S. at 694.

Petitioner's App. 2 - 39

(38 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 38 of 69

38

CARTER V. DAVIS

Carter also contends he would have testified that he
“effectively ‘blacked out’ during each of the crimes,” and
thus “been able to successfully assert a ‘diminished actuality’
defense.” But such testimony would necessarily have
admitted guilt and thus undercut any innocent explanation for
having the victims’ belongings in his car.
Moreover, even if Carter testified, there is no reasonable
probability one sufficient to undermine confidence in the
outcome, Strickland, 466 U.S. at 694 that the jury would
have found him not guilty. To begin, the jury heard this type
of evidence and still convicted him. For example, the jury
heard that Carter told a store employee while he was with
Tok Kim, “I don’t even know what I’m doing here, I don’t
even know her.” Carter, 117 P.3d at 486.
Similarly, there was so much evidence that Carter
possessed sufficient mental capacity and intent to commit the
crimes that it was highly unlikely that the jury would have
been persuaded otherwise by his testimony. For example,
Carter asked Cullins and Tiner if they lived alone or with a
roommate. Carter told Tiner he instructed Cullins not to tell
Tiner that he was in town. He arrived at Tiner’s house
despite Tiner’s testimony that she had never given him her
address. Carter withdrew $60 from Cullins’ bank account,
leaving a nearly $0 balance. Carter’s numerous crimes were
performed throughout northern, central, and southern
California over twenty-three days, and he made it to Arizona
before he was arrested. The California Supreme Court could
reasonably have concluded that even if Carter had testified he
blacked out during each crime, there is no reasonable
probability the jury would have acquitted him.

Petitioner's App. 2 - 40

(39 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 39 of 69

CARTER V. DAVIS

39

Carter concedes “the prosecution’s case was strong” on
this point. To show the result may have been different, he
points to a juror declaration that the jury vote was mixed for
guilty and not guilty when deliberations started. He also
highlights how the jury took nearly five days to reach a guilty
verdict.
Although the length of deliberation can be an objective
sign that the jury struggled with the verdict, all of the cases
Carter cites to this effect are distinguishable. They all
involve cases where the length of deliberation was
disproportionate to the length of the trial, or cases where there
was only one charge for the jury to deliberate. See Thomas v.
Chappell, 678 F.3d 1086, 1103 (9th Cir. 2012) (“The jury
deliberated for almost five full days, even though it heard
argument and evidence for only about six days.”); Daniels v.
Woodford, 428 F.3d 1181, 1193 (9th Cir. 2005) (“After two
days of deliberations, the jury returned a verdict imposing
death [based on one murder].”); Dyas v. Poole, 317 F.3d 934,
936 (9th Cir. 2003) (per curiam) (“[T]he jury took 3-1/2 days
to deliberate following Dyas’s 5-day trial [on only one
murder and robbery].”). Here, on the other hand, the trial
lasted multiple weeks but the jury deliberated only between
3 1/2 and 4 days, and had over a dozen issues to decide,
including three murders, two rapes, two residential burglaries,
and concurrent findings (including whether the murders were
in the course of rape and burglary). The length of
deliberation here is not so persuasive a sign that the jury
struggled with the verdict, and the California Supreme Court
could reasonably have concluded that it did not create a
reasonable probability that the result would have been
different had Carter testified.

Petitioner's App. 2 - 41

(40 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 40 of 69

40

CARTER V. DAVIS

B. Claims Certified by the Southern District
The Southern District issued a COA for two separate
claims. We discuss each in turn and conclude that Carter was
not deprived of constitutionally adequate representation.
1. Certified Claim 1 (Claim 3 of Second Amended
Petition): Ineffective Assistance of Counsel at
Penalty Phase
In the first claim certified for our review, Carter alleged
that his trial counsel “failed to provide reasonably competent
assistance at the penalty phase of his trial,” and if not for
counsel’s “unprofessional actions and omissions,” the
sentence imposed would have been different. Carter raised
five specific arguments about his counsel’s performance:
(1) they “failed to adequately investigate mitigating and
aggravating evidence”; (2) they employed the same penalty
phase strategy that had been used in the Los Angeles trial, a
strategy that had resulted in a death verdict; (3) they were
“ineffective in developing and presenting Carter’s
background to the jury”; (4) they failed to develop evidence
of Carter’s mental impairments; and (5) they were “deficient
in penalty phase closing arguments.” The district court
rejected each of these arguments.
On appeal, Carter asks us to find constitutional deficiency
in the San Diego counsel’s strategy of focusing on the
positive aspects of his career and family life as an adult,
rather than giving greater emphasis to his traumatic childhood
and mental illness. He attributes counsel’s decision to pursue
this strategy despite having seen it fail during his Los
Angeles trial to their failure to conduct a satisfactory
investigation of his childhood in Nome. Had counsel’s

Petitioner's App. 2 - 42

(41 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 41 of 69

CARTER V. DAVIS

41

investigation been sufficient, he alleges, they would have
instead called additional witnesses who knew of his
childhood in Nome, and would have elicited more testimony
from the twenty-one witnesses whom they did call about
particular forms of abuse Carter had suffered, including that
his parents chained him up at home and locked him in a
makeshift jail cell. Additionally, Carter charges that counsel
did not fully investigate the extent of his mother’s alcohol
consumption during his gestation and alleges that a sufficient
investigation would have compelled counsel to present
evidence that Carter suffered from fetal alcohol syndrome
(FAS).
a. Prior Rulings
Carter did not allege ineffective assistance of counsel
during the penalty phase of trial on direct appeal to the
California Supreme Court. He raised this claim for the first
time in his state habeas petitions, which the California
Supreme Court summarily denied. The state does not argue
that this claim was procedurally defaulted, and we treat the
state court’s decision as a denial of relief on the merits.
Richter, 562 U.S. at 99. Because there was no reasoned
explanation accompanying this decision, Carter must show
there was “no reasonable basis for the state court to deny
relief.” Id. at 98. Our task is to determine what arguments or
theories could have supported the California Supreme Court’s
decision, and whether it is possible that fairminded jurists
could disagree that those arguments or theories are
inconsistent with a prior holding of the U.S. Supreme Court.
Id. at 102. We conclude that Carter has failed to demonstrate
that the California Supreme Court lacked a reasonable basis
for denying relief.

Petitioner's App. 2 - 43

(42 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 42 of 69

42

CARTER V. DAVIS
b. Performance in Investigating Carter’s Background

Carter’s first argument is that counsel performed
deficiently in their investigation of his background in Nome.
Under Strickland, “counsel has a duty to make reasonable
investigations or to make a reasonable decision that makes
particular investigations unnecessary” during the penalty
phase of a trial. Strickland, 466 U.S. at 691 (emphasis
added); see Wiggins v. Smith, 539 U.S. 510, 526 28 (2003).
“In any ineffectiveness case, a particular decision not to
investigate must be directly assessed for reasonableness in all
the circumstances, applying a heavy measure of deference to
counsel’s judgments.” Strickland, 466 U.S. at 691.
Five years before trial, the state appointed Charles Ted
Bumer to serve as Carter’s lead trial counsel and Josephine
Dedina to serve as co-counsel. Bumer and Dedina were
assisted by paralegal Kathleen Gilberd and private
investigators Marion Pasas and Chuck Hile. The trial team
traveled to Alaska to gather evidence, and Pasas visited
Carter’s hometown of Nome to interview residents who had
known the Carter family during his childhood.
Based on Pasas’s investigation, during the penalty phase
the defense team called six witnesses, out of a total of twentyone, who knew Carter as a child in Nome. Each of the six
witnesses testified about the relationship between Carter and
his parents, and several also gave general testimony about the
conditions Native Alaskans in Nome faced.
Carter’s brother Jerry Carter (Jerry) testified that their
mother Esther and stepfather Jim drank heavily, argued, and
were often physically violent with one another. He also
testified that Esther corporally punished the children with

Petitioner's App. 2 - 44

(43 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 43 of 69

CARTER V. DAVIS

43

branches, a belt, and a razor strap, and that Carter ran away,
often for several days at a time. Jerry further testified to two
instances of abuse from Carter’s childhood: an incident
where a five- or six-year-old Carter was dragged by the
bumper of Esther’s car while attempting to prevent her from
going to a bar, and an incident where Jim and Esther chained
Carter to his bed for a day or two to prevent him from
running away. Jerry stated that sometime after these
incidents, Jim and Esther sent Carter away to a home for
unwanted children.
Carter’s sister Polly Reaser (Polly) testified that Jim and
Esther often drank in bars until 4:00 in the morning and were
violent with one another, and that Carter would have
witnessed these incidents of drunken violence.
Local elder Bertha Adsuna had lived in Nome for over
fifty years at the time of trial. She testified that alcohol was
a societal problem in the town, that Esther frequented the
bars, that Carter spent much of his childhood alone, and that
Esther dressed and treated Carter worse than she did Jerry.
After Esther married Jim, Adsuna observed that the couple
often went to bars together.
Harriet Brown served from 1947 to 1967 as a missionary
pastor at a Nome church attended mostly by Alaska Natives
and was Carter’s childhood Sunday-school teacher for two to
three years. She testified that the largest problem among the
Native population was alcoholism. She also frequently saw
child neglect in the community. Brown further testified that
Jerry and Polly were always dressed well as children, but that
Carter was not, and that Esther did not treat him nicely.

Petitioner's App. 2 - 45

(44 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 44 of 69

44

CARTER V. DAVIS

Beth Farley was a childhood classmate of Carter’s. She
testified that he was often alone, ignored by his family, and
spent more time with the Farley family than his own. She
also testified that she left Nome because of pervasive alcohol
abuse, stating that even the children drank and many died of
either exposure or suicide. Farley testified that her son was
part Alaska Native and that she had witnessed and
experienced prejudice against people of mixed race in Nome.
Ruth Butts was also a childhood classmate of Carter’s.
She testified that an incident had led many people to search
for Carter as a child and that it was common knowledge that
Jim was not the biological father of either of his stepsons,
which led children to tease Carter and Jerry. She also
testified to seeing Jim drunk in bars after church on Sundays.
Carter argues that this testimony was insufficiently
compelling to the jury because his counsel had failed to
further investigate his abusive childhood. A more complete
investigation, he alleges, would have prompted counsel to call
additional witnesses to the stand who could have testified to
more specific instances of abuse.
Carter first points to counsel’s failure to secure the
testimony of his mother Esther. Pasas interviewed Esther in
Nome, but Esther cut the interview short after Pasas asked a
question about her alcohol consumption. After this aborted
interview, Esther refused to provide any further assistance to
her son’s trial defense. However, in support of Carter’s
habeas petition, Esther submitted a sworn declaration stating
that had she been “approached differently,” she would have
“talked to [counsel] and answered all of their questions” and
“probably would have testified.” Esther declared that her
testimony would have included recollection of Jim using a

Petitioner's App. 2 - 46

(45 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 45 of 69

CARTER V. DAVIS

45

belt to discipline Carter, Jim chaining Carter to his bed, and
she and Jim drinking heavily.
Carter also submitted several other declarations from
Nome residents who were not called as defense witnesses
during the penalty phase and who largely allege that they
were not contacted or interviewed at the time of trial. As the
district court noted, these declarations “largely outline, in
greater detail than presented at trial, the mistreatment [Carter]
suffered . . . at the hands of his mother and step-father and the
alcoholism of his parents.”
Most notably, Carter submitted a declaration from Arthur
(“Guy”) Martin, a colleague of Jim’s on the Nome police
force. Martin declared that when responding to a call from
one of the Carter family’s neighbors reporting child abuse, he
had observed both Carter and Jerry chained to the floor of the
family home. He suspected that Jim and Esther frequently
chained the boys so that they could go out drinking. Martin
declared that he had confronted Jim about the incident but
that he had never reported it. Defense counsel had contacted
and attempted to interview Martin prior to trial, but Martin
had refused. Martin declared that he had declined to
participate in the defense only because Esther had asked him
not to speak to investigators or tell anyone about the abuse.
Additionally, Vaughn Johnson, a neighbor of the Carters,
declared that he once saw Carter handcuffed and chained to
the outside of his house, and that Carter had told Johnson that
Jim had chained him. Cheryl Stavish, a childhood friend of
Polly, declared that she recalled the same chaining incident,
and had also observed a hidden room in the Carter home that
resembled a jail cell, in which she “had a feeling” Carter was
held.

Petitioner's App. 2 - 47

(46 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 46 of 69

46

CARTER V. DAVIS

Carter attributes Esther’s refusal to testify to counsel’s
inadequate preparation of Pasas, and argues that a competent
penalty defense would have featured his mother as the central
witness. And had counsel not alienated Esther, Carter argues,
Martin would have been willing to testify about the chaining
incident he observed. He further argues that counsel was
constitutionally deficient in failing to call both Johnson and
Stavish, who would have corroborated each other’s separate
accounts of an incident of Carter being chained. Together, he
argues, these witnesses could have established that Jim and
Esther treated Carter more like a dog than a child.
The state argues that the testimony of Martin, Johnson,
and Stavish would have been cumulative to that of Jerry, who
testified that Carter had been chained to his bed for a day or
two to prevent him from running away. We agree that much
of their testimony would have been cumulative. But we
disagree that their testimony would have been so entirely
cumulative that it would certainly have been excluded as
irrelevant. These three uncalled witnesses may reasonably
have provided credible firsthand accounts of two additional
instances in which Carter’s parents chained him, supporting
the inference that this was less an aberration than a routine
practice. Had counsel’s strategy been to present the young
Carter as a metaphorical feral dog kenneled by his alcoholic
parents, the eyewitness testimony of Martin, Johnson, and
Stavish would have been relevant.
But that was never counsel’s strategy. Rather than
portray him as a feral child a strategy which may have
backfired by leading the jury to infer that the adult Carter was
beyond rehabilitation counsel’s choice of witnesses during
the penalty phase suggests that their intended narrative was
one of Carter overcoming an abusive childhood home to find

Petitioner's App. 2 - 48

(47 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 47 of 69

CARTER V. DAVIS

47

personal and professional success before a divorce sent him
spiraling into a life of violence. Indeed, the majority of
witnesses counsel called gave testimony recounting how
Carter had successfully rehabilitated himself as a young adult,
allowing counsel to argue to the jury that Carter could again
be capable of growth and redemption. The fifteen penaltyphase witnesses who came to know Carter after he left Nome
included the house parent at the home for unwanted children
Carter’s parents sent him to, a youth counselor, a probation
officer, a prison educator, and eleven professionals from the
media industry who worked with Carter during his career as
a television cameraman.
We cannot pass judgment on counsel’s wisdom in
choosing this narrative strategy over the one Carter argues
they should have pursued. Rather, our duty is to determine
what arguments or theories could have supported the state
court’s decision to deny Carter’s claim that this strategic
decision amounted to constitutionally deficient assistance,
and whether fairminded jurists would disagree that those
arguments or theories are inconsistent with a prior holding of
the Supreme Court. Richter, 562 U.S. at 102.
The state court could have relied on Strickland’s “highly
deferential” standard. Id. at 105. We “must indulge a strong
presumption that counsel’s conduct [fell] within the wide
range of reasonable professional assistance” and presume that
“under the circumstances, the challenged action ‘might be
considered sound trial strategy.’” Strickland, 466 U.S. at 689
(citation omitted). “Strickland does not guarantee perfect
representation, only a ‘reasonably competent attorney.’”
Richter, 562 U.S. at 110 (citation omitted). “There is a
‘strong presumption’ that counsel’s attention to certain issues
to the exclusion of others reflects trial tactics rather than

Petitioner's App. 2 - 49

(48 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 48 of 69

48

CARTER V. DAVIS

‘sheer neglect.’” Id. at 109 (quoting Yarborough v. Gentry,
540 U.S. 1, 8 (2003) (per curiam)). Here, the state court may
have reasonably determined that Carter’s trial counsel made
a legitimate tactical decision to present Carter’s childhood
trauma as they did rather than pursuing the child abuse angle
more aggressively. It would have been able to support this
determination with facts in the record: specifically, that
counsel hired a professional investigator five years before
trial began, that the investigator traveled to Carter’s
hometown and interviewed many people who knew him and
his parents, and that counsel procured the testimony of
twenty-one witnesses whose testimony formed a cohesive
narrative of abuse, perseverance, success, and unraveling.
Carter argues that this theory conflicts with the holdings
of two Supreme Court decisions, Williams and Wiggins, in
which the Court granted habeas relief upon finding that
counsel had been constitutionally deficient in its investigation
of the petitioner’s background. However, we are not
persuaded that fairminded jurists would find that the holding
of either case is in conflict with the Strickland analysis that
could support the state court’s denial of habeas relief.
In Williams, the Court granted relief where counsel failed
to conduct an investigation into the defendant’s “nightmarish
childhood” because they incorrectly interpreted Virginia law
to deny them access to records that were legally available to
them. 529 U.S. at 395. Had Williams’s counsel accessed all
available records,
the jury would have learned that Williams’
parents had been imprisoned for the criminal
neglect of Williams and his siblings, that
Williams had been severely and repeatedly

Petitioner's App. 2 - 50

(49 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 49 of 69

CARTER V. DAVIS

49

beaten by his father, that he had been
committed to the custody of the social
services bureau for two years during his
parents’ incarceration (including one stint in
an abusive foster home), and then, after his
parents were released from prison, had been
returned to his parents’ custody.
Id. (footnote omitted). Carter argues that the facts of his
childhood compare strongly to those of Williams.
We disagree. The holding of Williams is that counsel
renders constitutionally ineffective assistance if it fails to
investigate and pursue a reasonable defense because it
incompetently interpreted the law. Id. Here, Carter makes no
argument that his counsel misinterpreted Alaska law in a way
that caused them to bypass an investigation of available
records. More importantly, nothing in Williams tells us that
counsel is incompetent unless it pursues a defense based
entirely on the defendant’s neglect as a child. After an
extensive investigation of Carter’s background, counsel
implemented a sound defense strategy: to show that Carter
had suffered under abusive, negligent parents but had risen
above this poor upbringing. This contrasts with Williams,
where the “weight of defense counsel’s closing . . . was
devoted to explaining that it was difficult to find a reason
why the jury should spare Williams’ life.” Id. at 369. Thus,
Williams does not provide any relevant point of “clearly
established Federal law,” 28 U.S.C. § 2254(d), on which a
fairminded jurist could find disagreement with the theories
supporting the California Supreme Court’s decision. Richter,
562 U.S. at 102.

Petitioner's App. 2 - 51

(50 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 50 of 69

50

CARTER V. DAVIS

In Wiggins, trial counsel conducted no investigation into
the defendant’s background beyond reviewing a Presentence
Investigation Report and social services records. 539 U.S. at
523. Counsel did not take advantage of public defense funds
for commissioning a forensic social worker, which the record
indicated was standard practice in the Maryland legal
community at the time of the trial. Id. at 524. Further,
counsel did not follow up on any of the red flags apparent in
Wiggins’s social services records, including his mother’s
history of alcoholism and child neglect. Id. at 525. Again,
Carter analogizes his case to the underlying facts of Wiggins.
However, the Sixth Amendment violations that the Court
clearly identified in Wiggins were counsel’s failure to take
advantage of funds to commission a social worker and their
failure to take any action upon discovering red flags
indicating that Wiggins may have experienced child abuse.
Carter does not plausibly allege that counsel failed to follow
up on reports that Carter was abused as a child. In fact,
counsel traveled to Alaska, hired a professional investigator
to interview his relatives and neighbors, and put six of them
on the witness stand to testify about his abusive childhood,
his parents’ alcoholism, and the conditions of discrimination
he faced as an Alaska Native. Carter’s counsel, unlike
Wiggins’s counsel, thus competently followed up on their
investigation into Carter’s social history. Wiggins, like
Williams, provides no support for Carter’s habeas claim.
Likewise, Carter cites no relevant support for his
argument that counsel performed deficiently by failing to
procure the testimony of Esther or Martin. We are aware of
no Supreme Court case requiring counsel to secure the
cooperation of reluctant witnesses. And for good reason. A
witness asked to testify in support of a friend or family
member convicted of capital murder faces an intensely

Petitioner's App. 2 - 52

(51 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 51 of 69

CARTER V. DAVIS

51

difficult, personal decision that belongs to the witness alone,
and counsel’s duty cannot reasonably be extended to compel
a witness to participate in the defense. Carter’s counsel had
a duty to “make reasonable investigations,” Strickland,
466 U.S. at 691, which the state court could have found that
counsel satisfied by interviewing Esther and attempting to
interview Martin.
Carter also argues that counsel’s choice of strategy was
constitutionally deficient because his Los Angeles County
trial counsel had employed a similar narrative, without
success, during the penalty phase of those proceedings. That
begs the questions of whether there was another approach that
was clearly more likely to have produced a better outcome.
Counsel in this case was dealt a difficult hand. We have not
been persuaded that there was an alterative argument so
attractive that the failure of counsel to take that other path
amounted to ineffective assistance.
Moreover, the state court’s rejection of this argument
could reasonably be supported by Strickland. There, the
Court held that courts should not conclude that a “particular
act or omission of counsel was unreasonable” merely because
it “proved unsuccessful.” Id. at 689. Rather, it must presume
that counsel’s decision fell “within the wide range of
reasonable professional assistance.” Id. In this light, because
we presume both the Los Angeles and San Diego attorneys
were professionally competent, the fact that both teams
decided to pursue the same strategy after considering all the
evidence they had available to them only supports the state
court’s position that neither defense team was unreasonable
in its choice. Because Carter cites no Supreme Court holding
that fairminded jurists could disagree was consistent with this
plausible theory, this argument also fails.

Petitioner's App. 2 - 53

(52 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 52 of 69

52

CARTER V. DAVIS
c. Performance in Investigating Carter’s Mental
Health

Carter argues that counsel failed to conduct an adequate
investigation into his mental health, including the possibility
that he suffered from FAS. But as we have explained,
“counsel’s decision not to pursue a mental health defense is
a reasonable strategic decision under Strickland ” when
“adopting a mental health defense would open the door to
[unfavorable] rebuttal testimony.” Atwood v. Ryan, 870 F.3d
1033, 1063 (9th Cir. 2017).
Here, the record indicates that, at counsel’s request, a
Dr. Lottenberg performed a PET scan of Carter’s brain
approximately one week before the penalty phase of trial
began. Counsel consulted with several experts, who
recommended that the results be sent to Dr. Monte
Buchsbaum for analysis. The court held an in-chambers
teleconference with counsel and Dr. Buchsbaum, during
which Dr. Buchsbaum identified an unusually high number of
abnormalities in Carter’s brain. He then stated that he would
need additional information to render a more detailed and
substantive opinion about Carter. After this hearing, Carter’s
counsel spoke to Dr. Buchsbaum alone and off the record.
Counsel then informed the court that it had made a “tactical
decision” not to introduce evidence of Carter’s mental health
during the penalty phase. Judge Lasater noted on the record
her agreement with counsel’s decision because
Dr. Buchsbaum’s testimony would have opened the door to
rebuttal evidence of Carter’s mental health from the state.
The trial record contains several mental health reports
unfavorable to Carter that the state could have introduced
during the penalty phase if the door had been opened. A

Petitioner's App. 2 - 54

(53 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 53 of 69

CARTER V. DAVIS

53

1973 psychological evaluation found Carter to be a “fairly
classical sociopathic personality.” A probation report from
the same year noted that Carter’s personality gave him “little
chance at ever making acceptable social adjustment.” A 1975
psychiatrist’s evaluation found that, by Carter’s own
admission, “his irritability and destructively aggressive
conduct that emanates from it are willful, the result of
personal choice, and represent matters over which he could
exercise control if he chose to do so.” A 1977 psychological
evaluation found that Carter “tended to see things in a
concrete way with little insight.” A 1977 Alaska pre-sentence
report described Carter’s behavior as “best explained [by]
focusing on his immaturity and lack of consideration of
consequences.” And a 1978 evaluation found that Carter had
some indicia of psychiatric problems but did not need mental
health assistance at the time, and described his behavior as
“self-punitive in that he feels guilt for his misbehavior, but is
not deterred by the guilt.”
We agree with both the trial judge’s observation and the
district court’s conclusion that Carter’s counsel would have
opened the door to introduction of this potentially damaging
evidence by putting forth a mental health defense at trial.
Notably, the district court was careful to emphasize that “this
is not a case in which counsel failed to conduct any mental
health investigation.” Carter’s counsel ordered a PET scan of
Carter’s brain, conferred with an appropriate expert
recommended by multiple other experts in the field, and made
a tactical decision not to present mental health evidence at
trial. Strickland directs us to presume that the challenged
actions of counsel were “sound trial strategy,” 466 U.S.
at 689, a presumption that is here supported by the
aggravating mental health evidence that would have been
made relevant for rebuttal purposes by Dr. Buchsbaum’s

Petitioner's App. 2 - 55

(54 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 54 of 69

54

CARTER V. DAVIS

testimony.7 Thus, we may conclude that the state court
properly denied relief under Strickland’s deferential standard.
Carter also argues that counsel was deficient in failing to
investigate and present evidence that he suffered from FAS,
averring that competent attorneys would have pursued this
avenue after learning that Esther consumed alcohol while
pregnant. However, there is no evidence in the trial record
that would have put Carter’s counsel on notice that Esther
drank while pregnant. Carter cites counsel’s interviews with
Jerry and Adsuna, but these interviews only reference
Esther’s drinking in her later years, after she gave birth to her
children. Further, this argument fails for the tactical reasons
described above, as any argument by counsel that Carter’s
actions could be attributable to FAS would have opened the
door to the potentially damaging rebuttal evidence contained
in the record.
In sum, Carter has succeeded only in establishing that
counsel may have chosen to pursue other strategies during the
penalty phase of his trial. He has failed to establish that
counsel’s investigation was deficient. Rather, our review of
the state trial record shows that counsel acted with diligence
beginning five years before trial to investigate events that
took place thirty years prior in a remote town thousands of

7

Indeed, we granted habeas relief on an ineffective assistance
claim—albeit in a pre-AEDPA case—where trial defense counsel
presented an expert mental health witness whose testimony suggested that
the defendant “may be a sociopath.” Daniels v. Woodford, 428 F.3d 1181,
1210 (9th Cir. 2005). Here, even if Dr. Buchsbaum’s testimony had been
sympathetic to Carter, it may have directly led to the introduction of the
1973 psychological evaluation finding Carter to be a “fairly classic
sociopathic personality.” We have no basis for second-guessing counsel’s
tactical decision not to pursue this line of defense.

Petitioner's App. 2 - 56

(55 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 55 of 69

CARTER V. DAVIS

55

miles away, and counsel succeeded in contacting a significant
number of Carter’s relatives, friends, neighbors, co-workers,
and correctional counselors. Counsel elicited trial testimony
from twenty-one of these individuals which tended to show
that Carter had been severely abused as a child but had, as an
adult, shown the capacity to be rehabilitated and function as
a productive member of society. Counsel also conducted a
PET scan of Carter’s brain, but after conferring with a
recognized expert, decided that the sum of the mental health
evidence would be more aggravating than mitigating. On this
record, Carter has failed to establish that the California
Supreme Court was unreasonable in denying his ineffective
assistance of counsel claim.
2. Certified Claim 2 (Claim 4 of Second Amended
Petition): Denial of Psychiatric Expert Assistance at
Trial
In the second claim certified by the Southern District for
our review, Carter alleged that “he was deprived of the right
to competent assistance of a psychiatric expert,” that “counsel
had an obligation to properly prepare the experts” who
evaluated him, and that their failure to do so constituted
ineffective assistance. Carter raised this claim in his first
state habeas petition, which the California Supreme Court
summarily denied. We treat that decision as a denial on the
merits. Richter, 562 U.S. at 99. Because the decision was
not accompanied by a reasoned explanation, Carter has the
burden to show that “there was no reasonable basis for the
state court to deny relief.” Id. at 98. Again, our task is to
determine what arguments or theories could have supported
the California Supreme Court’s decision, and “whether it is
possible fairminded jurists could disagree that those
arguments or theories are inconsistent” with a prior holding

Petitioner's App. 2 - 57

(56 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 56 of 69

56

CARTER V. DAVIS

of the U.S. Supreme Court. Id. at 102. We conclude that no
such inconsistency exists here.
Carter bifurcated this claim into a charge that his
attorneys failed to render effective assistance in preparing
expert psychiatric witnesses, and a charge that his experts
themselves rendered ineffective assistance. The district court
construed the portion of the claim charging counsel as
ineffective as a mere repetition of the prior certified claim
regarding a FAS defense. We agree, and hold that Carter is
not entitled to relief for the reasons stated immediately above.
Carter argues that the state court’s denial of relief on his
claim that his expert witnesses were ineffective is in tension
with the Supreme Court’s holding in Ake v. Oklahoma,
470 U.S. 68 (1985). There, a state-supplied psychiatrist
repeatedly evaluated a mentally ill murder defendant before
trial, first deeming him not competent to stand trial but later
deeming him competent. Id. at 70 72. During trial, defense
counsel requested that the indigent defendant be provided
with a psychiatrist to examine him “with respect to his mental
condition at the time of the offense.” Id. at 72. The state trial
judge denied the request. Id. The Supreme Court granted
certiorari on direct appeal and held that “the participation of
a psychiatrist is important enough to preparation of a
defense” that the Due Process Clause of the Fourteenth
Amendment may require a state to provide an indigent
defendant with psychiatric assistance under certain
circumstances. Id. at 77.
At no point did the Court in Ake place any obligation on
defense counsel to present psychiatric evidence at trial.
Rather, that case’s holding is limited to imposing an
obligation on states to make a psychiatrist available to a

Petitioner's App. 2 - 58

(57 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 57 of 69

CARTER V. DAVIS

57

murder defendant upon the satisfaction of the balancing test.
An Ake claim is not a Sixth Amendment ineffective
assistance of counsel claim, but rather a Fourteenth
Amendment due process claim against the state. Id. at 76
(“This Court has long recognized that when a State brings its
judicial power to bear on an indigent defendant in a criminal
proceeding, it must take steps to assure that the defendant has
a fair opportunity to present his defense. This elementary
principle [is] grounded in significant part on the Fourteenth
Amendment’s due process guarantee of fundamental fairness
. . . .”).
We conclude that Carter has failed to establish that Ake or
any other Supreme Court decision would cause jurists of
reason to disagree with the reasonable arguments in support
of the state court’s decision. Carter conceded in his brief that
the Supreme Court has never interpreted Ake to guarantee a
due process right to effective expert assistance at trial.
Rather, the Court has never extended the state’s obligation
beyond providing a psychiatric expert to an indigent
defendant, and Carter does not dispute that he had access to
such an expert. Because we may rely only on the holdings of
the Supreme Court in evaluating whether the state court’s
decision was reasonable, Williams, 529 U.S. at 412, our
analysis ends here. We do not address Carter’s arguments
that rely on “circuit precedent,” which “cannot form the basis
for habeas relief under AEDPA.” Parker, 567 U.S. at 48 49.
IV. UNCERTIFIED CLAIMS
Carter also raised several arguments relating to claims
that the district courts did not certify in a COA. As a state
prisoner seeking relief under § 2254, Carter has “no
automatic right to appeal” the denial or dismissal of his

Petitioner's App. 2 - 59

(58 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 58 of 69

58

CARTER V. DAVIS

petition. Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
We lack jurisdiction to review a district court’s denial of a
habeas claim “aris[ing] out of process issued by a State court”
until and unless a federal court has issued a COA. 28 U.S.C.
§ 2253(c)(1)(A); Miller-El, 537 U.S. at 336. We accordingly
construe Carter’s arguments on these uncertified claims as a
motion to expand the COA. See 9th Cir. R. 22-1(e).
“A certificate of appealability may issue [in federal
habeas review of state proceedings] only if the applicant has
made a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2) (emphasis added); see Wilson
v. Belleque, 554 F.3d 816, 825 26 (9th Cir. 2009). This
statutory requirement “serves a gatekeeping function.”
Payton v. Davis, 906 F.3d 812, 818 (9th Cir. 2018). In
enacting § 2253, “Congress confirmed the necessity and the
requirement of differential treatment for those appeals
deserving of attention from those that plainly do not.” MillerEl, 537 U.S. at 337. “It follows that issuance of a COA must
not be pro forma or a matter of course.” Id.
Nevertheless, the “standard for obtaining a COA is not a
particularly exacting one.” Wilson, 554 F.3d at 826. “[A]
court of appeals should not decline the application for a COA
merely because it believes the applicant will not demonstrate
an entitlement to relief.” Miller-El, 537 U.S. at 337. Rather,
“[a]t the COA stage, the only question is whether the
applicant has shown that ‘jurists of reason could disagree
with the district court’s resolution of his constitutional claims
or that jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further.’”
Buck v. Davis, 137 S. Ct. 759, 773 (2017) (quoting Miller-El,
537 U.S. at 327). But when a district court “denies a habeas
petition on procedural grounds without reaching the

Petitioner's App. 2 - 60

(59 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 59 of 69

CARTER V. DAVIS

59

prisoner’s underlying constitutional claim,” a COA can issue
only if the prisoner shows that (1) “jurists of reason would
find it debatable whether the district court was correct in its
procedural ruling,” and (2) “jurists of reason would find it
debatable whether the petition states a valid claim of the
denial of a constitutional right.” Slack v. McDaniel, 529 U.S.
473, 484 (2000).
We ordered supplemental briefing on several of the
uncertified claims. Given the low bar for issuing a COA, see
Miller-El, 537 U.S. at 338, for the reasons discussed below,
we issue a COA on one claim not certified by the Central
District that alleged ineffective assistance of counsel at the
penalty phase. Although we issue a COA, we affirm the
denial of habeas relief on this claim because the California
Supreme Court’s determination that counsel satisfied
Strickland’s deferential standard is not contrary to or an
unreasonable application of federal law. Richter, 562 U.S.
at 105.
A. Claim 6 of the Central District Habeas Petition:
Ineffective Assistance of Counsel at the Penalty Phase
Similar to the claim certified by the Southern District that
Carter’s counsel was ineffective during the penalty phase,
claim six in Carter’s Central District habeas petition argued
that if his attorneys had conducted more than an “initial
attempt” at an investigation, they would have uncovered more
evidence of child abuse and brain damage. Presentation of
this additional evidence, he contends, would have changed
the result at the penalty phase. We, however, can find no
grounds for believing that the California Supreme Court
unreasonably denied relief given the record of counsels’
collective efforts.

Petitioner's App. 2 - 61

(60 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 60 of 69

60

CARTER V. DAVIS
1. Mitigation Evidence Presented at Penalty Phase

Counsel called twenty-one witnesses to present mitigating
evidence. Carter’s siblings, Jerry and Polly, testified that
their parents were alcoholics who often came home late after
drinking with “extreme arguing” that included hitting,
throwing furniture, and throwing each other. Their mother
also sometimes “g[o]t carried away” administering discipline
with the children. Although Jerry denied that Carter was
treated “that much worse” than Jerry, other Nome residents
testified that Jerry was treated better than Carter. One
neighbor even testified that Carter was “more like an orphan”
when the boys were young.
Set against this background, the jury heard about dramatic
instances of abuse and Carter’s unusual family life. They
heard about a time when Carter was seven or eight that their
mother came home around 2:00 a.m. but started to leave
again to pick up their father, and Carter tried to get her to stay
home by “t[aking] off running after the car,” “holler[ing] at
[her] to stop,” and “h[anging] on to the bumper and tried to
stop the car for quite a ways,” being dragged over a gravel
road. They heard that Carter’s father chained him to a bed at
least once when he was only eight or nine years old.
The jury heard that in the midst of all this misery, Carter
often ran away for several days at a time, including once to
Anchorage by plane. Around age eight or nine, Carter’s
parents sent him to the Jessie Lee Home, far from Nome,
which Carter’s sister Polly described as “a jail or something
for children.” Even when the family traveled near the Home,
they did not stop to visit him, which “shocked” Polly.

Petitioner's App. 2 - 62

(61 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 61 of 69

CARTER V. DAVIS

61

On appeal, post-conviction counsel submitted declarations
tending to show that Carter being held in chains was not a
one-time event. Childhood friends, classmates, and adults
wrote in post-conviction declarations that they saw Carter
handcuffed and chained to Carter’s cabin, or held in a
makeshift jail cell. One police officer who investigated
allegations of abuse at the Carter house said he saw Carter,
and possibly Jerry, chained to the floor with a bowl of water
next to them. Counsel also asserted that Carter suffered from
organic brain damage and Fetal Alcohol Syndrome at the
time of the crimes, and that evidence to that effect should
have been presented.
2. Ineffective Assistance of Counsel
Carter argues that trial counsel were ineffective because
they failed to investigate and present more mitigating
evidence regarding child abuse and possible brain damage.
Since there is no state-court reasoned decision on this issue,
Carter must show that “there was no reasonable basis for the
state court to deny relief.” Richter, 562 U.S. at 98. He
cannot.
a. Performance
First, the California Supreme Court could reasonably have
concluded that counsel did not perform deficiently because
their presentation was based on strategic choices after a
reasonable investigation. A defense attorney has a duty to
make reasonable investigations that enable informed
decisions about how best to represent the client. Strickland,
466 U.S. at 691; Sanders v. Ratelle, 21 F.3d 1446, 1457 (9th
Cir. 1994). But “[j]udicial scrutiny of counsel’s performance
must be highly deferential,” Strickland, 466 U.S. at

Petitioner's App. 2 - 63

(62 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 62 of 69

62

CARTER V. DAVIS

689 “doubly so” when § 2254(d) is also involved, Richter,
562 U.S. at 105. Carter has the burden to “identify the acts or
omissions of counsel that are alleged not to have been the
result of reasonable professional judgment.” Strickland,
466 U.S. at 690.
Gillingham testified in a post-conviction declaration that
his performance at sentencing could have been better in
various ways:
•

He was “unable to build rapport or develop
[Carter’s] confidence,” which “contributed to
[his] inability [to] present a compelling case in
mitigation;”

•

He was unable to secure Carter’s mother’s
cooperation, as “she was not willing to discuss her
life, petitioner’s birth father, circumstances
surrounding his birth, his childhood, or any other
subject related to her family;”

•

He “failed and omitted to prepare a social
historian or cultural anthropologist” or “a
psychiatrist, psychologist or other mental health
professional,” even though he believed Carter’s
“childhood and adolescence were neglectful and
alienating, and [was] aware of his long-term drug
and alcohol abuse;”

•

Although he “suspected the possibility of organic
brain damage,” and a mental health professional
he consulted suggested an MRI, he did not request
an MRI or PET scan; and

Petitioner's App. 2 - 64

(63 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 63 of 69

CARTER V. DAVIS
•

63

He generally “was unable to formulate any
coherent strategy or plan to defend petitioner in
guilt or penalty phases of trial.”

As the district court explained, however, Gillingham
falling on his sword “in retrospect” is “not dispositive.”
Rather, to fairly assess attorney performance, a court “must
judge the reasonableness of counsel’s challenged conduct on
the facts of the particular case, viewed as of the time of
counsel’s conduct.” Strickland, 466 U.S. at 690. Viewed in
that light, and especially given that “counsel is strongly
presumed to have rendered adequate assistance and made all
significant decisions in the exercise of reasonable
professional judgment,” the California Supreme Court could
reasonably have concluded that Gillingham’s team did not
perform deficiently. See id.
Carter’s attorneys went to great lengths to investigate
Carter’s troubled childhood. Both Gillingham and Morrissey
traveled to Nome to interview family members and other
residents, and their investigator Casey Cohen made four
separate trips to Alaska and spoke with about forty different
people. Cohen tried very hard to speak with Carter’s mother
because he considered her “a very important” “primary
witness to his early childhood.” Although he spoke to her “at
least three times” in person, and “probably several times by
phone,” Carter’s mother refused to cooperate, including by
telling others not to communicate with Cohen.
While acknowledging the “resistance” his defense team
faced from “unhelpful” Nome residents, Carter claims that if
his counsel had done more than “an initial attempt” at an
investigation, they would have gotten more people to testify
and presented a fuller picture of the extent of the abuse Carter

Petitioner's App. 2 - 65

(64 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 64 of 69

64

CARTER V. DAVIS

suffered as a child. But the problem is not that Carter’s
counsel made only an “initial attempt” at an investigation, but
rather that they diligently followed leads and were met with
dead ends. Cf. Wiggins, 539 U.S. at 523 25 (finding counsel
unreasonably abandoned their investigation even though
records in their possession put them on notice of possible
child abuse). For example, although Cohen “pressed her hard
to be honest with” investigators, Edna Buffas, whose father
worked with Jim Carter and had “always” known the Carters,
repeatedly called Dean “happy-go-lucky” and said “she
couldn’t think of anything that might have improved the
Carter family.”
Any “failure to investigate thoroughly” here resulted not
“from inattention,” but from thwarted attempts. See Wiggins,
539 U.S. at 526. Attorneys are expected to formulate
reasonable strategies that “balance limited resources in accord
with effective trial tactics and strategies.” Richter, 562 U.S.
at 107. Thus when they hit dead ends like this, they may
abandon those inquiries, especially if they determine they are
“distractive from more important duties.” Id. (quoting Bobby
v. Van Hook, 558 U.S. 4, 11 (2009) (per curiam)).
Moreover, Carter’s arguments downplay his own role in
what he claims to be a stunted investigation. See Strickland,
466 U.S. at 691 (“The reasonableness of counsel’s actions
may be determined or substantially influenced by the
defendant’s own statements or actions.”). Indeed, there was
evidence that Carter himself told Polly and Jerry not to talk
to defense investigators. As another example, Carter argued
that “if Gillingham and Carter did not have a conflict, then
Carter could have encouraged his mother and siblings to
cooperate with trial counsel, which then would have led to a
more fruitful mitigation investigation.” But if this alleged

Petitioner's App. 2 - 66

(65 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 65 of 69

CARTER V. DAVIS

65

conflict prevented his mother and siblings from cooperating
in a way that Carter should benefit from, he has not explained
how. Moreover, Carter himself could have given the defense
team the details he claims people could have provided. See
id. (“[W]hen the facts that support a certain potential line of
defense are generally known to counsel because of what the
defendant has said, the need for further investigation may be
considerably diminished or eliminated altogether.”). The
California Supreme Court could reasonably have determined
that the investigation was not inadequate.
Carter also argues that it was “unreasonable” for trial
counsel to decide “to focus their investigative efforts on
developing evidence about Carter’s moderately successful life
as an adult.” But Carter has not “overcome the presumption
that, under the circumstances,” counsel’s investigation and
presentation “might be considered sound trial strategy”
developed after a thorough investigation.
Id.
at 689 91(citation omitted). Indeed, there is evidence that
this is so. In a memo written after interviewing Jerry Carter,
Cohen wrote, “As the interview progressed we felt that there
was no history of child abuse so significant that it would tie
in with a general theory as-to why Dean ends up murdering
anyone.” He expanded,
[A] penalty phase defense would be focused
as follows: To use Jerry only to tell the good
about Dean and to plead with the jury to spare
his life. To not try and construct a theory
around any kind of child abuse. To lay out
Dean’s life as it occurred. To recount how he
perceived some problem deeply enough to try
and run away from home from age 7 onward.
To tell how he got into trouble, went to

Petitioner's App. 2 - 67

(66 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 66 of 69

66

CARTER V. DAVIS
institutions, and eventually grew up. Then, as
an adult he rehabilitates himself, gets a good
job, marries, and settles down. But problems
in the marriage develop.

“[S]trategic choices made after thorough investigation of law
and facts relevant to plausible options are virtually
unchallengeable.” Id. at 690. “There are countless ways to
provide effective assistance in any given case. Even the best
criminal defense attorneys would not defend a particular
client in the same way.” Id. at 689.
Carter again relies heavily on Wiggins, 539 U.S. 510. But
in Wiggins, defense counsel failed to present any evidence of
the defendant’s life history, justifying this as “a tactical
judgment not to present mitigating evidence at sentencing”
and instead dispute Wiggins’ direct responsibility for the
murder. 539 U.S. at 521. Here, the jury heard much about
the abuse, including how Carter was treated worse than Jerry,
chained at least once, and ran away multiple times because of
the misery. As the district court reasoned, the California
Supreme Court may reasonably have concluded that trial
counsel decided not to present this evidence because (a) the
jury would not have responded well to the insinuation that a
child abused this badly would inevitably go on to rape, kill,
and burglarize multiple women; (b) that the evidence of Fetal
Alcohol Syndrome or brain damage would not have been well
received because of the evidence that Carter acted so
rationally over such a long period of time; and (c) that the
evidence largely duplicated what they already presented.
For example, declarations from Vaughn Johnson, Chuck
Reader, and Cheryl Stavish that Carter was chained which
may or may not have been describing the same incident are

Petitioner's App. 2 - 68

(67 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 67 of 69

CARTER V. DAVIS

67

compelling, but the jury knew that Carter was chained as a
child. Moreover, some of the evidence Carter faults his
counsel for not presenting contradicted other evidence
presented. For example, Jerry testified he himself was never
chained, so the Officer’s possible testimony saying that Jerry
might have been chained would have been less helpful. Jerry
also denied that Carter was treated “that much worse” than he
was, so the value of additional evidence regarding the
disparity between the two was minimal.
Additionally, as the government points out, many of the
declarations Carter now submits rest on hearsay. For
example, Cheryl Stavish testified that Polly told her that she
used to hear Carter’s father beating or whipping him; Officer
Martin stated that Sophie Swanson told him the boys were
chained every time the Carter parents went out to drink,
which was frequently; and Chuck Reader declared that Ivan
Johnson told him Carter was chained and locked up “almost
all of the time.” Moreover, some witnesses are less than
confident in their claims. For example, Michael Ashmasuk
testified that he and his friends “assumed Jim Carter had
locked [Carter] in the closet,” (emphasis added); Officer
Martin stated that he “found Dean and Jerry Carter chained to
the floor,” but clarified that he “could see the chain on Dean,
but [did not] remember seeing the chain on Jerry.” The state
court could reasonably have concluded that the investigation
was sufficient.
The question here is not whether Carter’s attorneys should
have introduced more mitigating evidence, but rather whether
the investigation supporting counsel’s decision not to
introduce more mitigating evidence was reasonable. See id.
at 523. The California Supreme Court may reasonably have

Petitioner's App. 2 - 69

(68 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 68 of 69

68

CARTER V. DAVIS

concluded that the answer to that question was yes, that
counsel’s decision was reasonable.
b. Prejudice
Even if Carter’s defense team performed deficiently, the
California Supreme Court could reasonably have concluded
that Carter was not prejudiced by their performance. To
show prejudice, Carter must show that “there is a reasonable
probability that, absent the errors, the sentencer . . . would
have concluded that the balance of aggravating and mitigating
circumstances did not warrant death.” Strickland, 466 U.S.
at 695. But here, there was no reasonable probability that the
outcome would have been different if a jury had heard more
evidence about the extent of the abuse Carter suffered,
especially given the hearsay, contradictory, and weak nature
of the additional evidence. Id. at 694.
A death verdict with overwhelming record support is less
likely to have been affected by errors than one only weakly
supported by the record. Id. at 696. As the California
Supreme Court noted and Carter concedes, there was “strong
evidence directly linking defendant to the charged murders.”
Carter, 117 P.3d at 527.
B. Remaining Uncertified Claims
We conclude that no jurist of reason would find it
debatable that any of Carter’s remaining uncertified claims
states the denial of a constitutional right. See Wilson,
554 F.3d at 826. We therefore deny a COA as to the rest of
the claims not certified by the Southern and Central District
Courts.

Petitioner's App. 2 - 70

(69 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-1, Page 69 of 69

CARTER V. DAVIS

69

V. CONCLUSION
For the foregoing reasons, in Case No. 13-99003, the
judgment of the United States District Court for the Central
District of California is AFFIRMED.
For the foregoing reasons, in Case No. 13-99007, the
judgment of the United States District Court for the Southern
District of California is AFFIRMED.
Carter’s supplemental motion to expand the certificate of
appealability, filed October 6, 2015, is GRANTED as to
Claim 6 in Case No. 13-99003, and otherwise DENIED.

Petitioner's App. 2 - 71

(70 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-2, Page 1 of 4

United States Court of Appeals for the Ninth Circuit
Office of the Clerk
95 Seventh Street
San Francisco, CA 94103
Information Regarding Judgment and Post-Judgment Proceedings
Judgment
•
This Court has filed and entered the attached judgment in your case.
Fed. R. App. P. 36. Please note the filed date on the attached
decision because all of the dates described below run from that date,
not from the date you receive this notice.
Mandate (Fed. R. App. P. 41; 9th Cir. R. 41-1 & -2)
•
The mandate will issue 7 days after the expiration of the time for
filing a petition for rehearing or 7 days from the denial of a petition
for rehearing, unless the Court directs otherwise. To file a motion to
stay the mandate, file it electronically via the appellate ECF system
or, if you are a pro se litigant or an attorney with an exemption from
using appellate ECF, file one original motion on paper.
Petition for Panel Rehearing (Fed. R. App. P. 40; 9th Cir. R. 40-1)
Petition for Rehearing En Banc (Fed. R. App. P. 35; 9th Cir. R. 35-1 to -3)
(1)

A.
•

•

B.
•

Purpose (Panel Rehearing):
A party should seek panel rehearing only if one or more of the following
grounds exist:
►
A material point of fact or law was overlooked in the decision;
►
A change in the law occurred after the case was submitted which
appears to have been overlooked by the panel; or
►
An apparent conflict with another decision of the Court was not
addressed in the opinion.
Do not file a petition for panel rehearing merely to reargue the case.

Purpose (Rehearing En Banc)
A party should seek en banc rehearing only if one or more of the following
grounds exist:

Post Judgment Form - Rev. 12/2018

1

Petitioner's App. 2 - 72

(71 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-2, Page 2 of 4
►
►
►

Consideration by the full Court is necessary to secure or maintain
uniformity of the Court’s decisions; or
The proceeding involves a question of exceptional importance; or
The opinion directly conflicts with an existing opinion by another
court of appeals or the Supreme Court and substantially affects a
rule of national application in which there is an overriding need for
national uniformity.

(2)

Deadlines for Filing:
•
A petition for rehearing may be filed within 14 days after entry of
judgment. Fed. R. App. P. 40(a)(1).
•
If the United States or an agency or officer thereof is a party in a civil case,
the time for filing a petition for rehearing is 45 days after entry of judgment.
Fed. R. App. P. 40(a)(1).
•
If the mandate has issued, the petition for rehearing should be
accompanied by a motion to recall the mandate.
•
See Advisory Note to 9th Cir. R. 40-1 (petitions must be received on the
due date).
•
An order to publish a previously unpublished memorandum disposition
extends the time to file a petition for rehearing to 14 days after the date of
the order of publication or, in all civil cases in which the United States or an
agency or officer thereof is a party, 45 days after the date of the order of
publication. 9th Cir. R. 40-2.

(3)

Statement of Counsel
•
A petition should contain an introduction stating that, in counsel’s
judgment, one or more of the situations described in the “purpose” section
above exist. The points to be raised must be stated clearly.

(4)

Form & Number of Copies (9th Cir. R. 40-1; Fed. R. App. P. 32(c)(2))
•
The petition shall not exceed 15 pages unless it complies with the
alternative length limitations of 4,200 words or 390 lines of text.
•
The petition must be accompanied by a copy of the panel’s decision being
challenged.
•
An answer, when ordered by the Court, shall comply with the same length
limitations as the petition.
•
If a pro se litigant elects to file a form brief pursuant to Circuit Rule 28-1, a
petition for panel rehearing or for rehearing en banc need not comply with
Fed. R. App. P. 32.

Post Judgment Form - Rev. 12/2018

2

Petitioner's App. 2 - 73

(72 of 73)
Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-2, Page 3 of 4

•

•

The petition or answer must be accompanied by a Certificate of Compliance
found at Form 11, available on our website at www.ca9.uscourts.gov under
Forms.
You may file a petition electronically via the appellate ECF system. No paper copies are
required unless the Court orders otherwise. If you are a pro se litigant or an attorney
exempted from using the appellate ECF system, file one original petition on paper. No
additional paper copies are required unless the Court orders otherwise.

Bill of Costs (Fed. R. App. P. 39, 9th Cir. R. 39-1)
•
The Bill of Costs must be filed within 14 days after entry of judgment.
•
See Form 10 for additional information, available on our website at
www.ca9.uscourts.gov under Forms.
Attorneys Fees
•
Ninth Circuit Rule 39-1 describes the content and due dates for attorneys fees
applications.
•
All relevant forms are available on our website at www.ca9.uscourts.gov under Forms
or by telephoning (415) 355-7806.
Petition for a Writ of Certiorari
•
Please refer to the Rules of the United States Supreme Court at
www.supremecourt.gov
Counsel Listing in Published Opinions
•
Please check counsel listing on the attached decision.
•
If there are any errors in a published opinion, please send a letter in writing
within 10 days to:
►
Thomson Reuters; 610 Opperman Drive; PO Box 64526; Eagan, MN 55123
(Attn: Jean Green, Senior Publications Coordinator);
►
and electronically file a copy of the letter via the appellate ECF system by using
“File Correspondence to Court,” or if you are an attorney exempted from using
the appellate ECF system, mail the Court one copy of the letter.

Post Judgment Form - Rev. 12/2018

3

Petitioner's App. 2 - 74

(/~ OT /~)

Case: 13-99003, 12/26/2019, ID: 11543863, DktEntry: 57-2, Page 4 of 4

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 10. Bill of Costs
Instroctions for this form: ht(v:l/www.ca9.uscourts.gov/formslfor111J Oinstructions.pdf

9th Cir. Case Number(s)
Case Name

The Clerk is requested to award costs to (party name(s)):

I swear under penalty of perjury that the copies for which costs are requested were
actually and necessarily produced, and that the requested costs were actually
expended.
Signature

~--------------~

Date I~ - - - - - ~

(use "s/[typed name] " to sign electronically-filed documents)
REQUESTED
(each column must be completed)

COSTTAXABLE

No. of
Copies

DOCUMENTS I FEE PAID
Excerpts of Record*
Principal Brief(s) (Opening Brief; Answering
Brief; 1st, 2nd, and/or 3rd Brief on Cross-Appeal;
Jnte,venor Brief)
Reply Brief / Cross-Appeal Reply Brief
Supplemental Brief(s)

I
I
I
I

Pages per
Cost per Page
Copy

TOTAL
COST

11

I $1

I $1

I

11

I $1

I $1

I

11

I $1

I $1

I

11

I $1

I $1

I

$1

I

$1

I

Petition for Review Docket Fee / Petition for Writ of Mandamus Docket Fee
TOTAL:

*Example: Calculate 4 copies of3 volumes ofexcerpts ofrecord that total 500 pages {Vol. 1 (10 pgs.) +
Vol. 2 (250 pgs.) + Vol. 3 (240 pgs.)j as:
No. of Copies: 4; Pages per Copy: 500; Cost per Page: $.10 (or actual cost IF less than $.1 0);
TOTAL: 4 x 500 x $.10 = $200.
Feedback or questions about thisfonn? Email us at fonns@ca9.uscourts.g_ov

Rev. 12/01120 I 8

Form 10

Petitioner's App. 2 - 75

Case 3:06-cv-01343-BEN-KSC Document 178 Filed 06/03/13 Page 1 of 6
-·•

2

'}

.

·2013 JUN -3 PM 3: 46

3

4
5
6

7

UNITED STATES DISTRICT COURT

8

SOUTHERN DISTRICT OF CALIFORNIA

9

10

CASE NO. 06cv 1343 BEN (KSC)

DEAN PHILLIP CARTER,

11

Petitioner,

12

DEATH PENALTY CASE

vs.

ORDER DENYING MOTION TO
VACA TE.z...ALTER, OR AMEND
FINAL OKDERS AND
JUDGMENT

13
14

15

KEVIN CHAPPELL, Acting Warden
of San Quentin State Prison,

16

Res ondent.

17
18

A Final Order Denying Habeas Relief was filed on March 18, 2013, and

19

Judgment was entered in this case on March 19, 2013. (Doc. Nos. 171, 172.) On April

20

15, 2013, Petitioner filed a Motion requesting "an order altering, amending, or vacating

21

[this Court's] final orders and judgment dismissing his Second Amended Petition"

22

under Federal Rule of Civil Procedure 59(e) or 60(b). (Doc. No. 174-1 ["Mot."] at 7.) 1

23

Specifically, Petitioner moves the Court to vacate its orders and judgment, issue

24

another stay, 2 and allow him to return to state court in order to present eviden~e that

25
26
27
28

1

Page numbers for docketed materials cited in this Order refer to those imprinted by the
Court's electronic case filing system.
2

This case was previously stayed for nearly three years to permit Petitioner to exhaust a
number of claims and that filing, the second state habeas petition, contained the same claims Petitioner
now seeks to present again to the state supreme court.
- 1-

Petitioner's App. 3 - 76

06cvl343

Case 3:06-cv-01343-BEN-KSC Document 178 Filed 06/03/13 Page 2 of 6

was precluded from this Court's consideration under Cullen v. Pinholster, 131 S.Ct.
2

1388 (2011). On May 20, 2013, Respondent filed an Opposition, and on May 28,

3

Petitioner filed a Reply. For the reasons set forth below, Petitioner's motion is

4

DENIED.

5

Petitioner asserts that "Federal Rule of Civil Procedure 59(e) allows judges to

6

amend or alter judgments to prevent 'manifest injustice,' and Rule 60(b) permits judges

7

to vacate judgments when doing so is 'appropriate to accomplish justice."' (Mot. at 7.)

8

Under Rule 59( e), altering or amending a judgment is appropriate "if the district court

9

( 1) is presented with newly discovered evidence, (2) committed clear error or the

initial

1O decision was manifestly unjust, or (3) if there is an intervening change in the
11

controlling law." School Dist. No. 1J v. AC&S, Inc., 5 F.3d 1255, 1263 (9th Cir.

12

1993). Rule 60(b) of the Federal Rules of Civil Procedure provide for relief from

13

judgment where one or more of the following is shown: (1) mistake, inadvertence,

14

surprise or excusable neglect; (2) newly discovered evidence which by due diligence

15

could not have been discovered before the court's decision; (3) fraud by the adverse

16

party; (4) voiding of the judgment; (5) satisfaction of the judgment; or (6) any other

17

reason justifying relief. See Fed.R.Civ.P. 60(b).

18

Petitioner argues that "because of a novel, unforeseeable change in the law, there

19

is a very real danger that this case will result in manifest injustice." (Mot. at 7-8.)

20

Petitioner refers to the Supreme Court's April 4, 2011 decision in Pinholster, which

21

instructs that a federal habeas court's "review under§ 2254(d)(l) is limited to the

22

record that was before the state court that adjudicated the claim on the merits." Id., 131

23

S.Ct. at 1398.

24
25

26
27

28

In the instant case, because the California Supreme Court rejected Petitioner's
claims on the merits, this Court indicated that:
rA]ny evidence that was not previously presented to the California
SuP.reme Court will not be considered by tlils Court in the evaluation of
each claim under rsection] 2254(d). Based on the Court's review of the
record, this includes materials from trial counsel's files, currently under
seal, and the deposition of second chair tri~l counsel, submitted by
-2-

Petitioner's App. 3 - 77

06cvl343

Case 3:06-cv-01343-BEN-KSC Document 178 Filed 06/03/13 Page 3 of 6

2
3
4

5
6

Respondent in connection with record exP.ansion proceedings, labeled Ex.
1-14. (See Doc. Nos. 141-43 148.) This also includes Petitioner's
exhibits rued in support of the Motion for Evidentiary Hearing, including
materials from trial counsel's files, witness interviews, memos, and expert
reports, labeled Ex. A through Ex. AA. (See Doc. No. 113.)
If Petitioner is able to satisfv § 2254( d) with respect to any of the
claims in the federal Petition, the Court will then consider this adaitional
ev!dence in determining whether reliefis warranted on the claim or claims
. at issue.

7

(Doc. No. 170 at 80-81.) Because Petitioner was unable to satisfy section2254(d) with

8

respect to any of the claims, the Court did not consider materials not presented to the

9

state court.

10

Petitioner explains that "in light of the ~alifornia Supreme Court's unwillingness

11

to allow petitioners to file privileged documents under seal (e.g. trial counsel files), the

12

prudent course of action was to wait for the California Supreme Court to issue an order

13

to show cause before they filed any privileged material," which would allow them to

14

seek a protective order. (Mot. at 13.) Petitioner explains that federal district courts in.

15

the Ninth Circuit often issue protective orders in capital habeas cases. (Mot. at 14.)

16

However, the Supreme Court rendered Pinholster on April 4, 2011, nearly two

17

years before this Court's March 18, 2013 Order Denying Habeas Relief. Petitioner has

18

been well aware of Pinholster's import, given the Court's October 5, 2011 Order

19

Denying Petitioner's Motion for Reconsideration, the Court's earlier July 25, 2011

20

Order Denying Petitioner's Motion for Discovery, and the Court's August 12, 2011

21

Order Denying Petitioner's Motion for Evidentiary Hearing Without Prejudice, each

22

of which referenced or discussed the impact of Pinholster. (See Doc. No. 152 at 2-3;

23

Doc. No. 149 at 4; Doc. No. 150 at 3.) Given the Court's stated intention to apply

24

Pinholster in its adjudication of his federal claims under§ 2254(d), Petitioner fails to

25

explain why he did not either: ( 1) request a stay after either the issuance of Pinholster

26

or after any of the Court's three separate 2011 orders referencing or discussing

27

Pinholster's application to his case, or (2) simply return to state court to ·present these

28

materials. In light of the Court's clear, long-standing, and explicitly-stated intention
-3-

Petitioner's App. 3 - 78

06cvl343

Case 3:06-cv-01343-BEN-KSC Document 178 Filed 06/03/13 Page 4 of 6

to apply Pinholster, Petitioner's belated argument that its application may result in
2 "manifest injustice" is unpersuasive.
3

Petitioner's reliance on the Ninth Circuit's decision in Gonzalez v. Wong. 667

4

F .3d 965 (9th Cir. 2011 ), in advocating for a stay and abeyance of this case is also

5 misplaced.
6

In Gonzalez, the petitioner presented a claim pursuant to Brady v.

Maryland, 373 U.S. 83 (1963), asserting that the prosecution failed to tum over

7 exculpatory information concerning a jailhouse informant who testified for the
8

prosecution at trial. Id. at 972. Several documents the state failed to disclose were

9

later obtained by the petitioner during federal habeas proceedings, and thus had not

1O been part of the state record at the time the California Supreme Court issued its
11
12

13
14

15
16

17
18

decision. Id. The Ninth Circuit reasoned as follows:
Under Pinholster1 we may not consider those later-discovered materials
in reviewing [Petitioner's] federal habeas claim. Because it appears to us
that those materials strengthen [Petitioner's] Bradffi claim to tfie point that
his argument would be potentially meritorious- t at is, that a reasonable
state court might be _persuaded to grant relief on that claim- it is not
8:Ppropriate for us to ignore those materials. We remand that_portion of
tfie case to di~trict court to stay the proceedin_g in ordert9 give.[Petitioner]
an op_portumty to return to state court ancf present his claim with the
.benelit of materials that were not available and not part of the record at
the time of the California Supreme Court decision.
Id. ( footnote omitted) (emphasis added).

19

Unlike in Gonzalez, the materials Petitioner seeks to presentto the state supreme

20

court were, with the exception of the deposition of second-chair counsel, not

21

discovered after the conclusion of state habeas proceedings. Instead, as noted above,

22

Petitioner asserts that post-conviction counsel possessed the materials and made a

23

tactical decision not to submit the materials to the state court. Regardless of the post-

24

conviction counsel's reasoning, the fact remains that this situation is not akin to

25

Gonzalez, in which the Ninth Circuit clearly indicated that the late disclosure of the

26

newly-disclosed Brady materials was the state's responsibility, and "[f]or us simply to

27

ignore the materials that did not emerge until the federal habeas proceedings would be

28

to reward the prosecutor for withholding them." Id. at 980. Under California law, a
-4-

Petitioner's App. 3 - 79

06cvl343

Case 3:06-cv-01343-BEN-KSC Document 178 Filed 06/03/13 Page 5 of 6

state habeas petitioner is required to not only plead his claim, but also should "include
2

copies of reasonably available documentary evidence supporting the claim, including

3

pertinent portions of trial transcripts and affidavits or declarations." People v. Duvall,

4

9 Cal. 4th 464, 4 74 (1995). In this case, Petitioner, and not the State, bore the

5

responsibility of presenting the evidence to the state supreme court.

6

Petitioner contends that the additional evidence he seeks to present to the state

7

court bolsters the merits of federal Claims 2 and 3 to the extent that those claims are

8

"colorable and potentially meritorious," warranting a return to state court. (Mot. at 17,

9

citing Gonzalez, 667 F.3d at 980.) Yet again, unlike in Gonzalez, both Claim 2 and

1O Claim 3 have been previously presented to the California Supreme Court on two prior
11

occasions, albeit prior to the date Pinholster was decided. Petitioner presented federal

12

Claims 2 and 3 as Claims II and III in the first state habeas petition (California

13

Supreme Court Case No. S096874) and as Claims Two and Three of the second state

14

habeas petition (California Supreme Court Case No. Sl53780). · The California

15

Supreme Court adjudicated the claims on the merits in both petitions. Therefore,

16

Petitioner has not been deprived of an opportunity to raise his claims before the state

17

supreme court and has, in fact, twice presented these claims (and twice chosen not to

18

include materials from trial counsel files in his presentation to the state court).

19

The Court also acknowledges that deposition of second chair trial counsel

20

Dedina, was taken during federal proceedings after the state court's decision and was

21

not "available" as evidence when Claims 2 and 3 were twice presented to the state

22

court. However, the Court's Order granting the deposition clearly stated that Ms.

23

Dedina would be deposed in order to "preserve her testimony" in light of her declining

24

health due to cancer. (See Doc. No. 83 at 3-4.) The Court made no determination that

25

the Dedina deposition would, or would not, be considered in the adjudication of the

26

federal Petition, only that her testimony would be preserved. Moreover, in connection

27

with preparation for the Dedina deposition, Petitioner made portions of trial counsels'

28

files available to Respondent. Respondent, in turn, submitted a number of items from
-5-

Petitioner's App. 3 - 80

06cvl343

Case 3:06-cv-01343-BEN-KSC Document 178 Filed 06/03/13 Page 6 of 6

trial counsels' files to the Court during record-expansion proceedings to bolster their
2 assertion that trial counsels' performance in investigating, preparing and presenting
3

Petitioner's trial defense satisfied constitutional requirements. (See Doc. Nos. 141-

4

143, 148.) Pursuant to Pinholster, the Court did not consider those newly-submitted

5 materials in adjudicating the federal Petition. (See Doc. No. 170 at 80.) Thus, given
6.

that both parties have submitted evidence during the federal proceedings that has not

7

been presented to the state court, Petitioner also fails to show that the net effect of this

8.

evidence submitted in federal court has rendered his claims "colorable or potentially

9

meritorious."

IO

·In any event, the Ninth Circuit has instructed that a motion under Rule 59(e)

11

"should not be granted, absent highly unusual circumstances" such as those outlined

12

above. Herbst v. Cook, 260 F.3d 1039, 1044 (9th Cir. 2001), quoting McDowell v.

13

Calderon, 197 F3d 1253, 1255 (9th Cir. 1999) (en bane). Here, Petitioner fails to

14

establish that this Court's application of Pinholster constituted clear error, resulted in

15

"manifest injustice," or otherwise warrants relief under either Rule 59(e) or Rule 60(b ).

16

Accordingly, as Petitioner fails to identify any factor under either FRCP 59(e)

17

or 60(b) that would justify the relief sought, Petitioner's Motion to Alter, Amend, or

18

Vacate the Court's Orders and Judgment is DENIED.

19

20

21

lso her~by VACATES the June 3,

The Cou

13 hearing date on this motion.

ER

)f

I
NITEZ
tates District Judge

22
23
24

· 25
26
27

28
-6-

Petitioner's App. 3 - 81

06cvl343

Case 3:06-cv-01343-BEN-KSC Document 172 Filed 03/19/13 Page 1 of 1

United States District Court
SOUTHERN DISTRICT OF CALIFORNIA
DEAN PHILLIP CARTER,
Petitioner,

Civil Action No.

06cv1343-BEN-KSC

vs.
KEVIN CHAPPELL, Acting Warden
of San Quentin State Prison,
Respondent.

JUDGMENT IN A CIVIL CASE

Decision by Court. This action came to trial or hearing before the Court. The issues have been tried
or heard and a decision has been rendered.
IT IS HEREBY ORDERED AND ADJUDGED:
that the Petition for Writ of Habeas Corpus is denied as to all claims. The Court issues a Certificate of
Appealability on Claims 3-4 and denies a Certificate of Appealability on Claims 1-2 and 5-16.
Judgment is entered in favor of the Respondent. Case closed.

Date:

3/19/13

CLERK OF COURT
W. SAMUEL HAMRICK, JR.
By: s/ K. Betancourt
K. Betancourt, Deputy
Petitioner's App. 4 - 82

Case 3:06-cv-01343-BEN-KSC Document 171 Filed 03/18/13 Page 1 of 1

1
2
3
4
5
6
7

UNITED STATES DISTRICT COURT

8

SOUTHERN DISTRICT OF CALIFORNIA

9
10

DEAN PHILLIP CARTER,

11

CASE NO. 06cv1343 BEN (KSC)
Petitioner,

DEATH PENALTY CASE

12
13

FINAL ORDER:

vs.

(1) DENYING PETITION FOR
WRIT OF HABEAS CORPUS;
AND

14
15

KEVIN CHAPPELL, Acting Warden
of San Quentin State Prison,

16

(2) ISSUING CERTIFICATE OF
APPEALABILITY

Respondent.

17
18

For the reasons discussed in the Court’s March 18, 2013 Order (see Doc. No.

19

170), the Petition for Writ of Habeas Corpus is DENIED as to all claims. The Court

20

ISSUES a Certificate of Appealability [“COA”] on Claims 3-4 and DENIES a COA

21

on Claims 1-2 and 5-16. See 28 U.S.C. § 2253(c); Slack v. McDaniel, 529 U.S. 473,

22

484 (2000); (see also Doc. No. 170 at 318.)

23

The Clerk is ORDERED to enter Judgment for Respondent and close Case No.

24

06-cv-1343.

25

IT IS SO ORDERED.

26

DATED: March 18, 2013

27
28

Hon. Roger T. Benitez
United States District Judge
-1-

Petitioner's App. 5 - 83

06cv1343

Case 2:06-cv-04532-RGK Document 80 Filed 03/01/13 Page 1 of 1 Page ID #:3650

1
2

JS - 6

3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10

DEAN PHILLIP CARTER,

11

Petitioner,

12

v.

13

KEVIN CHAPPELL,* Warden of
California State Prison at San
Quentin,

14
15

Respondent.

16

)
)
)
)
)
)
)
)
)
)
)
)

CASE NO. CV 06-4532 RGK
DEATH PENALTY CASE
JUDGMENT

17
Pursuant to the Order Denying First Amended Petition for Writ of Habeas

18
19

Corpus issued simultaneously with this Judgment, IT IS HEREBY ORDERED

20

AND ADJUDGED that the Petition is denied with prejudice and judgment is

21

entered in favor of Respondent and against Petitioner. The Order constitutes final

22

disposition of the Petition by the Court.
The Clerk is ordered to enter this judgment.

23
24

Dated: March 1, 2013.

25

R. GARY KLAUSNER
United States District Judge

26
27
*

28

Kevin Chappell is substituted for his predecessors as Warden of California State Prison at San
Quentin pursuant to Federal Rule of Civil Procedure 25(d).

Petitioner's App. 6 - 84

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 1 of 146 Page ID #:3504

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10

DEAN PHILLIP CARTER,

11

Petitioner,

12

v.

13

KEVIN CHAPPELL,* Warden of
California State Prison at San
Quentin,

14
15

Respondent.

16

)
)
)
)
)
)
)
)
)
)
)
)

CASE NO. CV 06-4532 RGK
DEATH PENALTY CASE
ORDER DENYING FIRST
AMENDED PETITION FOR
WRIT OF HABEAS CORPUS

17
Petitioner was convicted of the forcible rape and first degree murder of

18
19

Jillette Mills, the forcible rape and first degree murder of Bonnie Guthrie, the first

20

degree murder of Susan Knoll, and two counts of residential burglary. The jury

21

found true special circumstance allegations that the murder of Mills was committed

22

in the course of a forcible rape and in the course of a burglary (Cal. Penal Code

23

§§ 190.2(a)(17)(C), (G)); that the murder of Knoll was committed during the

24

commission of a burglary (id. § 190.2(a)(17)(G)); that the murder of Guthrie was

25

committed in the course of a forcible rape and in the course of a burglary (id. §§

26

190.2(a)(17)(C), (G)); and that Petitioner was convicted in the proceeding of more

27
*

28

Kevin Chappell is substituted for his predecessors as Warden of California State Prison at San
Quentin pursuant to Federal Rule of Civil Procedure 25(d).

Petitioner's App. 7 - 85

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 2 of 146 Page ID #:3505

1

than one offense of murder. (Id. § 190.2(a)(3).) The jury returned a sentence of

2

death.

3

Petitioner filed the operative First Amended Petition for Writ of Habeas

4

Corpus (“Pet.”) on September 7, 2010. For the reasons set forth below, the First

5

Amended Petition is DENIED.

6
7

PROCEDURAL BACKGROUND
The California Supreme Court affirmed Petitioner’s conviction and sentence

8

on direct appeal on August 15, 2005. People v. Carter, 36 Cal. 4th 1114 (2005).

9

The United States Supreme Court denied Petitioner’s petition for writ of certiorari

10

on April 24, 2006. Carter v. California, 126 S. Ct. 1881 (2006).

11

Petitioner filed a Petition for Writ of Habeas Corpus in the California

12

Supreme Court on July 24, 2000 (Case No. S090230), which was denied on

13

September 13, 2006. Petitioner filed a Protective Petition for Writ of Habeas

14

Corpus in this Court on December 14, 2006. He filed a second state habeas

15

petition (Case No. S153790) and a Petition for Writ of Habeas Corpus in this Court

16

on June 22, 2007. Upon stipulation of the parties, the Court stayed the federal

17

proceedings during the pendency of Petitioner’s state habeas proceedings. (Order

18

Staying Federal Proceedings Pending Resolution of State Habeas Proceedings,

19

filed July 12, 2007.) The California Supreme Court denied the petition on June 17,

20

2010, and the Court lifted the stay on the instant proceedings on August 5, 2010.

21

As stated above, Petitioner filed the his First Amended Petition for Writ of

22

Habeas Corpus on September 7, 2010. Respondent filed an Answer on February 4,

23

2011. On February 14, 2011, the Court ordered the parties to file a joint discovery

24

stipulation and any requests for discovery within forty-five days of the filing of the

25

Traverse. On April 5, 2011, Petitioner filed a Traverse.

26

The preceding day, on April 4, 2011, the United States Supreme Court

27

decided Cullen v. Pinholster, 131 S. Ct. 1388 (2011). On April 11, 2011, the Court

28

vacated its February 14, 2011 Order, and instead Ordered Petitioner to file a status
2
Petitioner's App. 7 - 86

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 3 of 146 Page ID #:3506

1

report by May 16, 2011, indicating whether he intended to pursue a motion for

2

evidentiary hearing and, if so, addressing his entitlement to an evidentiary hearing

3

in view of Pinholster. (Case Management Order, filed April 11, 2011.) No

4

discovery requests or stipulations had been filed.

5

Petitioner filed a request to proceed with a motion for evidentiary hearing

6

and a joint stipulation for discovery. Respondent filed an opposition on June 6,

7

2011, and Petitioner filed a reply on June 16, 2011. On June 30, 2011, the Court

8

denied Petitioner’s request without prejudice. The Court Ordered the parties to

9

brief whether and how each claim satisfies 28 U.S.C. § 2254(d) on the basis of the

10

record that was before the state court that adjudicated the claim on the merits.

11

(Order Denying without Prejudice Request to File Joint Discovery Stipulation and

12

Motion for Evidentiary Hearing, filed June 30, 2011, at 8.) The parties completed

13

the merits briefing on April 30, 2012.

14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

DISCUSSION
I.

Standard for Relief under 28 U.S.C. § 2254(d)
Section 2254(d), as amended by the Antiterrorism and Effective Death

Penalty Act of 1996 (AEDPA) provides:
An application for a writ of habeas corpus
on behalf of a person in custody pursuant to
the judgment of a State court shall not be
granted with respect to any claim that was
adjudicated on the merits in State court
proceedings unless the adjudication of the
claim –
(1) resulted in a decision that was
contrary to, or involved an unreasonable
application of, clearly established Federal
law, as determined by the Supreme Court of
the United States; or
(2) resulted in a decision that was
based on an unreasonable determination of
3
Petitioner's App. 7 - 87

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 4 of 146 Page ID #:3507

1

the facts in light of the evidence presented in
the State court proceeding.

2
3
4
5
6
7
8
9
10

28 U.S.C. § 2254(d). The Supreme Court held in Pinholster that when determining
whether a petitioner has satisfied § 2254(d), a court may only consider evidence in
the state court record. 131 S. Ct. at 1398, 1400 n.7 (2011). The Court held that
“review under § 2254(d)(1) is limited to the record that was before the state court
that adjudicated the claim on the merits.” Id. at 1398. Section § 2254(d)(2)
“includes the language ‘in light of the evidence presented in the State court
proceeding,’ . . . [providing] additional clarity . . . on this point.” Id. at 1400 n.7.
A state court decision is “contrary to our clearly established precedent if the

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

state court applies a rule that contradicts the governing law set forth in our cases or
if the state court confronts a set of facts that are materially indistinguishable from a
decision of this Court and nevertheless arrives at a result different from our
precedent.” Lockyer v. Andrade, 538 U.S. 63, 73 (2003) (internal quotations
omitted); see also Crosby v. Schwartz, 678 F.3d 784, 788 (9th Cir. 2012) (applying
Harrington v. Richter, 131 S. Ct. 770 (2011)); Brown v. Horrell, 644 F.3d 969, 978
(9th Cir. 2011) (same). “[U]nder the ‘unreasonable application’ clause, a federal
habeas court may grant the writ if the state court identifies the correct governing
legal principle from this Court’s decisions but unreasonably applies that principle
to the facts of the prisoner’s case.” Lockyer, 538 U.S. at 75 (internal quotation
omitted); see also Crosby, 678 F.3d at 788; Brown, 644 F.3d at 978. “The
‘unreasonable application’ clause requires the state court decision to be more than
incorrect or erroneous. The state court’s application of clearly established law
must be objectively unreasonable.” Lockyer, 538 U.S. at 75
//
(internal citation omitted); see also Crosby, 678 F.3d at 788; Brown, 644 F.3d at
978.

4
Petitioner's App. 7 - 88

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 5 of 146 Page ID #:3508

1

“[A]s to the clause dealing with ‘an unreasonable determination of the

2

facts,’” section 2254(d)(2), “the statement of facts from the last reasoned state

3

court decision is afforded a presumption of correctness that may be rebutted only

4

by clear and convincing evidence.” Cudjo v. Ayers, 698 F.3d 752, 762 (9th Cir.

5

2012) (internal quotation omitted). Under § 2254(d)(2):

6

if a petitioner challenges the substance of the state court’s
findings, . . . [the court] must be convinced that an
appellate panel, applying the normal standards of
appellate review, could not reasonably conclude that the
finding is supported by the record. Similarly, when the
challenge is to the state court’s procedure, mere doubt as
to the adequacy of the state court’s findings of fact is
insufficient; we must be satisfied that any appellate court
to whom the defect [in the state court’s fact-finding
process] is pointed out would be unreasonable in holding
that the state court’s fact-finding process was adequate.

7
8
9
10
11
12
13
14
15

Hibbler v. Benedetti, 693 F.3d 1140, 1146-47 (9th Cir. 2012) (internal quotations

16

omitted; alteration in original).
The United States Supreme Court made clear in Richter that “[a] state

17
18

court’s determination that a claim lacks merit precludes federal habeas relief so

19

long as fairminded jurists could disagree on the correctness of the state court’s

20

decision.” 131 S. Ct. at 786 (internal quotation omitted). “Under § 2254(d), a

21

habeas court must determine what arguments or theories supported or . . . could

22

have supported, the state court’s decision;” the court must not “overlook[]

23

arguments that would otherwise justify the state court’s result . . . .” Id. Section

24

2254(d) provides “a difficult to meet and highly deferential standard for evaluating

25

state-court rulings, which demands that state-court decisions be given the benefit of

26

the doubt.” Pinholster, 131 S. Ct. at 1398 (internal quotations omitted).

27
28

II.

Standard for Relief for Ineffective Assistance of Counsel
5
Petitioner's App. 7 - 89

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 6 of 146 Page ID #:3509

1

To establish ineffective assistance of counsel, Petitioner must demonstrate

2

that (1) counsel’s performance was deficient and (2) the deficient performance

3

prejudiced the defense. Strickland v. Washington, 466 U.S. 668, 687 (1984).

4

Counsel’s representation is deficient if, “considering all the circumstances,”

5

it “fell below an objective standard of reasonableness” and was unreasonable

6

“under prevailing professional norms.” Id. at 688. “Judicial scrutiny of counsel’s

7

performance must be highly deferential. . . . A fair assessment of attorney

8

performance requires that every effort be made to eliminate the distorting effects of

9

hindsight.” Id. at 689. The Court “must indulge a strong presumption that

10

counsel’s conduct falls within the wide range of professional assistance; that is, the

11

defendant must overcome the presumption that, under the circumstances, the

12

challenged action might be considered sound trial strategy.” Id. (internal quotation

13

omitted).

14

To establish that counsel’s deficient performance prejudiced the defense,

15

Petitioner must show “that there is a reasonable probability that, but for counsel’s

16

unprofessional errors, the result of the proceeding would have been different. A

17

reasonable probability is a probability sufficient to undermine confidence in the

18

outcome.” Id. at 694. “The benchmark for judging any claim of ineffectiveness

19

must be whether counsel’s conduct so undermined the proper functioning of the

20

adversarial process that the trial cannot be relied on as having produced a just

21

result.” Id. at 686.

22
23
24
25
26
27
28

As the Supreme Court emphasized in Richter:
[s]urmounting Strickland’s high bar is never an easy task.
. . . Even under de novo review, the standard for judging
counsel’s representation is a most deferential one.
Unlike a later reviewing court, the attorney observed the
relevant proceedings, knew of materials outside the
record, and interacted with the client, with opposing
counsel, and with the judge. It is all too tempting to
second-guess counsel’s assistance after conviction or
6
Petitioner's App. 7 - 90

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 7 of 146 Page ID #:3510

1

adverse sentence. The question is whether an attorney’s
representation amounted to incompetence under
prevailing professional norms, not whether it deviated
from best practices or most common custom.

2
3
4

Establishing that a state court’s application of Strickland
was unreasonable under § 2254(d) is all the more
difficult. The standards created by Strickland and
§ 2254(d) are both highly deferential, and when the two
apply in tandem, review is doubly so. The Strickland
standard is a general one, so the range of reasonable
applications is substantial. Federal habeas courts must
guard against the danger of equating unreasonableness
under Strickland with unreasonableness under § 2254(d).
When § 2254(d) applies, the question is not whether
counsel’s actions were reasonable. The question is
whether there is any reasonable argument that counsel
satisfied Strickland’s deferential standard.

5
6
7
8
9
10
11
12
13
14

Richter, 131 S. Ct. at 788 (internal quotations and citations omitted).

15

III.

Claims 1 and 5(D)(1): Presentation of Guilt Phase Defense and

16

Petitioner’s Right to Testify

17

A.

18

In Claim 1, Petitioner alleges that he “had an irreconcilable conflict with his

Allegations

19

court-appointed attorneys, and the trial court failed to provide Mr. Carter with

20

conflict-free, effective counsel . . . .” (Pet. at 30.) Petitioner alleges that trial

21

counsel “unreasonably decided not to defend Mr. Carter at his capital trial,” and

22

that “Mr. Carter was at all times adamantly opposed to [trial counsel’s] decision to

23

forgo a guilt-phase defense.” (Id. at 31.) Petitioner “informed counsel . . . that ‘I

24

wanted them to subpoena the witnesses I wanted to call, and that I wanted to put on

25

a defense, and I wanted to testify.’” (Id. at 32 (quoting 54 RT 6187).) Petitioner

26

asserts that his “emphatic disagreement with trial counsel over his decision not to

27

defend Mr. Carter at the guilt phase led to an complete [sic] breakdown in

28

communication between the two,” and that the “trial court failed to adequately
7
Petitioner's App. 7 - 91

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 8 of 146 Page ID #:3511

1

inquire into the nature and extent of the conflict.” (Id. at 35.) In Claim 5(D)(1),

2

Petitioner alleges that trial counsel failed to inform him adequately of his right to

3

testify, call witnesses on his behalf, and otherwise defend himself. (Id. at 62; see

4

also Petitioner Dean Phillip Carter’s 28 U.S.C. § 2254(d) Brief (“Petr.’s Br.”) at

5

21, 114-17.) Petitioner alleges that counsel interfered with his ability to address

6

the court about his grievances. (Pet. at 62.)

7

It is undisputed by the parties that the trial court held four hearings pursuant

8

to California v. Marsden, 2 Cal. 3d 118 (1970), to consider whether a substitution

9

of counsel was required as a result of ineffective representation. (See Petr.’s Br. at

10

51-52, 63 n.31; Response to Petitioner’s 28 U.S.C. Section 2254 Brief (“Respt.’s

11

Br.”) at 15.) The court also heard a motion for new trial based, in part, upon

12

Petitioner’s alleged inability to present a defense as a result of the conduct of his

13

trial counsel, Howard Gillingham. Petitioner was represented by separate counsel

14

at the hearing, and both Petitioner and Gillingham testified. (See 54 RT 6149,

15

6162-6203.)

16

Petitioner alleges that at the Marsden hearing held after the conclusion of the

17

prosecution’s case in chief, Petitioner did not speak because Gillingham “told him

18

that ‘he would present it to the court and for [Petitioner] to just sit there and let

19

him, you know, get it on the record.’” (Pet. at 33 (quoting 54 RT 6188).)

20

Petitioner contends that Gillingham improperly informed him that whether

21

Petitioner would testify was counsel’s decision, not Petitioner’s, and that Petitioner

22

would not be called as a witness despite his desire to testify. (Id. at 34, 36 n.12.)

23

Petitioner asserts that despite Gillingham’s statement to the trial court that his

24

decision not to present witnesses precluded Petitioner from testifying, the trial

25

court “did not inquire of Mr. Carter regarding his desire to testify, or whether he

26

wanted his attorneys to present a defense.” (Id. at 36.) According to Petitioner, the

27

trial court “erroneously decided that Mr. Carter did not have a superceding right to

28

present a defense to capital murder charges,” but that “it was a tactical decision
8
Petitioner's App. 7 - 92

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 9 of 146 Page ID #:3512

1

counsel could make unilaterally,” and “did not correct counsel’s misstatements of

2

the law or directly inquire of Mr. Carter regarding the nature and extent of the

3

conflict.” (Id. (citing 42 RT 5094-95; 45 RT 5394).)

4

B.

5

On direct appeal, the California Supreme Court held:

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Decision on Direct Appeal

Although a defendant in a capital trial [has] the right to
have his only viable defense to the guilt or special
circumstance charges presented at the initial stage of
trial, and counsel lacks the authority to override the
defendant’s decision to present such a defense at the guilt
phase of the trial, in the present case the record does not
establish that defendant had a viable defense. Here, the
record supports the People’s position that defendant, a
person with a sophisticated view of the criminal justice
system from the inside, complained sufficiently during
proceedings conducted in the trial court so as to create a
colorable appellate issue, but not sufficiently to obligate
the trial court to relieve his counsel.[1]
[1]

We believe that the prosecutor’s argument in
summation at the hearing on defendant’s motion
for new trial aptly summarizes the state of the
record: ‘[L]ooking at the transcript, the court
could . . . and should draw the conclusion that what
happened was Mr. Carter was a defendant who
wanted things his way. Mr. Gillingham did not do
them his way for valid legally sufficient reasons,
and Mr. Gillingham indicated this . . . displeasure
of Mr. Carter, but in the end, Mr. Carter acceded to
Mr. Gillingham’s trial strategy. He was present
during all of these proceedings, and he is not a
novice in this business. He is not a person who is
not unfamiliar [sic] with the courts and the court
system. He has not hesitated in the past to
comment. I suggest this motion should be denied
in its entirety. There is no error at all.’
Accordingly, defendant’s claim that he was denied the
opportunity to present a defense, and to conflict-free,
9
Petitioner's App. 7 - 93

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 10 of 146 Page ID #:3513

1

effective representation, should be denied.

2

With respect to defendant’s asserted desire to testify at
trial, we are guided by well-settled rules: ‘Every criminal
defendant is privileged to testify in his own defense, or to
refuse to do so.’ Harris v. New York, 401 U.S. 222, 225
(1971). . . . Although tactical decisions at trial are
generally counsel’s responsibility, the decision whether
to testify, a question of fundamental importance, is made
by the defendant after consultation with counsel. [See]
United States v. Martinez, 883 F.2d 750, 755 (9th Cir.
1989), vacated on other grounds at 928 F.2d 1470 (9th
Cir. 1991).

3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Moreover, we previously have rejected the position that a
trial court must obtain an affirmative waiver on the
record whenever a defendant fails to testify at trial. . . .
[Cf.] Florida v. Nixon, 543 U.S. 175, [189] (2004)
(although defense counsel ‘was obliged to, and in fact
several times did, explain his proposed trial strategy’ to
the defendant, counsel ‘was not additionally required to
gain express consent before conceding [the defendant’s]
guilt’) . . . .
Here, as noted above, defendant had ample opportunity
during the course of three Marsden hearings to inform
the court that he wished to testify, against the advice and
over the objection of defense counsel, even if defense
counsel were permitted to decline to present any other
defense witnesses who would support defendant’s own
testimony. In view of defense counsel’s repeated efforts
during the Marsden hearings to inform the trial court of
the conflicts that had arisen with his client, the trial court
reasonably could have determined that had defendant told
his counsel that defendant insisted upon testifying despite
the absence of any other defense witnesses, his counsel
would have conveyed that demand to the trial court. In
view of the circumstance that counsel never told the trial
court that defendant had made such a demand, on this
record we may not assume that defendant in fact had
insisted upon testifying even where no other defense
10
Petitioner's App. 7 - 94

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 11 of 146 Page ID #:3514

1

witnesses would be presented to support his testimony.

2

Similarly, defendant’s further contention that the trial
court failed adequately to inquire into his conflict with
trial counsel similarly is belied by the record before us.
As noted above, the court conducted three Marsden
hearings during the course of the trial for the purpose of
permitting the airing of the conflict between defendant
and his attorneys. During these hearings, defense
counsel brought to the court’s attention defendant’s
dissatisfaction with counsel’s trial strategy and tactics.
Although at the hearing on the motion for new trial,
defendant testified that counsel had not informed the
court at the July 5th and July 10th [1989] Marsden
hearings of all the witnesses whom defendant wanted to
call, we are satisfied from the record before us that in the
course of conducting three Marsden hearings, the trial
court adequately inquired as to the issues raised by the
defense, and that counsel fairly characterized the nature
of the conflict for the trial court.

3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Carter, 36 Cal. 4th at 1197-99 (internal quotations omitted, citations omitted and
edited, emphasis in original).
C.

Alleged Section 2254(d) Violations

Petitioner argues that the state court’s rejection of his claim was
unreasonable under § 2254(d) because “two premises of the state court’s decision
are at odds with the evidence:” Petitioner did not accede to trial counsel’s strategy,
and trial counsel did not have valid reasons for not putting on a defense as a result
of inadequate investigation. (Petr.’s Br. at 56-57, 117.) Petitioner asserts that
counsel did not go over his proffered testimony “‘in detail,’” and did not analyze
the forensic evidence in the case. (Id. at 55-56 (quoting 54 RT 6180).) Petitioner
also argues that the California Supreme Court’s assumption that Petitioner had a
sophisticated view of the criminal justice system was unfounded, and that its
finding that the record did not establish that Petitioner had a viable defense was

11
Petitioner's App. 7 - 95

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 12 of 146 Page ID #:3515

1

objectively unreasonable. (Id. at 57-59.) Petitioner argues that the California

2

Supreme Court made an unreasonable determination of the facts in light of the

3

consistent testimony of Petitioner and Gillingham that an irreconcilable difference

4

existed between them. (Id. at 16 (citing Pet. Ex. 64; 53 RT 6135-36; 54 RT 6186-

5

87), 61.)

6

Petitioner contends that “[t]his case is on all fours with Schell . . .[, where,]

7

in the context of a claim falling under Gideon, the Ninth Circuit found that the

8

petitioner had sufficiently alleged that a ‘toxic conflict’ with his attorney violated

9

his Sixth Amendment rights.” (Id. at 55 (quoting Schell v. Witek, 218 F.3d 1017,

10
11

1026 (9th Cir. 2000) and citing Gideon v. Wainwright, 372 U.S. 335 (1963)).)
Finally, as to his claim that the trial court failed to inquire adequately into

12

his conflict with counsel, Petitioner argues that the California Supreme Court’s

13

rejection of the claim was unreasonable because “a cursory examination of the first

14

three Marsden hearings reveals that the trial court made no meaningful inquiry . . .

15

to determine the full extent of the conflict . . . . [It] appears that the California

16

Supreme Court assumed that the trial court adequately inquired . . . , even though

17

there was no evidence to support that assumption.” (Id. at 65.)

18
19
20

D.

Analysis
1.

Counsel’s Strategy and Petitioner’s Position
a.

Conflict and Constitutionally Effective Assistance

21

The California Supreme Court relied in part upon United States v. Martinez,

22

883 F.2d at 755. See Carter, 36 Cal. 4th at 1198. “Although Martinez is no longer

23

binding precedent, its reasoning remains sound.” United States v. Pino-Noriega,

24

189 F.3d 1089, 1096 (9th Cir. 1999) (citing United States v. Joelson, 7 F.3d 174,

25

178 n.1 (9th Cir. 1993) (approving of Martinez’s reasoning)). In Martinez, at the

26

close of the government’s case, according to defendant’s counsel, defendant:

27
28

‘expressed to me the desire to testify; and I said no way,
that I thought it was suicidal for him to testify and it
12
Petitioner's App. 7 - 96

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 13 of 146 Page ID #:3516

1

would be an error in judgment; and that was it. I just
made the decision he was not going to testify, I refused to
call him, and that was the way it went down.’ . . . ‘If we
keep it pure and simple . . . , the way it went down was
[defendant] says: “I want to testify”; I said “No, you’re
not going to testify”; period, end of conversation.’

2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

883 F.2d at 752 (punctuation in original). After his conviction and sentence,
defendant obtained new counsel and moved for a new trial based upon a violation
of his right to testify at trial. On appeal from the denial of a new trial, the Ninth
Circuit rejected defendant’s argument that because he continued to ask to testify
even after counsel’s refusal, he had preserved his right to testify. Id. at 756.
Instead, the court held that defendant waived his right through his conduct by
continuing on in the proceedings under counsel’s representation without testifying:
“The defendant’s knowledge of his right [to testify] led him to insist [on
testifying]. Respect for his lawyer’s judgment eventually led him not to persist.”
Id. at 761.
Petitioner relies upon Schell, 218 F.3d at 1026, which considered a habeas
petitioner’s allegation that the trial court violated his right to counsel by failing to
rule upon a motion for substitute counsel. (See Petr.’s Br. at 55.) The public
defender representing Schell made the motion before Schell’s first trial judge, in
Schell’s absence. When the case was transferred to a second judge, the motion was
never addressed. On appeal from Schell’s conviction, the California Court of
Appeal held that Schell had waived or abandoned his motion for substitute counsel.
The California Supreme Court denied Schell’s petition for review and his habeas
petition, and “[n]o state tribunal held a hearing to explore Schell’s allegations
against his lawyer.” Schell, 218 F.3d at 1021. On habeas review, the Ninth Circuit
observed that “[t]he denial without a hearing of a motion to substitute appointed
counsel based on allegations of an ‘irreconcilable conflict’ implicates the
defendant’s Sixth Amendment right to counsel.” Id. at 1023. The court stated that:

13
Petitioner's App. 7 - 97

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 14 of 146 Page ID #:3517

1
2
3
4
5
6
7
8
9
10
11
12

the basic question is simply whether the conflict between
Schell and his attorney prevented effective assistance of
counsel. See Morris [v. Slappy], 461 U.S. [1,] 13-14
[1983] (holding that the Sixth Amendment requires only
competent representation and does not guarantee a
meaningful relationship between a defendant and
counsel). It may be the case, for example, that because
the conflict was of Schell’s own making, or arose over
decisions that are committed to the judgment of the
attorney and not the client, in fact he actually received
what the Sixth Amendment required in the case of an
indigent defendant, notwithstanding the State trial court’s
failure to inquire.
Schell, 218 F.3d at 1026 (footnote omitted).
Here, after reviewing the multiple hearings conducted by the trial court, the

13

California Supreme Court held that Petitioner failed to demonstrate that the

14

conflict arose over a decision committed to the judgement of the client and not the

15

attorney. The California Supreme Court emphasized in its appellate decision that

16

Petitioner did not say that he wanted to testify “even if defense counsel were

17

permitted to decline to present any other defense witnesses who would support

18

defendant’s own testimony. . . . [O]n this record we may not assume that defendant

19

had in fact insisted upon testifying even where no other defense witnesses would

20

be presented to support his testimony.” Carter, 36 Cal. 4th at 1199 (emphasis in

21

original). The California Supreme Court’s reasoning is critical. Petitioner

22

consistently testified that he wanted, as a whole, “to call witnesses, put on a

23

defense and testify.” (54 RT 6187; see also id. at 6185, 6188.) Counsel’s

24

testimony, too, was that “Mr. Carter wanted to put on at all times a full-blown

25

defense, and part of putting on a full-blown defense was the possibility potential

26

[sic] of testifying.” (Id. at 6169; see also Pet. Ex. 64 ¶ 5 (“Petitioner . . . wanted

27

me to challenge the prosecution’s case in guilt phase [sic], and . . . he then

28

anticipated he would testify in his own behalf after the presentation of defense
14
Petitioner's App. 7 - 98

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 15 of 146 Page ID #:3518

1

evidence” (emphasis added)).1 The state court’s holding that it could not assume

2

that Petitioner had insisted upon testifying even if no other defense witnesses

3

would be presented is consistent with Gillingham’s testimony, and is not

4

inconsistent with Petitioner’s. Gillingham testified:

5

Q.

So, in other words, it was discussed several times
prior to the Marsden hearing and in each of those
occasions Mr. Carter indicated he wanted to put on
a defense, and he wanted to testify?

A.

Yes, and it might have been framed in the
negative, you know, “Aren’t you going to do
something, you know? Where are the witnesses?
What are you going to do?” So it would have been
like that, possibly, too. In fact, I think I recall that
sort of thing.

6
7
8
9
10
11
12
13

(54 RT 6172.) Petitioner’s questions to Gillingham about what Gillingham was

14

going to do and whether Gillingham was going to call witnesses support the

15

California Supreme Court’s determination that Petitioner failed to demonstrate an

16

insistence upon testifying even if no other defense witnesses would be called.

17
18
19
20
21
22
23
24
25
26
27
28

1

The Court notes that, contrary to Petitioner’s allegations, the trial court did not state that
Petitioner lacked the right to present a defense. (See Petr.’s Br. at 36 (citing 42 RT 5094-95).) At
the July 5, 1989 hearing at issue, the trial court stated that “the Court agrees that in these matters
the decisions should be with the counsel.” (42 RT 5096.) At that hearing, only the “defense
strategy . . . that we should rest at this time . . . [and the] potential witnesses that could have been
called,” and not any desire by Petitioner to testify – dependent upon the presentation of witnesses
or otherwise – was before the court. (Id. at 5092); cf. Nixon, 543 U.S. at 187 (“[C]ertain decisions
regarding the exercise or waiver of basic trial rights are of such moment that they cannot be made
for the defendant by a surrogate. A defendant . . . has the ultimate authority to determine whether
to plead guilty, waive a jury, testify in his or her own behalf, or take an appeal. Concerning those
decisions, an attorney must both consult with the defendant and obtain consent to the
recommended course of action” (internal quotation and citation omitted; citing with approval
Taylor v. Illinois, 484 U.S. 400, 417-18 (1988))); Taylor, 484 U.S. at 417-18 (“Although there are
basic rights that the attorney cannot waive without the fully informed and publicly acknowledged
consent of the client, the lawyer has – and must have – full authority to manage the conduct of the
trial. . . . Putting to one side the exceptional cases in which counsel is ineffective, the client must
accept the consequences of the lawyer’s decision . . . not to put certain witnesses on the stand”
(footnote omitted)).

15
Petitioner's App. 7 - 99

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 16 of 146 Page ID #:3519

1

Finally, regarding Petitioner’s acquaintance with the criminal justice system,

2

Petitioner had, at a minimum, previously moved for the appointment of new

3

counsel because of a conflict over the defense. (See RT 90A-90F.) Gillingham

4

was appointed as a result of that successful motion. (See id.) Petitioner’s motion

5

was granted based upon a “total conflict of interest” over “how the case is

6

defended[,] as to what the defense is going to be.” (Id. at 90C.) Despite

7

Petitioner’s familiarity with that process, however, Petitioner did not request the

8

appointment of new counsel when Gillingham stated his intention to rest without

9

calling witnesses. Although Gillingham testified generally that Petitioner desired

10

“the synthesis” of what was said on July 5, 10, and 17, 1989 to be presented on

11

July 5, the day the defense rested (6 CT 1631; 54 RT 6182), he testified more

12

specifically that he did not recall whether Petitioner wanted him to request new

13

counsel on July 5. (54 RT 6176.) Gillingham testified that it “could be” that

14

Petitioner wanted him to request new counsel on July 5, but he “just [doesn’t]

15

recall that part.” (Id.) Counsel specifically recalled knowing that Petitioner

16

“wanted to contest the guilt phase, but he had some confidence in us, too . . . .” (Id.

17

at 6171 (emphasis added).) Petitioner himself testified:

18

Q.

During these discussions, did you make any
request with respect to the Marsden-type of
hearing?

A.

Yeah, I did.

Q.

What did you say?

A.

Well, I asked him, you know, if he would indicate
to the court that I was not happy with what he was
doing, and I wanted to make sure it was clear that
it was over my objection that he was doing it.

Q.

By “unhappy,” that you wanted to present a
defense and you wanted to testify?

A.

Right. . . .

19
20
21
22
23
24
25
26
27
28

16
Petitioner's App. 7 - 100

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 17 of 146 Page ID #:3520

1

Q.

Now, after the first Marsden hearing [on July 5,
when counsel informed the court he was planning
to rest without calling witnesses,] was over, did
you say anything to Mr. Gillingham about
something that wasn’t said in the first Marsden
hearing?

A.

Yeah, I told him that I didn’t think he really made
it as clear as I would have liked; that he had left
out a couple of things.

8

Q.

What had he left out?

9

A.

I don’t think he mentioned all the witnesses that I
wanted to call, and he also didn’t tell the court that
I wanted to testify on my own behalf.

2
3
4
5
6
7

10
11
12

(Id. at 6188.) Petitioner never testified that Gillingham failed to mention at the

13

July 5 hearing that he wanted new counsel.

14

“A defendant is ‘presumed to assent to his attorney’s tactical decision not to

15

have him testify.’” Pino-Noriega, 189 F.3d at 1094 (quoting Joelson, 7 F.3d at

16

177). The California Supreme Court’s determination that Petitioner acceded

17

through his conduct to Gillingham’s trial strategy, as a factual matter, was not

18

unreasonable in light of that presumption, the consistent statements by Petitioner

19

and Gillingham that Petitioner wished to put on a full-blown defense and testify

20

after the presentation of defense witnesses, and Petitioner’s failure to move for new

21

counsel when Gillingham intended to rest. See Hibbler, 639 F.3d at 1146 (holding

22

that state court’s factual findings are not unreasonable under 28 U.S.C.

23

§ 2254(d)(2) unless they could not be reasonably concluded to be supported by the

24

record). Likewise, the possibility of disagreement among fairminded jurists over

25

the California Supreme Court’s legal conclusion does not render that conclusion

26

objectively unreasonable. See Richter, 131 S. Ct. at 786 (“A state court’s

27

determination that a claim lacks merit precludes federal habeas relief so long as

28

fairminded jurists could disagree on the correctness of the state court’s decision”
17
Petitioner's App. 7 - 101

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 18 of 146 Page ID #:3521

1

(internal quotation omitted)).

2
3

b.

Counsel’s Investigation and Viability of a Defense

Petitioner also challenges the California Supreme Court’s denial of the claim

4

based upon its statement that Petitioner lacked “a viable defense.” Carter, 36 Cal.

5

4th at 1197. As discussed in more detail in Claims 5(D)(2) and 5(D)(3), the

6

California Supreme Court’s conclusion was not objectively unreasonable.

7

Petitioner’s guilt phase allegations of “numerous forensic challenges [that] could

8

have been raised at each crime scene” (Petr.’s Br. at 57) are discussed, and

9

rejected, below (see infra pp. 40-45), as is his alleged evidence “to call into

10

question whether Carter had the ability to form the requisite intent for the crimes

11

and special circumstances with which he was charged.” (Petr.’s Br. at 58; see infra

12

pp. 34-39.) Likewise, the California Supreme Court’s denial of Petitioner’s claim

13

that his penalty phase presentation was prejudiced by Gillingham’s investigation

14

(see Petr.’s Br. at 54) is not objectively unreasonable. (See infra pp. 59-63.)

15
16

2.

Trial Court’s Inquiry

The California Supreme Court’s determination that the trial court adequately

17

inquired into Petitioner’s disagreement with Gillingham is also not objectively

18

unreasonable. The trial court “permitt[ed] the airing of the conflict,” Carter, 36

19

Cal. 4th at 1199, and inquiring further may have risked appearing to encourage

20

Petitioner to testify. See Joelson, 7 F.3d at 178; United States v. Edwards, 897

21

F.2d 445, 447 n.[1] (9th Cir. 1990); Martinez, 883 F.2d at 756. In Joelson, for

22

example, the defendant “made an on-the-record request to testify . . . [and], after

23

Joelson’s request, the district court encouraged Joelson to follow his attorney’s

24

advice,” which (as Joelson had informed the court) was not to testify. 7 F.3d at

25

178. Defendant conferred with his attorney, and the attorney then stated that the

26

defense would not be presenting any evidence. Id. Joelson did not object or ask to

27

testify. Id. On appeal, the circuit court observed:

28

The court’s extensive discussion with Joelson about
18
Petitioner's App. 7 - 102

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 19 of 146 Page ID #:3522

1

following his attorney’s advice is troubling. As the
Martinez court observed in holding that a court has no
obligation to make an on-the-record determination as to
whether a defendant wants to testify, judicial interference
with this strategic decision poses a danger that ‘the judge
will appear to encourage the defendant to invoke or
waive this right. . . . This danger is of great significance
because the right not to testify counterpoises the right to
testify, and the exercise of one is the waiver of the other.’
883 F.2d at 756 (citations omitted); see also Edwards,
897 F.2d at 447 n.[1] (discussing the concerns raised in
Martinez regarding excessive interference by the district
court in the defendant’s decision whether to testify).

2
3
4
5
6
7
8
9
10
11

Joelson, 7 F.3d at 178 (ellipsis in original).

12

Because the California Supreme Court’s determination that the trial court

13

adequately inquired into the disagreement with counsel is not objectively

14

unreasonable, Petitioner is not entitled to relief on this basis. Claims 1 and 5(D)(1)

15

are, therefore, DENIED.

16

IV.

Claim 3:

Concealment of Information on Voir Dire

17

A.

18

In Claim 3, Petitioner alleges that his federal constitutional rights were

Allegations

19

violated because “a juror who was seated on his jury concealed material

20

information in voir dire.” (Pet. at 41.) Petitioner alleges that juror Sharon K.

21

“suffered a significant fear of violent crimes and burglary” that she could not set

22

aside when sitting as a juror. (Id. at 44.) In his Petition, Carter alleges that Sharon

23

K.’s communication of that fear to a second juror “create[d] an additional

24

constitutional violation and a ground for an unrebutted presumption of prejudice,”

25

(Id. at 44.) In his merits briefing, by contrast, Petitioner faults the California

26

Supreme Court for applying a rebuttable presumption of prejudice, arguing instead

27

that such a test is contrary to clearly established federal law. (Petr.’s Br. at 74

28

(citing concurring opinions in McDonough Power Equip., Inc. v. Greenwood, 464
19
Petitioner's App. 7 - 103

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 20 of 146 Page ID #:3523

1

U.S. 548, 556-59 (1984)).) Petitioner adds in his merits brief that Sharon K.

2

“misrepresent[ed] her availability for trial.” (Id. at 77.)

3

B.

Analysis

4

First, Petitioner mischaracterizes Sharon K.’s statements regarding her

5

availability for trial. (See Petr.’s Br. at 77-78.) Petitioner argues that Sharon K.

6

“provided inconsistent statements” when, on her juror questionnaire, she responded

7

“no” when asked, “Do you have any personal or other considerations that might

8

cause you to ‘hurry along’ the process of decision making in the jury room?”

9

(Petr.’s Br. at 77 (quoting Supp. CT II, Part II at 179).) Petitioner alleges that “[i]n

10

fact, however, . . . [a]s she explained during voir dire,” her work schedule required

11

ten to twelve hour days; she was short-staffed; and she would be consistently

12

worried about her business. (Id. at 77-78 (citing 13 RT 1601-02).) Petitioner

13

claims that “[n]o attempt was ever made by Juror Sharon K. to explain the

14

discrepancy between her juror questionnaire responses and her voir dire

15

responses,” and that “[d]iscrepancies such as these cast great doubt upon whether

16

Juror Sharon K. owned a gun because, as she claimed, she used it in her capacity as

17

a track official, or whether she owned a gun because she feared being the victim of

18

another crime.” (Id. at 78 (citing Supp. CT II, Part II at 174).)

19

The record shows no discrepancy between Sharon K.’s questionnaire and

20

voir dire responses. Sharon K. made clear upon voir dire that it was “[i]n the last

21

week and-a-half” that one of her staff had left the company and her job

22

responsibilities had become strained. (13 RT 1601.) “[T]his just happened,” she

23

said, “in between the first time we were here.” (Id.) Directly contrary to

24

Petitioner’s allegation that Sharon K. offered no explanation for the purported

25

discrepancy, she offered this update to the Court in response to its prompt to all

26

potential jurors that “[i]f there is an answer that you gave on the questionnaire that

27

you’ve thought about that you want to expand on or modify in some way, just tell

28

us. . . .” (Id. at 1599.) The discrepancy Petitioner conjures does nothing to support
20
Petitioner's App. 7 - 104

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 21 of 146 Page ID #:3524

1

his speculation that Sharon K. may have owned a gun for any reason besides her

2

stated explanation that she used it in her capacity as a track starter. (See Petr.’s Br.

3

at 78 (citing Supp CT II, Part II at 174); see also 13 RT 1622.)

4

Second, Petitioner fails to show that the California Supreme Court’s

5

application of a rebuttable presumption of juror bias is contrary to clearly

6

established federal law. The California Supreme Court held, in relevant part, that:

7

juror misconduct involving the concealment of material
information on voir dire raises the presumption of
prejudice, and . . . [t]his presumption of prejudice may be
rebutted by an affirmative evidentiary showing that
prejudice does not exist or by a reviewing court’s
examination of the entire record to determine whether
there is a reasonable probability of actual harm to the
complaining party [resulting from the misconduct].

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Applying the foregoing standards, it is clear that Juror
K.’s failure to answer Question 61 more completely did
not constitute misconduct and, even if we were to assume
that misconduct did occur, the presumption of prejudice
was rebutted by the substance of her testimony at the
hearing on defendant’s motion for new trial. Assuming,
for the sake of argument, that defendant is correct in
asserting that Juror K.’s answer to Question No. 61 was
inaccurate, her statement at the hearing that ‘I hadn’t and
haven’t thought about that incident at all for the last 12
years’ diminished if not dispelled its potential
significance.
Further, even if Juror K. in fact had concealed the
information, the circumstances that the incident was
‘very brief’ and occurred more than a decade earlier, and
that Juror K. realized because she had been burglarized
that ‘everyone has feares’ [sic], established that the
omitted information was immaterial to her overall
qualifications or suitability to serve as a juror. Those
qualifications clearly were established in the course of
counsel’s voir dire.
21
Petitioner's App. 7 - 105

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 22 of 146 Page ID #:3525

1

7

Moreover, even if we were to assume Juror K.’s answer
to Question No. 61 was inaccurate, evasive, and material,
the circumstance that as a teenager living alone for the
first time, Juror K. was ‘paranoid for a short period of
someone breaking in,’ leading her to keep a kitchen knife
in close proximity overnight, does not provide any basis
for concluding that she harbored undisclosed juror bias.
Accordingly, the presumption of prejudice was rebutted.
Carter, 36 Cal. 4th at 1208-09 (internal quotations, citations, and footnotes

8

omitted; alterations in original).

2
3
4
5
6

9

“The motives for concealing information may vary, but only those reasons

10

that affect a juror’s impartiality can truly be said to affect the fairness of a trial.”

11

McDonough, 464 U.S. at 556. The absence of bias, therefore, defeats a claim that a

12

juror’s failure to answer a material question honestly led to a constitutional

13

violation. See id. The application of a presumption of bias that can be rebutted is

14

not contrary to that principle. See Wainright v. Witt, 469 U.S. 412, 424 (1985)

15

(“[T]he proper standard for determining when a prospective juror may be excluded

16

for cause . . . is whether the juror’s views would prevent or substantially impair the

17

performance of his duties as a juror in accordance with his instructions and his

18

oath” (internal quotation omitted)); see also McDonough, 464 U.S. at 556 (“[T]o

19

obtain a new trial . . . , a party must first demonstrate that a juror failed to answer

20

honestly a material question on voir dire, and then further show that a correct

21

response would have provided a valid basis for a challenge or cause”).

22

Here, the California Supreme Court found that Sharon K. had no reasons for

23

concealing any information that affected her impartiality. The court held that “the

24

substance of her testimony at the hearing on defendant’s motion for new trial”

25

disproved any potential bias. Carter, 36 Cal. 4th at 1208. Sharon K. testified:

26
27
28

I got an apartment for the first time when I was – I can’t
even remember – 18 or 19, and I lived by myself, and . . .
I was paranoid for a short period of somebody breaking
in, or whatever . . . [and] one night I woke up, could not
22
Petitioner's App. 7 - 106

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 23 of 146 Page ID #:3526

1
2
3
4
5

go to sleep, and I said, well, if anything does happen, I
am going to defend myself, so I went into my kitchen. I
got a knife, and I put it between my mattresses, and I then
– that didn’t help, so I spent the entire night up still, and I
don’t know exactly when, but I can tell you I probably
got up the next morning and thought how silly and put it
back. It was very brief and that was it.

6
7

(54 RT 6159.) When asked if she had ever been in a situation, at any time prior to

8

her juror questionnaire, in which she feared any kind of violence, she said, “no, no,

9

not really.” (Id. at 6160.) When next asked whether that night was not a situation

10

in which she feared violence, she responded that she “had trouble sleeping because

11

of noises going on, or whatever, and it was all in my imagination. Like I said, I

12

probably got up in the morning and thought how silly . . . .” (Id. at 6161.) Only

13

after being asked the same question again, and focusing on whether counsel was

14

asking about that night in particular, did Juror K. say that yes, on that night she

15

feared violence. (Id.) The California Supreme Court was not objectively

16

unreasonable in determining from Juror K’s testimony that she did not conceal

17

information for reasons affecting her impartiality.

18

Finally, Petitioner’s allegation that Sharon K. communicated her past fear to

19

another juror is supported in the record only by passing hearsay. Defense counsel

20

told the trial court that another juror “is a witness to [Sharon K.]’s making that

21

statement [that she slept with a knife under her bed out of fear], so I – I [would]

22

simply call her in case . . . [Sharon K.] denied making the statement. I may not

23

need her.” (54 RT 6153-54.) As the California Supreme Court noted:

24
25
26
27
28

With regard to defendant’s related claim of misconduct
arising from Juror K.’s reportedly having told Juror C-M.
of her concealed fears, we observe that the record on
appeal does not indicate what Juror K. said to the other
juror and when she said it. Defense counsel had the
opportunity to call Juror C-M. at the hearing on
defendant’s motion for new trial, but did not do so.
23
Petitioner's App. 7 - 107

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 24 of 146 Page ID #:3527

1

Carter, 36 Cal. 4th at 1209 n.49. Petitioner fails, therefore, to establish any

2

constitutional violation involving juror C-M.

3
4
5

Accordingly, Claim 3 is DENIED.
V.

Claim 4:

Juror Notes

In Claim 4, Petitioner alleges that the jurors in their deliberations improperly

6

relied upon the purportedly verbatim shorthand notes taken by one juror. (Pet. at

7

45-49; Petr.’s Br. at 81.) Petitioner offers as evidence two juror declarations that

8

the notes were very helpful and received much attention during deliberations. (See

9

Pet. at 47-48.) Petitioner argues that the jurors “were forbidden by law from

10

giving more weight to their own notes than to their own personal recollection of

11

the evidence presented in court [and] . . . were forbidden by law from disclosing

12

their own personal notes to the other jurors and from considering the personal

13

notes taken by other jurors.” (Id. at 46.)

14

The California Supreme Court may have reasonably held that any

15

misconduct by the jury in considering the juror’s notes was not prejudicial. “A

16

distinction may be drawn between extrinsic or extraneous influences and intrinsic

17

influences on the jury’s deliberations. . . . Intrinsic influences include discussions

18

and even intimidation or harassment among jurors. Intrinsic influences on a jury’s

19

verdict are not competent to impeach a verdict.” United States v. Bassler, 651 F.2d

20

600, 602 (8th Cir. 1981). The Ninth Circuit, surveying cases in which alleged

21

juror misconduct was held to be nonprejudicial, cited Bassler with approval for the

22

proposition that a juror’s notes taken into the jury room were “intrinsic to the

23

deliberations.” United States v. Bagnariol, 665 F.2d 877, 886 (9th Cir. 1981); see

24

also United States v. Bussell, 414 F.3d 1048, 1055 (9th Cir. 2005) (relying upon

25

Bagnariol and Bassler in holding that jurors’ speculation about disposition of

26

charges against co-defendant was not “extraneous prejudicial information” and

27

juror declarations were thus inadmissible under Federal Rule of Evidence 606(b)).

28

In Bassler, the Eighth Circuit concluded that although the juror’s notes were made
24
Petitioner's App. 7 - 108

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 25 of 146 Page ID #:3528

1

known to the jury and referred to several times during deliberations, appellant

2

could not show prejudice from the jurors’ use of the notes. 651 F.2d at 602.

3

Similarly, in United States v. Connolly, the First Circuit rejected a challenge to the

4

jury’s verdict based on the use of a juror’s notes. 341 F.3d 16, 33-35 (1st Cir.

5

2003). There, a news article following appellant’s trial reported that one juror said

6

that notes taken by two jurors were “very helpful” during deliberations. Id. at 33.

7

The circuit court held that any such notes “cannot be considered an ‘extraneous’ or

8

‘extrinsic’ influence,” but were “intrinsic” and cannot demonstrate prejudice. Id.

9

at 34-35 (emphasis in original).

10

Because any intrinsic influences on the jury’s deliberations through use of

11

the juror’s notes are not competent to impeach the verdict, Claim 4 is DENIED.

12

VI.

Claim 5: Ineffective Assistance at Guilt Phase of Trial

13

A.

Overview

14

In Claim 5, Petitioner alleges ineffective assistance of counsel at various

15

stages of his guilt phase of trial. Petitioner argues that but for counsel’s

16

unprofessional actions and omissions, the result of the proceeding would have been

17

different. (Pet. at 49.)

18
19
20

B.

Claim 5(B): Ineffectiveness at Preliminary Hearing
1.

Allegations

In Claim 5(B), Petitioner asserts that Petitioner’s counsel Ezekiel Perlo was

21

ineffective for “assert[ing] Mr. Carter’s ‘vicinage’ rights and unravel[ing] the

22

consolidation” of the San Diego, Alameda, and Los Angeles charges. (Id. at 53.)

23

Petitioner argues that he “gained nothing from having the charges separated into

24

two separate trials.” (Id.) Petitioner further alleges that:

25
26
27
28

during the preliminary hearing, Perlo had an opportunity
to meaningfully question Ray Blevins . . . . Despite the
fact that Blevins and Kim had a volatile and turbulent
relationship, and that meaningful cross-examination
could have been used to develop evidence implicating
25
Petitioner's App. 7 - 109

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 26 of 146 Page ID #:3529

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15

Blevins in Kim’s murder, counsel’s cross-examination of
Blevins was perfunctory, lasting less than a couple of
minutes.
(Petr.’s Br. at 122; see also Pet. at 53.) Blevins’s preliminary hearing testimony
was admitted at trial because Blevins was then deceased. (See 41 RT 5014-22.)
First, as to the separation of the San Diego, Alameda, and Los Angeles
charges, the California Supreme Court may have reasonably determined that
Petitioner failed to demonstrate prejudice from any deficient performance by
counsel. The court may have determined on habeas review, as it did on direct
appeal (in the context of a related claim), that Petitioner “presents no persuasive
basis for concluding that a jury that [convicted and] imposed the death sentence for
three murders would have imposed a lesser sentence if defendant had been charged
in this proceeding with additional crimes, including murder.” Carter, 36 Cal. 4th
at 1160.
The California Supreme Court may have likewise found a lack of prejudice
regarding Perlo’s cross-examination of Blevins. The court held on direct appeal:

16
17
18
19
20
21
22
23
24

Perlo’s performance at the preliminary hearing was not
deficient. Defendant’s assertions to the contrary ignore
Perlo’s appropriate questioning of various witnesses and
instead merely speculate that more vigorous
cross-examination of certain witnesses, such as Ray
Blevins, Tok Kim’s former boyfriend . . . , might have
led the trial court to preclude the prosecution from
introducing evidence relating to the death of Kim and the
murder of Janette Cullins. Defendant’s assertions in this
regard do not establish that counsel performed
deficiently.

25

Id. at 1138. The court held that Petitioner had not identified any exculpatory

26

evidence overlooked at the preliminary hearing. See id. at 1139.

27
28

Blevins’s preliminary hearing testimony established that his relationship
with Kim ended under tense circumstances. Blevins testified that he was in a year26
Petitioner's App. 7 - 110

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 27 of 146 Page ID #:3530

1

and-a-half relationship with Kim, during which he paid her full rent and lived most

2

of the time in her apartment, when he discovered she had a relationship with

3

someone else. (41 RT 5017-19.) He found out about the new relationship when he

4

“saw Kim and this gentleman going down the stairway. She was coming out. . . .

5

They both was coming out of the apartment. I was at the elevator.” (Id. at 5017-

6

18.) Blevins saw the man, whom he identified as Petitioner, one later time at a

7

market in the apartment building. (Id. at 5022.)

8
9

Because there was evidence in the record of the circumstances under which
the Blevins-Kim relationship ended, and because Petitioner fails to present

10

evidence of other testimony that could have been revealed with more vigorous

11

cross-examination of Blevins, the California Supreme Court may have reasonably

12

found a lack of prejudice from counsel’s performance.

13

Claim 5(B) is, therefore, DENIED.

14

C.

15

Claim 5(C): Ineffectiveness at Voir Dire and Jury Selection
1.

16

Allegations

In Claim 5(C), Petitioner alleges that trial counsel was ineffective for failing

17

to conduct voir dire and jury selection effectively. Petitioner faults trial counsel

18

for failing to “explore the prospective jurors’ attitudes and beliefs regarding Mr.

19

Carter’s history of child abuse or history of cocaine or substance abuse as possible

20

theories of mitigation.” (Pet. at 55.) Petitioner asserts that only two of the twelve

21

seated jurors “were even asked whether they would be willing to consider Mr.

22

Carter’s vaguely-defined ‘background’ as relevant to the penalty phase decision.”

23

(Id.; see also Petr.’s Br. at 123 (citing Pet. Ex. 65 ¶ 9).) Petitioner also alleges that

24

trial counsel “unreasonably exposed four of the twelve jurors to references of

25

additional murders Carter allegedly committed. . . .” (Petr.’s Br. at 123 (citing Pet.

26

Ex. 65 ¶ 12 (identifying Jurors Rachal, Rotolo, Larsen, and Dean)); see also Pet. at

27

55.)

28
27
Petitioner's App. 7 - 111

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 28 of 146 Page ID #:3531

1

Next, Petitioner alleges that trial counsel “frequently attempted to

2

‘rehabilitate’ individuals who responded ‘yes’ to the fourth question – whether

3

they would in every case vote for death and in no case vote for LWOP – for no

4

benefit to the defense.” (Petr.’s Br. at 58.) Petitioner brings this allegation as to

5

Prospective Jurors Marguerite B., Harriet S., Karyn S., George L., and Forrest B.,

6

and to a lesser extent, Vera E. (Id. at 56-58, 58 n.14.) Petitioner similarly argues

7

that Prospective Jurors Charles C. and Jerome Paul N. “demonstrated bias against

8

Carter” on voir dire and trial counsel did not have a reasonable strategy in leaving

9

them on the panel. (Petr.’s Br. at 123, 123 n.84; Pet. at 58-60.)

10

Petitioner further alleges that trial counsel unreasonably agreed to have

11

Jurors Richard P., Margaret M., and Sharon K. remain on the jury panel without

12

inquiring “as to the strength of their need or desire to be excused so that they could

13

attend to their personal business.” (Pet. at 61.) Petitioner argues that each juror

14

indicated that he or she would have a scheduling conflict if the trial lasted past

15

August 1, 1989, as it did, and that it is “likely that these jurors rushed through

16

deliberations.” (Petr.’s Br. at 124.) Finally, Petitioner faults trial counsel for

17

stipulating to the removal of Prospective Juror Ellis C. by agreeing to an additional

18

peremptory challenge for the prosecution, when Ellis told the court he needed to go

19

out of town for business. (Pet. at 61.)

20

//

21

//

22
23

2.

Analysis

First, the California Supreme Court may have reasonably determined that

24

counsel strategized against emphasizing Petitioner’s history of child abuse and

25

substance use as possible theories of mitigation or that Petitioner failed to

26

demonstrate prejudice on that basis. There is a “high level of deference given to

27

counsel’s decisions during jury selection,” and defense counsel here may, for

28

example, have reasonably “preferred to rely on ‘nonverbal communication’” to
28
Petitioner's App. 7 - 112

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 29 of 146 Page ID #:3532

1

judge the jurors’ sentiments toward a history of child abuse and substance use.

2

Carrera v. Ayers, 670 F.3d 938, 948-49 (9th Cir. 2011) (quoting Hovey v. Ayers,

3

458 F.3d 892, 910 (9th Cir. 2006)). The state high court may have also determined

4

that Petitioner failed to make “the required showing of prejudice under Strickland,

5

because he has not shown that any juror who harbored an actual bias was seated on

6

the jury as a result of counsel’s failure to voir dire” on the issue. Ybarra v.

7

McDaniel, 656 F.3d 984 (9th Cir. 2011) (so holding as to insanity defense).

8

Similarly, the court may have reasonably determined that Petitioner failed to

9

demonstrate prejudice from counsel’s references to additional murders in voir dire.

10

Juror Rachal, told of charges that Petitioner killed three women “with possible

11

evidence of a couple more,” confirmed that at a penalty phase he would be

12

interested in hearing about Petitioner’s background and having as much

13

information as he could have to make the decision. (29 RT 3707-10.) Juror

14

Rotolo, told of the allegations that Petitioner killed three women “and there may be

15

evidence of two others . . . a total of five perhaps,” was asked how he would feel

16

about mitigating evidence at a penalty phase. (7 RT 887-89.) He responded:

17
18
19
20

Well, it depends on his childhood and, I mean, some
things. I don’t know. I would lean more so for the death
penalty but then again, there’s a possibility that his
makeup, that whatever happened to him in his life would
make him lean this way. . . . [I]t’s a real fine line there.

21

(Id. at 889.) Juror Larsen, told of “evidence of two other charges,” stated that he

22

would still want to hear “the other circumstances about the individual” in reaching

23

a penalty decision. (19 RT 2348, 2355-58.) Juror Dean, told of “evidence of two

24

others,” was asked whether life without parole could make sense as a punishment

25

for the kind of crimes counsel described to her. (Id. at 2374-75.) She responded

26

that she could not “imagine anything worse than spending the rest of your life

27

behind bars” and that life without parole would be a meaningful option as a

28

punishment. (Id. at 2375-76.) The state high court may have reasonably
29
Petitioner's App. 7 - 113

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 30 of 146 Page ID #:3533

1

determined that the jurors’ responses fail to show that a juror who harbored an

2

actual bias toward Petitioner’s alleged crimes was seated on his jury, to show

3

prejudice under Strickland. See Ybarra, 656 F.3d at 1001.

4

Second, as to Prospective Jurors Marguerite B., Harriet S., Karyn S., George

5

L., Forrest B., and Vera E., who did not serve on Petitioner’s jury, the California

6

Supreme Court may have reasonably determined that Petitioner cannot demonstrate

7

prejudice. See Skilling v. United States, 130 S. Ct. 2896, 2920 n.24 (2010)

8

(“Statements [on voir dire] by nonjurors do not themselves call into question the

9

adequacy of the jury-selection process; elimination of these venire members is

10

indeed one indicator that the process fulfilled its function. Critically, . . . the seated

11

jurors showed little knowledge of or interest in” potentially prejudicial information

12

about the defendant); Teague v. Scott, 60 F.3d 1167, 1172-73 (5th Cir. 1995)

13

(“Demonstrating that some veniremen may have been biased, without establishing

14

that any of these biased veniremen actually served on the jury, is insufficient to

15

meet the requisite showing of prejudice under the Strickland test”).

16

As to Jerome Paul N. and Charles C., counsel may have reasonably

17

strategized that each juror would be favorable to Petitioner at a penalty phase.

18

Juror Jerome Paul N. stated on voir dire, “[M]y personal feelings, I think life in

19

prison without parole is almost worse than death.” (15 RT 1828-29.) He stated

20

that he would “certainly” be interested in hearing about Petitioner’s childhood,

21

background, and psychiatric or psychological information, and that drug abuse

22

would also be important. (Id. at 1829-30, 1832-33.) He said that while he would

23

try to do a good job and do his duty as a juror, he was not comfortable “sitting in

24

judgment” of another person. (Id. at 1836.) Juror Charles C. stated on voir dire

25

that although in some cases the death penalty was “the most pragmatic thing to

26

do,” “as a physician . . . [he] value[s] the inherency of life” and his penalty

27

decision would “depend upon the personality of the individual, his own values as

28

to survival, which he certainly will [have], as against freedom, which he will not
30
Petitioner's App. 7 - 114

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 31 of 146 Page ID #:3534

1

have.” (26 RT 3209, 3213.) Juror Charles C. said that it would make sense to hear

2

testimony about Petitioner’s life history, background, childhood, teenage years,

3

friends, relatives, employers, and employees. (Id. at 3220.) Most importantly,

4

Juror Charles C. gave the following response to trial counsel:

5
6
7
8
9
10
11
12
13
14
15

Mr. Gillingham: We asked this question: ‘What in your
opinion should or could be done about the crime
problem?’ You said, ‘Education and training of young,
provision of work opportunity for young criminals.’ . . .
Could you tell me what you have in mind?
Prospective Juror Charles [C.]: Nothing very original
about that. I’m sure that this is – attempts at
rehabilitation are going on all the time.
While on the grand jury, I was impressed by the attempts
of the camps and facilities of juveniles to give them
actual education. And it was so obvious that – that the
vast majority, almost unanimous – juveniles – criminals
are illiterate, are terribly undereducated.

16

(Id. at 3221-22.) Based on the voir dire responses of Jerome Paul N. and Charles

17

C., therefore, the California Supreme Court may have reasonably determined that

18

counsel strategized that the prospective jurors would be helpful to Petitioner at a

19

penalty phase of trial.

20

Third, the California Supreme Court may have reasonably reached the same

21

conclusion as to Jurors Richard P., Margaret M., and Sharon K. Juror Richard P.

22

stated on voir dire that the death penalty is “a real serious matter;” participating in

23

a verdict of death is “a pretty heavy burden for somebody to be doing;” and he was

24

only “reluctantly” prepared to accept that kind of responsibility. (29 RT 3717,

25

3734-35.) He said that mercy should be considered in the penalty phase. (Id. at

26

3732.) Significantly, Juror Richard P. stated about the criminal justice system:

27
28

I think the way that the jail system – we tend to penalize
a lot of people by punishment, when in reality we should
be trying to correct the – maybe the reason why they
31
Petitioner's App. 7 - 115

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 32 of 146 Page ID #:3535

1
2
3

were – got into the problem in the first place and we treat
the punishment instead of trying to address the reason
that it then occurred in the first place.

4

(Id. at 3731.) Juror Margaret M. stated on voir dire, “My feelings would be that

5

the death penalty would be for a very few cases, very rarely.” (23 RT 2850.) She

6

said that she would take the decision to impose the death penalty quite seriously

7

and that being a part of a jury with a verdict of life without parole or the death

8

penalty would be “something very difficult” though it could be done. (Id. at 2850,

9

2861; see also id. at 2864.) She stated that when one punishes another person,

10

sometimes mercy plays a part. (Id. at 2860.) Juror Sharon K. stated on voir dire

11

that life without parole seemed like a serious punishment even for a person who

12

may have killed other people and that she would “very much” be interested in

13

hearing testimony about a defendant’s background and about him personally at a

14

penalty phase. (13 RT 1614-15.) The state high court may have reasonably

15

determined that counsel strategized to keep Jurors Richard P., Margaret M., and

16

Sharon K. on the jury despite their personal schedules, in light of their expressed

17

feelings about a penalty phase of trial.

18

Finally, the California Supreme Court may have reasonably determined that

19

Petitioner failed to show prejudice from counsel’s agreement to an additional

20

peremptory challenge for the prosecution. As Respondent emphasizes, the record

21

reflects that the prosecution did not use the additional peremptory challenge and

22

did not exhaust its twenty statutorily provided challenges. (Respt.’s Br. at 59; 6

23

CT 1620); see also Cal. Civ. Proc. Code § 231 (“In criminal cases, if the offense

24

charged is punishable with death, . . . the people [are entitled] to 20 peremptory

25

challenges”); Carter, 36 Cal. 4th at 1174 (noting trial court’s provision of twenty

26

peremptory challenges under Cal. Civ. Proc. Code § 231). The prosecution used

27

fifteen peremptory challenges. (6 CT 1620.)

28

Claim 5(C) is, therefore, DENIED.
32
Petitioner's App. 7 - 116

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 33 of 146 Page ID #:3536

1

D.

Claim 5(D): Failure to Investigate, Challenge the State’s Case,

2

and Put forth a Reasonable Defense

3

1.

4
5
6

Denial of Right to Testify

The Court addressed Claim 5(D)(1) above. (See supra pp. 7-19.)
2.

Failure to Investigate and Present Mental Impairments

Petitioner alleges counsel failed to investigate evidence of his mental state at

7

and before the time of the crimes. (Pet. at 62-63; Petr.’s Br. at 104.) Petitioner

8

contends that counsel failed to retain competent and relevant expert assistance and

9

failed to prepare adequately the experts with whom counsel consulted. (Pet. at 63.)

10
11

Petitioner was tried in 1989 for crimes committed in April 1984. In the

12

years prior to Petitioner’s offenses, the defense of diminished capacity was

13

abolished, expert witnesses were prohibited from testifying as to whether a

14

defendant possessed a requisite mental state, and evidence of mental illness or

15

intoxication could be introduced only to show whether the defendant “actually

16

formed a required specific intent,” not whether he or she had “the capacity to form

17

[that] mental state.” Saille, 54 Cal. 3d at 1111-12 (discussing the passage of

18

Senate Bill No. 54, abolishing diminished capacity and limiting expert testimony,

19

in 1981) (emphasis in original). Nevertheless, a defendant remained “free to show

20

that because of his mental illness or voluntary intoxication, he did not in fact form

21

the intent” required for the crime. Id. at 1116-17 (emphasis in original).

22
23

a.

Allegations of Prejudice

Petitioner contends that, had counsel conducted an adequate investigation,

24

counsel could have shown that it is probable that Petitioner had long-term

25

neurological deficits and diffuse brain dysfunction and “‘suffers impaired

26

functioning of anterior brain regions and experiences frontal lobe impairment,’”

27

affecting the “‘area of the brain that allows individuals to think, reason, problem

28

solve, control impulses, . . . and anticipate the consequences of their actions prior
33
Petitioner's App. 7 - 117

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 34 of 146 Page ID #:3537

1

to carrying out those actions.’” (Petr.’s Br. at 105, 105 n.74 (quoting Pet. Ex. 61

2

¶¶ 13, 15 and citing Pet. Ex. 59 ¶¶ 12, 15).) Petitioner asserts that counsel could

3

have shown that, as a result of Fetal Alcohol Syndrome, Petitioner “‘lack[s] the

4

ability to handle complex situations in ways that are appropriate.’” (Id. at 105

5

(quoting Pet. Ex. 96 ¶ 74); see also Pet. at 64.) Carter’s Petition alleges that he:

6
7
8
9
10
11
12
13
14
15
16

relies upon the expert opinions of Dr. Adrian Raine (who
describes the results of Mr. Carter’s abnormal PET scan
(Pet. Ex. 59)); Dr. Myla Young (who opines about Mr.
Carter’s neuropsychological impairments (Pet. Ex. 61));
Dr. David Foster (who explains Mr. Carter’s neurological
and psychiatric problems, at the time of the crimes, and
what effect they had upon his actions, thinking, and
behavior (Pet. Ex. 75)); Drs. Natalie Brown, Paul
Connor, and Richard Adler (who all describe Mr.
Carter’s Partial Fetal Alcohol Syndrome (“PFAS”) (Pet.
Exs. 77, 95, 96); and Dr. Mindy Rosenberg (who
discusses Mr. Carter’s social history and background
(Pet. Ex. 78)).
(Pet. at 63-64 (footnote omitted; citations abbreviated).)

17

Dr. Raine explains that Petitioner’s PET scan depicts significant

18

abnormalities; that Petitioner’s “ability to think, reason, problem solve, [and]

19

control his emotions and impulses, would be significantly compromised by these

20

brain dysfunctions;” and that certain specified risk factors “may particularly

21

contribute to brain dysfunction and abnormalities consistent with those depicted in

22

the petitioner’s PET scan.” (Pet. Ex. 59 ¶ 15.) Dr. Young reports that her “test

23

results . . . raise concern that Dean experiences frontal lobe impairment.” (Pet. Ex.

24

61 ¶ 13.) She concludes that it is “probable” that Petitioner has long-term

25

neurological deficits and diffuse brain dysfunction, impaired functioning of

26

anterior brain regions, and frontal lobe impairment. (Id. ¶ 15.) Dr. Foster opines

27

that Petitioner’s traumatically based attachment disorder and mood disorder, severe

28

drug dependence, and major affective disorder “were present before, during, and
34
Petitioner's App. 7 - 118

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 35 of 146 Page ID #:3538

1

after the crimes . . . .” (Pet. Ex. 75 ¶ 18.) Dr. Foster observes that Petitioner has

2

been intermittently delusional and believes that he was being followed by the KGB

3

in Anchorage and Seattle, and that such psychotic thinking would further

4

compromise Petitioner’s decision making. (Id. ¶¶ 49, 51.) Dr. Foster opined that

5

Petitioner:

6

has brain damage to those parts of his brain needed for
the executive functions of insight, judgment, and impulse
control in actual situations. Persons with such damage
. . . cannot be relied upon to guide their own behavior in
actual situations. . . . [E]specially when stressed or under
the influence of alcohol or drugs[,] they are more like
sleep walkers reacting to unconscious or emotionally
triggered impulses and not guided by conscious and
rational decision making processes. . . . It can be stated
with medical certainty that Mr. Carter’s neorological and
psychiatric problems . . . were present during the time
frame of the crimes for which he is convicted and
sentenced to death.

7
8
9
10
11
12
13
14
15
16
17

(Id. ¶ 51.)
Dr. Brown found that the data she reviewed “support a strong conclusion

18

that Dean Phillip Carter meets criteria for FASD [Fetal Alcohol Spectrum

19

Disorders].” (Pet. Ex. 77 at 1, 25.) Dr. Brown explained that individuals with

20

FASD “often have problems understanding appropriate sexual expression and

21

acting accordingly – a problem observed in nearly half of all individuals affected

22

by FASD.” (Id. at 24.) She states that individuals with FASD “often overreact and

23

behave impulsively because of executive function deficits. . . . [I]t is not

24

uncommon for these individuals to . . . lash out in unfocused aggression when

25

faced with stress . . . .” (Id. at 33.) Dr. Brown observes that executive function

26

impairment may be noticeable when the individual is under the influence of a

27

substance that further compromises executive functioning, such as drugs or

28

alcohol, and that this “may be relevant with respect to Mr. Carter’s behavior in
35
Petitioner's App. 7 - 119

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 36 of 146 Page ID #:3539

1

March and April of 1984, which apparently occurred in the context of multiple

2

stressors (e.g., loss of his family, severe drug and alcohol abuse, escalating

3

paranoia, and homelessness).” (Id.) Dr. Brown opines that “one of the strongest

4

correlates of adverse outcomes in individuals with FASD is lack of an early

5

diagnosis . . . . [T]he research suggests that for Dean Phillip Carter’s brutal

6

aggression to have been prevented, he needed appropriate identification and

7

intervention in childhood.” (Id. at 35.) Dr. Brown noted that “[w]hile acute

8

intoxication may have been a factor in his functioning at the time of the rape and

9

murder, evidence is insufficient to establish substance-related impairment as the

10

sole explanation for his conduct either in the capital crimes at issue or across his

11

lifespan.” (Id. at 26 (emphasis in original).) Finally, Dr. Brown found that “[w]ith

12

respect to mental illness, while there is a record of ongoing anxiety and depression

13

in Mr. Carter’s history, acute mental illness is ruled out as an explanatory factor

14

because there is insufficient evidence of impairment severe enough to compromise

15

his capacity to know right from wrong.” (Id. at 26.)

16

Dr. Connor found that a diagnosis on the fetal alcohol spectrum was

17

warranted for Petitioner, and explained that Petitioner’s deficits show that he “does

18

not appear to be able to successfully apply his strong intellectual abilities to

19

appropriately solve problems, handle multiple tasks, or appropriately shift his

20

attention.” (Pet. Ex. 96 ¶¶ 64, 73, 74, 79.) Dr. Adler diagnosed Petitioner with

21

Partial Fetal Alcohol Syndrome and noted that the diagnosis of Partial Fetal

22

Alcohol Syndrome as opposed to Fetal Alcohol Syndrome “appears to be ‘a

23

distinction without a difference’” for “the level of functional impairment and life

24

outcomes . . . . In actuality, persons like Mr. Carter, who are prenatally-affected by

25

alcohol but who have higher IQs tend NOT to have their disability detected in a

26

timely fashion and thus suffer more serious life sequelae of this condition.” (Pet.

27

Ex. 95 at 17.) Dr. Rosenberg concludes that Petitioner’s prenatal exposure to

28

alcohol indicates a “high likelihood of diffuse brain damage and severe impairment
36
Petitioner's App. 7 - 120

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 37 of 146 Page ID #:3540

1

in cognitive and emotional functioning,” exacerbated by his parental caretaking

2

environment. (Pet. Ex. 78 at 4.) Dr. Rosenberg opines that when a situation

3

triggers Petitioner’s sensitivity to abandonment and rejection, Petitioner “could

4

become flooded with overwhelming and intense emotions of terror and rage [and]

5

. . . would be unlikely to be able to manage these emotions in an adaptive manner.”

6

(Id.)

7
8
9

b.

Analysis

A psychologist’s conclusion that a petitioner “may not have been able to
form the required intent for the crime for which he was convicted” or that it was

10

“quite unlikely that he formed the specific intent necessary for the crime . . . is

11

speculative on its face.” Griffin v. Johnson, 350 F.3d 956, 965 (9th Cir. 2003)

12

(holding petitioner had not demonstrated actual innocence and was not entitled to

13

an evidentiary hearing) (internal quotation omitted, emphasis in original); cf.

14

Crittenden v. Ayers, 624 F.3d 943, 961 (9th Cir. 2010) (finding no prejudice in

15

light of overwhelming evidence of deliberation and premeditation, where experts

16

opined that killings “most likely” or “might very well have” lacked specific intent).

17

A petitioner likewise fails to establish prejudice from any deficient performance by

18

counsel where the “post-conviction record contains no testimony whatsoever,

19

expert or otherwise, concerning the impact of any mental disease or defect on [his]

20

commission of the crime with which he was charged.” Franklin v. Johnson, 290

21

F.3d 1223, 1234 (9th Cir. 2002) (holding counsel was objectively unreasonable for

22

failing to investigate mental state defense while aware of substance abuse

23

problems, pedophilia, and suicide attempts by defendant accused of sodomizing his

24

stepson, but petitioner failed to demonstrate prejudice).

25

Here, the California Supreme Court may have reasonably determined that

26

the evidence Petitioner presented failed to demonstrate prejudice. That Petitioner’s

27

ability to think, reason, and control his emotions and impulses were “significantly

28

compromised,” (Pet. Ex. 59 ¶ 15), does not mean that Petitioner did not form the
37
Petitioner's App. 7 - 121

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 38 of 146 Page ID #:3541

1

intent to rape and murder. (See also Pet. Ex. 75 ¶ 51 (observing that Petitioner’s

2

decision making was “compromise[d]”); Pet. Ex. 96 ¶¶ 64, 73, 74, 79 (concluding

3

that Petitioner “does not appear to be able” to appropriately solve problems or

4

multitask).) Test results that “raise concern” and show “probable” deficits and

5

dysfunction (Pet. Ex. 61 ¶¶ 13, 15) are speculative. (See also Pet. Ex. 78 at 4

6

(opining that Petitioner would be “unlikely” to be able to manage his rage). In

7

addition, the California Supreme Court may have fairmindedly reasoned that Dr.

8

Foster’s opinion that persons with brain damage like Petitioner’s do not reliably

9

guide their own behavior, and under certain circumstances in particular are “more

10

like sleepwalkers” is too vague, in light of the evidence of rational decision making

11

before the jury, to show a reasonable probability of a different result at trial. (Pet.

12

Ex. 75 ¶ 51 (emphasis added)); see Carter, 36 Cal. 4th at 1184-85; (cf. Respt.’s Br.

13

at 43 (“The prosecution would have been able to confront any defense expert with

14

Carter’s ability to . . . conceal the[] bodies so that they were not found for some

15

time after the[] deaths, . . . leave without being caught[,] . . . stage crime scenes to

16

move the victims’ vehicles to make it appear that they were not home, so as to

17

guarantee himself more time before their bodies were found[, and attempt] . . . to

18

escape, by fleeing in Mills’s stolen car to Arizona”)). Similarly, Dr. Brown’s

19

discussion of problems that people with FASD face, not uncommonly lashing out

20

in aggression and, in nearly half of all cases, struggling to understand and conduct

21

appropriate sexual expression, does little to explain such uncommon behavior as

22

murdering three women and raping two, as charged in the trial at issue.

23

The California Supreme Court’s determination that Petitioner failed to

24

demonstrate prejudice from any deficient performance by counsel in presenting

25

guilt phase evidence of his mental state at and before the time of the crimes is not,

26

therefore, objectively unreasonable.

27

3.

Failure to Test Prosecution Evidence

28
38
Petitioner's App. 7 - 122

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 39 of 146 Page ID #:3542

1

Petitioner next alleges that trial counsel failed to challenge “the manner and

2

causes of death, the sequence of events, and evidence relating to the assailant’s

3

intent,” and to point out “the significant differences between the alleged crimes in

4

order to raise reasonable doubts as to the circumstances alleged.” (Pet. at 66; see

5

also Petr.’s Br. at 94-102 (citing Pet. Ex. 60).)

6

First, the state court may have determined that, during the guilt phase of

7

Petitioner’s trial, counsel may have strategized that attempting to highlight the

8

differences among the crimes would not be persuasive, in light of the evidence

9

linking Petitioner to each crime. See Carter, 36 Cal. 4th at 1148-49 (“The vehicle

10

owned by Tok Kim was missing at the time her body was found but later was

11

discovered near the residence of Knoll and Mills. Subsequently, a white Datsun

12

280 ZX matching the description of Mills’s vehicle, missing since the time Mills’s

13

body was found, was observed in the vicinity of Cullins’s apartment near the time

14

of Cullins’s murder. When arrested, defendant had on his person or in the Datsun

15

an eclectic array of objects identified as having belonged to (1) each of the three

16

victims in the murders charged in the present case, (2) Janette Cullins, and (3) Tok

17

Kim”).

18

//

19

//

20

Second, contrary to Petitioner’s allegations (see Pet. at 66-69):

21

• there was evidence, which reasonably could be considered more than “little”

22

evidence, of a violent struggle before Mills’ and Knoll’s homicides (see 40 RT

23

4871 (describing a blunt injury to the left side of Mills’ head, consistent with a

24

blow from a fist or a hand, occurring prior to death); id. at 4880-85 (describing

25

blunt injuries to Knoll’s forehead, upper and lower lips, and chest consistent with

26

blows from a fist, and injury to her left wrist consistent with grabbing and

27

squeezing, all consistent with a struggle);

28
39
Petitioner's App. 7 - 123

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 40 of 146 Page ID #:3543

1

• there was evidence, which reasonably could be considered more than “little”

2

evidence, of a violent struggle before Guthrie’s homicide (see id. at 4894-96

3

(describing blunt injuries to Guthrie’s nose and left thigh, consistent with blows

4

from a fist));

5

• there was evidence that Knoll was sexually assaulted (see id. at 4825 (reporting

6

seminal fluid from a vaginal sample), 4886 (describing an eight-centimeter blunt

7

force injury just above the entrance to the vagina));

8

• the record shows no support for the statement of Dr. John Thornton that Guthrie’s

9

boyfriend, Ronald Mancini, explicitly told police “that he had sexual intercourse

10

with the victim within two days (April 9) of her death (April 11).” (Pet. Ex. 60 at

11

8.) Cf. Fed. R. Evid. 702 (“A witness who is qualified as an expert . . . may testify

12

in the form of an opinion or otherwise if . . . the testimony is based on sufficient

13

facts or data” (emphasis added)); Pinholster, 131 S. Ct. at 1402 n.12 (“[T]he

14

California Supreme Court’s [consideration] . . . of a habeas petition . . . will also

15

review the record of the trial . . . to assess the merits of the petitioner’s claims”

16

(internal quotation and citations omitted)). A police report reflecting Mancini’s

17

statement to police shows that Mancini reported that he and Guthrie “were lovers .

18

. . [and] [h]e had last seen [Guthrie] on 4-9-84.” (3 CT 776.) Mancini testified

19

accordingly at trial, stating that he was involved with Guthrie in a romantic sense,

20

and he saw her last on April 9, when she spent the night at his home (39 RT 4786);

21

and

22

• the jury was not told that semen was found on women’s underwear located near

23

Guthrie, and defense counsel Morrissey successfully blocked testimony from being

24

presented to the jury regarding any semen on Guthrie’s pantyhose (42 RT 5036-

25

39).

26

Further, counsel did present testimony on cross-examination that:

27

• the abrasion found on the labia majora of Guthrie was not necessarily recent or

28

indicative of nonconsenual contact (40 RT 4896-98);
40
Petitioner's App. 7 - 124

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 41 of 146 Page ID #:3544

1

• the evidence of sexual assault as to Mills was not necessarily indicative of

2

nonconsensual intercourse. The supervisor for the pathologist who conducted

3

Mills’ autopsy impliedly agreed that Mills suffered a “traumatic sexual assault,”

4

with trauma that usually is not evident in consensual intercourse (id. at 4845-46,

5

4897), and Gillingham emphasized on cross-examination that such trauma is

6

sometimes present from consensual intercourse (id. at 4898);

7

• one investigator saw a red nightgown on the bed (id. at 4832), while another

8

investigator testified that a white nightgown, which contained seminal fluid

9

consistent with Petitioner’s ABO type O blood group and PGM 1+ enzyme, was on

10

the bed. (Id. at 4819-20, 4829.) The investigator who saw a red nightgown on the

11

bed testified that a second, white nightgown was on a chair in the living room (id.

12

at 4831);

13

• the latent print supervisor made unsuccessful attempts to identify other prints

14

found in the Mills/Knoll apartment besides Petitioner’s. (38 RT 4724-25.)

15

Although the supervisor did not testify that there were precisely nineteen

16

unidentified prints, he did testify that he examined prints “on lift cards and on

17

paper items and on a rear-view mirror,” indicating that there were several

18

unidentified prints (id. at 4721);

19

• there was no evidence that Cullins was sexually assaulted (42 RT 5080); and

20

• Kim’s cause of death was undetermined because of decomposition of the body,

21

and there were no injuries to the nose, lips, facial bones, or arms (37 RT 4545-47;

22

cf. id. at 4542 (testimony on direct examination that there were no visible injuries

23

from a beating)), showing no evidence of a struggle.

24

Finally, the jury was aware that:

25

• there was “no forced entry in any of these cases,” i.e., Guthrie, Mills, Knoll, and

26

Kim (44 RT 5232);

27

• it was unclear how long Knoll and Mills had been dead at the time they were

28
41
Petitioner's App. 7 - 125

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 42 of 146 Page ID #:3545

1

found, or which woman was killed first, beyond the fact that they had each been

2

dead at least fifteen hours or even much longer (40 RT 4889-91); and

3

• the supervisor for the pathologist who conducted Mills’ and Knoll’s autopsies

4

concluded that Mills was strangled manually while Knoll was strangled by a

5

ligature (id. at 4876, 4888-89).

6

As to Petitioner’s remaining allegations, counsel may have reasonably:

7

• decided against testing any saliva from the wine glasses at the Mills/Knoll

8

apartment and the seminal material from Guthrie’s vaginal area for ABO and/or

9

PGM type, because counsel “had reason to question” whether Petitioner was the

10

source of the fluids given his connection to the victims, the investigation could

11

have been “harmful to the defense,” and “making a central issue out of [this

12

forensic evidence] would have increased the likelihood of the prosecution’s

13

producing its own evidence on the [material’s] origins . . . .” Richter, 131 S. Ct. at

14

789-90. In the alternative, the California Supreme Court could have reasonably

15

determined that Petitioner failed to demonstrate prejudice from any failure to

16

investigate, as he presents no evidence that the results of such testing would have

17

been favorable to his defense;

18

• strategized that jurors would not have been sympathetic to the suggestion that

19

Mills’ consumption of alcohol could have made her more likely to have consented

20

to intercourse. Counsel may also have reasonably concluded that the very small

21

amount of alcohol found in Mills’ blood, and the fact that she was discovered

22

strangled, would have made that suggestion unpersuasive and alienating to the

23

jurors;

24

• strategized that in order to preserve credibility at the penalty phase of trial, he

25

would not argue at the guilt phase any unlikelihood of the prosecution’s theory that

26

Knoll may have been allowed to dress after forcible sexual intercourse and then

27

strangled. Counsel could have reasonably made that decision in light of the

28

testimony that Steward could provide at the penalty phase that Petitioner clamped
42
Petitioner's App. 7 - 126

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 43 of 146 Page ID #:3546

1

an arm around her neck, forced her to remove her top, forced her to orally copulate

2

him, strangled her until she lost consciousness, tied her hands when she awoke,

3

pulled her up off the floor, took an article of her clothing from a closet and put it

4

around her shoulders, forced her to orally copulate him again, and, after her ruse of

5

kissing him and telling him that she was his friend, allowed her to put on a sweater.

6

(48 RT 5594-5620.) Steward testified that shortly thereafter, Petitioner removed

7

her clothing again, raped her, accepted her reassurances, permitted her to dress, and

8

ultimately left (id. at 5633-41);

9

• decided against presenting evidence that Ronald Tulio was seen in Knoll’s

10

driveway the evening before her and Mills’ murders and that Tulio was first

11

arrested for the murders, based upon the lack of physical evidence connecting

12

Tulio to the murders and the evidence connecting Petitioner to the murders. (Cf.

13

42 RT 5093-94 (Gillingham’s testimony that he made a strategic decision not to

14

call Tulio as a witness); 3 CT 793 (motion for production by Petitioner’s former

15

defense counsel requesting evidence on Tulio).) None of the prints at the

16

Mills/Knoll apartment matched Tulio’s (unlike Petitioner’s) (38 RT 4723, 4725; 1

17

CT 225), and the only seminal fluid sufficient for typing was consistent with

18

Petitioner’s O blood type and PGM 1+ enzyme (40 RT 4819-20, 4825, 4829);

19

• decided, based upon a review of the police report stating, “Blood spotting was

20

observed on sweat pants of victim [Guthrie] at the vaginal area. There was also

21

observed a small amount of blood on the outside of vaginal area,” (3 CT 774), that

22

serological testing to identify the blood stain on Guthrie’s sweat pants was

23

unnecessary, as there was no indication that the blood would have belonged to

24

anyone besides Guthrie;

25

• strategized that evidence that no tool for forcible entry to Cullins’ home was

26

found in Petitioner’s possession would not have influenced the jury, in light of the

27

other evidence in his possession linking him to Cullins’ murder (see Carter, 36

28

Cal. 4th at 1133-35 (noting Petitioner’s possession of Cullins’ bank identification
43
Petitioner's App. 7 - 127

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 44 of 146 Page ID #:3547

1

card, bank account access code, and key ring));

2

• strategized against presenting any evidence that a blood stain on a sheet on

3

Cullins’ bed was similar to Petitioner’s blood even though no significant wounds

4

were found on Petitioner, to avoid further connecting Petitioner to the crime scene;

5

• strategized against presenting evidence regarding the semen found in Kim’s

6

apartment, since Petitioner was not charged with sexual assault (or murder) of Kim

7

in the proceeding; the jury was aware that Kim was involved in another

8

relationship just prior to meeting Petitioner; and evidence regarding Kim was

9

introduced only to connect Petitioner with the Los Angeles County crimes (see

10

Carter, 36 Cal. 4th at 1147, 1161-62 (noting that Petitioner was not accused of

11

sexually assaulting Kim, that Alameda County subsequently dismissed the charges

12

against him, that the prosecution did not suggest at trial that Petitioner had sexually

13

assaulted Kim, and that evidence involving Kim connected Petitioner to the Los

14

Angeles County offenses); (41 RT 5016-19 (testimony of Blevins that he was

15

involved in a relationship with Kim until discovering her relationship with

16

Petitioner)); and

17

• strategized against presenting evidence that prints taken from the Guthrie,

18

Cullins, and Kim apartments did not match Petitioner’s, on the basis that the

19

evidence would not have been “important to the defense and . . . jurors might

20

suspect [Petitioner] had destroyed evidence by wiping away [his] own prints.”

21

Downs v. Hoyt, 232 F.3d 1031, 1041 (9th Cir. 2000) (approving of postconviction

22

court’s finding that counsel was not deficient for failing to present evidence that

23

fingerprints found at the crime scene did not match petitioner’s, notwithstanding

24

petitioner’s argument that the evidence “would have supported her theory that

25

someone else was at the crime scene”).

26
27
28

Because the California Supreme Court may have reasonably rejected
Petitioner’s claim on these grounds, Claim 5(D)(3) is DENIED.
E.

Claim 5(E): Failure to Provide Effective Assistance in Oral
44
Petitioner's App. 7 - 128

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 45 of 146 Page ID #:3548

1

Argument and Cross-Examination

2

1.

Allegations and Decision on Direct Appeal

3

In Claim 5(E), Petitioner argues that trial counsel provided ineffective

4

assistance in opening and closing statements and on cross-examination. Petitioner

5

alleges that counsel made no guilt phase opening argument and that the “penalty

6

phase began with no transition between guilt and penalty.” (Pet. at 70.) Petitioner

7

contends that counsel’s “guilt phase closing statement was so dramatically

8

inadequate that it cannot be referred to as argument.” (Id.) Petitioner further

9

alleges that a “reasonable opening statement in Mr. Carter’s case could and would

10

have introduced themes of diminished actuality as a result of alcohol and drug use

11

and mental impairments.” (Id. at 70-71.) Petitioner adds that “effective trial

12

counsel would have explored these themes through effective cross-examination of

13

prosecution witnesses,” (id. at 71), although he does not specify what evidence

14

from which witnesses could have been presented.

15

On direct appeal, the California Supreme Court considered Petitioner’s

16

arguments that counsel failed to “make an opening statement . . . [and to] make any

17

substantive argument in his summation (which comprised four and one-half pages

18

of the Reporter’s Transcript) as to whether the prosecution had sustained its burden

19

of proof as to defendant’s guilt of the crimes charged or the truth of the special

20

circumstances alleged.” Carter, 36 Cal. 4th at 1188. The court reasoned:

21

//

22
23
24
25
26
27
28

In view of the strong evidence directly linking defendant
to the charged murders, as well as the looming prospect
of other capital trials in Alameda and San Diego Counties
arising out of the deaths of Tok Kim and Janette Cullins,
reasonably competent counsel [considering whether to
make an opening argument] could have determined to
hear the prosecution’s case prior to deciding whether to
present a defense, and further could have determined that
counsel’s summation ought to be limited to inviting the
jury to consider whether the prosecution actually had met
45
Petitioner's App. 7 - 129

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 46 of 146 Page ID #:3549

1
2
3
4
5

its burden of establishing guilt beyond a reasonable
doubt. Indeed, in his summation, counsel alluded to the
other criminal cases pending against defendant to suggest
a reason why defendant did not take the stand, and
emphasized the significance of the reasonable doubt
instruction. [¶] Defense counsel argued:
‘While all the instructions that the judge will give
you are important, critical to deciding the guilt of
any person, is the instruction about reasonable
doubt. In short, you will hear words to this effect,
that you may not find Mr. Carter guilty unless you
believe beyond a reasonable doubt the truth of the
charge or charges to a moral certainty. [¶] I would
expect [the prosecutor], when he replies, as is his
right to reply to this argument since he has the
burden, to tell you that this does not mean beyond
all possible doubt. That’s true. But you will hear
the words “to a moral certainty.” [¶] . . . You’ve
heard reference to other pending cases in San
Diego and Oakland, and so there are some times
that defendants do not testify for many, many
reasons.’

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Reasonably competent counsel could have determined
that an extended summation would present the danger of
focusing the jury’s attention upon the heinous details of
the crimes committed. Likewise, reasonably competent
counsel also could have determined that in view of the
strong evidence linking defendant to the murders, a guilty
verdict was virtually a foregone conclusion, and that
defendant’s prospects of avoiding the death penalty
would be improved if the defense refrained from placing
its ‘credibility’ at risk by suggesting an implausible
defense and instead focused upon challenging the
testimony of certain witnesses who testified for the
prosecution.
Id. at 1189, 1189 n.35 (internal citation omitted; quoting 44 RT 5234-35)).
2.

Analysis
46
Petitioner's App. 7 - 130

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 47 of 146 Page ID #:3550

1

“The timing of an opening statement, and even the decision whether to make

2

one at all, is ordinarily a mere matter of trial tactics and in such cases will not

3

constitute the incompetence basis for a claim of ineffective assistance of counsel.”

4

United States v. Rodriguez-Ramirez, 777 F.2d 454, 458 (9th Cir. 1985); see also

5

Mayfield v. Calderon, 229 F.3d 895, 898, 901 (9th Cir. 2000) (denying certificate

6

of appealability for petitioner’s claim of ineffective assistance of counsel at guilt

7

phase of trial, where defense counsel did not make an opening statement to the jury

8

and did not present any witnesses). Moreover, “[w]hen defense counsel does not

9

have a solid case, the best strategy can be to say that there is too much doubt about

10

the State’s theory for a jury to convict.” Richter, 131 S. Ct. at 791.

11

“The question is whether there is any reasonable argument that counsel

12

satisfied Strickland’s deferential standard.” Id. at 788. The state court’s arguments

13

that counsel satisfied Strickland at the opening and closing argument stages of

14

Petitioner’s guilt phase trial are reasonable.

15

Regarding counsel’s penalty phase opening argument, the California

16

Supreme Court may have reasonably determined that counsel did, contrary to

17

Petitioner’s allegation, effectively provide a “transition between guilt and penalty.”

18

(Pet. at 70.) Counsel told the jury, “Be sure of one thing. Your guilt verdict is not

19

the end, it’s the beginning of this phase.” (47 RT 5496.) Counsel explained that

20

the defense “do[es]n’t offer these things so you will feel sorry for him,” but so that

21

the jury would have “the full picture.” (Id.) Counsel challenged the prosecutor’s

22

opening argument that the jury would have to “do [its] duty” by stating, “It should

23

first not go unsaid, lest there be any confusion that you have any duty to return a

24

death verdict. You have no duty to return either. [¶] You have a duty to listen to

25

the evidence, give it full consideration.” (Id. at 5494-95.) Counsel concluded his

26

opening argument by telling the jury, “[Y]ou ought to know completely about this

27

man, and we intend to do that honestly, forthrightly, and I intend to ask you to

28

spare his life.” (Id. at 5498.) The California Supreme Court may have reasonably
47
Petitioner's App. 7 - 131

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 48 of 146 Page ID #:3551

1

concluded that counsel’s remarks provided an effective opening to the penalty

2

phase of trial.

3

Finally, the California Supreme Court may have reasonably concluded that

4

Petitioner failed to demonstrate prejudice regarding counsel’s failure to present

5

Petitioner’s alleged alcohol and drug use and mental impairments, through cross-

6

examination or otherwise. (See supra pp. 37-39.) Petitioner’s conclusory

7

allegations concerning counsel’s performance on cross-examination do not entitle

8

him to relief. See James v. Borg, 24 F.3d 20, 26 (9th Cir.1994); see also Greenway

9

v. Schriro, 653 F.3d 790, 804 (9th Cir. 2011); Jones v. Gomez, 66 F.3d 199, 204-05

10

(9th Cir. 1995).

11

Claim 5(E) is DENIED.

12

F.

13

In Claim 5(F), Petitioner alleges trial counsel unreasonably and prejudicially

Claim 5(F): Comment on Failure to Testify

14

commented on Petitioner’s right to remain silent. (Pet. at 72.) Petitioner claims

15

that counsel told the jury in closing argument that Petitioner invoked his right to

16

remain silent because “‘some people tell the truth in this kind of setting, some

17

people lie poorly.’” (Id. (quoting 44 RT 5236).)

18

//

19
20

The California Supreme Court considered this claim on direct appeal:

21

At issue is counsel’s argument to the jury, in which he
hypothesized a number of reasons why a defendant might
elect not testify . . . . In his guilt phase summation,
defense counsel argued to the jury:

22
23
24
25
26
27
28

‘In this decision your process is analytical; that is,
have the crimes been proven beyond a reasonable
doubt to a moral certainty, and has it been proven
beyond a reasonable doubt to a moral certainty that
[defendant] is the person who committed one or
more of the acts charged?
48
Petitioner's App. 7 - 132

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 49 of 146 Page ID #:3552

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19

[Defendant] did not testify. The court will instruct
you that you may not consider this in any way,
shape, or form. You may not hold it against him.
However, experience tells us that people often
have trouble with that concept. “Well, if I were
the defendant, I would testify. I would be up there
screaming about it.”
Let me say a word about this: There are many
reasons that a defendant may or might not testify
in a case, speaking hypothetically. There is, for
example, the possibility that his lawyer might
instruct you not to testify, even though he wanted
to. There is on the contrary the possibility that his
lawyer wants him to and he does not want to for
various reasons.
He may be articulate, he may be too articulate. He
may be scared. I’ll tell you, it is not easy to be a
witness. If any of you have ever been a witness,
where from time to time one comes up in one’s
career at the bar, I’m always amazed that you were
just plain nervous up there even after all your
experience in law school [sic].
Some people tell the truth in this kind of setting,
some people lie poorly.

25

You’ve heard reference to other pending cases in
San Diego and Oakland, and so there are some
times that defendants do not testify for many, many
reasons. There are many, many reasons why the
defendant may not testify, and I give you
hypothetically various reasons that occur from
time to time so that you do not consider any of it
and hold it against him.”
Carter, 36 Cal. 4th at 1190-91 (emphasis in original). The court concluded that

26

“[v]iewing defense counsel’s remarks in their proper context, it is clear that

27

counsel was not suggesting that the jury draw any sort of adverse inference from

28

defendant’s silence. . . . Counsel’s references to defendant’s failure to testify were

20
21
22
23
24

49
Petitioner's App. 7 - 133

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 50 of 146 Page ID #:3553

1

made ‘so that you do not consider any of it and hold it against him,’ and manifestly

2

did not constitute” improper or ineffective remarks. Id. at 1192.

3

The California Supreme Court’s interpretation of counsel’s remarks is

4

reasonable. See United States v. Stark, 507 F.3d 512, 521-22 (7th Cir. 2007)

5

(having “no trouble finding” that trial counsel’s statements, which may have called

6

defendant’s choice not to testify to the jury’s mind, “were part of a responsible trial

7

strategy”); Graham v. Dormire, 212 F.3d 437, 440-41 (8th Cir. 2000) (holding that

8

defense counsel’s decision to address in closing argument defendant’s failure to

9

testify was not unreasonble). Because there is a “reasonable argument that counsel

10

satisfied Strickland’s deferential standard,” Richter, 131 S. Ct. at 788, Claim 5(F)

11

is DENIED.

12
13
14

G.

Claim 5(G): Failure to Investigate and Present Evidence of
Third-Party Culpability

Petitioner asserts that “counsel knew or should have known that substantial

15

evidence pointed to Ray Blevins as the actual perpetrator of Kim’s murder,” and

16

that counsel “did not sufficiently investigate the possibility of Tulio’s involvement

17

in the capital crimes.” (Pet. at 73.) Finally, without further elaboration, Petitioner

18

alleges that defense counsel had information that two men, “known to Mr. Carter

19

as Mike and Kevin, were present in both Northern and Southern California at and

20

around the time of the crimes . . . [and] knew the various victims and had interacted

21

with them in the past.” (Id. at 75.)

22

First, Petitioner alleges that there was evidence that Blevins and Kim fought

23

shortly before her death, that Blevins was in a unique position to have access to

24

Kim and her apartment, and that Blevins refused to take a polygraph until after a

25

cause of death was determined. (Id. at 73 (citing 3 RT 296-303).) As noted above,

26

Petitioner was not charged in the instant trial (or in any other) with sexually

27

assaulting or murdering Kim. Evidence regarding Kim was introduced only to

28

connect Petitioner with the Los Angeles County crimes. The California Supreme
50
Petitioner's App. 7 - 134

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 51 of 146 Page ID #:3554

1

Court may have reasonably determined that Petitioner failed to demonstrate how

2

showing that Blevins murdered Kim would dissociate Petitioner from his

3

possession of Kim’s belongings, along with Knoll’s, Mills’, Guthrie’s, and

4

Cullins’, in Mills’ car at the time of his arrest, see Carter, 36 Cal. 4th at 1134-35,

5

and the presence of Kim’s car at the Mills/Knoll apartment. See id. at 1131.

6

Second, Petitioner alleges that had defense counsel adequately investigated

7

Tulio’s involvement, counsel would have uncovered evidence that: (1) Tulio lied

8

to police when he said he had never been to Knoll’s apartment, according to John

9

Maloney, who said he and Tulio briefly stopped by Knoll’s apartment some time

10

prior to her death (Pet. at 74 (citing Pet. Ex. 97)); (2) Tulio’s alibi that he was

11

playing cards at Maloney’s home at the time of the Knoll and Mills murders was

12

false, according to Maloney, who said he had never hosted a card game at his

13

house (id.); and (3) witness Craig Bloor, a Culver City Police Officer, identified

14

Tulio as the person he saw at the Mills/Knoll apartment building to Detective

15

Kevin White. (Id. at 74-75 (citing Pet. Ex. 99).)

16

The record reflects Gillingham’s awareness that Bloor had information

17

concerning Tulio’s presence at the building and could be called as a witness. (42

18

RT 5095.) The California Supreme Court may have reasonably determined that

19

Gillingham made a strategic decision not to investigate further Tulio’s presence at

20

the building, based upon the lack of physical evidence tying Tulio to the crimes.

21

See Pinholster, 131 S. Ct. at 1407-08 (“There comes a point where a defense

22

attorney will reasonably decide that another strategy is in order, thus ‘mak[ing]

23

particular investigations unnecessary.’ Those decisions are due ‘a heavy measure

24

of deference’” (quoting Strickland, 466 U.S. at 691; citations omitted)); Richter,

25

131 S. Ct. at 788 (finding no deficient performance by counsel on the basis that

26

“Strickland . . . permits counsel to make a reasonable decision that makes

27

particular investigations unnecessary” (internal quotation omitted)). The court may

28

have likewise reasonably determined that Petitioner had not demonstrated a
51
Petitioner's App. 7 - 135

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 52 of 146 Page ID #:3555

1

reasonable probability of a different outcome at trial, in light of the evidence

2

connecting Petitioner to the crimes, had Gillingham presented evidence that Tulio

3

was once briefly at the apartment, was not at Maloney’s home as he said he was,

4

and was seen at the Mills/Knoll apartment building that night instead.

5

Petitioner presents no evidence to establish prejudice from counsel’s failure

6

to investigate Mike and Kevin.

7

Claim 5(G) is DENIED.

8

H.

9

Petitioner raises five distinct allegations of ineffective assistance in Claim

10
11

Claim 5(H): Other Ineffective Assistance of Counsel

5(H):
(1)

“To the extent” that the motion to consolidate charges “was not

12

timely made,” counsel’s performance was deficient. (Pet. at 76.) As the

13

Court held above (see supra p. 26), the California Supreme Court may have

14

reasonably determined that Petitioner “presents no persuasive basis for

15

concluding that a jury that [convicted and] imposed the death sentence for

16

three murders would have imposed a lesser sentence if defendant had been

17

charged in this proceeding with additional crimes, including murder.”

18

Carter, 36 Cal. 4th at 1160. Petitioner has therefore failed to demonstrate

19

prejudice from any deficient performance.

20

(2)

“To the extent” that the motion for mistrial based upon jurors’

21

unsworn voir dire responses “was not timely made,” counsel’s performance

22

was deficient. (Pet. at 76.) This subclaim is related to Claim 12(A) and will

23

be addressed below. (See infra pp. 86-88.)

24

(3)

“To the extent” that counsel failed to make proper objections to

25

guilt phase instructions concerning CALJIC Nos. 2.01-2.02, 2.50, 2.50.1,

26

2.50.2, and 8.83-8.83.1, counsel’s performance was deficient. (Pet. at 76.)

27

This subclaim is related to Claim 14(E) and will be addressed below. (See

28

infra pp. 130-32.)
52
Petitioner's App. 7 - 136

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 53 of 146 Page ID #:3556

1

(4)

“To the extent” that counsel failed to make proper objections to

2

guilt phase instructions concerning CALJIC Nos. 2.09 and 2.51, counsel’s

3

performance was deficient. (Pet. at 76.) This subclaim is related to Claim

4

12(E) and will be addressed below. (See infra pp. 97-98.)

5

(5)

“To the extent” that counsel failed to make proper objections to

6

misconduct in the prosecution’s guilt phase closing argument, counsel’s

7

performance was deficient. (Pet. at 76.) This subclaim is related to Claim

8

10 and will be addressed below. (See infra pp. 73-79.)

9
10

VII. Claim 6: Ineffective Assistance at Penalty Phase of Trial
In Claim 6, Petitioner alleges that trial counsel’s penalty phase presentation

11

was “disjointed, jumping from one area to another and consisted solely of lay

12

witness testimony that was incongruous and sometimes conflicting.” (Pet. at 86-

13

87.) He alleges that counsel “minimized [Petitioner’s] drug abuse with some

14

witnesses, while emphasizing it with others,” for example, and presented evidence

15

at some points that Petitioner loved his children while at other points emphasizing

16

his shortcomings as a father. (Id. at 87-88.) Petitioner claims that counsel

17

“overemphasi[zed] . . . four years of Mr. Carter’s adult life prior to the homicides,”

18

and “never even asked the jury to impose a sentence of life imprisonment.” (Id. at

19

87-88.) He alleges that counsel “conducted very little investigation and presented

20

only a portion of the available mitigation evidence at the penalty phase” of his trial.

21

(Id. at 79.)

22
23
24

A.

Counsel’s Penalty Phase Presentation
1.

Theme of Parental Neglect and Absence

Before he began his penalty phase presentation to the jury, counsel told the

25

trial court that “[t]his penalty phase is going to be limited. It will be direct. One of

26

the primary themes in this penalty [presentation] is going to be the absence of this

27

man’s mother . . . . [S]he refused to talk about him . . . . I am going to ask the

28
53
Petitioner's App. 7 - 137

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 54 of 146 Page ID #:3557

1

brother and sister was there ever – did you ever talk about Dean in the house, and

2

they will say no. It is like a pariah. No significance.” (49 RT 5745.)

3

Indeed, counsel presented evidence from more than three witnesses that

4

Petitioner’s mother never wanted to talk about Petitioner. (See id. at 5742, 5745

5

(testimony of Bertha Adsuna), 5762 (testimony of Jerry Carter), 5768 (testimony

6

of Polly Reasner); 51 RT 5937-38 (testimony of Casey Cohen).) Petitioner’s

7

brother testified that counsel met with him in Anchorage. (Id. at 5753.) He

8

testified that Petitioner was not a topic of discussion at home at all. (Id. at 5762.)

9

He said that he talked to their mother about coming to Petitioner’s trial and she was

10

not coming. (Id. at 5762-63.) Petitioner’s sister, Polly, said that counsel spoke to

11

her a number of times before she testified. (Id. at 5767.) She explained that

12

Petitioner was gone when she was a child and her family “never talked about Dean

13

at all” at home. (Id. at 5768.) She told of going to Anchorage with her parents and

14

her younger sister and not learning that Petitioner was there until they returned to

15

Nome. (Id. at 5769.) Polly was “just shocked that we couldn’t even go and see

16

him. That they hadn’t even mentioned it to us, that we were so close to him but we

17

couldn’t go and see him.” (Id. at 5769.) She said she doubted that her parents

18

wanted to see him. (Id. at 5777.) She testified that she had asked her mother “to

19

please come” to testify for Petitioner and that his mother knew what was at stake.

20

(Id. at 5772.) Finally, Petitioner’s investigator, Casey Cohen, testified that he

21

traveled to Nome three times and attempted to speak to Petitioner’s mother about

22

Petitioner as a child and the circumstances of his childhood. (51 RT 5937, 5939.)

23

Cohen attempted to speak to her at least three times in person and several times by

24

telephone. (Id. at 5938.) Cohen testified that her reaction to his questions about

25

Petitioner’s childhood “ranged anywhere from just flat out refusing to talk about it

26

to sometimes just covering her ears and looking down at the table hysterically and

27

shouting, ‘Leave me alone. I don’t want to talk about that. I am not going to talk

28

about that – period.’” (Id. at 5937-38.) Cohen added that a former police officer in
54
Petitioner's App. 7 - 138

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 55 of 146 Page ID #:3558

1

Nome, Guy Martin, said that he was willing to discuss Petitioner if Petitioner’s

2

mother would allow it. (Id. at 5940-41.) Cohen said that Martin was instructed by

3

Petitioner’s mother not to discuss Petitioner, and he then did not do so. (Id. at

4

5941.)

5

Counsel’s final question in the penalty phase presentation concerned the lack

6

of testimony from Petitioner’s “unwilling mother[].” (Id. at 5942.) After the

7

prosecutor on cross-examination asked Cohen whether he was aware of a process

8

to subpoena witnesses from other states to testify, trial counsel asked, “In the

9

nature of our business do we normally subpoena unwilling mothers to come to

10

testify in court?” (Id. at 5942.) Cohen replied that he never had. (Id.)

11

Counsel presented evidence that Petitioner’s mother is half Eskimo and

12

Petitioner was raised in Nome, Alaska. (49 RT 5739, 5747.) Counsel asked a

13

board member of a rape crisis counseling and educational outreach program in

14

Anchorage, who had worked in smaller towns in Alaska, about “any apparent

15

attitude that [she] came to observe or know about concerning the Eskimos in

16

disclosure of abuse in the home.” (51 RT 5922-23, 5927-28.) She responded that

17

“it was very difficult for native communities for children and people who had

18

experienced sexual abuse or any kind of abuse to really talk about it or really get it

19

out.” (Id. at 5927.) She testified that the native communities were “very private.”

20

(Id.) Counsel presented further testimony from the Director of Education for a

21

social services organization for the Bering Strait region, including Nome, that there

22

was a need to “build[] up [the native population’s] heritage, their feeling of worth.”

23

(Id. at 5814-15.) A close friend and coworker of Petitioner, who worked in the

24

telecommunications department of the University of Alaska, also discussed the

25

“transition in native people, people as Western civilization. There is nowhere more

26

appropriate than in Alaska, and there’s been a lot of turmoil within native people in

27

Alaska within the last twenty years, monumental changes . . . .” (50 RT 5867.)

28
55
Petitioner's App. 7 - 139

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 56 of 146 Page ID #:3559

1

Counsel presented evidence that Nome is a town just below the Arctic Circle

2

of about 4,000 people, and about 2,000 in the 1950s or 1960s, which can only be

3

reached by plane and where winter lasts nine months, daylight is as short as a few

4

hours a day, and days are typically gray. (49 RT 5722, 5740-41, 5780.) The

5

nearest village is about 90 miles away. (Id. at 5747.) Nome has a high suicide rate

6

and an “extreme amount” of alcohol abuse, including among the Eskimo,

7

according to the testimony. (Id. at 5753; see also id. at 5783; 50 RT 5832.)

8
9

Petitioner’s brother, Jerry, testified that their parents were alcoholics. (49
RT 5755.) They would come home late at night after drinking and there would be

10

“extreme arguing” and at times “hitting.” (Id. at 5756-57.) Their mother would

11

“get carried away” administering discipline. (Id. at 5755.) As a child, Petitioner

12

would run away for several days at a time, staying in a tool box and a wheel well

13

of a plane, and eating bread a friend would bring him. (Id. at 5754-55.) He once

14

ran away to Anchorage by plane. (Id. at 5755.) On one occasion, when Petitioner

15

was seven or eight, he was home alone with his brother, who was four years older,

16

and their mother came home around 2:00 a.m. (Id. at 5752, 5757.) She left again,

17

and when she did, Petitioner ran after her car and “hung on to the bumper and tried

18

to stop the car for quite a ways,” being dragged over a gravel road. (Id. at 5757-

19

59.) Petitioner’s father chained him by the ankle to a bed at least once, when he

20

was eight or nine years old. (Id. at 5759.)

21

Jerry testified that he “somewhat” grew up together with Petitioner, because,

22

as counsel phrased it, Petitioner “was gone a lot.” (Id. at 5752.) At age eight or

23

nine, Petitioner’s parents sent him to the Jessie Lee Home, which was far from

24

Nome. (Id. at 5764.) Although Jerry gave a more favorable description on cross-

25

examination, Polly described the Jessie Lee Home as “a jail or something for

26

children.” (Id. at 5777.) A classmate of Dean’s also remembered him running

27

away. (Id. at 5781.)

28
56
Petitioner's App. 7 - 140

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 57 of 146 Page ID #:3560

1

Polly said that there was “very much drinking” by their parents and that

2

when they came home after drinking, the children “wanted to get as far away from

3

them as you could,” and they would often throw furniture at each other and throw

4

each other. (Id. at 5769-71.)

5

Bertha Adsuna, a Nome resident who knew the Carters, testified that

6

Petitioner’s mother treated him quite differently from his brother, and he was

7

“more like an orphan . . . when they were small” based on the way Petitioner was

8

dressed. (49 RT 5746.) She testified that “it’s no good to grow up like that” and

9

that Petitioner’s mother did not ever want to talk about Petitioner. (Id. at 5745-46.)

10

Petitioner’s counsel spoke to her several times before her testimony. (Id. at 5745-

11

46.)

12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Counsel’s closing argument referenced Petitioner’s mother’s unwillingness
to discuss Petitioner. He argued:
Casey goes to Alaska three times and he comes up short.
We could have subpoena [sic] her under the Interstate
Compact Act. We could have even arrested her and have
her brought down and have her brought out from the
back, this reluctant mother who doesn’t want to talk to
us. [¶] How dare she. Talk about reality. Is that what
we do? Dean was never a topic we talked about. To this
day he is not talked about, according to Polly. [¶] Tell
me I could have subpoenaed her. . . .
So, what is the secret? What happened, if anything, in
Nome? I don’t know. Do you think I wouldn’t like to
know? Do you think I would not like to produce it? Guy
Martin said he’d be happy to talk to us. All Esther has to
do in Nome where they don’t talk about each other
because, of course, they need each other in that
environment. [¶] What kind of world would that be if
you were talking about your neighbor when you were
going to spend nine months in the ice or snow? Guy
Martin would talk to us if Esther would say it was okay.
And Casey saw her. Went to see if she would let him
57
Petitioner's App. 7 - 141

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 58 of 146 Page ID #:3561

1
2
3
4
5

talk, and the answer was no. . . . Even the lack of
information surely is something that causes you pause in
deciding what the punishment will be to this man.
(52 RT 6105-07.)
2.

Other Mitigating Evidence

6

Counsel presented additional mitigating evidence regarding Petitioner’s

7

substance abuse. Petitioner’s friend testified that Petitioner was starting to use

8

drugs on a regular basis in Anchorage. (50 RT 5838, 5841.) Petitioner was using

9

marijuana, which was legal in Alaska, she stated, and cocaine. (Id. at 5841.) A

10

second friend in Anchorage testified that Petitioner’s cocaine use appeared to have

11

taken a toll on him. (Id. at 5847-48.) A third, close friend and coworker testified

12

about his alcohol and drug use with Petitioner and explained that Petitioner “was

13

clearly out of control, and he was much further along in his progression into

14

cocaine addiction than I was at that point.” (Id. at 5869.) An ex-girlfriend of

15

Petitioner’s further testified about Petitioner’s cocaine use. (Id. at 5859-63.)

16

A friend for whom Petitioner had acted as “best man” at his wedding

17

explained that Petitioner behaved unusually in August 1983. (Id. at 5898.)

18

Petitioner had unusual “flashes of anger, frustration” at him, and Petitioner was

19

arrested for drunk driving on his way to the wedding. (Id. at 5898-99.) Petitioner

20

stayed with him periodically in February and March 1984, and he had the “sense

21

that [Petitioner] was floating . . . .” (Id. at 5900-01.) When he learned that

22

Petitioner was accused of rape, he phoned Petitioner and Petitioner sounded “very

23

depressed . . . in extremely low level,” and he tried to call a suicide prevention line

24

out of concern about Petitioner. (Id. at 5902-03.) Later that day, Petitioner called

25

his friend and said that he “wanted to go back up to Anchorage and . . . he could

26

perhaps go to the Alaska Psychiatric Institute.” (Id. at 5903-04.)

27

Another close friend testified that in February and March of 1984, he

28

received phone calls from Petitioner in which Petitioner sounded “spacey” and was
58
Petitioner's App. 7 - 142

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 59 of 146 Page ID #:3562

1

“difficult to understand. He sounded very concerned or afraid or paranoid like

2

something was really troubling him. . . . There was a problem of some sort and . . .

3

from the sound of his voice . . . he was in quite a bit of fear. Very uncomfortable

4

but incoherent.” (Id. at 5873-74.)

5

Counsel also presented evidence that victim Steward reported that Petitioner

6

was periodically “crazy,” needed to be “br[ought] back to reality,” and had a

7

“glazed over . . . [and] mad look on his face.” (49 RT 5720-22.) Petitioner was

8

crying and “began apologizing to her and saying how terrible he felt and how sorry

9

he was for what had happened,” and Petitioner said that “he realized that he needed

10

psychiatric help and he knew of a place that he could go to in Anchorage.” (Id. at

11

5720-22.)

12
13

Finally, counsel presented testimony that Petitioner had no disciplinary
record in Los Angeles County jail. (50 RT 5844.)

14

B.

Analysis

15

As noted above, when considering a claim of ineffective assistance of

16

counsel, the Court must “evaluate the conduct from counsel’s perspective at the

17

time” and must consider “whether there is any reasonable argument that counsel

18

satisfied Strickland’s deferential standard.” Richter, 131 S. Ct. at 788, 789

19

(internal quotation omitted). The Court “may not indulge post hoc rationalization

20

for counsel’s decisionmaking that contradicts the available evidence of counsel’s

21

actions.” Id. at 790 (internal quotation omitted).

22

The record reflects that trial counsel intended to focus on the absence of

23

Petitioner’s mother from the penalty phase proceedings. As set forth above,

24

counsel presented that evidence, along with other mitigating evidence of the

25

circumstances of the crimes. Counsel’s declaration made in retrospect that his

26

inability to “build rapport or develop the confidence of [Petitioner] . . . and other

27

failures and omissions on [his] part contributed to [his] inability [to] present a

28

compelling case in mitigation” is not dispositive. (Pet. Ex. 64 at 3; see also 51 RT
59
Petitioner's App. 7 - 143

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 60 of 146 Page ID #:3563

1

5940 (testimony of Petitioner’s mitigation investigator that he talked to

2

approximately forty people in his investigation)); Richter, 131 S. Ct. at 790 (“After

3

an adverse verdict at trial even the most experienced counsel may find it difficult to

4

resist asking whether a different strategy might have been better, and, in the course

5

of that reflection, to magnify their own responsibility for an unfavorable outcome.

6

Strickland, however, calls for an inquiry into the objective reasonableness of

7

counsel’s performance, not counsel’s subjective state of mind”). In addition, the

8

California Supreme Court may have reasonably concluded that expert testimony

9

was not necessary to understand the implications of the evidence counsel

10

presented. See Wong v. Belmontes, 130 S. Ct. 383, 388 (2009) (holding that “the

11

body of mitigating evidence,” including a “difficult childhood” and alcoholism in

12

the family, “was neither complex nor technical. It required only that the jury make

13

logical connections of the kind a layperson is well equipped to make. The jury

14

simply did not need expert testimony to understand the ‘humanizing’ evidence; it

15

could use its common sense or own sense of mercy”).

16

Petitioner mischaracterizes counsel’s remarks at the time of trial regarding

17

his “utter and complete sense of failure,” when he alleges that counsel was at a loss

18

for how to “mitigate the crimes.” (Pet. at 86 (quoting 52 RT 6103).) Counsel’s

19

statement referred only to not comprehending Petitioner’s motivation for the

20

crimes, not to presenting evidence in mitigation. In context, counsel’s argument to

21

the jury stated:

22
23
24
25
26
27
28

The man was arrested in Arizona. ‘I think she’s got it
here,’ he says about the registration.
Desire to be caught? I don’t know. A desire to punish
others far away? I don’t know. I don’t know why, ladies
and gentlemen. I do not know why. And I have an utter
and complete sense of failure in that regard. Is there any
doubt, however, that this man leaves Alaska December
’83, a mere three months before the start of the two
weeks of horror, a different man when he leaves?
60
Petitioner's App. 7 - 144

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 61 of 146 Page ID #:3564

1

(52 RT 6103.) Similarly, Petitioner’s allegation that counsel “never even asked the

2

jury to impose a sentence of life imprisonment” is belied by the record. (Pet. at 87-

3

88.) Counsel told the jury, “Now here I stand before you and you know that I want

4

so badly for the judgment to life [sic] and not death, and you know it.” (52 RT

5

6094.)

6

Petitioner further alleges that “[t]rial counsel knew about Esther’s pervasive

7

alcoholism . . . [and] knew Dean suffered head injuries as a child and, from his

8

school records, could see on-going problems with learning and attention. Yet,

9

nothing in this regard was presented to the jury.” (Pet. at 95.) The California

10

Supreme Court may have reasonably found no deficient performance or prejudice

11

because the evidence would not have been well received in light of the facts

12

showing Petitioner’s rationality in carrying out and departing from the crimes. As

13

counsel recognized in his closing statement, “there were some things I suppose that

14

are rational, drive the car down, et cetera. I am not saying to you or trying to

15

suggest that the man was stoned out, that he was out of control every minute. I am

16

not suggesting that at all.” (52 RT 6103.)

17

//

18

Petitioner acknowledges that “[i]n general, juries tend to perceive mental

19

health evidence as a vehicle for defense counsel to ‘excuse’ the actions of the

20

defendant” (Pet. at 114), but argues that the jury would have been more

21

sympathetic to evidence of Fetal Alcohol Spectrum Disorder because it is seen as

22

“objective, something concrete, and something that is not the defendant’s fault.”

23

(Id. at 114-15.) Petitioner claims prejudice based upon counsel’s failure to show,

24

inter alia, that “‘the research suggests that for Dean Phillip Carter’s brutal

25

aggression to have been prevented, he needed appropriate identification and

26

intervention in childhood.’” (Id. at 115 (quoting Pet. Ex. 77).) The California

27

Supreme Court may have reasonably concluded, however, that the jury would have

28

reacted unfavorably to the suggestion that once Petitioner had left childhood, his
61
Petitioner's App. 7 - 145

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 62 of 146 Page ID #:3565

1

brutal aggression was essentially inevitable. (Cf. supra pp. 37-39 (discussing the

2

limitations of Petitioner’s mental health expert opinions).)

3

Finally, the California Supreme Court may have fairmindedly concluded that

4

the additional evidence Petitioner faults counsel for failing to present, namely, his

5

physical abuse by his parents (Pet. at 88-89, 92-95); his disappearances as a child

6

and the knowledge among the community that his parents “locked up” their

7

children (id. at 89, 92-94, 96-97); the unsuccessful efforts to stop his abuse as a

8

result of James Carter’s power, the cultural norms against discussing or interfering

9

in private matters, and discrimination against Native Alaskans (id. at 96-98, 101-

10

02); his time spent in institutional settings (id. at 98-99); and the cultural

11

challenges in Nome and of Native Alaskans (id. at 99-100), “largely duplicated”

12

the evidence that was presented and does not “show a ‘substantial’ likelihood of a

13

different sentence.” Pinholster, 131 S. Ct. at 1409, 1410; see also id. at 1403 (“A

14

reasonable probability is a probability sufficient to undermine confidence in the

15

outcome. That requires a “substantial,” not just “conceivable,” likelihood of a

16

different result” (internal quotation omitted)); Dyer v. Calderon, 122 F.3d 720, 732

17

(9th Cir. 1997) (discussing “‘the wholly unremarkable fact that with the luxury of

18

time and the opportunity to focus resources on specific parts of a made record,

19

post-conviction counsel will inevitably identify shortcomings in the performance

20

of prior counsel’” (quoting Waters v. Thomas, 46 F.3d 1506, 1514 (11th Cir.

21

1995))), vacated on other grounds on reh’g en banc, 151 F.3d 970 (9th Cir. 1998).

22
23

Claim 6 is, therefore, DENIED.
VIII. Claim 7: Right to Competent Psychiatric Assistance

24

In Claim 7, Petitioner alleges that he was “deprived of his right to the

25

competent assistance of a psychiatric expert,” citing Ake v. Oklahoma, 470 U.S. 68,

26

80 (1985). (Pet. at 121.) Petitioner contends that “[t]he court-appointed experts

27

retained before or during Mr. Carter’s trial provided incomplete evaluations of Mr.

28

Carter because they lacked the necessary foundation to reach reliable conclusions,”
62
Petitioner's App. 7 - 146

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 63 of 146 Page ID #:3566

1

namely, a complete psychosocial history, documents and directed family-member

2

interviews reflecting Carter’s life history, and a thorough neuropsychological

3

evaluation with appropriate screening. (Id. at 123-24.) Petitioner asserts that

4

without that investigation and examination, “which provides the basis for

5

competent psychiatric and other mental health evaluations, Mr. Carter was

6

deprived of constitutionally sufficient mental health evaluations prior to and during

7

his trial.” (Id. at 124.)
In Ake, the Supreme Court held that “when a defendant has made a

8
9

preliminary showing that his sanity at the time of the offense is likely to be a

10

significant factor at trial, the Constitution requires that a State provide access to a

11

psychiatrist’s assistance on this issue if the defendant cannot otherwise afford

12

one.” 470 U.S. at 74. The Court reached “a similar conclusion in the context of a

13

capital sentencing proceeding, when the State presents psychiatric evidence of the

14

defendant’s future dangerousness.” Id. at 83. “[T]he State must, at a minimum,

15

assure the defendant access to a competent psychiatrist who will conduct an

16

//

17

appropriate examination and assist in evaluation, preparation, and presentation of

18

the defense.” Id.

19

To establish a constitutional violation, Petitioner must, therefore,

20

demonstrate that the state denied him access to a competent psychiatrist and

21

appropriate examination and assistance. Harris v. Vasquez, 949 F.2d 1497, 1516

22

(9th Cir. 1991). In Harris, the Ninth Circuit found no constitutional violation

23

“because the state did in fact provide Harris with psychiatric assistance. The state

24

provided Harris with access to any competent psychiatrist of his choice when it

25

gave Harris the funds to hire two psychiatrists from the general psychiatric

26

community. The state did not limit Harris’s access to psychiatric assistance in any

27

way.” Id. (emphasis in original).

28
63
Petitioner's App. 7 - 147

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 64 of 146 Page ID #:3567

1

Here, Petitioner acknowledges that the state provided him with court-

2

appointed mental health professionals. (See Pet. at 123-25.) The California

3

Supreme Court may have reasonably concluded, as the Ninth Circuit did in Harris,

4

that Petitioner suffered no constitutional violation pursuant to Ake because the state

5

provided Petitioner with access to competent psychiatric assistance. Accordingly,

6

Claim 7 is DENIED.

7

IX.

Claim 8: Racially Discriminatory Jury Selection
In Claim 8, Petitioner alleges that the prosecutor used peremptory challenges

8
9

to remove “two African-American prospective jurors, the only Asian prospective

10

juror, and a mixed-race juror . . . not guided by race-neutral criteria.” (Pet. at 128

11

(citing Batson v. Kentucky, 476 U.S. 79, 86 (1986); Miller-El v. Dretke, 545 U.S.

12

231 (2005)).) He adds:

13

At the time of Mr. Carter’s trial, less than 50% of the
residents of Los Angeles County were White. At the
time of Mr. Carter’s trial, the jury venires from which
petit juries were selected systematically over-represented
White persons and under-represented persons of other
races and ethnicities. Persons of White Anglo-Saxon
ancestry were over-represented among the pool of
prospective jurors in the jury venire called for Mr.
Carter’s case; persons of other races and ethnicities,
including but not limited to African-Americans and
Latinos, were under-represented in the jury venire.

14
15
16
17
18
19
20
21

Id.

22

Petitioner acknowledges in a footnote that trial counsel failed to object to the

23

prosecutor’s peremptory challenges at trial, but argues that the lack of objection “is

24

not fatal to Carter’s Batson claim.” (Petr.’s Br. at 165 n.102.) Petitioner relies

25

upon United States v. Contreras-Contreras, 83 F.3d 1103, 1105-06 (9th Cir. 1996),

26

in which “the Ninth Circuit reviewed for plain error” the defendant’s Batson claim,

27

and upon cases from other circuits also reviewing for plain error. (Petr.’s Br. at

28

165 n.102.) The Ninth Circuit made clear in Haney v. Adams, however, that “a
64
Petitioner's App. 7 - 148

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 65 of 146 Page ID #:3568

1

petitioner may not raise a Batson claim in his habeas petition if the petitioner failed

2

to object to the prosecution’s use of peremptory challenges at trial.” 641 F.3d

3

1168, 1169 (9th Cir. 2011). Addressing its decision in Contreras-Contreras, the

4

court stated:

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

We have previously held that an objection ‘must be made
as soon as possible, and preferably before the jury is
sworn’ in federal criminal cases, but on direct appeal we
may review the claim for plain error. ContrerasContreras, 83 F.3d at 1104; see also Fed. R. Crim. P.
52(b). However, although Federal Rule of Criminal
Procedure 52(b) plain error review applies to federal
criminal cases, it does not apply to either the state
proceedings or habeas petitions. Accordingly, we have
implied that an objection must be made in order to
preserve a Batson claim in a habeas case. See Boyd v.
Newland, 467 F.3d 1139, 1142 n.2 (9th Cir. 2006).
Haney, 641 F.3d at 1171 n.5 (internal citations edited). The court explained that
[t]he Supreme Court has never allowed a Batson
challenge to be raised on appeal or on collateral attack, if
no objection was made during jury selection. Indeed, . . .
Batson itself presupposes a timely objection. Ford v.
Georgia, 498 U.S. 411, 423 (1991) held that states may
adopt rules for determining whether a Batson objection is
timely, but did not address whether failure to timely
object barred a habeas claim. Therefore, the state court’s
habeas decision was not ‘contrary to’ clearly established
federal law. Furthermore, we join other circuits which
have considered this issue in holding that an objection at
trial is a prerequisite to a Batson challenge for purposes
of habeas review.
Haney, 641 F.3d at 1171 (collecting cases) (internal citation edited).
As to Petitioner’s conclusory claim that whites were over-represented among
the pool of prospective jurors in his jury venire and that persons of other races and
ethnicities were under-represented, Petitioner raises no specific factual allegations

65
Petitioner's App. 7 - 149

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 66 of 146 Page ID #:3569

1

in support. (See Petr.’s Br. at 164 n.101.) “Conclusory allegations which are not

2

supported by a statement of specific facts do not warrant habeas relief.” James, 24

3

F.3d at 26; see also Greenway, 653 F.3d at 804; Jones, 66 F.3d at 204-05.

4
5

Claim 8 is, therefore, DENIED.
X.

Claim 9: Jury Questions

6

A.

Allegations and Decision on Direct Appeal

7

In Claim 9, Petitioner alleges that his constitutional rights were violated

8

because “the record of a critical proceeding was not preserved, the trial court failed

9

to adequately respond to questions from the jury, Mr. Carter was impermissibly

10

absent from the proceedings, and the nature of the questions revealed that the jury

11

was confused by the instructions and improperly applied the law.” (Pet. at 130.)

12

The California Supreme Court addressed this claim on direct appeal:

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

[D]efendant contends that on the second day of the jury’s
penalty deliberations, the trial court failed to respond
adequately to two questions submitted by the jury that
sought guidance as to the meaning of the terms
‘extenuating,’ ‘mitigating,’ and ‘aggravating’
circumstances, and that the failure of the trial court to
make an adequate record of its response deprived
defendant of his right to due process of law by denying
him meaningful appellate review of the proceedings. The
jury’s questions, submitted in a pair of notes signed by
the jury foreman, inquired: [1] ‘We would like the legal
definition of: extenuating[,] mitigating[, and]
aggrevating [sic]. [2] If a member of the jury finds that
the aggravating circumstances [are] greater than the
mitigating circumstances, may the juror vote for life? If
a member of the jury finds that the mitigating
circumstances [are] greater than the aggravating
circumstances, may the juror vote for death?’
With regard to the jury’s request for definitions, the
record is silent as to how, if at all, the trial court
responded. [¶] The matter was discussed several years
66
Petitioner's App. 7 - 150

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 67 of 146 Page ID #:3570

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

later when the parties attempted to settle the record, prior
to filing their briefs in this court. Defense counsel
observed at the record settlement hearing that although
the Clerk’s Transcript contains the questions submitted
by the jury, there is no corresponding Reporter’s
Transcript indicating whether the trial court discussed the
questions with counsel. The Reporter’s Transcript for the
date in question, August 2, 1989, indicates only that ‘the
jury retired for further deliberations.’ . . . Even if we
infer from the record that the trial court, either
intentionally or inadvertently, ignored the jury’s request
for definitions of the terms ‘extenuating,’
‘mitigating,’ and ‘aggravating’ circumstances, and did
not discuss the matter with counsel, any error was
harmless, because those terms did not require further
definition.
As to the second note from the jury, the trial court
answered ‘yes’ and ‘no,’ respectively. The jury
thereafter continued its deliberations and, without
submitting any further inquiries to the court, reached its
verdict five days later. Although the better practice
would have been for the court (or the parties) to ensure
that the proceedings responsive to the jury’s questions
were reported, on the record before us we are unable to
discern any error in the trial court’s handling of the jury’s
inquiries. [¶] Defendant contends that the inadequate
record violates a panoply of defendant’s rights under the
state and federal Constitutions. In the
absence of any showing by defendant that any matter not
reported was of consequence and prejudicial, defendant’s
claim lacks merit.
Finally, defendant contends that because he was
personally absent from court when the jury submitted the
foregoing inquiries (although his counsel was present),
reversal of the death judgment is mandated. . . . [H]is
failure to demonstrate prejudice from his absence at this
stage of the proceedings forecloses his claim.
67
Petitioner's App. 7 - 151

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 68 of 146 Page ID #:3571

1
2
3
4

Carter, 36 Cal. 4th at 1202-03 (footnote and citations omitted).
B.

Analysis
1.

Response to Jury Questions

“[T]he factual findings arising out of the state courts’ post-trial hearings are

5

entitled to a presumption of correctness. The substance of the [judge’s]

6

communications [to the jury] and their effect on juror impartiality are questions of

7

historical fact entitled to this presumption.” Rushen v. Spain, 464 U.S. 114, 120

8

(1983); see also Simmons v. Blodgett, 110 F.3d 39, 41-42 (9th Cir. 1997) (“Finding

9

facts to determine if there is a constitutional error is a wholly different thing from

10

deciding whether or not an error, once found, affected the verdict. Well-settled

11

principles guide the fact-finding process, including the rule that when . . . the

12

relevant evidence leaves the trier of fact in equipoise, the party with the burden of

13

proof loses” (internal quotation omitted)). The California Supreme Court

14

ultimately concluded that on the record before it, it found no error in the trial

15

court’s handling of the jury’s questions. While Petitioner disagrees with the

16

conclusions reached after the record settlement hearing (see Petr.’s Br. at 181), he

17

fails to show that those proceedings were not full and fair, or that the court’s

18

findings are unreasonable. Additionally, the inadequacy of the contemporaneous

19

record does not, in itself, entitle Petitioner to habeas relief. See United States v.

20

Gagnon, 470 U.S. 522, 526 (1985) (“The defense has no constitutional right to be

21

present at every interaction between a judge and a juror, nor is there a

22

constitutional right to have a court reporter transcribe every such communication”);

23

Spain, 464 U.S. at 118-19 (“[T]he District Court held that automatic reversal was

24

necessary because the absence of a contemporaneous record made intelligent

25

application of the harmless error standard impossible. . . . [The] conclusion that an

26

unrecorded ex parte communication between trial judge and juror can never be

27

harmless error ignores the[] day-to-day realities of courtroom life and undermines

28

society’s interest in the administration of criminal justice”); United States v.
68
Petitioner's App. 7 - 152

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 69 of 146 Page ID #:3572

1

Barragan-Devis, 133 F.3d 1287, 1289 (9th Cir. 1998) (finding harmless error

2

where “the court, for reasons not explained in the record, did not respond to the

3

[juror] note . . . [and] [i]t is unclear at what point the parties learned of [it]”).

4

The California Supreme Court’s holding that any error the trial court

5

committed was harmless, moreover, is not contrary to or an unreasonable

6

application of federal law. Cf. Beardslee v. Woodford, 358 F.3d 560, 575 (9th Cir.

7

2003) (holding that “in the usual case, harmless error analysis is appropriate in

8

considering a claim that the trial court failed to clarify instructions,” and

9

distinguishing cases where “the jury expressed actual confusion about the law”);

10

Barragan-Devis, 133 F.3d at 1289 (holding, where defense counsel was not

11

consulted and judge did not respond to jury’s question, that the error was harmless

12

“beyond a reasonable doubt that the error did not contribute to the verdict

13

obtained” (internal quotation omitted)). The California Supreme Court may have

14

reasonably found no constitutional violation in the lack of further definition of

15

“extenuating,” “mitigating,” and “aggravating.” In Tuilaepa v. California, for

16

example, the United States Supreme Court rejected California habeas petitioners’

17

arguments that:

18
19
20
21
22
23
24
25
26
27
28

the capital jury may not be instructed simply to consider
an open-ended subject matter, such as ‘the circumstances
of the crime’ or ‘the background of the defendant.’ Apart
from the fact that petitioners’ argument ignores the
obvious utility of these open-ended factors as part of a
neutral sentencing process, it contravenes our precedents.
. . . In Zant, we found no constitutional difficulty where
the jury had been told to consider ‘all facts and
circumstances presented in extenuation, mitigation, and
aggravation of punishment as well as such arguments as
have been presented for the State and for the Defense.’ . .
. And in Gregg, we rejected a vagueness challenge to
that same Georgia sentencing scheme in a case in which
the ‘judge . . . charged the jury that in determining what
sentence was appropriate the jury was free to consider the
69
Petitioner's App. 7 - 153

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 70 of 146 Page ID #:3573

1
3

facts and circumstances, if any, presented by the parties
in mitigation or aggravation.’
Tuilaepa, 512 U.S. 967, 978 (1994) (considering 1978 California death penalty

4

statute) (internal quotations omitted). In Ayers v. Belmontes, the Supreme Court

5

observed that “California ’s overall balancing process” provided by the 1978 death

6

penalty statute “requires juries to consider and balance . . . factors . . . that are

7

labeled neither as mitigating nor as aggravating. . . . [T]he jury itself must

8

determine the side of the balance on which each listed factor falls.” 549 U.S. 7, 23

9

(2006); see also Harris v. Pulley, 465 U.S. 37, 51, 52 n.14 (1984) (“Assuming that

2

10

there could be a capital sentencing system so lacking in other checks on

11

arbitrariness that it would not pass constitutional muster without comparative

12

proportionality review, the 1977 California statute is not of that sort,”

13

notwithstanding the fact that “[t]he statute does not separate aggravating and

14

mitigating circumstances”); Williams v. Calderon, 52 F.3d 1465, 1484 (9th Cir.

15

1995) (holding that the 1977 statute’s “failure to label aggravating and mitigating

16

factors is constitutional”). Finally, in Babbitt v. Calderon, the Ninth Circuit

17

rejected a California habeas petitioner’s argument that the trial court’s instruction

18

of the jury on the current California death penalty statute “was erroneous because

19

the jury was not specifically told which factors it could consider as extenuating and

20

was not informed of the definition of the term ‘extenuates.’” 151 F.3d 1170, 1178

21

(9th Cir. 1998).

22

The California Supreme Court’s determination that no further definition of

23

“extenuating,” “mitigating,” and “aggravating” was constitutionally required is not,

24

therefore, contrary to or an unreasonable application of clearly established federal

25

law. Likewise, the California Supreme Court’s conclusion that the jury’s questions

26

did not reveal impermissible confusion over the relevant legal principles or

27

misapplication of the law is not objectively unreasonable. See Tuilaepa, 512 U.S.

28

at 977 (rejecting petitioner’s challenge to the “equivocal” nature of the jury’s
70
Petitioner's App. 7 - 154

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 71 of 146 Page ID #:3574

1

consideration of the defendant’s age at the time of the crime and holding, “It is

2

neither surprising nor remarkable that the relevance of the defendant’s age can

3

pose a dilemma for the sentencer. But difficulty in application is not equivalent to

4

vagueness”); Barragan-Devis, 133 F.3d at 1290 ( holding that juror’s question

5

during deliberation did not “reveal any legal disorientation[;] . . . it simply reveals

6

some difficulty in assessing the probative value of the evidence. It is not the role

7

of a judge to help a juror sort out her own deliberative thinking”).

8
9

2.

Presence of Defense Counsel

The California Supreme Court’s factual finding that defense counsel was

10

present when the trial court responded to the jury’s second question is not

11

objectively unreasonable. The record reflects the presence of defense counsel on

12

August 3, 1989, when “in open court without the defendant being present, the

13

judge answer[ed] the jury’s question . . . .” (6 CT 1776.) As Petitioner concedes,

14

“[t]he Court minutes from the August 3, 1989 proceeding contains [sic] the

15

statement, ‘Parties and counsel checked if present.’ Next to Carter’s counsel’s

16

names are two check marks, one for Howard Gillingham, the other for Marsha

17

Morrissey.” (Petr.’s Br. at 183 (quoting 6 CT 1776).) Petitioner’s argument that

18

“those marking[s] are neither determinative nor dispositive because it is unclear

19

exactly when those marks were placed on the court minutes . . . [and] it is highly

20

unlikely that Carter’s counsel were present . . . when the jury resumed deliberating

21

and when they took breaks” (id.) fails to show the California Supreme Court’s

22

factual determination to be objectively unreasonable. Cf. Spain, 464 U.S. at 456

23

(holding that even “[t]he absence of a contemporaneous record will rarely deprive

24

the [state court’s] finding of . . . fair support in the record” (internal quotation and

25

alterations omitted)). The contemporaneous record supports the state court’s

26

factual finding.

27

Finally, the California Supreme Court’s conclusion that counsel’s presence,

28

and Petitioner’s personal absence, was constitutionally adequate is not contrary to
71
Petitioner's App. 7 - 155

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 72 of 146 Page ID #:3575

1

or an unreasonable application of clearly established federal law as determined by

2

the Supreme Court. A defendant:

3

has a due process right to be present in his own person
whenever his presence has a relation, reasonably
substantial, to the fulness of his opportunity to defend
against the charge . . . . Thus, a defendant is guaranteed
the right to be present at any stage of the criminal
proceeding that is critical to its outcome if his presence
would contribute to the fairness of the procedure.

4
5
6
7
8
9

Kentucky v. Stincer, 482 U.S. 730, 745 (1987) (holding that exclusion from witness

10

competency hearing, at which defense counsel was present, did not violate

11

defendant’s due process rights). The Supreme Court has not “previously stated

12

whether the delivery of a supplemental jury instruction constitutes a critical stage

13

[of trial] requiring the defendant’s presence.” United States v. Rosales-Rodriguez,

14

289 F.3d 1106, 1110 (9th Cir. 2002). While the Ninth Circuit held in Rosales-

15

Rodriguez that the delivery of a supplemental jury instruction was a critical stage

16

of trial, it concluded that “the defendant’s presence (or that of his counsel) is

17

constitutionally required . . . .” Id. (emphasis added). Petitioner has not, therefore,

18

shown the California Supreme Court’s treatment of his claim to be contrary to or

19

an unreasonable application of clearly established federal law.
Accordingly, Claim 9 is DENIED.

20
21

XI.

Claim 10: Prosecutorial Misconduct in Closing Argument

22

A.

23

In Claim 10, Petitioner challenges alleged prosecutorial misconduct in

24

closing argument. (Pet. at 135-41.) The California Supreme Court considered this

25

claim on direct appeal:

26
27
28

Decision on Direct Appeal

Defendant contends certain comments made by the
prosecutor on eight distinct occasions during closing
argument constituted prejudicial misconduct in violation
of his [constitutional] rights. . . . With regard to seven of
72
Petitioner's App. 7 - 156

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 73 of 146 Page ID #:3576

1

the eight instances of alleged prosecutorial misconduct,
defense counsel did not object when the comments were
made. . . .

2
3

[In] [t]he instance in which an objection to the purported
misconduct was interposed . . . the trial court sustained
his objection . . . . Whatever potential for harm arose
from the prosecutor’s remark was assuaged by the court’s
ruling . . . .

4
5
6
7
8

In addition, the prosecutor’s other comments – [to] which
defendant . . . fail[ed] to object below – came within the
bounds of fair comment or at most constituted trivial
improprieties. Under these circumstances, and in view of
the nature of defendant’s crimes, we conclude that any
possible error was harmless, because defendant has failed
to establish a reasonable likelihood the jury understood
or applied the complained-of statements in an improper
or erroneous manner.

9
10
11
12
13
14
15

Carter, 36 Cal. 4th at 1203-05. The “eight distinct occasions” at issue occurred

16

over the course of the prosecution’s guilt phase and penalty phase closing

17

arguments. Id. at 1203; (see also Pet. at 137-40.)2
B.

18

1. First Degree Murder by Strangulation

19

Petitioner challenges comments by the prosecutor that:

20

[y]ou will, after all, receive instructions on nothing but
first degree murder, because that’s what this case is, and
there is nothing less for you to consider. . . . [B]y the
very definition of the – of the term, every strangulation
murder must be a first degree murder in the absence of
some other evidence, and here there is none.

21
22
23
24
25
26
27
28

Analysis

2

Petitioner includes in Claim 10 an allegation that “[t]he prosecutor improperly and prejudicially
failed and refused to stipulate to matters beyond dispute for the improper purpose of inflaming the
passions of the jury by exposing them to gruesome photographs and testimony.” (Pet. at 138.) As
the Court holds below (see infra pp. 107-10), no evidence was admitted that was “so
inflammatory as to prevent a fair trial.” Duncan v. Henry, 513 U.S. 364, 366 (1995).

73
Petitioner's App. 7 - 157

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 74 of 146 Page ID #:3577

1

(Pet. at 137-38, 138 n.22.) The California Supreme Court may have reasonably

2

determined that in context, the prosecutor’s remarks argued that the facts of the

3

case demonstrated the required deliberation and premeditation for first degree

4

murder. The prosecutor argued:

5
6
7
8
9
10
11
12
13
14
15
16
17
18

[T]o put your hands around someone’s throat, face-toface or behind him, and to squeeze and squeeze and
squeeze for a minimum of a minute . . . as long as
perhaps . . . four minutes . . . . [T]hink of . . . the force
required – the concentrated effort required to do that. . . .
Does that tell you something about this defendant? . . .
[Defendant] strangle[d] someone and then thr[e]w that a
person into a closet and thr[e]w the second one into a
closet, also dead, on top, and then put[] a picture in front
of it – in front of the closet door to delay any kind of
discovery . . . . What the pictures show you more clearly
than any words I say, . . . is the kind of attitude . . . it took
to do things like this. . . . [I]t describes as clearly as
anything can possibly describe the horror of this case and
why such crimes are clearly first degree murder.
You will, after all, receive instructions on nothing but
first degree murder, because that’s what this case is, and
there is nothing less for you to consider.

19
20
21
22
23
24
25
26
27
28

We have asked and will continue to ask that you find the
defendant guilty of these crimes onto equal [sic] strong
theories. ‘Theories’ is a legal term. It just talks about the
path by which you reach a result.
I have talked to you for awhile now about willful and
deliberate premeditated murder, strangulation murders of
these women. And I’ve tried to indicate to you why it is
that, by the very definition of the – of the term, every
strangulation murder must be a first degree murder in the
absence of some other evidence, and here there is none.
[¶] There is no insanity issue or any other similar or
related issue.
74
Petitioner's App. 7 - 158

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 75 of 146 Page ID #:3578

1
2

(44 RT 5225-29.)
The California Supreme Court may have reasonably concluded that the

3

prosecutor’s remarks came within the bounds of fair comment. See United States

4

v. Henderson, 241 F.3d 638, 652 (9th Cir. 2000) (“Prosecutors have considerable

5

leeway to strike ‘hard blows’ based on the evidence and all reasonable inferences

6

from the evidence”); see also United States v. Tucker, 641 F.3d 1110, 1120-22 (9th

7

Cir. 2011).

8
9

2.

Burden of Proof and Proof beyond a Reasonable Doubt

Petitioner alleges that the prosecutor “improperly shifted the burden of proof

10

and encouraged the jury to return a verdict of guilt without finding proof beyond a

11

reasonable doubt on every element” in his guilt phase closing argument. (Pet. at

12

138 (citing 44 RT 5218).) Petitioner does not specify the precise remarks at issue.

13

To the extent Petitioner refers to the prosecutor’s argument, “How do we know that

14

it was the defendant who did it? Circumstances clearly show it” (44 RT 5218), the

15

California Supreme Court may have reasonably concluded that the remark came

16

within the bounds of fair comment. To the extent Petitioner refers to the argument

17

that there was “[n]o evidence to the contrary” (id.), within context, the prosecutor

18

argued, “[A]s a photograph at . . . the bottom of this chart shows, there are the

19

sunglasses – rather distinctive. No evidence to the contrary – that the defendant

20

wore when he was at the gas station in Lafayette, identified by the gas station

21

attendant, Mr. Hogan, and they are in that car.” (Id. at 5218-19.) The prosecutor

22

argued only that there was “no evidence to the contrary” that the sunglasses were

23

distinctive or that defendant was wearing them at the gas station. The California

24

Supreme Court may have reasonably concluded that the remark did not shift the

25

burden of proof or argue for a lower standard of proof, and came within the bounds

26

of fair comment.

27

3.

Identification

28
75
Petitioner's App. 7 - 159

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 76 of 146 Page ID #:3579

1

Petitioner contends that in his guilt phase argument, “[t]he prosecutor

2

misleadingly and wrongfully told the jurors they could consider only the question

3

of identification after having introduced impermissibly suggestive identifications.”

4

(Pet. at 138.) The prosecutor argued that the jury should consider evidence that

5

Petitioner was identified by eyewitnesses in connection with the crimes. (44 RT

6

5218-19 (“[H]e is seen and identified by a number of people, many of whom have

7

a clear and ample opportunity to observe him and to remember him”); id. at 5229

8

(“We are talking about a question of identity only”).)

9

As discussed below in Claim 12(G) (see infra pp. 101-07), the California

10

Supreme Court reasonably determined that the identifications were not

11

//

12

impermissibly suggestive. The court may have reasonably concluded, therefore,

13

that the prosecutor’s remarks were not improper.

14
15

4.

Kim Cause of Death

Petitioner alleges that the prosecutor in his guilt phase argument “improperly

16

asserted that he knew the manner in which Kim was killed even though the

17

evidence at trial was inconclusive as to the cause of her death.” (Pet. at 138 (citing

18

44 RT 5226).) In context, the prosecutor argued:

19
20
21
22
23

[T]hink of . . . the force required [to strangle a
person]. . . . Does that tell you something about this
defendant?
It is apparently a lot easier to do when one uses a cord of
some kind because one does not do as much damage to
the throat, but the end is certain.

24
25
26
27
28

One knows from the photographs of Miss Kim how she
died. You can see the literature underneath her neck. It’s
not – it’s a sad fact of body decay and composition that
we cannot tell you exactly that by way of medical
testimony. But do we really need medical testimony?

76
Petitioner's App. 7 - 160

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 77 of 146 Page ID #:3580

1
2
3
4
5

Is there anything that distinguishes these cases from one
another? Because of Ms. Kim’s condition, the answer in
her case is perhaps. But when one looks at the
remaining people, several things strike me at least. . . .
[¶] [I]n each instance there are . . . items which tie them
together, not the least of which is the manner of their
disposition[, . . .] strang[ulation].

6
7

(44 RT 5225-28 (emphasis added).) The California Supreme Court may have

8

reasonably concluded that the remark came within the bounds of fair comment.

9
10

5.

Kim Rape Allegation

Petitioner alleges that the prosecutor in his guilt phase argument “improperly

11

urged the jury to find that Kim had been raped after he assured the judge that there

12

was no evidence that Kim had been raped.” (Pet. at 138.) Petitioner challenges the

13

prosecutor’s remark, “When did he form the intent to steal or [to] rape? Was this

14

in the case of [Miss] Kim . . . an afterthought? Certainly it’s possible.” (Id. (citing

15

44 RT 5230).) In context, the prosecutor argued:

16
17
18
19
20
21
22
23

There is a second kind of felony-murder, not burglary
murder, but rape murder. The rules are the same as to
both in the sense that if you believe either occurred, this
was – these were killings in the course of rape in the case
of Miss Guthrie and in the case of Miss Mills, that is first
degree murder. There is no alternative.
When did he form the intent to steal or to rape? Was this,
in the case of Miss Kim, which is not before you as a
finding that you have to make, an afterthought?
Certainly it’s possible.

24
25
26
27

He could very well have murdered her and decided,
‘Well, I’ve done it. Let me grab things of value and
leave.[’] That would not be a burglary, because the intent
would have been formed inside.

28
77
Petitioner's App. 7 - 161

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 78 of 146 Page ID #:3581

1

(44 RT 5229-30.) The California Supreme Court may have reasonably concluded

2

that the prosecutor intended, and the jury understood, his remarks to draw a

3

distinction between the Kim crime and the Guthrie and Mills crimes, to emphasize

4

the evidence of felony murder as to Guthrie and Mills. See Donnelly v.

5

DeChristoforo, 416 U.S. 637, 647 (1974) (“[A] court should not lightly infer that a

6

prosecutor intends an ambiguous remark to have its most damaging meaning or

7

that a jury, sitting through lengthy exhortation, will draw that meaning from the

8

plethora of less damaging interpretations”). The state court may have reasonably

9

determined that the remark came within the bounds of fair comment and that, if it

10

did constitute misconduct, it was harmless. See Darden v. Wainwright, 477 U.S.

11

168, 179-82 (1986); Comer v. Schriro, 463 F.3d 934, 960-61 (9th Cir. 2006).

12

Related to his claims of prosecutorial misconduct in guilt phase closing

13

argument, Petitioner alleges in Claim 5(H)(5) that “[t]o the extent that trial counsel

14

failed to make proper objections” to that misconduct, trial counsel was ineffective.

15

(Pet. at 76-77.) Because the remarks came within the bounds of fair comment or

16

were harmless, Petitioner has failed to demonstrate that trial counsel was

17

ineffective for failing to object, or that he was prejudiced by that failure. Claim

18

5(H)(5) is, therefore, DENIED.

19

6.

Consideration of Kim and Cullins Evidence

20

Petitioner argues that in his penalty phase argument, “the prosecutor

21

improperly urged the jury to disregard the limiting instruction applicable to

22

evidence of the Kim and Cullins crimes and, instead, to consider this evidence not

23

just to establish motive, intent, or identity, but as substantive evidence supporting

24

statutory aggravating factors.” (Pet. at 139, 139 n.23 (citing 52 RT 6075, 6077,

25

6079).) Specifically, Petitioner challenges the following remarks:

26
27
28

Obviously, you have got to consider the circumstances of
the crime or crimes, the trial, in other words, and
everything that came out there because that gives you
your basic framework, your idea of what this defendant
78
Petitioner's App. 7 - 162

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 79 of 146 Page ID #:3582

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19

has done. . . . When you look at the photographs you will
have them again to consider. . . . Here is a man who has
wine with his victims, who wipes the glasses down, who
strangles them – pardon me – rapes them, strangles them,
throws them in a closet. . . . If you look at the bottom
picture – this is 34-1 [Cullins] – you see a hand and you
see it [is] bloody.
(52 RT 6077.)
The prosecutor’s references to wine referred only to the Culver City (Knoll
and Mills) and Ventura (Steward) crimes:
Thinking first about what happened in Culver City. . .
first of all, the wine glasses. Isn’t this partly the way
things occurred in Ventura? And the fact that the wine
glasses are wiped, . . . [i]t tells you how legitimate the
idea is that the defendant was not in control of himself,
that he didn’t know what he was doing, which is really
the essence of this defense, this penalty defense.
It tells you as clearly as anything could that here is an
efficient killing machine. Here is a man who has wine
with his victims, who wipes the glasses down, who
strangles them – pardon me – rapes them, strangles them,
throws them in a closet.

20

Hardly the conduct of someone who would not be in
control of himself . . . .

21

(Id. at 6077-78.) No evidence regarding Petitioner’s consumption of wine or

22

wiping of wine glasses was introduced regarding the Kim or Cullins deaths.

23

Evidence was introduced that Cullins’ body was found in a closet, and the

24

prosecutor explicitly referred to Cullins’ bloody hand. In that remark, the

25

prosecutor addressed Petitioner’s intent in committing the crimes and any theme of

26

the penalty phase defense that Petitioner “didn’t know what he was doing” or was

27

not “in control of himself.” (Id. at 6077-80.) The prosecutor argued:

28
79
Petitioner's App. 7 - 163

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 80 of 146 Page ID #:3583

1
2
3
4
5
6

[Y]ou see a hand and you see it [is] bloody. And you
think back to the testimony about the damage to Ms.
Cullins’ face, and how do you think it was that the
defendant got her, her car and was able to clean out her
account? Is this not willful, deliberate, premeditated,
controlled conduct?
(Id. at 6079-80.)

7

The California Supreme Court held on direct appeal that the evidence

8

regarding the Kim and Cullins crimes was properly admitted at the guilt phase of

9

trial to show Petitioner’s intent in committing the charged offenses. Carter, 36

10

Cal. 4th at 1149. Petitioner points to no clearly established federal law holding

11

that other crimes evidence, properly admitted at the guilt phase of trial to show

12

intent, may not be considered by a jury in the penalty phase as evidence of the

13

circumstances of the crime. Cf. Florida v. Burr, 496 U.S. 914, 920-21 (1990)

14

(Stevens, J., dissenting) (discussing whether post-trial acquittal of other crimes,

15

admitted as evidence of identity at guilt phase, renders evidence of those crimes

16

inadmissible at sentencing hearing in capital case). The California Supreme Court

17

may have reasonably concluded that the prosecutor’s remarks came within the

18

bounds of fair comment on the evidence.

19
20

7.

Appeal to Vengeance and Conscience of the Community

Petitioner argues that in his penalty phase closing argument, the prosecutor

21

appealed to vengeance to incite the passions and prejudices of the jury and

22

impermissibly appealed to them to be the conscience of the community. (Pet. at

23

139.) Petitioner challenges the prosecutor’s argument:

24
25
26
27
28

At some point we decide I think as a matter of selfprotection that enough is enough as a society. You
people, you 12, are in this sense the conscience of this
society because it will be by your verdict that you give
out a message of what is acceptable and what is not
acceptable conduct because it seems to me that if the

80
Petitioner's App. 7 - 164

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 81 of 146 Page ID #:3584

1
2
3
4

death penalty in this case is to mean anything, this is such
a case in which it must be given.
(52 RT 6080.)
The California Supreme Court may have reasonably concluded that the

5

prosecutor’s remarks were harmless. See United States v. Nobari, 574 F.3d 1065,

6

1077, 1082 (9th Cir. 2009) (concluding that prosecutorial misconduct in presenting

7

testimony and argument employing ethnic generalizations, asking improper

8

questions to codefendant, and appealing to the passions and fears of the jury by

9

urging them to “not let [their] City [] down” was harmless in light of

10

overwhelming evidence presented against defendants); United States v. Williams,

11

989 F.2d 1061, 1072 (9th Cir. 1993) (holding that prosecutorial remarks attempting

12

to capitalize on parochial inclinations did not affect the jury’s ability to judge the

13

evidence fairly because the remarks were isolated and the jury was instructed not

14

to consider the statements and arguments of counsel as evidence); United States v.

15

Polizzi, 801 F.2d 1543, 1558 (9th Cir. 1986) (holding that prejudice from

16

prosecutor’s request to the jury to “finish the job that the F.B.I. started” was

17

adequately cured because the prosecutor made “only this single statement” and the

18

jury was instructed that they must determine guilt or innocence from the evidence

19

in the case and the statements and arguments of counsel are not evidence).

20

Petitioner’s jury was instructed immediately before the prosecutor’s argument that

21

“as we have told you a number of times, the statements of counsel are not

22

evidence.” (52 RT 6072.) The court instructed the jury after closing arguments:

23
24
25
26
27
28

Your decision as to whether Mr. Carter should be
sentenced to life in prison without the possibility of
parole or death must depend on the facts and the law. . . .
[Y]ou must determine the facts from the evidence
received in the trial and not from any other source. . . . If
anything concerning the law said by the attorneys in their
arguments or at any other time during the trial conflicts
with my instruction on the law, you must follow my
instructions. . . . In deciding whether life imprisonment
81
Petitioner's App. 7 - 165

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 82 of 146 Page ID #:3585

1
2
3

without the possibility of parole or death is the
appropriate sentence, you may not consider for any
reason whatsoever whether or not there is a deterrent
effect of the death penalty.

4
5
6
7
8
9
10

(52 RT 6111-13.) The California Supreme Court may have reasonably determined
that the instruction cured any prejudice, that the prosecutor’s statement was
isolated and relatively brief, and that the evidence in aggravation was
overwhelming.
8.

Defense Investigation and Presentation

Finally, Petitioner challenges the prosecutor’s penalty phase remarks:

25

[A]nd they [the defense] have not told you very much.
They have had, as any criminal defendant facing the
nature of these charges, a great deal of time to find
people, to call them. Virtually unlimited money. . . . His
mother chose not to come here. That’s – that gives you a
world of information because, if your mother won’t stand
up for you, who will? . . . It’s interesting, first of all, that
his mother wasn’t forced to come down here by use of
the Uniform Act that we talked about with Mr. Cohen.
How effective, how touching would it have been to see
her here and hear her talk about the defendant? How
could this hurt him in anyone’s sensible eyes if she is
going to say anything good about him? Does this rather
not give you a picture of a woman who has tried her
whole life long to do something for a child and failed?
. . . Well, he is [a] biological parent. There is no doubt
about that, I suppose. But what has he ever done except
express, except to say words? He ran away. He left. By
the time those children were age one or two at best, he
was gone. He abandoned them as he abandoned Alaska.
(52 RT 6083, 6085-86; see Pet. at 140 n.24.) Petitioner contends that the remarks

26

improperly asserted that Petitioner’s mitigating evidence was relevant to only one

27

sentencing factor, shifted the burden of proof, and encouraged the jury to treat the

28

mitigation presentation as non-statutory aggravation. (Pet. at 140.)

11
12
13
14
15
16
17
18
19
20
21
22
23
24

82
Petitioner's App. 7 - 166

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 83 of 146 Page ID #:3586

1

Defense counsel objected to the prosecutor’s statement regarding the

2

defense’s resources for investigation, and the court sustained the objection “as [to]

3

monetary” issues. (52 RT 6083.) The court instructed the jury, “Regarding the

4

factors you may consider in mitigation, if there is no evidence offered to support a

5

particular factor, you may not give such a factor any consideration at all. The

6

absence of any mitigating factor may not be considered as an aggravating factor.”

7

(Id. at 6118.) The California Supreme Court may have reasonably determined that

8

the prosecutor’s statements were within the bounds of fair comment on the

9

evidence Petitioner presented, and that any statements falling outside those bounds

10

were harmless in light of the sustained objection and the court’s instruction to the

11

jurors.

12
13
14

Accordingly, Claim 10 is DENIED.
XII.

Claim 11: Failure to Disclose Evidence
In Claim 11, Petitioner alleges that, in violation of Brady v. Maryland, 373

15

U.S. 83 (1963), the prosecution withheld material, exculpatory evidence that

16

Petitioner was not the donor of semen found on a bedspread in Kim’s apartment.

17

(Pet. at 141-43.) Petitioner alleges that the laboratory report prepared by the

18

Oakland Police Department in 1986 was not disclosed to the defense until June 15,

19

1989, five days before the prosecution began its case-in-chief. (Id. at 143); see

20

also Carter, 36 Cal. 4th at 1160. Petitioner contends that if counsel had received

21

the report sooner, he could have obtained a blood sample from Blevins, who had

22

since died, to determine if Blevins was the donor of the semen. (Pet. at 144.)

23

Petitioner alleges that he has been denied “an opportunity to inspect and review the

24

Los Angeles District Attorney’s files,” which would have permitted him to

25

determine whether the District Attorney received the laboratory report. (Id.)

26

Petitioner adds that he has been prejudiced by any failure to preserve other,

27

unspecified evidence “that would have supported the claims asserted in his Petition

28

or led to the development of additional claims.” (Id.)
83
Petitioner's App. 7 - 167

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 84 of 146 Page ID #:3587

1

On direct appeal, the California Supreme Court addressed Petitioner’s claim

2

that the trial court erred in denying counsel’s motion for mistrial, for exclusion of

3

the evidence regarding Kim’s death, or for exclusion of Blevins’s testimony, on the

4

basis of the nondisclosed report. Carter, 36 Cal. 4th at 1160-61. The court

5

rejected Petitioner’s contention that the report was “highly material,” explaining:

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

a proffer of rape never had been part of the proffer of the
other crimes evidence. Rather, the relevance of the
evidence pertaining to Kim’s death was twofold: (1) to
demonstrate a similarity in the circumstances of her death
to the murders of Susan Knoll, Jillette Mills, and Bonnie
Guthrie . . . and (2) to establish a link between defendant
and the Los Angeles County murders of Susan Knoll,
Jillette Mills, and Bonnie Guthrie based upon the
circumstances that Kim’s vehicle was parked outside the
apartment occupied by Knoll and Mills, and that Mills’s
vehicle, containing possessions belonging to each of the
victims, was being driven by defendant at the time of his
arrest. The discovery of semen on Kim’s bedspread, and
the report establishing that defendant had not been the
donor of that fluid, was, at best, of marginal significance
in the prosecution’s case against defendant with regard to
the Los Angeles County murders. Therefore, defendant
was not prejudiced by the prosecution’s belated
disclosure of the laboratory report prior to the
swearing-in of the jury and the introduction of evidence.
Carter, 36 Cal. 4th at 1161 (emphasis in original).
The California Supreme Court was not objectively unreasonable in rejecting
Petitioner’s Brady claim on habeas review. “[T]he suppression by the prosecution
of evidence favorable to an accused upon request violates due process where the
evidence is material either to guilt or to punishment, irrespective of the good faith
or bad faith of the prosecution.” Brady, 373 U.S. at 87. Materiality requires “a
reasonable probability that, had the evidence been disclosed to the defense, the
result of the proceeding would have been different. A ‘reasonable probability’ is a

84
Petitioner's App. 7 - 168

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 85 of 146 Page ID #:3588

1

probability sufficient to undermine confidence in the outcome.” United States v.

2

Bagley, 473 U.S. 667, 682 (1985).

3

As the Court observed above, there was evidence presented at trial that

4

Blevins was in a year-and-one half relationship with Kim, during which he paid her

5

full rent and lived most of the time in her apartment, until the time of Kim’s

6

association with Petitioner. (See supra pp. 27, 44, 51.) Petitioner was not charged

7

with sexual offenses against Kim, and there was significant other evidence

8

connecting Petitioner to Kim. (See supra pp. 27, 51.) The California Supreme

9

Court’s conclusion that Petitioner failed to demonstrate a reasonable probability of

10

a different result at trial had the laboratory report been disclosed was not

11

objectively unreasonable.

12

Considering the cumulative effect of the prosecutorial misconduct Petitioner

13

alleges, the Court “first analyze[s] the prosecutorial misconduct challenges

14

[regarding arguments to the jury] to assess whether they alone so infected the trial

15

with unfairness as to make the resulting conviction a denial of due process. If the

16

prosecution’s comments alone do not meet this standard, [the Court] analyze[s]

17

them together” with any allegations of prosecutorial misconduct in failing to

18

disclose evidence to the defense, “to determine whether there is a reasonable

19

probability that without those violations the result of the proceeding would have

20

been different.” Hein v. Sullivan, 601 F.3d 897, 915 (9th Cir. 2010). The

21

California Supreme Court may have reasonably determined that any prosecutorial

22

misconduct in arguments to the jury and in delayed disclosure of evidence, even

23

when considered cumulatively, does not show a denial of due process or a

24

reasonable probability of a different result absent the alleged misconduct.

25

Claim 11 is, therefore, DENIED.

26

XIII. Claim 12: Trial Court Errors

27

A.

Voir Dire under Oath

28
85
Petitioner's App. 7 - 169

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 86 of 146 Page ID #:3589

1

In Claim 12(A), Petitioner alleges that the trial court failed to administer an

2

oath to prospective jurors before commencing voir dire on the first day of jury

3

selection, March 20, 1989. (Pet. at 146.)3 Petitioner asserts:

4

10

The trial court was statutorily required by state law to
commence the voir dire of prospective jurors after those
jurors were properly admonished. The requirement of
sworn voir dire is a structural safeguard essential to
impress upon jurors that false or misleading answers
could subject them to penalties for perjury. The use of
‘unsworn testimony’ in court proceedings is ‘a practice
which runs counter to the notions of fairness on which
our legal system is founded.’

11

(Id. at 147 (quoting Bridges v. Wixon, 326 U.S. 135, 153-54 (1945)).) Similarly, in

12

Claim 5(H)(2), Petitioner notes that “trial counsel objected to the fact that a

13

number of the jurors had not answered voir dire questions under oath. ([33] RT

5
6
7
8
9

14
15
16
17
18
19
20
21
22
23
24
25
26
27

3

Petitioner further observes that a second panel of prospective jurors, by contrast, was
properly sworn for examination. (Pet. at 147 n.25.)
The California Supreme Court’s decision on direct appeal states, “On March 20-21, 1989,
the trial court commenced jury selection by screening one panel of prospective jurors. On March
27, 1989, the court screened a second panel. On May 1-2, 1989, the court screened a third panel.”
Carter, 36 Cal. 4th at 1174.
On March 20, 21, and 27, 1989, the trial court instructed prospective jurors that “we will
count on you to give honest and candid answers to questions when your interview is conducted;”
“[w]e will appreciate your honesty in all these matters;” “[w]e ask that each of you be as open and
candid with us as possible;” and “during the questioning of you in court, honesty is the best
policy.” (See 3 RT 433; 4 RT 470; 5 RT 622.) The court did not administer an oath to
prospective jurors until May 1, 1989. (20 RT 2437, 2473-74.)
The California Supreme Court’s decision on direct appeal states, to the contrary, that
“[w]ith regard to the latter two panels of prospective jurors,” i.e., the panels on March 27, 1989
and May 1-2, 1989, “the trial court apparently failed to administer the oath to prospective jurors.”
Carter, 36 Cal. 4th at 1174.
Even if the California Supreme Court’s decision constitutes an unreasonable determination
of the facts as a result of this discrepancy, Petitioner fails to establish a federal constitutional
violation in the failure to swear the jurors applying de novo review. Likewise, Petitioner has not
shown that counsel “failed to assert rights that may have altered the outcome” by not moving for a
mistrial earlier, applying de novo review. Lafler v. Cooper, 132 S. Ct. 1376, 1388 (2012).

28
86
Petitioner's App. 7 - 170

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 87 of 146 Page ID #:3590

1

4189.) Trial counsel requested a mistrial.” (Pet. at 76.) Petitioner alleges that

2

“[t]o the extent” trial counsel’s request for mistrial was not timely, trial counsel

3

was ineffective. (Id.)

4

Petitioner omits a critical portion of his quotation from Bridges, however: to

5

“allow men to be convicted on unsworn testimony of witnesses [is] a legal practice

6

which runs counter to the notions of fairness on which our legal system is

7

founded.” Bridges, 326 U.S. at 153-54 (emphasis added). Petitioner points to no

8

authority applying such a principle to the unsworn responses of jurors on voir dire,

9

and the Court finds no support for Petitioner’s argument that a federal

10

constitutional violation may be shown in a trial court’s failure to administer an oath

11

of truthfulness to prospective jurors. Cf. Morgan v. Illinois, 504 U.S. 719, 729

12

(1992) (“[t]he Constitution, after all, does not dictate a catechism for voir dire but

13

only that the defendant be afforded an impartial jury”); Theard v. Artus, No. CV

14

09-5702, 2012 WL 4756070, at *12 (E.D.N.Y. Aug. 27, 2012) (“[W]hether the

15

trial court administered the jury truthfulness oath . . . is a state law issue for which

16

habeas relief is unavailable”); Robertson v. McKee, No. CV 09-14675, 2012 WL

17

263099, at *4 (E.D. Mich. Jan. 30, 2012) (“Petitioner has failed to show that the

18

federal Constitution is violated where the trial court fails to swear a prospective

19

jury pool prior to voir dire”). In addition, the California Supreme Court may have

20

reasonably determined that Petitioner did not demonstrate that counsel “failed to

21

assert rights that may have altered the outcome” by not moving for a mistrial

22

earlier. Lafler, 132 S. Ct. at 1388.

23

Claims 12(A) and 5(H)(2) are, therefore, DENIED.

24

B.

25
26

Juror Challenges for Cause
1.

Failure to Excuse Jurors for Cause

First, Petitioner argues that his constitutional rights were violated by the trial

27

court’s refusal to excuse prospective jurors for cause. (Pet. at 148-51.) Petitioner

28

alleges that “[a]s a result of the trial court’s numerous errors, trial counsel were
87
Petitioner's App. 7 - 171

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 88 of 146 Page ID #:3591

1

compelled to exhaust their peremptory challenges in an effort to remove panelists

2

who were not qualified to serve on the jury in the first instance.” (Id. at 150.)

3
4
5
6
7
8
9

The California Supreme Court denied this claim on direct appeal, holding:
After exercising 18 out of the 20 peremptory challenges
available to it, the defense informed the court that the
jury as constituted was acceptable. [¶] Defendant
contends the trial court committed reversible error under
the federal and state Constitutions in denying challenges
to excuse the . . . prospective jurors . . . . As noted,
however, when the defense accepted the jury, it had not
exhausted all of its peremptory challenges.

10

Carter, 36 Cal. 4th at 1178-79. The court held that Petitioner could not

11

demonstrate that the trial court’s ruling had affected his right to a fair and impartial

12

jury. Id. at 1179.

13

The record is consistent with the California Supreme Court’s factual

14

determination that Petitioner did not exhaust his peremptory challenges. (See 6 CT

15

1620 (recording Petitioner’s exercise of eighteen peremptory challenges).) The

16

California Supreme Court reasonably concluded that Petitioner had not

17

demonstrated prejudice from any error by the trial court. “It [is] ‘immaterial’ that

18

petitioner had to use peremptory challenges to excuse jurors that the trial court

19

should have excused for cause [where] the petitioner did not exhaust all of his

20

peremptory challenges.” Vansickel v. White, 166 F.3d 953, 956 (9th Cir. 1999)

21

(quoting Siripongs v. Calderon, 35 F.3d 1308, 1322 (9th Cir. 1994) and discussing

22

United States v. Baker, 10 F.3d 1374, 1404 (9th Cir. 1993) (finding no due process

23

violation where defendant did not exhaust peremptory challenges), overruled on

24

other grounds by United States v. Nordby, 225 F.3d 1053 (9th Cir. 2000)); see also

25

Poland v. Stewart, 169 F.3d 573, 583 (9th Cir. 1998) (finding no Sixth

26

Amendment violation where petitioner alleged that trial court should have excused

27

jurors for cause but did not allege that the use of peremptory challenges to excuse

28

the jurors forced him to accept a biased juror).
88
Petitioner's App. 7 - 172

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 89 of 146 Page ID #:3592

1

Claim 12(B)(1) is, therefore, DENIED.

2

2.

3

Excusal of Juror for Cause

Second, Petitioner contends that his constitutional rights were violated by

4

the trial court’s excusal of Juror Shaw for cause. (Pet. at 151.) Petitioner alleges

5

that while Juror Shaw “expressed reservation in potentially having to make the

6

ultimate decision of whether Mr. Carter should live or die,” she “ultimately

7

expressed that she would be willing to follow the law.” (Id. (citing 23 RT 2940,

8

2942).)

9

//

10
11

In Uttecht v. Brown, the United States Supreme Court considered the proper

12

application on habeas review of the standard for determining whether a juror’s

13

views in opposition to the death penalty “‘would prevent or substantially impair

14

the performance of his duties as a juror in accordance with his instructions and his

15

oath.’” 551 U.S. 1, 7 (2007) (quoting Wainwright v. Witt, 469 U.S. 412, 424

16

(1985)). The court placed heavy emphasis upon the deference reviewing courts are

17

to accord to the trial court. Id. The court observed:

18
19
20
21
22
23
24
25
26
27
28

The judgment as to whether a venireman is biased . . . is
based upon determinations of demeanor and credibility
that are peculiarly within the trial judge’s province. Such
determinations [are] entitled to deference even on direct
review; the respect paid such findings in a habeas
proceeding certainly should be no less. And the finding
may be upheld even in the absence of clear statements
from the juror that he or she is impaired because many
veniremen simply cannot be asked enough questions to
reach the point where their bias has been made
unmistakably clear; these veniremen may not know how
they will react when faced with imposing the death
sentence, or may be unable to articulate, or may wish to
hide their true feelings. Thus when there is ambiguity in
the prospective juror’s statements, the trial court, aided as
it undoubtedly [is] by its assessment of [the venireman’s]
89
Petitioner's App. 7 - 173

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 90 of 146 Page ID #:3593

1

6

demeanor, [is] entitled to resolve it in favor of the State. .
. . Even when ‘[t]he precise wording of the question
asked of [the venireman], and the answer he gave, do not
by themselves compel the conclusion that he could not
under any circumstance recommend the death penalty,’
the need to defer to the trial court remains because so
much may turn on a potential juror’s demeanor.
Brown, 551 U.S. at 7-8 (quoting Darden, 477 U.S. at 178, other internal quotations

7

omitted, alterations in original). The Court held in Brown that:

2
3
4
5

8

where, as here, there is lengthy questioning of a
prospective juror and the trial court has supervised a
diligent and thoughtful voir dire, the trial court has broad
discretion. The record does not show the trial court
exceeded its discretion in excusing [the juror]; indeed the
transcript shows considerable confusion on the part of the
juror, amounting to substantial impairment.

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

Id. at 20.
In its decision on direct appeal, the California Supreme Court did not discuss
the excusal of Juror Shaw. “Regardless, there is no requirement . . . that a state
appellate court make particular reference to the excusal of each juror. It is the trial
court’s ruling that counts.” Id. at 17.
The California Supreme Court’s decision upholding the trial court’s finding
regarding Juror Shaw was not objectively unreasonable. The California Supreme
Court may have reasonably determined that the trial court appropriately found
Juror Shaw’s responses and demeanor to show substantial impairment in the
performance of her duties as a juror. Shaw stated, at points, that:
she did not know whether she could, as counsel phrased
it, “look [Petitioner] in the eye, as it were, and say to him,
‘for what you’ve done, I vote that you should die’” (23
RT 2940); she “probably” could not do so (id. at 2951);
she believed she could not do so (id. at 2944); and she
did not think she would be able to do so, if that were her

28
90
Petitioner's App. 7 - 174

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 91 of 146 Page ID #:3594

1

state of mind, even if she believed that was the proper
outcome (id. at 2940-41);

2
3

she had “trouble answering” whether she could say that
death was the proper outcome for Petitioner through her
jury vote (id. at 2940-41);

4
5
6

she believed “[m]aybe [she’d] better say no,” that she did
not understand that she would have a duty to inform the
court if she could not participate in voting for the death
penalty during the penalty phase deliberations (id. at
2942-43); and

7
8
9
10

she felt that participating in that decision would cause her
such personal hardship that she “would rather not at all”
participate. (Id. at 2943.)

11
12
13

As Juror Shaw acknowledged, she did “keep vacillating” and had been “ambiguous

14

about all of this.” (Id. at 2952.) Both defense counsel and the prosecution noted

15

for the record Juror Shaw’s “long thoughtful pauses” and “thoughtful responses.”

16

(Id. at 2955.) The prosecutor interpreted Juror Shaw’s demeanor to reflect “at least

17

to [him] what appeared to be great difficulty in expressing her reluctance.” (Id.)
The trial court held:

18
19

I was watching her as well. ‘Apologize for vacillating.’
Shrugging of shoulders. She could, she could not return
a verdict. She said that quite clearly, then she said
maybe. She said[,] ‘I guess it’s my duty as a juror.’
Then she said she would probably be prevented from
imposing the death penalty. [¶] And the challenge is
granted on this lady.

20
21
22
23
24

(Id.)

25

The California Supreme Court may have reasonably found no error in the

26

trial court’s excusal of Juror Shaw for cause, based upon her voir dire responses

27

and her demeanor at trial. Accordingly, Claim 12(B)(2) is DENIED.

28

C.

Denial of Motion to Reconsolidate
91
Petitioner's App. 7 - 175

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 92 of 146 Page ID #:3595

1

In Claim 12(C), Petitioner contends that the trial court’s denial of his motion

2

to reconsolidate the San Diego and Los Angeles trials violated his constitutional

3

rights. Petitioner explains that the charges were initially filed together, and upon

4

the motion of defense counsel Perlo, the San Diego counts were dismissed from the

5

Los Angeles proceeding. (Pet. at 152); see also Carter, 36 Cal. 4th at 1158. When

6

Gillingham was later appointed as defense counsel, he moved to reconsolidate the

7

counts over Petitioner’s objection. (Pet. at 152); see also Carter, 36 Cal. 4th at

8

1159. While the trial court opined that Petitioner’s circumstances were likely more

9

favorable to him with the charges consolidated, the court denied the motion on the

10

basis that the decision was ultimately Petitioner’s to make. (Pet. at 152-53); see

11

also Carter, 36 Cal. 4th at 1159. Petitioner asserts in Claim 12(C) that “vicinage is

12

a tactical matter within counsel’s power to control” and that prejudice must be

13

presumed, but is nevertheless “manifest.” (Pet. at 153.)

14

The California Supreme Court denied Petitioner’s claim on direct appeal on

15

the ground that Petitioner had not shown prejudice from any error by the trial

16

court. The court held that Petitioner “presents no persuasive basis for concluding

17

that a jury that [convicted and] imposed the death sentence for three murders would

18

have imposed a lesser sentence if defendant had been charged in this proceeding

19

with additional crimes, including murder.” Carter, 36 Cal. 4th at 1160. The

20

California Supreme Court noted that it was “questionable whether the trial court

21

was correct in determining that the defendant, rather than defense counsel,

22

possessed the paramount authority to decide . . . .” Id. at 1159 (internal quotation

23

omitted).

24

The vicinage clause of the Sixth Amendment guarantees the right to a “‘jury

25

of the . . . district wherein the crime shall have been committed.’” Stevenson v.

26

Lewis, 384 F.3d 1069, 1071 (9th Cir. 2004) (quoting U.S. Const. amend. VI). It

27

does not guarantee a right to a jury from a district where the crime was not

28

committed, as Petitioner would have here for the San Diego charges, nor does it
92
Petitioner's App. 7 - 176

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 93 of 146 Page ID #:3596

1

guarantee a right to a jury from a locale of defendant’s, or defense counsel’s,

2

choosing. Petitioner asserts no venue issue in these proceedings.

3

Even assuming, arguendo, that Petitioner’s claim could properly plead a

4

vicinage violation, such a claim cannot form the basis for federal habeas relief. As

5

the Ninth Circuit held in Stevenson, “[t]he United States Supreme Court has yet to

6

decide whether the vicinage clause applies to the states through the Fourteenth

7

Amendment.” Id. at 1070. Because Petitioner cannot show that the California

8

Supreme Court’s decision was contrary to or an unreasonable application of clearly

9

established federal law as determined by the Supreme Court, see id., Claim 12(C)

10

is DENIED.

11

D.

Denial of Motion to Sever

12

In Claim 12(D), Petitioner alleges that the trial court’s denial of counsel’s

13

motion to sever the Guthrie charges from the Mills and Knoll charges violated his

14

constitutional rights. (Pet. at 153-54.) Petitioner argues that the Guthrie and

15

Mills/Knoll homicides “were not inextricably connected in their commission and

16

the common markers between [them] were only minimally distinctive.” (Id. at

17

155.) Petitioner contends that the failure to sever the charges had a substantial and

18

injurious effect or influence in determining the jury’s verdict and that the

19

admission of Kim and Cullins “other crimes” evidence compounded the prejudice.

20

(Id. at 154-55.)

21

Considering a defendant’s argument that the trial court’s misjoinder of his

22

trial with a co-defendant violated Federal Rules of Criminal Procedure 8 and 52,

23

the United States Supreme Court observed in United States v. Lane that

24

“[i]mproper joinder does not, in itself, violate the Constitution. Rather, misjoinder

25

would rise to the level of a constitutional violation only if it results in prejudice so

26

great as to deny defendant his Fifth Amendment right to a fair trial.” 474 U.S. 438,

27

446 n.8 (1986). The Court held that harmless error review applied and that the

28

claimed error was harmless because the evidence of guilt was overwhelming, the
93
Petitioner's App. 7 - 177

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 94 of 146 Page ID #:3597

1

co-defendant evidence would likely have been admissible at a separate trial to

2

show intent, and the jury was instructed to give separate consideration to each

3

defendant and each count. Id. at 442, 450.

4

The Ninth Circuit has held since Lane that the Supreme Court’s language

5

that misjoinder rises to the level of a constitutional violation if it results in the

6

denial of a fair trial under the Fifth Amendment “is dicta.” Collins v. Runnels, 603

7

F.3d 1127, 1132 (9th Cir. 2010) (rejecting a state habeas petitioner’s claim that

8

denial of motion to sever trial from codefendant violated right to a fair trial). The

9

Circuit explained:

10

18

The language upon which [petitioner] [relies] is dicta.
Lane dealt with the joinder of standards under Federal
Rules of Criminal Procedure 8 and 52; no constitutional
issue was before the Court. [T]he phrase ‘clearly
established Federal law, as determined by the Supreme
Court of the United States’ refers to the holdings, as
opposed to the dicta, of [the Supreme] Court’s decisions
as of the time of the relevant state-court decision. . . .
The footnote upon which Collins relies did not set forth
the governing legal principle in Lane. It was merely a
comment.
Id. (internal quotation omitted; emphasis in original); see also Runningeagle v.

19

Ryan, 686 F.3d 758, 776-77 (9th Cir. 2012) (holding same).

11
12
13
14
15
16
17

20

Even if clearly established federal law could establish a basis for Petitioner’s

21

claim, Petitioner has failed to show the California Supreme Court’s decision to be

22

objectively unreasonable. See Sandoval v. Calderon, 241 F.3d 765 (9th Cir. 2000)

23

(holding, under pre-AEDPA law, that failure to sever two murder counts from two

24

other murder counts and one attempted murder count did not violate due process,

25

because evidence of severed murders would have been admissible at separate trial

26

and was not significantly weaker than evidence of included murders). The

27

California Supreme Court’s determination that evidence of the Guthrie and

28

Mills/Knoll homicides was cross-admissible was reasonable. As the court held:
94
Petitioner's App. 7 - 178

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 95 of 146 Page ID #:3598

1

[t]he Susan Knoll/Jillette Mills and Bonnie Guthrie
offenses, having been committed approximately one day
apart, each involved the murder by strangulation of
young women whose belongings were found
approximately one week later in defendant’s possession.
On this basis alone, the evidence connecting defendant to
the Knoll/Mills and Guthrie crimes would be crossadmissible if the court had ordered separate trials,
thereby dispelling any inference of prejudice. Moreover,
because both crime scenes involved murder and sexual
assault, the evidence from each disclosed a commonality
with regard to intent and plan, while presenting little if
any possibility that one of the charges or set of charges
would have unduly inflamed the jury against defendant.
Although all three women were not strangled in an
identical manner – Mills and Guthrie were strangled by
ligature, whereas Knoll was strangled manually – both
crime scenes had in common a ligature strangulation, as
well as the traumatic sexual assault of Mills and Guthrie.
Nor did the prosecution join a ‘weak case’ with a ‘strong’
one – the evidence linking defendant to each crime was
especially compelling. Further, Knoll and Guthrie were
best friends, a circumstance that suggested one person
committed the crimes against both victims in the two-day
period, and that therefore supported the
cross-admissibility of the evidence. The murders of each
of the three women presented one or more special
circumstances; because each one of the murders by itself
formed the basis for capital charges to be brought against
the perpetrator, joinder did not lead to one set of crimes
being ‘elevated’ to capital status.

2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

Carter, 36 Cal. 4th at 1155 (internal citations omitted). The jury, in addition, was
instructed:

25
26
27
28

Each count charges a distinct crime. You must decide
each count separately. [¶] The defendant may be found
guilty or not guilty of any or all of the crimes charged.
Your finding as to each count must be stated in a separate
verdict. (44 RT 5275.)
95
Petitioner's App. 7 - 179

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 96 of 146 Page ID #:3599

1
You must decide separately each special circumstance
alleged in this case. (Id. at 5266-67.)

2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Finally, the California Supreme Court’s decision that evidence of the Kim
and Cullins deaths was admissible to show identity and intent was not objectively
unreasonable. (See supra p. 39.)
Petitioner, therefore, is not entitled to relief on Claim 12(D). Claim 12(D) is
DENIED.
E.

Admission of Evidence of Kim and Cullins Homicides

In Claim 12(E), Petitioner contends that his constitutional rights were
violated because the trial court allowed the presentation of “other crimes” evidence
regarding Kim and Cullins. (Pet. at 156.) The trial court denied counsel’s motions
to exclude the evidence, and the California Supreme Court held that the evidence
was admissible to show Petitioner’s identity and intent. Carter, 36 Cal. 4th at
1146-50. Petitioner asserts that “the trier of fact was improperly invited to use that
evidence to draw inferences of criminal propensity and disposition, contrary to law
. . . and to condemn Mr. Carter based on these uncharged acts regardless of
whether they believed there was sufficient proof of the actual charged offenses.”
(Pet. at 159.) Petitioner argues that, “[m]ost importantly, the different episodes of
other crimes evidence did not bear any ‘common markers.’” (Id.) Petitioner
maintains that the probative value of the evidence was outweighed by its
prejudicial impact and could not be ameliorated by the court’s limiting instructions.
(Id. at 162; see also 44 RT 5246-47, 5251-53 (limiting instructions)); see also
Carter, 36 Cal. 4th at 1151 (“[T]he jury was instructed correctly pursuant to
CALJIC Nos. 2.09 and 2.50 as to the limited purposes for which it might consider
the evidence of the Kim and Cullins matters. The instructions conveyed that
evidence relating to those events could not be considered to prove defendant’s bad
character or criminal disposition”).

96
Petitioner's App. 7 - 180

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 97 of 146 Page ID #:3600

1

As the Ninth Circuit observed in Alberni v. McDaniel, “the Supreme Court

2

has never expressly held that it violates due process to admit other crimes evidence

3

for the purpose of showing conduct in conformity therewith.” 458 F.3d 860, 863

4

(9th Cir. 2006) (internal quotation omitted); see also Mejia v. Garcia, 534 F.3d

5

1036, 1046 (9th Cir. 2008) (holding same). The Ninth Circuit recognized that its

6

pre-AEDPA precedents held that the admission of propensity evidence could

7

violate due process, and that “every circuit, in cases decided prior to the enactment

8

of AEDPA, ha[d] acknowledged, at least implicitly, that the proper introduction of

9

evidence may violate due process if it renders the trial fundamentally unfair.”

10

Alberni, 458 F.3d at 864-65. The circuit court held, nevertheless, that because the

11

Supreme Court “expressly reserved consideration of the issue at hand in Estelle,”

12

the right petitioner asserted had not been clearly established by the Supreme Court

13

and could not be the basis for habeas relief under AEDPA. Id. at 866 (discussing

14

Estelle v. McGuire, 502 U.S. 62, 75 n.5 (1991)).

15

The Supreme Court has not revisited the issue of “other crimes” evidence

16

since Estelle v. McGuire. Because Petitioner’s claim lacks support in clearly

17

established federal law, he is not entitled to relief. Moreover, because the

18

California Supreme Court was not objectively unreasonable in holding that the

19

evidence was relevant show identity and intent (see supra p. 39), and because

20

limiting instructions were given, the California Supreme Court may have

21

reasonably concluded that the evidence did not render Petitioner’s trial

22

fundamentally unfair. Cf. Walters v. Maass, 45 F.3d 1355, 1357-58 (9th Cir. 1995)

23

(holding that admission of prior bad acts evidence did not render petitioner’s trial

24

fundamentally unfair where evidence was relevant to show intent and limiting

25

instruction was given).

26

The California Supreme Court may have likewise held that Petitioner failed

27

to show deficient performance or prejudice from counsel’s failure to object to jury

28

instructions that allegedly “allowed unlawful prosecutorial argument and jury
97
Petitioner's App. 7 - 181

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 98 of 146 Page ID #:3601

1

consideration of ‘other crimes’ (Kim and Cullins) evidence for unlimited

2

purposes . . . .” (See Pet. at 76 (Claim 5(H)(4)).)

3

Accordingly, Claims 12(E) and 5(H)(4) are DENIED.

4

//

5

//

6
7
8
9

F.

Admission of Steward Facts
1.

Allegations and Decision on Direct Appeal

In Claim 14(F), Petitioner contends that his constitutional rights were
violated by the trial court’s admission in the penalty phase of the alleged facts

10

underlying his conviction for the Steward rape. Petitioner acknowledges that “the

11

conviction was properly excluded,” but challenges the admission of the underlying

12

facts on the ground that his conviction “was the direct result of prosecutorial

13

misconduct (due to Griffin error) and Mr. Carter’s counsel’s ineffective

14

representation (due to the failure to challenge the Griffin error). The alleged facts

15

of the Steward case, therefore, should not have been admitted in a capital case.”

16

(Pet. at 163 (footnote omitted).) California Penal Code section 190.3 provides that

17

“in no event shall evidence of prior criminal activity be admitted for an offense for

18

which the defendant was prosecuted and acquitted.” Cal. Penal Code § 190.3.

19
20
21
22
23
24
25
26
27
28

On direct appeal, the California Supreme Court held:
To begin with, in the prior proceeding both the trial court
and the Court of Appeal explicitly rejected the claim that
the prosecutor’s comments undermined the validity of the
conviction. [¶] Defense counsel in the Ventura
proceedings moved for a mistrial based on the
prosecutor’s improper comments, but the trial court
denied the motion. On appeal, the Court of Appeal, in an
unpublished decision, affirmed defendant’s conviction,
concluding ‘[t]his was not a close case,’ and that the
Griffin error ‘was harmless beyond a reasonable doubt.’
[¶] Furthermore, even if defendant nonetheless properly
could challenge the prior conviction on this ground at
98
Petitioner's App. 7 - 182

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 99 of 146 Page ID #:3602

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17

this point (an issue we need not and do not decide), and
even if the error upon which defendant relies had been
prejudicial, the very most that defendant would have
been entitled to would have been an order striking the
prior conviction for purposes of this proceeding, not the
entry of an acquittal. Because, in any event, as already
noted, evidence of the conviction itself was not admitted
in the present case, defendant’s challenge to the
prosecutor’s conduct in the Ventura proceeding or to
defense counsel’s allegedly ineffective assistance in that
proceeding has no bearing upon the validity of the trial
court’s admission of evidence of the conduct underlying
the prior conviction.
With regard to that evidence, past cases make clear that
the introduction of evidence of the Ventura assault was
proper under section 190.3, subdivision (b), which
authorizes the trier of fact at the penalty phase to
consider ‘[t]he presence or absence of criminal activity
by the defendant which involved the use or attempted use
of force or violence or the express or implied threat to
use force or violence,’ whether such violent criminal
conduct occurred prior to or after the charged capital
offense. No error appears.

18
19
20
21

Carter, 36 Cal. 4th at 1201-02, 1201 n.41 (internal citations omitted).
2.

Analysis

The Ninth Circuit in Gretzler v. Stewart considered a habeas petitioner’s

22

claim that the trial court erred in considering his nine prior murder convictions at

23

his penalty phase proceeding because the convictions were reached through guilty

24

pleas resulting from ineffective assistance of counsel. 112 F.3d 992, 1004-05 (9th

25

Cir. 1997). The reviewing court on direct appeal found no basis to disregard the

26

presiding judge’s factual determination that the pleas were voluntarily made. Id. at

27

1005. The Ninth Circuit concluded, “[i]n light of [that holding . . .], that the trial

28
99
Petitioner's App. 7 - 183

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 100 of 146 Page ID #:3603

1

court did not commit error of constitutional magnitude by considering as

2

aggravating factors [petitioner’s] nine California murder convictions.” Id.

3

Here, the reviewing court on direct appeal observed that the presiding judge

4

over Petitioner’s prior conviction denied his motion for mistrial, and the appellate

5

court found it was “not a close case” for finding error. Carter, 36 Cal. 4th at 1201,

6

1201 n.41. In addition, the California Supreme Court’s determinations that

7

Petitioner would not have been entitled to a judgment of acquittal, and that the

8

evidence of Petitioner’s conduct would have remained admissible, are not

9

objectively unreasonable. Cf. McGuire, 502 U.S. at 67-68 (“[I]t is not the province

10

of a federal habeas court to reexamine state-court determinations on state-law

11

questions. In conducting habeas review, a federal court is limited to deciding

12

whether a conviction violated the Constitution, laws, or treaties of the United

13

States”); Lopez v. Schriro, 491 F.3d 1029, 1043 (9th Cir. 2007) (“[S]tate courts are

14

presumed to know and correctly apply state law”). Finally, Petitioner does not

15

develop in these proceedings his conclusory allegations of prosecutorial

16

misconduct and ineffective assistance of counsel in the Steward rape trial. The

17

Court, therefore, finds no basis for determining that the California Supreme

18

Court’s decision was objectively unreasonable.

19

Accordingly, Claim 12(F) is DENIED.

20

G.

21

Suggestive Eyewitness Identifications
1.

Allegations and Decision on Direct Appeal

22

In Claim 12(G), Petitioner contends that his constitutional rights were

23

violated by the trial court’s admission of “unreliable, tainted and unduly suggestive

24

eyewitness identifications.” (Pet. at 164.) Petitioner explains that potential

25

eyewitnesses were asked to identify the suspect using a “6-pack photo-spread

26

containing photographs of Mr. Carter and five police officers.” (Id.) Petitioner

27

alleges that the photospread was unreasonably suggestive because: (1) Petitioner’s

28

photograph was a booking photograph “in which he is visibly attired in an orange
100
Petitioner's App. 7 - 184

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 101 of 146 Page ID #:3604

1

jail jumpsuit;” (2) Petitioner’s photograph was the only photograph that was not a

2

Polaroid photograph; and (3) the background of Petitioner’s photograph, taken in

3

the booking room of the Culver City Police Department, was “entirely different”

4

from the background in the photographs of the officers, taken at the Oakland Police

5

Department. (Id.) Petitioner adds that “each witness’s selection of Mr. Carter’s

6

photograph was reinforced by observing the prior identifications by other

7

witnesses” shown by the witnesses’ signatures on the back of the photograph they

8

selected. (Id. at 165.)

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

On direct appeal, the California Supreme Court held:
As part of the police investigation following the
discovery of Tok Kim’s body on April 13, 1984, Oakland
Police Sergeant Raymond Conner prepared a
photographic lineup containing defendant’s photograph
as well as the photographs of five other individuals
(members of the Oakland Police Department, shown
wearing street clothes, without indicia of their
occupation). The lineup was shown to nine witnesses,
eight of whom identified defendant as the man they saw
with Kim, and one of whom alternated between selecting
defendant’s image and that of one other individual
depicted in the lineup. The order in which the
photographs were arranged was changed between
presentations to the witnesses, who were separately
shown the lineup. At a pretrial proceeding, defendant
moved to suppress the photographic identifications as
having been the product of an unduly suggestive lineup.
Following an evidentiary hearing, in which Sergeant
Conner testified, the court denied the motion, observing:
‘[C]ertainly there are some differences, as there always
are in photographs, but I don’t find that the photographic
lineup was unduly suggestive.’ . . .
Our review of the photographs contained in the lineup
indicates that defendant overstates the significance of the
distinguishing characteristics seen in the photographs,
and overlooks their more compelling general similarities.
101
Petitioner's App. 7 - 185

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 102 of 146 Page ID #:3605

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

Each one of the six color photographs is approximately
the same size, and depicts a middle-aged or somewhat
younger adult male with a mustache and dark hair. Two
of the individuals are shown wearing white t-shirts, two
are seen wearing light-colored ‘dress’ or ‘polo’ shirts,
one wears a plaid shirt, and one individual – defendant –
is wearing an orange shirt. Nothing about defendant’s
shirt identifies it as a ‘jail jumpsuit’ or any other type of
jail-issued clothing, and even if it had, a conclusion that
the lineup was unduly suggestive would not necessarily
follow. The expressions exhibited by the individuals are
roughly comparable: each has his eyes open and his
mouth closed, except for one individual whose mouth is
slightly parted. Such distinctions are immaterial.
Although the size of the white border around defendant’s
photograph is slightly larger than the border seen on the
Polaroid images, and the Polaroid images are glossy
while the image of defendant is semigloss, such trivial
distinctions also are immaterial. The witnesses clearly
were instructed to consider the persons depicted, not
whether a particular image was potentially
distinguishable from the others based upon variations in
photographic composition or processing.
Nor do we attach significance to Sergeant Conner’s
request that the witnesses write their names on the backs
of the particular photographs they identified. . . .
Because the witnesses’ signatures were added only after
each witness had made his or her selection, we find no
basis for concluding that the witnesses were induced to
identify defendant’s image. . . .
In sum, . . . we conclude that defendant has failed to meet
his burden of establishing that the photo identification
procedure used here was unduly suggestive. We
therefore need not reach the question whether the
identification was nevertheless reliable under the totality
of circumstances.

28
102
Petitioner's App. 7 - 186

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 103 of 146 Page ID #:3606

1

Carter, 36 Cal. 4th at 1162-64 (footnote, internal quotation, and internal citations

2

omitted).

3
4

2.

Analysis

The Supreme Court considered the use of photographic arrays for

5

identification of suspects by eyewitnesses in Simmons v. United States, 390 U.S.

6

377 (1968). The court explained:

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23

[I]mproper employment of photographs by police may
sometimes cause witnesses to err in identifying criminals.
. . . This danger will be increased if the police display to
the witness only the picture of a single individual who
generally resembles the person he saw, or if they show
him the pictures of several persons among which the
photograph of a single such individual recurs or is in
some way emphasized. . . . Regardless of how the initial
misidentification comes about, the witness thereafter is
apt to retain in his memory the image of the photograph
rather than of the person actually seen, reducing the
trustworthiness of subsequent . . . courtroom
identification.
Despite the hazards of initial identification by
photograph, this procedure has been used widely and
effectively in criminal law enforcement . . . . [E]ach case
must be considered on its own facts, and . . . convictions
based on eyewitness identification at trial following a
pretrial identification by photograph will be set aside on
that ground only if the photographic identification
procedure was so impermissibly suggestive as to give
rise to a very substantial likelihood of irreparable
misidentification.

24
25

Simmons, 390 U.S. at 383-84 (footnotes omitted). The Court held that “in the

26

factual surroundings” of defendant’s case, in which, inter alia, at least six

27

photographs were displayed to each witness, and a second suspect was “as

28
103
Petitioner's App. 7 - 187

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 104 of 146 Page ID #:3607

1

prominent in the photographs” as defendant, “the identification procedure used was

2

not such as to deny [defendant] due process of law.” Id. at 386.

3

The Court has since held that even a “single-photograph” display, though

4

“viewed in general with suspicion,” is not necessarily corrupting. Manson v.

5

Brathwaite, 432 U.S. 98, 116 (1977). The use of a “photographic array including

6

so far as practicable . . . a reasonable number of persons similar to any person then

7

suspected whose likeness is included in the array . . . avoid[s] the risk that the

8

evidence would be excluded as unreliable.” Id. at 117 (internal quotation omitted).

9

“If we find that a challenged procedure is not impermissibly suggestive, our

10

inquiry into the due process claim ends.” United States v. Bagley, 772 F.2d 482,

11

492 (9th Cir. 1985); see also United States v. Love, 746 F.2d 477, 478 (9th Cir.

12

1984) (observing, as to photographic identification procedure, that “[f]irst, it must

13

be determined whether the procedures used were impermissibly suggestive. If so,

14

it must then be determined whether the identification was nonetheless reliable”

15

(emphasis added)).

16

Although Petitioner makes the conclusory argument that the California

17

Supreme Court’s denial of his claim is based on an unreasonable determination of

18

the facts under 28 U.S.C. § 2254(d)(2) (Pet. at 164), Petitioner’s allegations are not

19

inconsistent with the court’s factual findings. Petitioner’s allegation that his

20

orange jail jumpsuit was visible is consistent with the California Supreme Court’s

21

determination that he was, indeed, wearing an orange shirt in the photograph, but

22

that “[n]othing about defendant’s shirt identifies it as a ‘jail jumpsuit’ or any other

23

type of jail-issued clothing.” Carter, 36 Cal. 4th at 1163. In addition, even if

24

fairminded jurists could disagree about whether a photograph depicting Petitioner

25

in an identifiable jail jumpsuit would be unduly suggestive (or about whether

26

Petitioner’s attire in the photograph at issue was, in fact, unduly suggestive), such

27

fairminded disagreement does not render the California Supreme Court’s decision

28

contrary to, or an unreasonable application of, federal law under § 2254(d)(1). See
104
Petitioner's App. 7 - 188

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 105 of 146 Page ID #:3608

1

Richter, 131 S. Ct. at 786; Williams v. McDonald, CV 10-9389, 2012 WL

2

3779068, at *6-7 (C.D. Cal. July 6, 2012) (holding petitioner failed to show

3

photographic array to be unduly suggestive where petitioner appeared in

4

photograph with the top portion of his orange jail clothes visible, but it was “not

5

apparent that he was wearing a jail jumpsuit,” one other person was wearing an

6

orange t-shirt, and witness did not notice petitioner’s clothing in choosing his

7

photograph), adopted, 2012 WL 3782532; Zelaya v. Dexter, No. CV 08-6160,

8

2010 WL 5775907, at *7 (C.D. Cal. Sept. 22, 2010) (holding that photographic

9

line-up was not impermissibly suggestive where array showed petitioner’s booking

10

photograph), adopted, 2011 WL 486549; cf. Mitchell v. Goldsmith, 878 F.2d 319,

11

323 (9th Cir. 1989) (holding that photographs showing the year of arrest of persons

12

in the array, where defendant’s arrest year was the most recent and the only one

13

matching the date of the crime, were not unduly suggestive).

14

Likewise, Petitioner’s allegation that his photograph was the only one that

15

was not a Polaroid photograph is consistent with the California Supreme Court’s

16

factual finding that “the size of the white border around defendant’s photograph is

17

slightly larger than the border seen on the Polaroid images, and the Polaroid

18

images are glossy while the image of defendant is semigloss . . . .” Carter, 36 Cal.

19

4th at 1163. The state court’s determination that those distinctions were not

20

unduly suggestive is not objectively unreasonable. See United States v. Burdeau,

21

168 F.3d 352, 357 (9th Cir. 1999) (holding that “dark hue” of photograph of

22

defendant did not create an impermissible suggestion); United States v. Johnson,

23

820 F.2d 1065, 1073 (9th Cir. 1987) (holding that photograph of defendant that

24

was hazier than others was not impermissibly suggestive); Lopez v. Horel, No. CV

25

06-2681, 2008 WL 4509366, at *14 (C.D. Cal. June 12, 2008) (“[E]ven if

26

petitioner’s photograph was darker than the other photographs and was the only

27

one with a glossy [Polaroid] coating, these insubstantial differences did not render

28
105
Petitioner's App. 7 - 189

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 106 of 146 Page ID #:3609

1

the photographic array unduly suggestive”), adopted with modifications, 2008 WL

2

4450321.

3

Petitioner’s allegation that the background of his photograph in the booking

4

room of the Culver City Police Department was “entirely different” from those of

5

the officers at the Oakland Police Department is also consistent with the California

6

Supreme Court’s factual finding that the Oakland Police Department photographs

7

did not indicate the occupation of those officers by way of their background or

8

otherwise. (Pet. at 164); Carter, 36 Cal. 4th at 1162. The California Supreme

9

Court found no other impermissibly suggestive characteristics of the photographs,

10

and its conclusion that the background differences were not unduly suggestive is

11

not objectively unreasonable. See Mitchell, 878 F.2d at 323 (holding that “various

12

background colors among the photographs” did not make the lineup unduly

13

suggestive); United States v. Barron, 575 F.2d 752, 754-55 (9th Cir. 1978)

14

(holding that photospread used to identify bank robber was not unduly suggestive

15

where only one photograph, of defendant, “displayed the victim bank in the

16

background”).

17

Finally, the California Supreme Court was not objectively unreasonable in

18

determining that because the witnesses only saw the selections made by others

19

after they made their own selection, there was no impermissibly suggestive risk of

20

an initial misidentification that would remain in the witness’s memory. See

21

Simmons, 390 U.S. at 383-84; see also Barron, 575 F.2d at 754-55 (finding no

22

substantial likelihood of misidentification where “one witness received non-verbal

23

approval after his [photospread] identification and another one was told that she

24

had made the correct selection”).

25

Claim 12(G) is, therefore, DENIED.

26

H.

Admission of Testimony from Victims’ Family Members and

27

Autopsy Photographs

28

1.

Allegations
106
Petitioner's App. 7 - 190

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 107 of 146 Page ID #:3610

1

In Claim 12(H), Petitioner alleges that his constitutional rights were violated

2

by the admission of “highly inflammatory testimony of victims[’] relatives and

3

evidence of autopsy photographs.” (Pet. at 165.) Petitioner explains that the

4

testimony and photographs were proffered:

5

to establish identity and fatal wounds. . . . Admitted
evidence included photographs of Mills, Knoll, and
Guthrie as well as Cullins, with particular focus on the
neck wounds to Mills and Cullins. Also admitted was the
testimony of the victims’ relatives regarding the property
found in Mr. Carter’s vehicle at the time of his arrest. . . .
Pender’s [Knoll’s sister’s] testimony was offered to show
Mills, Knoll and Guthrie knew one another . . . .
Bollman [Mills’ sister] was offered to show she helped
Mills moved into the . . . apartment and to identify items
of property . . . . George Cullins’s [Cullins’ father’s]
testimony . . . [discussed Cullins’s] bank records, and a
videotape of the ATM machine [sic].

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

(Pet. at 166-67 (internal citations omitted); see also 41 RT 4964-65.) Petitioner
asserts that “this was not a case in which the erroneously admitted testimony was
harmless[, because] Bollman wept on the witness stand during her testimony, and
each of the witnesses remained in the courtroom throughout trial.” (Pet. at 16768.)
2.

Analysis

Federal habeas review is limited “to the question whether the admission of
the evidence violated [petitioner’s] federal constitutional rights.” McGuire, 502
U.S. at 68 (holding petitioner’s due process rights were not violated by admission
of evidence of prior injuries to victim, because prosecution was required to prove
that killing was intentional and evidence need not be linked directly to defendant).
Thus, the issue for this Court is whether the admitted evidence “was so
inflammatory as to prevent a fair trial,” not “whether its prejudicial effect
outweighed its probative value.” Henry, 513 U.S. at 366; see also Hamilton v.
107
Petitioner's App. 7 - 191

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 108 of 146 Page ID #:3611

1

Vasquez, 17 F.3d 1149, 1159 (9th Cir. 1994) (“Claims of inadmissibility of

2

evidence are cognizable in habeas corpus proceedings only when admission of the

3

evidence violated the defendant’s due process rights by rendering the proceedings

4

fundamentally unfair”), overruled on other grounds as recognized in Coleman v.

5

Calderon, 210 F.3d 1047 (9th Cir. 2000).

6

In Villafuerte v. Stewart, for example, the Ninth Circuit held that

7

photographs depicting the fatal wrapping of an asphyxiated murder victim’s head,

8

bindings on her body, and blood at the crime scene did not deprive petitioner of a

9

fair trial. 111 F.3d 616, 622, 627 (9th Cir. 1997). The court held that the

10

photographs were relevant to prove that petitioner knowingly restrained the victim

11

with the required intent, and did not violate petitioner’s due process rights. Id. at

12

627. Similarly, in Gerlaugh v. Stewart, the trial court entered into evidence

13

“admittedly gruesome photos of the decedent,” who had been run over with a car

14

three times, struck in the head by the car, stabbed in the head, neck, and shoulders

15

with a screwdriver at least thirty times, and dragged off a road into a field. 129

16

F.3d 1027, 1030, 1032 (9th Cir. 1997). The victim’s entire body was covered with

17

bruises and abrasions, along with puncture wounds, fractures, and internal injuries

18

from his head to his midsection. Id. at 1030. The Ninth Circuit held that

19

petitioner’s habeas claim based on the admission of these photographs did not

20

“raise[] the spectre of fundamental unfairness such as to violate federal due process

21

of law” and was not cognizable. Id. at 1032. Finally, in Plascencia v. Alameda,

22

the Ninth Circuit found no due process violation in the admission of purported

23

victim impact testimony, where the father of the victim’s children and the victim’s

24

sisters testified to provide “background and foundation evidence explaining the

25

relationships of the witnesses and the circumstances leading up to [the victim’s]

26

murder.” 467 F.3d 1190, 1202-03 (9th Cir. 2006) (internal quotation omitted).

27
28

Here, as in Villafuerte, the photographs of the victims’ bodies were relevant
to demonstrate the extent of the victims’ injuries and the circumstances under
108
Petitioner's App. 7 - 192

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 109 of 146 Page ID #:3612

1

which they were inflicted. See Carter, 36 Cal. 4th at 1164-71. The admission of

2

the photographs did not render Petitioner’s trial fundamentally unfair so as to

3

violate due process of law. See Gerlaugh, 129 F.3d at 1032; Villafuerte, 111 F.3d

4

at 627; Henry, 513 U.S. at 366; Hamilton, 17 F.3d at 1159. Likewise, the family

5

members’ testimony established “the victims’ ownership of various items of

6

personal property discovered in Mills’s Datsun 280 ZX” and were not “so

7

inflammatory as to prevent a fair trial” in violation of Petitioner’s due process

8

rights. Carter, 36 Cal. 4th at 1164; see also Henry, 513 U.S. at 366; Plascencia,

9

467 F.3d at 1202-03.

10

Claim 12(H) is, therefore, DENIED.

11

I.

12
13

Admission of Prior Convictions, Other Crimes Evidence, and
Victim Impact Evidence

In Claim 12(I), Petitioner alleges that his constitutional rights were violated

14

at the penalty phase of trial by the admission of “constitutionally infirm” prior

15

convictions from Alaska and Oregon and “other crimes” evidence concerning Kim

16

and Cullins. (Pet. at 168-70.) Petitioner also challenges the trial court’s

17

consideration of the Kim and Cullins evidence when deciding his motion for

18

modification of the death sentence, in Claim 12(J). (Id. at 171-72.) In addition, in

19

Claim 12(J), Petitioner contests the trial court’s alleged consideration of victim

20

impact evidence before imposing the judgment of death. (Id.)

21
22
23
24
25
26
27
28

1.

Alaska and Oregon Prior Convictions

Petitioner argues:
The Alaska conviction was infirm as it resulted from a
plea that was neither knowing nor voluntary. The
Oregon conviction was infirm because Mr. Carter was
suffering from significant mental impairments at the time
of the crime and of his trial. As discussed ante, Mr.
Carter has substantial neurological and mental
impairments, as well as other psychological incapacities.
These mental impairments have existed since childhood.
109
Petitioner's App. 7 - 193

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 110 of 146 Page ID #:3613

1
2
3
4
5
6
7

As result, during both the commission of the crimes and
the court proceedings on the Alaska and Oregon charges,
Mr. Carter was not competent to stand trial or waive any
of his statutory or constitutional rights.
(Id. at 169 (internal citations omitted).)
During his capital trial, Petitioner challenged the constitutionality of his
Alaska and Oregon convictions. Petitioner acknowledged that:

15

[o]n December 12, 1984, the Ventura County Superior
Court sentenced Dean Carter to a term of imprisonment
which included a five-year enhancement . . . for his
Alaska conviction and an additional consecutive fiveyear term under the same [enhancement] section for the
Oregon conviction. [¶] The proceedings in Ventura
County consisted of what was described as an admission
of the fact of the prior convictions by Mr. Carter,
followed by what appeared to be a trial, at which the
sentencing judge determined those prior convictions to
be ‘constitutional.’
(2 CT 547, Memorandum of Points and Authorities in Support of Motion to Strike

16

Prior Convictions (emphasis added); see also 47 RT 5440-41 (raising, during oral

17

argument on motion to strike the prior convictions, the constitutionality of the

18

Alaska and Oregon convictions).) Petitioner argued that the Ventura County

19

Superior Court’s findings should have “no effect on the present action” because

20

Ventura County counsel provided ineffective assistance and because that court’s

21

findings are not binding on the Los Angeles County “court of equal jurisdiction.”

22

(2 CT 547-48.) The trial court denied Petitioner’s motion to strike the convictions.

23

(47 RT 5442.)

8
9
10
11
12
13
14

24

On habeas review, the California Supreme Court may have reasonably

25

determined that the Ventura County court’s findings, maintained by the Los

26

Angeles County trial court, adequately and appropriately resolved the

27

constitutionality of the Alaska and Oregon convictions. In light of the deference

28

owed to the findings of the trial court and the state supreme court, this Court finds
110
Petitioner's App. 7 - 194

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 111 of 146 Page ID #:3614

1

no basis to hold the California Supreme Court’s determination to be objectively

2

unreasonable. See Gretzler, 112 F.3d at 1004-05 (finding trial court did not

3

commit error of constitutional magnitude by considering prior convictions, in light

4

of state court’s determination that the convictions were not unconstitutional); (cf.

5

supra. pp. 34-39 (discussing evidence presented in habeas proceedings regarding

6

Petitioner’s alleged neurological and psychological impairments)).

7

2.

Kim and Cullins Evidence

8

Petitioner argues that prejudicial evidence of the Kim and Cullins homicides

9

was admitted at the guilt phase of trial without instructions that the evidence could

10

only be considered at that phase, or at the penalty phase if the jury found beyond a

11

reasonable doubt that Petitioner committed the homicides. (Pet. at 169-70.)

12

Petitioner contends that to the extent counsel did not request such instructions,

13

counsel was ineffective. (Id. at 170.) Petitioner adds that the trial court erred by

14

considering the evidence in denying his motion for modification of the death

15

sentence. (Id. at 171-72.)

16

As discussed above (supra p. 80), the California Supreme Court held on

17

direct appeal that the evidence regarding the Kim and Cullins crimes was properly

18

admitted at the guilt phase to show Petitioner’s intent in committing the charged

19

offenses. Carter, 36 Cal. 4th at 1149. Petitioner points to no clearly established

20

federal law holding that other crimes evidence, properly admitted at the guilt phase

21

to show intent, may not be considered in the penalty phase or on a motion for

22

modification of the sentence. Cf. Burr, 496 U.S. at 920-21 (Stevens, J., dissenting)

23

(discussing whether post-trial acquittal of other crimes, admitted as evidence of

24

identity at guilt phase, renders evidence of those crimes inadmissible at sentencing

25

hearing in capital case). As to Petitioner’s allegations of ineffective assistance of

26

counsel, the California Supreme Court held on direct appeal as matter of state law

27

that the Kim and Cullins evidence could properly be considered in aggravation at

28

the penalty phase. Carter, 36 Cal. 4th at 1211. Petitioner has demonstrated no
111
Petitioner's App. 7 - 195

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 112 of 146 Page ID #:3615

1

entitlement to instructions restricting the penalty phase consideration of that

2

evidence as he alleges. The California Supreme Court’s rejection of Petitioner’s

3

ineffective assistance claim is, therefore, not objectively unreasonable. See Juan

4

H. v. Allen, 408 F.3d 1262, 1273 (9th Cir. 2005) (“[T]rial counsel cannot have been

5

ineffective for failing to raise a meritless objection”); Wilson v. Henry, 185 F.3d

6

986, 990 (9th Cir. 1999) (“To show prejudice under Strickland from failure to file

7

a motion,” petitioner must show, in part, that “had his counsel filed the motion, it is

8

reasonable that the trial court would have granted it as meritorious”); United States

9

v. Molina, 934 F.2d 1440, 1447 (9th Cir. 1991) (holding that because evidence was

10

admissible, “the decision not to file a motion to suppress it was not prejudicial. . . .

11

[I]t is not professionally unreasonable to decide not to file a motion so clearly

12

lacking in merit”).

13

3.

Victim Impact Evidence

14

Petitioner alleges that “prior to entry of the judgment of death, the court

15

improperly and prejudicially received ‘victim impact’ evidence,” consisting of

16

twelve letters from the victims’ family members and friends and three oral

17

statements to the court from family members. (Pet. at 172.) Petitioner argues that

18

Booth v. Maryland, 482 U.S. 496 (1987), “prohibited the admission and

19

consideration of victim impact evidence at the time of Mr. Carter’s trial.” (Pet. at

20

172.)

21
22
23
24
25
26
27
28

The California Supreme Court rejected Petitioner’s argument on direct
appeal, holding:
The [trial] court heard and denied defendant’s application
for modification of the death sentence on January 11,
1990. No victim-impact statements were made in
connection with that motion. Although the record
contains 12 letters . . . written by family and friends of
the victims . . . , the record does not indicate that the
court considered any of these statements prior to denying
the application for modification of defendant’s death
112
Petitioner's App. 7 - 196

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 113 of 146 Page ID #:3616

1

sentence. [¶] . . . [D]efendant does not challenge
. . . January 30, 1990, as the date on which the court
received the letters. [¶] On January 30, 1990,
immediately prior to the court’s imposition of a judgment
of death, it heard . . . statements made by [three family
members]. . . . [T]he three oral statements . . . were made
approximately 3 weeks after the court denied the
application, and nothing in the record indicates that the
trial court considered the letters at any time.

2
3
4
5
6
7
8

Carter, 36 Cal. 4th at 1211-12.

9

The California Supreme Court’s factual determinations are reasonable, and

10

the record contains no indication that the trial court considered the oral statements

11

or the letters in its process in imposing the judgment of death. The trial court

12

stated:

13
14
15
16
17
18
19
20
21
22

Dean Phillip Carter, it is the judgment and sentence of
this Court that for the offenses of murder as charged in
the Information, of which you previously, to wit, on July
17, 1989, were found guilty, the jury having found the
offenses of murder to be first degree and the jury having
returned a finding that the special circumstances alleged
in the Information under California Penal Code section
190.1, subdivision (a), were true; and the jury having
previously, to wit, on August 7, 1989, found that the
penalty shall be death; and this Court having on January
11, 1990, denied your Motion for New Trial and
Application for Modification of Verdict and Finding
Imposing the Death Penalty; it is the Order of this Court
that you shall suffer the death penalty . . . .

23
24

(54 RT 6277; see also 7 CT 1916-19 (reflecting same).)

25

In Rhoades v. Henry (Baldwin), the Ninth Circuit considered a habeas

26

petitioner’s claim that the admission of victim impact statements in a pre-sentence

27

report submitted to the sentencing judge violated Booth. 638 F.3d 1027, 1054-55

28

(9th Cir. 2010). The Circuit found no violation, holding:
113
Petitioner's App. 7 - 197

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 114 of 146 Page ID #:3617

1

Booth’s concern that victim impact statements ‘can serve
no other purpose than to inflame the jury and divert it
from deciding the case on the relevant evidence
concerning the crime and the defendant,’ is not the same
when, as here, a judge does the sentencing. We assume
that the trial judge applied the law – Booth, at the time –
and considered only evidence that he knew was
admissible.

2
3
4
5
6
7
8
9
10
11

Id. at 1055 (quoting Booth, 482 U.S. at 508; footnote omitted). The California
Supreme Court’s conclusion that the trial court considered only admissible
evidence in imposing the death sentence is not unreasonable in light of the record
of the trial court’s proceedings, nor is its determination that the victim impact
statements did not infringe upon Petitioner’s constitutional rights.

12

Claims 12(I) and (J) are, therefore, DENIED.

13

J.

14
15
16

Admission of Blevins’s Testimony

In Claim 12(K), Petitioner contends that the admission of Ray Blevins’s
preliminary hearing testimony at trial “deprived Mr. Carter of his right to confront
and cross-examine witnesses against him.” (Pet. at 173.) Petitioner asserts that:

17
[b]ecause preliminary hearing counsel was litigating with
the assumption that the Kim case would not necessarily
be admitted, he did not have the same motive and interest
that counsel would have had at trial. Moreover,
Blevins’s statements at the preliminary hearing were
testimonial in nature and, due to the lack of meaningful
cross-examination, were not reliable or accompanied by
sufficient guarantees of trustworthiness. The admission
was further in error because, although the state knew at
the time of the preliminary hearing that the semen on
Kim’s bedspread did not match Mr. Carter, they had not
disclosed this information to the defense.

18
19
20
21
22
23
24
25
26
27
28

(Id.)
The Sixth Amendment provides that “in all criminal prosecutions, the
accused shall enjoy the right to be confronted with the witnesses against him. . . .
114
Petitioner's App. 7 - 198

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 115 of 146 Page ID #:3618

1

A witness’s testimony against a defendant is thus inadmissible unless the witness

2

appears at trial or, if the witness is unavailable, the defendant had a prior

3

opportunity for cross-examination.” Melendez-Diaz v. Massachusetts, 557 U.S.

4

305, 309 (2009) (internal quotation and alterations omitted). Where defendant’s

5

counsel “does not appear to have been significantly limited in any way in the scope

6

or nature of his cross-examination of the witness . . . at the preliminary hearing[,

7

and the witness] died or was otherwise unavailable, the Confrontation Clause

8

would not have been violated by admitting his testimony given at the preliminary

9

hearing . . . .” California v. Green, 399 U.S. 149, 166 (1970) (so holding despite

10

the recognition that “the preliminary hearing is ordinarily a less searching

11

exploration into the merits of a case than a trial”); see also Pointer v. Texas, 380

12

U.S. 400, 407 (1965) (observing that a defendant’s rights may be protected where

13

the witness’s statement was “taken at a full-fledged hearing at which [defendant]

14

had been represented by counsel who had been given a complete and adequate

15

opportunity to cross-examine”).

16

Here, the California Supreme Court reasonably determined that Petitioner’s

17

counsel’s “performance at the preliminary hearing was not deficient. Defendant’s

18

assertions to the contrary ignore [counsel’s] appropriate questioning of various

19

witnesses and instead merely speculate that more rigorous cross-examination of

20

certain witnesses, such as Ray Blevins, . . . might have led the trial court to

21

preclude the prosecution from introducing evidence relating to the death of

22

Kim . . . .” Carter, 36 Cal. 4th at 1138. Petitioner has not demonstrated that

23

counsel was limited in his opportunity to cross-examine Blevins at the preliminary

24

hearing or that his cross-examination was not meaningful. (See supra pp. 26-27.)

25

Moreover, the California Supreme Court reasonably concluded that the

26

prosecution’s delayed disclosure of the laboratory report regarding the semen

27

found on Kim’s bedspread did not require exclusion of Blevins’s testimony. See

28

Carter, 36 Cal. 4th at 1160-61; (supra pp. 84-85).
115
Petitioner's App. 7 - 199

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 116 of 146 Page ID #:3619

1

Accordingly, Claim 12(K) is DENIED.

2

//

3

//

4

XIV. Claim 13: Insufficient Evidence

5

A.

6

In Claim 13, Petitioner argues that his constitutional rights were violated

7

because there was (1) insufficient evidence to sustain the felony murder special

8

circumstance findings and (2) insufficient evidence to sustain the felony murder

9

convictions, from (a) insufficient evidence of felonious purpose in entering the

10
11

Allegations

victims’ apartments and (b) insufficient evidence of rape. (See Pet. at 174.)
As to the felony murder special circumstance findings, Petitioner asserts that

12

“there must be proof of the felonious purpose independent of the homicide. . . .

13

[A] special circumstance allegation of murder committed during a robbery has not

14

been established where the accused’s primary criminal goal is not to steal but to

15

kill, and where robbery is merely incidental to the murder.” (Id. at 177.) Petitioner

16

alleges that the evidence demonstrated that the assailant’s “‘primary purpose’ was

17

to commit a killing, and not to obtain property or commit another felony upon

18

entry into a dwelling.” (Id; see also id. at 178 (adding that there was insufficient

19

evidence of felonious purpose in entering the apartments).)

20

As to the felony murder convictions, Petitioner argues that “it cannot be said

21

there was sufficient evidence to believe beyond a reasonable doubt that . . . entry to

22

either the Culver City or West Los Angeles apartments was for felonious purpose.”

23

(Id. at 177.) Petitioner contends that there was no evidence of forced entry into the

24

apartment of Mills, Knoll, or Guthrie, and that the prosecution maintained that the

25

assailant’s primary purpose in entering the apartment was to commit murder.

26

(Id. at 178 (citing 44 RT 5228-32).) Further, Petitioner argues that the evidence

27

was insufficient to support the rape charge as the victims were fully clothed and

28

there was limited testimony regarding injuries consistent with rape. (Id. (citing 44
116
Petitioner's App. 7 - 200

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 117 of 146 Page ID #:3620

1

RT 5227-28).)

2

//

3

//

4
5
6

B.

Analysis
1.

Felony Murder Special Circumstance Findings

Where one special circumstance finding is invalid and one or more other(s)

7

is valid, the error is harmless on federal habeas review if it did not have substantial

8

and injurious effect or influence on the jury’s verdict. See Beardslee v. Brown, 393

9

F.3d 1032, 1041 (9th Cir. 2004); Morales v. Woodford, 388 F.3d 1159 (9th Cir.

10

2003); cf. Williams, 52 F.3d at 1476 (finding harmless error under 1977 death

11

penalty statute where instructional error meant that jury could have found felony

12

murder special circumstance true without finding an independent felonious

13

purpose, but several valid special circumstances remained). In Beardslee, the

14

Ninth Circuit found two invalid witness killing special circumstances harmless,

15

where a multiple murder special circumstance remained, and “very little would

16

have been altered” from the prosecution’s penalty phase presentation absent the

17

invalid special circumstances. 393 F.3d at 1043. Similarly, in Morales, the Circuit

18

held that an invalid torture murder special circumstance “add[ed] only an improper

19

label” in the jury’s consideration where the circumstances of the crime would still

20

have been presented and the lying in wait special circumstance remained valid.

21

380 F.3d at 1172 (quoting Williams, 52 F.3d at 1477).

22

Here, Petitioner has not shown the multiple murder special circumstance

23

finding to be invalid. (See infra pp. 126-30 (rejecting jury instruction challenge to

24

multiple murder special circumstance finding).) The circumstances of Petitioner’s

25

crimes were properly before the jury in the penalty phase regardless of the felony

26

murder special circumstance findings. Evidence that Petitioner at the time of his

27

arrest possessed belongings from the apartments of Mills, Knoll, and Guthrie, and

28

evidence of sexual assault as to Mills and Guthrie, were only given labels as felony
117
Petitioner's App. 7 - 201

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 118 of 146 Page ID #:3621

1

murder special circumstances in the penalty phase. As in Beardslee and Morales,

2

Petitioner here has failed to demonstrate that any improper felony murder

3

//

4

special circumstances had substantial and injurious effect or influence on the jury’s

5

verdict.

6
7

2.

Felony Murder Convictions

“In reviewing the sufficiency of evidence, [a court] may grant habeas relief

8

only if ‘no rational trier of fact could have found proof of guilt beyond a

9

reasonable doubt.’” Ngo v. Giurbino, 651 F.3d 1112, 1115 (9th Cir. 2011)

10

(quoting Jackson v. Virginia, 443 U.S. 307, 324 (1979)). A reviewing court must:

11

review the evidence in the light most favorable to the
prosecution. Expressed more fully, this means a
reviewing court faced with a record of historical facts
that supports conflicting inferences must presume – even
if it does not affirmatively appear in the record – that the
trier of fact resolved any such conflicts in favor of the
prosecution, and must defer to that resolution.

12
13
14
15
16
17

McDaniel v. Brown, 558 U.S. 120, 133 (2010). “Furthermore, after AEDPA, we

18

apply the standards of Jackson with an additional layer of deference to state court

19

findings.” Ngo, 651 F.3d at 1115 (internal quotation omitted).

20

“Insufficient evidence claims are reviewed by looking at the elements of the

21

offense under state law.” Emery v. Clark, 643 F.3d 1210, 1214 (9th Cir. 2011)

22

(citing Jackson, 443 U.S. at 324 n.16). “At the time the crimes were committed,

23

first degree murder could be accomplished by a murder . . . committed in the

24

perpetration of, or attempt to perpetrate, [inter alia,] . . . rape, [or] . . .

25

burglary . . . .” Carter, 36 Cal. 4th at 1156-57 (internal quotation omitted).

26
27
28

a.

Burglary

“At the time the crimes were committed, . . . [b]urglary was defined, in
pertinent part, as an entry into any room, apartment . . . or other building . . . with
118
Petitioner's App. 7 - 202

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 119 of 146 Page ID #:3622

1

intent to commit grand or petit larceny or any felony.” Carter, 36 Cal. 4th at 1156-

2

57 (internal quotation omitted). “With regard to the offense of burglary, evidence

3

of a forced entry is not required to establish felonious intent; defendant’s

4

intent instead may be inferred from all of the facts and circumstances disclosed by

5

the evidence.” Id. at 1157. The California Supreme Court held that Petitioner’s:

6
7
8
9
10
11
12

commission of crimes in close temporal proximity,
combined with a very similar modus operandi in each
incident, strongly indicates that he entered the residences
with the requisite felonious intent. [¶] Defendant was
arrested driving Mills’s stolen Datsun 280 ZX,
containing an Alpha Beta supermarket CASHEX card
identified as having belonged to Knoll; towels, athletic
wear, and photographic equipment identified as having
belonged to Mills; and three hand-woven sweaters
identified as having belonged to Bonnie Guthrie.

13
14

Carter, 36 Cal. 4th at 1157 (internal citation omitted); (see also 38 RT 4638-39

15

(identifying camera and towel from Mills/Knoll apartment); 39 RT 4760

16

(identifying sweaters from Guthrie apartment)).

17

The California Supreme Court’s determination that a rational trier of fact

18

could have found proof of guilt beyond a reasonable doubt is not objectively

19

unreasonable. The court reasonably determined that the evidence presented at trial,

20

viewed in the light most favorable to the prosecution, could establish proof beyond

21

a reasonable doubt that Petitioner entered the Mills/Knoll and Guthrie apartments

22

with the required felonious intent.

23
24

b.

Rape

“At the time the crimes were committed, . . . [r]ape was defined in pertinent

25

part as an act of sexual intercourse accomplished with a person not the spouse of

26

the perpetrator [that was] accomplished against a person’s will by means of force

27

or fear of immediate and unlawful bodily injury on the person or another.” Carter,

28

36 Cal. 4th at 1156-57 (internal quotation omitted). The California Supreme Court
119
Petitioner's App. 7 - 203

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 120 of 146 Page ID #:3623

1

held that “[t]he evidence was sufficient to establish rape; Mills’s and Guthrie’s

2

bodies bore signs of having suffered traumatic sexual assault, and seminal fluid

3

discovered on a white nightgown in the apartment was consistent with defendant’s

4

PGM type and that of 15.8% of the population.” Id. at 1157; (see also supra p. 40

5

(citing 40 RT 4845-46, 4871, 4894-98) (describing evidence consistent with a

6

violent struggle before Mills’ and Guthrie’s homicides and with sexual assault of

7

Mills and Guthrie)).

8
9

Here, too, the California Supreme Court’s determination that a rational trier
of fact could have found proof of guilt beyond a reasonable doubt is not

10

objectively unreasonable. The court reasonably determined that the evidence

11

presented at trial, viewed in the light most favorable to the prosecution, could

12

establish proof beyond a reasonable doubt that Petitioner accomplished an act of

13

sexual intercourse with Mills and with Guthrie against the will of each by means of

14

force or requisite fear.

15
16

Claim 13 is DENIED.
XV.

Claim 14: Jury Instructions

17

A.

Overview

18

To establish a jury instruction error meriting federal habeas relief, Petitioner

19

must show that the given instruction violated Petitioner’s constitutional rights or

20

“so infected the entire trial that the resulting conviction violates due process.”

21

McGuire, 502 U.S. at 72 (quoting Cupp v. Naughten, 414 U.S. 141, 147 (1973)).

22

“[T]he instruction may not be judged in artificial isolation, but must be considered

23

in the context of the instructions as a whole and the trial record.” Id. (internal

24

quotation omitted).

25

“An appraisal of the significance of an error in the instructions to the jury

26

requires a comparison of the instructions which were actually given with those that

27

should have been given.” Henderson v. Kibbe, 431 U.S. 145, 154 (1977). “The

28

fact that a jury instruction violates state law is not, by itself, a basis for federal
120
Petitioner's App. 7 - 204

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 121 of 146 Page ID #:3624

1

habeas corpus relief,” however. Clark v. Brown, 450 F.3d 898, 904 (9th Cir.

2

2006). “Federal habeas courts therefore do not grant relief, as might a state

3

appellate court, simply because the instruction may have been deficient in

4

comparison to the CALJIC model.” Id. (internal quotation omitted). “The

5

question in a collateral proceeding is whether the ailing instruction by itself so

6

infected the entire trial that the resulting conviction violates due process, not

7

merely whether the instruction is undesirable, erroneous, or even universally

8

condemned.” Kibbe, 431 U.S. at 154 (internal quotations omitted).

9
10
11

B.

Flight Instruction
1.

Allegations and Decision on Direct Appeal

In Claim 14(B), Petitioner alleges that the trial court erred by instructing the

12

jury on flight pursuant to CALJIC 2.52. (Pet. at 179, 183.) Petitioner asserts that

13

there was no evidence that, at the time of his arrest, he had been confronted with

14

the charges against him and attempted to flee, that he immediately took flight after

15

commission of a crime, or that he was conscious of guilt. (Id. at 183-84.) In

16

merits briefing, Petitioner argues that the California Supreme Court’s decision was

17

based on an unreasonable determination of the facts, and that a reasonable

18

determination of the facts would not have supported giving the instruction under

19

state law. (Petr.’s Br. at 226-29.)

20
21
22
23
24
25
26
27
28

On direct appeal, the California Supreme Court held:
Section 1127c requires a trial court in any criminal
proceeding to instruct as to flight where evidence of
flight is relied upon as tending to show guilt. CALJIC
No. 2.52, which is derived from section 1127c, advises
the jury ‘that evidence of flight alone is insufficient to
establish guilt, but may be considered with other proven
facts in deciding the question of guilt or innocence.’
Contrary to defendant’s position, the instruction neither
requires knowledge on a defendant’s part that criminal
charges have been filed, nor a defined temporal period
within which the flight must be commenced, nor
121
Petitioner's App. 7 - 205

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 122 of 146 Page ID #:3625

1
2
3
4
5
6
7
8

resistance upon arrest. In view of the evidence
introduced by the prosecution establishing that defendant
left California in the days immediately following the
charged offenses and was in possession of the vehicle
belonging to murder victim Jillette Mills when he was
arrested in Arizona, the flight instruction plainly was
warranted here. As noted, the instruction merely
permitted the jury to consider evidence of flight in
deciding defendant’s guilt or innocence; it did not
suggest that the jury should consider such evidence as
dispositive.

9
10
11
12
13

Moreover, even if we were to conclude the instruction
should not have been given, any error would have been
harmless. The instruction did not assume that flight was
established, but instead permitted the jury to make that
factual determination and to decide what weight to
accord it.

14
15
16
17
18
19
20
21
22
23

Carter, 36 Cal. 4th at 1182-83 (footnote and internal citations omitted).
2.

Analysis

The Ninth Circuit has held that a flight instruction is appropriate:
if there is evidence sufficient to support a chain of
unbroken inferences from the defendant’s behavior to the
defendant’s guilt of the crime charged. . . . [F]our
inferences must be justified: (1) from the defendant’s
behavior to flight; (2) from flight to consciousness of
guilt; (3) from consciousness of guilt to consciousness of
guilt concerning the crime charged; and (4) from
consciousness of guilt concerning the crime charged to
actual guilt of the crime charged.

24
25
26
27
28

United States v. Silverman, 861 F.2d 571, 581 (9th Cir. 1988) (internal quotation
omitted). The court must “evaluate flight instructions by looking for facts that
support the inference[s] . . . . Evidence that a defendant fled immediately after a
crime was committed supports an inference that the flight was motivated by a

122
Petitioner's App. 7 - 206

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 123 of 146 Page ID #:3626

1

consciousness of guilt of that crime.” Id. at 581, 582 n.4 (emphasis in original);

2

see also United States v. Dixon, 201 F.3d 1223, 1232 (9th Cir. 2000) (applying

3

//

4

Silverman factors and finding no constitutional violation from flight instruction);

5

United States v. Harrison, 585 F.3d 1155, 1159-60 (9th Cir. 2009) (same).

6

When evaluating the appropriateness of the instruction, a reviewing court

7

may also consider whether the trial court “emphasized that the jury alone must

8

make the decision as to what inferences to draw from the defendant’s flight.”

9

Dixon, 201 F.3d at 1233.

10

Here, the jury was instructed that it “may” consider a fact of flight in

11

deciding Petitioner’s guilt or innocence, and that the weight to give any such

12

circumstance was a matter for the jury to determine. (6 CT 1676; see also 44 RT

13

5282-87 (regarding delivery of written flight instruction to jury).) Moreover, the

14

California Supreme Court’s factual and legal determinations that evidence

15

introduced at Petitioner’s trial supported an inference that Petitioner was in flight,

16

motivated by a consciousness of guilt of the Knoll, Mills, and Guthrie crimes, were

17

not unreasonable. The prosecution presented evidence that the Knoll and Mills

18

murders in Culver City were committed on approximately April 10, 1984 (38 RT

19

4628, 4636, 4657-61; 39 RT 4744), that the Guthrie murder in West Los Angeles

20

was committed on approximately April 11, 1984 (39 RT 4757, 4771-77), and that

21

the Cullins murder in San Diego was committed on approximately April 12, 1984

22

(40 RT 4903-10). The prosecution presented testimony that Petitioner was arrested

23

five days later, on April 17, 1984, driving Mills’ stolen vehicle on an interstate

24

highway eastbound, away from California, where the crimes were committed. (35

25

RT 4317-20; 38 RT 4630.) The California Supreme Court’s determination that

26

Petitioner fled immediately after the Knoll, Mills, and Guthrie crimes, supporting

27

an inference that his flight was motivated by a consciousness of guilt of those

28

crimes, was not objectively unreasonable. See Silverman, 861 F.2d at 581, 582 n.4.
123
Petitioner's App. 7 - 207

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 124 of 146 Page ID #:3627

1

//

2

//

3

The jury instruction regarding flight, therefore, did not “so infect[] the entire

4

trial that the resulting conviction violates due process.” McGuire, 502 U.S. at 72

5

(internal quotation omitted). Claim 14(B) is DENIED.

6

C.

7

In Claim 14(C), Petitioner argues:

8
9
10
11
12

Lesser Included Instructions

In a case such as this one, where a second-degree murder
instruction was required by the evidence, and where
evidence to support felony murder was so weak . . . , it
was a violation of Mr. Carter’s state and federal
constitutional guarantees to not give the jury the ‘third
option’ of second-degree murder, and reversal is
required.

13
14

(Pet. at 189 (citing, inter alia, Beck v. Alabama, 447 U.S. 625, 635 (1980); Hopper

15

v. Evans, 456 U.S. 605 (1982)).) On direct appeal, the California Supreme Court

16

rejected the claim, finding “no error in the trial court’s refusal to give the

17

instructions requested by defendant. . . . [W]e agree with the trial court that there

18

was not substantial evidence to warrant the second degree murder instructions

19

requested by defendant.” Carter, 36 Cal. 4th at 1184-85.

20

The California Supreme Court’s assessment of the evidence is not

21

unreasonable. In addition, Petitioner’s jury was charged with deciding his guilt or

22

innocence of two counts of rape and two counts of residential burglary, apart from

23

the murder charges. Petitioner’s jury was not faced with a single option of a first

24

degree murder conviction to avoid acquitting Petitioner altogether. As the United

25

States Supreme Court explained in Spaziano v. Florida:

26
27
28

The Court in Beck recognized that the jury’s role in the
criminal process is . . . not always rational. The absence
of a lesser included offense instruction increases the risk
that the jury will convict, not because it is persuaded that
124
Petitioner's App. 7 - 208

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 125 of 146 Page ID #:3628

1

the defendant is guilty of capital murder, but simply to
avoid setting the defendant free. . . . The goal of the Beck
rule, in other words, is to eliminate the distortion of the
factfinding process that is created when the jury is forced
into an all-or-nothing choice between capital murder and
innocence.

2
3
4
5
6

468 U.S. 447, 455 (1984); see also Hopper, 456 U.S. at 609-10 (“Our opinion in

7

Beck stressed that the jury . . . could not take a third option of finding that . . . the

8

defendant had committed a grave crime, . . . not so grave as to warrant capital

9

punishment. . . . In such a situation, we concluded, the jury might convict the

10

defendant of a capital offense because it found that the defendant was guilty of a

11

serious crime”). Petitioner’s jury had the option of convicting him of the serious

12

crimes of up to two counts of rape and up to two counts of residential burglary as

13

alternatives to “setting [him] free.” Spaziano, 468 U.S. at 455. Petitioner has,

14

therefore, failed to show a violation of his federal constitutional rights under Beck.

15

See LaGrand v. Stewart, 133 F.3d 1253, 1262-63 (9th Cir. 1998) (“[T]he

16

instructions in the instant case do not implicate the concerns of the Beck doctrine

17

because the jury was given the choice of convict[ions of] . . . aggravated assault,

18

armed robbery, robbery and kidnapping . . . [i]n the event the jury had found itself

19

unable to agree on a conviction of first-degree murder”).

20

Claim 14(C) is, therefore, DENIED.

21

D.

22
23

Intent to Kill Instruction
1.

Allegations and Decision on Direct Appeal

In Claim 14(D), Petitioner asserts that the trial court unconstitutionally failed

24

to instruct the jury on the requisite intent to kill for the felony murder and multiple

25

murder special circumstance findings. (Pet. at 190-91.)

26
27

The California Supreme Court addressed the claim on direct appeal. The
court explained:

28
125
Petitioner's App. 7 - 209

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 126 of 146 Page ID #:3629

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

In 1983, this court held that intent to kill was an element
of felony-murder special circumstances whether or not
the defendant was the actual killer. Carlos v. Superior
Court, 35 Cal. 3d 131, 153-154 (1983). Although we
overruled Carlos in People v. Anderson, 43 Cal. 3d 1104,
1147 (1987), holding that the intent-to-kill requirement
applied only to an accomplice and not to the actual killer,
Carlos remained applicable to (and the trial court was
required to instruct the jury on) intent to kill in all cases
involving a defendant charged with a felony-murder
special circumstance if the offense was committed during
the ‘window’ period between our decisions in Carlos and
Anderson.
In the present case, the jury found a total of six special
circumstance allegations to be true – one allegation of
multiple murder, two allegations of rape murder (as to
Mills and Guthrie), and three allegations of burglary
murder (as to Mills, Knoll, and Guthrie). The murders
occurred in April 1984, during the Carlos/Anderson
‘window’ period. Accordingly, the jury in this case
could find the special circumstance allegations to be true
only if it found that defendant acted with intent to kill.
Nonetheless, as defendant asserts and the People
concede, the trial court’s instruction on special
circumstances, CALJIC No. 8.80, in relevant part
informed the jury that defendant’s intent was
inconsequential: ‘If you find beyond a reasonable doubt
that the defendant was the actual killer, you need not find
that the defendant intended to kill a human being in order
to find the special circumstance to be true.’
We have consistently held that when a trial court fails to
instruct the jury on an element of a special circumstance
allegation, the prejudicial effect of the error must be
measured under the test set forth in Chapman v.
California, 386 U.S. 18, 24 (1967). Under that test, an
error is harmless only when, beyond a reasonable doubt,
it did not contribute to the verdict. We have held that
error in failing to instruct that a special circumstance
126
Petitioner's App. 7 - 210

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 127 of 146 Page ID #:3630

1
2
3

contains a requirement of the intent to kill is harmless
beyond a reasonable doubt when the evidence of
defendant’s intent to kill . . . was overwhelming, and the
jury could have had no reasonable doubt on that matter.

4

17

In the present case, the evidence was overwhelming that
defendant possessed the intent to kill when he murdered
Susan Knoll, Jillette Mills, and Bonnie Guthrie. As
noted, within a very brief period all three victims were
killed by strangulation – Knoll by manual strangulation,
Mills and Guthrie by ligature strangulation. The latter
two victims also suffered traumatic sexual assaults. That
evidence, considered with the evidence that the bodies of
Knoll and Mills were concealed within a closet, and that
in each instance defendant departed from the crime scene
with selected possessions of each victim, is consistent
only with intentional killings. No evidence was
presented that would have supported a finding of
unintentional murder. Under these circumstances, we
conclude that no reasonable jury, properly instructed,
would have failed to find that defendant acted with the
requisite intent to kill. We are satisfied that the trial
court’s instruction removing that issue from the jury’s
consideration was harmless beyond a reasonable doubt.

18

Carter, 36 Cal. 4th at 1185-87 (internal quotations and footnote omitted; citations

19

omitted and edited).

5
6
7
8
9
10
11
12
13
14
15
16

20
21

2.

Analysis

“[I]n § 2254 proceedings a court must assess the prejudicial impact of

22

constitutional error in a state-court criminal trial under the ‘substantial and

23

injurious effect’ standard set forth in Brecht, whether or not the state appellate

24

court recognized the error and reviewed it for harmlessness under the ‘harmless

25

beyond a reasonable doubt’ standard set forth in Chapman.” Fry v. Pliler, 551

26

U.S. 112, 121-22 (2007) (internal citations omitted). “[T]he Brecht standard of

27

actual prejudice” is “more forgiving” of error and “less onerous” on the state than

28

is the Chapman standard. Id. at 116, 117, 120 (internal quotations omitted).
127
Petitioner's App. 7 - 211

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 128 of 146 Page ID #:3631

1
2

//
“An instruction that omits an element of the offense does not necessarily

3

render a criminal trial fundamentally unfair or an unreliable vehicle for

4

determining guilt or innocence,” but is instead subject to review for prejudice.

5

Neder v. United States, 527 U.S. 1, 8-9 (1999) (emphasis in original). “[W]here a

6

defendant did not, and apparently could not, bring forth facts contesting the

7

omitted element, answering the question whether the jury verdict would have been

8

the same absent the error does not fundamentally undermine the purposes of the

9

jury trial guarantee.” Id. at 19; see also United States v. Cherer, 513 F.3d 1150,

10

1155 (9th Cir. 2008) (finding harmless error as to omitted jury instruction on

11

defendant’s requisite state of mind where defendant “scarcely” raised a state of

12

mind defense at trial).

13

The California Supreme Court’s factual determination that “[n]o evidence

14

was presented that would have supported a finding of unintentional murder” is not

15

unreasonable. Carter, 36 Cal. 4th at 1187; (cf. supra pp. 34-39 (considering

16

evidence presented on habeas review regarding Petitioner’s mental state at and

17

before the time of the crimes); Pet. at 167 (“[T]he defense was not contending that

18

strangulation murder ‘would be anything other than premeditated’” (quoting 35 RT

19

4267))). The court’s further finding that the evidence of Petitioner’s intent was

20

overwhelming is similarly not unreasonable. As the court found, death by manual

21

or ligature strangulation evidences intentional killing, see Schad v. Ryan, 671 F.3d

22

708, 717-18 (9th Cir. 2009) (killing by ligature strangulation permitted inference of

23

intentional murder); Davis v. Woodford, 384 F.3d 628, 640 (9th Cir. 2003) (death

24

by strangulation requiring three to five minutes of continuous pressure permitted

25

inference of intentional murder); United States v. Roston, 986 F.2d 1287, 1290 (9th

26

Cir. 1993) (death by strangulation permitted inference of intentional murder), as

27

does evidence of a substantial struggle before death. See id.; (see also supra p. 40

28

(discussing evidence of violent struggles before Mills, Knoll, and Guthrie deaths)).
128
Petitioner's App. 7 - 212

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 129 of 146 Page ID #:3632

1

Petitioner has, therefore, failed to demonstrate that the California Supreme

2

Court’s rejection of his claim was objectively unreasonable or that the instructional

3

error had a substantial and injurious effect on his trial. Claim 14(D) is DENIED.

4

E.

5

In his Petition, Petitioner summarily alleges in Claim 12(E) that:

6
7
8
9
10
11

Guilt Phase Instructions

[s]everal pattern jury instructions read to the jury in this
case, including CALJIC Nos. 2.01, 2.02, 2.50, 2.50.1,
2.50.2, 8.83, and 8.83.1, impaired the presumption of
innocence, lightened the prosecution’s burden of proof
beyond a reasonable doubt, and amounted to mandatory
conclusive presumptions of guilt, in violation of Mr.
Carter’s rights to, inter alia, due process of law, a fair
trial, and reliable determinations of guilt and penalty.

12
13

(Pet. at 191 (citing 6 CT 1659-61, 1672-75, 1703-06).) Likewise, in Claim

14

5(H)(3), Petitioner alleges that “[t]o the extent” that trial counsel failed to object to

15

the instructions, trial counsel was ineffective. (Id. at 76.)

16
17
18
19
20
21
22
23
24
25
26
27

On direct appeal, the California Supreme Court held:
The trial court instructed the jury pursuant to several
pattern jury instructions at the conclusion of the guilt
phase, including CALJIC Nos. 2.01 (sufficiency of
circumstantial evidence – generally), 2.02 (sufficiency of
circumstantial evidence to prove specific intent), 2.50
(evidence of other crimes), 2.50.1 (evidence of other
crimes by the defendant proved by a preponderance of
the evidence), 2.50.2 (definition of preponderance of the
evidence), 8.83 (sufficiency of circumstantial evidence to
prove special circumstance), and 8.83.1 (sufficiency of
evidence to prove mental state). Defendant contends that
decisions rendered by this court rejecting constitutional
challenges to these instructions are ‘inconsistent with
principles set forth by the United States Supreme Court’
and should be reconsidered.

28
129
Petitioner's App. 7 - 213

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 130 of 146 Page ID #:3633

1

Defendant has provided no basis for reconsidering our
prior decisions upholding the validity of these pattern
jury instructions. We therefore reject defendant’s
challenge.

2
3
4
5

Carter, 36 Cal. 4th at 1188 (internal citations omitted).

6

In his opening merits brief, Petitioner elaborates upon his claim as to

7

CALJIC Nos. 2.50, 2.50.1, and 2.50.2. (Petr.’s Br. at 236-38.) Petitioner argues

8

that the instructions “were contrary to In re Winship’s maxim that a defendant may

9

not be convicted except ‘upon proof beyond a reasonable doubt of every fact

10

necessary to constitute the crime with which he is charged.’” (Id. at 236 (citing

11

Winship, 397 U.S. 358, 364 (1970). Petitioner relies upon Gibson v. Ortiz, 387

12

F.3d 812, 821-22 (9th Cir. 2004), overruled in part by Byrd v. Lewis, 566 F.3d 855

13

(9th Cir. 2009), which considered CALJIC No. 2.50.01 – not an instruction given

14

or challenged here. CALJIC No. 2.50.01 provided that the jury may infer that the

15

defendant had a disposition to commit a similar type of sexual offense as a prior

16

crime. Gibson held that CALJIC No. 2.50.01, paired with an instruction that other

17

sexual offenses may be proved by a preponderance of the evidence, was infirm

18

under Winship. (See Petr.’s Br. at 237-38.)

19

The determining issue in Gibson was that “CALJIC No. 2.50.01 . . .

20

provided that the jury could infer that the defendant committed the charged crime

21

if it found ‘that the defendant committed a prior sexual offense.’” 387 F.3d at 822.

22

Critically:

23
24
25
26
27

[t]he jury was never told how, or if, the two standards of
proof set forth in the instructions should be harmonized.
Rather, it received only a general instruction regarding
circumstantial evidence, which required proof beyond a
reasonable doubt, and the specific, independent
instruction relating to previous sexual abuse and

28
130
Petitioner's App. 7 - 214

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 131 of 146 Page ID #:3634

1

domestic violence, which required only proof by a
preponderance of the evidence.

2
3
4

Id.
Here, the jury was instructed that it may consider other crimes evidence

5

only in specified ways, and may not infer that Petitioner has a disposition to

6

commit crimes. (See 44 RT 5246-47, 5251-53.) The California Supreme Court

7

may have reasonably determined, particularly in light of those instructions, that

8

CALJIC instructions 2.50, 2.50.1, and 2.50.2, along with instructions 2.01-2.02

9

and 8.83-8.83.1, were constitutionally permissible. Cf. Alberni, 458 F.3d at 863,

10

866 (“[T]he Supreme Court has never expressly held that it violates due process to

11

admit other crimes evidence for the purpose of showing conduct in conformity

12

therewith”) (discussing McGuire, 502 U.S. at 75 n.5); see also Mejia, 534 F.3d at

13

1046 (holding same). Likewise, the state high court may have reasonably

14

determined that Petitioner suffered no prejudice from counsel’s failure to object to

15

the instructions.

16
17

Accordingly, Claims 14(E) and 5(H)(3) are DENIED.
XVI. Claims 2, 12(L), and 15: Complete Breakdown in Adversarial Process

18

and Cumulative Error

19

A.

20

In Claim 2, Petitioner alleges “a complete breakdown in the adversarial

Breakdown in Adversarial Process

21

system of justice,” citing, inter alia, United States v. Cronic, 466 U.S. 648, 656-66

22

(1984) and United States v. Swanson, 943 F.2d 1070, 1075 (9th Cir. 1991). (Pet. at

23

38.) Petitioner contends that counsel “virtually absented himself from the guilt-

24

phase proceedings. He offered no opening statement, did not call a single witness,

25

. . . only haphazardly cross-examined the state’s witnesses,” and made an

26

inadequate guilt phase closing argument. (Id. at 39; see also Petr.’s Br. at 65.)

27

Petitioner asserts that he was, therefore, “effectively abandoned by his counsel.”

28

(Pet. at 39.) Petitioner further argues that counsel’s actions in “affirmatively
131
Petitioner's App. 7 - 215

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 132 of 146 Page ID #:3635

1

aid[ing] the prosecutor” and in opposing Petitioner’s stated desire to testify

2

demonstrate a conflict of interest. (Id. at 37, 39.)

3
4
5
6
7
8
9
10
11
12
13
14
15
16
17

On direct appeal, the California Supreme Court held:
Defendant’s reliance upon United States v. Swanson, 943
F.2d 1070 (9th Cir.1991), . . . is misplaced. Swanson
held that defense counsel effectively abandoned and
betrayed his client and aided the prosecution by arguing
to the jury that there was no reasonable doubt his client
was the person who committed the bank robbery charged
in the indictment. By contrast, defense counsel’s
performance in the present case did not constitute
abandonment. In view of the strong prosecution
evidence linking defendant to the charged offenses, as
well as to the murder cases then pending against
defendant in Alameda and San Diego Counties, defense
counsel reasonably could believe that their client’s
interests would best be served by treating the case ‘as a
penalty case,’ rather than by presenting a defense or
relying upon defendant’s testimony.
Carter, 36 Cal. 4th at 1192-93 (citation edited).
So long as counsel does not “‘entirely fail[] to subject the prosecution’s case

18

to meaningful adversarial testing,’” counsel’s performance is subject to analysis

19

under the Strickland standard of error and prejudice. Nixon, 543 U.S. at 190

20

(quoting Cronic, 466 U.S. at 648). The United States Supreme Court concluded in

21

Nixon that defense counsel who conceded defendant’s guilt at the guilt phase of

22

trial to attempt to avoid a capital sentence during penalty proceedings did not fail

23

to function as the prosecution’s adversary under Cronic. 543 U.S. at 187-92. The

24

Court observed that despite counsel’s concession, defendant “retained the rights

25

accorded a defendant in a criminal trial. The State was obliged to present during

26

the guilt phase competent, admissible evidence establishing the essential elements

27

of the crimes . . . . Further, the defense reserved the right to cross-examine

28

witnesses . . . and could endeavor, as [counsel] did, to exclude prejudicial
132
Petitioner's App. 7 - 216

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 133 of 146 Page ID #:3636

1

evidence.” Id. at 188 (internal citation omitted); see also Bell v. Cone, 535 U.S.

2

685, 696-98 (2002) (noting that “[w]hen we spoke in Cronic of the possibility of

3

presuming prejudice based on an attorney’s failure to test the prosecutor’s case, we

4

indicated that the attorney’s failure must be complete,” and holding that counsel’s

5

alleged failure to present mitigating evidence and closing argument at capital

6

sentencing proceeding should be considered under Strickland, not Cronic).

7

The California Supreme Court’s determination that counsel subjected the

8

prosecution’s case to meaningful adversarial testing is not objectively

9

unreasonable. Counsel cross-examined witnesses (see supra pp. 41-42 (discussing

10

evidence counsel presented on cross-examination)); moved to exclude allegedly

11

prejudicial evidence (see supra pp. 84, 97, 102), Carter, 36 Cal. 4th at 1146-50,

12

1160-62; emphasized that Petitioner’s guilt must be proven beyond a reasonable

13

doubt (see supra p. 46), Carter, 36 Cal. 4th at 1189, 1189 n.35; presented

14

mitigating evidence (see supra pp. 54-59); and asked the jury “to spare

15

[Petitioner’s] life.” (See supra pp. 48 (quoting 47 RT 5498), 61 (quoting 52 RT

16

6094).)

17

In addition, considering the entirety of Petitioner’s allegations of ineffective

18

assistance of counsel cumulatively under Strickland, the Court finds that the

19

California Supreme Court’s determination that Petitioner was not prejudiced by

20

any deficient performance by counsel was not objectively unreasonable.

21
22
23

Claim 2 is DENIED.
B.

Cumulative Error

In Claim 12(L), Petitioner contends that “relief is required when this claim

24

[Claim 12, alleging trial court error] is considered together with the additional

25

constitutional errors outlined in the remainder of this Petition.” (Pet. at 174.)

26

Further, in Claim 15, Petitioner asserts that he is entitled to relief based upon “the

27

cumulative and interrelated errors that occurred during both the guilt phase and the

28

penalty phase of his capital trial.” (Id. at 192.)
133
Petitioner's App. 7 - 217

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 134 of 146 Page ID #:3637

1

“[P]rejudice may result from the cumulative impact of multiple

2

deficiencies.” Harris v. Wood, 64 F.3d 1432, 1438-39 (9th Cir. 1995) (finding

3

cumulative prejudice from counsel’s performance that was “deficient in eleven

4

ways, eight of them undisputed” which “obviates the need to analyze the individual

5

prejudicial effect of each deficiency,” but noting that “some of the deficiencies

6

[may be] individually prejudicial”) (internal quotation and citation omitted).

7

“[W]here the government’s case is weak, a defendant is more likely to be

8

prejudiced by the effect of cumulative errors. This is simply the logical corollary

9

of the harmless error doctrine which requires us to affirm a conviction if there is

10

overwhelming evidence of guilt.” United States v. Frederick, 78 F.3d 1370, 1381

11

(9th Cir. 1996) (internal citation and quotation omitted); United States v. Nadler,

12

698 F.2d 995, 1002 (9th Cir. 1983) (holding that when examining “the cumulative

13

effect of several errors[, . . .] [w]hether the alleged errors prejudiced the

14

[petitioner’s right] to a fair trial depends in turn upon the strength of the

15

Government’s [case] against [him]; the stronger the prosecution’s case, the less

16

likely that a [petitioner] would be prejudiced by the error or misconduct”).

17

“[W]hile a defendant is entitled to a fair trial, he is not entitled to a perfect trial,

18

‘for there are no perfect trials.’” United States v. Payne, 944 F.2d 1458, 1477 (9th

19

Cir. 1991) (rejecting cumulative error claim based upon trial court errors) (quoting

20

Brown v. United States, 411 U.S. 223, 231-32 (1973)).

21

Here, the California Supreme Court’s determination that the evidence

22

against Petitioner was “overwhelming” is not objectively unreasonable. Carter, 36

23

Cal. 4th at 1138, 1187 (discussing guilt phase evidence); see also id. at 1146, 1182

24

(discussing penalty phase evidence). The court may have reasonably concluded

25

that any errors in Petitioner’s trial, considered cumulatively, were harmless in light

26

of that evidence. Cf. id. at 1212-13 (finding no cumulative error on direct appeal

27

because “defendant’s trial was nearly devoid of any error . . .

28

//
134
Petitioner's App. 7 - 218

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 135 of 146 Page ID #:3638

1

[and] to the extent any error was committed it was clearly harmless”). Claim 15 is,

2

therefore, DENIED.

3

XVII. Claim 16: Requisite Specific Intent and Incompetence to Be Executed

4

In Claim 16, Petitioner contends, first, that his mental condition renders him

5

incompetent to be executed under Ford v. Wainwright, 477 U.S. 399 (1986). The

6

California Supreme Court denied Claim 16 as “premature without prejudice to

7

renewal after an execution date is set.” In re Carter, Case No. S153790, June 17,

8

2010; (see also Petr.’s Br. at 245; Respt.’s Br. at 124.) Petitioner acknowledges

9

that this issue is “not currently ripe, because there is no established date for Mr.’s

10

Carter’s execution,” and he presents it to “preserve this claim for review when

11

ripe.” (Pet. at 199; see also Petr.’s Br. at 245; Respt.’s Br. at 124 (agreeing that the

12

issue is premature because “Carter’s execution is not imminent”.) This issue is

13

dismissed as premature and not ripe for review.

14

Second, Petitioner summarily contends that his “mental defects, disorders,

15

and illnesses from childhood and into adulthood . . . prevented him from

16

conforming his conduct to the requirements of the law and resulted in him not

17

forming the intent required for the crimes of which he was convicted.” (Pet. at

18

199.) As discussed above, the evidence Petitioner presents regarding his intent and

19

his ability to manage his conduct is speculative and vague and does not establish

20

Petitioner’s entitlement to relief. (Cf. supra pp. 37-39 (discussing the nature of

21

Petitioner’s expert evidence).) This portion of Claim 16 is denied.

22

Third, Petitioner argues that “the imposition of a sentence of death for

23

crimes committed by an individual who could not conform his conduct to the

24

requirements of law at the time of the crimes . . . constitutes cruel and unusual

25

punishment.” (Pet. at 199 (citing Proffitt v. Florida, 428 U.S. 242 (1976)).)

26

Petitioner has not established that he is entitled to federal habeas relief on this

27

basis. Cf. Wilson v. Ozmint, 352 F.3d 847, 870-72 (4th Cir. 2003) (rejecting

28

petitioner’s Eighth Amendment claim against execution of a person adjudicated to
135
Petitioner's App. 7 - 219

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 136 of 146 Page ID #:3639

1

have lacked sufficient capacity to conform his conduct to the requirements of the

2

law, applying Stanford v. Kentucky, 492 U.S. 361 (1989), abrogated by Roper v.

3

Simmons, 543 U.S. 551 (2005)); see also Proffitt, 428 U.S. at 246-47 (holding that

4

death sentence was not cruel and unusual punishment where, inter alia, petitioner

5

told a jail physician he previously “had an uncontrollable desire to kill that had

6

already resulted in his killing one man . . . and that he wanted psychiatric help so

7

he would not kill again,” and physician opined that petitioner was dangerous but

8

his condition could be treated successfully). This portion of Claim 16 is also

9

denied.

10
11

Claim 16 is, therefore, DISMISSED IN PART and DENIED IN PART.
XVIII. Claim 17: Systemic Death Penalty Claims

12

A.

13

In Claim 17(A), Petitioner alleges that his federal constitutional rights were

14

violated “because the California Supreme Court has labored since the year before

15

Mr. Carter’s trial under political and economic pressures which do not permit it to

16

decide death penalty cases in a fair and impartial manner, resulting in a capital

17

sentencing scheme which is applied in an arbitrary and capricious manner.” (Pet.

18

at 200.)

19

Political Considerations in Death Penalty Review Process

There is a “general presumption that judges are unbiased and honest.” Ortiz

20

v. Stewart, 149 F.3d 923, 938 (9th Cir. 1998) (citing Withrow v. Larkin, 421 U.S.

21

35, 47 (1975)). Nothing in Petitioner’s argument regarding political pressure

22

suffices to overcome that general presumption. Petitioner fails to specifically

23

allege any support in the record of his own case to demonstrate judicial bias.

24

Further, while Petitioner notes that three justices of the California Supreme Court

25

were removed from the Supreme Court in a 1986 retention election in which those

26

justices’ death penalty decisions were criticized (Pet. at 201), Petitioner has not

27

demonstrated that the justices who considered his case were in any manner

28

influenced by a fear of future challenge and removal from the bench.
136
Petitioner's App. 7 - 220

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 137 of 146 Page ID #:3640

1

Because Petitioner has failed to demonstrate that the California Supreme

2

Court’s rejection of his claim was objectively unreasonable, he is not entitled to

3

habeas relief on this basis. Claim 17(A) is DENIED.

4

B.

5

Execution Following Lengthy Confinement and Violations of
International Law

6

In Claim 17(B), Petitioner contends that “the execution of Mr. Carter

7

following his lengthy confinement under sentence of death (now more than twenty

8

years since judgment) would constitute cruel and unusual punishment and violate

9

international law, covenants, treaties and norms.” (Pet. at 205.) Similarly, in

10

Claim 17(G), Petitioner alleges that “the death penalty is unconstitutional and

11

violates international law.” (Id. at 223.) Petitioner argues:

12

17

First, the death penalty’s use in California as a regular
form of punishment violates the federal Constitution, and
next, the impossibility of reconciling two equally
important but opposing principles – the principle of
individualized treatment and the principal of nonarbitrary
and rational sentencing – means that the death penalty is
no longer an acceptable form of punishment.
(Id.; see also id. at 224 (citing Callins v. Collins, 510 U.S. 1141, 1144 (1994)

18

(Blackmun, J., dissenting)).) Petitioner alleges that “the law of nations now

19

recognizes the impropriety of capital punishment as regular punishment . . . .” (Id.

20

at 224.)

13
14
15
16

21

Petitioner’s claim lacks support in clearly established federal law as

22

determined by the Supreme Court. Clearly established federal law does not hold

23

the death penalty to violate international law or the federal Constitution. Cf.

24

Nevius v. McDaniel, 218 F.3d 940 (9th Cir. 2000) (denying certificate of

25

appealability where state court did not contradict or unreasonably apply federal law

26

in denying petitioner’s claim that repeated scheduling of execution constituted

27

cruel and unusual punishment in violation of “the Eighth Amendment and several

28

instruments of international law, including the Universal Declaration of Human
137
Petitioner's App. 7 - 221

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 138 of 146 Page ID #:3641

1

Rights, and the Convention against Torture and Other Cruel, Inhumane, or

2

Degrading Treatment or Punishment”). Likewise, “‘[t]he Supreme Court has never

3

held that execution after a long tenure on death row is cruel and unusual

4

punishment.’” Smith v. Mahoney, 611 F.3d 978, 998 (9th Cir. 2010) (quoting Allen

5

v. Ornoski, 435 F.3d 946, 958 (9th Cir. 2006)).

6

Claims 17(B) and 17(G) are DENIED.

7

C.

8

In Claim 17(C), Petitioner alleges that “the manner of execution, lethal

9

injection, constitutes cruel and unusual punishment.” (Pet. at 211.) He adds that if

10

lethal injection in California is held to be unconstitutional, the State “may attempt

11

to execute Mr. Carter using lethal gas.” (Id. at 213.) Petitioner states that he raises

12

these claims “to preserve his right to review if ever necessary.” (Id.) The

13

California Supreme Court denied Claim 17(C) as “premature without prejudice to

14

renewal after an execution date is set.” In re Carter, Case No. S153790, June 17,

15

2010; (see also Petr.’s Br. at 245).

Lethal Injection and Lethal Gas

As a result of the district court’s ruling in Morales v. Tilton, 465 F. Supp. 2d

16
17

972 (N.D. Cal. 2006), “there was a de facto moratorium on all executions in

18

California.” Morales v. Cate, 623 F.3d 828, 830 (9th Cir. 2010). California

19

promulgated a revised lethal injection protocol effective August 29, 2010. Cal.

20

Code Regs. tit. 15, §§ 3349-3349.4.6 (2010). The revised protocol provides, inter

21

alia:

22
23
24
25
26
27

Inmates sentenced to death shall have the opportunity to
choose to have the punishment imposed by lethal gas or
lethal injection. . . . The inmate shall be notified of the
opportunity for such choice and that, if the inmate does
not choose either lethal gas or lethal injection within ten
days after being served with the execution warrant, the
penalty of death shall be imposed by lethal injection.
(Id., § 3349(a)-(b).)

28
138
Petitioner's App. 7 - 222

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 139 of 146 Page ID #:3642

1

Following the effective date of the revised protocol, the State scheduled the

2

execution of Albert Greenwood Brown. Brown moved to intervene in the Morales

3

action. Holding that “Brown’s federal claims are virtually identical to those

4

asserted” by Morales, the court granted the motion to intervene. Morales v. Cate,

5

No. CV 06-219, 2010 WL 3751757, at *1 (N.D. Cal. Sept. 24, 2010). Considering

6

Brown’s challenge to the revised protocol and his motion to stay his execution, the

7

Northern District of California expressed that it “always has understood,

8

apparently incorrectly, that executions could not resume until it had an opportunity

9

to review the new lethal injection protocol in the context of the evidentiary record

10

developed during the 2006 proceedings.” Id. The court conditionally denied a stay

11

of execution on the basis that “there is no way that the Court can engage in a

12

thorough analysis of the relevant factual and legal issues in the days remaining

13

before [petitioner’s] execution date.” Id. at *5.

14

The Ninth Circuit remanded, directing the district court, “in light of . . . the

15

court’s findings regarding the risk of unconstitutional pain inhering in the prior

16

three-drug protocol, . . . to determine whether, under Baze, [petitioner] is entitled to

17

a stay of his execution as it would be conducted under the three-drug protocol now

18

in effect.” Morales, 623 F.3d at 831. Most recently, the district court explained:

19
20
21
22
23

California at this juncture lacks a lethal-injection protocol
that is valid under state law. . . . [T]he Court has
continued to defer to the parties’ repeated joint requests
not to proceed with this litigation until an operative
protocol is in place. When the Court resumes its review
of the protocol, it intends to do so deliberately and
expeditiously while complying with the instruction

24
25
26
27
28

of the Court of Appeals to ‘take the time necessary to do
so.’
Morales v. Cate, No. CV 06-219, 2012 WL 5878383, at *3 (N.D. Cal. Nov. 21,
139
Petitioner's App. 7 - 223

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 140 of 146 Page ID #:3643

1
2

2012) (quoting Morales, 623 F.3d at 829; internal citation omitted).
In light of the ongoing Morales litigation and Petitioner’s indication that he

3

raises the claims “to preserve his right to review” (Pet. at 213), Claim 17(C) is

4

DISMISSED WITHOUT PREJUDICE.

5

D.

Narrowing Process and Prosecutorial Discretion

6

In Claim 17(D), Petitioner alleges that “the penalty of death and execution in

7

California is arbitrarily and capriciously imposed depending upon the county in

8

which the defendant is charged, and the relevant statutes fail to sufficiently narrow

9

the class of offenders who are eligible for the death penalty.” (Pet. at 214.)

10

Similarly, in Claim 17(E), Petitioner contends that California’s death penalty

11

statute “violates the Eighth Amendment because it does not distinguish death-

12

eligible and non-death-eligible first-degree murders in a meaningful and non-

13

arbitrary way.” (Id. at 219.)

14

Petitioner’s claims lack support in clearly established federal law. Cf.

15

Bradway v. Cate, 588 F.3d 990, 992 (9th Cir. 2009) (rejecting petitioner’s due

16

process challenge to special circumstance and observing that “[Petitioner] has

17

offered, and we have found, no decision of the Supreme Court holding that a

18

distinction in intent (or, indeed, any other distinction) fails to adequately narrow

19

the class of first-degree murderers to those properly eligible for a sentence” of

20

death or life without parole under California Penal Code § 190.2). In addition, the

21

Supreme Court has rejected the argument that a capital punishment statute is

22

unconstitutional simply because it “vests unbridled discretion in the prosecutor to

23

decide when to seek the death penalty.” Campbell v. Kincheloe, 829 F.2d 1453,

24

1465 (9th Cir. 1987) (citing Gregg, 428 U.S. at 199; Proffitt v. Florida, 428 U.S.

25

242, 254 (1976); Jurek v. Texas, 428 U.S. 262, 274 (1976)).

26

Claims 17(D) and (E) are, therefore, DENIED.

27

E.

28

In Claim 17(F), Petitioner contends that California’s sentencing factors are

Sentencing Factors

140
Petitioner's App. 7 - 224

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 141 of 146 Page ID #:3644

1

unconstitutional. First, Petitioner alleges that the sentencing factor provided in

2

California Penal Code § 190.3(a) “deprives the sentencer of the opportunity to give

3

full effect to the defendant’s mitigating evidence and make the appropriate

4

reasoned moral response.” (Pet. at 221 (internal quotation omitted).) As the

5

United States Supreme court held in Tuilaepa, however:

6
7
8
9
10
11
12
13
14
15

Petitioners’ challenge to factor (a) is at some odds with
settled principles, for our capital jurisprudence has
established that the sentencer should consider the
circumstances of the crime in deciding whether to impose
the death penalty. We would be hard pressed to
invalidate a jury instruction that implements what we
have said the law requires. In any event, this California
factor instructs the jury to consider a relevant subject
matter and does so in understandable terms. The
circumstances of the crime are a traditional subject for
consideration by the sentencer, and an instruction to
consider the circumstances is neither vague nor otherwise
improper under our Eighth Amendment jurisprudence.

16

512 U.S. at 976 (internal citation omitted). Petitioner’s contention, therefore, lacks

17

support in clearly established federal law.

18
19
20
21
22
23
24
25
26

Second, Petitioner argues:
The word ‘extreme’ was not deleted from factor (d),
‘extreme mental and emotional disturbance,’ in the
instructions. . . . Cases holding that the word ‘extreme’
need not be deleted from factor (d), see, e.g., Blystone v.
Pennsylvania, 494 U.S. [299,] 308 [1990]; Hendricks v.
Vasquez, 974 F.2d 1099, 1109 ([9]th Cir. 1992) . . . , are
based on the assumption that a jury will understand that
despite the reference to ‘extreme’ in factor (d), mental or
emotional disturbance of a lesser degree may be
considered under factor (k).

27

(Pet. at 221.) Petitioner further argues that “factor (k) may be given only

28

mitigating weight and may not be used in aggravation; however, by its terms factor
141
Petitioner's App. 7 - 225

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 142 of 146 Page ID #:3645

1

(k) is unlimited. An aggravating factor of such breadth [is] invalid . . . .” (Id. at

2

222.)

3

The instruction on the § 190.3(k) sentencing factor directed the jury to

4

consider “any other circumstance which extenuates the gravity of the crime even

5

though it is not a legal excuse for the crime . . . .” (52 RT 6118.) The factor (k)

6

instruction is not “by its terms . . . unlimited;” it is limited to “circumstances [that]

7

extenuate.” (Pet. at 222; 52 RT 6118 (emphasis added).) The Supreme Court held

8

in Belmontes that in a factor (k) instruction, “[t]he jury [is] directed to consider any

9

other circumstance that might excuse a crime. . . . And . . . precrime background . .

10

. may extenuat[e] the gravity of the crime . . . .” 549 U.S. at 15 (emphasis in

11

original; internal quotation omitted). The Supreme Court has expressly rejected

12

the argument that a jury instruction allowing the jury to consider whether

13

defendant was affected by an “extreme” mental or emotional disturbance or duress

14

“preclude[s] the jury’s consideration of lesser degrees of disturbance, impairment,

15

or duress” under a broader mitigating evidence instruction. Blystone, 494 U.S. at

16

308; see also Hendricks, 974 F.2d at 1109.

17
18

Because Petitioner’s arguments lack support in clearly established federal
law, Claim 17(F) is DENIED.

19

F.

Inter-Case and Intra-Case Proportionality Review

20

In Claim 17(H), Petitioner alleges that the judgment in this case is

21

constitutionally defective because “[n]o meaningful inter-case or intra-case

22

proportionality review was conducted in this case at the time of trial, and none is

23

required on appeal under the California death penalty statute.” (Pet. at 225.)

24

//

25

Petitioner argues:

26
27
28

First, because such review was afforded to non-capital
inmates, the lack of it in this case violates Mr. Carter’s
Fourteenth Amendment right to equal protection.
Second, the lack of proportionality review violates the
142
Petitioner's App. 7 - 226

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 143 of 146 Page ID #:3646

1

requirement that all potential mitigating factors be
considered by the sentencer, deprives the death-sentenced
defendant of meaningful appellate review, and results in
an unreliable, arbitrary, and capricious application of the
death penalty.

2
3
4
5
6

(Id. at 225-26 (internal citation omitted).)
Petitioner’s claim lacks support in clearly established federal law. The Ninth

7

Circuit has found “no merit” in the claim, raised by a petitioner sentenced to death

8

under the 1978 California death penalty statute (as Carter was), that the lack of

9

inter-case proportionality review violates equal protection requirements. See Allen

10

v. Woodford, 395 F.3d 979, 1018 (9th Cir. 2005) (“[Petitioner’s] due process

11

argument is foreclosed by the Supreme Court’s holding in Harris, 465 U.S. at

12

43-46, that neither the Eighth Amendment nor due process requires comparative

13

proportionality review in imposing the death penalty” (internal citation edited)).

14

Petitioner points to no other defendants to whom he should be compared for intra-

15

case review, and no clearly established federal law supports a right to such review.

16

As to Petitioner’s second argument, the United States Supreme Court in Harris

17

held that a capital sentencing system need not incorporate proportionality review to

18

consider mitigating circumstances, provide meaningful appellate review, and apply

19

the death penalty in a nonarbitrary manner. See Harris, 465 U.S. at 879-81.

20

Claim 17(H) is DENIED.

21

G.

22

In Claims 17(I) and (J), Petitioner alleges constitutional violations: (1)

Jury Determinations

23

“because the jury was not asked to determine, unanimously and beyond a

24

reasonable doubt, the existence of at least one aggravating factor and whether the

25

aggravating factors outweighed the mitigating factors,” relying on Apprendi v.

26

New Jersey, 530 U.S. 466, 490 (2000) and Ring v. Arizona, 536 U.S. 584 (2002)

27

(Pet. at 226, 229-30); and (2) “because his jury was not asked to determine,

28

unanimously and beyond a reasonable doubt, whether each of the unadjudicated
143
Petitioner's App. 7 - 227

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 144 of 146 Page ID #:3647

1

acts introduced in aggravation was proven,” with instructions on the elements of

2

the offenses, relying on Ring. (Pet. at 227.)

3

In Apprendi, the Supreme Court held that “[i]f a State makes an increase in a

4

defendant’s authorized punishment contingent on the finding of a fact, that fact –

5

no matter how the State labels it – must be found by a jury beyond a reasonable

6

doubt.” Ring, 536 U.S. at 602 (discussing Apprendi). The Court applied Apprendi

7

in Ring to hold that a state cannot “allow[] a sentencing judge, sitting without a

8

jury, to find an aggravating circumstance necessary for imposition of the death

9

penalty. Because Arizona’s enumerated aggravating factors operate as ‘the

10

functional equivalent of an element of a greater offense,’ the Sixth Amendment

11

requires that they be found by a jury.” Ring, 536 U.S. at 609 (quoting Apprendi,

12

530 U.S. at 494 n.19; internal citation omitted). The Court distinguished

13

California’s death penalty statute from Arizona’s, observing that California

14

commits sentencing decisions to juries, while Arizona was one of only four states

15

to “commit both capital sentencing factfinding and the ultimate sentencing decision

16

entirely to judges.” Id. at 608 n.6.

17

In California, it is “[s]pecial circumstances that make a criminal defendant

18

eligible for the death penalty [and] operate as ‘the functional equivalent of an

19

element of a greater offense.’” Webster v. Woodford, 369 F.3d 1062, 1068 (2004)

20

(quoting Ring, 536 U.S. at 609). Once the jury has found a special circumstance to

21

be true, unanimously and beyond a reasonable doubt, death is an authorized

22

punishment. The jury is authorized to consider at the penalty phase evidence

23

offered at the guilt phase in proof of the offense or special circumstances along

24

//

25

with the circumstances of the crime. See Cal. Penal Code § 190.3. The jury need

26

not make any additional findings of fact to return a sentence of death.

27
28

The California Supreme Court was not, therefore, objectively unreasonable
in holding that Petitioner has shown no violation of Apprendi or Ring in
144
Petitioner's App. 7 - 228

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 145 of 146 Page ID #:3648

1

California’s capital sentencing structure. Cf. United States v. Mitchell, 502 F.3d

2

931 (9th Cir. 2007) (finding no violation of Apprendi in Federal Death Penalty Act,

3

which required a jury to find beyond a reasonable doubt a death-eligibility

4

aggravating factor and then to weigh aggravating and mitigating factors to

5

determine whether a sentence of death is justified). Claims 17(I) and (J) are

6

DENIED.

7

H.

8

In Claim 17(K), Petitioner contends that:

9

[t]he court’s instructions failed to apprise the jurors that
factors (d), (e), (f), (g), (h), (i), (j), and (k) of the
California Penal Code were mitigating only and could
not be considered as aggravating factors. . . . [T]he
instruction the court gave suggested that, if the jury
found that a factor did not apply, this was relevant to the
juror’s penalty determination. . . . The court never
instructed that the absence of mitigation was not
aggravation.

10
11
12
13
14
15
16

Guidance to Jury in Penalty Phase Instructions

(Pet. at 231-32.)
The record belies Petitioner’s allegation. As noted above, the trial court

17
18

instructed the jury, “Regarding the factors you may consider in mitigation, if there

19

is no evidence offered to support a particular factor, you may not give such a factor

20

any consideration at all. The absence of any mitigating factor may not be

21

considered as an aggravating factor.” (52 RT 6118.) Moreover, as the Court held

22

above, the California Supreme Court’s determination that no further definition of

23

“mitigating” circumstances and “aggravating” circumstances was constitutionally

24

//

25

required is not contrary to or an unreasonable application of clearly established

26

federal law. (See supra pp. 69-71.)

27

Claim 17(K) is DENIED.

28

I.

California Penal Code § 190.2(a)(15)
145
Petitioner's App. 7 - 229

Case 2:06-cv-04532-RGK Document 79 Filed 03/01/13 Page 146 of 146 Page ID #:3649

1

In Claim 17(L), Petitioner alleges that California Penal Code § 190.2(a)(15),

2

providing a special circumstance for lying in wait, is unconstitutionally broad and

3

fails to perform the required narrowing function. (Pet. at 234.)

4

No lying in wait special circumstance finding was made in Petitioner’s case.

5

Moreover, the Ninth Circuit has held that “California’s lying in wait special

6

circumstance instruction as interpreted by the California Supreme Court does

7

sufficiently narrow the class of first degree murders to satisfy the Eighth

8

Amendment.” Edwards v. Ayers, 542 F.3d 759, 767 (9th Cir. 2008) (citing

9

Morales, 388 F.3d at 1173-78).

10

Claim 17(L) is, therefore, DENIED.

11
12

ORDER
For the reasons set forth above, Petitioner is not entitled to federal habeas

13

relief. The Court hereby denies the First Amended Petition for Writ of Habeas

14

Corpus with prejudice. Claim 16 as to Petitioner’s competence to be executed and

15

Claim 17(C) are dismissed without prejudice.

16

IT IS SO ORDERED.

17

Dated: March 1, 2013.

18

R. GARY KLAUSNER
United States District Judge

19
20
21
22
23
24
25
26
27
28
146

Petitioner's App. 7 - 230

DEAN CARTER (SD) - STATE EXHAUSTION PETITION

(I@ LexisNexis@
"

2 of 21 DOCUMENTS

0
Analysis
As of: Dec 02, 2011

DEAN PHILLIP CARTER ON H.C.

S153780
SUPREME COURT OF CALIFORNIA
2010 Cal. LEXIS 6153

June 17, 2010, Filed
PRIOR HISTORY: Carter (Dean Phillip) on H.C.,
2009 Cal. LEXIS 3108 (Cal., Feb. 23, 2009)
OPINION
[• l]

Petition for writ of habeas corpus denied (AA).
The petition for a writ of habeas corpus, filed June
22, 2007, is denied as follows.
All claims, except claims 5 and 16 (subclaim C), are
denied on the merits.
All claims are denied as untimely with the exception
of claims I (subclaim D (with respect to Jurors Cigainero
and Ridge)), 2 (subclaims C (with respect to the allegations concerning Fetal Alcohol Syndrome) and D (with
respect to allegations concerning Tulio's alibi)), 3 (subclaims B, C, D, and E (insofar as they relate to allegations concerning child abuse and Fetal Alcohol Syndrome)), 5, 8 (insofar as it relates to allegations concerning Fetal Alcohol Syndrome), 13, 16, and 17. (In re Robbins (1998) 18 Cal.4th 770, 799,fn. 21 [77 Cal. Rptr. 2d
153, 959 P.2d 311]; In re Clark (1993) 5 Cal.4th 750,
782-787 [21 Cal. Rptr. 2d 509, 855 P.2d 729].)
Except insofar as they allege ineffective assistance
of counsel, claims I (subclaims A and B), 6 (subclaims
C. 1-C.3, and D), 9, IO (subclaims A-H), 11, 12 (subclaims B-C), 14, and 15 are denied on the ground that
these claims were raised and rejected on appeal. (In re
Harris (1993) 5 Cal.4th 813, 829-841 [21 Cal. Rptr. 2d

373, 855 P.2d 391]; In re Waltreus (1965) 62 Cal.2d
218,225 [42 Cal. Rptr. 9,397 P.2d 1001}.)
Except insofar as they allege evidence of child abuse
and Fetal Alcohol [•2] Syndrome, claims 2 (subclaims
B, C, E, F, and G), 3 (subclaims B, C, D, E, and F), 4, 6
(subclaims B, C. l, C.2, C.3, and D), 7 (subclaims B and
C), 8, 9, 10 (subclaim F), 14 (insofar as it alleges the trial
court should have instructed the jury not to consider the
other crimes against Kim, Knoll, Mills, Guthrie, and
Jennifer S. as evidence during the penalty phase), and 15
(insofar as it alleges petitioner was denied a full hearing
on his motion to suppress) are denied on the ground that
these claims were raised and rejected in petitioner's prior
petition for writ of habeas corpus (S096874 ). (In re
Clark, supra, 5 Cal.4th at p. 767; In re Miller (1941) 17
Cal.2d 734, 735, ll2 P.2d 10.)
Except insofar as they allege evidence of child abuse
and Fetal Alcohol Syndrome or that prior postconviction
counsel was ineffective for failing to raise them, claims I
(subclaims A, B, C, and D (insofar as it alleges Juror
McAlpine improperly met with the other jurors after his
dismissal)), 2 (subclaim D (insofar as it relates to third
party culpability concerning the murder of Tok Kim), l 0
(subclaims A, B, C, D, E, G, and H), 11, 12 (subclaims B
and C), 14 (insofar as it alleges that several standard guilt
phase [•3] instructions were erroneous), and 15 (insofar
as it alleges that trial counsel provided ineffective assistance) are denied on the ground that they are successive,
as they could have been raised in petitioner's prior petition for writ of habeas corpus (S096874) but were not.

Petitioner's App. 8 - 231

Page 2
2010 Cal. LEXIS 6153,"'

(In re Robbins, supra, 18 Cal.4th at p. 788, fa. 9; In re
Clark, supra, 5 Cal.4th at pp. 767-768; In re Horowitz
(1949) 33 Cal.2d 534, 546-547 [203 P.2d 513].)
Except insofar as they allege evidence of child abuse
and Fetal Alcohol Syndrome or ineffective assistance of
counsel, claims I (subclaim D (insofar as it alleges Juror
McAJpine improperly met with the other jurors after his
dismissal)), 6 (subclaim B), 7 (subclaim B), and 8 are
denied on the ground that they could have been raised on
appeal but were not. (In re Harris, supra, 5 Cal.4th at
pp. 825 & fn. 3, 826-829; In re Dixon (1953) 41 Cal.2d
756, 759 [264 P.2d 513].)

is set. (People v. Abilez (2007} 41 Cal.4th 472, 536 [61
Cal. Rptr. 3d 526, 161 P.3d 58]; People v. Lawley (2002)
27 Cal.4th 102, 169,fn. 25 [JJ5 Cal. Rptr. 2d 614, 38
P.3d 461].)
To the extent claim 12 (subclaims B and C) alleges
insufficiency of the evidence, it is not cognizable on habeas ["'4] corpus. (In re Lindley (1947) 29 Cal.2d 709,
723 [177 P.2d 918].)
To the extent claim 15 alleges a violation of the
Fourth Amendment, it is not cognizable on habeas corpus. (In re Sterling (1965) 63 Cal.2d 486, 487 [47 Cal.
Rptr. 205, 407 P.2d 5].)

Claims 5 and 16 (subclaim C) are denied as premature without prejudice to renewal after an execution date

Petitioner's App. 8 - 232

SUPREME COURT

0

Fl LED

JUN 1 7 2010
F-rederlck K, Otilri~h Cieri<

S153790

·•·

· - Deputy-

IN THE SUPREME COURT OF CALIFORNIA
En Banc

In re DEAN PHILLIP CARTER on Habeas Corpus.
(

The petition for a writ of habeas corpus, filed June 22, 2007, is denied as follows.
All claims, except claims 16 and 17 (subclaim C), are denied on the merits.
All claims are denied as untimely with the exception of claims 4, 5 (subclaims D.2
(with respect to the allegations concerning Fetal Alcohol Syndrome) and G (with respect
to allegations concerning Tulio's alibi)), 6 (subclaims B, C, and D (as they relate to
allegations concerning child abuse 'and Fetal Alcohol Syndrome)), 15, 16, and 17. (In re

Robbins (1998) 18 Cal.4th 770, 799, fn. 21; In re Clark(l993) 5 Cal.4th 750, 782-787.)
Except insofar as they, allege ineffective assistance of counsel, claims 3, 9
(subclaims A and B), 10 (subclaims Band C), 11 (subclaim B), 12 (subclaims A, C-K),
13, and 14 (subclaims A-D) are denied on the ground that these claims were raised and
rejected on appeal. (In re Harris (1993) 5 Cal.4th 813, 829-841; In re Waltreus (1965)
62 Cal.2d 218,_ 225.)
Except insofar as they allege evidence of child abuse and Fetal Alcohol Syndrome,
claims 1 (subclaims A and B), 2, 3, 5 (subclaims C, D.1-D.3, E, F, and H), 6 (subclaims
B-E), 7, 11 (subclaims Band C), and 12 (subclaims E and I) are denied on the ground
that these claims were raised and rejected in petitioner's prior petition for writ of habeas
corpus (S090230). (In re Clark, supra, 5 Cal.4th at p. 767; In re Miller (1941) 17 Cal.2d
734, 735.)
,,

.

.::

Except
insofar
as they allege-,,evidence
of
child••--abuse
and Fetal Alcohol Syndrome
.. '
-----·. ·• ..... ---·· '
,;_-----·":-·-----;·•!;--~·-·-·~·-···· ~---~----· --,...
or ineffective assistance of counsel, claims 5 (subclaims B and G (insofar as it relates to
third party culpability concerning the murder of Tok Kim)), 8, 9 (subclaims A and B), 10
(subclaims Band C), 12 (subclaims B-D, F-H, J, and K), 13, and 14 (subclaims A-D)

Petitioner's App. 9 - 233

=

0

D

are denied on the ground that they are successive, as they could have been raised in
petitioner's prior petition for writ of habeas corpus (S090230) but were not. (In re
Robbins, supra, 18 Cal.4th at p. 788, fn. 9; In re Clark, supra, 5 Cal.4th at pp. 767-768;
In re Horowitz (1949) 33 Cal.2d 534, 546-547.)

Claim 8 is denied on the ground that it was forfeited by petitioner's failure to raise it
- ---r-n-the-triaJ-coutt:--(1n-fif-Secfton (200"4r3"4 Cal.4th-r93,-T97-2017

-----

-- ·

'

·- - -

Claim 12 (subclaim B) is further denied_ on the ground that it could have been raised
on appeal but was not. (In re Harris, supra, 5 Cal.4th at pp. 825 & fn. 3, ,826-829; In re
Dixon (1953) 41 Cal.2d 756, 759.)

Claims 16 and 17 (subclaim C) are denied as premature without prejudice to
renewal _after an execution date is set. · (People v. Abilez (2007) 41 Cal.4th 472, 536;
People v. Lawley (2002) 27 Cal.4th 102, 169, fn. 25.)

To the extert claim 13 alleges insufficiency of the evidence, it _is not cognizable on
habeas corpus. (In re Lindley (1947) 29 Cal.2d 709, 723.)
Justice Werdegar would not apply the bar of In re Seaton, supra, 34 Cal.4th at pp.
197-200, to claim 8.

GEORGE
ChiefJustice

Petitioner's App. 9 - 234

·CAPITAL CASE·
Date Piled:
SAN

~,,-r,r,

SUPREME COURT

')(V"!<.'f!TING

FILED

JUi~ 3 C 2~J~

JUN

N S'O~CO)(f:1000$'
o. BY NOEMI ABVNDEZ

2 8 200~

!=rederick K. Ohlrich Clerk
=-=rn -

S090230

-c ,..

0EPt;:jTT

IN THE SUPREME COURT OF CALIFORNIA
En Banc
In re DEAN PHILLIP CARTER on Habeas Corpus

The petition for a writ of habeas corpus, :filed July 24, 2000, is derued as follows.

Claim I is derued on the medts.
·
Claim II is denied on the merits. To the extent this claim reasserts issues raised
and rejected on appeal, it is procedurally barred under In re Waltreus (1965) 62 Cal.2d
218, 225. To the extent the claim is based upon the record and was not raised on appeal,
it could and should have been raised on appeal and hence is. barred under In re Dixon
(1953) 41 Cal.2d 756, 759.
Claims III and IV are denied on the merits.
Claims V and VI are denied on the merits. To the extent these claims reassert·
issues rai,sed and rejected on appeal, they are procedurally barred under In re Waltreus,
supra, 62 Cal.2d 218,225. To the extent these claims are based upon the record and
were not raised on appeal, they could and should have been raised on appeal and hence
are barred under In re Dixon, supra, 41 Cal.2d 756, 759.

Claims VII, Vill, IX, X, XI, and XII are.denied on the merits.

"'GEORGEChief Justice

Petitioner's App. 10 - 235

DEAN CARTER

(SD)

-

INITIAL STATE HABEAS PETITION

-® LexisNexis®
8 of21 DOCUMENTS

0

Analysis
As of: Dec 02, 2011

In re DEAN PHILLIP CARTER on Habeas Corpus
S096874
SUPREME COURT OF CALIFORNIA
2006 Cal. LEXIS 11312

September 13, 2006, Filed
SUBSEQUENT HISTORY: Habeas corpus proceeding
at Carter (Dean Phillip) on HC., 2007 Cal. LEXIS 8706
(Cal., July 31, 2007)
PRIOR HISTORY: Carter (Dean P.) on HC., 2006
Cal. LEXIS 8130 (Cal., June 28, 2006)
OPINION
[*l] The order filed on June 28, 2006 is hereby
amended to read in its entirety.
The petition for a writ of habeas corpus, filed April
16, 2001, is denied, as follows.
Claim I is denied on the merits. To the extent this
claim reasserts issues raised and rejected on appeal, it is
procedurally barred under In re Waltreus (1965) 62
Cal.2d 218, 225 [42 Cal. Rptr. 9, 397 P.2d 1001]. To the
extent the claim is based upon the record and was not
raised on appeal, it could and should have been raised on
appeal and hence is barred under In re Dixon (1953) 41
Cal.2d 756, 759 [264 P.2d 513].
Claims II and III are denied on the merits.
Claims IV is denied on the merits. To the extent this
claim reasserts issues raised and rejected on appeal, it is
procedurally barred under In re Waltreus, supra, 62
Cal.2d 218, 225.
Claim V is denied on the merits. To the extent this
claim reasserts issues raised and rejected on appeal, it is
procedurally barred under In ~e Waltreus, supra, 62

Cal.2d 218, 225. To the extent this claim is based upon
the record and was not raised on appeal, it could and
should have been raised on appeal and hence is barred
under In re Dixon, supra, 41 Cal.2d 756, 759. [*2]
Claim VI is denied on the merits. To the extent this
claim reasserts issues raised and rejected on appeal, it is
procedurally barred under In re Waltreus, supra, 62
Cal.2d 218, 225. To the extent this claim is based upon
the record and was not raised on appeal, it could and
should have been raised on appeal and hence is barred
under In re Dixon, supra, 41 Cal. 2d 75 6, 75 9. To the
extent this claim asserts a violation of petitioner's rights
under the Fourth Amendment, it is not cognizable ori
habeas corpus. (In re Harris (1993) 5 Cal.4th 813, 830
[21 Cal. Rptr. 2d 373, 855 P.2d 391]; see also In re
Clark (1993) 5 Cal.4th 750, 767 [21 Cal. Rptr. 2d 509,
855 P.2d 729] (Clark); In re Sterling '(1965) 63 Cal.2d
486, 487-488 [47 Cal. Rptr. 205, 407 P.2d 5]; In re Lessard (1965) 62 Cal.2d 497, 503 [42 Cal. Rptr. 583, 399
P.2d 39}.)
Claim VII is denied on the merits. To the extent this
claim reasserts issues raised and rejected on appeal, it is
procedurally barred under In re Waltreus, supra, 62
Cal.2d 218, 225. To the extent this claim asserts a violation of petitioner's rights under the Fourth Amendment, it
is not cognizable on habeas corpus. (In re Harris, supra,
5 Cal.4th at p. 830; see also [*3] Clark, supra, 5
Cal.4th at p. 767; Sterling, supra, 63 Cal.2d at pp.
487-488; Lessard, supra, 62 Cal.2d at p. 503.)

Petitioner's App. 11 - 236

Page 2
2006 Cal. LEXIS 11312, •

Claim VIII is denied on the merits. To the extent this
claim reasserts issues raised and rejected on appeal, it is
procedurally barred under In re Waltreus, supra, 62
Cal.2d 218, 225. To the extent this claim is based upon
the record and was not raised on appeal, it could and

should have been raised on appeal and hence is barred
under In re Dixon, supra, 41 Cal.2d 756, 759.
Claims IX, X, XI, XII, and XIII are denied on the
merits.

..·'

-

Petitioner's App. 11 - 237

SUPREME COURi

FILED

OCT 2 6 2005

Frederick K. Ohlrich Clerk

S014021

'

IN THE SUPREME COURT OF CALIFORNIA
En Banc
THE PEOPLE, Respondent,
V.

DEAN PHILLIP CARTER, Appellant.

Petition for rehearing DENIED.

GEORGE
Chief Justice

Petitioner's App. 12 - 238

IJG.PVTY

No. S014021

11' THE SUPREME COURT OF CALIFORNIA
REMITTITUR
TO THE SUPERIOR COURT OF CALIFORNIA
COUNTY OF LOS ANGELES - Main (County Courthouse)

THE PEOPLE,

Superior Court No. A089330

Respondent,
V.

DEAN PHILLIP CARTER,
Appellant.

I, FREDERICK K. OHLRICH, Clerk of the Supreme Court of the State of
California, c.o hereby certify that the attached is a true copy of an original judgment
entered in the above-entitled cause on August 15, 2005.

WITNESS MY HAND AflD OFFICIAL
SEAL OF THE COURT, October 26, 2005

FREDERICK K. OHLRJCH, Clerk

By

MARSHA A.. $MITH

DEPUTY

Petitioner's App. 12 - 239

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 60 of 96
(482 of 2466)

·Lexis Nexis·
People v. Carter
Supreme Court of California
August 15, 2005, Filed
S023000
Reporter
36 Cal. 4th 1215; 117 P.3d 544; 32 Cal. Rptr. 3d 838; 2005 Cal. LEXIS 8910; 2005 Cal. Daily Op. Service 7222; 2005 Daily Journal
DAR 9833

THE PEOPLE, Plaintiff and Respondent, v. DEAN PHILLIP
CARTER, Defendant and Appellant.
Subsequent History: Companion case at People v. Carter,
36 Cal. 4th 1114, 32 Cal. Rptr. 3d 759, 117 P.3d 476, 2005
Cal. LEXIS 8908 (2005)
Modified by People v. Carter, 2005 Cal. LEXIS 11890 (Cal.,
Oct. 26, 2005)
Modified and rehearing denied by People v. Carter (Dean
Phillip), 2005 Cal. LEXIS 12016 (Cal., Oct. 26, 2005)
Later proceeding at People v. Dean Phillip Carter, 2005
Cal. LEXIS 12564 (Cal., Nov. 3, 2005)
US Supreme Court certiorari denied by Carter v. California,
547 U.S. 1043, 126 S. Ct. 1625, 164 L. Ed. 2d 340, 2006
U.S. LEXIS 2569 (2006)
Writ of habeas corpus denied Carter (Dean P.) on H.C.,
2006 Cal. LEXIS 8130 (Cal., June 28, 2006)
Habeas corpus proceeding at Carter v. Ayers, 2006 U.S.
Dist. LEXIS 90861 (S.D. Cal., Dec. 13, 2006)
Application granted by People v. Carter (Dean Phillip),
2007 Cal. LEXIS 10734 (Cal., Sept. 25, 2007)
Writ of habeas corpus denied Carter (Dean Phillip) on
H.C., 2010 Cal. LEXIS 6158 (Cal., June 17, 2010)
Motion granted by, Request denied by People v. Carter
(Dean Phillip), 2010 Cal. LEXIS 6225 (Cal., June 17, 2010)
Prior History: Superior Court of San Diego County, No.
90280, Melinda J. Lasater, Judge.
Counsel: Phillip H. Cherney, under appointment by the
Supreme Court, for Defendant and Appellant.
Bill Lockyer, Attorney General, David P. Druliner, Chief
Assistant Attorney General, Gary W. Schons, Assistant
Attorney General, Carl H. Horst and Jeffrey J. Koch,
Deputy Attorneys General, for Plaintiff and Respondent.
Judges: George, C. J., with Kennard, Baxter, Werdegar,
Chin, and Moreno, JJ, concurring. Concurring opinion by
Kennard, J.
1

Opinion by: George

Opinion
[**549] [***845] GEORGE, C. J.—Following the guilt
phase of the trial, a San Diego County jury found defendant
Dean Phillip Carter guilty of the murder of Janette Cullins.
(Pen. Code, § 187, subd. (a).) 1 The jury also found
defendant guilty of the burglary of Cullins’s inhabited
residence (§§ 459, 460) and the robbery of Cullins (§§ 211,
213.5), finding that during the course of the burglary and the
robbery, defendant personally inflicted great bodily injury
(§ 12022.7). The jury found true the [**550] special
circumstances that the murder was committed while lying in
wait, in the course of a robbery, and in the course of a
burglary, and that defendant previously had been convicted
of the murders of Susan Knoll, Jillette Mills, and Bonnie
Guthrie. (§ 190.2, former subd. (a)(2), (15), (17)(i), (vii), as
amended by Prop. 115, § 10, as approved by voters, Primary
Elec. (June 5, 1990).)
[*1221] The jury further found defendant guilty of forcible

rape (§ 261) and forcible oral copulation (§ 288, subd. (c))
arising out of his attack on Barbara S. on March 25, 1984
(approximately 18 days prior to the murder of Janette
Cullins). The jury found defendant guilty of burglary of an
inhabited residence (§§ 459, 460) and robbery (§§ 211,
213.5) in connection with the attack on Barbara S. As to
each of the crimes committed against Barbara S., the jury
found that defendant had used a deadly weapon, a knife. (§§
12022, subd. (b), 12022.3, subd. (a).)
At the conclusion of the penalty phase, the jury returned a
verdict of death. The court sentenced defendant to death for
the murder of Janette Cullins, in addition to imposing a
consecutive sentence of 21 years 8 months for the crimes

All further statutory references are to the Penal Code unless otherwise indicated.

Petitioner's App. 13 - 240

ER 325

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 61 of 96
(483 of 2466)
Page 2 of 36

36 Cal. 4th 1215, *1221; 117 P.3d 544, **550; 32 Cal. Rptr. 3d 838, ***846
committed against Barbara S. This appeal is automatic.
(Cal. Const., art. VI, § 11; § 1239, subd. (b).) 2
We set aside the special circumstance of lying in wait, but
otherwise affirm the judgment in its entirety as to both guilt
and penalty.
FACTS
I. GUILT PHASE EVIDENCE
A. The Prosecution’s Case
1. Overview
The prosecution’s theory of the case was that defendant,
spurned by a number of women who had rejected his
clumsy, unwanted advances, embarked upon a crime
[***846] spree that spanned approximately three weeks in
the early spring of 1984, and consisted of sexually assaulting,
robbing, and fatally strangling various women whom he
previously had befriended.
On March 24, 1984, defendant, who was then 28 years of
age, telephoned an acquaintance of approximately one
month, Cathleen Tiner, who declined his invitation to “run
off to Mexico and get married.” That evening, he telephoned
another acquaintance, Polly Haisha, then 18 years of age,
informing her that he would be arriving in San Diego the
next day. Haisha, who had declined defendant’s invitation to
“quit school and come sail to France,” and had cancelled
several dates with defendant, asked him never to call her
again. [*1222] Like Tiner and Haisha, Janette Cullins in the
weeks leading up to her death also had spurned defendant’s
advances.
On March 25, 1984, Susan Loyland, with whom defendant
had maintained a sexual relationship, traveled to Mexico
without defendant, notwithstanding the circumstance that
she previously had made plans to travel with him that day.
In the evening, defendant broke into Loyland’s San Diego
residence, raped at knifepoint Barbara S., Loyland’s
housemate, and also stole money from Loyland’s tip cache.
Loyland never heard from defendant again.
On March 27, 1984, defendant, having befriended Jennifer
S. in the preceding few days, raped her at knifepoint in her
Ventura County apartment. He strangled her to the point at
which she lost consciousness, and stole her tip money.
Defendant thereafter traveled north to the San Francisco
Bay Area, and on April 1, 1984, encountered Tok Kim at a

bar located in Lafayette. They commenced a relationship
over the next several days, during which period several
witnesses observed them together. Kim’s decomposed body
was discovered on April 13, 1984. Although the cause of her
death could not be determined, strangulation could not be
excluded as the cause. Kim’s vehicle and various personal
items were missing.
[**551] Kim’s vehicle was discovered several hundred
miles away in Los Angeles County, parked in front of the
Culver City apartment in which the bodies of Susan Knoll
and Jillette Mills were found stacked in a closed bedroom
closet on April 12, 1984. Mills had been sexually assaulted,
and each victim had died from asphyxia caused by
strangulation. Knoll’s vehicle was discovered one block
from the apartment. Mills’s distinctive Datsun 280 ZX
automobile, as well as personal items belonging to both
victims, were missing.

On April 12, 1984, the body of Bonnie Guthrie was
discovered on the bedroom floor of her Culver City
apartment. She had been sexually assaulted and died from
asphyxia caused by strangulation. Personal items were
missing from her apartment. Later that same day, defendant
made an unexpected visit to Cathleen Tiner at her residence
in San Diego; Tiner and Janette Cullins had met defendant
at a San Diego bar in February 1984. Tiner told defendant
she was expecting her date for the evening momentarily and
could not see him. Defendant departed.
On April 14, 1984, the body of Janette Cullins was found
lying in the closed bedroom closet of her San Diego
apartment. The cause of her death was asphyxia caused by
strangulation. Near the front door, the presence of [*1223]
wood chips on the floor indicated that someone had broken
into her apartment. Cullins had died approximately one to
two days earlier. A neighbor had observed that the preceding
evening, Jillette Mills’s vehicle had been parked in front of
Cullins’s residence and had departed suddenly and loudly.
Cullins’s vehicle subsequently was discovered several blocks
away. A videocamera at a [***847] bank automated teller
machine on April 13 recorded a man resembling defendant
retrieving money from Cullins’s bank account.
On April 17, 1984, an Arizona highway patrol officer
observed Mills’s vehicle traveling erratically near Ashfork,
Arizona. The officer effected a traffic stop and arrested
defendant. Inside the vehicle, investigators recovered
numerous personal items linking defendant to each one of
the deceased women.

2

As explained more fully in People v. Carter (2005) 36 Cal.4th 1114, 1135 [32 Cal.Rptr.3d 759, 117 P.3d 476], footnote 5, the
Ventura County Superior Court sentenced defendant to a sentence of 56 years for crimes he committed against Jennifer S.

Petitioner's App. 13 - 241

ER 326

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 62 of 96
(484 of 2466)
Page 3 of 36

36 Cal. 4th 1215, *1223; 117 P.3d 544, **551; 32 Cal. Rptr. 3d 838, ***847
In order to explain certain factual differences in the crime
scenes at the various residences where the deceased women
were found, the prosecution theorized that the reason
defendant did not conceal the bodies of Tok Kim or Bonnie
Guthrie was that neither victim had a roommate who might
discover the body. With respect to the killings of Susan
Knoll and Jillette Mills, the prosecution theorized that
defendant first murdered Knoll, placing her body in the
closet, moved her vehicle to make it appear she was not at
home, and then waited until Jillette Mills arrived and
murdered her. The prosecution further theorized when
defendant broke into Janette Cullins’s apartment, murdered
her, concealed her body in the closet, and then moved her
vehicle, defendant similarly may have intended to kill two
women. Cullins’s new roommate, Cheri Phinney, whom
defendant had met earlier that day, was not yet in possession
of an apartment key, however, and did not return to the
apartment that evening.
2. The Rape of Barbara S.
The prosecution presented the testimony of a number of
witnesses to establish that on March 25, 1984, defendant
raped Barbara S. at the residence she shared with Susan
Loyland in the marina area of Bay Park, located in San
Diego. 3
[*1224] [**552] Barbara S. testified that on that date, she
performed yard work at her residence for most of the day,
ate dinner, then fell asleep while watching 60 Minutes on
television in her bedroom. She awakened to find a man
grabbing her and dragging her from her bed. The man held
at her throat a “sturdy knife” with a blade about six inches
in length. The man repeatedly demanded money and held
her while he rummaged through her purse. When he sought
more money, Barbara S. directed him to the dresser, where
she had $ 200. That money was missing after the attack.

The man then pushed Barbara S. to her knees and repeatedly
told her not to look at him. While he still held the knife, the
man forced her to orally copulate him. Barbara S. complied

because she was frightened. She recalled that
notwithstanding her compliance, the man’s penis was
“semi-flaccid” and “nothing to write home about.”
[***848] Shortly thereafter, the man bent Barbara S. over

the bed facedown and raped her; the man never attained a
full erection, and the incident lasted “maybe a very short
time.”
The man then “hog-tied” Barbara S.’s hands and feet behind
her with her pantyhose, and she heard her car keys being
removed from her purse. The man departed, telling Barbara
S. that “you shouldn’t sleep with the TV on.” Thereafter, she
heard “[a] motor sound, and he screeched off.” She partially
freed herself by hobbling to the dishwasher, extracting a
knife with her teeth, and using the knife to cut the ligature
that bound her feet and hands.
Helen McGirr, a neighbor who was a retired registered
nurse, testified that she heard Barbara S.’s cries for help and
directed her husband to contact the police, who arrived at
the scene approximately 10 minutes later. McGirr found
Barbara S. “laying in kind of a curled-up position unclothed
at the front door right in the doorway” and noticed that
Barbara S.’s hands were “dark blue, almost black” from
having been tied up. McGirr was certain Barbara S. was not
under the influence of alcohol.
San Diego Police Department Detective Ken Creese testified
that in his interview with Barbara S. shortly after the attack,
the victim appeared “to be [*1225] upset, shaken, somewhat
traumatized,” and was unable to identify her assailant.
Susan Loyland testified that she rented a room in Barbara
S.’s residence at the time of the attack, and had maintained
a sexual relationship with defendant in the weeks
immediately prior to the attack. Loyland had discussed
traveling with defendant to Rosarito Beach, Mexico, on
March 25, 1984, but left without him that morning when she
was unable to locate him. Loyland suspected defendant

3

Prior to the preliminary hearing in this case, Barbara S. suffered severe strokes, and at the time of trial she was relegated to
setting forth her answers to counsel’s examination by typing them on a typewriter. The court appointed a court intern as a “neutral
interpreter.” As Barbara S. typed responses to the questions posed, the intern read them aloud to the jury. The court admonished the
jury that Barbara S.’s “physical condition was unrelated to the events of March 25[, 1984].”
Outside the presence of the jury, through the proffered testimony of Barbara S.’s tenant and housemate, Susan Loyland, the defense
sought to establish that Barbara S. had been a heavy drinker at the time of the attack. Barbara S. acknowledged having had “two
drinks before and during supper, but was not impaired or drunk.” The defense noted that in her testimony given at the preliminary
hearing, Barbara S. recalled the number of drinks of “scotch and water” she had consumed prior to the attack as “about three,” and
that she had started drinking in the late afternoon. Barbara S. denied suffering from alcoholism in March 1984. The trial court
disallowed the introduction of the proffered evidence relating to her drinking habits.

Petitioner's App. 13 - 242

ER 327

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 63 of 96
(485 of 2466)
Page 4 of 36

36 Cal. 4th 1215, *1225; 117 P.3d 544, **552; 32 Cal. Rptr. 3d 838, ***848
might have been Barbara S.’s assailant, and so informed the
police on the night of the attack. 4
Based upon information supplied by Loyland, police
investigators placed defendant’s photograph in a photo
lineup. Barbara S. was unable to identify the perpetrator
from the lineup, but told one detective that the voice of her
attacker sounded similar to that of defendant’s. She testified
that during the attack, she thought she recognized her
assailant’s voice but could not identify it, and after seeing
news reports of defendant’s arrest several weeks later, “it
came together like a ton of bricks” that the man’s voice was
defendant’s. At trial, Barbara S. identified defendant as the
man who had attacked her.
Following the attack, Barbara S. noticed her kitchen and
bedroom telephone lines had been cut, and that a window
screen in Loyland’s room was “bent out at a 45-degree
angle.” Loyland determined that some tip money was
missing from a concealed location near the window. She
testified: “nobody [**553] would look in the place that I
had it … you’d have to know that the coins were in there.”
Defendant occasionally had accompanied her home after
work, and had seen her conceal her tip money, usually
“between 10 and 20 bucks a night [***849] in coins.”
Loyland never saw or heard from defendant after March 25,
1984.
Barbara S.’s next-door neighbor, Janell Barksdale, testified
that approximately 6:00 p.m. on March 25, she observed a
man whom she did not recognize walk toward Barbara S.’s
residence. The man had dark hair, a moustache, and an olive
complexion, and “was attractive … nice to look at.” Upon
learning of the attack upon Barbara S., Barksdale told
investigators of [*1226] having seen a man in the area that
evening. Three years later, upon seeing a photograph of
defendant in the newspaper, Barksdale contacted
investigators to inform them that she recognized the person
in the newspaper photograph as the man she had observed.
At trial, she identified defendant as the man she saw that
night.
3. The Rape of Jennifer S.
Over defendant’s objection, the prosecution commenced its
case by presenting, under Evidence Code section 1101,

subdivision (b), substantially the same evidence pertaining
to the March 29, 1984 attack on Jennifer S. in Ventura, as is
summarized in People v. Carter, supra, 36 Cal.4th at page
1135.
4. The Death of Tok Kim
The prosecution introduced evidence pertaining to the
Alameda County death of Tok Kim in early April 1984.
With two exceptions, the evidence was substantially similar
to that summarized in People v. Carter, supra, 36 Cal.4th at
pages 1128–1129.
The first exception involved the testimony of Eddis Jeffrey,
who did not testify in defendant’s Los Angles County
murder trial. Jeffrey, an apartment maintenance worker at
the building in which Kim resided, testified that he saw
defendant and Kim arrive at her apartment building on the
afternoon of April 9 and leave shortly thereafter in the same
vehicle. That was the last time Jeffrey saw Kim. Jeffrey
acknowledged that prior to trial, he had identified in a police
photo lineup prior to trial an individual other than defendant
as the person he had seen with Kim.
The second exception involved the testimony of Dr. Byron
Blackbourne, a forensic pathologist employed by the San
Diego County Medical Examiner. Over defendant’s
objection, Dr. Blackbourne stated that after reviewing the
Kim autopsy and crime scene photographs, he believed that
her death possibly could have been caused by asphyxiation
due to ligature strangulation.
5. The Fatal Strangulations of Susan Knoll and Jillette Mills
The prosecution introduced evidence pertaining to the fatal
strangulations on or about April 10–11, 1984, of roommates
Susan Knoll and Jillette Mills in Los Angeles County. The
evidence was substantially similar to that summarized in
People v. Carter, supra, 36 Cal.4th at pages 1130–1131.
[*1227] 6. The Fatal Strangulation of Bonnie Guthrie

The prosecution introduced evidence pertaining to the fatal
strangulation on or about April 11, 1984, of Bonnie Guthrie
in Los Angeles County. The evidence was substantially
similar to that summarized in People v. Carter, supra, 36
Cal.4th at pages 1131–1132. [***850]

4
Loyland worked as a bartender at The Lost Knight Bar, which she described as “a cocktail lounge, kind of a dive,” where she
met defendant. She testified that she had been “pretty high [on alcohol, marijuana, and cocaine] most of the time” she spent with
defendant, had brought him to her bedroom on several occasions in February and March 1984, and recalled that on at least one
occasion, defendant had met the owner of the house, Barbara S. Barbara S. testified to having previously met defendant early one
morning: “I saved him from getting the hell beat out of him by [Loyland’s] regular boyfriend by waking him up.”

Petitioner's App. 13 - 243

ER 328

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 64 of 96
(486 of 2466)
Page 5 of 36

36 Cal. 4th 1215, *1227; 117 P.3d 544, **553; 32 Cal. Rptr. 3d 838, ***850
7. The Fatal Strangulation of Janette Cullins
The prosecution presented evidence, summarized below,
establishing that defendant and Janette Cullins had been
casually acquainted during the several weeks preceding
Cullins’s death on April 12 or 13, 1984, and that defendant
fatally strangled her.
[**554] a. Cullins’s acquaintance with defendant in early

1984
On Saturday evening, February 25, 1984, Janette Cullins
and a friend, Cathleen Tiner, went to Jose Murphy’s, a
Pacific Beach nightclub that was featuring Cullins’s and
Tiner’s favorite band. The band stopped playing at 1:30 a.m.
(February 26), and the women walked across the street to
the Old Pacific Beach Café. They were hungry and knew the
café served breakfast until 3:00 a.m.
Cathleen Tiner testified: “When we got into the restaurant
there was still a real good crowd, so we decided, let’s have
a drink, let’s go over to the bar and see if we can get a drink
before we go over to breakfast. … [¶] [However, t]here was
a very large crowd there. We were getting bumped around a
lot. We could not get to the bar at all. We were far away
from it. … [¶] Mr. Carter came up to us and, at that time, we
didn’t know his name, and … said my friend’s at the bar,
would you like me to order some drinks for you? [¶] We said
yes, and he said what would you like? [¶] We said two
Harvey Wallbangers. [¶] And so he yelled at this friend who
was standing over to the bar, [‘]hey Antoine [whose last
name was Masure], two Harvey Wallbangers.[’] ”
Tiner added: “Very shortly thereafter, [defendant’s] friend
came through the crowd with our drinks and with their
drinks. I offered to pay for the drinks. I kept trying to pay for
them. [¶] [Masure] kept saying no, no, no. [¶] … I kept
insisting on paying for the drinks. He wouldn’t take the
money. … [¶] [Masure] just took our drinks and walked
over to a table and sat them down on a table, and we ended
up sitting down with them. … [¶] We talked briefly. Dean
asked Janette—I heard Dean ask Janette for her phone
number.” Tiner testified that Cullins eventually gave
defendant her [*1228] telephone number, and that defendant
asked the two women whether they had roommates or lived
alone. Tiner gave Masure a card with her own telephone
number on it.

Tiner further testified that defendant and Masure wanted the
women to accompany them “someplace else,” but the men
did not provide a further description. The women declined:
“Well, we said the right way for you to do it would be to call
us and ask us out rather than try for us to go out with you
now. [¶] Antoine said we’ll go into the twin phone booths
and you stand in the other and we’ll call you. Then
everything will be okay. [¶] We didn’t agree with that idea,
so Dean Carter said how about dinner. … [¶] I said when.
He said Antoine’s a great cook, how about dinner. I said
when, and they said we’ll call you. … [¶] We left shortly
thereafter. I would say we were there less than an hour. …
[¶] Mr. Carter said we’ll walk you to your car because we
don’t want anyone to get you, or attack you in the parking
lot. So they walked us to my car and we drove off.”
A few days later, defendant and Masure invited the women
to have dinner with them on March 2, 1984, on their “yacht”
named the Sea Quest, which was docked near Harbor Drive.
5
The four had dinner [***851] on the vessel without
incident, with the exception that Cullins’s vehicle did not
start immediately when the women departed that evening.
Defendant and Masure, together with a third party who
arrived with cables, assisted the women in “jump-starting”
the vehicle. On the way home, Tiner and Cullins discussed
the evening. Tiner related Masure’s observation that he
thought Cullins had not been ready to leave and wanted to
stay with defendant. Cullins replied: “No way. I had no
intentions of spending the night with him, and if he ever
calls me again, I will tell him that.”
Two days later, on March 4, defendant telephoned Tiner,
informing her that he had spent the day sightseeing with
Cullins, and wanted to know whether Tiner “wanted to go
out and do something with him that night.” Tiner declined.
Defendant telephoned Tiner again on March 24, 1984,
indicating that he wanted to see Cullins “one time before he
went back to Alaska.” Tiner falsely informed defendant
[**555] that she was unaware of Cullins’s whereabouts.
“He said to me, why don’t I come down there and we can
run off to Mexico and get married.” Tiner declined that
offer, as well as defendant’s invitation to go out with him on
the following evening. 6
[*1229] Tiner then telephoned Cullins to inform her that
defendant was looking for her. Cullins replied: “I thought

5

At a foundational hearing conducted outside the jury’s presence, Tiner testified that the Sea Quest was neither a yacht, nor a
sailboat, but actually a metal vessel that she characterized as rusty, greasy, and cluttered—a platform for large cranes, littered with
junk all over the deck—not a pleasure boat that one would use for sailing on the bay.
6

March 25, 1984, was the date on which defendant attacked Barbara S. (See ante, at pp. 1223–1225.)

Petitioner's App. 13 - 244

ER 329

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 65 of 96
(487 of 2466)
Page 6 of 36

36 Cal. 4th 1215, *1229; 117 P.3d 544, **555; 32 Cal. Rptr. 3d 838, ***851
I’d gotten rid of him. Now I won’t be able to answer the
phone.” Tiner further testified: “[Cullins] was angry. She
was upset about it that he was calling again.” Nancy
McEachern, Cullins’s former roommate, testified that when
she had shared an apartment with Cullins and the telephone
rang, Cullins on multiple occasions had informed her: “If
that’s Dean, I don’t want to talk to him.” 7

Cathleen Tiner testified that after she and Cullins attended
the symphony, the two women went to a restaurant and then
returned to Tiner’s apartment, where they watched television
until 11:00 p.m. Cullins informed Tiner that defendant was
back in town. After watching television with Tiner, Cullins
left to return to her own apartment. Tiner never saw Cullins
alive again.

b. The events leading to the discovery of Janette Cullins’s
body

Leanne Johnson, who resided across the street from Cullins’s
apartment, testified that at approximately 11:15 p.m. on
April 12, she heard the engine of a vehicle running for about
10 minutes. Johnson peered through her drapes and observed
a white vehicle that [**556] she identified as matching the
white Datsun 280 ZX that defendant was driving when later
arrested. Johnson testified: “It was probably 11:30 just
before the news went off that I heard the car move out of the
parking space and make a U-turn and it almost hit a pickup
truck at the house next to mine. [¶] It just went up the street.
It didn’t stop at the stop sign … . [¶] … I mean whoever was
in the car sort of pulled out fast, and it was a big loud noise
and I did look out and I did see him make a U-turn and
almost hit the pickup truck.”

Janette Cullins resided in apartment B, located at 3972
Kendall Street in the Pacific Beach neighborhood of San
Diego. In search of a new roommate, Cullins placed an
advertisement in The Reader, a local free newspaper. Cheri
Phinney responded to the ad and began moving into the
apartment during the second week of April 1984.
On Thursday, April 12, 1984, Phinney and Cullins spent the
day at the apartment. Phinney painted her new bedroom and
bathroom, while Cullins kept her company, vacuumed the
carpet, and performed other housekeeping chores.
Approximately midafternoon, Cullins responded to a knock
at her door. The visitor was defendant, and Cullins returned
to Phinney, asking her “to come through the living room so
that he [defendant] would be aware that there was someone
else in the house.” Defendant stayed for approximately one
hour, asking questions such as how long she planned to
continue painting. Shortly thereafter Cullins informed
Phinney that defendant had departed. 8
[***852] At approximately 6:30 p.m., Cullins left the
apartment, informing Phinney that Cullins was planning to
attend the symphony with her friend, Cathleen Tiner. 9
Shortly thereafter, Phinney answered a telephone call and
wrote down a message on a piece of paper. The paper was
whole when Phinney wrote the [*1230] message, and she
left blank the top portion of the paper. When Phinney left
the apartment at approximately 7:15 p.m., the drapes and
blinds were open. As she locked the door upon leaving,
Phinney did not notice any damage to the front door frame.

Throughout the next day, Cheri Phinney attempted to
contact Cullins without success. Nancy McEachern testified
that on April 13, she was unsuccessful several times in
attempting to contact Cullins by telephone. Cullins’s
telephone answering machine, which usually was switched
on, was not activated. Concerned, McEachern drove to
Cullins’s apartment around midday. When she arrived,
“another car pulled up on the opposite side of the street from
me, and a man got out of the car and asked me if Jan was
home. … [¶] I said no, it doesn’t look like she’s home, her
car is not here, I assume she’s not. This person had
identified himself as Dean. … [¶] He was driving a white
[Datsun] Z with a black bra on the front of the car.”
McEachern identified the individual who spoke with her as
defendant.
McEachern had moved out of the apartment on April 6, but
had retained a key in order to return on the morning of April

7
Nancy’s McEachern’s testimony on this point was illuminated by Tiner’s testimony that one reason Jeanette Cullins was not
interested in becoming involved with defendant was that “he was a drug user” and Cullins was “completely antidrug.”
8

David Susi testified that at approximately 4:00 p.m., on April 12, 1984, defendant, driving a vehicle with the license plate
“PHANTM Z,” pulled up next to Susi’s vehicle at an intersection in Pacific Beach and asked for directions to Mission Beach.
Subsequently shown a police photo lineup, Susi selected defendant’s photograph as depicting the man whom he saw driving the car,
stating, “I think that’s him, but I can’t be sure.” Susi acknowledged on cross-examination that during an interview with investigators
conducted on June 1, 1984, Susi recalled that the date on which he saw the vehicle was either April 11 or 12, 1984.
9

There is a discrepancy in the testimony pertaining to the precise time that Cullins departed from the apartment. Phinney fixed
the time of Cullins’s departure at approximately 6:30 p.m. Tiner testified that Cullins arrived at Tiner’s apartment, an approximate
20-minute drive from Cullins’s residence, at 6:10 p.m. The discrepancy does not appear to have any significance.

Petitioner's App. 13 - 245

ER 330

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 66 of 96
(488 of 2466)
Page 7 of 36

36 Cal. 4th 1215, *1230; 117 P.3d 544, **556; 32 Cal. Rptr. 3d 838, ***852
14 for the purpose of conducting a yard sale. McEachern
entered the apartment (alone), stayed less than 15 minutes,
left a message for Cullins, and departed. McEachern testified:
“The apartment was closed up. Everything was pretty dark.
The blinds were drawn, were closed very tightly, and all the
windows, especially [*1231] the window in the kitchen,
which is a place we never close them in [sic].” McEachern
explained that the living room drapes also were drawn, an
unusual circumstance, adding that when she and Cullins
shared the apartment, they never adjusted the window
coverings to their completely closed [***853] position.
Although McEachern entered Cullins’s bedroom, the closet
doors were shut, and she did not look inside the closet.
Shortly after 6:00 p.m. on the evening of April 13, as
Cathleen Tiner was preparing to attend a San Diego Padres
baseball game with a friend, defendant arrived unexpectedly
at Tiner’s front door, “better groomed than I had ever seen
him before.” He wore a beige sweater with a brown
windowpane check. 10 Tiner testified: “I was very surprised.
… [¶] I said Dean, I’m sorry I can’t invite you in. I have
company coming over. You should have called. … [¶] And
he said [‘][W]ell, I was here in the neighborhood, I just
thought I’d stop by.[’] […] He said, [‘]Did Jan [Cullins] tell
you I was in town?[’] [¶] And I said yes, she did. [¶] And he
said, [‘]I told her not to tell you that.[’] [¶] I said, well, she
did. I’m sorry I can’t invite you in. You have to leave. I have
… company coming over. I have to go. [¶] And then
[defendant] put his chin up like this, and said, [‘]Do you
know she stood me up today?[’] [¶] I said, no, I didn’t.”
Tiner shut the door, unsuccessfully attempted to reach
Cullins by telephone, and then attended the baseball game.
On the morning of April 14, Cheri Phinney again attempted
to contact Cullins, and Nancy McEachern answered the
telephone. McEachern informed Phinney that Cullins was
not at home. Phinney drove to the apartment, arriving about
8:30 a.m. McEachern was there with her fiancé. The drapes
and curtains were closed. Phinney noticed wood chips on
the floor by the front door. 11
[**557] Because Phinney and McEachern had expected
Cullins to be at the apartment, they began to search for a
note from her, or a document with her license plate number
in the event they needed that information to ascertain from
10

local authorities whether Cullins had been involved in a
traffic accident. In the course of searching for this
information, McEachern opened a bedroom closet door and
discovered the partially clothed body of Janette Cullins,
lying on some boxes. McEachern’s fiancé contacted the
police.
[*1232] c. The police investigation

Richard Thwing, a San Diego police officer assigned to the
police department’s homicide division, testified that the
front door of Janette Cullins’s apartment displayed signs
that a forced entry had been made. Cullins’s body was lying
in the bedroom closet. Her neck bore what appeared to be a
ligature mark.
Adolph Romero III testified that on the morning of April 14,
1984, as he was walking to work near the Point Loma piers
by North Harbor Drive in San Diego, he retrieved a wallet
he noticed in some bushes near the sidewalk. The wallet
contained a driver’s license and other identification items
and credit cards in the name of Janette Cullins. Cullins’s
father later identified the wallet as having belonged to her.
Because Romero had an important appointment that
morning, he gave the wallet to a friend, Robert Pack, who
gave the wallet to the police. During the same week that
Romero found the wallet, he [***854] also had seen parked
within one block of that location a white Datsun 280 ZX.
Dannis Nuckolls, who worked as a San Diego Police
Department evidence technician in April 1984, testified that
in conducting an inventory of the contents of Cullins’s
wallet, he found a driver’s license and various identification
cards, all in the name of Bonnie Guthrie. On April 14, 1984,
San Diego police officers recovered Guthrie’s purse from
the same North Harbor Drive area.
Hormez Guard, a forensic pathologist, performed an autopsy
on Janette Cullins at 9:00 a.m. on April 15, 1984. Dr. Guard
testified that the cause of Cullins’s death was asphyxia due
to ligature strangulation, adding that he found evidence the
victim had suffered “a sharply cutting incised wound”
inflicted “after death, or … when the person was dying,”
consistent with the use of a sharp knife. There was no
evidence of sexual assault. On cross-examination, Dr. Guard

The sweater had been knitted by murder victim Bonnie Guthrie, whom defendant had fatally strangled two days earlier.

11

On cross-examination, the defense partially impeached Phinney insofar as having seen wood chips by the front door on the
morning that Cullins’s body was discovered. Phinney acknowledged she had not recalled seeing the wood chips until police
mentioned this detail during one of their interviews with her several months later. On redirect examination, Phinney testified that
she told investigators on April 14 that when she departed from the apartment two days earlier, she had not noticed any damage to
the doorjamb.

Petitioner's App. 13 - 246

ER 331

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 67 of 96
(489 of 2466)
Page 8 of 36

36 Cal. 4th 1215, *1232; 117 P.3d 544, **557; 32 Cal. Rptr. 3d 838, ***854
stated that the time of Cullins’s death was between 24 and
48 hours prior to the time that he performed the autopsy.
George Cullins, Janette’s father, testified that he had
purchased a Triumph TR 7 for Janette in 1980 or 1981. At
the time of purchase, the vehicle bore a personalized license
plate that read “SHYLAS,” which she ultimately replaced.
12

Susan Seminoff, a friend of Cullins’s, testified that in
December 1980 she and Janette went together to open
checking accounts at San Diego Federal [*1233] Bank,
which subsequently changed its name to Great American
Bank (and later, after Cullins’s murder, to Wells Fargo
Bank). Seminoff recalled that in selecting an automatic
teller machine (ATM) card password, Cullins picked the
word from her license plate, “SHYLAS.” The word
“SHYLAS” was written on the back of a torn Alpha Beta
Supermarket receipt recovered by investigators from the
“Members Only” brand jacket found in the Datsun 280 ZX
that defendant was driving when he was arrested.
Sandra Homewood, an examiner of questioned documents
employed by the San Diego County District Attorney’s
Office, testified that in comparing exemplars of defendant’s
handwriting with entries found in his address book,
Homewood discerned several “unique and conspicuous
characteristics” and made a “positive identification” that
defendant had written in his address book the names Susan
Loyland (rape victim Barbara S.’s tenant, see, ante, at pp.
1223–1226), Janette Cullins, Cathleen Tiner, and Susan
Knoll. With regard to the slip of paper that read “SHYLAS,”
Homewood was unable to eliminate defendant or identify
him as the writer. In comparing the note to an exemplar of
Janette Cullins’s handwriting, [**558] Homewood indicated
there existed “very strong indications” that Cullins had
written it.
Great American Bank records revealed that on April 13,
1984, a withdrawal from Janette Cullins’s account in the
amount of $ 60.00 (leaving an account balance of $ 4.06)
was made from an ATM located at the bank’s Point Loma
branch. A four-minute videotape of the transaction was
introduced into evidence and shown to the jury. The tape
depicted a man wearing a sweater (identified as having been
knitted by Bonnie Guthrie) and a black jacket.
8. Defendant’s Arrest
The prosecution introduced evidence pertaining to
defendant’s April 17, 1984 [***855] arrest in Arizona that

was substantially similar to that summarized in People v.
Carter, supra, 36 Cal.4th at pages 1133–1134, with one
noteworthy addition, as follows. In the trial conducted in the
present case, the prosecution introduced the testimony of
Jerald McKeand, a deputy sheriff employed by Yavapai
County, Arizona, who recalled that at the time of defendant’s
arrest, defendant wore cutoff jeans, a gray sweatshirt, tennis
shoes, and green socks. Defendant also wore a gold necklace
that had belonged to Tok Kim and a workout shirt that had
belonged to Jillette Mills.
9. The Contents of the Datsun 280 ZX
The prosecution introduced evidence pertaining to the
contents of the Datsun 280 ZX that defendant was driving
when he was stopped and arrested [*1234] in Arizona. The
evidence was substantially similar to that summarized in
People v. Carter, supra, 36 Cal.4th at pages 1134–1135.
B. The Defense Case
Outside the presence of the jury, the trial court informed
defendant that he had the right either to testify or not to
testify. Defendant replied that he was not going to testify.
Unlike defendant’s trial in Los Angeles County, in which
the defense did not present any evidence at the guilt phase
(see People v. Carter, supra, 36 Cal.4th at p. 1135), the
defense at this trial introduced the testimony of witnesses
pertaining to the Los Angles County murders of Susan
Knoll, Jillette Mills, and Bonnie Guthrie, the San Diego
County murder of Janette Cullins, and the San Diego rape of
Barbara S.
1. The Los Angeles County Murders
The defense introduced the testimony of Ronald C. Tulio, an
employee of the United States Postal Service, who had been
Susan Knoll’s boyfriend and also was acquainted with
Knoll’s roommate, Jillette Mills, and their friend, Bonnie
Guthrie. Tulio testified that he and Knoll had lived together
from July 1983 to February 1984, after which Knoll moved
in with Mills. In the immediate aftermath of the Los Angeles
County murders, members of the Culver City Police
Department interviewed Tulio.
On cross-examination, Tulio acknowledged that his breakup
with Knoll had been an emotional one, and that on the
afternoon of April 12, 1984, Culver City Police Department
officers investigating the Los Angeles County murders

12

On April 14, 1984, Janette Cullins’s father noticed her car parked about one and one-half blocks from her apartment. She
usually parked her vehicle directly in front of her apartment.

Petitioner's App. 13 - 247

ER 332

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 68 of 96
(490 of 2466)
Page 9 of 36

36 Cal. 4th 1215, *1234; 117 P.3d 544, **558; 32 Cal. Rptr. 3d 838, ***855
arrested him and detained him at the Culver City jail for
four days. On the night of April 12, 1984, when Janette
Cullins was murdered in San Diego County, Tulio was in
police custody.
When asked on cross-examination what defense counsel
had told Tulio he (Tulio) might testify about, Tulio recalled
counsel stating: “He [defense counsel] said all he wanted to
do was have me say that obviously the Culver City Police
Department made a mistake in arresting me, saying that San
Diego [Police Department] could make the same mistake
arresting the wrong guy.”
Culver City Police Officer Craig Bloor testified that at the
time of the Los Angeles County murders, he resided in an
apartment [**559] building adjacent to the building in
which the bodies of Susan Knoll and Jillette Mills were
discovered. April 10, 1984, at approximately 8:30 p.m.,
Officer [***856] Bloor noticed [*1235] someone he did not
recognize walking from the next-door apartments to the
street. Upon learning several days later of the double
homicide that had occurred in the adjacent building, Officer
Bloor identified a photograph of Ronald Tulio as depicting
the man he saw on April 10.
On cross-examination, however, Officer Bloor testified that
when he observed Tulio at the police station, he recognized
some similarities to the person he saw on April 10 but also
noticed several differences, and concluded Tulio was not the
man he had seen on that date. Instead, Officer Bloor
identified defendant in court as the man he noticed on April
10, adding that the man was wearing a “ ‘Members Only’
style cut jacket that was popular then.”
On cross-examination, Officer Bloor acknowledged having
spoken with defendant on April 10: “I asked him what he
was doing in the area, and he said he was looking for a
friend’s house … . [¶] … [¶] Then he says[,] ‘[W]hy, do I
look suspicious[?]’ [¶] I said yeah, you could. Then he said[,
‘]It’s good that you check.[’] Then he left.” Defendant held
“some kind of blue folder or something like that” that
Officer Bloor recalled was “very similar” to a blue folder
the prosecution previously had introduced into evidence.
The folder, which contained a photograph of defendant, was
among the items that investigators recovered from Jillette
Mills’s Datsun 280 ZX.
2. The Murder of Janette Cullins
The defense presented the testimony of Michael T. Palermo,
who in 1984 was employed as a San Diego Police
Department latent print examiner. Palermo testified that as

part of the Cullins murder investigation, he examined latent
fingerprint impressions recovered from Cullins’s apartment,
but none matched defendant’s.
The defense also presented the testimony of William W.
Loznycky, Jr., who in 1984 worked as a San Diego Police
Department criminalist. Loznycky testified that neither
fibers found on the hand of Janette Cullins, nor head or
pubic hairs recovered from a blanket and sheets found in her
residence, could be matched to defendant or his clothing.
On cross-examination, Loznycky testified that he also
examined an “O-type” bloodstain taken from the crime
scene that did not match the victim’s blood, but could have
been left by defendant, whom Loznycky characterized as
having an “O” blood type.
Finally, the defense presented the testimony of Lauren
Carville, who resided in the apartment one floor below the
one occupied by Cullins. Carville testified that she and
Cullins had sunbathed in their shared backyard during the
afternoon of April 12, during which time an acquaintance of
[*1236] Cullins visited with Cullins for about 15 minutes.
Carville saw Cullins depart in her vehicle that evening at
approximately 7:00 p.m., after which Carville went out.
Returning at approximately midnight, Carville noticed that
Cullins’s vehicle was not parked in front of their apartment
building, where Cullins normally parked her car.
3. The Rape of Barbara S.
The defense presented the testimony of San Diego Police
Department Officer Gene Loucks, who interviewed Barbara
S. shortly after she was attacked. Officer Loucks testified
that Barbara S. was unable to recall several physical
attributes of her assailant.
II. PENALTY PHASE EVIDENCE
A. The Prosecution’s Case
The prosecution introduced into evidence the abstracts of
judgment from defendant’s prior burglary convictions in
Oregon [***857] and Alaska and, over defendant’s
objection, his prior rape conviction in Ventura County. (See
People v. Carter, supra, 36 Cal.4th at pp. 1135–1136.)
The prosecution also introduced evidence that a deputy
sheriff discovered in defendant’s San Diego County jail cell
a homemade knife or “shank” wrapped in masking tape, as
well as a 22-inch pipe. San Diego Police Department
Sergeant Carlos Chacon [**560] testified over defendant’s
objection that weapons such as those seized from defendant’s
cell could have been smuggled into the jail in parts and

Petitioner's App. 13 - 248

ER 333

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 69 of 96
(491 of 2466)
Page 10 of 36

36 Cal. 4th 1215, *1236; 117 P.3d 544, **560; 32 Cal. Rptr. 3d 838, ***857
assembled, and that the shank found in defendant’s cell was
designed as an offensive weapon to inflict serious bodily
injury.
B. The Defense Case
The defense introduced extensive evidence pertaining to
defendant’s difficult childhood and upbringing in Alaska
(defendant is part Eskimo), as well as evidence that he was
an accomplished and cooperative television cameraman and
a good father and friend. The evidence was substantially
similar to that summarized in People v. Carter, supra, 36
Cal.4th at pages 1136–1137. 13
[*1237] DISCUSSION

I. PRETRIAL ISSUES

argument is meritless under the law and this fact situation,
and therefore, the motion to dismiss would be denied. [¶] …
[¶] This motion is so meritless that in all honesty I don’t see
how anyone could call it incompetence of counsel not to
enter the double jeopardy plea at the arraignment. [¶] … [¶]
… I’m not going to allow the plea. I can’t do that because
in my discretion there’s no legal basis for it.”
(1) On appeal, defendant reiterates the contentions he made
in the trial court. As we [***858] shall explain, defendant’s
position is procedurally barred by his own successful
motion in the Los Angeles County proceedings to dismiss
the Cullins murder charge. (See People v. Carter, supra, 36
Cal.4th at pp. 1158–1159.) Even were we to ignore that
procedural flaw, the trial court correctly determined that
neither double jeopardy, nor collateral estoppel, nor section
654 considerations barred the San Diego proceedings, and
therefore properly rejected defendant’s motions. 14

A. Double Jeopardy and Multiple Punishment
[*1238]

Several weeks prior to the commencement of jury selection,
defendant filed motions to dismiss the proceedings against
him on the grounds of double jeopardy, collateral estoppel,
and the statutory prohibition against multiple punishments.
In the alternative, defendant moved “to sever the trial of the
issues raised by his pleas of once in jeopardy and former
conviction … from the trial of his guilt or innocence of the
crimes charged in the information.” Defendant asserted that
he previously had been placed in jeopardy in the Los
Angeles County proceedings, and that during those
proceedings the jury heard and considered both evidence
and argument suggesting defendant was responsible for the
murder of Janette Cullins. Having been sentenced to death
in those proceedings, defendant sought, on state and federal
constitutional grounds, the dismissal of the San Diego
County charge that he murdered Cullins.
The trial court denied defendant’s motions, stating, among
its reasons: “A legal analysis based on the statutes, case law
and facts of this case as presented to the court for purposes
of these motions shows there is no legal basis for a finding
by the court of once in jeopardy. … [¶] The double jeopardy

[**561] 1. The Procedural Bar Based upon Defendant’s
Successful Motion in the Los Angeles Proceedings to Sever
the San Diego Charges

As we have explained in the companion appeal, People v.
Carter, supra, 36 Cal.4th at page 1158, “the complaint
against defendant charged all of the crimes allegedly
committed in Alameda, Los Angeles, and San Diego
Counties in a single pleading. Defendant subsequently
moved to dismiss the charges arising from the Alameda and
San Diego crimes committed against Tok Kim and Janette
Cullins, respectively. The prosecution did not oppose the
motion, instead informing defendant that if the motion were
granted, the crimes committed in Alameda and San Diego
Counties would form the basis for a refiling of the charges
against defendant in those counties.” The trial court in Los
Angeles County thereafter granted defendant’s motion to
dismiss the charges involving the crimes committed in
Alameda and San Diego Counties.
Because defendant previously sought and obtained in Los
Angeles County the dismissal of the San Diego charges,

13

In their brief, the People observe that certain passages set forth in defendant’s summary of the mitigation evidence contained in
the appellant’s opening brief were proffered but were not presented to the jury. The People contend the proffered testimony is
irrelevant and should be stricken from the brief pursuant to Code of Civil Procedure section 436. The point is a minor one, and in
fact the brief observes, albeit indirectly, that the evidence was not presented to the jury. We therefore deny the People’s request.
14

As we noted in another case: “With regard both to this claim and to every other claim raised in his brief, defendant asserts that
each alleged error violates not only state law but multiple provisions of the federal and California Constitutions. In addressing each
claim discussed in this opinion, we have considered defendant’s contention that the alleged error violates the federal and California
Constitutions, and our rejection of each claim of reversible error includes a determination that the alleged error does not warrant
reversal under the state or federal Constitution.” (People v. Slaughter (2002) 27 Cal.4th 1187, 1199, fn. 2 [120 Cal. Rptr. 2d 477, 47
P.3d 262].)

Petitioner's App. 13 - 249

ER 334

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 70 of 96
(492 of 2466)
Page 11 of 36

36 Cal. 4th 1215, *1238; 117 P.3d 544, **561; 32 Cal. Rptr. 3d 838, ***858
knowing that the dismissal would compel the San Diego
County prosecutor to file separate charges in that county for
the crimes defendant was alleged to have committed in that
jurisdiction, defendant’s contention that proceeding with the
San Diego County prosecution was fundamentally unfair or
violative of his rights under the state and federal
Constitutions is not well taken or worthy of extensive
discussion. In view of the evidence linking defendant to the
murder of Janette Cullins, San Diego County was entitled to
prosecute defendant for that crime (as well as other crimes
alleged to have been committed by defendant within that
jurisdiction). (§§ 777, 790; 15 People v. Carpenter, supra,
21 Cal.4th at pp. 1038–1039; People v. Bradford (1976) 17
Cal.3d 8, 15 [130 Cal. Rptr. 129, 549 P.2d 1225].) Having
moved in Los Angeles County for dismissal of the charges
involving crimes committed in San Diego, notwithstanding
the prosecutor’s representation that the motion, if granted,
would [***859] effect a severance of the charges against
defendant and a refiling in the respective counties in which
the crimes occurred, defendant cannot now complain that
severance led to a second murder prosecution.
[*1239] 2. Defendant’s Jeopardy, Section 654, and Collateral

Estoppel Claims
Even if we were to assume that these claims are not barred,
we would conclude that defendant’s contentions based upon
double jeopardy principles, section 654, and collateral
estoppel, lack merit.
a. Double jeopardy
(2) The state and federal Constitutions declare that no
person shall twice be placed in jeopardy for the same
offense. (U.S. Const., 5th Amend.; Cal. Const., art. I, § 15.)
In Los Angeles County, defendant was placed in jeopardy
for the murders of Susan Knoll, Jillette Mills, and Bonnie
Guthrie. In those proceedings, he was neither charged with,
nor convicted of, any crimes pertaining to the murder of
Janette Cullins or the rape of Barbara S. Accordingly,
jeopardy never attached to defendant in the Los Angeles
County proceedings for the crimes committed in San Diego
County. (See People v. Carpenter, supra, 21 Cal.4th at p.
1039, fn. 4. [“ ‘ “[T]he murder of two persons, even by the
same act, constitutes two offenses, for each of which a
separate prosecution will lie, and … a conviction or
acquittal in one case does not bar a prosecution in the other.”
’ [Citations.]”]; People v. Medina (1995) 11 Cal.4th 694,

765 [47 Cal. Rptr. 2d 165, 906 P.2d 2] [rejecting the
[**562] defendant’s contention that double jeopardy
principles should apply where the defendant already once
had defended against the charges at the penalty phase of the
earlier trial]; see also United States v. Watts (1997) 519 U.S.
148, 154–155 [136 L. Ed. 2d 554, 117 S. Ct. 633].)
Accordingly, defendant’s double jeopardy argument must
fail.
b. Section 654
Defendant’s assertion that section 654 barred the San Diego
County prosecutor from proceeding against him is deficient
for reasons analogous to those noted immediately above. At
the time of defendant’s trial, section 654 prescribed: “An act
or omission which is made punishable in different ways by
different provisions of this code may be punished under
either of such provisions, but in no case can it be punished
under more than one; an acquittal or conviction and
sentence under either one bars a prosecution for the same
act or omission under any other.” (Stats. 1977, ch. 165, § 11,
p. 644, italics added.)
Because defendant was neither acquitted nor convicted of
the murder of Janette Cullins or the rape of Barbara S. in
Los Angeles County, section 654 did not bar the San Diego
County proceedings instituted against him for those crimes.
(People v. Carpenter, supra, 21 Cal.4th at pp. 1038–1039
[rejecting [*1240] the defendant’s contention that section
654 barred separate prosecutions in Marin County and Santa
Cruz County for the crimes committed in each county]; see
also People v. Bradford, supra, 17 Cal.3d at pp. 13–17
[where criminal behavior began in one county and, following
a police chase, terminated in another, the crimes committed
in each county properly were tried separately in the
respective counties].)
c. Collateral estoppel
(3) Defendant contends the prosecutor was barred by
collateral estoppel principles from trying defendant in San
Diego County for the murder of Janette Cullins and the rape
of Barbara S. We observe: [***860] “Traditionally, collateral
estoppel has been found to bar relitigation of an issue
decided at a previous proceeding ‘if (1) the issue necessarily
decided at the previous [proceeding] is identical to the one
which is sought to be relitigated; (2) the previous
[proceeding] resulted in a final judgment on the merits; and
(3) the party against whom collateral estoppel is asserted

15

Several years after defendant’s trials, section 790 was amended to permit in certain circumstances the joint trial of murders
committed in different counties. (See now § 790, subd. (b), as amended by Stats. 1998, ch. 549, § 1; People v. Carpenter (1999) 21
Cal.4th 1016, 1039, fn. 4 [90 Cal. Rptr. 2d 607, 988 P.2d 531].) These statutory revisions are not material to our analysis.

Petitioner's App. 13 - 250

ER 335

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 71 of 96
(493 of 2466)
Page 12 of 36

36 Cal. 4th 1215, *1241; 117 P.3d 544, **562; 32 Cal. Rptr. 3d 838, ***860
was a party or in privity with a party at the prior
[proceeding].’ [¶] It is implicit in this three-prong test that
only issues actually litigated in the initial action may be
precluded from the second proceeding under the collateral
estoppel doctrine. [Citation.] An issue is actually litigated
‘[w]hen [it] is properly raised, by the pleadings or otherwise,
and is submitted for determination, and is determined … .’
” (People v. Sims (1982) 32 Cal.3d 468, 484 [186 Cal. Rptr.
77, 651 P.2d 321], fn. omitted; see also People v. Taylor
(1974) 12 Cal.3d 686, 695 [117 Cal. Rptr. 70, 527 P.2d 622]
[the doctrine’s purposes are: “(1) to promote judicial
economy by minimizing repetitive litigation; (2) to prevent
inconsistent judgments which undermine the integrity of the
judicial system; and (3) to provide repose by preventing a
person from being harassed by vexatious litigation.”].)
Here, the circumstance that the jury in the Los Angeles
County proceedings never was asked to determine, and did
not determine, defendant’s guilt or innocence of the murder
of Janette Cullins and the rape of Barbara S. defeats
defendant’s claim of collateral estoppel. Nor would any of
the purposes of the doctrine noted above be served by its
application here.
B. Motion to Disqualify the Trial Court Judge
On November 5, 1990, several months prior to the
commencement of trial, defendant filed a motion pursuant
to Code of Civil procedure section 170.1, subdivision (a)(6),
to disqualify San Diego County Superior Court Judge
Melinda J. Lasater from presiding at his trial. 16
16

[*1241] [**563] The basis for defendant’s motion was that
Judge Lasater had maintained a “working relationship and a
friendship with the prosecutor in this case [San Diego
County Deputy District Attorney James Pippin] such that a
person aware of the facts might reasonably entertain a doubt
that the judge would be able to be impartial.” 17
[***861] Judge Lasater thereafter conducted a hearing in
which she reviewed her contacts with Mr. Pippin that
spanned a period of approximately 16 years, noting the
dates when they had worked together and general
information pertaining to their social contacts. During the
hearing, Judge Lasater recalled, among other things, that she
and Mr. Pippin had worked together in the San Diego
County District Attorney’s Office until she left that office in
1987, that her family and his had gone camping with other
families, that her husband had purchased Mr. Pippin’s son’s
dirt bike approximately 10 years prior to the hearing, that
there had been sporadic social contacts at parties, that she
had performed the wedding of Mr. Pippin’s daughter at his
daughter’s request in August 1990, that his daughter gave
her a necklace similar to necklaces given to the bridesmaids,
and that Mr. Pippin’s daughter had “house sat” for her
approximately one year earlier, for which his daughter had
been paid a “minimal amount.” Judge Lasater attached a
copy of the hearing transcript to her answer. 18
[*1242] On November 30, 1990, Judge Allen J. Preckle,
selected by agreement of the parties, conducted a hearing on
defendant’s motion. Relying on United Farm Workers of

Code of Civil Procedure section 170.1, subdivision (a) provides in pertinent part:

“(a) A judge shall be disqualified if any one or more of the following is true: [¶] … [¶]
“(6) For any reason (A) the judge believes his or her recusal would further the interests of justice, (B) the judge believes there is a
substantial doubt as to his or her capacity to be impartial, or (C) a person aware of the facts might reasonably entertain a doubt that
the judge would be able to be impartial. Bias or prejudice towards a lawyer in the proceeding may be grounds for disqualification.”
17

In defendant’s statement of disqualification, one of his attorneys, Josephine Dedina, declared: “I accompanied Deputy District
Attorney James Pippin to his office to arrange a telephone call to Judge Lasater to set a schedule for hearings. Mr. Pippin stated that
he had known Judge Lasater for a long time. He had been her supervisor when she worked as a Deputy District Attorney. Mr.
Pippin informed me that Judge Lasater had participated in his daughter’s wedding in the summer of 1990. Mr. Pippin also stated
that if the defense in this case filed the usual defense motions to declare the death penalty unconstitutional, he knew Judge Lasater
would immediately deny them. [¶] This past working relationship, where the judge was the subordinate to the prosecutor, together
with a relationship where Judge Lasater participated in the prosecutor’s daughter’s wedding several months ago, constitute facts that
a person aware of those facts might reasonably entertain a doubt that the judge would be able to be impartial.”
18

Judge Lasater’s answer, in pertinent part, declared: “The defendant in this case has expressed concern over my ability to be
impartial due to a perceived personal relationship with the prosecutor in this case, Mr. James Pippin. After reviewing the statement
of disqualification, I conducted a hearing with all parties and their counsel present in which I detailed the contacts I could remember
with Mr. Pippin over the last 17 years. … [¶] Although I was with the district attorney’s office for almost 13 years, I have had
relatively few contacts with Mr. Pippin. He was my supervisor for only four months in 1974, more than 15 years ago. During my
last five years with the district attorney’s office, I was a division chief assigned to the Juvenile Division and Mr. Pippin was
assigned as a division chief in the Superior Court division. We were essentially equals in this capacity and had very little contact.
[¶] The social functions we both attended were incidental to our professional responsibilities with the district attorney’s office, rather

Petitioner's App. 13 - 251

ER 336

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 72 of 96
(494 of 2466)
Page 13 of 36

36 Cal. 4th 1215, *1242; 117 P.3d 544, **563; 32 Cal. Rptr. 3d 838, ***861
America v. Superior Court (1985) 170 Cal. App. 3d 97, 104
[216 Cal. Rptr. 4], and Leland Stanford Junior University v.
Superior [**564] Court (1985) 173 Cal. App. 3d 403, 408
[219 Cal. Rptr. 40], the court observed that “[t]he standard
[for disqualification set forth in Code of Civil Procedure,
section 170.1, subdivision (a)(6)] is fundamentally an
objective one.” Reviewing the nature of the professional and
social contacts between Judge Lasater and Mr. Pippin, the
court viewed “as weightless, particularly given the
substantial passage of time, the assertion that a reasonable
person would doubt Judge Lasater’s impartiality because of
her past association with Mr. Pippin … . [¶] … [¶] This
court is further satisfied that any, albeit unreasonable doubt,
concerning Judge [***862] Lasater’s impartiality in this
case would be erased by a reasonable person’s being
apprised of Judge Lasater’s excellent reputation for integrity
and fierce independence. [¶] This court, therefore, finds that
a reasonable person, aware of all the facts, would not
reasonably entertain a doubt that Judge Lasater will be able
to be impartial in this case.” The court thereafter denied
defendant’s motion.
Defendant did not seek review in the Court of Appeal by
way of a petition for writ of mandate, the procedure required
by Code of Civil Procedure section 170.3, subdivision (d).
19

section 170.3, subdivision (d), precludes him from
challenging the denial of his statutory disqualification
motion on appeal from the judgment rendered in the trial
court. (People v. Brown (1993) 6 Cal.4th 322, 333 [24 Cal.
Rptr. 2d 710, 862 P.2d 710] (Brown).)
(4) Even if we were to overlook the procedural deficiency
inherent in defendant’s challenge to the denial of his
disqualification motion, we would find no merit in the
assertion, implicit in defendant’s argument, that Judge
Lasater had a responsibility to recuse herself in view of her
prior professional and casual social relationship with Mr.
Pippin. Defendant provides no statutory or case law authority
in support of that position, and we are aware of none.
Because virtually all judges are drawn from the ranks of the
legal profession, such prior relationships are neither unusual
nor dispositive. (See United Farm Workers of America v.
Superior Court, supra, 170 Cal. App. 3d 97, 100 [“[T]he
proper performance of judicial duties does not require a
judge to withdraw from society and live an ascetic, antiseptic
and socially sterile life. Judicial responsibility does not
require shrinking every time an advocate asserts the objective
and fair judge appears to be biased. The duty of a judge to
sit where not disqualified is equally as strong as the duty not
to sit when disqualified.”].)

In his appeal to this court, defendant contends that the
superior court below erred in denying his motion to
disqualify Judge Lasater. Acknowledging his failure to
comply with the writ review requirement set forth in Code
of Civil [*1243] Procedure section 170.3, subdivision (d),
defendant nevertheless asserts as a “structural defect”
reviewable on appeal the “deni[al of] due process of law in
violation of [the] state and federal Constitutions because the
judge who presided over his case and who rendered the
sentence of death was not impartial.”

In our view, Judge Preckle correctly determined that on the
facts presented in the pleadings below, a reasonable person
would not entertain a doubt as to Judge Lasater’s impartiality.
(See United Farm Workers of America v. Superior Court,
supra, 170 Cal. App. 3d at pp. 105–106; cf. Sincavage v.
Superior Court (1996) 42 Cal.App.4th 224, 230–231 [49
Cal. Rptr. 2d 615] [disqualification proper where, 13 years
earlier, judge had been a prosecutor representing the People
in other proceedings against the defendant].) Accordingly,
disqualification was not mandated in the present case.

We find no merit in defendant’s position. His failure to
comply with the requirements of Code of Civil Procedure,

Defendant asserts a nonstatutory due process claim based
upon evidence of bias adduced at trial. We need not decide

than a reflection of any close personal friendship. Our social interaction over the years has been no different than that of any other
member of the legal community who occasionally engages in social activities with members of the profession. [¶] It is common
practice for judges of this Court to perform wedding ceremonies for members of the legal community and their families. My
agreement to perform the wedding ceremony for Mr. Pippin’s daughter was such an arrangement and was done at his daughter’s
request, rather than Mr. Pippin’s. I was not paid to perform the ceremony and specifically indicated that no fee should be paid. [¶]
Mr. Pippin’s alleged comments regarding my predilection in ruling on motions dealing with constitutional challenges to the death
penalty, are also unfounded. As I stated at the time of the hearing referenced above, I have never seen such a motion and would
consider it premature to assume such a posture until I had been presented with the issue and reviewed it. [¶] I am neither biased nor
prejudiced for or against Mr. Pippin, the defendant or his counsel, and am satisfied that I can perform my duty to decide the issues
presented fairly and impartially in this case.”
19

Code of Civil Procedure, section 170.3, subdivision (d), provides: “The determination of the question of the disqualification of
a judge is not an appealable order and may be reviewed only by a writ of mandate from the appropriate court of appeal sought
within 10 days of notice to the parties of the decision and only by the parties to the proceeding.”

Petitioner's App. 13 - 252

ER 337

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 73 of 96
(495 of 2466)
Page 14 of 36

36 Cal. 4th 1215, *1243; 117 P.3d 544, **564; 32 Cal. Rptr. 3d 838, ***862
whether defendant has forfeited this claim [***863] by
failing to file a writ petition on this ground [**565] (see
generally Brown, supra, 6 Cal.4th at p. 336), because his
claim lacks merit. Specifically, defendant cites Judge
Lasater’s contempt order, issued on the eve of the penalty
phase (June 3, 1991), against defense counsel and defendant
for [*1244] failure to provide penalty phase discovery to the
prosecution, as well as Judge Lasater’s observation, made in
considering defendant’s application to modify the death
sentence rendered by the jury, that defendant “frankly had
no intention of testifying in Los Angeles.” 20
Neither of the actions cited by defendant, extracted from a
trial court record in excess of 9,000 pages, remotely
approaches the threshold required to establish the existence
of judicial bias. (See People v. Clark (1992) 3 Cal.4th 41,
143 [10 Cal. Rptr. 2d 554, 833 P.2d 561] [“The question for
us to decide is whether the judge ‘officiously and
unnecessarily usurp[ed] the duties of the prosecutor … and
in so doing create[d] the impression that he [was] allying
himself with the prosecution … .’ ”].) Moreover, our
independent review of the entire record reveals a trial court
judge who was scrupulously fair and courteous to each side,
and whose rulings exhibited neither bias nor prejudice. We
therefore reject defendant’s claim.
C. Motion to Exclude Evidence of Wood Chips
At the preliminary hearing, Cheri Phinney testified that in
April 1984, she decided to move into the apartment occupied
by Janette Cullins. On April 12, Phinney was at the
apartment, painting her new bedroom and bathroom. Phinney
recalled that the carpet area in the living room near the front
door had been vacuumed. At the time Phinney departed
from the apartment, between 7:00 and 7:15 p.m., she did not
notice any damage to the doorjamb surrounding the front
door or any wood chips on the carpet beneath the door latch.
When Phinney returned to the apartment on the morning of
April 14, shortly before the discovery of Janette Cullins’s
body, she noticed wood chips on the floor, as depicted in a
photograph introduced by the prosecution. On
cross-examination, Phinney acknowledged that on April 14,
she did not mention the wood chips to the investigating
detective and she also failed to mention the wood chips

during her testimony at defendant’s trial in Los Angeles
County.
San Diego Police Department Homicide Detective James
Shively testified that as part of his investigation of the crime
scene on April 14, he directed that the wood chips be
photographed. On cross-examination, Detective Shively
acknowledged he did not mention the wood chips in the
crime scene report that he prepared. He further acknowledged
that under his direction, [*1245] evidence technician
Dannis Nuckolls removed a portion of the doorjamb.
Detective Shively did not recall whether he directed anyone
to collect the wood chips. 21
San Diego Police Department Sergeant Douglas Naliboff
testified that when he [***864] responded to the crime
scene on the morning of April 14, the doorjamb “appeared
that it had been pried open. There were wood chips
separated from the doorjamb itself and laying on the floor.”
He identified the prosecution’s photographs as depicting the
doorjamb and wood chips that he observed.
Defendant moved to exclude all evidence related to the
condition of the front door of Janette Cullins’s apartment,
including testimony regarding the doorjamb and the wood
chips, and photographs of the wood chips. The basis for his
motion was that the prosecution assertedly had “failed to
preserve the wood debris, and carelessly removed the door
and doorjamb removed and photographed [sic].” Defendant
asserted that the [**566] prosecution’s failure to preserve
the “potentially exculpatory wood chips” violated
defendant’s constitutional rights to a fair trial and due
process of law, and that pursuant to Evidence Code section
352 the testimonial or photographic evidence was not
admissible in the absence of the wood chips themselves.
The trial court denied defendant’s motion, finding:
“Defendant’s … motion to exclude … the wood chips
evidence and doorjam[b] is denied. There is an insufficient
showing of bad faith by law enforcement as shown in
[Arizona v.] Youngblood [(1988) 488 U.S. 51 [102 L. Ed. 2d
281, 109 S. Ct. 333]]. In addition, the probative value of the
evidence more than substantially outweighs any prejudice
of the failure to preserve the wood chips. [¶] The record

20
Far from exhibiting bias, Judge Lasater’s comment in fact was made while explaining the basis for the court’s denial of
defendant’s claim that he had been denied his right to testify in the Los Angeles proceedings. Her comment was based upon her
review of the transcripts of both proceedings as well as her discussions with defendant under seal, and was made in the specific
context of expressing the view that defendant “was using [the denial of the right to testify] issue as a tactical means for obtaining a
reversal … .”
21

At trial, Nuckolls testified that he took photographs of the doorjamb and the wood chips and subsequently removed a portion
of the doorjamb, but did not retain the wood chips and did not know what happened to them.

Petitioner's App. 13 - 253

ER 338

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 74 of 96
(496 of 2466)
Page 15 of 36

36 Cal. 4th 1215, *1245; 117 P.3d 544, **566; 32 Cal. Rptr. 3d 838, ***864
should reflect that law enforcement took pictures of the
evidence from several angles and preserved the door jam[b],
itself. They apparently did not actually preserve the wood
chips which are reflected in the pictures.”
On appeal, defendant contends the trial court erred in
denying his motion to exclude this evidence. He argues that
because the charge of burglary, as well as the burglary and
lying-in-wait special circumstances, each depended upon
the prosecution establishing that defendant unlawfully
entered Cullins’s apartment, “the government[’s] fail[ure]
to preserve evidence which was material and potential[ly]
exculpatory” deprived him of a myriad of state and federal
constitutional rights. Defendant further asserts that the
photographs of the wood chips could have been taken after
the doorjamb was removed, and thus the failure to preserve
the wood chips deprived defendant of the [*1246]
opportunity to demonstrate that the presence of the chips
“may have been the result of Nuckolls’s post-crime removal
of wood.” Defendant maintains that the trial court’s denial
of his motion to exclude evidence was not harmless beyond
a reasonable doubt and requires reversal, and further that the
trial court’s ruling constituted an abuse of discretion under
Evidence Code section 352.
For the reasons that follow, defendant’s position lacks merit.
(5) “Law enforcement agencies have a duty, under the due
process clause of the Fourteenth Amendment, to preserve
evidence ‘that might be expected to play a significant role in
the suspect’s defense.’ (California v. Trombetta (1984) 467
U.S. 479, 488 [81 L. Ed. 2d 413, 104 S. Ct. 2528, 2534];
accord, People v. Beeler (1995) 9 Cal.4th 953, 976 [39 Cal.
Rptr. 2d 607, 891 P.2d 153].) To fall within the scope of this
duty, the evidence ‘must both possess an exculpatory value
that was apparent before the evidence was destroyed, and be
of such a nature that the defendant would be unable to
obtain comparable evidence by other reasonably available
means.’ (California v. Trombetta, supra, 467 U.S. at p. 489
[104 S. Ct. at p. 2534]; People v. Beeler, supra, 9 Cal.4th at
p. 976). The state’s responsibility is further limited when the
[***865] defendant’s challenge is to ‘the failure of the State
to preserve evidentiary material of which no more can be
said than that it could have been subjected to tests, the
results of which might have exonerated the defendant.’
(Arizona v. Youngblood[, supra,] 488 U.S. 51, 57 [102 L.
Ed. 2d 281, 109 S. Ct. 333, 337].) In such case, ‘unless a
criminal defendant can show bad faith on the part of the
police, failure to preserve potentially useful evidence does
not constitute a denial of due process of law.’ (Id. at p. 58
[109 S. Ct. at p. 337]; accord, People v. Beeler, supra, 9
Cal.4th at p. 976.)

“On review, we must determine whether, viewing the
evidence in the light most favorable to the superior court’s
finding, there was substantial evidence to support its ruling.
(People v. Griffin (1988) 46 Cal.3d 1011, 1022 [251
Cal.Rptr. 643, 761 P.2d 103].)” (People v. Roybal (1998) 19
Cal.4th 481, 509–510 [79 Cal. Rptr. 2d 487, 966 P.2d 521];
see also People v. Cooper (1991) 53 Cal. 3d 771, 810 [281
Cal. Rptr. 90, 809 P.2d 865].)
Under this standard, the court below did not err in concluding
there was no showing of bad faith by law enforcement in
failing to preserve the evidence; none of the testimony at the
preliminary hearing (or trial) suggested otherwise. Similarly,
nothing in the record suggests that the court below erred in
[**567] determining that the wood chips did not have an
exculpatory value that was apparent prior to their
disappearance, or that the wood chip evidence was of such
a nature that defendant was unable to obtain comparable
evidence by other reasonably available means. (See People
v. Cooper, supra, 53 Cal.3d 771, 810.)
[*1247] Nor do we find any abuse of discretion in the

court’s determination that the probative value of the evidence
substantially outweighed any prejudice that could be
attributed to the failure to preserve the wood chips that had
been observed by Cheri Phinney and Sergeant Naliboff.
Investigators photographed the wood chip evidence. The
photographic evidence indicated that someone had forced
an entry into Janette Cullins’s apartment, and therefore was
probative as to the burglary charge and the burglary special
circumstance. Defendant does not demonstrate how, in the
absence of the wood chips themselves, the trial court abused
its discretion in denying defendant’s motion to exclude the
testimony and photographs of the wood chips. Defendant’s
assertion that removal of a portion of the doorjamb during
the investigation might have created the wood chips is
speculative and has no bearing on whether the trial court
abused its discretion in denying defendant’s motion to
exclude the evidence.
II. JURY SELECTION ISSUES
Defendant contends the trial court erroneously prohibited
sequestered voir dire examination of prospective jurors,
unfairly restricted the examination of the prospective jurors
by counsel, conducted voir dire in an oppressive atmosphere,
improperly instructed prospective jurors, and applied an
incorrect standard to exclude persons from the jury. In view
of these asserted errors, defendant contends he was denied
a myriad of rights guaranteed to him under the state and
federal Constitutions and therefore his conviction and
sentence must be reversed. As we shall explain, none of
defendant’s contentions has merit.

Petitioner's App. 13 - 254

ER 339

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 75 of 96
(497 of 2466)
Page 16 of 36

36 Cal. 4th 1215, *1247; 117 P.3d 544, **567; 32 Cal. Rptr. 3d 838, ***865
A. Defendant’s Motion for Sequestered Voir Dire
At the commencement of jury selection, defendant moved
for sequestered voir dire of prospective jurors pursuant to
Hovey v. Superior Court (1980) 28 Cal.3d 1 [168 Cal. Rptr.
128, 616 P.2d 1301]. The prosecution joined in the request.
The trial court [***866] denied the motion, stating that
“Proposition 115 is the law and is applicable. … [¶] And I
intend to follow Proposition 115, and that includes, at this
particular point in time, I’m not going to be using a
sequestered inquiry of the jurors. [¶] In making that decision,
I’m exercising my discretion as well as requested by the
People.” When defendant renewed his request, the trial
court repeated its denial.
On appeal, defendant contends he was “denied meaningful
voir dire by the court’s improper procedures,” including the
trial court’s denial of sequestered voir dire. He is mistaken.
Proposition 115, which took effect on June 6, 1990
(approximately eight months prior to jury selection here),
enacted Code of Civil Procedure section 223, which in
relevant part provided (prior to its [*1248] amendment in
2000): “In a criminal case, the court shall conduct the
examination of prospective jurors[, and such examination]
… shall, where practicable, occur in the presence of other
jurors in all criminal cases, including death penalty cases.”
(Stats. 1990, p. A-245, italics omitted.) 22
[**568] Moreover, we repeatedly have rejected contentions
similar to those advanced by defendant. (See, e.g. People v.
San Nicolas (2004) 34 Cal.4th 614, 633–634 [21 Cal. Rptr.
3d 612, 101 P.3d 509]; People v. Ramos (2004) 34 Cal.4th
494, 513–515 [21 Cal. Rptr. 3d 575, 101 P.3d 478]; People

v. Slaughter (2002) 27 Cal.4th 1187, 1199 [120 Cal. Rptr. 2d
477, 47 P.3d 262]; People v. Box (2000) 23 Cal.4th 1153,
1180–1181 [99 Cal. Rptr. 2d 69, 5 P.3d 130]; see also
People v. Waidla (2000) 22 Cal.4th 690, 713 [94 Cal. Rptr.
2d 396, 996 P.2d 46] [Proposition 115 “abrogates” the
requirement found in Hovey v. Superior Court, supra, 28
Cal.3d at p. 80, of individual sequestered voir dire
examination of prospective jurors during the death
qualification portion of jury selection in a capital case];
Tapia v. Superior Court (1991) 53 Cal.3d 282, 288 [279
Cal. Rptr. 592, 807 P.2d 434] [applying Proposition 115 to
crimes committed prior to enactment of the new statute,
where (as here), the trial is conducted after its enactment].)
Defendant has not provided us with any persuasive basis for
revisiting the holdings in those decisions, and we decline to
do so.
The trial court made clear that its ruling was guided by the
provisions set forth in Code of Civil Procedure section 223.
The court also explained at length the basis for its exercise
of discretion in denying the requests for sequestered voir
dire. No error or abuse of discretion appears.
[*1249] B. The Trial Court’s Imposition of Time Limits on
Voir Dire

The trial court permitted counsel for each party to have 60
minutes to conduct voir dire of the first 20 prospective
jurors, and gave 30 minutes to each side for each additional
group of nine jurors. The defense [***867] and prosecution
each protested vociferously that the court’s limits were
unduly restrictive. 23 The parties repeatedly moved the court
to reconsider its ruling, each side citing the difficulty of

22
At the time of defendant’s trial, Code of Civil Procedure section 223 in full provided as follows (Prop. 115, § 7, as approved
by voters, Primary Elec. (June 5, 1990)):

“In a criminal case, the court shall conduct the examination of prospective jurors. However, the court may permit the parties, upon a
showing of good cause, to supplement the examination by such further inquiry as it deems proper, or shall itself submit to the
prospective jurors upon such a showing, such additional questions by the parties as it deems proper. Voir dire of any prospective
jurors shall, where practicable, occur in the presence of the other jurors in all criminal cases, including death penalty cases.
“Examination of prospective jurors shall be conducted only in aid of the exercise of challenges for cause.
“The trial court’s exercise of its discretion in the manner in which voir dire is conducted shall not cause any conviction to be
reversed unless the exercise of that discretion has resulted in a miscarriage of justice, as specified in Section 13 of Article VI of the
California Constitution.” (Stats. 1990, p. A-245, italics omitted.)
23
In seeking additional time in which to conduct the voir dire examination, defense counsel argued: “I would like more time than
60 minutes for the first 20 [jurors], and more time than 30 minutes with the fill-in jurors. [¶] Since it appears to me that the time
being set is more or less arbitrary, in other words, Your Honor is just picking a figure sort of out of the air, 60 minutes, it could just
as well be 90, 120, something like that. [¶] Sixty minutes is only an average of three minutes per juror, and that simply is not
enough in a capital case.”

Defense cocounsel added: “No disrespect to the court, the speed of this, I don’t have time to reflect. … I do not have time to
consider[,] to reflect, to confer. One of the purposes to hav[ing] two attorney[s] is to be able to confer, and I don’t have the time to

Petitioner's App. 13 - 255

ER 340

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 76 of 96
(498 of 2466)
Page 17 of 36

36 Cal. 4th 1215, *1250; 117 P.3d 544, **568; 32 Cal. Rptr. 3d 838, ***867
ascertaining a prospective juror’s views during group voir
dire within the time allotted by the trial court. The court
denied these requests, expressing confidence that the process
would afford counsel an adequate amount of time in which
to conduct the voir dire examination. 24

[*1250]
[**569]
[***868] (6) On appeal, defendant
contends the trial court’s restriction of the amount of time
permitted each side in obtaining answers to questions was
improper and resulted in a denial of meaningful voir dire.
We have observed that the adequacy of voir dire is a matter

reflect and think this is the right decision. And I would appreciate the time to do that after the questions to be able to confer with
[lead defense counsel] … . [¶] … I don’t want to be … speeded along on this without making the right objections for the record.
And I feel at some points that I’m not thinking swiftly enough because of the time constraints.”
The prosecutor similarly argued: “To tell us that you only get an average of three minutes per juror to decide a case I think is
unfair, and I don’t think there is a legitimate reason for it.”
24

The trial court informed the parties in relevant part as follows:

“You’ll be permitted to ask [prospective] jurors questions which are properly phrased and not repetitive of what is in the
questionnaire directly yourselves. … [¶] … [¶]
“Now, let me give you a caveat on that: I don’t want to be going back over what’s in the questionnaires with them. [¶] … [¶]
“[K]eep in mind if it’s truly a follow-up question, something that’s in the questionnaire, you should be giving it to me. [¶] … [¶]
“You can go to L.A. where they don’t allow any inquiry [by counsel on voir dire], in some instances, even on capital cases. [¶] …
[¶]
“But logic would dictate that if your main concern happens to be someone’s reaction to sexual assault, or you have a particular
[prospective] juror who you think you have got a problem with … a particular issue, or if your main concern with a particular
witness is their belief on the death penalty, then you’re going to want to ask to spend more time on that particular [prospective]
juror on those areas.
“What you’re going to want to do is ask some of your general questions … as a whole of the panel, and then to spot-check certain
people who you’re not really comfortable with.
“I mean there are different techniques of voir dire.
“If you decide that you want to go through each [prospective] juror one by one and ask the same set of questions, you’re going to
end up with three minutes per [prospective] juror.
“That’s a decision that each side is going to have to make.
“But that is going to be the decision that you’re going to make, because I believe that based upon my experience in using this
technique and watching attorneys inquire, that you can cover more than adequately with 20 [prospective] jurors in 60 minutes what
I have told you that you could cover. [¶] … [¶]
“When I initially g[a]ve you the time periods, I believe I said … : that you would have the opportunity to … give me follow-up
questions on the questionnaire.
“This is in addition to any questions I may decide to ask.
“Second of all, that if I didn’t follow-up on an area in a questionnaire adequately and you want me to ask some more questions on
a particular subject on a particular [prospective] juror, that I would be giving you that opportunity to ask me to do that.
“This is all prior to you asking questions.
“Finally, I said that each … side would have one hour to inquire on those limited subjects without repeating questions in the
questionnaire.
“I also said that if there was a response from a particular [prospective] juror that needed additional follow-up that seemed to be out
of the ordinary, that I would be taking that into consideration in looking at the time period which you have.
“Now, if I feel, after I have done the inquiry of the [prospective] jurors, that there are some problem [prospective] jurors that you’re
going to need additional time with, I’m going to give you the time up front before you start your hour.
“If you hit upon something that hasn’t surfaced, then what you need to do is prior to your hour[’s] expiration say to me[,] [‘]Judge,
I need some additional time. I think, I’m concerned about this particular area.[’]

Petitioner's App. 13 - 256

ER 341

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 77 of 96
(499 of 2466)
Page 18 of 36

36 Cal. 4th 1215, *1250; 117 P.3d 544, **569; 32 Cal. Rptr. 3d 838, ***868
“ ‘ “not easily subject to appellate review. The trial judge’s
function at this point in the trial is not unlike that of the
jurors later on in the trial. Both must reach conclusions as to
impartiality and credibility by relying on their own
evaluations of demeanor evidence and responses to
questions.” ’ ” (People v. Holt (1997) 15 Cal.4th 619, 661
[63 Cal. Rptr. 2d 782, 937 P.2d 213], quoting Mu’Min v.
Virginia (1991) 500 U.S. 415, 424 [114 L. Ed. 2d 493, 111
S. Ct. 1899]; see also People v. Cardenas (1997) 53
Cal.App.4th 240, 247 [61 Cal. Rptr. 2d 583] [“ ‘The
exercise of discretion by trial judges under the new system
of court-conducted voir dire is accorded considerable
deference by appellate courts.’ ”]; People v. Taylor (1992) 5
Cal.App.4th 1299, 1313 [7 Cal. Rptr. 2d 676] [same].) The
applicable standard is a demanding one: “Unless the voir
dire by a court is so inadequate that the reviewing court can
say that the resulting trial was fundamentally unfair, the
manner in which voir dire is conducted is not a basis for
reversal. [Citation.] A fortiori, the same standard of reversible
error applies when both the court and counsel participate in
the voir dire.” (People v. Holt, supra, 15 [*1251] Cal.4th at
p. 661; see also People v. Bolden (2002) 29 Cal.4th 515, 538
[127 Cal. Rptr. 2d 802, 58 P.3d 931] [same].)
(7) Our review of the record reveals the voir dire examination
conducted here was more than adequate. The trial court
informed the parties that if, in addition to the initial
questions posed by the court and by each side, counsel
desired that further inquiries be made of a prospective juror,
counsel would be given the opportunity to request that the
court ask followup questions directed to those particular
jurors. “The right to voir dire, like the right to peremptorily

challenge [citation], is not a constitutional right but a means
to achieve the end of an impartial [**570] jury. [Citation.]
… [I]t is the duty of the trial judge to restrict the examination
of the prospective jurors within reasonable bounds so as to
expedite the trial. [Citations.]” (People v. Wright (1990) 52
Cal.3d 367, 419 [276 Cal. Rptr. 731, 802 P.2d 221]; see also
People v. Bittaker (1989) 48 Cal.3d 1046, 1086 [***869]
[259 Cal. Rptr. 630, 774 P.2d 659].)
In view of the circumstance that the parties clearly were
given the opportunity to elicit information on voir dire, we
conclude, consistent with our foregoing pronouncements,
that the time limits of which defendant complains did not
prevent defense counsel from making reasonable inquiries
into the fitness of prospective jurors to serve on the jury. No
error or abuse of discretion appears. (See e.g., People v.
Carpenter (1997) 15 Cal.4th 312, 353-354 [63 Cal. Rptr. 2d
1, 935 P.2d 708]; People v. Lucas (1995) 12 Cal.4th 415,
480 [48 Cal. Rptr. 2d 525, 907 P.2d 373].) 25
Moreover, even were we to assume that the trial court
abused its discretion in restricting voir dire, defendant has
failed to establish prejudice. (See People v. Carpenter,
supra, 15 Cal.4th at p. 354; see also People v. Bittaker,
supra, 48 Cal.3d at p. 1082 [no abuse of discretion where
the court formulated four specific questions to ask
prospective jurors during the death-qualifying process, and
refused to permit further questions from counsel].) The trial
court’s rulings were minimally restrictive, and the
circumstance that both parties passionately argued against
them suggests that the [*1252] court’s restrictions did not
disproportionately impact one side to the advantage of the

“I’ll let you know at that time, but for your planning purposes … I’m not going to change the hour and [the] 30 minute [time
periods], because I think you can … more than adequately cover the subjects that you have if you are concentrating on those
particular subjects.
“If it appears based upon the inquiry that it’s not working, I’m going to make a modification on the spot. [¶] … [¶]
“But I am still comfortable in light of your positions, and I can understand your trepidation at trying to do the inquiry in one hour,
but in the long run an hour efficiently used can be very effective, and more effective than if you were to spend two or three hours
and felt as if you had all the additional time.
“But if we run into a problem, you know, I’m going to be watching for it, and I’m willing to listen to your positions on it.”
25

We also observe that, pursuant to Code of Civil Procedure section 205, the trial court permitted the use of written juror
questionnaires, and that each of the questionnaires employed was comprised of 135 questions that spanned 30 pages. (See fn. 24,
ante.)
Defendant contends the trial court improperly restricted the scope of the questions used in the questionnaire, and specifically notes
the trial court’s refusal to permit questions “that might suggest ‘substantial impairment’ under Wainwright v. Witt (1985) 469 U.S.
412 [83 L. Ed. 2d 841, 105 S. Ct. 844], deciding instead that the questionnaire should only inquire whether a juror would
‘automatically’ refuse or vote for death or life imprisonment.” The trial court was not required to ensure that a particular question
regarding a specific legal doctrine would be asked. (See People v. Johnson (1989) 47 Cal.3d 1194, 1224 [255 Cal.Rptr. 569, 767
P.2d 1047].) In any event, in passing, we observe that nine questions (including numerous subquestions) spanning five pages of the
very thorough questionnaire were aimed directly at eliciting the views of prospective jurors regarding the death penalty.

Petitioner's App. 13 - 257

ER 342

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 78 of 96
(500 of 2466)
Page 19 of 36

36 Cal. 4th 1215, *1252; 117 P.3d 544, **570; 32 Cal. Rptr. 3d 838, ***869
other. Jury selection required eight court days, a period of
time hardly indicative of an unduly rapid proceeding.
C. The Atmosphere in the Courtroom
At certain points during the voir dire examination, defense
counsel complained about the overcrowded conditions
occasioned by the large number of prospective jurors who
had been directed into the courtroom. At one point, counsel
declared: “There is a carnival atmosphere in here not fitting
for this kind of case. We’ve got a hundred and I don’t know
how many people jammed into this one courtroom. Jurors
are complaining. It is extremely uncomfortable, not only for
the jurors, but for counsel. And the whole … atmosphere
militates against the calm deliberation which we ought to be
applying to this case.” On another occasion, the court
informed the jury venire: “I don’t want you to think that
since all these chairs are so close up here that I’m just doing
that to harass you, because given the way the last few days
have gone for most of us, I wouldn’t be surprised if you
thought that.” On yet another occasion, the court indicated
that it had received a note from a prospective juror that read,
“Can you lower the room temperature, it’s too stuffy, etc.,”
to which the court responded, “We didn’t need to have him
tell us.”
[***870] Defendant characterizes the atmosphere in the
courtroom during the voir dire examination as having been
“oppressive,” a circumstance that he contends—when viewed
either singly or together with the trial court’s other asserted
errors—warrants reversal. We disagree. The panel was
comprised of 140 prospective jurors. Although the warm,
crowded conditions in the courtroom [**571] undoubtedly
were neither optimum nor particularly comfortable, they did
not deprive defendant of any rights to which he was entitled.
To the extent defendant’s claim is directed at the difficult
“working conditions” under which the defense was forced
to operate during voir dire, the prosecution was compelled
to perform under the identical challenging conditions. To
the extent defendant’s claim is directed at the potentially
adverse impact the conditions may have had upon
prospective jurors, we observe that defendant was entitled to
an impartial jury, not a contented one. Although defendant’s
representations as to the nature of the courtroom atmosphere
portray a challenging environment for all concerned, we
observe that the eight-day duration of these conditions was
not inordinately lengthy.

Significantly, the defense had six peremptory challenges
remaining when it accepted the jury—a circumstance

indicating that, notwithstanding defendant’s arguments
regarding the “oppressive” nature of the courtroom
atmosphere, the defense was not dissatisfied with the jury as
sworn. Indeed, the [*1253] defense requested that the jury
be sworn. “ ‘When the jury was finally selected, defendant
did not claim that any juror was incompetent, or was not
impartial. We therefore find no prejudicial error.’ ” (People
v. Carpenter, supra, 15 Cal.4th at p. 354.) 26
D. The Trial Court’s Voir Dire Examination of Prospective
Jurors
Defendant contends the trial court misled prospective jurors,
some of whom eventually were sworn as jurors in the case,
by conducting an “improper and misleading voir dire
examination [that] left the defense guessing at bias or
prejudice,” and by misstating the law related to the penalty
phase of the proceedings. Defendant refers to assertedly
imprecise questions posed by the trial court, and its repeated
use during voir dire of inquiries such as, “would you
hesitate to vote for the death penalty, and would you have a
tendency to vote for the death penalty?” (Italics added.)
Further, in response to questions posed by prospective
jurors as to whether the “weighing process” described by
the court would involve a “moral decision,” the trial court
answered in the negative. Defendant contends that this
response by the court conflicted with CALJIC No. 8.88
(1989 rev.), which specifically instructed jurors that “You
are free to assign whatever moral or sympathetic value you
deem appropriate to each and all of the various factors you
are permitted to consider.” (Italics added.) Defendant further
asserts that “the record does not demonstrate adequate bases
for trial court rulings on challenges for cause, in large part
because it is not clear the views of prospective jurors would
have prevented or substantially impaired performance of
their duties as jurors.”
Our review of the trial court’s voir dire examination reveals
that although defendant is correct that certain statements
made by the court lacked precision, may have been overly
simplistic, and contained technical misstatements of law, the
court [***871] made clear that its comments were “not
instructions on the law which I’m giving you at this time.
You’ll receive, if you’re selected as a juror, the actual
instructions on the law in their full detail later.” We believe
the court’s admonition made clear that its comments were
directed toward generally familiarizing the prospective
jurors with the tasks ahead in order to elicit responses from
them that would assist the parties in determining whether or

26

The trial court denied the parties’ joint request to increase the number of their respective peremptory challenges from 20, the
amount specified under Code of Civil Procedure section 231, subdivision (a), to 26.

Petitioner's App. 13 - 258

ER 343

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 79 of 96
(501 of 2466)
Page 20 of 36

36 Cal. 4th 1215, *1253; 117 P.3d 544, **571; 32 Cal. Rptr. 3d 838, ***871
not to exercise their available challenges. Significantly,
counsel were given the opportunity to ask followup questions
of prospective jurors.

than you could in school. [¶] I said, well, you know, that
might be so, but I plan on going to college. I barely know
you. I’m not going to give up my life so I can sail to France
with you.”

[*1254] E. Trial Court’s Rulings on Challenges for Cause

(8) In considering defendant’s contention that the trial court
erred in ruling on challenges for cause, we are guided by
well established principles. If, as occurred in the present
case, a defendant has unused peremptory challenges available
when the trial court impanels the jury, and the defendant
[**572] does not express dissatisfaction with the jury
ultimately selected, his or her claim is not preserved on
appeal. (People v. Ochoa (1998) 19 Cal.4th 353, 444 [79
Cal. Rptr. 2d 408, 966 P.2d 442].) Even were defendant’s
claim properly preserved, we would reject it on the merits
because he has failed to identify any prospective juror who
he contends was improperly retained on the jury despite a
valid challenge for cause, or one who erroneously was
removed for cause. In view of defendant’s failure to
establish specific reversible error, his contention must fail.
III. GUILT PHASE ISSUES
A. Testimony of Polly Haisha
Over defendant’s objection on the ground of lack of
relevancy, the prosecution introduced the testimony of Polly
Haisha, an acquaintance of defendant’s, who, as a senior in
high school, met defendant at a party in February 1984.
Haisha testified that she accepted defendant’s invitation at
the party to go sailing with him and gave him her telephone
number, but subsequently cancelled the date because she
“just felt really uncomfortable about the whole thing. I had
a weird feeling about it. I ca[lled] him up and canceled. I
made up an excuse why I couldn’t go … .” Haisha and
defendant spoke several times in the ensuing weeks; the two
repeatedly rescheduled their date but, in Haisha’s words, “I
would always cancel out shortly before we were supposed
to meet.” Haisha identified defendant in court and in
photographic exhibits. She also verified that an entry in
defendant’s address book was her telephone number at the
time (observing, however, that her name had been
misspelled). 27
Haisha further testified that upon informing defendant
during one of their initial conversations of her plans to
attend college, he responded: “You know, that’s just a waste.
He said why don’t you quiet [sic] school and come sail to
France with me. You’ll get a better experience of life there
27

[*1255] In response to the prosecutor’s inquiry regarding
defendant’s demeanor on the telephone, Haisha testified:
“Well, the very first time I talked to him the next day after
I met him at the party, he was really nice and very open to
what we could do, and anything that I wanted—to whenever
we wanted to meet after that. [¶] It got— [***872] he got
more and more aggressive. Like the time I said I wouldn’t
go to France with him, he acted like I was making fun of
him; somehow that was a stupid idea or something. [¶] He
would get kind of mean and when I would cancel on dates,
he would get kind of irritated, like he had to change his
whole schedule for me. Yet, again, he wasn’t happy. [¶] It
kind of scared me, but he would always tone it down
towards the end so I wouldn’t be afraid to talk with him the
next time. [¶] … [¶] Later on, towards the end of our phone
conversations, he mentioned his ex-wife … and at that time
he was really bitter about it and, you know, would call her
names and said he was happy that part of his life was over.
He was happy to get away from her. [¶] He called her a
bitch.”

Haisha also testified that in the evening of March 24, 1984,
defendant contacted her by telephone and informed her he
would be in San Diego on the following day. In response,
Haisha “asked him at the end of our phone call never to call
me again, and that I didn’t want to talk to him anymore. [¶]
I certainly didn’t want to see him, and he became very
irritated and said why all of a sudden this change, we
haven’t even gone out yet. [¶] I said well, I don’t feel
comfortable about talking to you or seeing you. I would
rather this ended right now, and would you please just never
call this number again. … [¶] He was very irritated and he
started getting mad and almost hostile. That’s when I knew
for sure I made the right choice, because at previous times
in phone conversations he had gotten that way.” She added
that she did not remember defendant ever contacting her
again after that.
[**573] On cross-examination, Haisha testified that during
the time period in which defendant was on trial (April
1991), she was a law student who, in the previous year, had
worked as an intern in the San Diego County District
Attorney’s Office, and that she planned to return to that
office again to work as an intern after taking the bar
examination that upcoming summer.

In addition to Polly Haisha’s name, the address book contained the names of murder victims Susan Knoll and Janette Cullins.

Petitioner's App. 13 - 259

ER 344

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 80 of 96
(502 of 2466)
Page 21 of 36

36 Cal. 4th 1215, *1255; 117 P.3d 544, **573; 32 Cal. Rptr. 3d 838, ***872
On appeal, defendant reiterates his contention at trial that
Haisha’s testimony was irrelevant and that it warranted
exclusion for that reason, additionally asserting on appeal
that the testimony was highly prejudicial, “designed to
inflame the jury,” and constituted improperly admitted
character evidence (Evid. Code, § 1101, subd. (b)), and that
the trial court erred in failing to exercise its discretion under
Evidence Code section 352 to exclude this evidence.
Defendant adds that the trial court’s admission of Haisha’s
testimony violated a panoply of defendant’s state and
federal constitutional rights.
[*1256] Preliminarily, we observe that defendant did not
object at trial based upon Evidence Code section 352 or
1101—a point acknowledged by defendant but apparently
overlooked by the People—and therefore has not preserved
this claim for our review. (See, e.g., People v. Boyette
(2002) 29 Cal.4th 381, 424 [127 Cal. Rptr. 2d 544, 58 P.3d
391].)

With regard to the substance of defendant’s contentions, we
conclude they are without merit for reasons similar to those
set forth in response to defendant’s challenge to the
admission of other evidence introduced in the Los Angeles
proceedings. (See People v. Carter, supra, 36 Cal.4th at pp.
1165–1173.) In view of our more extensive summary of the
applicable legal principles involving relevancy and prejudice
in the companion appeal, the brief analysis that follows shall
suffice.
The prosecution met its burden of establishing that the
testimony of Polly Haisha was relevant under Evidence
Code section 210. Haisha’s testimony corroborated the
testimony of Susan Loyland that defendant [***873]
intended to be in San Diego on March 25, 1984, the date on
which Loyland’s housemate, Barbara S., was raped in San
Diego, and after which neither Haisha nor Loyland ever
heard from defendant again. Haisha’s testimony also
bolstered the prosecution’s theory of the case that defendant
embarked upon his murderous crime spree in the immediate
aftermath of being spurned by a number of women, including
Haisha. (See ante, at pp. 1221–1223.) Implicit in the
prosecution’s theory is that these rejections comprised a
“trigger” that, once pulled, propelled defendant to rape and
murder women whom he recently had befriended.
Accordingly, defendant’s demeanor during his conversations

with Haisha—including his frustration and anger when
Haisha cancelled their scheduled dates—in the weeks leading
up to the murders and other crimes appears relevant.
The evidence was not unduly prejudicial. It merely described
Haisha’s initial encounter with defendant at a party and his
subsequent fruitless efforts to meet her again, causing him
to become irritated or angry. The testimony was not
altogether uncomplimentary, as Haisha recalled that during
their first telephone conversation, defendant “was really
nice.”
The trial court did not abuse its discretion in denying
defendant’s motion to exclude Haisha’s testimony. Further,
viewed in the context of defendant’s trial, in which the
prosecution’s evidence overwhelmingly established that
defendant committed multiple brutal murders and vicious
rapes, the testimony of Polly Haisha—a woman whom
defendant did not physically attack, and who had only
minimal personal contact with him—was not even remotely
prejudicial.
[*1257] Citing Evidence Code section 1101, subdivision
(a), defendant also contends Haisha’s testimony was
“improperly admitted character evidence, and no doubt
carried over to penalty phase as non-statutory aggravation
evidence.” 28 Defendant’s argument fails because, [**574]
as noted, it was not presented at the trial court, nor did
admission of the evidence violate Evidence Code section
1101, subdivision (a), because the prosecution did not offer
Haisha’s testimony to prove defendant’s conduct on a
specific occasion. Finally, it is not reasonably possible that
the evidence “carried over” as an aggravating circumstance
to the penalty phase, or that in the absence of the evidence
defendant would have received a more favorable penalty
verdict. As noted above, a massive amount of other, far
more damaging evidence was introduced against defendant
at the guilt and penalty phases of the trial.

Considered as guilt phase evidence, even if we were to
determine under any theory that the trial court abused its
discretion in admitting the testimony of Polly Haisha, such
error would have been harmless under the applicable
Watson standard, because it is not reasonably probable that
the jury would have reached a different result in the absence

28

Subject to certain exceptions not relevant to our discussion, Evidence Code section 1101, subdivision (a), provides: “[E]vidence
of a person’s character or a trait of his or her character (whether in the form of an opinion, evidence of reputation, or evidence of
specific instances of his or her conduct) is inadmissible when offered to prove his or her conduct on a specified occasion.”

Petitioner's App. 13 - 260

ER 345

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 81 of 96
(503 of 2466)
Page 22 of 36

36 Cal. 4th 1215, *1257; 117 P.3d 544, **574; 32 Cal. Rptr. 3d 838, ***873
of Haisha’s testimony. (People v. Watson (1956) 46 Cal.2d
818, 836 [299 P.2d 243].) 29
[***874] B. Sufficiency of the Evidence

(9) Defendant contends the evidence was insufficient to
support his conviction of the crimes committed against
Barbara S. and Janette Cullins, as well as the prior murder
and lying-in-wait special-circumstance findings. “In
reviewing a criminal conviction challenged as lacking
evidentiary support, ‘ “the court must review the whole
record in the light most favorable to the judgment below to
determine whether it discloses substantial evidence—that is,
evidence which is reasonable, credible, and of solid
value—such that a [*1258] reasonable trier of fact could
find the defendant guilty beyond a reasonable doubt.”
[Citation.]’ (People v. Hillhouse (2002) 27 Cal.4th 469, 496
[117 Cal.Rptr.2d 45, 40 P.3d 754].) The same standard of
review applies to special circumstance allegations. (People
v. Maury (2003) 30 Cal.4th 342, 396 [133 Cal.Rptr.2d 561,
68 P.3d 1].) An appellate court must accept logical inferences
that the jury might have drawn from the evidence even if the
court would have concluded otherwise. (People v. Rodriguez
(1999) 20 Cal.4th 1, 11 [82 Cal.Rptr.2d 413, 971 P.2d
618].)” (People v. Combs (2004) 34 Cal.4th 821, 849 [22
Cal. Rptr. 3d 61, 101 P.3d 1007].)

Loyland, who departed from San Diego without him. Janell
Barksdale, the next-door neighbor of Barbara S. and Susan
Loyland, observed defendant approaching the victims’
residence on the evening of March 25. That evening,
defendant broke into Loyland’s residence, stole some of her
tip money from a concealed location that previously had
been revealed to him, and raped at knifepoint Barbara S.,
Loyland’s housemate.
Barbara S. provided details of the rape, oral copulation,
robbery, and burglary, including the circumstances that her
assailant’s voice sounded familiar to her and that weeks
later she recognized the voice as defendant’s. At trial, she
identified defendant as the man who attacked her. Susan
Loyland established that defendant had seen the location
where she had concealed the money determined to have
been taken from her bedroom, and explained why she
suspected defendant might have been Barbara S.’s assailant.

Defendant contends his conviction of the crimes committed
against Barbara S. is not supported by sufficient evidence.
He is mistaken.

Defendant glosses over the foregoing highly incriminating
evidence, instead [**575] emphasizing Barbara S.’s general
uncertainty and inability to identify her assailant in the
immediate aftermath of the attack. Defendant also asserts
the prosecution “clearly bootstrapped” its case in the Barbara
S. sexual assault to the “other crimes” evidence implicating
defendant in the murders of Susan Knoll, Jillette Mills,
Bonnie Guthrie, and Janette Cullins, the death of Tok Kim,
and the sexual assault of Jennifer S. He further asserts that
the evidence supporting the convictions was undermined by
the fact that the trial [*1259] court excluded evidence
indicating that Barbara S. suffered from alcoholism in the
spring of 1984. 30

As we have noted (ante, at pp. 1221–1226), one day after
having been rejected by Polly Haisha and Cathleen Tiner,
defendant arrived in San Diego on March 25, 1984, having
made plans to travel to Mexico that day with Susan

[***875] None of defendant’s points is persuasive. Barbara
S.’s identification of defendant as the man who assaulted
and robbed her at knifepoint in her residence was supported
by her housemate’s testimony that money was stolen from a

1. The Crimes Committed Against Barbara S.

29

In view of our conclusion that the trial court properly admitted the testimony of Polly Haisha, defendant’s contention that his
trial counsel’s “failure to assert the proper objection [under Evidence Code sections 352 and 1101, subdivision (a)] constitutes
ineffective assistance of counsel” necessarily fails. (See, e.g., People v. Memro (1995) 11 Cal.4th 786, 834 [47 Cal. Rptr. 2d 219,
905 P.2d 1305]; People v. Frierson (1991) 53 Cal.3d 730, 747 [280 Cal. Rptr. 440, 808 P.2d 1197].)
30
Defendant assigns error to the trial court’s ruling, made pursuant to Evidence Code section 352, excluding the proffered
testimony of Susan Loyland that Barbara S. suffered from alcoholism.

After conducting a foundational hearing at the People’s request, outside the presence of the jury, in which Loyland described her
own alcoholism and daily drug usage in the spring of 1984, the trial court explained at length its reasons for excluding Loyland’s
proffered testimony, stating that although the evidence “could be relevant,” its admission “is going to take us in a circle of evidence
that is … going to be nonproductive and [cause] undue consumption of time.” The court added: “I’m not precluding that subject of
[Barbara. S.] being an alcoholic being raised by other witnesses if the foundation can be laid.”
The trial court’s ruling conformed to the requirements of Evidence Code section 352. The proffered testimony regarding Barbara
S.’s alleged alcoholism was marginally relevant and likely would have consumed an undue amount of court time. No abuse of
discretion appears.

Petitioner's App. 13 - 261

ER 346

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 82 of 96
(504 of 2466)
Page 23 of 36

36 Cal. 4th 1215, *1259; 117 P.3d 544, **575; 32 Cal. Rptr. 3d 838, ***875
concealed location known to defendant, and by a neighbor’s
testimony that defendant walked toward the residence on
the night of the attack. Thus, the prosecution’s evidence
implicating defendant in the attack on Barbara S. more than
adequately meets the substantial evidence standard
summarized above. (People v. Combs, supra, 34 Cal.4th at
p. 849.) 31
2. The Crimes Committed Against Janette Cullins
Defendant contends the evidence is insufficient to sustain
his conviction of murder, robbery, and burglary stemming
from crimes committed at the residence of Janette Cullins
on or about April 12, 1984. He challenges on similar
grounds the jury’s true findings as to the burglary, robbery,
and lying-in-wait special circumstances. With the exception
of the last special circumstance, we find unpersuasive each
of these assertions.
The evidence adduced at trial established that defendant
visited Janette Cullins’s apartment on the afternoon of April
12, 1984, asking her new roommate, Cheri Phinney, how
long Phinney planned to be there. That [*1260] evening,
Cullins attended the symphony with her friend, Cathleen
Tiner, who last saw Cullins at approximately 11:00 p.m.,
when Cullins departed to return to her apartment. A neighbor
of Cullins observed the distinctive white Datsun 280 ZX in
which defendant subsequently was arrested, parked with its
engine running for several minutes late that evening. A
number of Cullins’s friends unsuccessfully attempted to
contact Cullins on April 13.
A visitor to Cullins’s apartment on April 14 noticed wood
chips on the floor by the front door—evidence consistent
with a forced entry. Cullins’s body was found partially
clothed in the bedroom closet, and her neck bore a ligature
mark. The concealment of the body in a closet and the cause
of Cullins’s
[**576]
death—asphyxia due to
strangulation—bore a strong resemblance to the
circumstances of the Susan Knoll/Jillette Mills murders in
Culver City three days earlier.
[***876] Cullins’s wallet containing her various items of
identification was recovered from a location near where the

distinctive Datsun 280 ZX was parked that same week. The
wallet also contained Bonnie Guthrie’s identification,
strongly suggesting that one person had murdered and
robbed both women.
On April 13, 1984, a man wearing a dark jacket made a
withdrawal from Cullins’s bank account. Four days later, in
Arizona, a paper bearing the word “SHYLAS,” a bank
passcard bearing Cullins’s name, and a black jacket were
among the items found in defendant’s possession at the time
of his arrest.
The foregoing evidence amply supports the jury’s
conclusions that late in the evening of April 12, 1984,
defendant, with the requisite felonious intent, forced his
way into Cullins’s apartment, encountered Cullins,
compelled her to disclose her bank password, then fatally
strangled her, concealed her body in her bedroom closet,
took her wallet, and subsequently depleted her bank account.
The evidence thus established the elements of the charged
offenses—burglary, robbery, and murder—as well as the
elements of the burglary and robbery special circumstances.
In reaching our conclusion, we reject defendant’s contention
that the prosecution failed to establish that defendant acted
with felonious intent. Nor do we find persuasive his related
contention
that
the
robbery
and
burglary
special-circumstance findings were improper because the
crimes were merely incidental to the murder or intended to
facilitate or conceal the murder. (See People v. Zapien
(1993) 4 Cal.4th 929, 984–985 [17 Cal. Rptr. 2d 122, 846
P.2d 704].) The requisite intent for each crime, and
supporting each of these special circumstances, readily may
be inferred from the evidence. (See People v. Matson (1974)
13 Cal.3d 35, 41 [117 Cal. Rptr. 664, 528 P.2d 752]
[“Although the People must show that a defendant charged
with burglary [*1261] entered the premises with felonious
intent, such intent must usually be inferred from all of the
facts and circumstances disclosed by the evidence, rarely
being directly provable. [Citations.] When the evidence
justifies a reasonable inference of felonious intent, the
verdict may not be disturbed on appeal.”]; see also People
v. Ochoa, supra, 19 Cal.4th at pp. 413–414 [In reviewing a

Moreover, even were we to conclude that the trial court ruled incorrectly, any such error plainly would have been harmless in view
of the overwhelming evidence that defendant broke into the residence shared by Barbara S. and Susan Loyland, stole money
belonging to each, and sexually assaulted Barbara S.
31

In view of our holding, above, we reject as without merit defendant’s related claim that the “insufficiency of the evidence”
supporting the sexual assault crimes perpetrated against Barbara S. led to error at the penalty phase when the trial court admitted
this evidence in aggravation pursuant to section 190.3, factor (b) (“criminal activity by the defendant which involved the use or
attempted use of force or violence or the express or implied threat to use force or violence”). As noted, the evidence was sufficient;
therefore defendant’s argument fails.

Petitioner's App. 13 - 262

ER 347

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 83 of 96
(505 of 2466)
Page 24 of 36

36 Cal. 4th 1215, *1261; 117 P.3d 544, **576; 32 Cal. Rptr. 3d 838, ***876
claim of insufficient evidence as to special circumstance
findings, “ ‘ “we must determine ‘whether, after viewing the
evidence in the light most favorable to the prosecution, any
rational trier of fact could have found the essential elements
of the [allegations] beyond a reasonable doubt.’ ” ’
[Citation.]”].)
The requisite intent and all essential elements were present
here. Cullins’s apartment showed signs of a forced entry
consistent with an intent to commit a felony. The evidence
that the doorjamb had been pried, producing a scattering of
wood chips near the front door, supported the burglary
charge and the burglary special circumstance.
The circumstance that defendant harbored an intent to rob
Cullins—quite independent of his intent to murder her—may
be inferred from the evidence that he obtained her bank
account password prior to fatally strangling her. The
circumstances of the break-in, murder, robbery, and theft,
together with defendant’s hurried, loud, and dramatic
departure in the stolen vehicle consistent with a perpetrator’s
escape from a crime scene, amply support the inference of
defendant’s intent to commit burglary. (People v. Moody
(1976) 59 Cal. App. 3d 357, 363 [131 Cal. Rptr. 923].)
With regard to defendant’s contention that the lying-in-wait
special circumstance was not supported by substantial
evidence, the People contend the [***877] evidence
adduced at trial suggested that defendant accomplished his
entry prior to Cullins’s arrival home. The People urge that
no other explanation for the forcible entry, indicated by the
presence of the wood chips, was adduced at trial, and that it
reasonably could be inferred that defendant was lying in
wait for his victim from the forced entry, as well as from the
presence of Jillette Mills’s stolen vehicle, with its engine
running for several minutes, at the approximate time Cullins
likely returned to her [**577] apartment. (See People v.
Hillhouse, supra, 27 Cal.4th at pp. 500–501; People v.
Michaels (2002) 28 Cal.4th 486, 516–517.)
We reject the People’s position on this point. The evidence
in
support
of
the
lying-in-wait
special
circumstance—essentially, the wood chips and the car with
its engine running—appears unduly reliant upon the
inference suggested by the prosecution that defendant arrived
prior to Cullins’s return home in order to attack her by

surprise. The wood chip evidence tended to show forced
entry, not that the entry occurred prior to Cullins’s arrival.
[*1262] Cullins may have arrived at her apartment before
defendant did, and he may have forced his way in while she
was undressing elsewhere in the apartment. Under the latter
scenario, the lying-in-wait special circumstance would rely
upon the neighbor who heard the car engine running, and
the time of that event cannot be pinpointed. Moreover, the
car idling, besides occurring at an uncertain time, does not
strongly imply that defendant was waiting in the car to
attack Cullins; if defendant had planned a home invasion
when Cullins arrived home, he likely would have turned off
the engine so as not to attract attention. We therefore set
aside the special circumstance of lying in wait.
At the time of defendant’s arrest, he was fleeing California
in a vehicle that had belonged to murder victim Jillette
Mills, and was in possession of personal property that linked
him to each one of the murdered women, including the
murder victim in the present case. As noted, Janette Cullins’s
body was concealed in a manner similar to that used to hide
the bodies of Susan Knoll and Jillette Mills. Each of these
women, and Bonnie Guthrie, had been fatally strangled. No
reasonable explanation, other than defendant’s culpability
for the charged offenses, presented itself at trial. Indeed, the
evidence in support of the charged crimes and burglary and
robbery special circumstances was overwhelming. 32
3. The Prior Murder Special Circumstance
Defendant contends the trial court committed prejudicial
error when it denied his motion to strike the prior-murder
special-circumstance allegations derived from the murders
of Susan Knoll, Jillette Mills, and Bonnie Guthrie, reflected
in the Los Angeles County judgment rendered against
defendant on January 30, 1990. Defendant challenged the
prior convictions on the ground they were “constitutionally
defective,” because defendant “was denied the right to
effective assistance of counsel” and “denied his constitutional
right to testify at the guilt phase of the Los Angeles trial; he
was erroneously denied his constitutional [***878] right to
present a defense at the guilt phase of that trial; and the Los
Angeles trial court erroneously failed to afford him a
hearing on conflict of interest allegations between him and
his attorneys, in violation of his right to counsel.” Defendant
further asserts that “failure to dismiss [the prior murder]

32
In view of our conclusion that substantial evidence supports defendant’s convictions and the burglary and robbery
special-circumstance findings, we find no merit in defendant’s related contention that the trial court erred in denying his pretrial
motion to dismiss the substantive charges and strike those special circumstance allegations. For the same reason, we reject
defendant’s contention that the trial court erred in denying his motions for judgment of acquittal made during and at the conclusion
of the prosecution’s case-in-chief.

Petitioner's App. 13 - 263

ER 348

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 84 of 96
(506 of 2466)
Page 25 of 36

36 Cal. 4th 1215, *1262; 117 P.3d 544, **577; 32 Cal. Rptr. 3d 838, ***878
special circumstances … would deny [him] a fair trial and
due process of law … and would deny him protection
against cruel and unusual punishment” in violation of the
applicable state and federal constitutional guarantees.
[*1263] In the companion case, People v. Carter, supra, 36
Cal.4th 1114, we have upheld the judgment of death against
defendant for the murders of Susan Knoll, Jillette Mills, and
Bonnie Guthrie. In so doing, we have rejected contentions
that are substantially similar to those made in support of
defendant’s motion at the trial of the present case to strike
the
prior
murder
special-circumstance
allegations—contentions that, by his own acknowledgment,
he has included “to a large extent” here. (Id. at pp.
1156–1157.) As we have [**578] explained in that decision,
the Los Angeles County murder convictions were valid, and
therefore the San Diego trial court properly denied the
motion to strike. Insofar as defendant’s arguments regarding
the validity of the prior murder convictions forming the
basis for the prior murder special circumstance differ from
the arguments made in his automatic appeal from the Los
Angeles County judgment convicting him of those murders,
we reject those arguments.

C. Alleged Prosecutorial Misconduct
Defendant contends the prosecutor committed prejudicial
misconduct, requiring reversal of the judgment, based upon
the following asserted transgressions: (1) “misstatements of
fact and deceptive practices to gain favorable rulings,” (2)
“comments disparaging of defense counsel,” and (3)
“prosecutorial misconduct during opening and rebuttal
arguments, including adverse comment upon defendant’s
right against self-incrimination, improper shifting of the
burden of proof, and misstatements of law.”
(10) “ ‘The applicable federal and state standards regarding
prosecutorial misconduct are well established. “ ‘A
prosecutor’s … intemperate behavior violates the federal
Constitution when it comprises a pattern of conduct “so
egregious that it infects the trial with such unfairness as to
make the conviction a denial of due process.” ’ ” [Citations.]
Conduct by a prosecutor that does not render a criminal trial
fundamentally unfair is prosecutorial misconduct under
state law only if it involves “ ‘ “the use of deceptive or
reprehensible methods to attempt to persuade either the
court or the jury.” ’ ” [Citation.] As a general rule a
defendant may not complain on appeal of prosecutorial
misconduct unless in a timely fashion—and on the same
ground—the defendant [requested] an assignment of
misconduct and [also] requested that the jury be admonished
to disregard the impropriety. [Citation.] Additionally, when

the claim focuses upon comments made by the prosecutor
before the jury, the question is whether there is a reasonable
likelihood that the jury construed or applied any of the
complained-of remarks in an objectionable fashion.’ (People
v. Samayoa (1997) 15 Cal.4th 795, 841 [64 Cal. Rptr. 2d
400, 938 P.2d 2].)” (People v. Ochoa, supra, 19 Cal.4th at
p. 427; see also People v. Box, supra, 23 Cal.4th at pp.
1207–1208 [rejecting claim of prosecutorial misconduct
where the defendant “failed to satisfy the general [*1264]
rule requiring assignment of misconduct and request for
admonition as to the prosecutor’s comment of which he now
complains”].)
[***879] Here, defendant failed to request an assignment of
misconduct or an admonition with regard to any of the
conduct he now challenges as improper. Accordingly, he has
not preserved his claims on appeal.

Even assuming defendant’s claims properly were before us,
we would reject them on the merits, as follows.
1. Alleged Misstatements of Fact and Deceptive Practices
Defendant contends that prior to trial, the prosecution
misled the trial court into believing that a key found in
defendant’s possession was a key to Barbara S.’s business
office. Defendant implies the prosecution acted in bad faith
in light of its subsequent disclosure that the key could not be
located. No misconduct appears.
Defendant faults the prosecution for declining to stipulate to
certain facts supporting defendant’s motion to suppress
evidence seized from the Datsun 280 ZX. Defendant
contends the prosecution’s position was characterized by
“obfuscation and gamesmanship.” The prosecution’s
reluctance to accept a stipulation was not improper. (See
People v. Garceau (1993) 6 Cal.4th 140, 182 [24 Cal. Rptr.
2d 664, 862 P.2d 664].)
Defendant contends the prosecution misrepresented the
significance of the testimony of witness Polly Haisha.
Defendant argues that the prosecution on the first day of
trial deceptively suggested that Haisha was a potential
witness who was unlikely to be called unless the defense
denied ownership of the address book that included her
name. Defendant also complains that Haisha, a law [**579]
student, was permitted to remain in the courtroom during a
portion of the opening statements, until the defense objected
that her presence violated the court’s order excluding
witnesses from observing the proceedings.
At trial, defendant objected to Haisha’s testimony on
relevancy grounds, which the trial court properly overruled,

Petitioner's App. 13 - 264

ER 349

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 85 of 96
(507 of 2466)
Page 26 of 36

36 Cal. 4th 1215, *1264; 117 P.3d 544, **579; 32 Cal. Rptr. 3d 838, ***879
as we previously have explained. (See, ante, at pp.
1254–1257.) Defendant did not object to Haisha’s testimony
on the ground that the prosecution had violated discovery
rules or had engaged in misconduct. Therefore, he has
waived any such claim on appeal. (People v. Ochoa, supra,
19 Cal.4th at p. 427.) Even if we assume prosecutorial
misconduct, it is not reasonably probable that a result more
favorable to defendant would have occurred in the absence
of Haisha’s testimony. (People v. Haskett (1982) 30 Cal.3d
841, 866 [180 Cal. Rptr. 640, 640 P.2d [*1265] 776].) As
we previously have noted, Haisha was a minor witness
whose testimony was peripheral to the central events
underlying defendant’s crime spree. Neither her presence
during a portion of the prosecutor’s opening statement, in
violation of the court’s order excluding witnesses, nor her
eventual testimony at trial, could have made any possible
difference in the outcome of the trial, in view of the
compelling evidence that linked defendant to the charged
offenses.
2. The Prosecutor’s Comments Regarding Defense Counsel
Defendant contends the prosecution made disparaging
comments regarding defense counsel. Again, defendant did
not object to the comments of which he now complains, and
thereby has waived his claim. (People v. Gionis (1995) 9
Cal.4th 1196, 1215 [40 Cal. Rptr. 2d 456, 892 P.2d 1199].)
33

Even if defendant’s contention properly were before us, we
would reject it. With one exception, the comments were not
made in the presence of the jury, and defendant fails to
demonstrate how these comments outside the jury’s presence,
[***880] which were of the sort one might expect to
encounter during a vigorously contested capital trial,
prejudiced the proceedings below. With regard to the one
comment made before the jury—at the commencement of
the prosecution’s guilt phase rebuttal argument—we note
that it was fleeting, imprecisely attributed to a member of
the United States Supreme Court, and not remotely similar
in degree of impropriety to the comments we have held to
constitute prejudicial misconduct. (See, e.g., People v. Hill
(1998) 17 Cal.4th 800 [72 Cal. Rptr. 2d 656, 952 P.2d
673].) 33
[*1266]

3. Other Alleged Prosecutorial Misconduct
Immediately after making the comment noted in the margin
(fn. 33, ante), the prosecutor commented upon the failure of
the [**580] defense to present evidence as to “why
defendant was in that car with all that property. They could
do that if they wanted to.” 34 Defendant interposed an
objection that the prosecutor improperly was “suggesting
that the defendant should have testified, and [is] drawing
attention to the fact that he did not.” (See Griffin v.

The prosecutor argued on rebuttal as follows:

“Good morning. [Defense counsel] suggested that the prosecution, or law enforcement developed a theory about Dean Carter’s guilt
and then suggested that perhaps the witnesses changed their testimony to fit that theory. Suggested perhaps that by the way we ask
questions and the way we presented evidence, that we were somehow trying to manipulate the evidence to fit a theory about his
guilt.
“I suggest to you that would be improper for the prosecution to do.
“[Defense counsel] likes to talk about age[-]old traditions in our system, he likes to talk about the Constitution, and he likes to talk
about the rules, so I’m going to do that for a minute.
“I’m going to tell you what a United States Supreme Court [justice]—he likes to do that on occasion, to, quote the United States
Supreme Court—said about the relative duties between prosecutors and defense attorneys.
“ ‘Law enforcement officers have an obligation to convict the guilty and to make sure they do not convict the innocent.’
“It would be improper for the prosecution to try to manipulate a case to convict somebody who wasn’t guilty. And if we tried to do
that, he wouldn’t stand still for it, and the court wouldn’t stand still for it.
“That hasn’t happened.
“That same United States Supreme Court Justice says, ‘Defense counsel have no comparable obligation to ascertain or present the
truth.’
“They don’t have to tell you what’s true. We do.” (Italics added.)
The prosecutor’s comments, of which defendant now complains, are derived from United States v. Wade (1967) 388 U.S. 218,
256–257 [18 L. Ed. 2d 1149, 87 S. Ct. 1926] (conc. & dis. opn. of White, J.).
34

The prosecutor argued as follows:

Petitioner's App. 13 - 265

ER 350

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 86 of 96
(508 of 2466)
Page 27 of 36

36 Cal. 4th 1215, *1266; 117 P.3d 544, **580; 32 Cal. Rptr. 3d 838, ***880
California (1965) 380 U.S. 609 [14 L. Ed. 2d 106, 85 S. Ct.
1229] (Griffin).) In view of the arguable ambiguity inherent
in the prosecutor’s comments, the trial court declined to rule
as to their propriety, and instead acceded to defendant’s
request to reinstruct the jury at that time pursuant to
CALJIC Nos. 2.60, and 2.61, which recognized defendant’s
constitutional right not [***881] to testify and his option to
rely on the state of the evidence.

the indirect nature of the prosecutor’s comment, the court’s
timely reinstruction of the jury, and the strength of the
evidence against defendant, it is “clear beyond a reasonable
doubt that the jury would have returned a verdict of guilty”
(United States v. Hasting (1983) 461 U.S. 499, 511 [76 L.
Ed. 2d 96, 103 S. Ct. 1974]) even if the prosecutor had not
made the comment at issue. Accordingly, no prejudicial
error occurred.

On appeal, defendant contends that the prosecutor’s
comments constituted Griffin error. (People v. Sanders
(1995) 11 Cal.4th 475, 527–529 [46 Cal. Rptr. 2d 751, 905
P.2d 420].)

Defendant also characterizes as improper argument certain
additional remarks made by the prosecutor during
summation: “There are people among us who murder other
people because they like to murder other people. [¶] There
are evil people among us. [¶] … [¶] [Defense counsel]
stresses that you are the conscience of the community, and
you are. People in the community have emotions. It’s …
improper for you to have your verdict influenced by
emotion. But it is proper for you to express through a verdict
how you feel about this case, to tell the defendant Dean
Carter, what you did, you murdered Janette Cullins, was
evil, [**581] was senseless, it was vicious, it was
unforgivable, and it was first degree murder.” Elsewhere
during his summation, the prosecutor argued similarly.

(11) “ ‘Pursuant to Griffin, it is error for a prosecutor to state
that certain evidence is uncontradicted or unrefuted when
that evidence could not be contradicted or refuted by anyone
other than the defendant testifying on his or her own behalf.’
(People v. Hughes (2002) 27 Cal.4th 287, 371 [116
Cal.Rptr.2d 401, 39 P.3d 432].) We also have said ‘it is error
for the prosecution to refer to the absence of evidence that
only the defendant’s testimony could provide.’ (Id. at p.
372, citing People v. Murtishaw (1981) 29 Cal.3d 733, 757
& fn. 19 [175 Cal. Rptr. 738, 631 P.2d 446].) Griffin’s
prohibition against ‘ “direct or indirect comment upon the
failure of the defendant to take the witness stand,” ’
however, ‘ “does not extend to comments on the state of the
evidence or on the failure of the defense to introduce
material evidence or to call logical witnesses.” ’ (People v.
Hovey [*1267] (1988) 44 Cal.3d 543, 572 [244 Cal.Rptr.
121, 749 P.2d 776], quoting People v. Jackson (1980) 28
Cal.3d 264, 304 [168 Cal.Rptr. 603, 618 P.2d 149].)”
(People v. Harrison (2005) 35 Cal.4th 208, 257 [25 Cal.
Rptr. 3d 224, 106 P.3d 895]; see also People v. Stewart
(2004) 33 Cal.4th 425, 505–506 [15 Cal. Rptr. 3d 656, 93
P.3d 271]; People v. Brown (2003) 31 Cal.4th 518, 554 [3
Cal. Rptr. 3d 145, 73 P.3d 1137]; People v. Bradford (1997)
15 Cal.4th 1229, 1339 [65 Cal. Rptr. 2d 145, 939 P.2d
259].)
In this case, we need not decide whether the prosecutor’s
comments constituted error under Griffin, because even if
we assume (without deciding) that error occurred, in view of

Defendant did not interpose an objection, and thus waived
his claim. But even if the issue properly had been preserved,
we would reject defendant’s claim of error. The prosecutor’s
comments were not, as defendant asserts, references to
“improper[] character propensity,” but instead came “within
the range of permissible comment regarding egregious
conduct on defendant’s part. [Citation.]” (People v. Thomas
(1992) 2 Cal.4th 489, 537 [7 Cal. Rptr. 2d 199, 828 P.2d
101] [rejecting a challenge to the prosecutor’s
characterization of the defendant as a “ ‘mass murderer,
rapist,’ ” “ ‘a perverted murderous cancer,’ ” and a “
‘walking depraved cancer’ ”]; see also People v. Hawkins
(1995) 10 Cal.4th 920, 961 [42 Cal. Rptr. 2d 636, 897
[***882] P.2d 574] [upholding prosecutor’s characterization
of the defendant as “ ‘coiled like a snake’ ” and a “ ‘rabid
dog’ ”].) Moreover, in view of the overwhelming evidence
that connected defendant to the charged crimes, the
prosecutor’s remarks “could not have carried such an

“Defense counsel talked a lot about the presumption of innocence. He says you carry that with you into the jury room. I don’t want
to play a word game. The instruction says, ‘The defendant in a criminal action is presumed to be innocent until the contrary is
proved.’
“That happened some time ago. The contrary was proved. His innocence was disproved a long time ago in this case. It doesn’t exist
anymore. The evidence took that away from him.
“The rules are that the defense doesn’t have to present any evidence in a case. They can if they want to. No one prevents them from
presenting any evidence to you. No one prevents them from telling you what happened. No one prevents them from bringing forth
witnesses to explain why the defendant was in that car with all of that property. They could do that if they wanted to.”

Petitioner's App. 13 - 266

ER 351

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 87 of 96
(509 of 2466)
Page 28 of 36

36 Cal. 4th 1215, *1267; 117 P.3d 544, **581; 32 Cal. Rptr. 3d 838, ***882
emotional impact as to make it likely the jury’s [*1268]
decision was rooted in passion rather than evidence.”
(People v. Thomas, supra, 2 Cal.4th at p. 537.)
D. Alleged Instructional Error
Prior to instructing the jury, the trial court reviewed with
counsel the instructions to be given. Defendant objected to
the trial court giving CALJIC No. 17.20, an instruction that
directed the jury to determine whether, if the jury found
defendant guilty of robbery and/or burglary, defendant in
the commission of those crimes committed great bodily
injury on Janette Cullins. 35
Defense counsel argued: “[T]here [are] all kinds of results
that could follow from this. [¶] I don’t know if it’s a
[section] 654 issue or not, but for the [great bodily injury
allegation,] if the [great bodily injury] is the killing, and you
could have some absurd results in this, one is that, for
example, the defendant was found guilty of the robbery and
the burglary, and not the murder and then the intentional
[great bodily injury,] so I’m wondering if this instruction
should be given at all.”
The prosecutor responded: “I think [the instruction] should
be given. I mean the issue in this case is who did the crime.
The same person that robbed her killed her, and counsel
expresses the possibility of bizarre results; that they could
find him guilty of robbery with the intention of inflicting
[great bodily injury], and not the murder. [¶] I can’t imagine
that happening. I imagine Mr. Carter would be happy as a
clam if that happened, but that’s not going to happen.”
The trial court acknowledged the possibility of “an
unexpected result under the facts as we know them,” but
concluded: “I don’t see where it would be prejudicial or
confusing to give the instruction.” The trial court thereafter
[*1269] instructed the jury pursuant to CALJIC No. 17.20.
35

Upon returning verdicts of guilty as to robbery and burglary,
the jury found “true” the allegations that defendant personally
inflicted great bodily injury on Cullins with regard to both
of those offenses. The court imposed sentencing
enhancements of three years’ imprisonment for each of the
[**582] special allegations, which the court stayed pursuant
to section 654.
On appeal, defendant contends the trial court erred in giving
the instruction, citing section 12022.7, subdivision (g),
which provides that a sentencing enhancement for inflicting
great bodily injury [***883] “shall not apply to murder or
manslaughter.” Defendant further contends that reversal of
the judgment is required “because as a matter of law
criminal sanctions were imposed upon insufficient proof
and double punishment is prohibited by law.” He also
challenges the sufficiency of the evidence in support of the
great bodily injury findings.
We reject defendant’s argument in all respects. The jury was
properly instructed, because the allegations of great bodily
injury clearly and specifically enhanced each of the robbery
and burglary counts, not the murder count. The jury’s
verdicts specifically found defendant guilty of robbery and
burglary, with a great bodily injury finding enhancing each
of those two crimes. Nothing contained in the jury’s verdicts
or in the record as a whole indicates that the jury
misunderstood its function in this regard or was confused by
the challenged instruction. With regard to defendant’s claim
that the evidence was insufficient to sustain the findings as
to the enhancements, the fatal strangulation of Janette
Cullins provides the evidentiary support for the allegations
that in committing the robbery and the burglary, defendant
inflicted great bodily injury. The circumstance that the trial
court stayed the three-year enhancements that were imposed
based upon the jury’s findings that defendant inflicted great

Pursuant to CALJIC No. 17.20 (1991 rev.), the trial court instructed the jury as follows:

“It is alleged in Counts Two [robbery] and Three [burglary] that in the commission of the crimes therein described, the defendant,
Dean Phillip Carter, with the specific intent to inflict injury, personally inflicted great bodily injury on Janette Ann Cullins.
“If you find the defendant guilty of robbery and or burglary, you must determine whether or not the defendant, with the specific
intent to inflict such injury, did personally inflict great bodily injury on Janette Ann Cullins in the commission of robbery and/or
burglary.
“ ‘Great bodily injury’ as used in this instruction means a substantial physical injury. Minor or moderate injuries of a temporary
nature do not constitute great bodily injury and are not sufficient.
“The People have the burden of proving the truth of this allegation. If you have a reasonable doubt that it is true, you must find it
to be not true.
“You will include a special finding on that question in your verdict, using a form that will be supplied for that purpose.”

Petitioner's App. 13 - 267

ER 352

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 88 of 96
(510 of 2466)
Page 29 of 36

36 Cal. 4th 1215, *1269; 117 P.3d 544, **582; 32 Cal. Rptr. 3d 838, ***883
bodily injury means that defendant was not subject to
double punishment. No error appears. 36
E. Miscellaneous Contentions
Defendant raises a number of contentions that are either
virtually identical or substantially similar to certain claims
raised on appeal from the Los Angeles County death
judgment rendered against him for the murders of Susan
Knoll, Jillette Mills, and Bonnie Guthrie—contentions that
we have rejected in the companion appeal in People v.
Carter, supra, 36 Cal.4th 1114. These contentions are as
follows: 1) defendant’s motion to suppress the [*1270]
evidence seized from his person and from the stolen Datsun
280 ZX improperly was denied; 2) defendant’s motion to
exclude other-crimes evidence involving the death of Tok
Kim, the murders of Susan Knoll, Jillette Mills, and Bonnie
Guthrie, and the rape of Jennifer S., improperly was denied;
3) the photographic lineup procedures used by the Oakland
Police Department in the investigation of Tok Kim’s death
in Alameda County were impermissibly suggestive, and
therefore the trial court erred in denying the motion to
exclude the Alameda County witness identifications of
defendant; 4) defendant’s motion to exclude the preliminary
hearing testimony of Alameda County witness Ray Blevins
(who had died prior to trial) improperly was denied; and 5)
defendant’s motion to sever his trial for the murder of
Janette Cullins from the charge of rape involving Barbara S.
improperly was denied. 37
[**583] [***884] For the reasons we have set forth more
extensively in the companion matter, People v. Carter,
supra, 36 Cal.4th 1114, we reject defendant’s contentions.
Insofar as defendant’s claims do not precisely mirror those
set forth in the companion appeal, neither defendant’s

additional arguments nor the variants in their phrasing
persuade us that the trial court committed an error or abuse
of discretion prejudicial to defendant’s case. Indeed, these
claims are not deserving of additional discussion. (People v.
Laursen (1972) 8 Cal.3d 192, 205 [104 Cal. Rptr. 425, 501
P.2d 1145].)
IV. PENALTY PHASE
A. Evidence of Defendant’s Sexual Assault on Jennifer S.
At the conclusion of the People’s case in aggravation, the
prosecutor, over defendant’s objection, offered abstracts of
judgment as proof that defendant [*1271] had been
convicted of: (1) sexual assault crimes committed against
Jennifer S. in Ventura County in March 1984, (2) burglary
in Alaska in 1978, and (3) burglary in Oregon in 1974.
Defendant argued against the introduction of defendant’s
Ventura County convictions on the basis that because the
judgments were rendered in October 1984, they postdated
the April 1984 murder of Janette Cullins and therefore were
inadmissible as prior felony convictions under section
190.3, factor (c). (See, e.g., People v. Webster (1991) 54
Cal.3d 411, 453 [285 Cal. Rptr. 31, 814 P.2d 1273]; People
v. Balderas (1985) 41 Cal.3d 144, 201–202 [222 Cal. Rptr.
184, 711 P.2d 480].)
The trial court agreed with defendant’s interpretation of the
temporal requirements of section 190.3, factor (c), but
pursuant to section 190.3, factor (b), correctly recognized
that “the evidence of crimes of violence can occur before or
after the murder, and the [Jennifer S.] rape is a crime of
violence.” (See, e.g., People v. Malone (1988) 47 Cal.3d 1,
47 [252 Cal. Rptr. 525, 762 P.2d 1249].) The trial court
thereafter admitted evidence of defendant’s sexual assault
upon Jennifer S.

36

The question whether section 654 applies to enhancements is before us in People v. Palacios (review granted, May 11, 2005,
S132144). Because, as noted in the text, the enhancements imposed here were stayed and defendant therefore was not subject to
double punishment, we need not and do not address the section 654 issue here.
37

With regard to defendant’s contention that the trial court erroneously denied his motion to sever his trial for the murder of
Janette Cullins from the charged rape of Barbara S., we rely upon the analysis of section 954 and our decisions interpreting that
statute as set forth in People v. Carter, supra, 36 Cal.4th at pages 1153–1154, and which need not be repeated here, except to
observe that the distinctions between defendant’s motion to sever the Susan Knoll and Jillette Mills murder charges from the Bonnie
Guthrie murder charge in the Los Angeles proceedings (see id. at pp. 1152–1156), and defendant’s motion to sever the Janette
Cullins murder charge from the Barbara. S. rape charge in the San Diego proceedings, do not persuade us that the trial court below
abused its discretion. To the contrary, the court reviewed in exhaustive detail the basis for its conclusion that severance was
improper, observing, among other things, that the rape and murder charges were of the same class under section 954, each crime
involved a forced entry into a residence, each involved evidence that a knife had been used, each involved theft, and each victim
previously had been acquainted with defendant. Strong evidence linked defendant independently to the death of Janette Cullins and
to the rape of Barbara S. Accordingly, the likelihood that the jury might convict defendant of having committed one of the charged
crimes based on the evidence that he committed the other was virtually nonexistent. No abuse of discretion in denying defendant’s
motion to sever appears. Nor has defendant demonstrated that prejudice actually resulted from the joinder of the murder and rape
charges at trial. (See People v. Bradford, supra, 15 Cal.4th at p. 1318.)

Petitioner's App. 13 - 268

ER 353

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 89 of 96
(511 of 2466)
Page 30 of 36

36 Cal. 4th 1215, *1271; 117 P.3d 544, **583; 32 Cal. Rptr. 3d 838, ***884
On appeal, defendant reiterates his contention that the trial
court improperly admitted this evidence. For the reasons
aptly noted by the trial court, no error appears. 38
Even if the trial court had failed to recognize the distinction
between section 190.3, factors (b) and (c), and admitted
evidence of defendant’s crimes against Jennifer S. under
subdivision (c), the error would have been harmless, “because
the [***885] evidence was admissible as evidence of
violent criminal activity under [section 190.3,] factor (b).”
(People v. Bradford, supra, 15 Cal.4th at p.1374.)
Defendant further contends the trial court improperly
instructed the jury that it could double-count the crimes
committed against Jennifer S. under section 190.3, factors
(b) and (c). His citation to the record, however, is to an
inapposite instruction (CALJIC No. 2.82—Concerning
Hypothetical Questions), and our review of the other
instructions given to the jury has not revealed any such
“double-counting” instruction.
B. Exclusion of Proffered Evidence in Mitigation
The defense introduced evidence of defendant’s troubled
childhood while growing up in Alaska. Several witnesses
testified that defendant spent considerable portions of his
childhood and adolescence in orphanages, juvenile
institutions, and foster homes, and was [**584] incarcerated
in penal institutions during much of his early adulthood.
[*1272] Defendant sought to introduce additional evidence
in mitigation, including testimony of defendant’s older
brother, Jerry Carter, regarding the particulars of defendant’s
upbringing and family life, the testimony of university
professor Linda Ellana regarding cultural conditions
experienced by the Native Alaskan population living in the
Nome area, and the testimony of James Park, a California
correctional officer and expert on prison operations and
classifications. Defendant also moved for allocution. The
trial court denied each of these requests.

On appeal, defendant contends the trial court committed
prejudicial error in excluding the proffered evidence. As we
shall explain, we disagree.
1. The Proffered Testimony of Jerry Carter
On direct examination, Jerry Carter testified regarding
defendant’s difficult childhood in a manner generally
consistent with the testimony he gave at defendant’s trial for

the murders of Susan Knoll, Jillette Mills, and Bonnie
Guthrie. (See People v. Carter, supra, 36 Cal.4th at pp.
1136–1137.) In the course of presenting this testimony,
however, defense counsel asked Jerry Carter several
questions concerning subjects about which the witness
lacked personal knowledge. These topics included where
defendant would go as a child when he ran away; where
defendant found food on those excursions; defendant’s
efforts as a child to stow away on airplanes; and information
regarding where defendant went when he was sent away
from Nome by his mother and his stepfather. The trial court
sustained the prosecutor’s objections to these lines of
inquiry on foundational and hearsay grounds.
On appeal, defendant contends that the trial court’s rulings
improperly foreclosed the defense from presenting certain
aspects of the case in mitigation. We are unpersuaded. In
view of Jerry Carter’s lack of personal knowledge as to
certain aspects of his proposed testimony, the trial court
ruled correctly. Similarly, insofar as the witness attempted
to testify as to statements made to him that were offered for
the truth of the matter asserted, the proffered testimony was
hearsay that was not subject to any recognized exception,
and properly was excluded by the trial court. (Evid. Code, §
1200, subd. (a); People v. Whitt (1990) 51 Cal.3d 620,
642–643 [274 Cal. Rptr. 252, 798 P.2d 849].)
Moreover, even if we were to agree with defendant that the
trial court ruled improperly, we observe that the defense
succeeded [***886] in introducing the gist of the incidents
through other testimony of Jerry Carter and of other
witnesses. In the context of that testimony, much of which
graphically described the abuse defendant suffered as a
child, as well as defendant’s institutionalization, the excluded
testimony was of marginal significance. Thus, there is not a
[*1273] reasonable possibility that the jury would have
rendered a different verdict had the trial court not excluded
the challenged testimony. (People v. Brown (1988) 46
Cal.3d 432, 447–448 [250 Cal. Rptr. 604, 758 P.2d 1135].)
2. The Proffered Testimony of Linda Ellana
Outside the presence of the jury, Dr. Linda Ellana, a
professor of cultural anthropology at the University of
Alaska, testified regarding cultural conditions experienced
by the Native Alaskan population living in the Nome area.
A resident of Nome for 15 years, Dr. Ellana recalled the
rampant alcoholism and depression suffered by the Native

38

Insofar as defendant’s argument can be read to incorporate his pretrial efforts to strike evidence of his sexual assault upon
Jennifer S., his claim fails for the same reasons as those noted above.

Petitioner's App. 13 - 269

ER 354

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 90 of 96
(512 of 2466)
Page 31 of 36

36 Cal. 4th 1215, *1273; 117 P.3d 544, **584; 32 Cal. Rptr. 3d 838, ***886
Alaskan population, as well as the racial and ethnic
discrimination directed toward them by the Caucasian
minority. She testified: “I would say that not only are
natives discriminated against, but more importantly, people
who are half-breeds, or quarter breeds, are neither accepted
very well either by the … native community in Nome. [¶]
… [¶] Alcohol abuse is extreme in Nome. It is not limited to
the native community, though it is most noticeably focused
on the native communities … . [Incidents that accompany
the alcohol abuse in Nome include] many assaults. Assaults
are the [most] common. [**585] Assaults, suicides, and
homicides, assaults including, and not including rape.”

“once or twice” when he was a child. She knew nothing of
the problems that the Carter family experienced raising
defendant. She never heard James Carter speak of defendant
or of the other members of his family.

Dr. Ellana also testified to having been acquainted with
James Carter, defendant’s stepfather, recalling that James
Carter was negatively disposed toward the young Native
Alaskans—colloquially known in the area as “bush
students”—and that he called them “worthless, lazy, trouble
causers.”

[*1274] The trial court rejected the proffered testimony on
the ground of relevancy and under Evidence Code section
352, explaining at some length the court’s reasoning. 39

Dr. Ellana acknowledged, however, that she had no specific
knowledge regarding defendant, his background, or the
criminal charges filed against him. She never had met or
spoken with defendant, although she recalled seeing him
39

The prosecution argued against the introduction of the
proffered testimony on the ground of relevancy. The defense
countered that Dr. Ellana was experienced in the problems
encountered by residents of the Nome area, including
mixed-race individuals, had some knowledge of the
disparaging attitude defendant’s stepfather portrayed toward
Native and part-Native Alaskans, and that the significance
of the testimony was “a question for the jury to decide.”

[*1275] [**586] [***887] On appeal, defendant contends
the trial court erred in excluding the testimony in question.
Although certain aspects of Dr. Ellana’s testimony clearly
fell outside the bounds of relevancy (for example, cultural
attitudes and problems in Nome at the time of defendant’s
1991 trial, seven years after he was incarcerated in
California), and other aspects were cumulative (for example,

The trial court ruled as follows:

“… I was trying real[ly] hard with [Dr. Ellana] to figure out some way for her to be able to testify before the jury for a variety of
reasons. But a number of things came up during the course of this discussion that cause me a great deal of concern in terms of
relevance, as well as under [Evidence Code section] 352, getting into her own biases that began to crop up at certain points.
“Now, the areas that I made note that the defense asked questions on had to do with prejudice by Jim Carter, the defendant’s father,
prejudice in general, in the community of Nome, alcoholism in that area, [‘]bush kids[’] and that phrase, and the negative
connotation that goes with it, and the despair. …
“[Dr. Ellana] is a very qualified person for her particular occupation, but that doesn’t mean that she is automatically an expert who
is … appropriate for this particular case.
“First of all, foundationally, her testimony concerning Jim Carter relates to a time period when the defendant is probably about 12
years old, give or take a little, at that point. [¶] … [¶]
“She has seen the defendant with his father two times, and obviously there was nothing inappropriate that was expressed or seen at
that particular stage.
“Her foundation for her opinion about Jim Carter is based upon these staff meetings, is what she said. [¶] … [¶]
“[T]here is no showing at this particular stage, that the defendant, himself, was experiencing prejudice on the part of his stepfather,
and it is very speculative. I mean I’ve allowed a lot to come in on this issue of prejudice, and I think the jury is well aware that
prejudice exists in Nome now, and it did then. And therefore, the defendant may have been subjected to, and probably was
subjected to some of the prejudice. And that, you know, I think ought to be there, and is there, as well as the alcoholism.
“But to allow her to testify as to her opinion as to whether Mr. Carter is prejudice[d] when her own statements about a desire to
have native people, you know, employed in the school, and she probably wouldn’t have hired him if she had known he was in law
enforcement, does not sound to me like we are getting into an area where its truly an expert opinion being expressed. [¶] … [¶]
“… The other comments lead me to believe under [Evidence Code section] 352 we are going to get into a lot of things that are
going to be very time-consuming, nonproductive in an area I’m determining at this stage, although relevant, is not compellingly
relevant in light of the state that we know about any impact or prejudice on Dean Carter himself.

Petitioner's App. 13 - 270

ER 355

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 91 of 96
(513 of 2466)
Page 32 of 36

36 Cal. 4th 1215, *1275; 117 P.3d 544, **586; 32 Cal. Rptr. 3d 838, ***887
the harsh living conditions experienced by residents of
Nome), the question whether her testimony ought to have
been excluded in its entirety is closer. Dr. Ellana did have
firsthand knowledge of the rigid and prejudicial attitudes
regarding “half-breeds” expressed by defendant’s stepfather;
as noted earlier, defendant is part Eskimo. Consistent with
the principles set forth in Evidence Code sections 210 and
352, we believe that the trial court could have set certain
limits as [***888] to the areas in which Dr. Ellana could
testify.
We need not decide whether the trial court’s ruling to
exclude Dr. Ellana’s testimony in its entirety was erroneous,
however, because even if we assume that error occurred,
defendant suffered no prejudice. The jury heard a
considerable amount of other testimony regarding Nome’s
harsh conditions and defendant’s troubled childhood. Viewed
in the context of the comprehensive case in mitigation
presented by the defense, Dr. Ellana’s testimony was of
marginal significance and unlikely to have swayed the jury.
Defendant fails to persuade us that it is reasonably possible
a more favorable result would have been reached in the
absence of the trial court’s ruling excluding this testimony.
(People v. Brown, supra, 46 Cal.3d 432, 447–448.)

3. The Proffered Testimony of James W. L. Park
Outside the presence of the jury, the defense offered the
testimony of James W. L. Park, an expert in prison
operations, prison construction, and prisoner classification
who had lengthy experience working in the California
Department of Corrections. Park testified that prisons use
audiovisual equipment, and that a prisoner with experience
in this field would be a benefit to the prison system. Based
upon his review of defendant’s records of incarceration,
Park stated that in his opinion defendant would make “an
above[-]average adjustment” to living in a maximum security
prison. Park further testified that defendant “would not be a
danger to staff or to prisoners.”
The trial court ruled that Park could testify before the jury
as to his opinion that defendant would adjust to life in
prison, but also that if Park so testified, the prosecution
would be permitted to cross-examine Park with regard to
[*1276] defendant’s psychological testing results and
history of violence and criminal behavior. 40
Defense counsel thereafter informed the court that the
defense would not call Park as a witness.
[**587] On appeal, defendant contends “[t]he trial court’s

improper ruling effectively precluded the expert’s testimony

“In other words, we don’t have any psychiatric testimony, and the defendant hasn’t testified, and I haven’t seen it come in any other
way at this particular stage, except perhaps that his mother, not the father, didn’t bring him cookies when she brought cookies to the
older boy.
“And I think it is necessary to lay the record on this, so I apologize for keeping you, because there is a real balancing that has to be
done under [Evidence Code section] 352. The probative value on these particular points, because a good portion of it is duplicative,
as well, or cumulative—not just duplicative but cumulative—is also a part of what I’m weighing. [¶] … [¶]
“ [‘]Bush kids[’] is not relevant at this point. And as far as the despair is concerned, it is purely speculative based upon her
particular knowledge of the area at that particular time. … I did not get the feeling, based upon the qualifications, that this is where
her expertise truly lies.
“So for those reasons, … I just want to make it real clear, there is no evidence in terms of how Jim Carter treated Dean Carter
directly as a result of any potential prejudice in that regard.
“And also the timing of it is a problem. I’m not going to allow it, is the bottom line. [¶] … [¶]
“I think the probative value is minimal and the prejudicial effect in terms of getting into issues which are going to create a great
deal of confusion in terms of timing and the cumulative effect of bringing her back is just—the probative value is minimal and the
prejudicial effect is high, and I’m not going to allow it.”
40

The trial court’s ruling included the following:

“[Defendant’s] status as a death row inmate will not come in.
“… [Park] may not testify to what it’s like to be … a prisoner under a life without possibility of parole [LWOP] sentence in and of
itself. …
“He may testify that based upon his experience, that an LWOP prisoner could utilize a trade as a video operator.
“He will be allowed to testify as to his opinion that the defendant will make an adequate adjustment to state prison, but if that
question is asked, the People may cross-examine him, including cross-examining him on his history of any violence or any criminal
behavior. [¶] … [¶]

Petitioner's App. 13 - 271

ER 356

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 92 of 96
(514 of 2466)
Page 33 of 36

36 Cal. 4th 1215, *1276; 117 P.3d 544, **587; 32 Cal. Rptr. 3d 838, ***888
in violation of [defendant’s] constitutional rights.” We
disagree. The proffered testimony sought to introduce into
evidence certain experience and character traits of defendant
that suggested he would adjust well to prison life and
probably would not be dangerous to other inmates and staff.
Had the defense introduced that evidence, the prosecution
would have been entitled to cross-examine Park regarding
defendant’s psychological propensities and prior criminal
record. (See People v. Daniels [***889] (1991) 52 Cal.3d
815, 882–883 [277 Cal. Rptr. 122, 802 P.2d 906].) The trial
court did not preclude Park from testifying, nor unduly
restrict the areas of inquiry pertaining to his proposed
testimony, but instead simply made clear that if the defense
offered evidence of defendant’s character related to the
likelihood of his adjustment to life in prison, the prosecution
would be entitled to cross-examine the witness and seek to
rebut his testimony. Under these circumstances, the defense
for obvious tactical reasons declined to introduce Park’s
testimony. No error or abuse of discretion appears.
4. The Trial Court’s Ruling Prohibiting Allocution
Although acknowledging that the right of allocution is not
recognized in California, defendant nevertheless contends
the trial court erred in refusing his request to plead for
mercy without being subject to cross-examination. No error
appears. (See, e.g., People v. Davenport (1995) 11 Cal.4th
1171, 1209 [47 Cal. Rptr. 2d 800, 906 P.2d 1068]; People v.
Hunter (1989) 49 Cal.3d 957, 989 [264 Cal. Rptr. 367, 782
P.2d 608].)
[*1277] C. Alleged Prosecutorial Misconduct
Defendant contends the prosecution committed misconduct
at the penalty phase by “propound[ing] questions to
witnesses in bad faith,” interposing objections on the
ground of hearsay, propounding “arguments … designed to
improperly invoke non-statutory aggravation evidence in
violation of [s]ection 190.3 and [defendant’s] constitutional
rights,” and by improperly commenting upon defendant’s
failure to testify in violation of Griffin v. California, supra,
380 U.S. 609. Defendant further contends the prosecution
improperly “used every means available to curtail testimony
regarding [defendant’s] childhood—or other—socio-medico
information and history that were legitimately proffered for
a sentence less than death.”

(12) Our review of the record leads us to conclude that
defendant greatly overstates his position. Although a
prosecutor is not permitted to comment, “either directly or
indirectly, on the defendant’s failure to testify in his
defense,” the prosecutor may comment “ ‘on the state of the
evidence, or on the failure of the defense to introduce
material evidence or call logical witnesses.’ ” (People v.
Turner (2004) 34 Cal.4th 406, 419 [20 Cal. Rptr. 3d 182, 99
P.3d 505], quoting People v. Medina, supra, 11 Cal.4th at p.
755 .) For the most part, the prosecution’s handling of its
penalty phase responsibilities fell within the range of
appropriate behavior. The prosecution was vigorous in its
cross-examination and summation, and in interposing
objections (most of which clearly were well-founded). Even
were we to assume that the isolated incidents of which
defendant now complains constituted misconduct, they
were trivial in the context of defendant’s trial and did not
resemble or even approach the sort of misconduct that we
have held to be prejudicial. (See, e.g., People v. Hill, supra,
17 Cal.4th 800.) We therefore reject defendant’s claim of
prejudicial error. 41
D. Miscellaneous Contentions
Defendant raises a number of contentions that are virtually
identical or substantially similar to claims raised on appeal
from the Los Angeles County death judgment rendered
against him for the murders of Susan Knoll, Jillette Mills,
and Bonnie Guthrie, and which we have rejected in the
companion case of People v. Carter, supra, 36 Cal.4th 1114.
These contentions are as follows: [***890] 1) the trial
court’s pattern jury instructions to the jury were
inappropriate; 2) the
[**588]
delay between the
pronouncement of defendant’s death sentence and his
execution renders the entire process unconstitutional; and 3)
the use of lethal gas as a method of execution is
unconstitutional.
For the reasons we have set forth more extensively in the
companion matter, People v. Carter, supra, 36 Cal.4th at
[*1278]
defendant’s
pages 1201–1214, we reject
contentions. Insofar as defendant’s claims do not precisely
mirror those set forth in the companion appeal, neither
defendant’s additional arguments nor the variants in their

“And [defendant’s] entire record, and any psychological testing results that the people have can be raised by way of
cross-examination of this particular witness, because that’s information that that witness should have in forming such an opinion.
“[The People] also [will] be allowed to cross-examine the witness and make it clear to the jury that this witness has not examined
this defendant.”
41

We also reject as meritless defendant’s assertions of prosecutorial misconduct to the extent that they relate to alleged instances
of misconduct during voir dire, which defendant addresses in connection with his penalty phase argument.

Petitioner's App. 13 - 272

ER 357

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 93 of 96
(515 of 2466)
Page 34 of 36

36 Cal. 4th 1215, *1278; 117 P.3d 544, **588; 32 Cal. Rptr. 3d 838, ***890
phrasing persuade us that the trial court committed an error
or abuse of discretion prejudicial to defendant’s case.
Indeed, these contentions are not deserving of additional
discussion. (People v. Laursen, supra, 8 Cal.3d at p. 205.)
E. Challenges to the Death Penalty Law
Defendant contends that many features of California’s
capital sentencing scheme, singly and in combination,
violate the federal Constitution. We previously have rejected
similar challenges, and because defendant has not presented
any persuasive reason for us to reconsider those rulings, we
decline to do so.
(13) The 1978 death penalty law does not violate the Eighth
Amendment by failing to distinguish between death-eligible
and non-death-eligible murders in a meaningful and
nonarbitrary way. (See, e.g., People v. Combs, supra, 34
Cal.4th 821, 868; People v. Morrison (2004) 34 Cal.4th
698, 729 [21 Cal. Rptr. 3d 682, 101 P.3d 568]; People v. San
Nicolas (2004) 34 Cal.4th 614, 676–677 [21 Cal. Rptr. 3d
612, 101 P.3d 509]; People v. Burgener (2003) 29 Cal.4th
833, 884 & fn. 7 [129 Cal. Rptr. 2d 747, 62 P.3d 1]; People
v. Barnett (1998) 17 Cal.4th 1044, 1179 [74 Cal. Rptr. 2d
121, 954 P.2d 384]; People v. Jones (1997) 15 Cal.4th 119,
196 [61 Cal. Rptr. 2d 386, 931 P.2d 960]; People v. Sanchez
(1995) 12 Cal.4th 1, 60–61 [47 Cal. Rptr. 2d 843, 906 P.2d
1129]; People v. Stanley (1995) 10 Cal.4th 764, 842–843
[42 Cal. Rptr. 2d 543, 897 P.2d 481].) The special
circumstances set forth in the statute are not overinclusive
by their number or by their terms, nor have these categories
been construed in an overly inclusive manner. (People v.
Ray (1996) 13 Cal.4th 313, 356 [52 Cal. Rptr. 2d 296, 914
P.2d 846].)
(14) Section 190.3, factor (a) does not bias the determination
of penalty in favor of death, in violation of the Eighth
Amendment, as defendant acknowledges. 42 (See People v.
Duncan (1991) 53 Cal.3d 955, 978–979 [281 Cal. Rptr.
42

273, 810 P.2d 131]; People v. Murtishaw (1989) 48 Cal.3d
1001, 1020 [258 Cal. Rptr. 821, 773 P.2d 172].)
(15) The use in section 190.3, factor (d) of the adjective
?extreme” does not act as a barrier to the jury’s proper
consideration of defendant’s evidence [*1279] in mitigation.
43
(See People v. Morrison, supra, 34 Cal.4th 698, 729.)
[***891] Nor was it reasonably probable that, because of
factor (d), the jury failed properly to weigh defendant’s
evidence in mitigation. To the contrary, we observe that the
trial court in the instant case instructed the jury pursuant to
section 190.3, factor (k) (factor (k)) as reflected in CALJIC
No. 8.85, which provided the jury wide latitude to consider
any extenuating circumstance in determining penalty. 44
(See People v. Holt, supra, 15 [**589] Cal. 4th at p. 698
[upholding the validity of factor (d), in view of factor (k)];
People v. Benson (1990) 52 Cal.3d 754, 804 [276 Cal. Rptr.
827, 802 P.2d 330] [“[T]here is no reasonable likelihood
that the jury would have inferred from [CALJIC No. 8.85
(k)] that they could not consider mental or emotional
disturbance of any degree whatever in mitigation of
penalty”].)
Notwithstanding defendant’s assertion that the factor (k)
instruction is the least accurately understood of California’s
sentencing factors, contributing to “pronounced”
“constitutional harm,” we repeatedly have rejected
challenges to its validity. (See, e.g., People v. San Nicolas,
supra, 34 Cal.4th at pp. 675–676; see also Boyde v.
California (1990) 494 U.S. 370, 381 [108 L. Ed. 2d 316, 110
S. Ct. 1190] [upholding a predecessor version of factor (k)].)
We do so again here. We also observe that defendant does
not demonstrate that the jury misunderstood its function in
the present case.
CALJIC No. 8.88 (1989 rev.) is not inconsistent with the
requirement set forth in section 190.3 that “If the trier of fact
determines that the mitigating circumstances outweigh the
aggravating circumstances[,] the trier of fact shall impose a

Section 190.3 provides in relevant part:

“In determining the penalty, the trier of fact shall take into account any of the following factors if relevant: [¶] (a) The
circumstances of the crime of which the defendant was convicted in the present proceeding and the existence of any special
circumstances found to be true pursuant to Section 190.1.”
43

Under factor (d), the trier of fact may, in determining the penalty to be imposed, take into account “[w]hether or not the
offense was committed while the defendant was under the influence of extreme mental or emotional disturbance.”
44

Pursuant to CALJIC No. 8.85, the trial court instructed the jury: “In determining which penalty is to be imposed on the
defendant, you shall consider all of the evidence which has been received during any part of the trial of this case, except as you
may be hereafter instructed. You shall consider, take into account and be guided by the following factors, if applicable: [¶] … [¶]
(k) Any other circumstance which extenuates the gravity of the crime even though it is not a legal excuse for the crime and any
sympathetic or other aspect of the defendant’s character, background, social history or record that the defendant offers as a basis for
a sentence less than death, whether or not related to the offense for which he is on trial. …”

Petitioner's App. 13 - 273

ER 358

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 94 of 96
(516 of 2466)
Page 35 of 36

36 Cal. 4th 1215, *1279; 117 P.3d 544, **589; 32 Cal. Rptr. 3d 838, ***891
sentence of confinement in state prison for a term of life
without the possibility of parole.” 45 (See People v. McPeters
(1992) 2 Cal.4th 1148, 1194 [9 Cal. Rptr. 2d 834, 832 P.2d
146] [rejecting a similar contention].)
[*1280] The trial court did not err in failing to instruct the
jury (or otherwise require) that the jury must agree
unanimously as to aggravating circumstances, that all
aggravating factors must be proved beyond a reasonable
doubt, that aggravation must outweigh mitigation beyond a
reasonable doubt, and that death must be found to be the
appropriate penalty beyond a reasonable doubt. (People v.
Carpenter, supra, 15 Cal.4th at p. 421; People v. Berryman
(1993) 6 Cal.4th 1048, 1101–1102 [25 Cal. Rptr. 2d 867,
864 P.2d 40].)

The trial court’s failure to delete inapplicable factors from
the instructions given to the jury did not violate defendant’s
rights under the Fifth, Sixth, Eighth, or Fourteenth
Amendments. (People v. Carpenter, supra, 15 Cal.4th at p.
421.) Moreover, as defendant acknowledges, the trial court
instructed the jury pursuant to [***892] CALJIC No. 8.85
that “only those factors that are applicable on the evidence
adduced at trial are to be taken into account in the penalty
determination in the individual case.” We therefore reject
defendant’s contention that he was deprived of his right to
an individualized sentencing determination based upon
permissible factors relating to him and the crimes he
committed.
The circumstance that under California law an individual
prosecutor has discretion whether to seek the death penalty
in a particular case did not deny defendant his constitutional
rights to equal protection of the laws or to due process of
law. (People v. Barnett, supra, 17 Cal.4th 1044, 1179;
People v. Ray, supra, 13 Cal.4th 313, 359; People v.
Crittenden (1994) 9 Cal.4th 83, 152 [36 Cal. Rptr. 2d 474,
885 P.2d 887]; see also Gregg v. Georgia (1976) 428 U.S.
153, 225 [49 L. Ed. 2d 859, 96 S. Ct. 2909] (conc. opn. of
White, J.) [“Absent facts to the contrary, it cannot be
assumed that prosecutors will be motivated in their charging
decision by factors other than the strength of their case and
the likelihood that a jury would impose the death penalty if
it convicts.”].) Moreover, nothing in the present case even
remotely suggests that defendant’s [**590] constitutional
rights were denied by the decision of the San Diego County
prosecutor to seek the death penalty. To the contrary, the
evidence of defendant’s penchant for overpowering young

women and strangling them to death amply demonstrates
that the prosecutor’s decision to seek the death penalty was
neither arbitrary nor capricious, but rather an appropriate
exercise of prosecutorial discretion in response to defendant’s
criminal rampage across California. Defendant, an apparently
unremorseful serial killer and rapist, is precisely the type of
individual against whom virtually any California prosecutor
would seek the death penalty. Defendant is totally
unconvincing in suggesting otherwise.
[*1281] F. Cumulative Error

Defendant contends that the cumulative effect of the asserted
errors committed at his trial led to a miscarriage of justice,
requiring reversal of the guilt and penalty phase judgments.
Having determined that defendant’s trial was nearly free of
error, and that, to the extent error was committed, it clearly
was harmless, we conclude that defendant’s claim of
cumulative error lacks merit.
DISPOSITION
The special circumstance of lying in wait is set aside. In all
other respects, we affirm the judgment as to both guilt and
penalty.
Kennard, J., Baxter, J., Werdegar, J., Chin, J., and Moreno,
J, concurred.
Concur by: KENNARD

Concur
KENNARD, J.—I concur in the majority opinion, which I
have signed. I write separately to address the merits of
defendant’s claim that the prosecutor improperly commented
on defendant’s invocation of his right not to testify at trial.
Defendant was charged with the murder of Janette Cullins.
In its case-in-chief, the prosecution presented evidence that
defendant had also murdered four other women: Tok Kim,
Susan Knoll, Jillette Mills, and Bonnie Guthrie. When
defendant was arrested for the murders, he was driving a car
belonging to murder victim Mills. In the car, the police
found a key ring that belonged to victim Cullins; a kitchen
knife, rubber gloves, and a gold chain, belonging to victim
Kim; a supermarket CASHEX card that belonged to victim
Knoll; towels, athletic wear, and photographic equipment

45

Pursuant to CALJIC No. 8.80 (1989 rev.), the trial court instructed the jury: “To return a judgment of death, each of you must
be persuaded that the aggravating circumstances are so substantial in comparison with the mitigating circumstances that it warrants
death instead of life without parole.”

Petitioner's App. 13 - 274

ER 359

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-3

Page: 95 of 96
(517 of 2466)
Page 36 of 36

36 Cal. 4th 1215, *1281; 117 P.3d 544, **590; 32 Cal. Rptr. 3d 838, ***892
that belonged to victim Mills; and three [***893] handwoven
sweaters that belonged to victim Guthrie.
In his rebuttal argument to the jury, the prosecutor said: “No
one prevents [the defense] from telling you what happened.
No one prevents them from bringing forth witnesses to
explain why the defendant was in the car with all that
property. They could do that if they wanted to.” Defense
counsel objected, asserting the prosecutor was in essence
commenting on defendant’s invocation of the privilege
against self-incrimination. Without ruling on the objection,
the trial court instructed the jury that defendant had a
constitutional right not to testify.
The majority does not decide whether the prosecutor’s
comment was proper, concluding that any error was
harmless. (Maj. opn., ante, at pp. 1266–1267.) In my view,
the comment violated the rule established in Griffin v.
California (1965) 380 U.S. 609 [14 L. Ed. 2d 106, 85 S. Ct.
1229]. [*1282] There, the United States Supreme Court
held that a prosecutor who comments on a defendant’s
failure to testify at trial violates the defendant’s privilege
against self-incrimination, as protected by the Fifth and
Fourteenth Amendments to the federal Constitution. The
court explained that such a comment “solemnizes the
silence of the accused into evidence against him,” and thus
“cuts down on the privilege by making its assertion costly.”
(Id. at p. 614; see also Portuondo v. Agard (2000) 529 U.S.
61, 65 [146 L. Ed. 2d 47, 120 S. Ct. 1119].)
This court has explained that, as a general rule, Griffin v.
California, supra, 380 U.S. 609, does not prevent prosecutors
from commenting on the failure of the defense to introduce
relevant evidence or to call logical witnesses. (People v.
Hovey (1988) 44 Cal.3d 543, 572 [244 Cal. Rptr. 121, 749
P.2d 776].) But Griffin does not allow a prosecutor to argue
to the jury “that certain testimony or evidence is
uncontradicted, [**591] if such contradiction or denial
could be provided only by the defendant, who therefore
would be required to take the witness stand.” (People v.
Bradford (1997) 15 Cal.4th 1229, 1339 [65 Cal. Rptr. 2d
145, 939 P.2d 259]; see also People v. Johnson (1992) 3
Cal.4th 1183, 1229 [14 Cal. Rptr. 2d 702, 842 P.2d 1] [“a
prosecutor errs by referring to evidence as ‘uncontradicted’
when the defendant, who elects not to testify, is the only

person who could have refuted it”]; People v. Murtishaw
(1981) 29 Cal.3d 733, 757–758 [175 Cal. Rptr. 738, 631
P.2d 446].) Similarly, “a prosecutor may not comment on a
defendant’s failure to present evidence to contradict the
government’s case if ‘the defendant alone had the
information to do so.’ ” (U.S. v. Triplett (8th Cir. 1999) 195
F.3d 990, 995.) To determine whether a prosecutor’s
comment violated Griffin, a reviewing court must decide
whether there is a “reasonable likelihood” that the jury
construed the remark as a commentary on the defendant’s
failure to testify. (People v. Roybal (1998) 19 Cal.4th 481,
514 [79 Cal. Rptr. 2d 487, 966 P.2d 521]; People v. Clair
(1992) 2 Cal.4th 629, 663 [7 Cal. Rptr. 2d 564, 828 P.2d
705].)
Here, the evidence presented to the jury at trial did not
disclose the existence of any living person other than
defendant who could have testified as to how defendant had
acquired a car that belonged to one of the murder victims
and that contained property belonging to each of the other
murder victims. Nor would there necessarily be such a
person if defendant were innocent of the murders. Thus,
there is a “reasonable likelihood” (People v. Roybal, supra,
19 Cal.4th at p. 514; People v. Clair, supra, 2 Cal.4th at p.
663) that the prosecutor’s assertion that nothing prevented
[***894] the defense from “bringing forth witnesses to
explain why the defendant was in the car with all that
property” was construed by the jury as a commentary on
defendant’s failure to testify in his own defense.
[*1283] The prosecutor’s improper comment does not,
however, require reversal of the judgment. As the majority
correctly explains, any error was harmless “in view of the
indirect nature of the prosecutor’s comment, the court’s
timely reinstruction of the jury, and the strength of the
evidence against defendant.” (Maj. opn., ante, at p. 1267.)
Thus, it is “clear beyond a reasonable doubt that the jury
would have returned a verdict of guilty” (United States v.
Hasting (1983) 461 U.S. 499, 511 [76 L. Ed. 2d 96, 103 S.
Ct. 1974]) even if the prosecutor had not made the comment
at issue.

Appellant’s petition for a rehearing was denied October 26,
2005, and the opinion was modified to read as printed
above.

Petitioner's App. 13 - 275

ER 360

SUPFU;Mt! COURT

FILED

AUG 1 5 2005

COPY

Frederick K. Ohlrich Clerk

IN THE SUPREME COURT OF CALIFORNIA DEPUTY

THE PEOPLE,
Plaintiff and Respondent,
V.

DEAN PHILLIP CARTER,
Defendant and Appellant.

_______________

)
)
)
)
)
)
)
)
)
)

S014021

Los Angeles County
Super. Ct. No. A-089330

Following the guilt phase of the trial, a Los Angeles County jury found
defendant Dean Phillip Carter guilty of the forcible rape (Pen. Code,§ 261)1 and
first degree murder of Jillette Mills(§§ 187, subd. (a), 189), and found true the
special circumstances that the murder was committed in the course of a forcible
rape and in the course of a first or second degree burglary(§ 460). (§ 190.2, subd.
(a)(l 7), subparts (C), (G).)
The jury also found defendant guilty of the first degree murder of Susan
Knoll(§§ 187, subd. (a), 189) and of residential burglary(§ 459), and found true
the special circumstance that the murder was committed during the commission of
a burglary. (§ 190.2, subd. (a)(l 7), subpart (G).)
The jury further found defendant guilty of the forcible rape(§ 261) and first
degree murder of Bonnie Guthrie(§§ 187, subd. (a), 189) and of residential
1

All further statutory references are to the Penal Code unless otherwise
indicated.

1

Petitioner's App. 14 - 276

burglary(§ 459), and found true the special circumstances that the murder was
committed in the course of a forcible rape and in the course of a burglary.
(§ 190.2, subd. (a)(l 7), subparts (C), (G).)
In addition, the jury found true the special circumstance that defendant was
convicted in the present proceeding of more than one offense of murder. (§ 190.2,
subd. (a)(3).)
At the conclusion of the penalty phase, the jury returned a verdict of death.
This appeal is automatic. (Cal. Const., art. VI,§ 11; § 1239, subd. {b).)
We affirm the judgment in its entirety.

FACTS
I.

Guilt Phase Evidence
A.

The Prosecution's Case
1.

The Death of Tok Kim

.

.

The prosecution commenced its case by introducing, over defendant's .
objection, evidence that pertained to the death of Tok Kim, who was 42 years of
age, in Alameda County in early April 1984. The evidence, summarized below,
was introduced under Evidence Code section 1101, subdivision (b), for the
purpose of demonstrating defendant's identity and criminal intent in the charged
offenses relating to the murders of Jillette Mills, Susan Knoll, and Bonnie Guthrie
on April 10 and 11, 1984.
In the early evening of Sunday, April 1, 1984, defendant entered the
Rocking Horse Bar and Grill, located in Lafayette, California. The bartender,
Nicole Didion, testified that business was slow that evening when defendant sat
down at the bar, ordered a drink, and introduced himself to her as "Phil." He wore
casual pants, which she believed were jeans, and'a sweatshirt inscribed with the
words "Tenakee Tavern - Southeast Alaska's Classiest Joint." He told Didion

2

Petitioner's App. 14 - 277

that he worked as a cameraman. Cocktail waitress Margo Fulton observed
defendant sitting at the bar, and joined his conversation with Didion.
Approximately one-half hour later, Tok Kim entered the bar, sat down a
few bar stools apart from defendant, and ordered a glass of white wine. She
departed from the bar soon thereafter, only to return a few minutes later, declaring
that she had been unable to start her Honda automobile. Defendant offered to
assist her and left with her.
After a few minutes, defendant returned to the bar and asked whether
anyone had 'jumper cables." A restaurant employee obtained cables; the car
thereafter was started, and defendant returned to the bai to gather his belongings.
Defendant remarked to a cocktail waitress that he was getting a ride to the local
BART station.
Approximately 9:00 p.m. the same evening,defendant and Kim walked into
Jim Sutton's Lafayette Shell gasoline station and reported car trouble. David
Hogan, an employee at the station, assisted the couple in bringing the disabled
vehicle to the station. Because the alternator apparently was malfunctioning, the
vehicle was left at the station overnight for repairs.
The next day, April 2, Kim and defendant returned to the Shell station.
Hogan noticed that defendant wore a black "Members Only" jacket that "was in
style back then," as well as mirrored sunglasses on top of his head. Hogan,
observing that defendant's neck bore a "big -

like a hickey on his neck," told

defendant, "Well[, i]t looked like you had fun last night." Defendant replied: "I
don't even know what I'm doing here, I don't even know her."
At approximately 11:00 p.m. on Tuesday, April 10 or Wednesday, April 11,
Kim's neighbor, Connie Santos, heard Kim arguing with someone. Santos knew
the voice of Kim's boyfriend, Ray Blevins, and testified that the person with
whom Kirn was arguing "was not [Blevins] definitely, but instead belonged to
3

Petitioner's App. 14 - 278

someone " 'younger.' " Santos. could not discern the precise words spoken, but
recalled that.the persons arguing sounded "really angry." Santos thought that
perhaps she should call the police, but instead she went to bed, pulling the bed
covers over her.head in an effort to block the noise.
On Thursday, April 12, Kim failed to arrive at her job at the Concord
Macy's department store. Her manager at Macy's, Ingrid Maleska-King,
telephoned Kim's apartment manager, William Elson, to request that he ascertain
whether she was at her apartment. Elson, who had observed defendant standing
near Kim's apartment mailbox earlier that same week, did not find Kim at her
apartment. Elson also observed that Kim's vehicle was not in its designated
parking space ot anywhere in the vicinity. When Kim did not appear for work on
Friday, April 13, Maleska-King again contacted Elson and asked him to recheck
whether Kim was at her apartment. As Elson approached the apartment on this
second occasion, he "felt extinctively [sic] that she was in there because of the
odor that I smelled." Elson found Kim's lifeless body sprawled upon the floor of
her bedroom.
Oakland Police Detective Raymond Conner investigated Kim's death,
arriving at her apartment on the morning of April 13. Beneath Kim's neck, he
discovered a curtain tie approximately 18 to 24 inches in length.
Kim's body had decomposed to an extent that it precluded a determination
of a cause of death. The pathologist who performed the autopsy, Thomas Rogers,
testified over defendant's objection that the tie found beneath Kim's neck could
have been used to fatally strangle her. On cross-examination, Rogers
.acknowledged that in view of the body's advanced state of decomposition, he
could not eliminate the possibility that Kim might have died from natural causes. ·

4

Petitioner's App. 14 - 279

2.

The Deaths of Susan Knoll and Jillette Mills

Susan Knoll and her sister, Sandra Pender, grew up in Wisconsin. Knoll's
best friend was Bonnie Guthrie. In 1972, Pender relocated to San Diego, and in
1979 Knoll journeyed west to live with her. Guthrie also relocated to the Los
Angeles area at some point and resumed her close friendship with Knoll. In
March 1984, Knoll moved into a Culver City apartment with Jillette Mills. Knoll
and Mills each were 25 years of age.
On April 10, 1984, Knoll appeared at work at Mitsubishi Bank,
according to Annette Cheng, Knoll's colleague. On April 11, Knoll was absent
.

.

from work, and Cheng received a telephone call from a male who declined to
identify himself. The caller informed Cheng that Knoll was "just involved in a
traffic accident and she have some minor injury [sic] and would like to go to
hospital for the checkup, but she asked me to call the bank to let the bank know
that she won't be in today." Cheng asked the caller ifhe was a friend of Knoll's,
and the caller replied: "No, I just happened to be in the accident scene and she
asked me to call for her." When Cheng asked for the caller's name, he hung up
the telephone. Cheng never saw Knoll alive again. On cross-examination, Cheng
acknowledged that when she spoke to the caller, she believed he was a Black man
with a southern accent.
For a few days prior to April 10, 1984, Jillette Mills's brother, Jeff, tried
without success to contact Jillette. On April 11, 1984, Jeff and his friend,
Christopher Thurman, began searching for her. Jeff and Christopher traveled to
Jillette' s Culver City apartment, to her place of employment (Laird Studios), and
to a local community college where she had attended classes, but were unable to
locate Jillette or her automobile, a distinctive white Datsun 280 ZX that bore the

5

Petitioner's App. 14 - 280

license plate "PHANTM Z." 2 Jeffand Christopher thereafter returned to the
apartment building, scaled a security fence, and approached the apartment.
Jillette's apartment door was unlocked.
Upon searching much of the apartment without success, Jeff and
Christopher encountered a framed piece of artwork leaning against the doors of a
bedroom closet. Opening the closet doors, Christopher noticed "feet on the floor"
and advised Jeff that "we have a problem." The fully-clothed bodies of Susan and
Jillette were lying on the floor of the closet, one stacked upon the other. Jeff
called the police, and Christopher went outside to await their arrival.
While Christopher waited by the curb, he leaned on the left front fender of a
blue Honda that investigators subsequently determined belonged to Tok Kim.
Inside the vehicle, investigators recovered a pair of sunglasses identified at trial by David Hogan, the Lafayett~ gasoline station attendant, as matching the pair he
observed resting atop defendant's head.
Police investigators examined Jillette's apartment for fingerprints and other
physical evidence. Two wine glasses found in the kitchen appeared to have been
wiped clean to eliminate any traces of fmgerprints. A latent palm print was
retrieved from the bathroom sink. Martin Collins, a latent print investigator
employed by the California Department of Justice, testified that the latent print
matched defendant's right palm print with "100 percent" certainty.

In addition to its personalized license plate, Jillette Mills's white Datsun
was easily identifiable by a black, front-fender car cover (or "bra") emblazoned
with the vehicle model- "280 ZX," black engine cover vents, dual-colored ·'
pinstripes, a tinted-glass "T-top" roof, black "sports slats" that covered wuch:of ;,
the rear window, a black rear stabilizer, and dual-colored wheel rims shod with
Goodyear Eagle GT tires.
2

;:fi

Petitioner's App. 14 - 281

Dr. Lakshmanan Sathyavagiswaran, the Chief of Forensic Medicine at the
Los Angeles County Medical Examiner's Office, testified that Jillette Mills died of
asphyxia due to ligature strangulation. He added that "considerable force" had to
have been "continuously applied" for approximately two minutes or more in order
to cause death. Jillette also suffered "blunt force type trauma" to her head, and
injury to her genital area consistent with "traumatic sexual assault" including
"penile penetration ... and ejaculation." Sam Le, a Los Angles County
criminalist, testified that a white nightgown found in the apartment contained
seminal fluid consistent with defendant's PGM type and that of 15.8 percent of the
population. Seminal fluid recovered from Mills' s vaginal area "was [of an]
insufficient quantity for typing."
Dr. Sathyavagiswaran further testified that Susan Knoll died of asphyxia
due to manual strangulation, the result of "considerable compression force."
Susan also suffered blunt force injuries and hemorrhages consistent with having
struggled against her assailant. Dr. Sathyavagiswaran stated: "[W]hen Miss Knoll
was strangulated and was asphyxiated, this was probably a terminal event[-] that
she vomited a.TJ.d aspirated. [1] The very fact that the vomitus did not go to the
distal parts of the lung, that is, [the] distal bronchi, she did not live very long after
this vomitus - after this vomiting episode." Seminal fluid recovered from Knoll's
vaginal area was of an insufficient quantity for typing.
Each victim had been dead for a minimum of 15 hours prior to the time the
autopsies were performed upon their bodies.

3.

The Death of Bonnie Guthrie

In the early afternoon of April 11, 1984, Bonnie Guthrie, then 34 years of
age, and a friend, Geula Vehab, purchased fruit together in Santa Monica. The
two parted company at approximately 1:20 p.m. Between 3 :00 p.m. and

7

Petitioner's App. 14 - 282

4:00 p.m., Matty Spiro, the manager of the apartment building in which ,Guthrie
resided,. entered her West Los Angeles apartment, accompanied by Manny
Glebertnan, to repair a leaky bathroom faucet. As Gleberman worked on the
faucet, Spiro observed Guthrie lying on her stomach on the bedroom floor: "So I
says to Manny, the plumber- I said, 'Look at that, Manny. She's sleeping on the
floor.' I said, 'I better close the door and let her sleep.' "
The next morning, April 12, Spiro noticed that Guthrie's automobile was
still in the garage. Wondering why Guthrie apparently had not gone to work, he
returned to Guthrie's apartment and knocked on the door. Upon entering the ·
apartment, Spiro noticed Guthrie lying in the same position as he previously had
observed. He then notified the police.
Dr. Sathyavagiswaran testified that Guthrie died ofligature strangulation.
He added that Guthrie's body bore the signs of having suffered blunt force injury
as well as genital abrasions consistent with traumatic sexual assault Vaginal area
samples revealed the presence of spermatozoa.
Two days later, on April 14, Adolph Romero, a commercial fisherman,
noticed a white Datsun 280 ZX parked in front of a San Diego shipyard.
Approximately 50 feet from the vehicle, Romero retrieved Guthrie's wallet from
beneath sorne bushes. When Guthrie could not be reached, the wallet ultimately
was turned in to the local police.

4.

The Death of Janette Cullins

The prosecution, pursuant to Evidence Code section 1101, subdivision (b ),
presented evidence over defendant's objection that on ot aboutApril 12, 1984,
Janette Cullins, who was 24 years ofage, died by strangulation. Janette,originally
had encountered defendant in a San Diego ba:r in February 1984, and saw hirn
socially the following month. Lee Ann Johnson, who resided across the street

8

Petitioner's App. 14 - 283

from Janette's apartment, reported that during April 1984 she observed a
distinctive looking vehicle arrive and depart from the area on several occasions.
At trial, Johnson testified that the vehicle, a white Datsun 280 ZX, resembled the
one owned by Jillette Mills. One night that April, Johnson observed the vehicle
parked across the street, its engine running for 10 or 15 minutes, "[a]nd then all of
a sudden I heard the car start- take off, and it sort of screeched and made au-tum
and came up past my house to the comer and didn't stop for the stop sign and went
through the stop sign." Johnson never saw the vehicle again.
Approximately midday on April 13, Cullins's previous roommate, Nancy
McEachem, drove to Cullins' s apartment because they had planned to conduct a
yard sale on the following day, a Saturday, and McEachem wanted to drop off
some items to sell. As she was parking her vehicle in front of the apartment,
defendant drove up in a white Datsun 280 ZX. He asked McEachem whether
Cullins was home. McEachern replied, "Her car is not here. She hasn't answered
a phone call" placed by McEachem earlier that morning. Defendant left, and
McEach= entered the apartment. Inside, the drapes were drawn and the
Venetia.t7. blinds were closed, causing the apartment to appear dark, which
McEachern testified was "unusual" for that time of day because "We had the habit
of opening everything up and making it real bright first thing in the morning."
McEachern left a note for Cullins on the dining table and departed from the
apartment. McEachem returned the next day to discover Janette's body lying in
the bedroom closet. The cause of her death was asphyxiation due to strangulation.
Records of Great American Bank revealed that on April 13, 1984, a
withdrawal from Janette Cullins's account in the amount of $60.00 (leaving an
account balance of $4.06) was made from an automatic teller machine located at
the bank's Point Lorna Branch. A four-minute videotape of the transaction,

9

Petitioner's App. 14 - 284

introduced into evidence and shown to the jury, depicted a man wearing a black
jacket. 3
5.

Defendant's Arrest

Approximately 10:50 p.m. on April 17, 1984, ArizonaHighway Patrolman
Robert Dapser was completing a traffic stop on Interstate 40 in northern Arizona,
when he received a call from a truck driver on the citizen's band radio located in
his patrol vehicle. The caller advised that "an erratic vehicle had been driving in
his location, passed by him twice and nearly cut him off both times," and
identified the California license plate on the car as "PHANTOM 2." The subject
vehicle, a Datsun 280 ZX, drove by as Officer Dapser was receiving this
information.
Officer Dapser pursued the vehicle, which he observed "swerving across
the center line of the highway." He activated the emergency lights on his patrol
vehicle and initiated a traffic stop. After illuminating the Datsun ·with a spotlight,
Dapser approached the car and requested that the driver produce identification.
Defendant, the lone occupant of the vehicle, produced an expired driver's license
issued by the State of Alaska. Dapser asked for the vehicle registration
documents. Defendant searched the center console and glove box and then stated,
"I can't find it, she must not have it in here." Dapser thought he observed a burnt
marijuana cigarette in the center console of the Datsun and, having witnessed the
In a separate proceeding conducted in San Diego County, defendant was
charged with and found guilty of the first degree murder of Janette Cullins; the
jury in that case also found true several special circumstances and returne_d a
verdict imposing a sentence of death, and the San Diego court thereafter imposed a
judgment of death. The facts of that case, and defendant's appeal from the
judgment rendered in that case, form the basis of the companion case, People v.
Carter (Aug. 15, 2005, S023000) _,_ Cal:4th __ decided simultaneously with
this case.
3

10

Petitioner's App. 14 - 285

vehicle's erratic movement, decided to take defendant into custody. He advised
defendant of his rights under Miranda v. Arizona (1966) 384 U.S. 436 (Miranda)
and placed him in the patrol vehicle.
Officer Dapser returned to the Datsun to search for the burnt marijuana
cigarette. He noticed beer bottles, one of which was empty, located on the
passenger side floorboard. While searching for the marijuana cigarette, Dapser
observed a bank identification card located in the crevice between the driver's seat
and the center console. The name on the card was that of Janette Cullins.
Believing that the truck driver who originally noticed the Datsun had misidentified
the license plate, Dapser transmitted a message over his police radio, advising that
the license plate was not "PHANTOM 2," but "PHANTM Z." Within several
minutes, a dispatcher instructed Dapser to detain the vehicle and all occupants at
the request of California law enforcement officials. Dapser discontinued his
search of the Datsun and arranged for it to be towed to a locked police storage
area. 4
Officer Dapser administered a Breathalyzer test to defendant, which
revealed that his blood-alcohol content was .078 percent approximately 80 to 90
minutes after the traffic stop. Defendant was transported to the Yavapai County
jail in Prescott, Arizona.

6.

The Contents of the Datsun 280 ZX

On April 18, 1984, Officer Dapser released the contents of Jillette Mills's
Datsun 280 ZX, as well as certain personal property confiscated from defendant's
person, to West Los Angeles and Culver City police detectives. The detectives
Defendant asked Officer Dapser what he had been searching for, to which
the officer replied, "I was looking for the marijuana roach that was on the
console." In response, defendant said, "Don't waste your time looking for it."

4

11

Petitioner's App. 14 - 286

inventoried the personal property and other objects recovered from the vehicle,
which included the following items introduced into evidence• at defendant's trial:
an American Tourister suitcase containing a plastic jar filled with pennies and
labeled "black bean soy sauce," a Korean-made, wood handled kitchen knife,
0

yellow rubber gloves, and a gold chain- all identified as having belonged to
Kim; a sweatshirt depicting a location in Alaska; an Alpha Beta supermarket
CASHEX card identified as having belonged to Susan Knoll; towels, athletic
wear, and photographic equipment identified as having belonged to Jillette Mills;
three hand-woven sweaters identified as having belonged to Bonnie Guthrie; a
"Member's Only" jacket, which contained a butcher knife, a knee-high nylon
sock, a business card from Jim's Lafayette Shell gasoline station; a key ring
identified as having belonged to Janette Cullins; and a piece of paper with the
words "SHY LAS"-· the access code to Cullins's Great American Bank
(originally San Diego Federal Savings and Loan) account; and a number of items
emblazoned with the names of Las Vegas casinos. A pair of jeans recovered from
the Datsun contained a yellow half sock and a blue bandana.

B.

The Defense Case

The defense did not present any evidence.

II.

Penalty Phase Evidence
A.

The Prosecution's Case

The prosecution presented evidence in aggravation establishing that in the
early morning hours of March 29, 1984, defendant, uninvited, entered the Ventura
County residence of Jennifer S., 22 years of age, with whom he had been
acquainted for approximately two weeks. During a period of four and one,half
hours, defendant twice strangled Jennifer until she lost consciousness. After she ·
regained consciousness, defendant tied her hands behind her back. Sometimes

12

Petitioner's App. 14 - 287

wielding a bone-handled lmife, defendant forced her to orally copulate him on
multiple occasions. Unable to attain an erection, defendant complained that
Jennifer "could do it better." Shaking violently and uncontrollably, Jennifer asked
for a drink of water. Instead, defendant located a bottle of wine and two wine
glasses and "took the ,vine and ... forced it against" her, causing it to spill onto
Jennifer's face. Thereafter, defendant demanded and obtained cash kept at the
residence. Subsequently, he pulled off Jennifer's clothes and raped her. At some
point, defendant informed Jennifer he "liked cocaine," and Jennifer told hirn he
could find a small amount in a cupboard. Defendant retrieved the drug, which she
assumed he snorted, and he subsequently "calmed down quite a lot." Shortly after
reassuring defendant that she wouldn't call the police and feigning concern for
defendant's well-being, Jennifer "ran out the front door a...'l.d ran as fast as [she]
could" to a neighbor's apartment, where she "pounded" and "kicked" the door.
The neighbor answered and shortly thereafter notified the polil;e.
The police took Jennifer to the Ventura County Medical Center, where she
was treated for facial cuts, hip abrasions, and several broken fingernails, bits of
which were recovered by police investigators from the floor of her residence.
Jennifer testified that she was "fairly certain" that the facial cut she suffered was
from the knife defendant had wielded. 5

Based upon the offenses defendant committed against Jennifer S., Ventura
County law enforcement officials filed a criminal complaint against defendant and
caused an arrest warrant to issue. Prior to trial in the present case, a Ventura
County jury convicted defendant of robbery, rape, four counts of oral copulation,
and two counts of assault with a deadly weapon, and found that defendant
personally used a knife in the commission of the offenses. Two prior serious
felony convictions also were found to be true. Defendant was sentenced to serve a
term of 56 years in prison. Only the facts underlying the offenses perpetrated
against Jennifer S. were introduced at the penalty phase of the present
5

(footnote continued on next page)

13

Petitioner's App. 14 - 288

The prosecution also .introduced into evidence abstracts of judgments
reflecting defendant's prior felony convictions, a 1974 burglary conviction in
:Oregon and a 1977 butglary conviction in Alaska. ·

The Defense Case

B.

The defense evidence in mitigation was extensive; involving the testimony
of 21 witnesses, as well as multi-faceted, presenting various aspects of defendant's
background and character, as Si.inmlarized below.
First, defendant's older brother, Jerry Lee Carter, and their younger sister,
Polly Anne Reasner, testified regarding the difficulties of growing up as the ·
children of

an alcoholic mother .and alcoholic stepfather ih the small, remote

Alaskan town ofNome.· Esther Carter, defendant's mother, was half-Eskimo; Jim
Carter, defendant's stepfather, served for several years as Nome's Chief' of ·, .·
Police.6 Defendant's patents argued and fought frequently, hurling profarlitiek·as
well as furniture at each other:·. As a result, the children: "wanted to get as fat a~ay

from them as you could." As a yoi.J.ilg child, defendant (who was born in 1955),
repeatedly ran away from home for days at a time, once reaching Anchorage
several hundred rtiiles away, arid another time biding in the wheel well of an
aircraft. When d.efencfu.nt was eight or nine years ofage, defendant's stepfather
affixed a chain to defendant's ankle, attaching the other end of the chain to a bed,
to prevent further similar incidents. A family friend, Bertha Adsuna, recalled that
(footnote continuedfrom previous page)

proceedings-the jury was not informed of defendant's arrest, conviction, or
sentence fat having committed those offenses.
The record is silent as to the identity or whereabouts of defendant's natural
6
father. We refer to defendant's mother and stepfather as his parents. ,A.t the time.
of defendant's trial in 19 89, defendant's stepfather was deceased, an.d his mothc;:r;
who refused to discuss her son with a defense m.vestigator, did not testify at tri~J,'
;

.

.J

•

· 14

Petitioner's App. 14 - 289

•

•

defendant was treated differently from his older brother, and that defendantunlike Jerry-·- was dressed by their mother "like an· orphan." When defendant
was nine years of age, his parents sent him several hundred miles away to a
boarding school for "problem children."
Second, several witnesses testified that in the late 1970's, defendant
became an accomplished television cameraman, thereafter marrying and becoming
the proud father of twin boys. He also engaged in activities not considered
unusual for residents of Nome; such as climbing upon icebergs during the
springtime ice break. In the early 1980's, however, defendant's enthusiasm for his
career began to wane as marital problems and his addiction to cocaine increasingly
dominated his life. By 1983, defendant and his wife were divorced, and defendant
was not permitted to visit his children. According to his brother, defendant
became "disgruntled," "heartbroken," and "angry." Defendant missed his sons,
and according to a former colleague, Mary Alexander, following defendant's
separation from his family "it was as if the light had gone out." Defendant told
Beth Farley, whose friendship with defendant dated to their childhood, that
because he could not see his children, he planned to move away from Alaska and
begin a new life.
Third, a number of defendant's friends and former colleagues testified·
regarding defendant's dependability and trustworthiness, but also to his
accelerating addiction to cocaine, a substance that defendant termed "marching
powder." According to one witness, during several months prior to March 1984
defendant was using cocaine regularly, drinking heavily, and was "clearly out of
control."
Fourth, two witnesses employed by Ventura County provided further
details regarding the rape of Jennifer S. Detective William Ragsdale recalled that
Jennifer had remembered that defendant's eyes were "glazed over" during the
15

Petitioner's App. 14 - 290

incidents on the morning of March 29, and that, at various intervals, defendant
acted remorsefully and acknowledged he "needed psychiatric help." Lynda Zych,
a toxicologist, testified that Jennifer tested '_'positive for cocaine," but that a .
confirming test never was administered.
Finally, two witnesses testified regarding events following the attack upon
Jennifer S. Andrew Holtz, a former colleague of defendant's, testified that on
March 29, 1984, defendant telephoned him, sounding "very depressed," and
expressed a desire to visit the Alaska Psychiatric Institute, located in Anchorage.
Holtz encouraged defendant "to get in touch with the authorities in Ventura.to
straighten things out." Daniel Shields, an employee at the Los Angeles County
jail, testified that during defendant's period of incarceration prior to trial,
defendant had not presented any discipline problems.

DISCUSSION

I.

PRETRIAL ISSUES

A.

Ineffective Assistance of Counsel at the Preliminary Hearing

Defendant contends he was denied the effective assistance of counsel at his
preliminary hearing because his attorney, Ezekiel Perlo, (1) performed only a
perfunctory cross-examination of the prosecution's witnesses who testified
pertaining to the death of Tok Kim and the murder of Jillette Mills, and (2) failed
to cross-examine any of the prosecution's witnesses called to testify regarding the
murders of Bonnie Guthrie and Janette Cullins. Defendant asserts: "The record
demonstrates that defense counsel was not responsible for any meaningful
challenge to evidence presented over a five-day preliminary hearing that produced
thirty-seven witnesses and twenty-seven exhibits." As a result of these alleged
deficiencies at the preliminary hearing, defendant alleges that he suffered
prejudice at trial. The contention lacks merit.

16

Petitioner's App. 14 - 291

"In general, irregularities in pretrial commitment proceedings require
reversal on appeal only where the defendant shows he was 'deprived of a fair trial
or otherwise suffered prejudice as a result.' (People v. Pompa-Ortiz (1980) 27
Cal.3d 519, 529 [165 Cal.Rptr. 851, 612 P.2d 941].) Where the case involves an
ineffective assistance claim of the sort at issue here [that is, the alleged failure to
adequately cross-examine. witnesses], no prejudice typically appears unless
counsel's pretrial performance resulted in the loss of material evidence and caused
tangible harm to the defense at trial. (See People v. Coleman (1988) 46 Cal.3d
749, 771-773 [251 Cal.Rptr. 83, 759 P.2d 1260] [preliminary hearing counsel's
failure to contest prosecution's scientific evidence and conduct independent
forensic investigation did not impair defense of rape-murder charge at trial,
including introduction of expert medical testimony]; People v. Aston (1985) 39
Cal.3d 481, 494-495 [216 Cal.Rptr. 771, 703 P.2d 111] [unavailability of witness
at preliminary hearing was 'cured' when witness later testified for defendant at
suppression hearing and was available at trial].)" (People v. Millwee (1998) 18
Cal.4th 96, 121-122.)
In the present case, defendant has failed to make the requisite showing.
Perla's performance at the preliminary hearing was not deficient. Defendant's
assertions to the contrary ignore Perla's appropriate questioning of various
witnesses and instead merely speculate that more vigorous cross-examination of
certain witnesses, such as Ray Blevins, Tok Kim's former boyfriend (who died
prior to trial), might have led the trial court to preclude the prosecution from
introducing evidence relating to the death of Kim and the murder of Janette
Cullins. Defendant's assertions in this regard do not establish that counsel
performed deficiently.
Moreover, at trial the prosecution presented overwhelming evidence linking
defendant to the charged offenses. Thus, even ifwe were to assume for the sake
17

Petitioner's App. 14 - 292

of argument that the trial court erred in permitting the prosecution to introduce
· evidence pertaining to Kim and Cullins, defendant does not demonstrate that in the
absence of such evidence, the result at trial would have been different. (See

People v. Coleman (1988) 46 Cal.3d 749, 773 [in postconviction proceedings, the
burden is on the defendant to establish prejudice as a i-esul! of counsel's pretrial
performance].) Although at trial the defense presented no case-in-chief, defense
counsel vigorously cross-examined numerous witnesses for the prosecution. We
further observe that the prosecution's evidence at trial relating to Kim was
inconclusive as to cause of death, and that although the Cullins evidence linked
defendant to that homicide, defendant had not yet been tried or convicted in that
.
.
case - circumstances that considerably lessened the impact of such evidence.
On this record, which is similar to that in People v. Millwee, supra, 18
Cal.4th 96, 122, "[ d]efendant identifies no exculpatory or mitigating eviderte;e.
overlooked at any phase of the proceedings, nor does he demonstrate that
counsel's performance at the preliminary hearing 'affected the ability of trial
counsel to advocate defendant's case at trial.' [Citation.]" We therefore reject
defendant's claim that counsel rendered ineffective assistance based upon
counsel's performance at the preliminary hearing. 7

"With regard both to this claim and to every other claim raised in his brief,
defendant asserts that each alleged error violates not only state law but multiple
provisions of the federal and California Constitutions. In addressing each claim
discussed in this opinion, we have considered defendant's contention that the
alleged error violates the federal and California Constitutions, and our rej~ctiop of
each claim of reversible error includes a determination that the alleged error does
not warrant reversal under the state or federal Constitution.'' (People v. Slaughter
(2002) 27 Cal.4th 1187, 1199~
2.)
.
7

fo.

· 18

Petitioner's App. 14 - 293

B.

Motion to Suppress Evidence

Defendant contends the trial court erred in denying his section 1538.5
motion to suppress evidence seized from his person and from Jillette Mills's
vehicle following his arrest. Defendant-asserts that his detention and arrest were
unlawful because they were not supported by probable cause and that the search of
his person and the vehicle violated state and federal constitutional guarantees
against unreasonable search and seizure. We reject defendant's position as to each
of these points.
At the pretrial hearing on defendant's motion, Robert Dapser, the Arizona
law enforcement officer who stopped and detained defendant on April 17, 1984,
testified that he initiated the traffic stop only after receiving a call that a "white
Datsun 280 Z with California personalized [license] plates" had been seen driving
in a dangerous manner and after the officer personally observed a vehicle that
matched that description driving erratically. Upon directing the driver to pull over
and stop, Officer Dapser approached the vehicle, observed beer bottles and a burnt
portion of a marijuana cigarette inside, and detected the scent of alcohol as well as
the faint smell of burnt marijuana. Defendant's eyes appeared to Dapser to have
been "rather glossed over," indicating to Dapser that defendant "was under the
influence of something." Dapser took defendant into custody for possession of the
marijuana cigarette and advised him of his rights under Miranda, supra, 384 U.S.
436, "for driving under the influence of alcohol and/or drugs." Less than 10
minutes later, Dapser was notified to detain the vehicle and all occupants at the
request oflaw enforcement officials located in Culver City; California.
At the conclusion of the hearing on defendant's motion to suppress, the trial
court denied the motion, finding: "I think the officer did have sufficient cause to
stop, detain, and then arrest Mr. Carter under the facts and observations."

19

Petitioner's App. 14 - 294

On appeal, defendant's arguments are substantially similar to his assertions
in the trial court. For the following reasons, we find them unpersuasive ..
"'An appellate court's review of a trial court's ruling on a motion to

suppress is governed by well-settled principles. [Citations.] In ruling on such a
motion, the trial court (1) finds the historical facts, (2) selects the applicable rule
oflaw, and (3) applies the latter to the former to determine whether the rule oflaw
· as applied to the established facts is or is not violated. [Citations.] "The [trial]
court's resolution of each of these inquiries is, of course, subject to appellate
review." [Citations.] [1] The court's resolution of the first inquiry, which
involves quest~ons of fact, is reviewed under the deferential substantial-evidence
standard. [Citations.] Its decision on the second, which is a pure question oflaw,
is scrutinized under the standard ofindependent review. [Citations.] Finally, its
ruling on the third, which is a mixed fact-law question that is however
predominantly one of law, ... is also subject to independent review.' (People v'.
Williams (1988) 45 Cal.3d 1268, 1301 [248 Cal.Rptr. 834, 756 P.2d 221].)"
(People v. Alvarez (1996) 14 Cal.4th 155, 182 (Alvarez); see also People v.
Superior Court (Keithley) (1975) 13 Cal.3d 406,410 [the trial court's findings

must be upheld if supported by substantial evidence].)
"The Fourth Amendment, made applicable to the states through the
Fourteenth Amendment's due process clause (Mapp v. Ohio (1961) 367 U.S. 643,
643-660 [6 L.Ed.2d 1081, 1081-1093, 81 S.Ct. 1684, 84 A.L.R.2d 933]; Wolfv.
Colorado (1949) 338 U.S. 25, 27-28 [93 L.Ed. 1782, 1785-1786, 69 S.Ct. 1359],

overruled on another point, Mapp v. Ohio, supra, 367 U.S. at pp. 654-655 [6
L.Ed.2d at pp. 1089-1090]), guarantees 'the people' '[t]lie right ... to be 'secure
... against unreasonable searches and seizures .... ' '[A] Fourth Ame~dfu6rit '
"seizure'' occurs when a vehicle is stopped at a checkpoint' by a law enforcemerit
officer. (Michigan Dept. of State Police v. Sitz (1990) 496 U.S. 444,450 [110
20

Petitioner's App. 14 - 295

L.Ed.2d 412,420, 110 S.Ct. 2481].) 'The question thus becomes whether such [a]
seizure [] [is] "reasonable" under the Fourth Amendment.' (Ibid.)" (Alvarez,

supra, 14 Cal.4th atpp. 182-183; see also Terry v. Ohio (1968) 392 U.S. 1, 19 [for
any type of detention, the overall standard to which the government must adhere is
that ofreasonableness]; People v. McGaughran (1979) 25 Cal.3d 577, 584 ["the
officer may temporarily detain the offender at the scene for the period of time
necessary to discharge the duties that he incurs by virtue of the traffic stop"].)
Further, any challenge to the admissibility of a search or seizure must be
evaluated solely under the Fourth Amendment. (People v. McPeters (1992) 2
Cal.4th 1148, 1171; In re Lance W. (1985) 37 Cal.3d 873, 879; see also California

v. Greenwood (1987) 486 U.S. 35, 38.) "'An illegal search or seizure violates the
federal constitutional rights only of those who have a legitimate expectation of
privacy in the invaded space or the seized thing. (United States v. Salvucci (1980)
448 U.S. 83, 91-92 [65 L.Ed.2d 619,628, 100 S.Ct. 2547].) The legitimate
expectation of privacy must exist in the particular area searched or thing seized in
order to bririg a Fourth Amendment challenge.' (People v. Hernandez (1988) 199
Cal.App.3d 1182, 1189 [245 Cal.Rptr. 513], italics in original.)" (People v.

McPeters, supra, 2 Cal.4th 1148, 1171.) The burden is on the defendant to
establish that a legitimate expectation of privacy (Rawlings v. Kentucky (1980)
448 U.S. 98, 104) was violated by government conduct.
Our independent review has not disclosed any error in the superior court's
application of these principles. In the present case, defendant, as the driver of a
stolen vehicle, lacked a legitimate expectation of privacy to contest the search of .
that vehicle. (See Rakas v. Illinois (1978) 439 U.S. 128, 141, fn. 9 [" 'No interest
of the Government in the effective and rigorous enforcement of the criminal law
will be hampered by recognizing that anyone legitimately on premises where a
search occurs may challenge its legality by way of a motion to suppress, when its
21

Petitioner's App. 14 - 296

fruits are proposed to be used against him. This would of course not.avail those·
who, by virtue of their wrongful presence, cannot invoke the privacy of the
premises searched.' "]; accord People v. Melnyk (I 992) 4 Cal.App.4th 1532, .
1533.) To accept defendant's assertion that he had a legitimate expectation of
privacy while driving a stolen vehicle would be to overlook the word
"unreasonable" in the Fourth Amendment's proscription against "unreasonable
searches and seizures."
As noted, Officer Dapser received information that a specific .vehicle was

being driven recklessly-· information that soon was corroborated When he saw it
drive by. Therefore, he had a reasonable basis to stop the vehicle and detain tl).e
driver. Upon encountering defendant, Dapser had further indicia of unlawful
conduct: defendant's eyes appeared glazed, the odor of alcohol and marijuana
wafted from the car's interior, the passenger-side floorboard was littered with ]leer
bottles, and a burnt marijuana cigarette was visible. Because possession of
marijuana was a felony in Arizona at that time, the officer's observations provided
him with a reasonable basis to arrest defendant and take him into custody.
. Thus, even ifwe were to assume defendant's expectation of privacy was
reasonable, his challenge to the seizure of incriminating evidence fails because his
detention and arrest were lawful, thereby eliminating any reasonable expectation
of privacy that would have existed had the vehicle not been stolen. (New Y drk v.
Belton (1981) 453 U.S. 454.) Nor are we persuaded that the length of the

detention prior to arrest- less than 10 minutes -

was, as defendant asserts, "for

an excessive time waiting for the dispatcher's report," or that Officer Dapser's
ultimately unsuccessful search for the marijuana cigarette during that period
required "an inordinate amount of time."
In sum, the trial court properly denied defendant's motion to suppress the

evidence recovered from Jillette Mills's vehicle.
22

Petitioner's App. 14 - 297

C.

Motion to Strike Prior Burglary Convictions

Defendant contends the trial court erred in (1) refusing to strike his prior
burglary convictions from Oregon and Alaska, alleged as prior serious felonies
within the meaning of section 667, subdivision (a), and section 1192.7,
subdivision ( c)( 18); (2) declining to dismiss these alleged prior convictions
pursuant to section 1385; and (3) admitting evidence of the prior convictions at the
penalty phase pursuant to section 190.3, subdivision (c). Defendant argues each of
these alleged errors denied his constitutional rights to due process of law, a fair
trial, and a reliable sentence, We are unpersuaded.
Prior to the commencement of trial, defendant moved to strike the prior
conviction allegations on the grounds that the Oregon and Alaska priors did not
constitute "serious felony convictions" within the meaning of section 667,
subdivision (a).8 In defendant's view, certain distinctions between the language of
the Oregon and Alaska burglary statutes on the one hand, and the California
statute on the other, precluded the introduction of the out-of-state priors.9

At the time defendant brought his motion to strike, section 667, subdivision
(a) provided in pertinent part:
"Any person convicted of a serious felony who previously has been
convicted of a serious felony in this state or any offense committed in another
jurisdiction which includes all of the elements of any serious felony, shall receive,
in addition to the sentence imposed by the court for the present offense, a five-year
enhancement for each such prior conviction on charges brought and tried
separately."
8

The Oregon burglary statute in effect at the time of defendant's December
1974 offense provided in relevant part:
"(1) A person commits the crime of burglary in the first degree if he
violates ORS 164.215 and the building is a dwelling, or if in effecting entry or
while in a building or in immediate flight therefrom he:
"(a) Is armed with a burglar's tool as defined in ORS 164.235 or a deadly weapon,
or;
"(b) Causes or attempts to cause physical injury to any person, or;
9

(footnote continued on next page)

23

Petitioner's App. 14 - 298

Specifically, defendant alleged that neither the Oregon nor the Alaska burglary
· statute included all oqhe elements of the California crime ofresidential burglary.
At a pretrial hearing conducted on March 20, 1987, the superior court ·
rejected defendant's motion to strike his prior burglary convictions. The court
observed: "It seems like the purpose of this rule is to iook to see if and to avoid
the holding of an individual responsible for a serious felony prior for conduct that
in this state would not substitute for a serious felony. And based on my review of
the documents and the points and authorities in this case, that isn't what we're
facing here. [ii] ... [ii] What we have here is that it appears that what the ·
defendant was charged with and convicted of is conduct, precisely that which is

(footnote continued from previous page)

"(c) Uses or threatens to use a dangerous weapon." (ORS 164.225.)
ORS 164.215, referred to in the foregoing statute, provided:
"A person commits the crime of burglary in the second degree if he enters
or remains unlawfully in a building with intent to commit a crime therein."
The Alaska burglary statute in effect at the time of defendant's December
1977 offense provided in relevant part:
"A person who breaks and enters a dwelling house with intent to commit a
crime in it, or having entered with that intent, breaks a dwelling house or is armed
with a dangerous weapon in it, or assaults a person lawfully in it is guilty of
burglary, and upon conviction is punishable by imprisonment in the penitentiary
for no less than one year nor more than 10 years .... " (Alaska Statute 11.20.080.)
Alaska Statute Section 11.20.090 defined breaking of a dwelling house as
follows:
"An unlawful entry of a dwelling house with intent to commit a crime in it
is a breaking and entering of the dwelling house for the purpose of section 80 of
this chapter."
..
When defendant brought his m()tion to strike, section 459 provided i~ ::' ,''.
pertinent part:
.
·
.
·· ··
· "Every person who enters any house, room, apartment ... with intent to
commit grand or petit larceny or any felony is guilty of burglary." (Italics adde4,,.)

24

Petitioner's App. 14 - 299

required to come within [section] 459 as a first degree burglary." The court
concluded, "The motion to strike is denied at this time."
On appeal, defendant contends the trial court should have stricken the prior
serious felorty enhancements that were based on his residential burglary
convictions in Oregon and Alaska, because the foreign convictions did not include
all the elements of the "serious felony" of "residential burglary" (Pen. Code,
§§ 667, subd. (a)(l), (4), 1192.7, subd. (c)(l8)) as defined in California (id.,
§ 459). Defendant further urges that the court violated then-applicable law when it
went behind the facial elements of the foreign convictions, and considered the
entire records of the foreign convictions to determine whether the minimum
elements of a California residential burglary were actually present.
As set forth in the margin (fu. 9, ante), the Oregon and Alaska statutes
required only entry with intent to commit a "crime." (ORS§§ 164.215,
164.225(1); Alaska Statutes 11.20.080, 11.20.090.) By contrast, Penal Code
section 459, then and now, requires entry with intent to commit "grand or petit

larceny or any felony." (Italics added.) Thus, defendant's Oregon and Alaska
convictions conceivably could have been for conduct which, if committed in
California, would not support a conviction under section 459.
As defendant observes, the law as it existed in 1984 allowed courts to look
only at the face of a foreign conviction to determine whether its minimum
elements established a "serious felony" under California law. (People v. Crowson
(1983) 33 Cal.3d 623.) But, as defendant acknowledges, we overruled Crowson in

People v. Myers (1993) 5 Cal.4th 1193. Myers held that, in determining whether a
foreign conviction satisfies the minimum elements of a "serious felony" in
California, the court may examine "the entire record of the prior conviction." (Id.,
at p. 1201; see also People v. Guerrero (1988) 44 Cal.3d 343, 355-356 [in
determining the truth of a prior-conviction allegation, the trier of fact may look to
25

Petitioner's App. 14 - 300

the entire record of the conviction, overruling People v, Alfaro (1986) 42 CaL3d
627].)
Defendant fails to explain his. view that Myers is not fully retroactive, and
no reason appears to depart from the general rule thatjudicial decisions, even
those overruling prior authority, have full retroactive effect (See, e.g., Burris v.
Superior Court (2005) 34 CaL4th 1012, 1023; Woosley v. State of California

(1992) 3 CaL4th 758, 793-794.) Retroactive application is particularly appropriate
here, because Myers would apply.to the consideration of the prior conviction at
any new triaL
Although defendant additionally questions the "competence" of the foreign
records on which the trial court relied, he fails to persuade us that the records are
invalid or otherwise deficient Our own review of those records reveals that as to
the Alaska conviction, defendant pleaded guilty to "unlawfully break[ing] and
enter[ing] a ... residence, ... the breaking and-entering being with the intent to
commit the crime oflarceny therein," and that as to the Oregon conviction,
defendant was found guilty of"knowingly and unlawfully enter[ing] a dwelling [a
residence] ... with the intent to commit the crime of theft therein." (Cf. former
§ 459: "Every person who enters any house, ... apartment, ... with intent to
commit grand or petit larceny or any felony is guilty of burglary"; see also former
§ 460, subd. (I): "Every burglary of an inhabited dwelling house ... is burglary
of the first degree"; § 490a: "Whenever any law or statute of this state refers to or
mentions larceny, ... said law or statute shall hereafter be read and interpreted as
if the word 'theft' were substituted therefor";§ 1192,7, subd, (c)(l8) [any burglary
of the first degree is a "serious felony"].) Because. each.one of defendanfs prior

26

Petitioner's App. 14 - 301

convictions thus would satisfy the necessary elements to convict defendant of first
degree burglary in California, we reject defendant's challenge.1°
After the jury reached its guilt phase verdicts, defendant outside the jury's
presence renewed his request that evidence of his prior burglary convictions be
excluded from the jury's consideration, this time requesting that the trial court
exercise its discretion under section 1385 to strike the allegations. The trial court
appears to have denied the request, although the reporter's transcript does not
explicitly so indicate.11
On appeal, defendant contends "it was in the interests of justice to dismiss
the [prior conviction allegations] under section 1385, because the crimes charged
were committed before the 1986 amendment to that section." We disagree. The
circumstance that defendant's prior convictions were committed before the 1986
amendment that added subdivision (b) to section 13 85 ("This section does not
authorize a judge to strike any prior conviction of a serious felony ... ") did not
preclude the trial court in 1989 from denying defendant's motion to strike the prior
conviction allegations. No error or abuse of discretion appears.12

Even if we were to agree with defendant that the trial court should have
struck defendant's prior convictions from Oregon and Alaska on the ground that
they were not serious felonies, the prosecution still was entitled to introduce
evidence of those convictions at the penalty phase under section 190.3,
subdivision (c), which permits the prosecution to introduce evidence of "the
presence ... of any prior felony conviction" regardless of whether it is a "serious
felony."
10

The clerk's transcript, however, reads: "Motion to strike priors pursuant to
[section] 1385 [of the] Penal Code in the interest of justice is denied."

11

12
In rejecting defendant's claim that the trial court erred in failing to dismiss
the prior conviction allegations pursuant to section 1385, we need not and do not
address the broader question whether, in a case tried after the 1986 amendment to
that statute but involving a prior conviction of a serious felony that was committed
(footnote continued on next page)

27

Petitioner's App. 14 - 302

Defendant next contends the trial <::ourt erred in admitting the evidence of
defendant's prior burglary convictions under section 190.3, subdivision (c) at the
penalty phase. He is incorrect. (See People v. Balderas (I 985) 41 Cal.3d 144,
201 ["The plain meaning of subdivisions (b) and (c) of section 190.3 is that the·
· jury must consider any violent criminal activity by the defendant; whether or not it
led to prosecution and conviction, and any 'prior felony conviction' (italics added),
whether the underlying offense was violent or nonviolent."].) Defendant's prior
burglary convictions in Oregon and Alaska clearly qualify as prior felony
convictions. Defendant offers no persuasive argument to the contrary.
Finally, even ifwe were to assume for the sake of argument that defendant
is correct in asserting _that the trial court erred in admitting defendant's prior
burglary convictions at the penalty phase, we perceive no prejudice. The jury did
not learn of defendant's prior convictions until after it already had considered the
evidence that defendant had committed the charged murders and had found him
guilty of those crimes as well as other offenses. Under these circumstances, there
existed no reasonable possibility of a different outcome at the penalty phase, had
the prior burglary convictions not been admitted.
D.

Denial of Pretrial Motion to Exclude Other-Crimes Evidence
Pertaining to the Deaths of Tok Kim and Janette Cullins

Defendant contends the superior court abused its discretion in denying his
motion to exclude evidence pertaining to the death of Tok Kirn in Alameda
County and the murder of Janette Cullins in San Diego County. He argues that the
judgment must be reversed in its entirety due to the lower court's admission of this
(footnote continued from previous page)

before the enactment of that amendment, a.trial court retained the authority .to
dismiss a prior conviction allegation under the statute. ·

Z8

Petitioner's App. 14 - 303

"other-crimes evidence" in purported violation of defendant's constitutional rights.
We conclude defendant's position is without merit.
In March 1987, approximately two years prior to the commencement of
defendant's trial, the prosecution informed the defense of its intention to
introduce, at the guilt phase of defendant's trial, evidence of the then-pending,
unadjudicated crimes charged against defendant in Alameda and San Diego
Counties. In July 1987, defendant responded to the prosecution's notice by filing
a "motion to exclude evidence of pending prosecutions in Alameda and San Diego
Counties." In July 1988, the superior court considered and summarily denied
defendant's motion. Approximately one year later (on the eve of trial), defendant
renewed the motion to exclude this evidence, limiting the motion to the Kim
matter only and asserting that the prosecution had failed to disclose laboratory and
related police reports revealing that defendant had not been the donor of semen
detected on a bedspread in Kim's apartment. The court summarily denied this
motion as well. 13
As we have summarized in the foregoing statement of facts, at the guilt
phase of trial the prosecution, over defense objection, introduced evidence
pertaining to the death of Tok Kim and the murder of Janette Cullins. Defendant
had yet to be tried in those cases and, in the wake of the death judgments rendered
in the present case and in the subsequently tried case involving Janette Cullins,
Alameda County dismissed the charges against him based on the death of
Tok Kim. As noted, defendant contends the trial court below erred in permitting
the prosecution to introduce evidence_ of these crimes.

The latter motion was captioned: "Motion for mistrial, or in the alternative
renewed motion in limine re 'Oakland' evidence of other misconduct."

13

29
Petitioner's App. 14 - 304

Character evidence is not admissible to show conduct on a specific
· occasion. (Evid. Code,§ 1101, subd. (aD This type of evidence sometimes is
referred to as evidence of criminal disposition or propensity. (E.g., People v. Sam
(1969) 71 Cal.2d 194, 203 [77 Cal.Rptr. 804, 454 P.2d 700].) The rule excluding
such evidence; however, is qualified by Evidence Code _section 1101, subdiyision
(b ), which provides: "Nothing in this section prohibits the admission of evidence

that a person committed a crime, civil wrong, or other act when relevant to prove
some fact (such as ... opportunity, intent, preparation, plan, knowledge,
identity ...) other than his or her disposition to commit such an act." ·
"Evidence that a defendant has committed crimes other than those currently
charged is not admissible to prove that the defendant is a person of bad character
or has a criminal disposition; but evidence of uncharged crimes is admis.~ible to
prove, among other things, the identity of the perpetrator qf the charged crimes, 1
· the existence of a common design or plan, or the intent with which the perpetrator
acted in the commission of the charged crimes. (Evid. Code,§ 1101.) Evidence
of uncharged crimes is admissible to prove identity, common design or plan, or
intent only if the charged and uncharged crimes are sufficiently similar to.support
a rational inference of identity, common design or plan, or intent. (People v.
Ewoldt (1994) 7 Cal.4th 380, 402-403.) On appeal, the trial court's determination
of this issue, being essentially a determination ofrelevance, is reviewed for abuse
of discretion. (People v. Scheid (1997) 16 Cal.4th 1, 14; People v. Alvarez (1996)
14 Cal.4th 155,201; People v. Gordon (1990) 50 Cal.3d 1223, 1239; see also
People v. Hayes (1990) 52 Cal.3d 577, 617; U.S. v. Khan (9th Cir. 1993) 993
F.2d 1368, 1376.)
"To be relevant on the issue of identity, the uncharged crimes must be
highly similar to the charged offenses: (People v. Ewoldt, supra, 7 Cal.4th 380,
403.) Evidence of an uncharged crime is relevant to prove identity only if the
30

Petitioner's App. 14 - 305

charged and uncharged offenses display a ' "pattern and characteristics ... so
unusual and distinctive as to be like a signature." ' (Ibid., quoting 1 McCormick
on Evidence (4th ed. 1992) § 190, pp. 801-803.) 'The strength of the inference in
any case depends upon two factors: (1) the degree of distinctiveness of individual
shared marks, and (2) the number of minimally distinctive shared marks.' (People
v. Thornton (1974) 11 Cal.3d 738, 756, italics in original, disapproved on other·
grounds in Peopley. Flannel (1979) 25 Cal.3d 668, 684, fn. 12.)" (People v. Kipp
(1998) 18 Cal.4th 349, 369-370.)
Viewing the evidence inthe light most favorable to the trial court's ruling,
certain of the charged and uncharged offenses displayed common features that
revealed a highly distinctive pattern. As noted in our summary of the evidence,
Jillette Mills and Susan Knoll each was fatally strangled and their bodies found in
a closed bedroom closet; in the uncharged offense involving Janette Cullins, the
victim's body also was found strangled in her closed bedroom closet. Although
defendant notes certain differences in the circumstances surrounding the victims'
deaths, the combination of fatal strangulation and placement of a young woman's
body in a closed bedroom closet is both highly distinctive and suggestive that the
same person perpetrated the crimes involving Knoll, Mills, and Cullins.
To be highly distinctive, the charged and uncharged crimes need not be
mirror images of each other. Thus, although there were certain differences in the
crimes committed against Knoll and Mills, and those against Cullins, such
distinctions went to the weight of the evidence and did not preclude the
prosecution from introducing the evidence regarding Cullins' s murder.
Although the evidence of Kim's death did not share the distinctive features
of the murders charged in the present case, it clearly was relevant on the issues of

31

Petitioner's App. 14 - 306

intent and a common plan.1 4 The vehicle owned by Tok Kim was missing at the
time her body was found but later was discovered near the residence of Knoll and
Mills. Subsequently, a white Datsun 280 ZX matching the description ofMills's
vehicle, missing since the time Mills's body was found, was observed in the
vicinity of Cullins' s apartment near the time of Cullins' s murder. When arrested,
defendant had on his person or in the Datsun an eclectic array of objects identified
as having belonged to: (1) each of the three victims in the murders charged in the
present case, (2) Janette Cullins, and (3) Tok Kim.
· The shared characteristics of the killings, as well as the presence of
evidence associated with a particular victim or victims at events related to the next
murder, indicate that when defendant committed the crimes charged in the present
case as well as the uncharged crimes, he acted pursuant to a common plan to kill
and steal from his victims.
"A lesser degree of similarity is required to establish relevance on the is,sue
of common design or plan. (People v. Ewoldt, supra, 7 Cal.4th 380, 4Q2.) For
this pm:pose, 'the common features must indicate the existence of a plan rather
than a series of similar spontaneous acts, but the plan thus revealed need not be
distinctive or unusual.' (Id., at p. 403.)
"The least degree of similarity is required to establish relevance on the
issue of intent (People v. Ewoldt, supra, 7 Cal.4th 380, 402.) For this purpose,
the uncharged crimes need only be 'sufficiently similar [to the charged offenses]
to support the inference that the defendant" 'probably harbor[ ed] the same intent
in each instance.' [Citations.]" ' (Ibid.)" (People v. Kipp, supra, 18 Cal.4th 349,
. .

-

.

'

:

Although no cause of death was established as to Kirn, as noted a curtain tie
was found beneath her neck: In his briefing, defendant characterizes Kim's death
as an "uncharged homicide."
14

,_32

Petitioner's App. 14 - 307

371.) Considering the shared characteristics noted above, we conclude that the
trial- court did not abuse its discretion in implicitly determining that the charged
and uncharged offenses were sufficiently similar to support an inference that
defendant harbored the same intent - to kill and to steal - in each instance. (See

People v. Kipp, supra, 18 Cal.4th 349, 371.)
As we stated in Kipp, "There is an additional requirement for the
admissibility of evidence of uncharged crimes: The probative value of the
uncharged offense evidence must be substantial and must not be largely
outweighed by the probability that its admission would create a serious danger of
undue prejudice, of confusing the issues, or of misleading the jury. (People v.

Ewoldt, supra, 7 Cal.4th 380, 404-405.) On appeal, a trial court's resolution of
these issues is reviewed for abuse of discretion. (Id. at p. 405.) A court abuses its
discretion when its ruling 'falls outside the bounds ofreason.' (People v. De

Santis (1992) 2 Cal.4th 1198, 1226.)" (People v. Kipp, supra, 18 Cal.4th 349,
371.)
We find no abuse of discretion. Evidence of the circumstances surrounding
the death of Tok Kim was highly probative, as it helped to establish a link between
her recent acquaintance with defendant and her sudden death, and the murders of
Susan Knoll, Jillette Mills, Bonnie Guthrie, and Janette Cullins that shortly
followed. Because the five women each died within a period of approximately
four days, the proximity of these incidents to each other "further enhanced" the
probative value of the other crimes evidence. (See People v. Kipp, supra, 18
Cal.4th 349, 371.) Kim's Honda was discovered shortly after her death, hundreds
of miles from her residence, parked in front of the apartment in which the bodies
of Knoll and Mills were discovered, and at approximately the same time that
Mills' s car disappeared. Evidence of the circumstances of Cullins' s death was
probative for the same reason. Mills's missing white Datsun 280 ZX matched the
33

Petitioner's App. 14 - 308

description of the vehicle that a neighbor observed rapidly driving away from the
apartment building in which Cullins (who also had been acquainted with
defendant) had resided. The cause of Cullins's death, and the location of her body
in a bedroom closet, closely resembled both the manner ofkilling and the
·concealment utilized by the perpetrator at the Knoll/Mills crime scene. As noted,
at the time of defendant's arrest items linking him to all five deceased women
were discovered on his person or in Mills's vehicle.
These evidentiary links were highly probative as to the identity of the
perpetrator of the crimes, as well that person's murderous and larcenous cornrnon
plan and intent. The prosecution was required to prove in its case-in-chief that
defendant intended to kill Knoll, Mills, and Guthrie, each of whom was fatally
strangled, When the trial court ruled admissible the evidence in question, .
defendant had not conceded either the issues of identity 6r intent, nor did the
prosecution possess other evidence proving these material disputed·facts so
conclusively that evidence of the Kim and Cullins deaths should have been·•.·
excluded as merely cumulative. (See People v. Kipp, supra, 18 Cal.4th 349, 372.)
"Against this substantial probative value on material arid contested issues,
we must weigh the danger of uridue prejudice to defendant, of confusing the
issues, or of misleading thejuty." (People

V.

Kipp, supra, 18 Cal.4th 349, 372.)

Evidence of the Kim and Cullins crimes "posed a substantial danger of prejudice
to defendant because a jury would be inclined to view [such] evidence ... as
evidence of his criminal propensities, and because a juty might well view
defendant as deserving of punishment" for the Kim and Cullins crimes regardless
of his guilt of the Knoll, Mills, and Guthrie murders. (Ibid:) "Butprejudi'ce cifthis
sort is inherent whenever other crimes evidence is admitted (People V. Ewoldf ·
supra, 7 Cal.4th 380, 404), and the risk of such prejudice was rtot unusually grave
here." (People v. Kipp, supra, 7 Cal.4th 349, 372.) The Kim death artd the• ·
34

Petitioner's App. 14 - 309

Cullins murder were not significantly more inflammatory than the charged
offenses; the prosecution was unable definitively to establish that Kim had died at
the hands of another, and there was no evidence that Cullins suffered sexual
assault as had Mills and Guthrie.
Moreover, the jury was instru.cted correctly pursuant to CALJIC Nos. 2.09
and 2:50 as to the limited purposes for which it might consider the evidence of the
Kim and Cullins matters. The instructions conveyed that evidence relating to
those events could not be considered to prove defendant's bad character or
criminal disposi tion.15
15

The jury was instructed pursuant to CALJIC No. 2.09, as follows:
"Evidence concerning Tok Chum Kim in Oakland and Janette Cullins in
San Diego was admitted for the limited purpose of determining if it shows the
identity of the person who committed the crime of which the defendant is accused.
"Do not consider such evidence for any purpose except the limited purpose
for which it was admitted."
The jury also was instructed pursuant to CALJIC No. 2.50, as follows:
"Evidence has been introduced for the purpose of showing that the
defendant committed [crimes] other than that for which [he] is on trial.
"Such evidence, if believed, was not received and may not be considered by
you to prove that defendant is a person of bad character or that [he] has a
disposition to commit crimes.
"Such evidence was received and may be considered by you only for the
limited purpose of determining if it tends to show:
"[The existence of the intent which is a necessary element of the crime
charged;]
"The identity of the person who committed the crime, if any, of which the
defendant is accused;]
"[A motive for the commission of the crime charged;]
"[The defendant had knowledge of the nature of things found in [his]
possession;]
"[The defendant had knowledge or possessed the means that might have
been useful or necessary for the commission of the crime charged;]
"[The defendant did uot reasonably and in good faith believe that the
person with whom [he] engaged or attempted to engage in a sexual act consented
to such conduct;]
(footnote continued on next page)

35

Petitioner's App. 14 - 310

Defendant also contends that in view of the summary nature of the trial
- court's ruling denying_defendant's motion, the court "failed to engage in the
balancing process required under Evidence Code sectioh[s] 352 or Syction 954,"
and on that basis reversal is required. We disagree. The parties agreed to present
the issue to the court based on the strength of their wntt_en submissions (that is,
without oral argument), prompting the court to observe that the parties' arguments
"certainly were completely handled in the papers." Although "the better practice"
would have been for the trial court, prior to issuing its ruling, to have set forth on
the record its balancing of the probative value of the evidence against its
prejudicial effect (Brown v. Smith (1997) 55 Cal.App.4th 767, 793), its ruling did
not have to be that explicit. (See People v. Garceau (1993) 6 Cal.4th 140, 177179 [trial court's failure to state on the record that it had weighed prejudice against
probative value held not erroneous when parties had argued at length as to the
admissibility of certain testimony that allegedly was unduly prejudicial to the
defendant]; People v. Raley (1992) 2 Cal.4th 870, 894-895 [trial court's explicit
rejection of the Evidence Code section 352 claim deemed to be sufficient, the
court "having heard lengthy argument"]; People v. 1'.1ickey (1991) 54 Cal.3d 612,
655-656 [in upholding admissibility of the defendant's letters that assertedly were
privileged under Evidence Code section 980, observing that although the trial
court could have been more explicit in explaining its reasoning, "we review the
ruling, not the reasoning."]; see also People v. Triplett (1993) 16 Cal.App.4th 624,

(footnote continued from previous page)

"[The crime charged is a part of a larger continuing plan, or scheine],,
''For the limited purpo"se for which you ~ay consider such evidence, you
must weigh it in the same manner as you do all other evidence in the case.
"You are not permitted to consider such evidence for any other purpos_e.''.

,. 36

Petitioner's App. 14 - 311

626-629 [reviewing the evolution ofthe case law in this area].) In the present
case, the parties submitted the issue to the court on the strength of their thoroughly
prepared written arguments. In view of the court's indication it had reviewed such
submissions, the weighing process contemplated by Evidence Code section 352
may be inferred.

In view of the foregoing, we conclude the trial court did not exceed the
bounds of reason in determining that the probative value of the evidence of the
Kim and Cullins matters "was not substantially outweighed by the probability that
its admission would create substantial danger of undue prejudice, of confusing the
. issues, or of misleading the jury." (See People v. Kipp, supra, 18 Cal.4th 349,
372.)

Finally, even ifwe were to assume that the trial court erred in denying
defendant's motion to exclude the evidence relating to the deaths of Kim and
Cullins, reversal would not be required unless it is reasonably probable the
outcome would have been more favorable to defendant had such evidence been
excluded. (People v. Kipp, supra, 18 Cal.4th 349, 374.) In view of the strong
evidence implicating defendant in the charged murders of Susan Knoll, Jillette
Mills, and Bonnie Guthrie, it is not reasonably probable that an outcome more
favorable to defendant would have been reached in the absence of the evidence
related to Kim and Cullins.
E.

Denial of Motion for Severance of the Culver City Crimes
(Knoll and Mills) from the West Los Angeles Crimes
(Guthrie)

Defendant contends the trial court improperly denied his motion to sever
defendant's trial on the "Culver City crimes" involving tlie murders of Susan
Knoll and Jillette Mills, the rape of Mills, and the burglary of the apartment shared
by Knoll and Mills (offenses that were alleged to have occurred on April 10, 1984)

37

Petitioner's App. 14 - 312

from the "West Los Angeles crimes" involving the murder and rape of Bonnie
Guthrie and the burglary committed at her apartment (oftenses that were_ alleged to
have occurred on April 11, 1984). Defendant argues that in denying the motion 10
sever and thereby compelling him to face "a joint trial of offenses arising from
separate incidents on different dates," the trial court denied defendant a panoply of
state and federal constitutional rights, requiring reversal of the entire judgment. In
particular, defendant maintains that "while the offenses are of the same class, the
crimes were not inextricably connected in their commission, and the so-called
common markers between the Mills/Knoll and Guthrie homicides can only be
termed 'minimally distinctive' under close scrutiny." Defendant further contends
that the trial court erred in denying his motion to sever in the same summary
fashion as the court had denied defendant's motion to exclude the other crimes
evidence, and in failing explicitly to weigh the relevant factors on the record <'ind;
exercise its discretion. None of these claims has merit.
"Section 954 provides that '[a]n accusatory pleading may charge ... two or
more different offenses of the same class of crimes or offenses, under separate
counts, ... provided, that the court in which a case is triable, in the interests of
justice and for good cause shown, may in its discretion order that the different
offenses or counts set forth in the accusatory pleading be tried separately or
divided into two or more groups and each of said groups tried separately.'
Because both offenses involved murder and thus belonged to the same class of
crimes, the statutory requirements for joinder were satisfied. Therefore, defendant
can predicate error in denying the motion to sever only upon a clear showing of
potential prejudice. (People v. Osband (1996) 13 Cal.4th 622, 666 [55 Cal.Rptr.2d
26, 919 P.2d 640]; People v. Sandoval (1992) 4 Cal.4th 155, 172-173 [14

38

Petitioner's App. 14 - 313

Cal.Rptr.2d 342, 841 P.2d 862], affd. s~b nom. Victor v. Nebraska (1994) 511
U.S. 1 [114 S.Ct. 1239, 127 L.Ed.2d 583].) 16
"In reviewing this claim, we apply the familiar standard of review
providing that the trial court's ruling may be reversed only if the court has abused
its discretion. (People v. Mayfield (1997) 14 Cal.4th 668, 720 [60 Cal.Rptr.2d 1,
928 P.2d 485]; People v. Davis (1995) 10 Cal.4th 463,508 [41 Cal.Rptr.2d 826,
896 P.2d 119]; see People v. Osband [1996] 13 Cal.4th 622, 666; People v.

Cummings (1993) 4 Cal.4th 1233, 1284 [18 Cal.Rptr.2d 796, 850 P.2d 1].) An
abuse of discretion may be found when the trial court's ruling' "falls outside the
bounds ofreason." ' (People v. Osband, supra, 13 Cal.4th 622, 666.)
" ' "The burden is on the party seeking severance to clearly establish that
there is a substantial danger of prejudice requiring that the charges be separately
tried." [Citation.] [1] "The determination of prejudice is necessarily dependent
. on the particular circumstances of each individual case, but certain criteria have
emerged to provide guidance in ruling upon and reviewing a motion to sever trial.''
[Citation.] Refusal to sever may be an abuse of discretion where: (1) evidence on
the crimes to be jointly tried would not be cross-admissible in separate trials;
(2) certain of the charges are unusually likely to inflame the jury against the
defendant; (3) a "weak" case has been joined with a "strong" case, or with another
"weak" case, so that the "spillover" effect of aggregate evidence on several

"Proposition 115, adopted in June 1990, contained several new
constitutional and statutory provisions on the subjects of joinder and severance.
(See Cal. Const., art. I,§ 30, subd. (a);§ 954.1) Defendant was tried prior to the
effective date of Proposition 115, and accordingly we apply the law predating
Proposition 115 in our review of defendant's claims regarding severance. (People
v. Arias (1996) 13 Cal.4th 92, 126, fn. 7 [51 Cal.Rptr.2d 770, 913 P.2d 980].)"
(People v. Bradford (1997) 15 Cal.4th 1229, 1314.)

16

39

Petitioner's App. 14 - 314

charges might well alter the outcome of some or all of the charges; and (4) any one
of the charges carries the death penalty or joinder of them turns the matter into a
capital case. [Citations.]' (People v. Sandoval, supra, 4 Cal.4th 155, 172-173;

People v. Mayfield, supra, 14 Cal.4th 668, 721; People v. Memro (1995) 11
. Cal.4th 786, 849-850 [47 Cal.Rptr.2d 219,905 P.2d 1305]; People v. Davis;

supra, 10 Cal.4th 463, 507-508; People v. Mason (1991) 52 Cal.3d 909, 933-934
[277 Cal.Rptr. 166, 802 P.2d 950]; Williams v. Superior Court (1984) 36 Cal.3d
441, 452-454 [204 Cal.Rptr. 700, 683 P.2d 699].)
"Furthermore, we have observed that the criteria enumerated in Sandoval
are not equally significant. '[T]he first step in. assessing whether a combined trial
[would have been] prejudicial is to determine whether evidence on each of the
joined charges would have been admissible, under Evidence Code section 1101, in
separate trials on the others. If so, any inference of prejudicy is dispelled.' . '

(People v. Balderas (1985) 41 Cal.3d 144, 171-172 [222 Cal.Rptr. 184, 711 P.2d
480]; see People v. Mayfield, supra, 14 Cal.4th 668, 721.) Cross-admissibility
suffices to negate prejudice, but it is not essential for that purpose. Although
' "we have held that cross- admissibility ordinarily dispels any inference of
prejudice, we have never held that the absence of cross-admissibility, by itself,
sufficed to demonstrate prejudice."' (People v. Sandoval, supra, 4 Cal.4th 155,
173.)" (People v. Bradford, supra, 15 Cal.4th 1229, 1314-1316.)
In the present case, the trial court's denial of defendant's motion to sever
clearly was based on certain obvious similarities among the crimes. "Pursuant to
Evidence Code section 1101, subdivision (b), evidence that a defe~dant has
committed an offense, although inadmissible to demonstrate a defendant's ·.

disposition to commit crimes, may be received to establish, among other things,
identity, intent, motive, or plan. To be admissible to demonstrate a distinctive
modus operandi, the evidence must disclose common marks or identifiers, that,
40

Petitioner's App. 14 - 315

considered singly or in combination, support a strong inference that the defendant
committed both crimes. (People v. Miller (1990) 50 Cal.3d 954, 988-989 [269
Cal.Rptr. 492, 790 P.2d 1289]; People v. Bean (1988) 46 Cal.3d 919,937 [251
Cal.Rptr. 467, 760 P.2d 996]; see People v. Memro, supra, 11 Cal.4th 786, 851;

People v. Ewoldt (1994) 7 Cal.4th 380,403 [27 Cal.Rptr.2d 646, 867 P.2d 757].)"
(People v. Bradford, supra, 15 Cal.4th 1229, 1316.)
The Susan Knoll/Jillette Mills and Bonnie Guthrie offenses, having been
committed approximately one day apart, each involved the murder by
strangulation of young women whose belongings were found approximately one
week later in defendant's possession. On this basis alone, the evidence connecting
defendant to the Knoll/Mills and Guthrie crimes would be cross-admissible if the
court had ordered separate trials, thereby dispelling any inference of prejudice.

(People v. Bradford, supra; 15 Cal.4th at 1315-1316.) Moreover, because both
crime scenes inv9lved murder and sexual assault, the evidence from each
disclosed a commonality with regard to intent and plan (Evid. Code,§ 1101, subd.
(b )), while presenting little if any possibility that one of the charges or set of

charges would have unduly inflamed the jury against defendant. Although all
three women were not strangled in an identical manner -

Mills and Guthrie were

strangled by ligature, whereas Knoll was strangled manually -

both crime scenes

had in common a ligature strangulation, as well as the traumatic sexual assault of
Mills and Guthrie. Nor did the prosecution join a "weak case" with a "strong"
one-. the evidence linking defendant to each crime was especially compelling.
Further, Knoll and Guthrie were best friends, a circumstance that suggested one
person committed the crimes against both victims in the two-day period, and that
therefore supported the cross-admissibility of the evidence. The murders of each
of the three women presented one or more special circumstances; because each
one of the murders by itself formed the basis for capital charges to be brought
41

Petitioner's App. 14 - 316

against the perpetrator,joinder did not lead to one set of crimes being "elevated''.
· to capital status.
Although the better practice would have been for the trial court to make
clear on the recbrd the basis for its denial ofdefendant' s motion to sever:, the
court's failure to articulate its reasoning does not invalidate its ruling or undermine
the correctness of that denial.
Further, we observe that even had defendant demonstrated that the evidence
would not have been cross-admissible, he has failed to establish prejudice. He has
not demonstrated that one offense or set of offenses was "significantly more likely
to inflame the jury against defendant, since the murders were similar in natute and
equally gruesome. Defendant has not shown that evidence of guilt was
significantly stronger in one case, creating the danger that that case would be used
to bolster the weaker case, because the prosecutor's ·evidence was nearly equal in
strength" in establishing defendant's involvement in the Ki1011/Mills and Guthrie
murders. (People v. Bradford, supra, 15 Cal.4th at 1317-1318.)
Under these circumstances, no abuse of discretion appears. We therefore
reject defendant's claims of error.

F.

Pretrial and Midtrial Motions Contesting the Sufficiency of
the Evidence of Felony Murder in the Deaths of Susan Knoll,
Jillette Mills, and Bonnie Guthrie, and of the Special
Circumstances of Burglary and Rape

Prior to trial, defendant moved pursuant to section 995 to strike and set
aside the substantive charges and special circumstances pertaining to the murders
and to other offenses involving victims Susan Knoll, Jillette Mills, and Bonnie
Guthrie. The motion was denied. Defendant thereafter petitioned the Court of .
Appeal for writ relief, which also was denied .. At the close of the prosecution's
case-in-chief, defendant filed a motion for judgment of acquittal, pursua11t to
section 1118.1. This motion, too, was denied.
42

Petitioner's App. 14 - 317

Defendant generally contends there was insufficient evidence (I) to support
his conviction, based on the theory of felony murder, for the murders of Susan
Knoll, Jillette Mills, and Bonnie Guthrie, and (2) to find true the special
circumstance allegations of burglary and rape. Defendant specifically asserts the
evidence was inadequate to establish that he harbored a felonious intent upon
entering the victims' residences; he notes the premises bore no sign of forced
entry. Defendant's position is without merit.
The law applicable to a claim of insufficiency of the evidence is wellsettled: " 'In reviewing [a claim regarding] the sufficiency of the evidence, we
must determine "whether, after reviewing the evidence in the light most favorable
to the prosecution, any rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt." [Citation.] "[T]he court must
review the whole record in the light most favorable to the judgment below to .
determine whether it discloses substantial evidence -. that is, evidence which is
reasonable, credible, and of solid value -

such that a reasonable trier of fact could

find the defendant guilty beyond a reasonable doubt." [Citation.] We" 'presume
in support of the judgment the existence of every fact the trier could reasonably
deduce from the evidence.' " ' [Citation.] Ifwe determine that a rational trier of
fact could have found the essential elements of the crime proven beyond a
reasonable doubt, the due process clause of the United States Constitution is
satisfied [citation], as is the due process clause of article I, section 15, of the
California Constitution [citation]." (People v. Os band, supra, 13 Cal.4th 622,
690; see also People v. Ochoa (1998) 19 Cal.4th 353, 413-414; People v. Morris
(1988) 46 Cal.3d 1, 19.)
Section 187, subdivision (a), defines murder as "the unlawful killing of a
human being, or a fetus with malice aforethought." At the time the crimes were
committed, first degree murder could be accomplished by a "murder ...
43

Petitioner's App. 14 - 318

committed in the perpetration
of, or attempt to perpetrate, arson, . rape, robbery,
.
'

'

burglary, mayhem, or any act punishable under section 288 .... " (FoTT!ler § 189,
added by Stats. 1982, .ch. 950, § 1, p. 3440.) Rape was defined in pertinent part as
"an act of sexual intercourse accomplished with a person not the spouse of the
perpetrator [that was] accomplished against a person's will by means of force or
fear of immediate and unlawful bodily injury on the person or another." (Former
§ 261, subd. (2) added by Stats. 1984, ch. 1635, § 79.5, p. 5865.) Burglary was
defined, in pertinent part, as an entry into any "room, apartment ..• or other
building ... with intent to commit grand or petit larceny or any felony . , .. "
(Former § 459, added by Stats. 1984, ch. 854, § 2, p. 2896.)
With regard to the murder charges, we observe that Susan Knoll, Jillette
Mills, and Bonnie Guthrie each was fatally strangled; Knoll manually, Mills and
Guthrie by ligature. There is no question that each of these killings was UJ\la\Yful
and was committed with malice aforethought. Defendant's palm print was
discovered in the apartment shared by Susan Knoll and Jillette Mills where their
bodies were found.
Similarly, the evidence was sufficient to establish rape; Mills's and
Guthrie's bodies bore signs of having suffered traumatic sexual assault, and
seminal fluid discovered on a white nightgown in the apartment was consistent.
with defendant's PGM type and that of 15.8% of the population.
With regard to the offense of burglary, evidence of a forced entry is not
required to establish felonious intent; defendant's intent instead may be inferred
from all of the facts and circumstances disclosed by the evidence. (People v.
Matson (1974) 13 Cal.3d 35, 41.) Defendant's commission of crimes in close,

temporal proximity, combined with a very similar modus pperandi,in each
incident, strongly indicates that he entered the residep.ces with the requisite
felonious intent. (Ibid.)
44

Petitioner's App. 14 - 319

Defendant was arrested driving Mills 's stolen Datsun 280 ZX, containing
an Alpha Beta supermarket CASHEX card identified as having bel_onged to Knoll;
towels, athletic wear, and photographic equipment identified as having belonged
to Mills; and three hand-woven sweaters identified as having belonged to Bonnie
Guthrie.
In view of the evidence summarized above, the jury reasonably could have
inferred that the murders of Knoll, Mills, and Guthrie occurred in the course of
defendant having committed the felonies of burglary and rape. The evidence
adduced at trial clearly was sufficient, for purposes of the felony murder rule and
the special circumstances alleged, to establish that defendant committed rape and
burglary.

G.

Motion to Reconsolidate the Los Angeles, Alameda, and San
Diego County Cases

As originally filed, the complaint against defendant charged all of the
crimes allegedly committed in Alameda, Los Angeles, and San Diego Counties in
a single pleading. Defendant subsequently moved to dismiss the charges arising
from the Alameda and San Diego crimes committed against Tok Kim and Janette
Cullins, respectively. The prosecution did not oppose the motion, instead
informing defendant that if the motion were granted, the crimes committed in
Alameda and San Diego Counties would form the basis for a refiling of the
charges against defendant in those counties.17
17

At the hearing on defendant's motion to sever, the prosecutor observed:
"The law is very clear that venue objections must be made in a timely ·
fashion or they are forever waived. This is the correct time for making such a
motion, and I think there is no legally tenable ground the People would urge for
the court to deny the motion. In other words, I think the motion is well-taken.
"I filed the case in its present form for two primary or three primary
reasons. First, because it seemed to me quite clear that this is a series .of crimes in
(footnote continued on next page)

45

Petitioner's App. 14 - 320

On January 28, 1986, the court granted defendant's motion to dismiss the
charges involving the crimes committed in Alameda and San Diego Counties.
Defendant thereafter separately was charged in San Diego County for the murder
of Janette Cullins, and was transferred to that county for arraignment, preliminary
hearing, and other pretrial motions. Defendant also was charged in Alameda
County with murder and related offenses involving Tok Kim. 18
On August 8, 1988, more than hvo and one-half years after the court
granted defendant's motion to dismiss the Alameda and San Diego County
charges, defendant -

now represented by new counsel -

moved to reconsolidate

the Alameda, Los Angeles, and San Diego cases. At the hearing conducted 10
days later, defense counsel informed the court that the motion was made over

(footnote continuedfrom prnvious page)

the general sense connected in their commission. · It made sense to me that there be
one prosecution rather than three separate prosecutions, and in order to foreclose a
later objection in Oakland and San Diego, it seemed to me important that the
· defense be given first an opportunity to have this case tried as one and secondly be
put on notice that if only the Los Angeles crimes were charged here that it would
be clear that both Oakland and San Diego were going to go forward with their
cases as capital cases and that the defense would have to be prepared to defend the
crimes committed in Oakland and in San Diego and could not then be heard in
those hvo counties to urge that this should have been prosecuted all in Los
Angeles County.
"[,I] ... [1]
"So, with that in mind, the defendant is put on notice now that there will be
prosecutions in Oakland and San Diego.
"[,I] ... [1]
"Thus, what the defense has chosen to do is to accept the inevitability of
three separate death penalty trials with the attendant risk of three death penalty
verdicts by juries, three separate appeals, any [one] of which not being successful
would result in the ultimate punishment."
As previously noted (ante, p. 29), the Alameda County prosecution
ultimately was dismissed after the Los Angeles and· San Diego County death
judgments were rendered against defendant.

- l8

46

Petitioner's App. 14 - 321

defendant's objection.1 9 After hearing the parties argue the issue and observing
that the disagreement between defendant and his attorneys as to whether to seek
reconsolidation "[ d]oes raise an interesting issue," the court granted defense
counsel's request for one additional day in which to review the matter with
defendant. At the hearing the next day, defense counsel informed the court that
notwithstanding counsel's efforts to persuade defendant to seek reconsolidation,
defendant remained in "clear opposition" to the motion. The court determined that
defendant's position on the issue was "paramount," and denied the motion to
reconsolidate. 20
On appeal, defendant contends the trial court erred in denying his motion to
reconsolidate the Alameda, Los Angeles, and San Diego cases. Specifically,
defendant contends that his trial attorneys' decision to seek reconsolidation over
defendant's objection fell within counsel's "tactical prerogative" to "waive"

At the hearing on the motion to reconsolidate, defense counsel represented
to the court: "I ... am prepared to indicate with the utmost clarity, that Mr. Carter
opposes the motion to reconsolidate. [if] ... [if] Mr. Carter's position on the
motion to reconsolidate, his personal position is that he is opposed to the motion."

19

20
The court found: "The bottom line is that Mr. Carter is facing three
chances to get the death penalty as the cases stand now. If they were consolidated,
there would be but one.
"And just from a logical standpoint it would seem like his odds are better
with consolidation than the cases being tried in three separate jurisdictions as
they're set up now.
"On the other hand, it's the court's view that this is a monumental issue and
that it is one of fundamental importance and at this point in time I cannot see
overriding Mr. Carter's desires in telling the District Attorney to set in motion
procedures to bring all these cases together.
"[~] ... [if]
" ... I think this is the type of decision that Mr. Carter is entitled to make,
and no matter what the court's personal view is to the benefit of his making that
decision, I don't think it's the kind that can be overridden, I think Mr. Carter's
decision will have to remain the paramount one in this issue and the motion to
reconsolidate is denied."

47
Petitioner's App. 14 - 322

defendant's right to a jury drawn from the vicinage where the crimes were
committed, and that the trial court's denial of the motion violated defendant's
rights to "due process of law, fair trial, burden of proof, effective a_ssistance of
counsel, death eligibility and reliable determinations of guilt and penalty."
Although it is questionable whether the trial court was correct in
determining that defendant, rather .than defense counsel, possessed the
"paramount" authority to decide whether ·a motion to reconsolidate the charges
should have been proffered (see, e.g., People v. Guzman (1988) 45 Cal.3d 915,
935-939), even if the trial court erred in this determination we conclude that
reversal of the judgment is not warranted because the error was not prejudicial.
Had the trial court granted defense counsel's motion to reconsolidate the Alameda
and San Diego charges with the Los Angeles charges, there is no reasonable
probability ( or, for that matter, possibility) that defendant would have fared better
in a consolidated trial involving these additional charges than he did in a trial of
the Los Angeles charges alone. Defendant presents no persuasjve basis for
concluding that a jury that imposed the death sentence for three murders would
have imposed a lesser sentence if defendant had been charged in this proceeding
with additional crimes, including murder.
Defendant contends that a trial court's error in failing to consolidate
charges should be characterized as "structural error" that requires reversal without
any showing of prejudice. (See, e.g., People v. Cahill (1993) 5 Cal.4th 478, 501502.) Defendant presents no authority, however, to support the claim that a failure
to consolidate charges arising from crimes committed in different counties
constitutes structural error, and we conclude that the contention lacks merit.
Although the severance of the Los Angeles charges from the San Diego and
Alameda charges - on defendant's own motion - resulted in defendant having
to face two separate capital trials, in the absence of any showing how defendant
was prejudiced in either trial it is clear that the failure to consolidate the cases did

48

Petitioner's App. 14 - 323

not undermine the basic fairness of either trial or warrant reversal of the
judgment.2 1

H.

Pretrial Ruling Denying Exclusion of the Evidence Related to
Kim or of the Testimony of Ray Blevins, Based on the
Prosecution's Fail.ure to Timely Disclose Exculpatory Semen
Evidence at the Kim Crime Scene

On June 15, 1989, five days before the prosecution commenced the
presentation of its case-in-chief, defendant moved for a mistrial or, alternatively,
for exclusion of the evidence pertaining to the death of Tok Kim or of the
testimony of her former boyfriend Ray Blevins, on the ground the prosecution had
failed to timely provide the defense with a 1986 laboratory report generated by the
Oakland Police Department. The report indicated defendant was not the donor of
semen found on a bedspread in Kim's apartment. Defendant argued that the
prosecution's failure to respond in a timely fashion to a February 19, 1988
discovery order to produce any forensic evidence or related reports pertaining to
the bedspread, coupled with Blevins's death in 1987, precluded the defense from
ascertaining whether Blevins was the donor of the semen. In response, the
prosecution argued that the report had not been timely disclosed because Oakland
Police Department officials had failed to transfer it to the prosecutor and, in any
event, the report was immaterial .because the prosecution alleged that defendant
had murdered Kim, not that he had raped her. The trial court denied defendant's
motion in its entirety.
On appeal, defendant contends the trial court erred in denying his motion,
asserting that the laboratory report was "highly material." We review the matter
21
In view of our determination that the trial court's denial of the motion to
reconsolidate may not be set aside on appeal, we need not and do not address the
broader question under what circumstances an intercounty reconsolidation order
might be proper or improper.

49

Petitioner's App. 14 - 324

for abuse of discretion._ (People v. Jenkins (2000) 22 Cal.4th 900, 957.) No abuse
of discretion appears. When the report was provided to the defense, the .
prosecution had yet to present its case-in-chief, and the defense still had time to
formulate a response to the evidence. Moreover, as indicated above, a proffer of
rape never had been part of the proffer of the other crimes evidence. Rather, the
relevance of the evidence pertaining to Kim's death was twofold: (1) to
demonstrate a similarity in the circumstances of her death to the murders of Susan
Knoll, Jillette Mills, and Bonnie Guthrie, pursuant to-Evidence code section 110 I,
subdivision (b ), and (2) to establish a link between defendant.and the Los Angeles
County murders of Susan Knoll, Jillette Mills, and Bonnie Guthrie based upon the
circumstances that Kim's vehicle was parked outside the apartment occupied by
Knoll and_ Mills, and that Mills's vehicle, containing possessions belonging to
I','

each of the victims, was being driven by defendant at the time of his arrest. The·
discovery of semen on Kim's bedspread, and the report establishing that defendant
'

had not been the donor of that fluid, was, at best, of marginal significance in the
prosecution's case against defendant with regard to the Los Angeles County
murders. Therefore, defendant was not prejudiced by the prosecution's belated
disclosure of the laboratory report prior to the swearing-in of the jury and the
introduction of evidence.
Defendant makes the related assertion that the prosecutor misled the jury by
arguing that the circumstances surrounding the deaths of each of the victims,
including Tok Kim, had sexual assault as a common marker. The record belies
this claim. In his closing summation to the jury, which was relatively brief in
view of the number of crimes charged against defendant, the prosecutor did not•
assert that Kim had been raped or otherwise sexually assaulted, and ip.stead made
clear that only "two [victims] were raped" and that "[t]he evidence relating to
Miss Kim [was] offered to you for your determination in how the defendant was
50

Petitioner's App. 14 - 325

involved in this and, if he was, how he relates to all of this." Later in his
summation, the prosecutor asked, rhetorically if also ambiguously, "When did
[defendant] form the intent to steal or to rape? Was this, in the case of Miss Kim,
which is not before you as a finding that you have to make, an afterthought?
Certainly it's possible." The fleeting reference to Kim in this context hardly
suggested to the jury that defendant had sexually assaulted her; to the contrary, the
prosecutor explicitly reminded the jury that it need not make any findings as to
Kim. Again, no prejudice appears.
I.

Pretrial Ruling Admitting the Alameda County Eyewitness
Identifications

As part of the police investigation following the discovery of Tok Kim's
body on April 13, 1984, Oakland Police Sergeant Raymond Conner prepared a
photographic lineup containing defendant's photograph as well as the photographs
of five other individuals (members of the Oakland Police Department, shown
wearing street clothes, without indicia of their occupation). The lineup was shown
to nine witnesses, eight of whom identified defendant as the man they saw with
Kim, and one of whom alternated between selecting defendant's image and that of
one other individual depicted in the lineup. The order in which the photographs
were arranged was changed between presentations to the witnesses, who were
separately shown the lineup. At a pretrial proceeding, defendant moved to
suppress the photographic identifications as having been the product of an unduly
suggestive lineup. Following an evidentiary hearing, in which Sergeant Conner
testified, the court denied the motion, observing: "[C]ertainly there are some
differences, as there always are in photographs, but I don't find that the
photographic lineup was unduly suggestive."
On appeal, defendant renews his contention that the lineup was
impermissibly suggestive, "resulting in a tainted in-court identification critical to
51

Petitioner's App. 14 - 326

the People's case." He asserts the testimony given by several of these witnesses at
trial deprived him of his federal and state constitutional rights to due process of
law, a fair trial, confrontation, an impartial jury, and reliable determinations of
guilt, death eligibility; and penalty. Specifically, defendant contends: (l}he was
the only person whose photograph depicted an individual wearing an orange shirt
that resembled a "jail jumpsuit"; (2) the photograph of defendant was of "bookingphotograph quality," as distinguished from the Polaroid photographs of the other
individuals depicted in the lineup; (3) upon identifying defendant's photograph,
the witnesses were asked to sign their names on the reverse side of the image, a
technique that "subtl[y] ... reinforce[d)" and tainted the witnesses' identification
of defendant.
" 'In deciding whether an extrajudicial identification is so umeliable as to
violate a defendant's right to due process, the court must ascertain ( 1) "whether
the identification procedure was unduly suggestive and unnecessary," and, ifso,
(2) whether the identification was nevertheless reliable under the totality of the
circumstances. (People v. Gordon (1990) 50 Cal.3d 1223, 1242.)' (People v.
Wash [1993] 6 Cal.4th [215,] atp. 244.)" (People v. Carpenter (1997) 15 Cal.4th

312, 366-367.) Whether we review deferentially or independently the trial court's
finding regarding suggestiveness (see id., at p. 367; People v. Johnson (1992) 3 ·
Cal.4th I l 83, 1216-1217), defendant's position lacks merit.
Our review of the photographs contained in the lineup indicates that
defendant overstates the significance of the distinguishing characteristics seen in
. the photographs, and overlooks their more compelling general similarities. Each
one of the six color photographs is approximately the same size, and depicts a •·
middle-aged or somewhat younger adult male with a mustache and dark hair. Two
of the individuals are shown wearing white t-shirts, two are seen wearing lightcolored "dress" or "polo" shirts, one wears a plaid shirt, and one individual c..;:__
52

Petitioner's App. 14 - 327

defendant -

is wearing an orange shirt. Nothing about defendant's shirt identifies

it as a "jail jumpsuit" or any other type of jail-issued clothing? and even if it had, a
conclusion that the lineup was unduly suggestive would not necessarily follow.

(People v. Johnson, supra, 3 Cal.4th 1183, 1217 ["The fact that defendant was the
only person depicted in jail clothing ... was not unduly suggestive under the
circumstances present here."].) The expressions exhibited by the individuals are
roughly comparable: each has his eyes open and his mouth closed, except for one
individual whose mouth is slightly parted. Such distinctions are immaterial. (Id.,
at p. 1217 [minor differences in facial hair among the participants in a photo
lineup held not to be suggestive].) Although the size of the white border around
defendant's photograph is slightly larger than the border seen on the Polaroid
images, and the Polaroid images are glossy while the image of defendant is semigloss, such trivial distinctions also are immaterial. (Id., at p. 1217 [differences in
background color and image size among the photographs held not to render the
lineup impermissibly suggestive].) The witnesses clearly were instructed to
consider the persons depicted, not whether a particular image was potentially
distinguishable from the others based upon variations in photographic composition
or processing. 22
Nor do we attach significance to Sergeant Conner's request that the
witnesses \vrite their names on the backs of the particular photographs they
Prior to viewing the photographs, the witnesses were admonished by
Sergeant Conner: "You'll be asked to look at a group of photographs. The fact
that the photographs are shown t9 you should not influence your judgment. You
should not conclude or guess that the photographs contain the picture of the person
that committed the crime. You're not obliged to identify anyone. [ii] It's just as
important to free innocent persons from suspicion as to identify guilty parties. [~
Please do not discuss the case with other witnesses or indicate in any way that you
have or have not identified someone, other than to myself."

22

53

Petitioner's App. 14 - 328

identified. Although it would have been preferable to employ a more neutral

1

· recordation procedure-· for example, one in which a witness did not discover
upon selecting an individual from the lineup that other witnesses previously hi:id
identified the same. person--· We disagree with defe)J.dant that the procedur~ ,
utilized by Conner was unduly suggestive_ or represented a "subtle m~thod of·
reinforcement." Because the witnesses' signatures were added only after each
wi1ness had made his or her selection, we find no basis for concluding that the
witnesses were induced to identify defendant's image. (Compare People v.
Ochoa, supra, 19 Cal.4th 353, 411-413 [photographic identification of the

defendant upheld notwithstanding the circumstance that his photograph was the
only one taken in profile: " 'A procedure is unfair which suggests in advance of
identification by the witness the identity of the person suspected by the police.' "]

(Italics added.)
In sum, regardless of the applicable standard of review, we conclude that,

defendant has failed to meet his burden of establishing that the photo identification
procedure used here was unduly suggestive. (See People v. Carpenter, supra, 15
Cal.4th 312, 367.) We therefore need not reach the question "whether the
identification was nevertheless reliable under the totality of circumstances."
(People v. Carpenter, supra, 15 Cal.4th 312, 366-367; see also People v. Ochoa,
supra, 19 Cal.4th 353,413; People v. Johnson, supra, 3 Cal.4th 1183, 1218.)23

Assuming for the sake of argument that the witnesses' in-court
identifications of defendant as the man whom they saw in Alameda County with
Tok Kim were tainted by unduly suggestive identification procedures at the .
pretrial stage, any etr::'or clearly was harmless in view of other evidenc;:e that
,.
directly linked defendantto Kim and to the murder victims in Los Angeles and··
San Diego Counties. ·
·
23

54

Petitioner's App. 14 - 329

J.

Pretrial Ruling Admitting Photographs and Testimony of
Victims' Relatives Identifying Victims' Property

At a pretrial hearing, defense counsel made several motions in limine
pertaining to evidence involving the three Los Angeles County murder victims,
Jillette Mills, Susan Knoll, and Bonnie Guthrie, as well as the San Diego County
murder victim, Janette Cullins, and the Alameda County deceased woman Tok

Kim. Specifically, counsel offered a broad range of stipulations in an effort to
prevent the prosecution from introducing exhibits depicting post-mortem
photographs of the five individuals (including close-up images of various wounds)
and testimony of family members as to the victims' ownership of various items of
personal property discovered in Mills's Datsun 280 ZX. 24
Immediately prior to the parties' opening statements, outside the jury's
presence, the defense renewed its offers to stipulate that on a certain date, Knoll
and Mills died by strangulation. Counsel argued that the stipulation "must be
accepted," emphasizing in particular the potentially prejudicial impact of one
close-up photograph depicting a dark wound on the neck of Knoll's body, an
image that counsel described as "terribly disturbing and in my opinion
prejudicial." Counsel further offered stipulations as to the testimony to be given
by family members. The prosecution rejected the proffered stipulations.
At trial, defense counsel renewed the offer to stipulate that Knoll and Mills
"died of strangulation" and, in view of the prosecution's rejection of the proffered
stipulations, counsel objected under Evidence Code section 352 to the introduction
of two coroner's photographs, one depicting the wound to Knoll's neck, the other
depicting bruises to Guthrie's vaginal area. The trial court overruled defendant's
Defense counsel also requested, and the prosecutor agreed to, withdrawal of
a photograph that depi~ted Kim when she was alive. The prosecutor also
withdrew photographs depicting Guthrie and Cullins when they were alive.

24

55

Petitioner's App. 14 - 330

objections to the introduction of the photographs, observing: "I don't feel that
they're disturbing to the point of being excludable."2 5
The trial court thereafter admitted the challenged photographic evidence
and the testimony of various relatives identifying the items of personal property
found in the Datsun 280 ZX.
On appeal, defendant renews his challenge to the above-described evidence.
He contends that because, in view of "the lack of substantive defense presented at
[the] guilt phase, trial counsel were willing to stipulate to many facts they
considered not in dispute," including the strangulation of victims Knoll, Mills, and
Guthrie and the victims' ownership of the items found in the Datsun 280 ZX, the
prosecution was required to accept the stipulations offered by the defense.
Defendant further contends that the photographic evidence was unduly gruesome
as well as cum~lative, and that evidence pertaining to the personal prope~y fou~d
in the ca:r- that is, the "highly emotional" testimony given by Sandra Pender
25
The prosecution also introduced into evidence the following photographic
evidence: (1) two photographs depicting Kim's clothed body lying face-down on
the floor, each showing post-mortem discoloration on her arms; (2) three
photographs showing the clothed bodies of Knoll and Mills stacked in their
apartment bedroom closet; (3) two photographs showing Guthrie's clothed body
lying face-down on the floor of her apartment and one photograph showing her
clothed body after investigators placed her on her back, revealing discoloration to
her arms and face and a stain on the midsection area of her pants; (4) two
coroner's closeup photographs, each showing a portion of Guthrie's body- one
showing her discolored facial and neck area and wounds to her nose and lower lip,
and one showing her bruised neck; (5) three photographs depicting Cullins's
partially clothed and discolored body lying in her apartment bedroom closet, one
of which showed a closeup of her stained left hand; (6) two photographs,
_
including one depicting Cullins's partially clothed and discolored body lying in
. the apartment bedroo_m closet, and one showing an apparent bloodstain oii the · bedding, and (7) one coroner's closeup photograph depicting Cullins's neck ar~a,
showing an abrasion, discoloration, and an apparentbloodstain.on her jaw.

56

cc _ _ _ , , _ _ r n r • - • • • • • • • • • • - • - - -

Petitioner's App. 14 - 331

(Susan Knoll's sister), Jennifer Bollman (Jillette Mills's sister), and George
Cullins (Janette Cullins's father)- "was clearly the subject of stipulation or other
available procedures, such as identification by police personnel." Defendant
assigns further error to the trial court's failure to engage in a weighing process as
to the admissibility of the photographs in response to defendant's objection on
Evidence Code section 352 grounds. Finally, defendant asserts that he was denied
various of his state and federal constitutional rights because of"the trial court's
erroneous rulings admitting inflammatory and prejudicial autopsy and family
evidence [regarding the items found in the car]."
As we shall explain, none of defendant's contentions have merit.
We recently set forth the applicable analysis in People v. Heard (2003) 31
Cal.4th 946: "In reviewing the ruling of the trial court, we reiterate the wellestablished principle that 'the admissibility of this evidence has two components:
(1) whether the challenged evidence satisfied the "relevancy" requirement set forth
in Evidence Code section 210, and (2) if the evidence was relevant, whether the
trial court abused its discretion under Evidence Code section 352 in finding that
the probative value of the [evidence] was not substantially outweighed by the
probability that its admission would create a substantial danger of undue
prejudice.' (People v. Scheid (1997) 16 Cal.4th 1, 13.)" (People v. Heard, supra,
31 Cal.3d at p. 972.) We address these issues in turn.
1.

Relevance of the Photographs and Testimony of
Relatives

" 'The rules pertaining to the admissibility of photographic evidence are
well-settled. Only relevant evidence is admissible (Evid. Code, § 350; Pe~ple v.

Crittenden[, supra,] 9 Cal.4th 83, 132; People v. Garceau (1993) 6 Cal.4th 140,
176-177; People v. Babbitt (1988) 45 Cal.3d 660,681), and all relevant evidence
is admissible unless excluded under the federal or California Constitution or by
57

Petitioner's App. 14 - 332

statute. (Evid. Code,§ 351; see also Cal. Const., art. I,§ 28, subd. (d).) Relevant
evidence is defined in Evidence Code section 210 as evidence "having any
tendency in reason to prove or disprove any disputed fact that is of consequence to
the determination of the action." The test of relevance is whether the evidence ·
· tends " 'logically, naturally, and by reasonable inference' to .establish material
facts such as identity, intent, or motive. [Citations.]" (People v. Garceau, supra,
6 Cal.4th at p. 177.) The trial court has broad discretion in determining the
relevance of evidence (ibid.; People v. Crittenden, supra, 9 Cal.4th at p. J32;

People v. Babbitt, supra, 45 Cal.3d at p. 681) but lacks discretion to admit
irrelevant evidence. (People v. Crittenden, supra, 9 Cal.4th at p. 132; People v.

Burgener (1986) 41 Cal.3d 505, 527.)' (People v. Scheid, supra, 16 Cal.4th 1,
13-14.)" •(People v. Heard, supra, 31 Cal.4th 946, 972-973.)
In his opening brief, defendant does not challenge the relevance of the , ,
photographs depicting the deceased women, although in his reply brief he adopts a
more critical stance. Defendant's ambivalent position is inconsequential. The
images plainly were relevant to the proceedings at the guilt phase of trial (People

v. Heard, supra, 31 Cal.4th 946, 973-975 [and cases cited therein]), as well as at
the penalty phase, to demonstrate circumstances in aggravation. (People v.

Thompson (1990) 50 Cal.3d 134, 182.) Nor does defendant clearly assert a
relevancy challenge to the testimony regarding the property found within the
Datsun 280 ZX, although his characterization of that testimony as being of
"minimal probative value," which in his reply brief is amplified to "irrelevant,
cumulative, and prejudicial," could be construed as a challenge to its relevancy.
To the extent defendant's characterization constitutes a relevance-based challenge,
we reject it- the testimony linking the property to the women clearly fell within
Evidence Code section 210's definition, and was not cumulative. (See People v.

Heard, supra, 31 Cal.4th 946, 973-975 [and cases cited therein].)
58

Petitioner's App. 14 - 333

2.

The Photographs and Testimony Were Not Unduly
Prejudicial

Defendant contends the trial court erred in denying his motion to exclude
this evidence pursuant to Evidence Code section 352. Defendant maintains the
photographs were gruesome and cumulative. He further contends the testimony
given by relatives of Knoll, Mills, and Cullins was "highly emotional [and]
outweighed the minimal probative value of such testimony." The People disagree
with defendant's characterizations and contend the trial court did not abuse its
discretion in finding that the probative value of the photographs and. the testimony
outweighed any potential prejudice. As we shall explain, we find no abuse of
discretion.
"The admission of photographs of a victim lies within the broad discretion
of the trial court when a claim is made that they are unduly gruesome or
inflammatory. [Citations.] The court's exercise of that discretion will not be
disturbed on appeal unless the probative value of the photographs clearly is
outweighed by their prejudicial effect. [Citations.]" (People v. Crittenden (1994)
9 Cal.4th 83, 133-134.)
The photographs at issue "served to illustrate and corroborate the testimony
given by various prosecution witnesses regarding the circumstances of the
crime[s]." (People v. Heard, supra, 31 Cal.4th 946, 976.) "'[I]nsofar as
defendant is contending that the trial court was required to exclude the
photograph[ s] under Evidence Code section 3 52 because th[ e] physical evidence
was cumulative of the testimonial evidence presented, the trial court correctly
rejected defendant's argument. (See People v. Wilson (1992) 3 Cal.4th 926, 938
[" '[W]e have often rejected the argument that photographs of a murder victim
should be excluded as cumulative if the facts for which the photographs are
offered have been established by testimony.'"]; accord, People v. Kaurish (1990)

59

Petitioner's App. 14 - 334

52 Cal.3d 648, 684; People v. Thompson (1988) 45 Cal.3d 86, 115.)' (People v.

Scheid, supra, 16 Cal.4th 1, 19.)" (People v. Heard, supra, 31 Cal.4th at p. 976.)
As to whether the photographs or the testimony in question had an unduly
prejudicial effect, we observe that " '[w]e have described the "prejudice" referred
to in Evidence Code section 352 as characterizing evidence that uniquely tends to
evoke an emotional bias against a party as an individual, while having only slight
probative value with regard to the issues. (People v. Garceau, supra, 6 Cal.4th
140, 178.) As we previously have observed, victim photographs and other graphic
items of evidence in murder cases always are disturbing. (People v. Hendricks
(1987) 43 Cal.3d 584, 594.)' (People v. Crittenden, supra, 9 Cal.4th at p. )34;
accord, People v. Fierro (1991) I Cal.4th 173, 223.)" (People v. Heard, supra, 31
Cal. 4th at p. 976.) Here, the challenged photographs depict the wounds suffered
by Knoll and Guthrie; "that they are graphic and unpleasant to. consider does not
render the introduction of those images unduly prejudicial. (See People v.

Navarette (2003) 30 Cal.4th 458, 496 [rejecting the defendant's contention that the
'sexually suggestive nature' of photographs taken of the victim rendered them
unduly prejudicial, and holding that '[w]hen the victim ofa murder has been
stabbed directly between the breasts and left with her pants and underwear around
her ankles, the defendant cannot complain that the jury is exposed to images of her
nudity.']; see also People v. Riel (2000) 22 Cal.4th 1153, 1194 ['The fact that the
exhibits involved blood was due to the crime, not the court's rulings.'].)" (People

v. Heard, supra, 31 Cal.4th at p. 976.)
Our independent review of the photographs introduced at the trial
convinces us that, although they are unpleasant, they are not unduly gory or i
inflammatory. (People v. Heard, supra'. 3.1 Cal.4th at pp. 976-977; People v..

McDermott (2002) 28 Cal.4th 946, 998; People v. Michaels (2002) 28 Cal.4th 486,
531-532; People v. Anderson, supra, 25 Cal.4th 543, 590-592; People v. Pride,
60

Petitioner's App. 14 - 335

supra, 3 Cal.4th 195,243, People v. Fierro, supra, l Cal.4th 173,223; People v.
Kelly (1990) 51 Cal.3d 931, 963; People v. Turner (1990) 50 Cal.3d 668, 707;
People v. Coleman (1988) 46 Cal.3d 749, 776.) "The photographs ... do not
appear to be of the sort that might inflame a jury. (See, e.g., People v. Turner
(1984) 37 Cal.3d 302,320,321, and fn. 9, overruled on another ground in People

v. Anderson (1987) 43 Cal.3d 1104, 1149-1150 [upholding trial court's finding
that four crime scene photographs, which included a photograph of one victim's
head in a large pool of blood and of another victim lying face up with bleeding
wounds, were 'not gruesome']; see also People v. Allen, supra, 42 Cal.3d 1222,
1258 [victims' bodies were not depicted 'in a badly decomposed condition ... or
after they had been grossly disfigured during autopsy'].)" (People v. Heard,

supra, 31 Cal.4th at p. 977.)
Further, "as we observed in People v. Scheid, supra, 16 Cal.4th 1, 20, 'the
trial court clearly and properly could find that the photograph[ s were] not so
gruesome as to have impermissibly swayed the jury "in light of the testimony

detailing each and every fact relating to the crime scene and victims."' Certain
"witnesses for the prosecution testified in detail as to what they observed when
they first encountered [the bodies]. (See People v. Allen, supra, 42 Cal.3d 1222,
1258 [ observing that the inflammatory nature of nine photographs 'was relatively
slight in comparison with the heinous nature of the crime presented to the jury
through the testimony of witnesses'].)" (People v. Heard, supra, 31 Cal.4th at p.
977.) The jurors having heard that testimony, the photographic images taken of
the victims once their bodies had been taken to the coroner's facility were unlikely
to have elicited an improper response from the jurors.
Nor were the photographs unduly prejudicial on the ground they were
cumulative by reason of their corroboration of facts independently established by
testimony. (See, e.g., People v. Heard, supra, 31 Cal.4th at pp. 977-978, and
61

Petitioner's App. 14 - 336

cases cited therein.) Similarly, although the testimony of the victims' friends and
family members identifying objects found in the Datsun 280 ZX may hav~ been
punctuated with emotion that is not unexpected in a capital trial (for example,·
Mills's sister, Jennifer Bollman, cried during her testimony), such testim6nywas
not unduly prejudicial in view of the expression of that emotion or because
ownership of the identified items might have been established by stipulation or
other means. The circumstance that the defense might have preferred that the
prosecution establish.a particular fact by stipulation, rather than by live testimony,
does not alter the probative value of such testimony or render it unduly prejudicial.
The prosecution was not required to accept such a stipuiation or other "sanitized"
method of presenting its case. (People v. Garceau, supra, 6 Cal.4th 140, 182; see
also People v. Box (2000) 23 Cal.4th 1153, 1199; People v. Crittenden (1994) 9
Cal.4th 83, 133.)
Moreover, as was the situation in People v. Heard, supra, 31 Cal.4th at p.
978, "even if the photographs engendered a disturbing response among the jurors,
we believe the risk defendant would be prejudiced by that response was minirnal,
because the jury knew defendant had· committed the acts described by the
witnesses who had appeared before them." We believe that risk, as well as the
risk that jurors somehow might have been improperly moved by the testimony of
friends and family members toward a guilty verdict, was further minimized here
by the circumstance that the defense at the guilt phase rested with out calling a
single witness.
Accordingly, we conclude the trial court reasonably determined that the
probative value of the photographic and testimonial evidence outweighed its
potentially prejudicial effect. Althotigh, in the interest of creating a clearer record,
the court could have been more explicit in setting forth its reasoning in denying .·
defendant's motions and overruling defense objections relating to the chalrnnged ·
62

Petitioner's App. 14 - 337

evidence (see People v. Green (1980) 27 Cal.3d 1, 25 ["the record must
affirmatively show that the trial judge did affirmatively weigh prejudice against
probative value"], we are persuaded that the court engaged in a deliberative
weighing process and acted within its discretion under Evidence Code section 352
.

.

· in admitting the photographic and testimonial evidence. (People v. Heard, supra,
31 .Cal.4th at p. 978; People v. Crittenden, supra, 9 Cal.4th at p. 134; People v ..

Wilson (1992) 3 Cal.4th 926, 938; People v. Mickey (1991) 54 Cal.3d 612, 656;
People v. Cox (1991) 53 Cal.3d 618, 666; People v. Benson (1990) 52 Cal.3d 754,
786.)

3.

Even if the Trial Court Had Erred, No Prejudice Would
Have Occurred

"Even ifwe were to agree with defendant that the trial court erred in
admitting the photographic [or testimonial] evidence in question, we nonetheless
would conclude that any error in admitting such evidence was hannless under the

Watson standard." (People v. Heard, supra, 31 Cal.4th at p. 978; People v. Allen,
supra, 42 Cal.3d 1222, 1258, applying the standard of People v. Watson (1956) 46
Cal.2d 818, 836.)
"Under the Watson standard, the erroneous admission of a photograph
warrants reversal of a conviction only if the appellate court concludes that it is
reasonably probable the jury would have reached a different result had the
photograph been excluded. (People v. Watson, supra, 46 Cal.2d at p. 836.)"

(People v. Scheid, supra, 16 Cal.4th 1, 21.) The photographic evidence at issue
did not disclose to the jury any information that was not presented through the
testimony of witnesses; the testimonial evidence merely established that items of
property found in the Datsun 280 ZX belonged to certain victims, thereby helping
to establish a link between defendant and those victims. Although the
photographic and testimonial evidence may have been unpleasant for the jury to
63

Petitioner's App. 14 - 338

confront, it was not unusually disturbing or unduly gruesome, and was no more
inflammatory than the testimony provided by other witnesses for the prosecution
(such as the medical examiners, who offered their expert opinions as to the
victims' suffering during the fatal strangulations). "Under these circumstances,
we.conclude it is not reasonably probable that the adriiiss.ion of the photograph[ic
and testimonial evidence ].affected the jury's verdict." (People v, Heard, supra, 31
Cal.4th at p. 978, citing People v. Gurule (2002) 28 Cal.4th 557, 625; People v.

Allen, supra, 42 Cal.3d at p. 1258.)
K.

Pretrial Ruling Admitting Preliminary Hearing Testimony
Given by Witness Ray Blevins

Tok Kim's former boyfriend, Ray Blevins, testified at defendant's
preliminary hearing that he saw Kim and defendant together at midday on or
"around" April 1, 1984. Blevins also identified.certain objects as being similar.to
those he had seen in Kim's apartment. Some of these objects were seized iri. the
search of the Datsun 280 ZX that defendant was driving at the time of his arrest
Defendant's attorney at the preliminary hearing briefly cross-examined Blevins.
Several months later, but prior to the commencement of defendant's trial, Blevins
died.
In pretrial proceedings, defendant moved to .exclude from his trial the
testimony given by Blevins at the preliminary hearing "on the ground that the lack
of any meaningful cross-examination denied [defendant] his Sixth Amendment
right of confrontation, and prevent[ ed] him from presenting any effective defense
to the events in Alameda County." The motion was denied. On the eve of trial,
defendant renewed the motion to exclude this testimony, and that motion again
was denied: At trial, the prosecution read into the record Blevins's testimony,
given at the preliminary hearing.
.,

64

Petitioner's App. 14 - 339

On appeal, defendant contends the admission of Blevins's testimony
violated Evidence Code section 1291, as well as defendant's right of confrontation
under the state and federal Constitutions. Specifically, defendant asserts the court
should have excluded the testimony because at the preliminary hearing defense
counsel made "no effort ... to focus on Blevins as a third-party suspect in Kim's
murder," despite counsel's knowledge that Blevins and Kim had argued bitterly
just prior to her death. According to defendant, Blevins's prior testimony should
have been found inadmissible pursuant to Evidence Code section 1291 "because
there had been no meaningful cross-examination by [defense counsel] at [the]
preliminary hearing, and therefore no adequate showing the preliminary hearing
testimony was reliable." Defendant, however, misconstrues the applicable law.
A criminal defendant has a constitutionally guaranteed right to confront and
cross-examine the witnesses against him or her. (U.S. Const., Amends VJ, XN;

Pointer v. Texas (1965) 380 U.S. 400, 403-405.) The right of confrontation is not
absolute, however, and may "in appropriate cases" bow to other legitimate
interests in the criminal trial process. (Chambers v. Mississippi (1973) 410 U.S.
284, 295; accord Barber v. Page (1968) 390 U.S. 719, 722.) An exception to the
confrontation requirement exists where the witness is unavailable, has given
testimony at a previous judicial proceeding against the same defendant, and was .
subject to cross-examination by that defendant. (Crawford v. Washington (2004)
541 U.S. 36, 59; Barber v. Page, supra, 390 U.S. at p. 722; accord People v.

Wilson (2005) 36 Cal.4th 309, 339-348; People v. Stritzinger (1983) 34 Cal.3d
505, 515; see also California v. Green (1970) 399 U.S. 149, 167-168 [where a
defendant has had an opportunity to cross-examine a witness at the time of his or
her prior testimony, that testimony is deemed sufficiently reliable to satisfy the
confrontation requirement].) Further, the federal Constitution guarantees an
opportunity for effective cross-examination, not a cross-examination that is as
65

Petitioner's App. 14 - 340

effective as a defendant might prefer. (United States v. Owens (1988) 484 U.S.
554, 559.)
California permits the use of the prior testimony of a witness against a
criminal defendant only when the unavailability of the witness and the reliability
of the testimony are established. (§ 686; Evid. Code,§ 1291, subd. (a)(2).) A
witness is deemed unavailable ifhe or she is deceased. (Evid. Code,§ 240, subd.
(a)(3).) The testimony is deemed reliable if"[t]he party against whom the fortner
testimony is offered was a party to the action or proceeding in which the testimony
was given and had the right and opportunity to cross-examine the declarant with
an interest and motive similar to that which he has at the hearing." (Evid. Code,
§ 1291, subd. (a)(2).)
"In People v. Zapien [1993] 4 Cal.4th 929, 975, this court recognized that

the ' [a ]dmission .of the former testimony of art unavailable witness is permitted·
under Evidence Code section 1291 and does not offend the confrontation clauses.
of the federal or state Constitutions - not because the opportunity to crossexamine the witness at the preliminary hearing is considered an exact substitute
for the right of confrontation at trial [citation], but because the interests of justice
are deemed served by a balancing of the defendant's right to effective crossexamination against the public's interest in effective prosecution.' The court
further determined that a defendant's motive in cross-examining a witness at a
preliminary hearing may differ somewhat from the motive at trial, but nevertheless
the earlier testimony may be admissible at the trial under section 1291 because the
'motives need not be identical, only "similar."' (People v. Zapien, supra, 4
Cal.4th atp. 975, citing People v. Alcala {1992) 4 Cal.4th 742, 784 [15
Cal.Rptr.2d 432, 842 P.2d 1192].) Following similar reasoning and principles;iri
People v. Wharton (1991) 53 Cal.3d 522 [280 Cal.Rptr. 631, 809 P.2d 290] tlie ·

court held the defendant's interest and motive in cross-examining the alleged rape
66

Petitioner's App. 14 - 341

victim at the preliminary hearing in a pri9r umelated criminal prosecution was
sufficiently similar to the defendant's interest and motive at the penalty phase of a
subsequent capital trial to warrant the admission of the preliminary hearing
testimony under Evidence Code section 1291. (53 Cal.3d at p. 589.)" (People v.

Samayoa (1997) 15 Cal.4th 795, 850.)
In the present case, defendant's motive and interest in cross-examining

Blevins at the preliminary hearing were closely similar, if not identical to,
defendant's objectives at the guilt phase of the trial-namely, to attempt to
discredit the prosecution's theory as to the date on which defendant initially
encountered Tok Kim (in turn, suggesting that someone other than defendant
encountered Kim at the Lafayette bar on the evening of April 1, 1984). The record
indicates that at the preliminary hearing, defense counsel sought to establish that
Blevins saw defendant and Kim together around midday April 1, 1984, several
hours prior to the time the prosecution's other witnesses placed the pair together
initially.
In view of the foregoing, we conclude the trial court properly, if implicitly,

concluded that defendant's "motive and interest" in cross-examining Blevins at the
preliminary hearing and at the trial were sufficiently similar to satisfy the
requirements of Evidence Code section 1291.
Defendant further contends the admission of Blevins's preliminary hearing
testimony violated defendant's federal constitutional right of confrontation,
because defense counsel's brief cross-examination constituted incompetent
representation. We disagree. As we previously have explained: "as long as a
defendant was provided the opportunity for cross-examination, the admission of
preliminary hearing testimony under Evidence Code section 1291 does not offend
the confrontation clause of the federal Constitution simply because the defendant
did not conduct a particular form of cross-examination that in hindsight might
67

Petitioner's App. 14 - 342

have been more effective." (People v. Samayoa, supra, 15 Cal.4th 795,851; see
also People v. Zapien (1993) 4 Cal.4th 929, 975; People v. Alcala (1992) 4
Cal.4th 742, 784 [the requirement that the party have a similar interest and motive
is satisfied notwithstanding the decision ofdefense counsel to alter the nature or
scope of cross-examination].)
It is undisputed that at the time of trial, Blevins was dead and thus .
unavailable as a witness. Blevins's testimony at the preliminary hearing, whei;e
defendant had an interest and motive to cross examine him similar to what
0

defendant had at the trial, therefore was admissible. The trial court did not err in
permitting the prosecution to introduce that testimony against defendant at trial.

II.

JURY SELECTION ISSUES
A. Defendant's Challenge to the Jury Selection Procedures

Defendant contends the jury selection procedures employed

.

at his trial were
.

improper, mandating a reversal of the judgment. Specifically, he contends: ··•
(1) the trial court failed to administer the oath of truthfulness on penalty of perjury
to 28 prospective jurors, (2) the prosecutor engaged in misconduct by interposing
improper objections to defense counsel's voir dire examination, resulting in the
improper restriction ofvoir dire, and (3) the trial court erred in denying a number
of challenges for cause and also abused its disctetion by denying defendant
peremptory challenges in addition to the 20 specified in Code of Civil Procedure
section 231, subdivision (a).
Although defendant's initial contention is correct insofar as he asserts the
trial court erred in failing to administer the oath to prospectivejurors, for the
reasons set forth below we conclude that defendant has failed to establish
prejudice and that none of defendant's other contentions has merit.

68

Petitioner's App. 14 - 343

1. The Oath of Truthfulness on Penalty of Perjury
Administered to Prospective Jurors
On March 20-21, 1989, the trial court commenced jury selection by
screening one panel of prospective jurors. On March 27, 1989, the court screened
a second panel. On May 1-2, 1989, the court screened a third panel. With regard
to the latter t\vo panels of prospective jurors, the trial court apparently failed to
administer the oath. to prospective jurors mandated by former Code of Civil
Procedure section 232, subdivision (a).26 Defendant moved for a mistrial or,
alternatively, to excuse the 28 prospective jurors who had not been given the oath
at the commencement of the voir dire examination. The court denied these
motions.
After conducting further voir dire examination, the prosecution and the
defense both informed the court that the jury as constituted was acceptable. At
that point, the court administered the oath to jurors mandated by Code of Civil
Procedure section 232, subdivision (b). 27 According to defendant, 14 of the
Former Code of Civil Procedure section 232, subdivision (a) provided:
"Prior to the examination of prospective trial jurors in the panel assigned for voir
dire, the following acknowledgement shall be administered to the panel, which
shall be acknowledged by the prospective jurors with the statement 'I do':
"'You do, and each of you, understand and agree that you will accurately
and truthfully answer, under penalty of perjury, all questions propounded to you
concerning your qualifications and competency to serve as a trial juror in the
matter pending before this court; and that failure to do so may subject you to
criminal prosecution.' "

26

27
Farmer Code of Civil Procedure section 232, subdivision (b) provided: "As
soon as the selection of the trial jury is completed, the following
acknowledgement and agreement shall be obtained from the trial jurors, which
shall be acknowledged by the statement 'I do':
" 'You do, and each of you understand and agree that you will well and
truly try the cause now pending before this court, and a true verdict render
according only to the evidence presented to you and to the instructions of the
court.' "
rJootnote continued on next page)

69
Petitioner's App. 14 - 344

prospective jurors who were not administered the oath prescribed by Code of Civil
Procedure section 232, subdivision (a) for prospective jurors at the outset of the
voir dire examination became actual jurors or alternates.
Defendant contends the trial court's error at the commencement of the voir
dire process in failing to administer the oath of truthfulness to the prospective
jurors who comprised the _second and third panels was a "structural defect" and
therefore. was reversible per se, citing Arizona v. Fulminante (1991) 499 U.S. 279,
307-309, and People v. Cahill (1993) 5 Cal.4th 478, 502; see also People v. Pelton
(1934) 116 Cal.App.Supp. 789, 791 [holding that a conviction by an unswomjury
renders the verdict "a nullity justifying a reversal"].)
We disagree with defendant's position. First, neither Arizona v.

Fulminante, supra, 499 U.S. 279 (holding that the harmless-error rule applies to
erroneously admitted coerced confessions), nor People v. Cahill, supra, 5 CaL4th
478 (holding that the erroneous admission of a coerced confession does not require
automatic reversal under California law), addressed the juror-oath question
presented here and therefore are unhelpful to defendant's case. The fundamental
or "structural" defects discussed in those decisions consisted of significant
irregularities, unlike the present situation, where the trial court partially but not
fully complied with the oath-giving provisions set forth in Code of Civil Procedure
section 232. (See Arizona v. Fulminante, supra, 499 U.S. at pp. 309-310; People

v. Cahill, supra, 4 Cal.4th 501-502.) Similarly, the decision in People v. Pelton,
supra, 116 Cal.App.Supp. 789, unlike the present case, involved the trial court's
(footnote continued from previous page)

The Legislature slightly amended subsections (a), and (b) of the statu~e shortly after defendant's trial, but these modifications have no bearing upon the
issues that confront us in the present case. (Amend. by Stats. 1989, c. 1416, §. 10.)

'.· 70

Petitioner's App. 14 - 345

failure to administer the oath to jurors mandated by Code of Civil Procedure
· section 232, subdivision (b). These decisions do not support ddendant's assertion
that the trial court's failure to administer the oath of truthfulness to prospective
jurors, as provided in Code of Civil Procedure section 232, subdivision (a),
constitutes a structural defect. Indeed, although empanelling one or niore jurors
who are actually biased against the defense would constitute structural error (In re

Carpenter (1995) 9 Cal.4th 634, 654, citing Arizona v. Fulminante (1991) 499
U.S. 279, 309), here the trial court's error in failing to swear some of the
prospective jurors has not been shown to have resulted in the inclusion of any
biased jurors on the panel, and defendant's claim of structural error fails for that
reason.
Second, although there is a dearth of California case law examining the
factual situation presented here, our decision in an analogous case, People v. Lewis
(2001) 25 Cal.4th 610, 629-631, is instructive. In Lewis, we addressed the
question whether the trial court erred in failing to administer the oath to
prospective jurors prior to their answering written questionnaires regarding their
views on the death penalty and other matters. (Id., at p. 629.) Observing that the
prospective jurors had signed their questionnaires under penalty of perjury and
were sworn under Code of Civil Procedure section 232, subdivision (a), prior to
being personally questioned in open court, we held that although the defendant
was "correct that prospective jurors should have been sworn under Code of Civil
Procedure section 232[, subdivision (a),] before filling out the questionnaires, he
fails to establish that he was prejudiced by the trial court's failure to administer the
oath at that juncture. [Citations.]" (Id., at pp. 630-631; see also People v. Cruz
(2001) 93 Cal.App.4th 69, 72-74 [no prejudicial error where the oath taken
pursuant to Code of Civil Procedure section 232, subdivision (b}, did not ask the
jurors to agree to follow the instructions of the court].)
71

Petitioner's App. 14 - 346

For similar reasons as those found in Lewis, we reject defendant's assertion
of prejudicial error here. Although the trial court omitted giving the first oatl:i, the
jury ultimately was instructed as to its duty to follow the trial court's instruction~
and was presumed to have performed its official duty, and defendant has failed to
establish that he was prejudiced by the trial court's failure to administer the
.·

required oath at the outset of questioning some of the prospective jurors. We
further observe that, as in People v. Lewis, supra, 25 Cal.4th 610, 629-631, the
prospective jurors each filled out a juror questionnaire that was signed under
penalty of perjury, a circumstance that undoubtedly impressed upon the
prospective jurors the gravity of the matter before them and the importance of
being truthful and thereby ameliorated at least in part the trial court's failure to
timely administer the oath set forth in Code of Civil Procedure section 232,
subdivision (a). In view of the virtual certainty that these prospective jurors,
understood that they were required to answer truthfully the questionnaires, we .
reasonably may infer that the same prospective jurors similarly understood that.
they were required to respond truthfully to the questions posed during the voir dire
examination-· much of which was essentially a follow-up to the prospective
jurors' answers given in response to the questions set forth in the questionnaires.
Accordingly, on these facts we believe the jUry understood that it was
required to answer truthfully the questions posed during the voir dire examination.
We therefore conclude the court's error in not administering the oath to some of
the prospective jurors was not prejudicial to defendant.

2.

Prosecutor's Objections to Defense Counsel's Questions
During Voir Dire

In the course of defense counsel's examination of eight prospe?tive jurors,
the prosecutor interposed objections on the ground that counsel's questions asked
the prospective jurors to "prejudge" the case. None of these eight individµ<fls
'

72

Petitioner's App. 14 - 347

.,

became a member of defendant's jury (although one individual was selected as an
alternate juror). Prior to the parties' presentation of their respective cases,
defendant moved for a mistrial or, in the alternative, for excusal of the prospective
jurors, asserting that the prosecutor's objections impeded and disrupted counsel's
voir dire examination. The trial court denied the motion.
On appeal, defendant reiterates his contention that the prosecutor
impermissibly interfered with defense counsel's voir dire examination of the
prospective jurors and on that basis contends the trial court erred in denying his
motion. He is mistaken; our review of the voir dire examination of the prospective
jurors in question reveals that the prosecution's objections to defense counsel's
questions were proper. The two passages of the hearing transcript cited by
defendant as examples of the prosecutor's objections reveal no impropriety on the
part of the prosecutor:
"[Defense counsel]: 'Then, is it fair to say that if indeed the opposite were
true, that is, it was not only not exemplary but there were other -

there was

evidence of other activity- criminal activity, that in that situation it would be
difficult to see anything other than a death verdict?'
"[Prosecutor]: 'Excuse me. I object. It asks the juror to prejudge the
evidence.'
"The court: 'Objection sustained.'

[ill ... [ill
"[Defense counsel]: '

It would be some amount of extraordinary

background evidence of an exemplary nature before you could even consider it?'
"[Prosecutor]: 'Just a moment please. Now, I have an objection and it asks
the juror to prejudge.'
"[Defense counsel]: 'I would ask the [prospective] juror to go outside.' "

73

Petitioner's App. 14 - 348

To the contrary, insofaras defense counsel's questions sought to ascertain
the prospective jurors' views as to hypothetical cases not before the court, they
were improper and the court acted within its discretion in prohibiting such
questioning. (People v. Noguera (1992) 4 Cal.4th 599, 646.) Insofar as counsel's
questions sought to commit a prospective juror to vote in a certain way given a
particular set of facts, the questions similarly were improper. (See People v.

Williams (1981) 29 Cal.3d 392,408 ["We reaffirm that it is not 'a function of the
examination of prospective jurors to educate the jury panel to the particular facts
of the case, to compel the jurors to commit themselves to vote a particular way, to
prejudice the jury for or against a particular party, to argue the case, to indoctrinate
the jury, or to instruct the jury in matters of!aw.' "].)
Moreover, even were we to conclude that the prosecution's objections were
improper, any error clearly would be harmless in view of the circumstance that .
none of the eight prospective jurors became a member of defendant's jury.

3.

Peremptory Challenges

During jury selection, defendant challenged for cause prospective jurors
Hickert, Kotz, Hughes, MacDonald, Craddock, Richards, Swope, and 1-tuinphrey.
The trial court denied each of these challenges. Although prospective juror
Craddock was selected as an alternate juror, none of these individuals was
impaneled as a member of defendant's jury. After exercising 18 out of the 20
peremptory challenges available to it, the defense informed the court that the jury
as constituted was acceptable. The prosecution similarly indicated its acceptance
of the jury.
Defendant contends the trial court committed reversible error under the
federal and state Constitutions in denying the challenges to excuse the above"
named prospective jurors based upon their views regarding the death penalty.

74

Petitioner's App. 14 - 349

(See Wainwright v. Witt (1985) 469 U.S. 412, 423-424; U.S. Const., 5th, 6th, 8th
& 14th Amends., Cal. Const., art. I, §§ 1, 7, subd. (a) (15, 16). As noted, however,
when the defense accepted the jury, it had not exhausted all of its peremptory
challenges.
"In order successfully to claim error in the denial of a challenge for cause

of a prospective juror, a defendant on appeal must demonstrate that the ruling
affected his or her right to a fair and impartial jury." (People v. Horton (1995) 11
Cal.4th 1068, 1093; People v. Crittenden, supra, 9 Cal.4th 83, 121; People v.

Garceau, supra, 6 Cal.4th 140, 174.) Because defendant exercised peremptory
. challenges to remove the prospective jurors whom he unsuccessfully had
challenged for cause, these individuals could nothave compromised the
impartiality of the jury. As a result, "under Witt, [defendant] cannot claim
constitutional error based upon the trial court's denial of those challenges for
cause." (People v. Horton, supra, 11 Cal 4th at p. 1093; see also People v.

Johnson, supra, 3 Cal.4th 1183, 1211.) Indeed, "[i]t is well-settled that even if the
trial court erred in denying a defendant's motion to remove a juror for cause, that
error will be considered harmless if' [n ]one of the prospective jurors whom
defendant found objectionable actually sat on his jury.' " (People v. Hawkins
(1995) 10 Cal.4th 920, 939.) "Moreover, defendant did not communicate to the
trial court any dissatisfaction with the jury selected." (Ibid.)
In sum, defendant's right to an impartial jury was not violated, and any
error by the trial court in denying defendant's motions to exclude the abovementioned members of the jury venire for cause would not have been prejudicial.

75

Petitioner's App. 14 - 350

(See People v. Horton, supra, 11 Cal.4th 1068, 1093; People v. Hawki.ns, supra,
10 Cal.4th 920, 939.)28

III. JURY INSTRUCTION ISSUES
A.

Instructions Regarding the Las Vegas Evidence and Eviden.ce
of "Flight" .

At the outset of trial, and outside the jury's presence, the defense moved to
exclude certain items that were recovered from the Datsun 280 ZX subsequent to
defendant's arrest. These items included: a glass cup bearing the words "Silver
City Casino,Las Vegas, Nevada," a booklet of casino coupons (characterized by·
the prosecutor as "drink tickets") with one ticket bearing the word "void" and
"4/17 /84" (the date of defendant's arrest), and a key with an attached green token
identifying the Westward Ho Casino (hereinafter sometimes collectively referred
to as "the Las Vegas evidence"). Defendant contended that the Las Vegas
evidence was irrelevant and, even if relevant, unduly prejudicial as being
improperly suggestive of a lack of remorse by defendant. In response, the
prosecutor asserted that the listed items were relevant because they were recovered
from the vehicle defendant was driving when arrested and established the route
~efendant had taken following his commission of the charged offenses. The
defense offered to stipulate as to the route taken by defendant in the days leading
up to his arrest in Arizona, but the prosecution declined to accept the stipulation.
The trial court overruled defendant's objections to the introduction of the Las
28
On June 19, 1989, the day setfortrial to commence, the defense requested
that the trial court grant three peremptory challenges in addition to the twenty
prescribed by statute. (Cal. Code Civ. Proc., § 231, subd. (a).) As indicated
above, however, defendant had not exhausted all 20 of the challenges available to
him. The trial court denied the request. On appeal, def~ndant assigns error, but
we previously have rejected virtually identical claims (see, e.g., People v. Pride
(1992) 3 Cal.4th 195, 230-231) and do so again here.

76

Petitioner's App. 14 - 351

Vegas evidence, which briefly was identified at trial through the testimony of
· Sergeant Gary McEwen.
Immediately prior to the parties' closing arguments, defendant renewed his
objection to the introduction of the Las Vegas evidence on the grounds oflack of
relevancy and undue prejudice. (See Evid. Code, §§ 210, 352.) The trial court
granted defendant's motion, finding that as to the Las Vegas evidence, "I didn't
feel that they were probative of any disputed fact. [ii] The fact remains that the
defendant was in Arizona heading eastbound and was not in California, and the
fact that he may or may not have gone through Las Vegas I did not feel had any
relevance and was not probative."29
Defendant moved for a mistrial based upon the trial court's finding that the
Las Vegas evidence erroneously had been introduced into evidence. Alternatively,
the defense requested that the court admonish the jury with a curative instruction.
The court denied the motion for a mistrial, but admonished the jury as follows:
"We've had a lot of exhibits marked. Not all of them were received [into
evidence]. [1] You're instructed to disregard exhibits 21 through 23 [the Las
Vegas evidence]. It's a drinking glass, coupons, key chain and a key. Also
Exhibit 4-E, which was a kitchen knife and the tape cassettes that were inside
Exhibit 14, which was a gray Lancome Bag. [ii] You must also disregard any
testimony about those things, and they should play no part in your thoughts or
deliberations."

29
The trial court also granted defendant's motion to e~clude certain other
items introduced into evidence, including a knife found inside the pocket of the
blackjacket retrieved from the Datsun 280 ZX, and a tote bag identified as having
belonged to Janette Cullins, containing audio cassette tapes.

77
Petitioner's App. 14 - 352

Although agreeing with defendant as to the asserted irrelevancy of the Las
Vegas evidence, the trial court stopped short of prohibiting the prosecution from
arguing to the jury that in its deliberations the jury could consider defendant's
''flight'' from California. Indeed, the trial court made clear that exclusion of the
Las Vegas evidence "does not take away flight as an issue .... " Ultimately, the
prosecutor did argue defendant's flight as demonstrating consciousness of guilt.
When the trial court read its instructions to the jury, however, the court did not
read CALJIC No. 2.52, the standard instruction pertaining to flight. Outside the
presence of the jury, the prosecutor commented: "I noticed in your honor's
reading of the instructions that there was no [CALJIC] No. 2.52 instruction which
I had requested and which I thought I saw in the instructions when we went
through them the other day." The prosecutor added that he was not asking that the
jury be brought back to hear the court read CALJIC No. 2.52, but requested that.
the instruction be included With the written packet of instructions givert to the jury.
The defense objected to the giving of the instruction on the grounds that the
defense did not contest the circumstance that defendant was arrested in Arizona,
and that the omitted instruction focused the jury's attention on the Las Vegas
evidence that the court ultimately had deemed irrelevant. The trial court overruled
the objection, finding that the prosecution Was "entitled to the instruction," which
was inserted into the packet with the other instructions.
On appeal, defendant contends reversal is warranted on the grounds that
introduction of the Las Vegas evidence was unduly prejudicial, the trial court's
curative instruction was inadequate, and the court's instruction as to flight was
violative of defendant's state and federal constitutional rights. For the reasons set
forth below, we reject each of these contentions.
Defendant asserts that to the extent the irrelevant Las Vegas evidence Was
indicative of a lack of remorse on defendant's part, it was violative of his state and

78

Petitioner's App. 14 - 353

federal constitutional rights to "due process oflaw, fair trial, burden of proof,
death eligibility, and reliable guilt and penalty phase determinations," and that the
introduction of such evidence was prejudicial because "it create[ d] the likelihood a
non-statutory factor in aggravation will be considered by the jury in violation of
the Eighth Amendment's" proscription against vague and unreliable penalty
determinations. \Ve disagree. In view o_fthe trivial nature of the Las Vegas
evidence relative to the other evidence presented by the prosecution at the guilt
and penalty phases, the trial court's clear and comprehensive admonition to the
jury to disregard that evidence, and the substantial evidence.supporting the jury's
guilt and penalty phase determinations, we conclude that the trial court's curative
instruction was adequate and that any error in admitting the Las Vegas evidence
could not have been unduly prejudicial.
Defendant further asserts "[t]here was no evidence of consciousness of guilt
to warrant a flight instruction." In support of this contention, defendant argues
that there was no evidence he fled immediately after the commission of the
charged offenses, that during his travels in the several days leading up to his arrest
in Arizona he had not been confronted with (and therefore could not have fled
from) the charges filed against him, and that at every point during his detention
and arrest in Arizona he was cooperative. Defendant maintains that in view of
these circumstances, the trial court erred in furnishing the jury with a ,vritten copy
of CALJIC No. 2.52.
We reject defendant's contention. Section 1127c requires a trial court in
any criminal proceeding to instruct as to flight where evidence of flight is relied

°

upon as tending to show guilt. 3 CALJIC No. 2.52, which is derived from section
Section 1127c provides: "In any criminal trial or proceeding where
evidence of flight of a defendant is relied upon as tending to show guilt, the court

30

(footnote continued on next page)

79

Petitioner's App. 14 - 354

112 7 c, advises the jury "that evidence of flight alone is insufficient to establish
guilt, but may be considered with other proven facts in deciding the question of
guilt or innocence." (People v. Visciotti (1992) 2 Cal.4th 1, 60.) Contrary to
defendant's position, the instruction neither requires knowledge on a defendant's
part that criminal charges have been filed, nor a defined temporal period within
which the flight must be commenced, nor resistance upon arrest. (Ibid.) In view
of the evidence introduced by the prosecution establishing that defendant left
California in the days immediately following the charged offenses and was in
possession of the vehicle belonging to murder victim Jillette Mills when he was
arrested in Arizona, the flight instruction plainly was warranted here. (Ibid. [a jury
could infer that the defendant's flight reflected consciousness of guilt].) As noted,
the instruction merely permitted the jury to consider evidence of flight in deciding
defendant's guilt or innocence; it did not suggest that the jury should con.sider
such evidence as dispositive.
Moreover, even if we were to conclude the instruction should not have been
given, any error would have been harmless. The instruction did not assume that
flight was established, but instead permitted the jury to make that factual
determination and to decide what weight to accord it. (Id., 2 Cal.4th at p. 61.) 31
(footnote continued from previous page)

shall instruct the jury substantially as follows:
" 'The flight of a person immediately after the commission of a crime, or
after he is accused of a crime that has been committed, is not sufficient in itself to
establish his guilt, but is a fact which, if proved, the jury may consider in deciding
his guilt or innocence. The weight to which such circumstance is entitled is a
matter for the jury to determine.' "
Having determined that the trial court's curative instruction was adequate,
and its instruction pursuant to CALJIC No. 2.52 was proper, we reject d~fendant's
.,, ,.
contention that the erroneous admission ·of the Las Vegas evidence, in.·
31

(footnote continued on next page)

80

Petitioner's App. 14 - 355

B.

Instructions on Lesser Included Offenses

At the close of the guilt phase of defendant's trial, and outside the presence
of the jury, defendant requested that the court instruct the jury on second degree
murder and second degre·e felony murder.~ 2 Defense ~ounsel argued that the ju!y
(footnote continued from previous page)

combination with the instruction on flight, violated defendant's state and federal
constitutional rights.
Defendant requested that the trial court instruct the jury as follows:
"Murder: of the second degree is the unlawful killing of a human being with
malice aforethought when there is manifested an intention unlawfully to kill a
human being but the evidence is insufficient to establish deliberation and
·premeditation. (CALTIC No. 8.30.)
"Murder of the second degree is also the unlawful killing of a human being
when:
"l. The killing resulted from an intentional act,
"2: The natural consequences of the act are dangerous to human life, and
"3. The act was deliberately performed with knowledge of the danger to,
and with conscious disregard for, huinan life.
"When the killing is the direct result of such an act, it is not necessary to
establish that the defendant intended that his act would result in the death of a
human being. (CALJIC No. 8.31.) .
"The unlawful killing of a human being, whether intentional, U.."lintentional ·
or accidental, which occurs [during] [as the direct casual [sic] result of] the
commission or attempted commission of the crime of [grand theft] is murder of
the second degree when the perpetrator had the specific intent to commit such
come.
"The specific intent to commit [grand theft] and the commission or
attempted commission of such crime must be proved beyond a reasonable doubt. ·
(CALilC No. 8.32.)
"Murder is classified into two degrees, and if you should find the defendant
guilty of murder, you must determine and state in your verdict whether you find.
the murder to be of the first or second degree. (CALilC No. 8.70.)
"If you are convinced beyond a reasonable doubt that the crime of murder
has been connnitted by a defendant, but you have a reasonable doubt whether such
murder was of the first or of the second degree, you must give defendant the
benefit of the doubt and return a verdict fixing the murder as of the second degree.
(CALilCNo. 8.71.)
32

(footnote continued on next page)

81

Petitioner's App. 14 - 356

"really ought to have instructions on those ... lesser included ... areas that would
be reasonably within their frame of a verdict .... " The prosecutor objected:
"There is not one wit of evidence [sic], nor a scintilla either, for that matter,
having to do with second degree murder .or any other lesser crime, given the
medical testimony and the unique facts of the case. [,r] I don't think any theory
[of admissibility] has b~en advanced until now, and either by. cross-examination or
any either -

anywhere else in this case, and I don't see it under the facts."

Acknowledging that "when you have crimes of degrees they have to be told about
it, and sometimes it's an issue," the trial court rejected defendant's request,
finding: "Here it's either first [degree murder] or nothing [i.e. acquittal] [if]
[if] The court's ... ruling is to reject the murder of the second degree instructions.

I don't see that as a theory in this case."
On appeal, defendant contends the trial court deprived him of various
constitutional rights and thus committed reversible error in declining to_ give the
requested instructions pertaining to second degree murder and second degree
felony murder, and further, that the court had a sua sponte duty to give such
instructions even if defendant had not requested them. In support of this
argument, defendant emphasizes that he "is entitled under [the] state and federal

(footnote continued.from previous page)

"Before you may return a verdict in this case, you must agree unanimously
not only as to whether the defendant is guilty or not, but also, if you should find
him guilty of an unlawful killing, you must agree unanimously as to whether he is
guilty of murder of the first degree or murder of the second degree." (CALJIC
No. 8.74.)
Defendant additionally requested that the trial court instruct the jury
regarding homicide generally, as follows:
''Homicide is the killing of one human being by another, either lawfully.or
unlawfully. Homicide includes murder and manslaughter, which are unlawful;· ··
and the acts of excusable and justifiable homicides, which are lawful." (CALJIC
No. 8.00.)
.
.

82

Petitioner's App. 14 - 357

Constitutions to have the jury instructed on lesser-included offenses arising from

the evidence." (Italics added.) He contends that in addition to the possible
verdicts of a first degree murder conviction and an acquittal, the jury ought to have
been afforded the "third option" of convicting defendant of second degree murder.
(See Beck v. Alabama (1980) 447 U.S. 625, 637.)
We discern no error in the trial court's refusal to give.the instructions
requested by defendant. "California decisions have held for decades that even
absent a request, and even over the parties' objections, the trial court must instruct
on a lesser offense necessarily included in the charged offense if there is

substantial evidence the defendant is guilty only of the lesser. [Citations.)"
(People v. Birks (1998) 19 Cal.4th 108, 118, italics added.) In the present case, we
agree with the trial court that there was not substantial evidence to warrant the
second degree murder instructions requested by defendant.
As described above, the prosecution's evidence demonstrated that Susan
Knoll, Jillette Mills, and Bonnie Guthrie were murdered at their residences in
similar fashion within days of each other. All three had been fatally strangled Mills and Guthrie by ligature, and Knoll by what the medical examiner described
as the use of"considerable compression force" (and had suffered blunt force
injuries consistent with having struggled against her assailant). Not only does the
manner in which each of these three killings was perpetrated strongly indicate in
itself that each of the killings was willful, premeditated, and deliberate, but the
entire course of conduct clearly revealed by the evidence, taken as a whole, is
inconsistent with any suggestion that the killings were not willful, premeditated,
and deliberate. Furthermore, the evidence additionally demonstrated that each of
the murders occurred during the commission of either rape or burglary, a
circumstance that in itself establishes the offenses as frrst degree murders under
the felony-murder doctrine. (§ 189.) Defendant fails to point to any substantial
evidence that would support a jury's determination that the killing of any of the
victims constituted second degree, rather than first degree, murder.
83

Petitioner's App. 14 - 358

Defendant cites a number of decisions in support of his contrary contention,
but these cases either have been overruled or involve inapposite factual situations.
(See People v. Geiger (1984) 35 Cal.3d 510 [defendant has a right to instructions
on lesser related offenses that merely bear some relationship to the charged
offense, overruled on that point in People v. Birks, supra, 19 Cal.4th 1, 136],

People v. Dillon (1983) 24 Cal.3d 44-1 [modifying the defendant's conviction of
first degree felony murder to second degree murder where the defendant was an
immature 17-year-old youth involved in a conspiracy with other youths to "ripoff' a marijuana farm and discharged his firearm when confronted by the victim,
who displayed a shotgun]; Vickers v. Rickettes (9th Cir. 1986) 798 F.2d 369
[prisoner was stabbed and fatally strangled by his cellmate, who had a brain
disorder related to an epileptic condition].)
The trial court therefore properly refused to instruct the jury regarding
second degree murder and second degree felony murder. Because no evidence
was presented indicating a basis for finding any of the killings to have been an
excusable or justifiable homicide, the court also properly refused to give the
homicide instruction. (CALJIC No. 8.00.)

C.

Instructions Regarding Felony Murder and Special
Circumstances

The trial court instructed the jury as to first degree felony murder and as to
special circumstances. (CALJIC Nos. 8.21, and 8.80, respectively.) 33
The trial court instructed the jury as follows:
"The unlawful killing of a human being, whether intentional, unintentional
or accidental, which occurs during the commission of the crime of burglary or the
commission of the crime of rape is murder of the first degree·when the perpetrator
had the specific intent t? c~mmit such crime. ·
. . . ,. .
. ,; 1
"The specific intent to commit a burglary, the specific intent to commit a
rape and the commission of such crime must be proved beyond a :reasonable , · ·
33

(footnaie continued arhi'e±tpage)
84

Petitioner's App. 14 - 359

On appeal, defendant contends the trial court should have instructed the
jury that it could not find the special circumstance allegations ~f burglary murder,
rape murder, and multiple murder true unless it found that defendant possessed the
intent to kill Susan Knoll, Jillette Mills, and Bonnie Guthrie. Defendant argues

(footnote continued from previous page)

doubt." (CALllC No. 8.21.)
The court further instructed:
"If you find the defendant in this case guilty of murder of the first degree,
you must then determine if one or more of the following spe,cial circumstances are
true or not true:
"(l) That the murder of Jillette Mills was committed by the defendant
while he was engaged in the commission of the crime of rape;
"(2) That the murder of Jillette Mills was committed by the defendant
while he was engaged in the commission of the crime of burglary;
"(3) That the murder of Susan Knoll was committed by the defendant
while he was engaged in the commission of the crime of burglary;
"(4) That the murder of Bonnie Guthrie was committed by the defendant
while he was engaged in the commission of the crime of rape;
"(5) That the murder of Bonnie Guthrie was committed by the defendant
while he was engaged in the commission of the crime of burglary;
"(6) That the defendant has in this case been convicted of more than one
offense of murder in the first degree.
"The People have the burden of proving the truth of a special circumstance.
If you have a reasonable doubt as to whether a special circumstance is true, you
must find it to be not true.
"Ifyou find beyond a reasonable doubt that the defendant was the actual
killer, you need not find that the defendant intended to kill a human being in order
to find the special circumstance to be troe.
"You must decide separately each special circumstance alleged in this case.
If you cannot agree as to all of the special circumstances, but can agree as to one
or more, make your finding as to the one or more upon which you do agree.
"In order to find a special circumstance alleged in this case to be true or
untrue, you must agree unanimously.
"You will state your special finding as to whether the special circumstance
is or is not true on the form that will be supplied." (CALJIC No. 8.80, italics
added.)

85

Petitioner's App. 14 - 360

that the trial court's ertor in failing so to instruct constitutes a "structural defect" in
the proceedings that is reversible per se (see Arizona v. Fulminante, supra, 499
U.S. 279, 307-309), or that alternatively constitutes an error that cannot be
characterized as being harmless beyond ar~asonable doubt (see Chapman v.
California (1967) 386 U.S. 18) and therefore requires setting aside the findings of

special circumstances and reversing the judgment of death. (See People v.
Marshall, supra, 15 Cal.4th 1, 41-44.) We reject defendant's position, for the

reasons that follow.
"In 1983, this court held that intent to kill was an element of felony-murder

special circumstances whether or not the defendant was the actual killer. ( Carlos
v. Superior Court (1983) 35Cal.3d131, 153-154 [197 Cal.Rptr. 79, 672 P.2d

862].) Although we overruled Carlos in People v. Anderson (1987) 43 Cal.3d .
1104, 1147 [240 Cal.Rptr. 585, 742 P.2d 1306], holding that the intent-to-kill
;

requirement applied only to an accomplice and not to the actual killer, Carlos
remained applicable to ( and the trial court was required to instruct the jury on)·
intent to kill in all cases involving a defendant charged with a felony-murder
,

special circumstance if the offense was committed during the 'window' period
between our decisions in Carlos and Anderson. [Citations.]" (People v. Marshall,
supra, 15 Cal.4th 1, 41-42.)
In the present case, the jury found a total of six special circumstance

allegations to be true -

one allegation of multiple murder, two allegations ofrape

murder (as to Mills and Guthrie), and three allegations of burglary murder (as to
Mills, Knoll, and Guthrie). (§§ 190.2, subs. (a)(3), (a)(l 7), subparts (C), (G).)
The murders occurred in April 1984, during the Carlos/Anderson "window" .
period. ·Accordingly, the jury in this case could find the special circumstance
allegations to be true "only ifit found that defendant acted with intent to kill:''

(Id., at p. 42.) Nonetheless, as defendant asserts and the People concede, the trial
86

Petitioner's App. 14 - 361

court's instruction on special circumstances, CALJIC No. 8.80, in relevant part
informed the jury that defendant's intent was inconsequential: "If you find beyond
a reasonable doubt that the defendant was the actual killer, you need not find that
the defendant intended to kill a human being in order to find the special
· circumstance to be true." (See fn. 33, ante.)
"We have consistently held that when a trial court fails to instruct the jury
on an element of a special circumstance allegation, the prejudicial effect of the
error must be measured under the test set forth in Chapman v. California [, supra,]
386 U.S. 18, 24 [87 S.Ct. 824, 828, 17 L.Ed.2d 705, 24 A.L.R.3d 1065].
[Citations.] Under that test, an error is harmless only when, beyond a reasonable
doubt, it did not contribute to the verdict. ( Chapman, supra, at p. 24 [87 S.Ct. at
p. 828].)" (People v. Williams (1997) 16 Cal.4th 635, 689.) We have held that
" 'error in failing to instruct that a special circumstance contains a requirement of
the intent to kill is harmless [beyond a reasonable doubt] when "the evidence of
defendant's intent to kill ... was overwhelming, and the jury could have had no
reasonable doubt on that matter."'" (People v. Marshall, supra, 15 Cal.4th 1,
42.)
In the present case, the evidence was overwhelming that defendant
possessed the intent to kill when he murdered Susan Knoll, Jillette Mills, and
Bonnie Guthrie. As noted, within a very brief period all three victims were killed
by strangulation -

KnoH by manual strangulation, Mills and Guthrie by ligature

strangulation. The latter two victims also suffered traumatic sexual assaults. That
evidence, considered with the evidence that the bodies of Knoll and Mills were
concealed within a closet, and that in each instance defendant departed from the
crime scene with selected possessions of each victim, is consistent only with
intentional killings. No evidence was presented that would have supported a
finding of unintentional murder. Under these circumstances, we conclude that no
87

Petitioner's App. 14 - 362

reasonable jury, properly instructed, would have failed to find that defendant acted
with the requisite intent to kill. We are satisfied that the trial court's instruction
removing that issue from the jury's consideration was harmless beyond a
reasonable doubt. (See.People v.Johnson, supra,.6 Cal.4th at pp: 46-47 [intentto
kili properly found where one victim.was strangled.and set on fire, and the other
victim was beaten to death]; see also People v. Osband, supra, 1_3 Cal.4th 622, 683
[concealing of victim's body beneath dresser drawers "further supports the view
that ( defendant) intended to kill"].)

D.

Guilt Phase Instructions in General

The trial court instructed the jury pursuant to several pattern jury
instructions at the conclusion of the guilt phase, including CALJIC Nos. 2.01
(sufficiency of circumstantial evidence-generally), 2.02 sufficiency of
circumstantial evidence to prove specific intent), 2.50 ( evidence of other crimes),
2.50.1 (evidence of other crimes by the defendant proved by a preportdet~nce of
the evidence), 2.50.2 (definition of preponderance of the evidence), 8.83
(sufficiency of circumstantial evidence to prove special circumstance), and 8.83.1
(sufficiency of evidence fo prove mental state). Defendant contends that decisions
rendered by this court rejecting constitutional challenges to these instructions (see,
e.g., People v. Wilson, supra, 3 Cal.4th 926, 942-943; People v. Mickey, supra, 54
Cal.3d 612, 669-671) are "inconsistent with principles set forth by the United
States Supreme Court" and should be reconsidered:
Defendant has provided no basis for reconsidering our prior decisions
upholding the validity of these pattern jury instructions. (See, e.g., People v,
Wilson, supra, 3 Cal.4th 926, 942-943; People v. Mickey, supra, 54 Cal.3d 612,
669-671.) We therefore reject defendant's challenge.

88

Petitioner's App. 14 - 363

IV. ALLEGED INEFFECTIVE ASSISTANCE OF COUNSEL
Defendant contends his trial counsel rendered ineffective assistance at the
guilt phase by conceding defendant's guilt, as demonstrated by counsel's failure to

(I) make an opening statement, (2) present any evidence on defendant's behalf,
and (3) make any substantive argument in his summation (which comprised four
and one-half pages of the Reporter's Transcript) as to whether the prosecution had
sustained its burden of proof as to defendant's guilt of the crimes charged or the
truth of the special circumstances alleged. Relying upon Grijjin v. California
(1965) 380 U,S. 609, defendant further contends that during the guilt phase
summation, his counsel improperly drew adverse attention to defendant's assertion
of the privilege against self-incrimination. Defendant also contends counsel
inappropriately conceded guilt in his penalty phase summation.3 4
As we explain, defendant fails to demonstrate that counsel rendered
constitutionally deficient performance, or that such performance was prejudicial to
the defense.
"In assessing claims of ineffective assistance of trial counsel, we consider
whether counsel's representation fell below an objective standard of
reasonableness under prevailing professional norms and whether the defendant
suffered prejudice to a reasonable probability, that is, a probability sufficient to
undermine confidence in the outcome. (Strickland v. Washington (1984) 466 U.S.
668, 694 [104 S.Ct. 2052, 2068, 80 L.Ed.2d 674]; People v. Ledesma (1987) 43
Cal.3d 171,217 [233 Cal.Rptr. 404, 729 P.2d 839].) A reviewing court will
indulge in a presumption that counsel's performance fell within the wide range of

Defendant's argument encompasses issues relating to both the guilt and the
penalty phases. In the interest of clarity and brevity, we address these issues
together.

34

89

Petitioner's App. 14 - 364

professional competence and that counsel's actions and inactions can be explained
as a matter of sound trial strategy. Defendant thus bears the burden of establishing
constitutionally inadequate assistance of counsel. (Strickland v. Washington,·
· supra, atp. 687 [104 S.Ct. at p. 2064]; In re Andrews (2002) 28 Cal.4th 1234,
1253 [124 Cal.Rptr.2d 473, 52 P.3d 656].) If the record on appeal sheds no light
on why counsel acted or failed to act in the manner challenged, an appellate claim
of ineffective assistance of counsel must be rejected unless counsel was asked for
an explanation and failed to provide one, or there simply could be no satisfactory
explanation. (People v. Mendoza Tello (1997) 15 Cal.4th 264,266 [62
Cal.Rptr.2d 437, 933 P.2d 1134].) Otherwise, the claim is more appropriately_
raised in a petition for writ of habeas corpus. (Id. at pp. 266-267 .)" (People v.
Carter (2003) 30 Cal.4th 1166, 121 I; see also People v. Cunningham (2001) 25
Cal.4th 926, 1003 [same]; People v. Mitcham (1992) 1 Cal.4th 1027, 1059 ["The
decisions whether to waive opening statement and whether to put on witnesses are
matter~ of trial tactics and strategy which a reviewing court generally may not
second-guess."].)
Each one of counsel's decisions, to forego making an opening statement,
present a defense, or offer more than a brief summation, was tactical. In view of
the strong evidence directly linking defendant to the charged murders, as well as
the looming prospect of other capital trials in Alameda and San Diego Counties
arising out of the deaths of Tok Kim and Janette Cullins, reasonably competent
counsel could have determined to hear the prosecution's case prior to deciding
whether to present a defense, and further could have determined that counsel's
summation ought to be limited to inviting the jury to consider whether the
prosecution actually had met its burden of establishing guilt beyond a reasonable
doubt. (See generally People v. Mitcham, supra, 1 Cal.4th 1027, 1059.}Indeed,
in· his summation, counsel alluded to the other criminal cases pending against
90

Petitioner's App. 14 - 365

defendant to suggest a reason why defendant did not take the stand, and
emphasized the significance of the reasonable doubt instruction. 35
Reasonably competent counsel could have determined that an extended
summation would present the danger of focusing the jury's attention upon the
heinous details of the crimes committed. Likewise, reasonably competent counsel
also could have determined that in view of the strong evidence linking defendant
to the murders, a guilty verdict was virtually a foregone conclusion, and that
defendant's prospects of avoiding the death penalty would be improved if the
defense refrained from placing its "credibility" at risk by suggesting an
implausible defense and instead focused upon challenging the testimony of certain
witnesses who testified for the prosecution.36
Thus, reasonable defense counsel could have had a number oflegitimate
tactical reasons for refraining from making an opening statement, presenting
witnesses in defense, or summarizing the case more extensively. The record
before us does not fully reveal why counsel elected to proceed in the manner in
which defendant now complains, and defendant's claim must fail for that reason.

(People v. Mitcham, supra, 1 Cal.4th 1027, 1059.) To the extent the record on
35
Defense counsel argued: "Vvhile all the instructions that the judge will give
you are important, critical to deciding the guilt of any person, is the instruction
about reasonable doubt. In short, you will hear words to this effect, that you may
not find Mr. Carter guilty unless you believe beyond a reasonable doubt the truth
of the charge or charges to a moral certainty. [i!] I would expect [the prosecutor],
when he replies, as is his right to reply to this argument since he has the burden, to
tell you that this does not mean beyond all possible doubt. That's true. But you
\Nill hear the words 'to a moral certainty.' [i!] ... [if] You've heard reference to
other pending cases in San Diego and Oakland, and so there are some times that
defendants do not testify for many, many reasons."
36
Defendant acknowledges that"[ o]f the more than 50 witnesses presented by
the People, the defense cross-examined roughly half. ... "

91

Petitioner's App. 14 - 366

appeal does provide insight into the basis for couns.el's·decision ~ot to present ~L
defense at the guilt phase, counsel's strategy was a tactical one influenced by the
relative strengths and weaknesses of a decision to present a defense, as well as by ·
the pendency of the .murder charges against defendant in other counties. _(See post,
•· at p. 95;)37.
& noted, defendant also complains that his counsel "drew adv~rse

attention to [defendant's] assertion of the privilege against self-incrimination." .At
issue is counsel's argument to the jury, in which he hypothesized a number of
reasons why a defendant might elect not testify, including the observation, "some
people tell the truth in this kind of setting, some people lie poorly." Defendant ·
asserts that counsel's remark was an improper comment upon defendant's
invocation of-his constitutional right not to testify, in contravention of Griffin v.
California, supra, 3 80 U.S. 609. In response, the People respond that cminsers,

comment did not draw adverse attention to defendant's silence. •
In his guilt phase summation, defense counsel argued to the jury:
"In this decision your process is analytical; that is, have the crimes been

proven beyond a reasonable doubt to a moral certainty, and has it been proven
beyond a reasonable doubt to a moral certainty that [defendant] is the person who
-committed one or more of the acts charged?
"[Defendant].did not testify. The court will instruct you thatyou may not
consider this in any way, shape, or form. You may not hold it against him. .
· However, experience tells us that people often have trouble with that concept.
.

'

,,,

•

J

•

,1~·H I
,.._;

Defendant acknowledged at the hearing.on his mo-tion for new trial that h_e
- had understood the risks and perils of a defense strategy that irivc>lved his taking
_._ -· -· ;' '
·
the witness stand. (See post, pp. 100-101.)
37

92

Petitioner's App. 14 - 367

'Well, ifI were the defendant, I would testify. I would be up there screaming
about it.'
"Let me say a word about this: There are many reasons that a defendant

may or might not testify in a case, speaking hypothetically. There is, for example,
.

.

· the possibility that his lawyer might instruct you not to testify, even though he
wanted to. There is on the contrary the possibility that his lawyer wants him to
and he does not want to for various reasons.
"He may be articulate, he may be too articulate. He may be scared. I'll tell
you, it is not easy to be a witness.

ff any of you have ever been a witness, where

from time to time one comes up in one's career at the bar, I'm always amazed that
you were just plain nervous up there even after all your experience in law school

[sic].
"Some people tell the truth in this kind of setting, some people lie poorly.
"You've heard reference to other pending cases in San Diego and Oakland,
and so there are some times that defendants do not testify for many, many reasons.

There are many, many reasons why the defendant may not testify, and I give you
hypothetically various reasons that occur from time to time so that you do not
consider any of it and hold it against him." (Italics added.)
As an initial matter, we observe that the decisions finding Griffin error have
not extended to the situation of a defendant who asserts that his or her own

attorney invited the jury to draw an adverse inference from the defendant's failure
to testify. (Griffin v. California, supra, 380 U.S. 609, 615 ["We ... hold that the
Fifth Amendment ... forbids either comment by the prosecution on the accused's
silence or instructions by the court that such silence is evidence of guilt."] (Italics
added.)) Defendant does not cite any authority in support of the broad reading of

Griffin that he advances here -

to the contrary, the decisions upon which

a

defendant relies are distinguishable, involving either prosecutor's comment upon
93

Petitioner's App. 14 - 368

a defendant's silence (People v. Morris (1988) 46 Cal.3d 1, 35-36; People v.
Modesto (1967) 66 Cal.2d 695, 711), or the trial ofa case against multiple

defendants in which the comment was made by counsel for a codefendant (People
v. Hardy (1992) 2 Cal.4th 86, 157-161; People v. Haldeen (1968) 267 Cal.App.2d

478,481) or a codefendartt sought to make such a comment (People v. Jones
(1970) IO Cal,App.3d 237, 243-244). The absence of authority on the point is not
surprising, because if- by merely reminding the jury at summation that the
defendant did not testify-·.- defense counsel thereby would inject Griffin error into
the proceedings, counsel would be placed in the awkward and untenable position
of deciding whether to infringe upon his or her client's constitutional privilege
against self-incrimination in order to increase the likelihood that any conviction
would be vulnerable to a grant of a new trial or reversal on appeal. Griffin does
not stand for such a proposition.
Moreover, even ifwe were to overlook the foregoing funda:inental defect in
defendant's position, no Griffin error appears. Viewing defense counsel's remarks
in their proper context, it is clear that counsel was not suggesting that the jury
draw any sort of adverse inference from defendant's silence. Nor did counsel's
comments represent a "concession off defendant's] guilt" as defendant asserts.
"Rather, the passage quoted above reveals that counsel merely sought to explain to
the jury that there are "many reasons" why a defendant may not testify, including
the "hypothetical[]" possibility that "[s]ome people tell the truth in this kind of
setting, some people lie poorly," and that the jury should not hold such silence
against him. (Italics added.) Counsel's references to defendant's failure to testify
were made "so that you do not consider any of it and hold it against hirri;" and!''
i'

94

Petitioner's App. 14 - 369

manifestly did not constitute the type of comments that Griffin declared invalid.
· (See Griffin v. California, supra, 380 U.S. 609, 613-615.) 38
Defendant's reliance upon United States v. Swanson (9th Cir. 1991) 943
F.2d 1070 similarly is misplaced. Swanson held that defense counsel effectively
abandoned and betrayed his client and aided the prosecution by arguing to the jury
that there was no reasonable doubt his client was the person who committed the
bank robbery charged in the indictment. By contrast, defense counsel's
performance in the present case did not constitute abandonment. In view of the
strong prosecution evidence linking defendant to the charged offenses, as well as
to the murder cases then pending against defendant in Alameda and San Diego
Counties, defense counsel reasonably could believe that their client's interests
would best be served by treating the case "as a penalty case," rather than by
presenting a defense or relying upon defendant's testimony. Consistently with that
strategy, at the close of the guilt phase counsel argued to the jury that a defendant
might choose not to testify for any one or more of several reasons. Defense
counsel's argument clearly was proper.39
At defendant's request, the trial court instructed the jury pursuant to
CALJIC Nos. 2.60 and 2.61, as follows:
"A defendant in a criminal trial has a constitutional right not to be
compelled to testify. You must not draw any inference from the fact that a
defendant does not testify. Further, you must neither discuss this matter nor
permit it to enter into your deliberations in any way. (Ci\LJIC No. 2.60.)
"In deciding whether or not to testify, the defendant may choose to rely on
the state of the evidence and upon the failure, if any, of the People to prove
beyond a reasonable doubt every essential element of the charge against him. No
lack of testimony on defendant's part will supply a failure of proof by the People
· so as to support a finding against him on any such essential element." (CALJIC
No. 2.61.)
38

39

Defendant also cites, "by way of comparison," this court's decisions in
People v. Samayoa, supra, 15 Cal.4th 795, In re Avena (1996) 12 Cal.4th 694, and
(footnote continued on next page)

95

Petitioner's App. 14 - 370

Next, defendant offers myriad contentions-most briefly stated and quite
con cl usory in nature -

in an effort to demonstrate he was deprived of the

effective assistance of counsel. These contentions encompass a wide array of both
general and specific claims, including defense counsel's failure to present a
coherent defense and more vigorously challenge the following: the prosecution's
witnesses by cross-examination, the identification evidence discovered during the
Kim investigation, the evidence linking defendant to Mills's murder (by
highlighting evidence that Mills habitually kept personal items in her vehicle), the
special circumstances allegations, the purportedly confusing jury instructions
submitted to the trial court by the prosecution, and the absence of pinpoint jury
instructions. All of these contentions, however, amount to or relate to trial tactics
and, as noted previously, must be rejected because the record before us does not
reveal why defense counsel elected to proceed in the manner of which deftrndant
now complains. (People v. Mitcham, supra, 1 Cal.4th 1027, 1059.)
For the same reasons, we reject defendant's similar attack on the manner in
which counsel represented defendant at the penalty phase of the trial.
In sum, defendant fails to demonstrate on this record that defense counsel
rendered ineffective assistance at trial. To the contrary, the record indicates that
counsel was placed in the extremely challenging position of representing a
defendant clearly linked to the deaths of five women, four of whom died by
strangulation within days of each other, as well as to the near fatality by
strangulation of a sixth woman. The record before us does not suggest that
counsel's performance in defending against the charges in the manner summarized
(footnote continued from previous. page)

People v. Cain (1995) 10 C8:l.4th 1. None of these cases is helpful to defendant'~
argument.
· · ··
·
··

,96

Petitioner's App. 14 - 371

above, in the face of the prosecution's strong case against their client, "fell below
an objective standard of reasonableness under prevailing professional norms," nor
that "defendant suffered prejudice to a reasonable probability, that is, a probability
sufficient to undermine confidence in the outcome." (Strickland v. Washington,

supra, 466 U.S. 668,694; People v. Ledesma (1987) 43 Cal.3d 171, 217.)
Defendant's related claims, that counsel committed Griffin error and
inappropriately conceded defendant's guilt at the penalty phase, lack merit for the
reasons previous! y discussed.

V.

CONFLICT OF INTEREST ISSUES
A.

The Conflict Between Defendant and his Trial Counsel,
Defendant's Desire to Testify, and the Motion for New
Trial

In a multi-pronged argument, defendant contends the trial court failed to
inquire adequately into defendant's conflict with his attorneys regarding the
presentation of a defense during the guilt phase of the proceedings (including
defendant's desire to testify), failed to appoint new counsel once the conflict was
disclosed, and improperly denied defendant's motion for a new trial. As we shall
explain, none of defendant's contentions has merit. (See fn. 34, ante.)
I.

Factual and Procedural Background

On July 5, 1989, at the conclusion of the People's case-in-chief at the guilt
phase, defendant's trial counsel requested an in-camera hearing pursuant to People

v. Marsden (1970) 2 Cal.3d 803. At the hearing, conducted outside the presence
of the jury and the prosecution, defense counsel informed the court that
notwithstanding the circumstance that several defense witnesses were available to
be called, counsel was prepared as part of the defense strategy to rest without
putting on a defense, and that defendant "emphatically disagrees with that

97

Petitioner's App. 14 - 372

strategy." The trial court agreed with defense counsel's reasoning that "in these
matters the decisions should be with the counsel."
On July 10, 1989, poor to the presentation of the parties' closing
.

.

.

arguments, defense counsel requested a second in-camera hearing under the
authority of Marsden. During a brief hearing, counsel informed the court that
during the July 5 Marsden hearing, he had neglected to mention that "by not
putting on the witnesses, it also precluded the potential of [defendant] testifying
"

Later that same day, after the parties had argued their respective cases to
the jury, defense counsel informed the court during an in-camera hearing that
defendant "asked me to spread upon the record that he does not agree with the
closing argument that counsel made, that he had asked me what it was, and that he
was not informed of the type of argument.

["ill And he certainly does not feel that

it was adequate, and this just compounds the problem of lack of defense by the
argument that counsel made, and he asked me to spread that upon the record.';·
On July 17, 1989, the jury returned its guilt phase verdict. Later that same
day, defense counsel requested a third Marsden hearing, informing the court that
"[defendant] continues to express disappointment [in] the manner in which to this
point the case has been handled by counsel." Defense counsel continued:
"[Defendant requests the court] to appoint Mr. Rowan Klein ... to ... prepare and
file a new trial motion or some motion pre-penalty phase. . . .

["ill I will say that

counsel opposes that motion. We have opposed other things before, and we would
oppose that." The trial court denied defendant's motion, stating: "[I]t is just not
timely. The motion to appoint Mr. Klein, even the motion for new trial, isn'tnow is not the time to raise such a motion. Certainly, if at some time it jooks]ike
Mr. Klein's eXPertise would be of some assistance, I'd entertain the motion; but
now I don't think is the appropriate time to even consider it. That request is
denied .... "

98

Petitioner's App. 14 - 373

On August 7, 1989, the jury returned its penalty phase verdict.
Approximately four weeks later, on September 5, 1989, the court conducted a
fourth Marsden hearing, wherein defense counsel informed the court of their
client's request that they be relieved and replaced by attorney Rowan Klein. The
court granted the request.
On January 9, 1990, defendant, assisted by his newly appointed attorney, ·
filed a motion for new trial that asserted: (1) defendant erroneously was denied
his constitutional rights to testify and to present a defense at the guilt phase of
trial; (2) the trial court erroneously failed to afford defendant a hearing regarding
his allegations that a conflict of interest existed between him and his attorneys;
(3) defendant did not validly waive his constitutional right to testify; (4) the trial
court erroneously admitted evidence of other alleged homicides, and (5) the trial
court erroneously determined that defendant lacked standing to object to evidence,
that was seized from the vehicle in which he was arrested.
At the hearing on defendant's motion for new trial, one of defendant's trial
counsel, Howard Gillingham, testified that defendant "wanted to put on at all
times a full-blown defense .... [1] There was no question that [defendant], from
early on, wanted to ... contest the guilt at the special circumstance level. No
question about that." Gillingham added: "Near the end of the case-in-chief, ...
we definitely knew that [defendant] did not agree with our approach." Gillingham
explained the term, "our approach" to mean: "Our approach was this case was a
potential death case, and at some point I, along with [co-counsel] Miss Morrissey,
made the decision that that's how it had to be litigated .... ["if] As an example, the
review of the voir dire of the jurors was almost entirely death-focused, so right
from the beginning ... the tentative decision was it was going to be tried as a
penalty case."
Gillingham affirmed that the position of both attorneys representing
defendant was not to present a defense and that defendant would not testify at the
guilt phase. When Gillingham conveyed this position to defendant near the
99

Petitioner's App. 14 - 374

conclusion of the guilt phase of the trial, defendant's response, according to
Gillingham, was "[a]gitated. Total disagreement, which I must say, has been
vindicated. We sort ofhad that feeling. [,i] ... [if] [W]e knew that [defendant]
wanted to contest the guilt phase .... " Gillingham stated that defendant wanted to
put on a defense and wanted to testify. On cross-examination, Gillingham
acknowledged that he and defendant's co-counsel considereq the decision not to
present a defense at the guilt phase to have been tactical in nature, and that factors
influencing counsel's decision included the strength and weaknesses of presenting
a defense as well as the pending murder cases against defendant in Alameda and
San Diego Counties.
Defendant testified that shortly after Gillingham was appointed to represent
him, "I told him that I wanted to present a defense and that during the guilt phase I
was more concerned about the guilt phase and I felt it was necessary for me to
testify. [if] ... [if] I questioned the way he was conducting voir dire. I wasn't
happy with what he was doing, with what he was focusing on.

[ill . . . [ill He

wasn't really paying any attention to the guilt aspect. He was more concerned
with the penalty phase. That is what I felt, anyway." According to defendant, oh
"the day before the prosecution rested," Gillingham "told me that he didn't plan to
call any witnesses and that he wasn't going to put on a defense. [if] ... [,i] He
· also stated, well, ifhe didn't put on a defense and I am going to testify,I asked
him about that, and he said ifwe are not going to put on a defense I was not going
to be testifying." Defendant's reaction to counsel's strategy was, "I was upset. I
indicated pretty strongly that l wasn't happy with him. [,i] ... [,i] I told him I
wanted to call witnesses, put on a defense and testify."
On cross-examination, defendant acknowledged that his trial attorneys had
opined it was in defendant's best interest that defendant not testify: · "they said it
was a tactical decision." Defendant also acknowledged understanding that ifhe
had testified at trial, he would have been subject to cross-examination by the ·
prosecutor, including questions regarding the items taken from Tok Kim and
100

Petitioner's App. 14 - 375

Janette Cullins found in the car defendant was driving when apprehended, and that
defendant would be asked to explain how those items came into his possession and
that such answers "more than likely" would have been communicated to the
prosecutor's counterparts in Alameda and San Diego Counties and ultimately used
against defendant in proceedings conducted in those counties,
Defendant further testified on cross-examination that.during the Marsden
hearings, defense counsel accurately summarized the disagreements that existed
between defendant and counsel.
During an in-camera portion of the hearing, defendant's new counsel
recited the names of several persons whom he identified as having been potential
defense witnesses but who were not called to testify at the guilt phase of the trial
in light of prior trial counsel's decision not to put on a case-in-chief. Counsel
thereafter argued extensively in favor of the motion for new trial, which was
denied.
2.

The Issues

a. Defendant's conflict with his attorneys at trial
Defendant contends that he was denied his constitutional right to present a
defense, including his right to testify, and that the trial court failed adequately to
inquire as to the nature of the conflict. As we shall explain, we reject these
arguments.
Although "a defendant in a capital trial [has] the right to have his only
viable defense to the guilt or special circumstance charges presented at the initial
stage of trial" (People v. Frierson (1985) 39 Cal.3d 803, 815 [plurality opn.]), and
counsel lacks the authority to override the defendant's decision to present such a
defense at the guilt phase of the trial (People v. Burton (1989) 48 Cal.3d 843,
856), in the present case the record does not establish that defendant had a viable
defense. (See id., at p. 857 ["[ d]efendant's reliance on Frierson ... is misplaced,
since the record does not show that any defense he wished to present had credible
evidentiary support]; see also People v. Cox (1991) 53 Cal.3d 618, 671 ["When
101

Petitioner's App. 14 - 376

the record reflects a tactical choice to curtail presentation of defense evidence or
closing argument with the defendant's purported knowledge and acquiescence, it
would amount to an untoward interference with the attorney-client relationship to
suggest the trial court has an obligation to question the defendant as to his
concurrence in counsel's strategy and to secure a waiver of any rights incidentally
relinquis~ed."].) Here, the record supports the People's position that defendant, "a
person with a sophisticated view of the criminal justice system from the inside,"
complained sufficiently during proceedings conducted in the trial court so as to
create a colorable appellate issue, but not sufficiently to obligate the trial court to
relieve his counseI.40
Accordingly, defendant's claim that he was denied the opportunity to
present a defense, and to "conflict-free, effective representation," should be
denied.
With respect to defendant's asserted desire to testify at trial, we are guided
by well-settled rules: " 'Every criminal defendant is privileged to testify in his
own defense, orto refuse·to do so.' (Hi:1.rris v. New York(1971) 401 U.S. 222,225
[91 S.Ct. 643, 645, 28 L.Ed.2d 1].) The defendant's 'absolute right not to be
called as a witness and not to testify' arises from the Fifth Amendment to the
United States Constitution and article I, section 15 of the California Constitution.

40
We believe that the prosecutor's argument in summation at the hearing on
defendant's motion for new trial aptly summarizes the state of the record:
"[L]ooking at the transcript, the court could ... and should draw the conclusion
that what happened was Mr. Carter was a defendant who wanted things his way.
[Defense counsel] Mr. Gillingham did not do them his way for valid legally
sufficient reasons, and Mr. Gillingham indicated this ... displeasure of Mr. Carter,
but in the end, Mr. Carter acceded to Mr. Gillingham's trial strategy. He was
present during all of these proceedings, and he is not a: novice in this business, He
is not a person who is not unfamili~ [sic] with the courts and the ,_court .system,
He has not hesitated in the past t6 conimerit I suggest this motion should b'e .
denied in its entirety. There is no error· at all."
1

··.1•::·.

· 102

Petitioner's App. 14 - 377

.·

(Cramer v. Tyers (1979) 23 Cal.3d 131, 137 [151 Cal.Rptr. 653, 588 P.2d 793.)
Although tactical decisions at trial are generally counsel's responsibility, the
decision whether to testify, a question of fundamental importance, is made by the
defendant after consultation with counsel. (People v. McKenzie (1983) 34 Cal.3d
616, 631, fn. 9 [194 Cal.Rptr. 462,668 P.2d 769]; U.S. v. Martinez (9th Cir. 1989)
883 F.2d 750, 755, vacated other grounds (1991) 928 F.2d 1470; see also People
v. Robles (1970) 2 Cal.3d 205,215 [85 Cal.Rptr. 166,466 P.2d 710].)" (People v.

Hines (1997) 15 Cal.4th 997, 1032.)
Moreover, we previously have rejected the position that a trial court must
obtain an affirmative waiver on the record whenever a defendant fails to testify at
trial. (People v. Alcala, supra, 4 Cal.4th 742, 806 ["When the record fails to
disclose a timely and adequate demand to testify, 'a defendant may not await the
outcome of the trial and then seek reversal based on his claim that despite
expressing to counsel his desire to testify, he was deprived of that opportunity.'
(Citations.).]"; see also Florida v. Nixon (2004) _U.S._ [125 S.Ct. 551, 561]
[although defense counsel "was obliged to, and in fact several times did, explain
his proposed trial strategy" to the defendant, counsel "was not additionally
required to gain express consent before conceding the (defendant's guilt")];

People v. Cox, supra, 53 Cal.3d 618, 671 [" '[A] trial judge may safely assume
that a defendant, who is ably represented and who does not testify[,] is merely
exercising his Fifth Amendment privilege against self-incrimination and is abiding
by his counsel's trial strategy; otherwise, the judge would have to conduct a law
seminar prior to every criminal trial.' [Citation.]"].)
Here, as noted above, defendant had ample opportunity during the course of
three Marsden hearings to inform the court that he wished to testify, against the
advice and over the objection of defense counsel, even if defense counsel were

permitted to decline to present any other defense witnesses who would support
defendant's own testimony. In view of defense counsel's repeated efforts during
the Marsden hearings to inform the trial court of the conflicts that had arisen with
103

Petitioner's App. 14 - 378

his client, the trial court reasonably could have determined that had defendant told
his counsel that defendant insisted upon testifying despite the absence of any other
defense witnesses, his counsel would have conveyed that demand to the trial court.
. In view of the circumstance that counsel never told the trial court that defendant

had made such a demand, on this record we may not assume that defendant in fact
had insisted upon testifying even where no other defense witnesses would be
presented to support his testimony. (Compare People v. Robles, supra; 2 Cal.3d
205, 214-215 [a defendant has the right to testify in his or her own defense, over
counsel's objection, when the defendant insists upon being permitted to testify].)
Similarly, defendant's further contention that the trial court failed
adequately to inquire into his conflict with trial counsel similarly is belied by the
record before us. As noted above, the court conducted three Marsden hearings
during the course of the trial for the purpose of permitting the airing of the conflict
between defendant and his attorneys. During these hearings, defense counsel i'
brought to th.e court's attention defendant's dissatisfaction with counsel's trial.
strategy and tactics .. Although, at the hearing on the motion for new trial,
defendant testified that counsel had not informed the court at the July 5th and July
10th Marsden hearings of all the witnesses whom defendant wanted to call, we are
satisfied from the record before us that in the course of conducting three Marsden
hearings, the trial court adequately inquired as to the issues raised by the defense,
and that counsel fairly characterized the nature of the conflict for the trial court.
b. Failure to appoint new counsel
Defendant contends that in view of the conflict between him and his trial
counsel, the trial court was obligated to appoint new counsel, and the court's
failure to do so constitutes reversible error. As we have indicated in the
immediately preceding section, however, the record does not indicate that any
defense that defendant sought to present had "credible. evidentiary support"
(People v. Burton, supra, 48 Cal.3d 843, 857; People v.Jones.(1991) 53. Cal.3d.
1115, 1139; see also People v. Frierson, supra, 39 CaL3d,803, 815 [''.a,defendarit
104

Petitioner's App. 14 - 379

in a capital trial ... retain[ s] the right to have his only viable defense to the guilt or
special circumstance charges presented at the initial stage of the trial" (italics
added)].) In view of that circumstance, the trial court was under no obligation to
interrupt the trial proceedings to order the appointment of new counsel. We
therefore reject defendant's contention that the trial court erred in not appointing
new counsel upon learning of the conflict between defendant and his counsel
regarding trial tactics and strategy.
c. Motion for new trial

In view of defendant's foregoing contentions, but without additional
argument beyond what he has cited in support thereof, defendant asserts the trial
court committed reversible error in denying defendant's motion for a new trial. As
we previously have explained, however, defendant fails to persuade us that his
conflict with defense counsel over trial tactics and strategy (including the decision
whether defendant should testify), the trial court's inquiries into that conflict, or
the court's refusal to appoint new counsel prior to the conclusion of the penalty
phase, either singularly or in the aggregate, deprived defendant of his state or
federal constitutional rights. Having discerned no error in this regard, we
conclude the trial court properly denied defendant's motion for a new trial.

VI. PENALTY PHASE ISSUES
A. · The Admissibility of Evidence of Defendant's Attack on
Jennifer S.
Prior to the commencement of trial, defendant moved to exclude from the
penalty phase the evidence of (1) defendant's prior conviction for the Ventura
County sexual assault committed upon Jennifer S., and (2) the facts underlying
that conviction. Defendant asserted he was denied the effective assistance of
counsel. during the Ventura County proceedings, that but for counsel's deficient
performance he would have been acquitted in that case, and that therefore the

105

Petitioner's App. 14 - 380

Ventura County conviction and the facts underlying that conviction should be
excluded from the penalty phase.
At the hearing on defendant's motion, the prosecution conceded that
because the conviction had not occurred before the charged murders; it was not a
"prior" conviction within the meaning of section 190.3, subdivision (c), and thus
evidence of the conviction itself was not admissible under tha_t provision. (See
People v. Balderas (1985) 41 Cal.3d 144, 203.) Accordingly, the court granted

defendant's motion to exclude evidence of the conviction.
With regard to the direct evidence of defendant's attack upon Jennifer S.
underlying the conviction, however, the trial court denied defendant's motion.
Accordingly, as described earlier (ante, pp. 12-13), at the penalty phase the
prosecution introduced the testimony of Jennifer S. and other evidence relating to
defendant's brutal attack upon her.
On appeal, defendant renews his challenge to the trial court's ruling
denying his motion to exclude the evidence underlying the Ventura County·
conviction. He argues that had he not been represented ineffectively in Ventura
County, "he would have been acquitted of the charges there and the evidence
would not have been admissible against him here," relying on the portion of
section 190.3 providing that "in no event shall evidence of prior criminal activity
be admitted for an offense for which the defendant was prosecuted and acquitted."
(See People v. Sheldon (1989) 48 Cal.3d 935, 948-952.) Defendant points in
particular to the Ventura County prosecutor's assertedly improper reference to
defendant's failure to testify in that case (see Griffin v. California, supra, 380 U.S.
609), implicitly asserting that had defense counsel in those proceedings more
vigorously and effectively challenged the prosecutor's comments, the conviction
would not have been sustained.

106

Petitioner's App. 14 - 381

We conclude that defendant's contention lacks merit. To begin with, in the
prior proceeding both the trial court and the Court of Appeal explicitly rejected the
claim that the prosecutor's comments undermined the validity- of the conviction. 42
Furthermore, even if defendant nonetheless properly could challenge the prior
conviction on this ground at this point (an.issue we need not and do not decide),
and even if the error upon which defendant relies had been prejudicial, the very
most that defendant would have been entitled to would have been an order striking
the prior conviction for purposes of this proceeding, not the entry of an acquittal.
(See People v. Horton, supra, 11 Cal.4th at pp. 1126-1141.) Because, in any
event, as already noted, evidence of the conviction itself was not admitted in the
present case, defendant's challenge to the prosecutor's conduct in the Ventura
proceeding or to defense counsel's allegedly ineffective assistance in that
proceeding has no bearing upon the validity of the trial court's admission of
evidence of the conduct underlying the prior conviction.
With regard to that evidence, past cases make clear that the introduction of
evidence of the Ventura assault was proper under section 190.3, subdivision (b),
which authorizes the trier of fact at the penalty phase to consider "[t]he presence
or absence of criminal activity by the defendant which involved the use or
attempted use of force or violence or the express or implied threat to use force or
violence," whether such violent criminal conduct occurred prior to or after the
charged capital offense. (See, e.g., People v_ Avena, supra, 13 Cal.4th 394, 426428 [unlike prior felony convictions, evidence of violent conduct is admissible
even if it occurred after the capital crime]; People v. Clair (1992) 2 Cal.4th 629,
676-677 [possession of knife during burglary is sufficient to establish implied
Defense counsel in the Ventura proceedings moved for a mistrial based on
the prosecutor's improper comments, but the trial court denied the motion. On
appeal, the Court of Appeal, in an unpublished decision, affirmed defendant's
42

(foomote continued on next page)

107

Petitioner's App. 14 - 382

-

threat of force or violence]; People v. Miranda (1987) 44 Cal.3d 57, 97 [upholding
constitutionality of section 190.3, subd. (b)]; People v. Balderas, supra, 41 Cal.3d
144, 204-205 [evidence of other criminality, if proved beyond a reasonable doubt,
"is simply one factor the penalty phase jury is to consider in deciding the
appropriate punishment for the capital offense"].) No error appears.

B.

Adequacy of the Jury Instructions Given

Defendant raises a number of contentions related to the standard jury
instructions given by the trial court. As we shall see, none of these contentions
has merit.
First, defendant contends the standard California instructions "do not
adequately channel sentencing discretion by clear and objective standards that
provide specific and detailed guidance for the sentencing authority, resulting in
arbitrary and capricious sentencing decisions in violation of the Eighth
Amendment." We repeatedly have rejected similar claims. (See, e.g., People v.
Williams, supra, 16 Cal.4th 153, 267-268; People v. Osband, supra, 13 Cal.4th
i'

I

622, 702-703; People v. Sanders (1995) 11 Cal.4th 475, 563-564.) We are not
persuaded to reconsider those decisions.
Second, defendant contends that on the second day of the jury's penalty
deliberations, the trial court failed to respond adequately to two questions
submitted by the jury that sought guidance as to the meaning of the terms,
"extenuating," "mitigating," and "aggravating" circumstances, and that the failure
of the trial court to make an adequate record of its response deprived defendant of
his right to due process oflaw by denying him meaningful appellate review of the
proceedings. The jury's questions, submitted in a pair of notes signed by the jury

(footnote continued from previous page)

conviction, concluding "[t]his was not a close case," and that the Griffin error
"was harmless beyond a reasonable doubt."

108

Petitioner's App. 14 - 383

foreman, inquired: [l] "\Ve would like the legal definition of: extenuating[,]
mitigating[, and] aggrevating [sic]. [2] If a member of the jury finds that the
aggravating circumstances [are] greater than the mitigating circumstance·s, may the
juror vote for life? If a member of the jury finds that the mitigating circumstances
[are] greater than the aggravating circumstances, may the juror vote for death?"
With regard to the jury's request for definitions, the record is silent as to
how, if at all, the trial court responded.4 1 We find entirely speculative, however,
defendant's assertion that the jury's request that the trial court elaborate on certain
legal definitions "raises serious doubts about the reliability of the sentencing
process conducted here." Even if we infer from the record that the trial court,
either intentionally or inadvertently, ignored the jury's request for definitions of
the terms, ''extenuating," "mitigating," and "aggravating" circumstances, and did
not discuss the matter with counsel, any error (see§ 1138) was harmless, because
those terms did not require further definition.
As to the second note from the jury, the trial court answered "yes" and
"no," respectively. 42 The jury thereafter continued its deliberations and, without
submitting any further inquiries to the court, reached its verdict five days later.
Although the better practice would have been for the court ( or the parties) to
ensure that the proceedings responsive to the jury's questions were reported, on

41

The matter was discussed several years later when the parties attempted to
settle the record, prior to filing their briefs in this court. Defense counsel observed
at the record settlement hearing that although the Clerk's Transcript contains the
questions submitted by the jury, there is no corresponding Reporter's Transcript
indicating whether the trial comt discussed the questions with counsel. The
Reporter's Transcript for the date in question, August 2, 1989, indicates only that
"the jury retired for further deliberations."
At the record settlement hearing, the trial court recalled: "I am confident
that the jury was never brought out, that - I have some vague recollection, but I
could be in error-that we had contact with either [defense counsel] and we all
agreed that those were the correct answers."
42

109

Petitioner's App. 14 - 384

the record before us we are unable to discern any error in the trial court's handling
of the jury's inquiries. 43
Finally, defendant contends that because he was personally absent from
court when the jury submitted the foregoing inquiries (although his counsel was
present), reversal of the death judgment is mandated. Although defendant did not
waive his presence at any stage of the trial, his failure to demonstrate prejudice
from his absence at this stage of the proceedings forecloses his claim. (See People

v. Bradford, supra, 15 Cal.4th 1229, 1358.)
C.

Alleged Prosecutorial Misconduct

Defendant contends certain comments made by the prosecutor on eight
distinct occasions during closing argument constituted prejudicial misconduct in
violation of his rights under the Fifth, Sixth, Eighth, and Fourteenth Amendments
to the United States Constitution.
"Improper remarks by a prosecutor can ' "so infect[} the trial with
unfairness as to make the resulting conviction a denial of due process." ' (Darden

v. Wainwright(1986) 477 U.S. 168, 181 [106 S.Ct. 2464, 2471, 91 L.Ed.2d 144};
Donnelly v. DeChristoforo (1974) 416 U.S. 637,642 [94 S.Ct. 1868, 1871, 40
L.Ed.2d 431]; cf. People v. Hill (1998) 17 Cal.4th 800,819 [72 Cal.Rptr.2d 656,
952 P.2d 673}.) Under state law, a prosecutor who uses deceptive or reprehensible
methods to persuade either the court or the jury has committed misconduct, even if
such action does not render the trial fundamentally unfair. (People v. Hill, supra,
17 CaL4th atp. 819; People v. Benyman (1993) 6 Cal.4th 1048, 1072 [25 Cal.
Defendant contends that the inadequate record violates a panoply of
defendant's rights under the state and federal Constitutions. In the absence of any
showing by defendant that any matter not reported was of consequence and
prejudicial, defendant's claim lacks merit. (See People v, Alvarez, sup'rtz; 14 ·
Cal.4th 155, 196, fn, 8 ["The record on appealis inaclequate, however, <:mly·ifthe
complained-of deficiency is prejudicial to the defendant's ability to prosecute his
appeal. [Citation.] It is the defendant's burden to show prejudice of this sort."]:)
43

110

Petitioner's App. 14 - 385

Rptr.2d 867, 864 P.2d 40] (Berryman); People v. Price (1991) 1 Cal.4th 324, 447
[3 Cal.Rptr.2d 106, 821 P.2d 610] (Price).)
"Nevertheless, as a general rule, to preserve a claim of prosecutorial
misconduct, the defense must make a timely objection and request an admonition
to cure any harm. The rule applies to capital cases. (Berryman, supra, 6 Cal.4th
atp. 1072 [rejecting defendant's claim ofprosecutorial misconduct both for failure
to object or request admonition at trial[,] and on the merits]; Price, supra, l
Cal.4th at pp. 447, 460-462 [declining to address whether prosecutors committed
misconduct[,] because defense did not object at trial]; People v. Monteil (1993) 5
Cal.4th 877, 914 [21 Cal.Rptr.2d 705, 855 P.2d 1277 (Montei[) [although trial
counsel objected to prosecutor's remarks at trial, the failure to request admonition
failed to presenre claim of prosecutorial misconduct on appeal].)" (People v. Frye
(1998) 18 Cal.4th 894, 969-970; see also People v. Ochoa, supra, 19 Cal.4th 353,
427.)
. With regard to seven of the eight instances of alleged prosecutorial
misconduct, defense counsel did not object when the comments were made.
Further, the record before us fails to disclose a basis for applying any exception to
the general rule requiring both an objection and a request for a curative instruction.
(See People v. Frye, supra, 18 Cal.4th at p. 970.) Accordingly, insofar as
defendant's claim of prosecutorial misconduct relates to comments that were not
objected to, the claim is barred. (Ibid.)
The instance in which an objection to the purported misconduct was
interposed consisted of the prosecutor arguing to the jury: "What kind of a man
does things like this? Well, the defense has tried to tell you what kind of a man,
and they have not told you very much. They have had, as any criminal defendant
facing the nature of these charges, a great deal of time to find people, to call them.
Virtually unlimited money-" At that point, defense counsel objected. The trial
court ruled: "The objection is sustained as [to] monetary [sic]."

111

Petitioner's App. 14 - 386

On appeal, defendant contends that although the trial court sustained his
objection, defendant did not seek an admonition because to do so "would have
been futile and not cured the prejudice." We disagree. Defendant's objection
having been sustained, defendant bore the burden of seeking a curative admonition
from the court. He refrairn:id from doing so. Although defendant asserts here that
such corrective action would have been pointless, his argumept is unpersuasive.
The prosecutor's reference to money was fragmentary and ambiguous. It appears
likely that the reference had minimal potential effect upon the jurors. Whatever
potential for harm arose from the prosecutor's remark was assuaged by the court's
ruling and certainly was capable of elimination by means of an admonition, had
one been requested.
Moreover, the prosecutor's brief remark was fleeting and of marginal
significance. The trial court's ruling alerted the jury to the inappropriate nature of
the comment. In addition, the prosecutor's other comments -

about which

defendant has waived his right to complain based upon .his failure to object
below-came within the bounds of fair comment or at most constituted trivial
improprieties. Under these circumstances, and in view of the nature of
defendant's crimes, we conclude that any possible error was harmless, because
defendant has failed to establish "a reasonable likelihood the jury understood or
applied the complained-of statements in an improper or erroneous manner."
(People v. Frye, supra, 18 Cal.4th 894, 970.)44

44
Defendant includes in his claim of prosecutorial misconduct at the penalty
phase a similar claim of prosecutorial misconduct at the guilt phase. With respect
to defendant's asserted claims of error directed at the prosecution's closing
argument at the guilt phase, defendant did not interpose a single objection. As we
have explained ante, because defendant failed to object the trial court did not act
to cure any purported harm through admonition. Defendant's failure to assert ·a;
timely objection and request such an admonition constitutes a failure to preserye;
the claim on appeal. (People v. Ochoa, supra, 19 Cal.4th 353,427; People v." ·
Frye, supra, 18 Cal. 4th 894, 969-970.} ..

112

Petitioner's App. 14 - 387

D.

Motion for New Trial Based on Alleged Juror Misconduct

Prior to sentencing, defendant moved for a new trial on various grounds
.

.

that already have been discussed. (See ante, pp. 99-105.) At the hearing on the
motion, defendant orally conveyed an additional ground upon which he urged the
trial court to grant his motion, juror misconduct. Defense coun.sel contended:
"The basis of the allegation is that there may have been perjury committed by
[Juror K.] in the questionnaire she completed for the court and counsel.
Specifically Question 61 which says: 'Have you ever been in a situation where
you feared being hurt or being killed as a result of violence of any sort?' Answer
was: 'No.'" The defense argued that Juror K., who was 31 years of age when she·
completed the juror questionnaire, feared being raped, slept with a knife under her
bed, and therefore committed perjury when she responded in the negative to
Question 61. The defense added that Juror K. communicated her concealed fear to
JurorC-M.
The prosecutor argued that the issue raised by Question 61 "is directed
toward a specific instance" and did not apply to the "general fear" on the part of
Juror K. noted by defense counsel, adding that there was no evidence before the
court of any misconduct. The trial court voiced some misgivings over the
defense's claim, observing: "I think we all fear violence[-] [I]f we don't, then
there is something wrong with us, I imagine," butpermitted defense counsel to
question Juror K., as set forth below.45
45

"Counsel:
Ma'am, you were ajuror in this case?
"JurorK.:
Yes.
"Counsel:
On March 20th, 1989, do you remember filling out a
questionnaire, it is about 18 pages, signed under penalty of perjury?
"JurorK.:
Yes.
·"Counsel:
Prior to that time, did you ever sleep with a knife under your
bed?
"JurorK.:
Prior to what time?
"Counsel:
Prior to March 20th, 1989, did you ever sleep with a knife
(footnote continued on next page)

113

Petitioner's App. 14 - 388

(footnote continued from previous page)

under your bed?
"Juror K.:
At one time.
"Counsel:
Why did you do that?
Juror K.:
I got an apartment for the first time when I was - I can't .
even remember-18 or 19, and I lived by myself, and prior to that time, I had
never been alone and, after I first moved in, every little creak in my house, and
tree branch, or whatever, I was paranoid for a short period of somebody breaking
in, or whatever, because there is no one else around as my parents, or roommates
at school, or whatever, and I think the incident you are referring to, one night I
woke up, could not go to sleep, and I said, well, if anything does happen, I am
going to defend myself, so I went into my kitchen. I got a knife, and I put it
between my mattresses, and I then- that didn't help, so I spent the entire night
up still, and I don't know exactly when, but I can tell you I probably got up the
next morning and thought how silly and put it back. It was very brief and that was

it.
"Counsel:
Did you fear any particular kind of crime being committed?
"Juror K.:
Well, somebody breaking in and, you know, raping and
murdering, you know 18 years old ".Counsel:
Had there been anythjng in the community that you had read
about"Juror K:
No.
- that contributed to that fear?
"Counsel:
"Juror K.:
No.
Counsel:
Was this when you were living in Pasadena?
Juror K.:
Yes, that is where I had my first apartment.
"Counsel:
And did you ever tell anybody that you feared the fact that
there had been rapes in the Pasadena community?
Juror K.:
No, I don't know that I was aware of a lot of that happening.
"Counsel:
Had you ever been burglarized prior to that time?
Juror K.:
No.
"Counsel:
Did you fear any- well, have you ever been in a situation
where you feared any kind of violence?
"Juror K.:
Are you referring to that particular time or moment?
"Counsel:
Any time. Any time prior to March 20th?
"Juror K.:
No, no, not really.
.
"Counsel: · So the time that you put the knife under your bed; you di.dn't
fear any particular violence "' ·
"[Objection sustained.]
(footnote continued on next page)

114

Petitioner's App. 14 - 389

After hearing further argument from the parties, the trial court without
comment denied the motion for new trial.
On appeal, defendant contends that Juror K. "intentionally concealed her
direct experience in voir dire and her questionnaire responses," in contravention of
defendant's rights under the United States and California Constitutions "to [an]
impartial and unbiased jury, due process, fair trial, present a defense,
determination based on material facts and evidence at trial, and to death eligibility
and reliable determinations of guilt and penalty." Defendant asserts that in view
of the charges filed against defendant (including burglary, rape, and murder), Juror

K. 's testimony- "revealing fears of being victim to the very crimes at issue in
[defendant's] case" -

must be presumed to establish prejudicial concealment in

the absence of affirmative and competent rebuttal, citing In re Stankewitz (1985)
40 Cal.3d 391,402, People v. Pierce (1979) 24 Cal.3d (1979) 199,207, and Dyer

v. Calderon (9th Cir. 1988) 151 F.3d 970,973, fn. 2).
In response, the People contend that the court's ruling "necessarily rested
on implied findings that Juror K. did not conceal the information, and/or that it
was not material, and/or that any concealment was not deliberate, and/or that
(footnote continued from previous page)

"Counsel:
Did you consider the time that you put the knife under your
bed as being a situation where you feared violence[?]
"Juror K.:
I had trouble sleeping because of noises going on, or
whatever, and it was all in my imagination. Like I said, I probably got up in the
morning and thought how silly and, quite frankly, I hadn't and haven't thought
about that incident at all for the last 12 years.
"Counsel:
In you[r] mind, isn't that a situation where you feared
violence against you "[Objection overruled.]
"Juror K.:
That night?
"Counsel:
Yes.
"Juror K.:
Yes.
"Counsel:
Thank you."

115

Petitioner's App. 14 - 390

Juror K. had no actual bias against appellant." The People further contend that the
present case is unlike those relied upon by defendant.
Both parties refer to other answers provided by Juror K. on the
questionnaire: Question 57 asked, "Have you or anyone close to you been-the
victim of a crime, reported or umeported?" to which Juror K. answered
affirmatively, indicating that she been the victim of burglaries in San Jose,
Pasadena, and West Lost Angeles. Question No. 71 asked, "Any other
comments?" to which Juror K. responded, "[E]veryone has feares [sic]+ you don't
know what will happen in the next minute."

In previous decisions, we have reviewed at some length the principles that
guide our examination of a claim of juror misconduct during voir dire. (See, e.g.,

In re Carpenter (1995) 9 Cal.4th 634, 646-660; In re Hitchings (1993) 6 Cal.4th
97, 110-123.) We need not reiterate here those extensive discussions; suffice it to
say for present purposes that ''.juror misconduct involving the concealment .of . ,
material information on voir dire raises the presumption of prejudice," and that
"[t]his presumption of prejudice '"may be rebutted by an affirmative evidentiary
showing that prejudice does not exist or by a reviewing court's examination of the
entire record to determine whether there is a reasonable probability of actual harm
to the complaining party [resulting from the misconduct] .... "' Citations.]" (In

re Hitchings, supra, at p. 119; see also Dyer v. Calderon, supra, 151 F.3d 970,
973, fn. 2 ["The presence of a biased juror cannot be harmless; the error requires a
new trial without a showing of actual prejudice."].)
Applying the foregoing standards, it is clear that Juror K. 's failure to
answer Question 61 more completely did not constitute misconduct and, even if
we were to assume that misconduct did occur, the presumption of prejudice was
rebutted by the substance of her testimony at the hearing on defendant's motion
for new trial. Assuming, for the sake of argument, that defendant is coi:rect in
asserting that Juror K.'s answer to Question No. 61 was inaccurate, her statement

116

Petitioner's App. 14 - 391

at the hearing that "I hadn't and haven't thought about that incident at all for the
last 12 years" diminished if not dispelled its potential significance. 46
Further, even if Juror K. in fact had concealed the information, the
circumstances that the incident was "very brief' and occurred more than a decade
earlier, and that Juror K. realized because she had been burglarized that "everyone
has feares" [sic], established that the omitted information was immaterial to her
overaII qualifications or suitability to serve as a juror. Those qualifications clearly
were established in the course of counsel's voir dire. 47

.

Moreover, even ifwe were to assume Juror K.'s answer to Question No. 61
was inaccurate, evasive, and material, the circumstance that as a teenager living
alone for the first time, Juror K. was "paranoid for a short period of someone

46
Because the issue is not germane to the resolution of the issues presented
here, we need not and do not have occasion to address the question whether a
juror's concealment of information must be intentional. (See In re Hitchings,
supra, 6 Cal.4th 97, 114-116 [declining to answer the question]; Weathers v.
Kaiser Foundation Hospitals (1971) 5 Cal.3d 98, 110, :fn. 5 [same]; compare
People v. Diaz (1984) 152 Cal.App.3d 926, 932 [concealment need not be
intentional], People v. Blackwell (1987) 191 Cal.App.3d 925,929 [same] with
People v. Kelly (1986) 185 Cal.App.3d 118-125-128 [disagreeing with Diaz], and
People v. Jackson (1985) 168 Cal.App.3d 700, 704-706 [same]; see also
McDonough Power Equip. v. Greenwood (1984) 464 U.S. 548, 555-556 [an
honest yet mistaken answer to a question on voir dire rarely amounts to a
constitutional violation, and even an intentionally dishonest answer is not fatal
provided that the falsehood does not reflect a lack of impartiality].)

During voir dire examination, Juror K. also made a few passing references
to convicted murderer Charles Manson, indicating that she believed he would have
been an individual eligible to receive the death penalty. On appeal, defendant
contends that Juror K. 's "voir dire answers take on even greater significance when
read with her concealed fears" and with "[w ]hatever else may be said about Juror
[K.]'s fears of Charles Manson." Our review of the record indicates there is no
basis for concluding that Juror K.' s brief references to Manson are supportive of
defendant's position. Moreover, both the prosecutor and defense counsel took the
opportunity to ask follow-up questions on voir dire regarding Juror K.'s
knowledge of the Manson case.

47

117

Petitioner's App. 14 - 392

breaking in," leading her to keep a kitchen knife in close proximity overnight,
does not provide any basis for concluding that she harbored undisclosed juror bias.
Accordingly, the presumption of prejudice was rebutted. 48
We further note defendant's misplaced reliance upon our decisions in In re

Stankewitz, supra, 40 Cal.3d 391, and People v. Pierce, supra, 24 Cal.3d 199, and
the United States Court of Appeals' decision in Dyer v. Cald~ron, supra, 151 F.3d
970. 1n Stankewitz, the petitioner successfully sought a writ of habeas corpus
following his conviction of first degree murder, alleging he was denied a fair trial
because one of the jurors, a police officer, had violated the court's instructions and
" 'consulted' his own outside experience as a police officer on a question of law"
as to when a robbery takes place. (40 Cal.3d at p. 399 .) We characterized the
juror's determination as being "totally wrong," and concluded that because the
juror "stated it again and again to his fellow jurors [he] thus committed overt
misconduct." (40 Cal.3d at pp. 399"400, fn. omitted.) In Pierce, the defendant
obtained a reversal of his. conviction for second degree murder upon the ground of
juror misconduct, because one of the jurors had ignored the court's repeated
admonitions not to discuss the case with third persons by discussing the
proceedings during the course of the trial with a police officer acquaintance who
had testified as a prosecution witness in the case. (24 Cal.3d at p. 209.) In Dyer,
in which the court reversed a first degree murder conviction, a juror answered
"no" to questions asking whether a relative or close friend ever had been a victim
of any type of crime or had been accused of any offense other than a traffic

48
With regard to defendant's related claim of misconduct arising from
Juror K.'s reportedly having told Juror C-M. of her concealed fears, we observe
that the record on appeal does not indicate what Juror K said to the other juror and
when she said it. Defense counsel had the opportunity to call Juror· C-M. at the '
hearing on defendant's motion fot new trial, but did not do so. The record before
us thus provides no basis for concluding that prejudicial misconduct occurred, and
the claim therefore fails.
· ·· , ·: .:.,,

Il8
Petitioner's App. 14 - 393

offense, notwithstanding the circumstance that the juror's brother had been.
murdered and her estranged husband had been arrested for rape. None of these
decisions, involving egregious transgressions in derogation of the jurors' o.aths, is
remotely apposite to the misconduct alleged to have occurred here.
" 'The determination of a motion for a new trial rests so completely within
the court's discretion that its action will not be disturbec;l llcnless a manifest and
unmistakable abuse of discretion clearly appears.'" (People v. Williams (1988) 45
Cal.3d 1268, 1318 [rejecting a claim of juror misconduct based upon allegations
that during a capital trial a juror consumed tranquilizers and engaged in a
discussion regarding "the religious aspects of the penalty phase"].) Our review of·
the relevant portions of the record described above leads us to conclude that the
trial court properly denied defendant's motion for a new trial based upon alleged
juror misconduct. We agree with that court's implied finding that Juror K.'s fear
of an intruder more than a decade earlier was highly unlikely to have influenced
her role as a juror. Defendant's assertions to the contrary lack support and thus are
unpersuasive. No abuse of discretion by the trial court occurred.

E.

Section 190.4, subd. (e) Motion

Approximately five months after the jury returned its penalty phase
verdicts, the court considered defendant's automatic motion for modification of
the death sentence. At a hearing, the court stated that it had reviewed the evidence
introduced at trial, found the jury's verdicts as to guilt and its findings as to special
circumstances to be supported by the weight of the evidence, considered the
factors in aggravation and mitigation as set forth in section 190.3, and concluded
that "the aggravating circumstances substantially outweigh[ ed] the mitigating
circumstances." The court on that basis denied defendant's application for
modification of the death sentence.
On appeal, defendant contends the trial court improperly denied the motion,
because (1) prior to ruling on the motion, the court considered other-crimes

119

Petitioner's App. 14 - 394

evidence introduced at the guilt phase of trial (notably the deaths of Tok Kim and
Janette Cullins), and (2) following the hearing on the motion to modify but prior to
imposing the death judgment, the court considered victim-impact statements.
Defendant's position is without merit.
" 'In ruling on a verdict-modification application, the trial judge is required
by section 190.4(e) to "make an independent determination whether imposition of
the death penalty upon the defendant ·is proper iii light of the relevant evidence and
the applicable law." [Citations.] That is to say, he must determine whether the
jury's decision that death is appropriate under all the circumstances is adequately
supported. [Citation.] And he must make that determination independently, i.e.,
in accordance with the weight he himself believes the evidence deserves.'·

(People v. Marshall [1990] 50 Cal.3d [907,] 942.)
"On appeal, we subject a ruling on such an application to independent
review: the decision resolves a mixed question oflaw and fact; a determination of
this kind is generally examined de novo [Citation}. Of course; when we conduct
such scrutiny, we simply review the trial court's determination after independently
considering the record; we do not make a de novo determination of penalty."

(People v. Mickey, supra, 54 Cal.3d 612, 703-704; see also People v. Jones (1997)
15 Cal.4th 119, 191 [same].)
Defendant contends initially that the trial court improperly considered the
"other-crimes" evidence involving the deaths of Tok Kim and Janette Cullins in a
light different from that considered by the jury -that is, the jury may have
considered the evidence in the context of establishing intent, identity, or common
plan, whereas the trial court at the section 190.4, subdivision (e) hearing
considered the Kim and Cullins evidence in aggravation. As the People point out,
however, the trial court was entitled to consider the Kim and Cullins evidence flS a
factor in aggravation under the category of criminal activity involving the use of
force or violence. (§ 190.3, subd. (b).) In any event, any error in this reg_ard .·
clearly would have been nonprejudicial, because the court's comments in
120

Petitioner's App. 14 - 395

extensively reviewing the list of aggravating and mitigating evidence and finding
that the circumstances-in aggravation "substantially outw_eigh[ed]" the
circumstances in mitigation make clear that there is no reasonable possibility that
such an error would have affected the trial court's denial of the application for
modification of the death sentence.
With regard to defendant's claim pertaining to improper reliance by the trial
court upon victim-impact evidence, we perceive no error. The court heard and
denied defendant's application for modification of 1he death sentence on
January 11, 1990. No victim-impact statements were made in connection with that
motion. Although the record contains 12 letters (either undated or bearing 1989
dates) written by family and friends of the victims Knoll, Mills, and Guthrie
generally expressing extreme anger, loss, and sadness, the record does not indicate
that the court considered any of these statements prior to denying the application
for modification of defendant's death sentence. 49 On January 30, 1990,
immediately prior to the court's imposition of the judgment of death, it heard
similar statements made by Jillette Mills' smother, Sue Ann Mills, Bonnie
Guthrie's sister, Jennifer Bollman, and Susan Knoll's sister, Sandra Pender.
Defendant assigns error to the court's consideration of the statements
submitted by 1he victims' family members and friends. His contention fails for
two reasons. First, he failed to object to the statements in question and therefore
forfeited appellate review of this claim. (People v. Ramos (1997) 15 Cal.4th 1133,
1183; People v. Hill (1992) 3 Cal.4th 959, 1013.)

The People assert that the letters were received by the court on January 30,
1990, the date the court entered the judgment of death, but do not include a
reference to the record, which does not indicate whether the letters in fact were
received on that date. In his Reply Brief,-however, defendant does not challenge
the People's reference to January 30, 1990, as the date on which the court received
the letters.
49

121

Petitioner's App. 14 - 396

Second, defendant's claim fails on the merits. We previously have rejected
similar contentions that Booth v. Maryland (1987) 48_2 U.S. 496, prohibiting
victim impact statements, extends to proceedings under section 190.4, subdivision
(e). (People v. Ramos, supra, 15 Cal.4th at p. 1184; People v. Benson, supra, 52
Cal.3d 754, 812; cf. Payne v. Tennessee (1991) 501 U.S. 808, 830 and fn. 2,
overruling Booth v. Maryland, supra, 482 U.S. 496.) Nevertheless, we also have
observed that "the scope of a modification motion does not encompass statements
of the victim's relatives or any other evidence not presented to the jury during the
penalty phase trial. [Citations.]" (People v. Ramos, supra, 15 Cal.4th at p. 1184.)
Here, however, the record is clear that in denying defendant's application to
modify the death sentence, the trial court relied solely upon the evidence presented
to the jury and was guided by the factors enumerated in section 190.3; as indicated
above, the three oral statements now challenged by defendant were made
approximately three weeks after the court denied the application, and nothing in
the record indicates that the trial court considered the letters at any time: Thus, the
record before us provides no basis for concluding that the trial court in ruling on
the application improperly considered any matter that was not placed before the
jury.so

_F.

Cumulative Error

Defendant contends that the cumulative effect of the asserted errors
committed at his trial led to a miscarriage of justice, requiring reversal of the guilt
and penalty phase judgments. Having determined that defendant's trial was nearly
devoid of any error, and that to the extent any error was committed it was clearly
so
Nor do we find any merit in defendant's claim that the trial court
improperly admitted "prejudicial victim-impact evidence" in the forn:1 ofthe'
victims' family members' identification of items ofperscmal property recovered
frorri the vehicle driven by defendant at the time of his attest. This testimon:y · · ,
···
·
properly was admitted. (See ante, pp. 55-64.)

· 122

Petitioner's App. 14 - 397

harmless, we conclude that defendant's contention as to cumulative error lacks
merit.

G.

The Delay Between Imposition of Sentence and Execution

Defendant was sentenced to death on January 30, 1990, and counsel was·
·appointed to pursue his automatic appeal more than four years later, on March 18,
1994. Defendant contends that the passage of this period of time, in addition to
the approximately eleven years that have elapsed since then (during which time
defendant has pursued his automatic appeal and claims on habeas corpus in state
and federal court), are "largely the result of inadequate resources provided by the
state to review death verdicts, and the complexity ofreview mandated by past
abuses." Defendant contends that in view of these asserted circumstances, the
judicial process compels him "to endure the uncertainty and ever-present tension
on death row for such an extended period of time constitut[ing] cruel and unusual
punishment in violation of the Eighth Amendment .... " (Ibid.) (See Lackey v.
Texas 1995) 514 U.S. 1045 [memo. opn. on den. of cert. by Stevens, J., observing
that neither retribution nor deterrence is served when prisoners serve 17 years
under a sentence of death].)
Defendant's contention resembles a claim that we declined to address in
People v. Barnett (1998) 17 Cal.4th 1044, 1182-1183. As we explained in
Barnett, "[b]ecause defendant's claim is dependent upon evidence and matters not
reflected in the record on appeal, we decline to consider it at this juncture." (Id., at
p. 1183.) For similar reasons, we decline to address defendant's claim.

H.

Use of Lethal Injection

Defendant contends the use oflethal injection as a method of execution
constitutes cruel and unusual punishment and on that basis is unconstitutional. We
previously have rejected the identical claim (see, e.g., People v. Samayoa, supra,

123

Petitioner's App. 14 - 398

15 Cal.4th 795, 864; People v. Holt (1997) 15 Cal.4th 619, 702), and defendant
fails to present any reason for us to reconsider our prior decisions. We therefore
reject defendant's contention.
DISPOSITION
The judgment is affirmed in its entirety..
GEORGE, C. J.
WE CONCUR:

KENNARD,J.
BAXTER,J.
WERDEGAR, J.
CHIN, J.
MORENO,J.

124

Petitioner's App. 14 - 399

See next page for addresses and telephone numbers for counsel who argued in Supreme Court.
Name of Opinion People v. Carter

Unpublished Opinion
Original Appeal XXX
Original Proceeding
· Review Granted
Rehearing Granted

Opinion No. S014021
Date Filed: August 15_, 2005

Court: Superior
County: Los Angeles
Judge: Robert W. Thomas

Attorneys for Appellant:
Phillip H. Cherney, under appointment by the Supreme Court, for Defendant and Appellant.

Attorneys for Respondent:
Bill Lockyer, Attorney General, David P. Druliner, Chief Assistant Attorney General, Gary W. Schons,
Assistant Attorney General, William M. Wood, Carl H. Horst and Jeffrey J. Koch, Deputy Attorneys
General, for Plaintiff and Respondent.

Petitioner's App. 14 - 400

Counsel who argued in Supreme Court {not intended for publication with opinion):
Phillip H. Cherney
214 South Johoson Street
Visalia, CA 93291
(559) 732-6852
Jeffrey J. Koch
Deputy Attorney General
110 West A Street. Suite I 100
San Diego, CA 92 IO I
(619) 645-2213

-,:-;;;,

-1

;\~;,.Wj .

:;:~ ;;h,

i";:;,('_).

-,: !2!
C<t;
r·; iitl

,:;:c,
;-,J

Petitioner's App. 14 - 401

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-3

Page: 282 of 298
(637 of 1584)

SUPERIOR COURT OF THE STATE OF CALIFORNIA

1

FOR THE COUNTY OF LOS ANGELES

•en

DEPARTMENT WEST

HON. ROBERT W. THOMAS, JUDGE

THE PEOPLE OF THE STATE OF CALIFORNIA,
PLAINTIFF,

vs.

)
)
)
)
)

)
)

DEAN PHILLIP CARTER,

NO. A 089330
.

VOLUME 42

)
)

DEFENDANT. )
________________________________________

REPORTER'S DAILY TRANSCRIPT
WEDNESDAY, JULY 5, 1989
PAGES 5033 TO 5113, INCL.
APPEARANCES:
FOR THE PLAINTIFF:

IRA REINER, DISTRICT ATTORNEY
BY: MARSH GOLDSTEIN, DEPUTY
18-709 CRIMINAL COURTS BUILDING
210 WEST TEMPLE STREET
90012
LOS ANGELES, CALIFORNIA
458-53 51
( 213)

FOR THE DEFENDANT:

HOWARD W. GILLINGHAM
SUITE 105
437Q TUJUNGA AVENUE
NORTH HOLLYWOOD, CALIFORNIA
(818) 763-4775

-AND-

MARCIA ANN MORRISSEY
SUITE 940
4929 WILSHIRE BOULEVARD
LOS ANGELES, CALIFORNIA

91604

90010

( 213) 933-87 99

2

JANET BILYEU, CSR 13223
OFFICIAL REPORTER

Petitioner's App. 15 - 402

ER 474

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-3

Page: 293 of 298
(648 of 1584)
5092

~

1

(THE COURTROOM WAS CLEARED.

2

ARE THE COURT, COURT REPORTER, CLERK,

3

TWO BAILIFFS, MR. GILLINGHAM, MS. MORRISSEY,

4

THE DEFENDANT, AND LAW CLERK TO MR.

5

GILLINGHAM.

PRESENT

)

6
7

THE COURT:

THE RECORD SHOULD REFLECT THAT THERE

8

ARE NO REPRESENTATIVES OF THE PROSECUTION NOR ANY

9

SPECTATORS REMAINING IN THE COURTROOM.

10

MR. GILLINGHAM:

11

YES, YOUR HONOR.

THANK YOU.

YOUR HONOR, THE -- I JUST FEEL THAT WE SHOULD

12

SPREAD SOMETHING ON THE RECORD REGARDING THE DEFENSE

13

STRATEGY AND POSITION.

14

ONE, IT IS MISS MORRISSEY'S AND MYSELF -- OUR

15

FIRM BELIEF THAT WE SHOULD REST AT THIS TIME.

16

TO DO THAT.

17
18
19

WE INTEND

MR. CARTER EMPHATICALLY DISAGREES WITH THAT
STRATEGY.
IF I MIGHT JUST BRIEFLY, THERE WERE POTENTIAL

20

WITNESSES THAT COULD HAVE BEEN CALLED.

21

GENTLEMAN REGARDING OAKLAND, MR. EDDIS JEFFRIES, WHO WOULD

22

HAVE TESTIFIED OR COULD TESTIFY AS WE UNDERSTAND IT THAT

23

MR. CAR~ER WAS SEEN LEAVING THE OAKLAND ADDRESS SEVERAL

24

HOURS BEFORE THE OAKLAND MURDER COULD HAVE HAPPENED.

25

THERE IS A

THERE ARE WITNESSES THAT COULD HAVE BEEN

26

CALLED CONCERNING MR. BLEVINS AND PERHAPS, PUTTING IT IN A

27

MORE APPROPRIATE CONTEXT, THE EXTENT OF THE .DISAGREEMENTS

28

THAT HE HAD WITH THE VICTIM KIM.

Petitioner's App. 15 - 403

ER 485

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-3

Page: 294 of 298
(649 of 1584)
5093

1

L

THERE IS A MR. WILLIAM SCHROLL -- I BELIEVE

2

IT'S s-c-H-R-0-L-L, AND I'VE FORGOTTEN WHAT MR. SCHROLL

3

WOULD

4

(A DISCUSSION WAS HELD BETWEEN

5

DEFENSE COUNSEL, NOT REPORTED.)

6

7
8

9
10
11

MR. GILLINGHAM:

I'M SORRY, YOUR HONOR.

I COULDN'T

READ MY NOTES.
MR. SCHROLL WOULD CONCEIVABLY TESTIFY AS TO
THE RELATIONSHIP WITH BLEVINS -- MR. BLEVINS AND MS. KIM.
CONCERNING CULVER CITY, DEALING WITH THESE

12

GEOGRAPHICALLY -- THERE IS A POLICE OFFICER, MR. BLOOR --

13

I BELIEVE IT'S B-L-0-0-R -- WHO WOULD TESTIFY, WE BELIEVE,

14

BASED ON REPORTS -- AND, INCIDENTALLY, ALL OF THESE

15

STATEMENTS ARE BASED ON REPORTS THAT WE'VE RECEIVED DURING

16

DISCOVERY FROM THE PROSECUTION, WHO WOULD TESTIFY THAT MR.

17

RON TULIO WAS SEEN IN THE IMMEDIATE AREA DURING THE

18

IMMEDIATE TIME THAT THE MURDERS OCCURRED IN CULVER CITY.

19
20
21

THERE WOULD BE NEIGHBORS WHO COULD
CONCEIVABLY TESTIFY TO THE SEEING MR. TULIO.
THERE ARE WITNESSES IN THE SAN DIEGO AREA,

22

AMONG WHICH IS A MS. CARVILLE, C-A-R-V-I-L-L-E, WHO LIVED

23

BELOW-~ WHO LIVED BELOW MISS CULLINS AND WOULD TESTIFY,

24

AS WE UNDERSTAND IT FROM REPORTS, THAT SHE NEVER HEARD

25

ANYTHING, NO OUTSTANDING NOISES, ET CETERA.

26

THERE WAS A MR. MOSES WHO WOULD TESTIFY THAT

27

HE SAW SOMEONE GO TO A CAR.

28

ON THAT LACK OF IDENTIFICATION; THAT IS, HE SAYS THAT IT

AND MY UNDERSTANDING IS BASED

Petitioner's App. 15 - 404

ER 486

Case: 13-99003

L.

04/03/2014

ID: 9045913

DktEntry: 15-3

Page: 295 of 298
(650 of 1584)

1

WAS NOT MR. CARTER.

2

PLACING SOME OTHER PERSON GOING TO THE CAR.

3

HE CONCEIVABLY COULD BE A WITNESS

WE HAVE UTILIZED A PATHOLOGIST AND A

4

CRIMINALIST, AND THERE COULD BE TESTIMONY BY OUR

5

CRIMINALIST TO SAY THAT THERE WAS NO SEXUAL ASSAULT IN SAN

6

DIEGO.

7

REGARDING MISS GUTHRIE, THAT HER INJURIES, IF YOU WILL, AS

8

DESCRIBED BY THE WITNESS THAT TESTIFIED WERE AS CONSISTENT

9

WITH CONSENSUAL SEX AS NOT, AND SO THAT THAT WOULD PERHAPS

14

10

AND OUR PATHOLOGIST WOULD BE ABLE TO TESTIFY

ATTACK SPECIAL CIRCUMSTANCES.

11

12

IT IS OUR TACTICAL DECISION NOT TO CALL THOSE
WITNESSES.

13

MR. CARTER EMPHATICALLY, AND I UNDERSTAND,

14

DISAGREES WITH THAT DECISION.

15

THAT ON THE RECORD, ANO WE DO SO.

16

THE COURT:

WASN'T THERE A SUPREME COURT CASE THAT

17

TOUCHED ON THIS ISSUE?

18

MR. GILLINGHAM:

19

20

AND HE WANTED US TO SPREAD

WELL, THERE ARE LOTS OF CASES

THAT
THE COURT:

WELL, THIS WAS -- I CAN'T REMEMBER

21

EXACTLY WHEN -- THE FORMER SUPREME COURT, TALKING ABOUT

22

WHEN DEFENDANTS INSISTED UPON A PARTICULAR DEFENSE --

23

M-R. GILLINGHAM:

WELL, I DON'T KNOW ABOUT THAT.

24

BUT MY VIEW CERTAINLY IS THAT IN A CAPITAL CASE THAT THE

25

LAWYER AND LAWYERS APPOINTED, ASSUMING SOME SEMBLANCE OF

26

COMPETANCE, CALL THE SHOTS AND SHOULD CALL THE SHOTS.

27

28

AND I THINK THERE IS A LINE OF CASES,
INCLUDING DEERE, D-E-E-R-E, WHICH INDICATES THAT COUNSEL

Petitioner's App. 15 - 405

ER 487

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-3

Page: 296 of 298
(651 of 1584)
5095

L

1

IS THE ONE THAT MAKES THE CRITICAL DECISIONS, FOR EXAMPLE,

2

AT PENALTY PHASE.

3

AND, IF THERE IS SUCH A CASE, I WOULD SUGGEST

4

THAT IT'S A CONFLICT IN THE LAW, IF YOU WILL.

5

CONFLICT IN SUPREME COURTS EVEN, BUT --

6

THE COURT:

I WOULD AGREE WITH YOU.

PERHAPS A

AND IT JUST

7

CAME TO MIND -- IT HAPPENED DURING ANOTHER TRIAL WE

8

HANDLED.

9
10
11

CREATED A REAL DILEMMA FOR DEFENSE COUNSEL.
OKAY.
ANYTHING FURTHER?

MR. GILLINGHAM:

NOTHING FURTHER.

12

WHOOPS.

13

MR. CARTER JUST MENTIONED TO ME THE

14
15

JUST A MOMENT.

POSSIBILITY OF OTHER WITNESSES.
I MEAN, THERE ARE IN THE REPORTS, AND I THINK

16

I COULD REPRESENT GENERALLY SPEAKING -- THERE ARE

17

WITNESSES HERE AND THERE WHO WOULD BRING SOME

18

CONTRADICTION OR CONTRASTING TESTIMONY.

19

PURDY, P-U-R-D-Y, WHO AT THIS VERY MOMENi, IT HAD NOT

20

OCCURRED TO ME WHICH WITNESS THAT WAS.

21
22

HE MENTIONS A MR.

CULVER CITY, MISS MORRISSEY SAYS -- MAY I
HAVE JUST A MOMENT WITH MISS MORRISSEY?

23

T--HE COURT:

24

MR. GILLINGHAM:

YES.
I MEANT TO MENTION, AND MISS

25

MORRISSEY REMINDS ME THAT I DID NOT -- I MENTION MR.

26

BLOOR, A POLICE OFFICER WITH CULVER CITY CONCERNING A MR.

27

TULIO'S PRESENCE AT THE LOCATION, BUT I ALSO MENTION

28

CALLING MR. TULIO HIMSELF.

Petitioner's App. 15 - 406

ER 488

Case: 13-99003

r

04/03/2014

1
2

ID: 9045913

DktEntry: 15-3

WIT H THAT, NOTHING FURTHER.

Page: 297 of 2(:1562 of 1584)

WE'D BE PREPARED

TO REST .

3

THE COURT :

THE RECORD IS CL EAR ANO THE COURT

4

AGREES THAT IN THESE MATTERS THE DECISIONS SHOULD BE WITH

5

THE COUNSEL .

6

7
8
9

10
11

12

ARE YOU PREPARED TO BRING THE FOLKS BAC K IN
NOW?

MR. GILLINGHAM :

YES , YOUR HONOR.

I GUESS WE SHOULD HAVE MR. GOLDSTEIN BEFORE I
GO INTO ANOTHER MATTER.
SHOULD I GO RETRIEVE HIM?
THE COURT:

IF YO U WOULD, PLEASE.

13

14

15
16
17
18
19

20
21
22

23
24

25
26
27
28

ER489
Petitioner's App. 15 - 407

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 10 of 273
(663 of 1584)

1

1

r

SUPERIOR COURT OF THE STATE OF CALIFORNIA

2

FOR THE COUNTY OF LOS ANGELES

3

•c•

DEPARTMENT WEST

HON. ROBERT W. THOMAS, JUDGE

4

5

THE PEOPLE OF THE STATE OF CALIFORNIA,

)

6

PLAINTIFF,

)

)
)

vs.

7

)

NO. A 089330

)

8

DEAN PHILLIP CARTER,

)

VOLUME 44

)

9

DEFENDANT. ))
________________________________________

10
11

REPORTER'S DAILY TRANSCRIPT

12

MONDAY, JULY 10, 1989
TUESDAY, JULY 11, 1989

13

PAGES 5182 TO 5294, INCL.

14
15

APPEARANCES:

16

FOR THE PLAINTIFF:

IRA REINER, DISTRICT ATTORNEY
BY: MARSH GOLDSTEIN, DEPUTY
18-709 CRIMINAL COURTS BUILDING
210 WEST TEMPLE STREET
LOS ANGELES, CALIFORNIA
90012
(213)
458-5351

FOR THE DEFENDANT:

HOWARD W. GILLINGHAM
SUITE 105
4370 TUJUNGA AVENUE
NORTH HOLLYWOOD, CALIFORNIA
(818) 763-4775

17
16

19
20
21
22

23
24
25

91604

-ANO-

MARCIA ANN MORRISSEY
SUITE 940
4929 WILSHIRE BOULEVARD
LOS ANGELES, CALIFORNIA
C213) 933-87 99

90010

26

27

28

JANET BILYEU, CSR 13223
OFFICIAL REPORTER

Petitioner's App. 16 - 408

ER 490

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 11 of 273:664 of 1584)

- - - - -- - - - - - - - - - - - - - - - - -- -

LXVI

l~,~.EQ8.VO~Vl!l,.44 ...•• e~v~S.~la,.r~8QVi~-~,~4 ..•• . ...•. .• ...
Q~t~ ........• •. •Q~tt ... • ..•... S~SSlQ~ .. . . . . e~Gt ...... VQ~a
MONDAY

JULY 10, 1989

A.M.
p .M.

5182
521'

TUESDAY

JULY

ll, 1989

A.H.

5294

44

"u

, -,

ER 491
Petitioner's App. 16 - 409

Case: 13-99003

09/19/2014

ID: 9247110

DktEntry: 29-2

Page: 8 of 80 (58 of 130)

5209

l

THAT

2

THE COURT:

3

MR. GOLDSTEIN:

4

I WANTED TO GIVE THEM THE LAST

OPPORTUNITY.

5
6

NOW IT'S DELETED FROM THE TRIAL.

THE COURT:

I UNDERSTAND, BECAUSE THERE WAS OTHER

COMMENT THAT SEEMED TO OPEN THAT LITTLE DOOR.
MR. GOLDSTEIN:

7

THE OTHER MATTERS, I HAVE SHOWN

8

COUNSEL A SET OF BLOWUPS OF PAGES FROM THE DEFENDANT'S

9

ADDRESS BOOK THAT I EXPECT TO USE IN ARGUMENT.

10

THEY

WERE NOT MARKED AS AN EXHIBIT.

11

MR. GILLINGHAM:

12

MR. GOLDSTEIN:

13

INDIVIDUALLY, YOU MEAN?
AT ALL.

THE BOOK IS IN EVIDENCE, AND THESE ARE

14

MERELY THREE PAGES FROM THAT BOOK WHICH SHOW LARGER THE

15

WRITTEN-IN NAME OF SUSAN KNOLL AND JANETTE -- HERE IN

16

THE BOOK, •JANET CULLINS• AND CATHLEEN TINER, AND BOTH

17

SIDES OF THE BUSINESS CARD WHICH HAS PREVIOUSLY BEEN

18

MARKED.

19

I MAY WELL USE THESE DURING THE COURSE OF

20

ARGUMENT.

21

PULL SOMETHING UP FROM AN ANGLE THAT THEY HAD NOT SEEN

22

BEFORE.

23
24
25

I DID NOT WANT COUNSEL TO BE SURPRISED WHEN I

THE COURT:

OKAY.

WE'RE IN RECESS, I THINK.
MR. GILLINGHAM:

WE HAVE ONE MATTER THAT PROBABLY

26

SHOULD BE DONE IN A SEALED BASIS AGAIN UNDER PEOPLE

27

VERSUS MARSDEN.

28

MR. GOLDSTEIN:

BEFORE THAT'S DONE, MAY I ASK A

Petitioner's App. 16 - 410

ASER 1337

Case: 13-99003

09/19/2014

ID: 9247110

DktEntry: 29-2

Page: 9 of 80 (59 of 130)

5210

l

QUESTION?

2

THE COURT:

SURE.

3

MR. GOLDSTEIN:

ON THIS INSTRUCTION, THE LATEST

4

HANDWRITTEN THAT DEFENSE HAS OFFERED ABOUT THE

5

PARTICULAR EXHIBITS, WHEN DOES THE COURT INTEND TO DEAL

6

WITH THAT?

7

INSTRUCTIONS?
MR. GILLINGHAM:

8

9

10

MY REQUEST IS THAT -- I MEAN, AS

I INDICATED BEFORE, I CONSIDER THOSE THINGS SIGNIFICANT,

so --

11
12

DO YOU WISH TO MAKE IT PART OF THE REGULAR

THE COURT:

I WAS GOING TO DO IT BEFORE ARGUMENT,

IS MAKE A COMMENT.

13

MR. GILLINGHAM:

14

MS. MORRISSEY:

15

MR. GILLINGHAM:

THAT'S WHAT I WOULD REQUEST.
YEAH.
IN OTHER WORDS, IT'~

16

BASICALLY -- THE THINKING IS IT SHOULD BE DONE AS EARLY

17

AS POSSIBLE.

18

so

19

AT THIS POINT, THIS IS THE EARLIEST TIME,

THE COURT:

BEFORE WE STARTED, I WILL -- THAT'S

20

UNDER THE HEADING OF A FINAL COMMENT.

IT ISN'T REALLY

21

LABELED A JURY INSTRUCTION, BUT THAT'S WHAT IT IS.
AND I THINK I'LL INDICATE THAT THERE WERE A

22

LOT OF EXHIBITS MARKED.

24

CONSIDER THE FOLLOWING, BECAUSE THEY WEREN'T RECEIVED,"

25

AND THEN READ THIS INSTRUCTION.
MR. GOLDSTEIN:

26

HOWEVER,

•you

23

ARE NOT TO

YOU WILL ALSO, I TAKE IT, MAKE A

27

COMMENT THAT ARE ARGUMENT IS NOT EVIDENCE, AS YOU DID

28

BEFORE?

Petitioner's App. 16 - 411

ASER 1338

Case: 13-99003

09/19/2014

ID: 9247110

DktEntry: 29-2

Page: 10 of 80 (60 of 130)

5211

1

THE COURT:

2

MR. GOLDSTEIN:

3

THE COURT:

4
5

YES.
OKAY.

OKAY.

I GUESS WE'LL HAVE TO ASK EVERYONE TO LEAVE
WITHOUT --

6

HR. GILLINGHAM:

IF I HIGHT BELABOR THE RECORD A

7

SECOND, PERHAPS WE COULD MEET AT 1:30 TO LOOK AT THE

8

CORONER REPORT.
HR. GOLDSTEIN:

9

10

THE COURT:

11

MR. GILLINGHAM:

12

THE COURT:

IT WILL JUST TAKE A SECOND,

ALL RIGHT.

MR. GILLINGHAM:

WE'LL HAVE TO ASK

WE'RE IN RECESS ANYWAY AFTER

THAT.

17
18

OKAY.

EVERYONE ELSE.

15

16

ALL RIGHT.

so --

13
14

OH, SURE.

THE COURT:

AFTER THIS BRIEF MARSDEN SITUATION,

YES.

19
20
21
22

23
24

25
26
27

28

Petitioner's App. 16 - 412

ASER 1339

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 12 of 273
(665 of 1584)

1

:d

.

/

·HELO IN CAMERA IN OPEN ~~~RTA PRESENT
-- -ARE -THE DEFENDANT ~AND. HIS ,CCOUNSEL~-- -

2
3

THE COURT, ,ANO COURT STAFF.)

4

s
THE COURTa

6
7

SUFFICIENTLY?
HR. GILLINGHAMs

8
9

10

IS THE COURTROOM CLEAR!D
YES.

MARCIA IS ,ROM SAN DIEGO.

TH! WOMAN TALKING TO

l HEAN, FRON MR. BUMER'S

OFFICE.
ALL RIGHT.

11

THE COURT1

12

HR. GILLJNGHAM1

YOUR HONOR, ONE FURTHC.R THING,

13

IN ALL MODESTY, I THINK I NEGLECTED TO DO lT THE OTHER

14

DAY, AND, THAT 15, IN ADDITION, BY NOT PUTTING ON THE

15

WlTN!SSIS, IT ALSO PRECLUDED TH! POT!NTIAL OF HR. CARTER

16

TESTIFYING BASED ON, HOWEVER, WHAT THOSE WITNESSES WOULD

17

HAYE TESTIFJ!D TO AND THE EFFECT OF THEIR TESTIMONY.

I

YOU JUST WANTED TO ADD THAT?

18

THE COURT1

19

HR. GlLLlNGHAMa

I WANTED TO ADD THATI AND AGAIN

20

REMIND EVERYONE, lhCLUDING DEPUTY BAILIFF VELASQUEZ,

21

THAT THIS IS SEALED ANO SO NO ONE IS EVER SUPPOSED TO

22

SAY ANYTHING .ABOUT WHAT TAKES PLACE HERE UNLESS THE

23

COURT ORDERS IT UNSEALED.

24
25

OKAY?
THE COURT:

SO ORDERED.

26
27

28

L
Petitioner's App. 16 - 413

ER 492

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 37 of 273
(690 of 1584)

5292

~

1

(THE FOLLOWING PROCEEDINGS HELD IN

2

CAMERA COMMENCED AT 3:32 P.M. WITH

3

THE FOLLOWING PERSONS PRESENT:

4

THE COURT, CLERK, BAILIFFS, COURT

5

REPORTER, COUNSEL FOR THE DEFENDANT,

6

AND THE DEFENDANT.)

7
8

THE COURT:

9

INTERESTS AROUND.

10

I UNDERSTAND THAT THERE ARE COMPETING

MR. GILLINGHAM:

AND THERE IS A TENDENCY OF

11

PEOPLE TO CONGRATULATE LAWYERS AFTER THEY MAKE CLOSING

12

ARGUMENTS.

13

THE COURT:

OKAY.

14

MR. GILLINGHAM:

YOUR HONOR, MR. CARTER ASKED ME

15

TO SPREAD UPON THE RECORD THAT HE DOES NOT AGREE WITH

16

THE CLOSING ARGUMENT THAT COUNSEL MADE, THAT HE HAD

17

ASKED ME WHAT IT WAS, AND THAT HE WAS NOT INFORMED OF

18

THE TYPE OF ARGUMENT.

19

AND HE CERTAINLY DOES NOT FEEL THAT IT WAS

20

ADEQUATE, AND THIS JUST COMPOUNDS THE PROBLEM OF THE

21

LACK OF DEFENSE BY THE ARGUMENT THAT COUNSEL MADE, AND

22

HE ASKED ME TO SPREAD THAT UPON THE RECORD.

23
24
25
26
27
28

~THE COURT:
OKAY.

THE RECORD IS CLEAR.
WE'LL BE IN RECESS UNTIL TOMORROW.

MR. GILLINGHAM:

WE'D LIKE THIS SEALED AND ALL

OTHER MARSDEN HEARINGS SEALED.
THE COURT:

THANK YOU, THE COURT WILL BE IN

RECESS UNTIL TOMORROW.

Petitioner's App. 16 - 414

ER 517

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 38 of 273
(691 of 1584)

SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES

2
3

DEPARTMENT WEST C

HON. ROBERT W. THOMAS, JUDGE

4
5

THE PEOPLE OF THE STATE OF CALIFORNIA, )

6

PLAINTIFF, )

)
)

VS.

7

)

NO. A-089330

)
8

DEAN PHILLIP CARTER,

)
)

9

DEFENDANT. )
____________________
)

10

-

11

REPORTER'S DAILY TRANSCRIPT

12

JULY 12, 13, 17, 1989

13

VOLUME 45

14

(PAGES 5295 TO 5395, INCLUSIVE)

15

APPEARANCES:

16

FOR THE PEOPLE:

IRA REINER, DISTRICT ATTORNEY
BY: MARSH GOLDSTEIN, DEPUTY
18-709 CRIMINAL COURTS BUILDING
210 WEST TEMPLE STREET
LOS ANGELES, CALIFORNIA 90012
(213) 458-5351

FOR THE DEFENDANT:

HOWARD W. GILLINGHAM, ESQ.
4370 TUJUNGA AVENUE
SUITE 105
NORTH HOLLYWOOD, CALIFORNIA 9160
(818) 763-4775
-ANDMARCIA ANN MORRISSEY, ESQ.
4229 WILSHIRE BOULEVARD
SUITE 940
LOS ANGELES, CALIFORNIA 90010
(213) 933-8799

17
18

19

20
21

22

23

24
25

,-

26
,J

27

J. DOLORES MRAZ, CSR NO. 1930
OFFICIAL REPORTER

28

Petitioner's App. 17 - 415

ER 518

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

VOLUME 45
I

Page: 39 of 273
(692 of 1584)

PAGES 5295 TO 5395

2
3

WEDNESDAY

JULY 12, 1989

A.M.
P.M.

5295
5302

THURSDAY

JULY 13, 1989

A.M.

5318

MONDAY

JULY 17, 1989

A.M.
P.M.

5319
5338

4
5

6

7

--------------- --------------- --------------- --------------- --

8

PROCEEDINGS

9

10

VERDICT READ

5347 .

11

12
13

,-

14
15

16
17

18
19

20
21

22

23
24

25

-

26

,.,

27

28

Petitioner's App. 17 - 416

ER 519

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 40 of 273
(693 of 1584)

5391

AT THE JAIL, DEPENDING WHAT TIME THEY GET BACK.
2

THE COURT:

3

MR. GILLINGHAM:

4

OKAY.
THANK YOU.

LASTLY, YOUR HONOR -- MAY I HAVE JUST A MOMENT?

5

6

(DISCUSSION BETWEEN MR. GILLINGHAM

7

AND MS. MORRISSEY.)

8
9

MR. GILLINGHAM:

YOUR HONOR, THIS HAS TO BE PROBABLY

DONE UNDER THE AMBIT OF MARSDEN.

10

MR. GOLDSTEIN:

11

MR. GILLINGHAM:

12 ·

MR. -'GOLDSTEIN:

13

THE COURT:

SHOULDN'T TAKE THAT LONG.

IS THIS THE LAST THING ON THE CALENDAR?
YES.
IN THAT CASE, I WILL SEE YOU --

SEE YOU MONDAY.

I WI LL, HOPEFULLY, HAVE

14

SOME INFORMATION.

15

THE INFORMATION WILL BE AVAILABLE.

16

YOU GUYS LEAVE, I WILL WRITE IT DOWN HERE AND IT WILL BE

17

AVAILABLE TOMORROW MORNING, WHATEVER I FIND OUT.

WILL CALL THIS HOSPITAL ABOUT TRANSCRIPTS.
IF I DON'T KNOW BEFORE

18

19

(AT 4 P.M. MR. GOLDSTEIN AND SPECTATORS

20

LEFT THE COURTROOM AND THE FOLLOWING

21

PROCEEDINGS WERE HELD:)

22
23

,-1'

MR. GILLINGHAM:

YOUR HONOR, LET ME GO IN REVERSE ORDER

24

SOMETHING I DIDN'T MENTION, BUT I MENTIONED IT INFORMALLY

25

WITH THE ~AILIFF AND I MENTIONED WITH THE SERGEANT IN CHARGE.

26

I SAID I NEED TO CONTACT YOU AND THAT IS -- I WOULD ASK TOTAL

27

CONFIDENTIALITY FROM EVERYBODY ABOUT THIS.

28

WITNESSES, SOME FAMILY MEMBERS OR WHATEVER COMING DOWN FOR

Petitioner's App. 17 - 417

THE VARIOUS

ER 520

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 41 of 273
(694 of 1584)

5392

THE TRIAL.
2

OUT ALMOST AS SOON AS THcY TESTIFY.

3

ONE STRATEGIC ONE, MORE MANDATORY

4

THAT THE COURT ORDER -- THAT IS A SOFT ORDER BECAUSE IT IS

5

NOT AS IF ANYONE'S BEEN TELLING ME TO STICK IT IN MY EAR

6

THAT WOULD REQUIRE A COURT ORDER TO ALLOW MR. CARTER FOR THE

7

WITNESSES THAT I HAVE WHO ARE FAMILY MEMBERS AND SOME LONG-

8

TIME FRIENDS WHO GREW UP WITH HIM TO VISIT WITH HIM DOWN BELOW

9

IN THE SEPARATED GLASS-ENCLOSED ROOM.

11

IT IS COMING DOWN AND GOING BACK.

12

BE THERE.

SO I WOULD ASK THAT.

16

FOR THE SERGEANT BECAUSE WE DIDN'T TALK AT LENGTH.

17

KNOW THAT THAT CAUSES ANY MAJOR HAVOC IF WE SCHEDULE IT AT

18

SOME CONVENIENT TIME.

20
21 ,

..

I WOULD

AS I UNDERSTAND IT -- AND I DON'T WANT TO SPEAK
DON'T

ANYWAY -- AGAIN, I AM NOT TRYING TO SPEAK FOR

19

--

ONE IS BECAUSE

IN MY PRESENCE.

IT BECOMES IMPORTANT IN PENALTY PHASE.

15

'

SUPPOSE -- I WOULD ASK

THERE IS AN ADDITIONAL SITUATION OF SOMETIMES

13
14

FOR A COUPLE OF REASONS,

I MENTIONED THAT FOR TWO,THINGS.

10

I

THEY ARE FOR TH~ MOST PART COMING IN AND GOING

HIM.

BUT

GUESS 1 SPOKE FOR YOU.

THE COURT:

INFORMATION I HAVE IS THAT IT IS JUST NOT

WISH I COULD.

JUST CANNOT GRANT THAT REQUEST.

22

FEASIBLE.

23

IT'S COME UP BEFORE, AND THE SECURITY IN THIS BUILDING,:AS

24

YOU KNOW, IS ALMOST NONEXISTENT.

25

I WILL TALK WITH THEM AND SEE IF SOMETHING CAN

26

BE WORKED OUT, BUT AT.THIS POINT I JUST CAN'T GIVE YOU ANY

27

ASSURANCES THAT THAT INTERVIEW SITUATION CAN BE WORKED OUT.

28

JUST CAN'T DO IT.

Petitioner's App. 17 - 418

ER 521

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 42 of 273(695 of 1584)
5393

MR. GILLINGHAM:

MENTIONED -- I DON'T NEED TO MENTION IT TO YOU, I AM SURE,

3

BUT I MENTION IT TO YOU -- THIS IS NOT MR. CARTER'S IDEA,

4

BUT IT IS MY IDEA ACTUALLY.

6

7

THE COURT:
REQUEST.

I AM NOT DENYING MR. CARTER'S

I AM AT THIS POINT DENYING YOURS.

MR. GILLINGHAM:

THEN MOVING ON TO THE OTHER UNDER

MR. CARTER CONTINUES TO EXPRESS

PEOPLE V. MARSDEN.

9

DISAPPOINTMENT, BE FAIR TO SAY I THINK, THE MANNER IN WHICH
TO THIS POINT THE CASE HAS BEEN HANDLED BY COUNSEL.
HE SPECIFICALLY WOULD ASK ME TO, AS I UNDERSTAND

11

12

IT, ASK YOU TO APPOINT MR. ROWEN KLEIN, K-L-E-1-N, ROWEN,

13

R-0-W-A-N -- OR E-N -- TO, AS I UNDERSTAND IT, PREPARE AND

14

FILE A NEW TRIAL MOTION OR SOME MOTION PRE-PENALTY PHASE.

15

THIS IS PART OF THE REASON FOR THE MARSDEN.
I WILL SAY THAT COUNSEL OPPOSES THAT MOTION.

16
17

WE HAVE OPPOSED OTHER THINGS BEFORE, AND WE WOULD OPPOSE THAT.

18

SO THAT WOULD BE ONE REQUEST.
WE HAVE DISCUSSED MR. CARTER'S NOW CONSTITUTIONAL

19

20

RIGHTS UNDER THE ULTIMATELY FAMOUS CASE OF FERETTA.

21

GIVING THIS SOME THOUGHT.

22

REQUEST TODAY.
ARE WE?

24

HE IS NOT MAKING THAT REQUEST TODAY.

26
27
'

28

THE COURT:

HE IS

I AM NOT SURE WE ARE MAKING THAT

23

25

..........

I UNDERSTAND.

8

10

,-

INCIDENTALLY, I HAVE

2

5

.-

ALL RIGHT.

ALL RIGHT, BUT IT IS SOMETHING THAT MAY

COME UP.
MR. GILLINGHAM:
THINK IN THAT REGARD

IT IS SOMETHING THAT MAY COME UP.
AND I WILL REPRESENT THAT I WILL

Petitioner's App. 17 - 419

ER 522

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 43 of 273
(696 of 1584)
5394

SERVE A COPY OR GIVE MR. GOLDSTEIN A COPY OF PEOPLE V. BLOOM.
2

JUNE 26, 1989 CALIFORNIA SUPREME COURT CASE.

3

MR. CARTER ONE.
IT ADDRESSES THE MOTION TO SUBSTITUTE COUNSEL

4

5

BETWEEN THE GUILT AND THE PENALTY PHASE.

6

IS DISPOSITIVE.

7

8
9

YE S .

HIMSELF.
MR. GILLINGHAM:

14

A DISCRETIONARY CALL.

19

YES.

IN THAT CASE THE DEFENDANT DID REPRESENT

13

18

/

MR. GILLINGHAM:

THE COURT:

17

I HAVE

HAD, IS IT?

11

16

ANYWAY,

THAT ISN'T THE CASE THAT JUDGE ALBRACHT

'. ' 5 . MORR I S S EY:

15

.-·t

THE COURT:

IN MY JUDGMENT IT

TALKS ABOUT SOME DISCRETION.

10

12

I WILL GIVE

MS. MORRISSEY:

HE DID REPRESENT HIMSELF, BUT IT WAS

IT IS NOT A WIDE CONSTITUTIONAL

DIMENSION.
THE COURT:

IT CERTAINLY DIDN'T WORK IN THE DEFENDANT'S

BENEFIT IN THAT CASE EITHER, AS I RECALL.
MR. GILLINGHAM:

IN ANY EVENT, I WILL GIVE MR. CARTER

20

A COPY AND GIVE THE COURT A COPY.

21

A COPY.

22

THE COURT:

23

MR. GILLINGHAM:

24

THE COURT:

WILL GIVE MR. GOLDSTEIN

ALL RIGHT.
I THINK THAT IS --

AS TO THE FIRST REQUEST, IT IS JUST NOT

25

TIMELY.

26

FOR NEW TRIAL, ISN'T -- NOW IS NOT THE TIME TO RAISE SUCH

27

A MOTION.

28

MR. KLEIN'S EXPERTISE WOULD BE OF SOME ASSISTANCE,

THE MOTION TO APPOINT MR. KLEIN, EVEN THE MOTION

CERTAINLY, IF AT SOME POINT IN TIME IT LOOKS LIKE

I

Petitioner's App. 17 - 420

I'D

•

,

ER 523

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 44 of 273
(697 of 1584)

5395

,- (

-

ENTERTAIN THE MOTION; BUT NOW I DON'T THINK IS THE APPROPRIATE
2

TIME TO EVEN CONSIDER IT.

3

WILL CERTAINLY DEAL WITH ANY OTHER REQUESTS ON THE NEXT DATE

4

'
WE
SEE EACH OTHER.

5

MR. GILLINGHAM:

6

THE COURT:

THAT REQUEST IS DENIED, AND WE

OKAY.

ALL RIGHT.

THANK YOU.

7

8

(AT 4:05 P.M. AN ADJOURNMENT WAS TAKEN

9

UNTIL MONDAY, JULY 24, 1989, AT 10 A.M.)

10

11

12
13

t

-,

14
15

16
17

18
19

20

21

22
23
24
25
26

27
28

Petitioner's App. 17 - 421

ER 524

Case: 13-99003

-

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 98 of 273(751 of 1584)

SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES

2

3

DEPARTMENT WEST C

HON. ROBERT W. THOMAS, JUDGE

4

5

THE PEOPLE OF THE STATE OF CALIFORNIA, )

6

PLAI NTI Ff, )

)

vs.

7
8

DEAN PHILLIP CARTER,
DEFENDANT.

9

)
)
)
)
)
)
)

NO. A-089330

10

REPORTERT' DAILY TRANSCRIPT

11

WEDNESDAY, JULY 26, 1989

12

13

VOLUME 49

14

(PAGES 5707 TO 5826, INCLUSIVE)

15

APPEARANCES:
16

FOR THE PEOPLE:
17

18

(213) 458-5351

19

20

21
22

23
24
25

-

IRA REINER, DISTRICT ATTORNEY
BY: MARSH GOLDSTEIN, DEPUTY
18-709 CRIMINAL COURTS BUILDING
210 WEST TEMPLE STREET
LOS ANGELES, CALIFORNIA 90012

FOR THE DEFENDANT:

HOWARD W. GILLINGHAM, ESQ.
4370 TUJUNGA AVENUE
SUITE 105
NORTH HOLLYWOOD, CALIFORNIA 9160
(818) 763-4775
-ANDMARCIA ANN MORRISSEY, ESQ.
4229 WILSHIRE BOULEVARD
SUITE 940
LOS ANGELES, CALIFORNIA 90010
(213) 933-8799

26
27

28

J. DOLORES MRAZ, CSR NO .. 1930
APRIL ADAMS, CSR N6. 2924
OFFICIAL REPORTERS

Petitioner's App. 18 - 422

ER 578

Case: 13-99003

-

04/03/2014

ID: 9045913

WEDNESDAY, JULY 26, 1989

DktEntry: 15-4

VOLUME 49

Page: 99 of 273(752 of 1584)

PAGES 5707 TO 5826

A.M.
P.M.

2

5707
5738

3
4

CHRONOLOGICAL INDEX OF WITNESSES

5
6

7

DEFENDANT'S WITNESSES:

8

9

DIRECT

CROSS

REDIRECT

RAGSDALE., WILLIAM

5714

5724

5725

ZYCH, LINDA

5726

5732

5735

10

ADSUNA, BERTHA

5739

11

CARTER, JERRY LEE

5750

5763

12

REASNER, POLLY ANNE

5766

5 776

13

FARLEY, BETH

5 779

5785

14

GREEN, ROOSEVELT WILLIAM

5786

15

CHAVIE, DALE

5792

RECROSS

5 77 8

5799

I

16

TAYLOR, RICHARD

5801

17

ALEXANDER, MARY

5813

5823

18

19
20

21
22

23
24
25

-·

26
27
28

Petitioner's App. 18 - 423

ER 579

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 118 of 273
(771 of 1584)

5750

-

JERRY LEE CARTER,
2

CALLED AS A WITNESS BY THE DEFENDANT, WAS SWORN AND TESTIFIED

3

AS FOLLOWS:

4

THE CLERK:

YOU DO SOLEMNLY SWEAR THAT THE TESTIMONY

5

YOU MAY GIVE IN THE CAUSE NOW PENDING BEFORE THIS COURT SHALL

6

BE THE TRUTH, THE WHOLE TRUTH AND NOTHING BUT THE TRUTH, SO

7

HELP YOU GOD.

8

THE WITNESS:

9

,HE CLERK:

12

BE SEATED.

WOULD YOU PLEASE STATE YOUR NAME AND SPELL YOUR

10
11

YES.

FIRST AND LAST FOR THE RECORD.
THE WITNESS:

JERRY LEE CARTER.

J-E-R-R-Y

C-A-R-T-E-R.

13

J

DIRECT EXAMINATION

14
15

BY MR. GILLINGHAM:

16

Q

JERRY, WHERE DO YOU LIVE?

17

A

CRAIG, ALASKA.

18

Q

AND THERE IS A MAP OVER THERE ON THE WALL, JERRY.
DID YOU ALSO USED TO LIVE IN NOME?

19

20

A

YES.

21

Q

WHY DON'T YOU TAKE THAT RED MARKER AND PUT A

22

CIRCLE AROUND WHERE YOU LIVE NOW IN CRAIG AND WHERE NOME IS.
ACTUALLY, THERE ARE TWO MAPS THERE.

23
24

25

WHY DON'T

YOU DO IT ON THE BIG MAP FIRST.
A

OKAY.
(WITNESS COMPLIES.)

26
27

Q

WHAT ARE YOU CIRCLING NOW?

28

A

THIS WOULD BE CRAIG.

Petitioner's App. 18 - 424

ER 598

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 119 of 273
(772 of 1584)

5751

Q

THAT IS DOWN ON THE BOTTOM OF THAT EXHIBIT?

2

A

RIGHT.

3

MR. GILLINGHAM:

4

AS NEXT EXHIBIT IN ORDER J.

5

THE COURT:

6

Q

BY MR. GILLINGHAM:

7

A

NOME IS HERE.

8

Q

WHERE IS THE ARCTIC CIRCLE?

9

YES.
CIRCLE NOME.

WOULD YOU SORT OF

DRAW A LITTLE LINE.

10

A

RIGHT ABOVE NOME.

11

Q

HOLD ON.

12

A

(WITNESS COMPLIES.)

13

C:

THANK YOU.

HOLD ON.

14

ON THE OTHER MAP --

15

MARK THAT NEXT IN ORDER.

16

WAS J --

17

MS. MORRISSEY:

18

Q

.J

-

WONDER IF THAT MIGHT BE MARKED

K.

BY MR. GILLINGHAM:

19

IS ON THAT.

20

ALASKA AIRLINE MAP.

COULD YOU MARK WHERE NOME

RATHER LARGE, APPEARS TO BE.

IF I MIGHT -- AN

21

A

NOME.

22

Q

OKAY.

23

A

UH-HUH.

24

Q

DEAN CARTER IS YOUR BROTHER?

25

A

YES.

26

Q

HOW LONG HAS IT BEEN SINCE YOU HAVE SEEN HIM?

27

A

THIS IS THE FIRST TIME I HAVE SEEN HIM IN SIX

28

THANK YOU.

AT LEAST SIX YEARS.

Petitioner's App. 18 - 425

ER 599

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 120 of 273
(773 of 1584)

5752

-

Q

DID YOU GROW UP TOGETHER?

2

A

SOMEWHAT.

3

Q

HE WAS GONE A LOT?

4

A

YES.

5

Q

ARE YOU OLDER THAN DEAN?

6

A

I AM FOUR YEARS OLDER THAN DEAN.

7

Q

IN BRIEF, TELL US WHAT IN TERMS OF THE CONDITIONS

f

8

OF NOME, IF YOU WOULD, WAS IT LIKE TO GROW UP IN NOME?

9

TALK ABOUT THE WEATHER AND THAT SORT OF THING.

10

5 F

J

IS HE OLDER THAN YOU?

A

OH, A LOT DIFFERENT.

THERE IS NO REALLY

11

EXTRACURRICULAR ACTIVITIES TO BE HAD OR DONE.

12

MUCH -- IT IS DARK ALL THROUGH THE WINTER AND DAYLIGHT THROUGH

13

THE SUMMER.

14

LIMITED.

YOU ARE PRETTY

SO YOUR OUTDOOR ACTIVITIES ARE PRETTY WELL

15
16

17

18
19

20
21

22
23
24
25

·-

26
27
28

Petitioner's App. 18 - 426

ER 600

Case: 13-99003

04/03/2014

Q

J

2

Page: 121 of 273
(774 of 1584)

IS THERE

A LOT OF DRINKING IN NOME?
A

EXTREME AMOUNT.

4

Q

SUICIDES?

5

A

YES., HIGH RATES.

6

Q

AM TALKING ABOUT NOW MAYBE NOW ALSO., BUT I AM

ASKING YOU IN PARTICULAR ABOUT WHEN YOU WERE GROWING UP.

8

A

THERE ALWAYS HAS BEEN.

9

Q

IN FACT., IS THAT A MAJOR PROBLEM IN ALASKA,

10

.- ..J

DktEntry: 15-4

LET ME ASK YOU ABOUT SOCIAL ACTIVITIES.

3

7

-,

ID: 9045913

ALCOHOL AND SUICIDES., TO THIS DAY?

11

A

ALCOHOL., YES.

12

Q

AMONG THE ESKIMO?

13

A

EXTREMELY.

14

Q

SO YOU MOVED OUT OF NOME?

15

A

YES.

16

Q

WHEN DID YOU FIRST LEAVE NOME?

17

A

I

18

Q

DO YOU REMEMBER?

71.

WHEN YOU THINK BACK ABOUT AS A SMALL BOY WITH

19

YOUR BROTHER., DEAN -- WE HAVE TALKED BEFORE., HAVEN'T WE, ABOUT

20

THIS?

21

A

YES.

22

Q

MET YOU UP IN ANCHORAGE?

23

A

YES.

24

Q

TALKED IN THE HOTEL BEFORE TODAY?

25

A

YES.

26

Q

YOU TOLD ME ABOUT DEAN AS YOU KNEW HIM?

27

A

YES.

28

Q

WAS ONE OF THE STRONG RECOLLECTIONS YOU HAVE OF

Petitioner's App. 18 - 427

ER 601

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 122 of 273
(775 of 1584)

5754

-

DEAN AS A SMALL BOY?
J

2
3

'

INDEPENDENT, WANTING TO BE FREE AND NOT REALLY

WANTING DISCIPLINE.

4

Q

DID HE RUN AWAY?

5

A

YES.

6

Q

DO YOU HAVE SOME INCIDENTS THAT YOU TOLD ME ABOUT

7

·-

A

THAT YOU WOULD TELL ALL OF US ABOUT NOW.

8

A

COMFORTABLY?

9

Q

NO, I DIDN'T SAY COMFORTABLY.

10

A

THERE WERE TIMES WHEN HE WOULD BE OUT PLAYING

11

AND STAYING LONGER, AND INSTEAD OF TAKING DISCIPLINE HE WOULD

12

PREFER TO RUN AWAY FOR SEVERAL DAYS AT A TIME.

13

Q

DID HE OR DID YOU TELL ME ABOUT BOXES?

14

A

YEAH.

WELL, HE -- IN THE SUMMERTIME YOU HAVE

15

TO HAVE SOME PLACE TO STAY, AND ONE I REMEMBER RIGHT OFF THE

16

BAT WAS A TOOL BOX THAT HE HAD STAYED IN FOR A COUPLE OF DAYS;

17

AND WE HAD LOOKED ALL OVER TOWN FOR HIM AND WE WERE NOT ABLE

18

TO FIND HIM.

19

Q

WHAT DID HE DO FOR FOOD, IF YOU KNOW?

20

A

WELL, HE ALWAYS HAD A FRIEND THAT SEEMED TO BRING

21

HIM SOME FOOD.

22

Q

23
24
25

26

27

28

PILOT

BREAD OR WHATEVER.

SO HE'D ACTUALLY STAY IN THE BOX A COUPLE OF DAYS

AT A TIME?
A

I WOULD ASSUME YES 'CAUSE I WOULDN'T SEE HIM 'CAUSE

WE'D Bf LOOKING FOR HIM.
Q

I DIDN'T MEAN TO SUGGEST HE'D STAY IN THE BOX

AND WOULDN'T COME OUT.
WHAT ABOUT AIRPLANES?

YOU TOLD ME ABOUT A COUPLE

Petitioner's App. 18 - 428

ER 602

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 123 of 273
(776 of 1584)

5755

-

A COUPLE OF INCIDENTS WITH AIRPLANES.
2
3

5

A

OH, I WOULD SAY BETWEEN EIGHT AND TEN POSSIBLY.

6

Q

AND WHAT DID HE DO?

7

A

ONE TIME HE GOT ON A PLANE AND -- I DON'T KNOW

8

THE CIRCUMSTANCES BEHIND IT.

9

IN ANCHORAGE AND THEY HAD GONE BACK TO BRING HIM BACK.
Q

I JUST KNOW THAT HE ENDED UP

WAS THERE ANOTHER INCIDENT WITH A PLANE IN A

STOWING AWAY OR AN EFFORT?
A

YEAH. I -- I DON'T KNOW IF THIS WOULD BE A FIRST

13

OR A SECOND TIME.

14

MORE, AND THE FLIGHT ENGINEER HAD COME ACROSS HIM IN HIS

15

PRE-FLIGHT.

16
17

Q

HAVE NO IDEA, BUT HE DID STOW AWAY ONCE

WHAT KIND OF PLANE WAS THAT, IF YOU REMEMBER?

IF YOU REMEMBER.

18

A

FLYING BOXCAR.

19

Q

WHERE

20

A

UP IN A WHEEL WELL.

21

Q

AND THE PLANE DIDN'T TAKE OFF, OBVIOUSLY?

22

A

NO.

23

Q

THE MOM AND DAD, WHAT WAS THEIR PRACTICE AS FAR

24

25

26

..

REMEMBER FATHER HAVING TO GO DOWN AND BRING HIM BACK.
HOW OLD WAS HE ROUGHLY?

12

_,

HE DID LEAVE NOME ON ONE OCCASION, AND

Q

11

~

YEAH.

4

10

--

A

I BELIEVE B-141.

WAS HE LOCATED?

AS ALCOHOL?
A

I NEVER DID SEE THEM DRINK HARD STUFF, BUT THEY

SURE DRANK A LOT OF OLE.

REAL OLE PEOPLE.

27

Q

WOULD YOU SAY THEY WERE ALCOHOLICS?

28

A

KNOWING WHAT I KNOW NOW, YES.

Petitioner's App. 18 - 429

ER 603

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 124 of 273
(777 of 1584)

5756

.J

Q

WAS THAT A DIFFICULT PERIOD FOR THE FAMTLY?

2

A

EXTREMELY.

3

Q

THIS DISCIPLINE IN THE HOME, WOULD BOTH THE FATHER

4

5

A

YES.

6

Q

WAS THERE ONE OR THE OTHER THAT WAS FROM YOUR

7

A

YES.

9

Q

WHO WAS THAT?

10

A

THAT WOULD BE MY MOTHER.

11

Q

AND TELL ME ABOUT THAT.

13

14

I MEAN, WHAT WOULD HAPPEN?

WHY WAS THAT WORSE?
A

OH, SHE WOULD GET CARRIED AWAY.

I THINK SHAME

WOULD STEP IN AND SHE'D GET CARRIED AWAY.

15

Q

WHAT WOULD STEP IN?

16

A

SHAME.

17

Q

WOULD THEY DRINK AT NIGHT?

18

A

YES.

19

Q

INCIDENTALLY, NOME HAS HOW MANY MAIN STREETS?

20

A

THERE WAS REALLY ONE MAIN STREET.

21

Q

THERE WERE LOT OF BARS?

22

A

THIRTEEN BARS, THIRTEEN CHURCHES.

23

Q

WOULD THEY COME HOME AT NIGHT AFTER HAVING BEEN

24

J

VIEW OR DEAN'S, WORSE THAN THE OTHER?

8

12

--

AND THE MOTHER ADMINISTER DISCIPLINE FROM TIME TO TIME?

I AM SORRY.

DRINKING?

25

A

VERY LATE.

26

Q

WHAT WAS THE RESPONSE OF THE CHILDREN WHEN THE

27
28

PARENTS WOULD BE COMING HOME?
A

IF THAT IS A CLEAR QUESTION.

JUST BE QUIET AND STAY OUT OF THE WAY.

Petitioner's App. 18 - 430

ER 604

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 125 of 273
(778 of 1584)

5757

·-

Q

WHAT WOULD HAPPEN WHEN THEY CAME HOME?

2

A

OH, USUALLY EXTREME ARGUING.

3

Q

WOULD THERE BE HITTING?

4

A

AT TIMES.

5

Q

DO YOU

6

WHEN YOUR MOM CAME HOME.

7

SORRY.

8

WENT AFTER HER.

TELL ME ABOUT THAT AGAIN.

I AM

WHEN YOUR MOM CAME HOME ALONE AND THEN LEFT AND DEAN

9

A

OH, THAT WAS -- HE WAS REAL YOUNG.

10

Q

ROUGHLY HOW YOUNG WAS HE?

11

A

OH, GOSH, I WANT TO SAY SEVEN OR EIGHT.

THEY

12

HAD BEEN OUT, AND BEING THE OLDEST I WOULD HAVE TO TAKE CARE

13

OF THEM SOMEWHAT, AND WE BOTH HAD THE SAME FEELING ABOUT THEIR

14

DRINKING, THAT THEY HAD NO CONTROL OVER AND --

15

Q

WOULD YOU GO IN THE BEDROOM WHEN THEY CAME HOME?

16

A

NO.

SHE HAD COME HOME FOR SOMETHING AND WAS

17

LEAVING, AND WE KNEW SHE WAS BY HERSELF, AND DEAN HAD JUMPED

18

UP AND TRIED TO GET HER TO STAY HOME.

19

--

YOU TOLD ME ABOUT A PARTICULAR TIME

SHE LEFT.

SHE WAS -- SHE WAS HEADING BACK DOWN

20

TO GET DAD, AND THIS MUST HAVE BEEN ABOUT AT LEAST 2:00 IN

21

THE MORNING.

22

Q

WERE YOU GUYS IN BED AT THAT TIME?

23

A

YES.

24

Q

WHAT HAPPENED?

25

A

OH, HE TOOK OFF RUNNING AFTER THE CAR AND --

26

Q

WHAT DID HE DO?

27

A

HUNG ON TO THE BUMPER AND TRIED TO STOP THE CAR

28

FOR QUITE

A WAYS.

Petitioner's App. 18 - 431

ER 605

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 126 of 273
(779 of 1584)

5758

I AM SORRY.

V

.'

GO AHEAD.

SHE -- I THINK IT ALL HAPPENED SO QUICK, I DON'T

2

A

3

KNOW IF

4

HIM BACK IN THE HOUSE.

HEARD ANYTHING.

I JUST REMEMBER WHEN SHE BROUGHT

5

Q

WHAT WAS -- WERE YOU WATCHING HIM?

6

A

OH, I SAW HIM WHEN HE LEFT.

;,

7

8
9

10
11

I SAW HIM WHEN HE

CAME BACK.
Q

AND WHAT WAS HE DOING WHEN HE LEFT?

DID YOU

ACTUALLY SEE HIM DOING SOMETHING?
A

YEAH.

HE WAS RUNNING AFTER THE CAR, AND HE WAS

TRYING TO HOLLER AT MOM TO STOP.

12
13

14
15

16
17
18

19

20
21

22
23

24

25
26

27

28

Petitioner's App. 18 - 432

ER 606

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 127 of 273
(780 of 1584)

5759

-2

A

YEAH, BECAUSE HE GRABBED AHOLD OF THE BUMPER;

AND IT WAS GRAVEL ROADS, AND HE TRIED TO STOP THE CAR.

5

Q

DID YOUR MOM AT SOME POINT STOP?

6

A

AFTER AWAYS.

7

Q

I MEAN, DO YOU THINK THAT SHE KNEW HE WAS BACK

9

A

NO.

10

Q

AND SHE BROUGHT HIM BACK, AND WHEN SHE BROUGHT

8

11
12

13
14

J
15

THERE?

HIM BACK WHAT DID HE LOOK LIKE?
A

WELL, IT WAS A GRAVEL ROAD.

HIS FEET WERE ALL

CUT UP AND HE'D BEEN DRAGGED TRYING TO STOP.
Q

DID THE RUNNING AWAY BY DEAN SEEM TO CONCERN YOUR

PARENTS?

16

A

YES.

17

Q

WAS THERE AT LEAST ONE TIME WHEN YOUR DAD TOOK

18

SOME DRASTIC ACTION CONCERNING THAT?

19

A

(AFFIRMATIVE ~ESPONSE.)

20

Q

WHAT DID HE DO?

21

A

HE ATTEMPTED TO KEEP HIM IN THE HOUSE.

22

Q

AND HE WAS UNSUCCESSFUL?

23

A

WELL, IN PAST EXPERIENCE HE HAD BEEN, BUT HE HAD

24

.,-..

DID HE CATCH UP WITH THE CAR FROM WHAT YOU COULD

SEE?

3
4

Q

TO MAKE SURE HE STAYED IN THE HOUSE.

SO HE JUST --

25

Q

WHAT DID HE DO?

26

A

PUT A CHAIN AROUND HIS ANKLE.

27

Q

AND WHAT DID HE DO WITH THE CHAIN?

28

A

ATTACHED IT TO THE BED.

Petitioner's App. 18 - 433

ER 607

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 128 of 273
(781 of 1584)

5760

Q

DID HE EVER DO THAT TO YOU?

2

A

NO.

3

Q

NOW, YOU, AS I 'UNDERSTAND IT, YOUNG MAN LIKE IN

4
5

A

YES.

6

Q

DO YOU REMEMBER A THING CALLED THE JESSIE LEE

8

A

YES.

9

Q

WAS HE SENT THERE?

10

A

YES.

11

Q

DO YOU KNOW ABOUT HOW OLD HE WAS?

12

A

MY FOLKS WERE LOOKING FOR AN ALTERNATIVE, AND

7

13
14
'

HOME?

WANT TO SAY HE MUST HAVE BEEN, GOSH, AROUND EIGHT YEARS
OLD.

POSSIBLY NINE.

_,/

15

16

Q

AND FROM THEN ON A GOOD PART OF THE TIME WAS HE

GONE TO VARIOUS PLACES?

17

A

(AFFIRMATIVE RESPONSE.)

18

Q

SO IN TERMS OF SPENDING MUCH MORE TIME WITH HIM,

19

DO YOU?

20

A

21

.-

JUNIOR HIGH SCHOOL, DEAN IS GONE AWAY TO PLACES?

NO.

DUE TIT LOCATION AND AGE DIFFERENCE AND

DIFFERENT PERIODS IN OUR LIVES, NO.

22

Q

YOU GOT MARRIED AND MOVED TO CRAIG AT SOME POINT?

23

A

YES.

24

Q

NOW, YOU REMEMBER WHEN HE LEFT ALASKA?

25

A

YES.

26

Q

APPROXIMATELY 1983?

27

A

AROUND THAT PERIOD OF TIME.

28

Q

AND DID HE COME BY YOUR PLACE?

Petitioner's App. 18 - 434

ER 608

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 129 of 273
(782 of 1584)

5761

A

YEAH.

2

Q

AND DID YOU HAVE ANY NOTICE OF THAT?

3

A

DID WE HAVE ANY NOTICE OF IT?

4

Q

YEAH, THAT HE WAS COMING.

5

A

OH, NO.

6

HE DID A SURPRISE VISIT ON HIS WAY SOUTH.

IT WAS COMPLETE SUR PR I SE.

WE WERE KI ND

OF EXCITED ABOUT IT.

7

Q

DID YOU KNOW HE HAD BEEN MARRIED?

,8

A

YES.

9

Q

HAD YOU EVER SPENT MUCH TIME WITH -- HE MARRIED

10

A WOMAN NAMED KATHY?

11

A

YES.

12

Q

SHE HAD TWO OTHER KIDS, RIGHT?

13

A

YES.

14

Q

WHEN I SAY "T"O OTHER," TWO OTHER OTHER THAN THE

15

TWINS?

SHE HAD TWO OF HER OWN?

16

A

YES.

17

Q

DID YOU SPEND ANY TIME WITH THEM TO SPEAK OF?

18

A

VERY LITTLE.

19

FOR VERY LONG.

20

Q

SO YOU KNEW HE WAS MARRIED?

21

A

OH, YES.

22

Q

DID YOU KNOW WHEN THEY SEPARATED?

23

THE DATE.

24

WE DIDN'T LIVE IN THE SAME TOWN

I DON'T MEAN

I MEAN DID YOU KNOW THE EVENTS?

A

NO, NOT UNTIL IT WAS DISCUSSED WHEN HE VISITED

26

Q

WHEN HE WAS LEAVING ALASKA?

27

A

YES.

28

Q

AND DID HE DISCUSS ANYTHING -- I MEAN, WHAT DID

25

us.

Petitioner's App. 18 - 435

ER 609

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 130 of 273
(783 of 1584)

5762

HE SEEM LIKE WHEN HE CAME TO YOUR HOUSE IN '83?
2

A

OH --

3

Q

WHAT WAS HIS ATTITUDE?

4

A

DISGRUNTLED.

5

Q

DID HE TALK ABOUT THE KIDS?

6

A

OH, YES.

7

Q

WHEN I SAY "KIDS," I GUESS I AM REFERRING TO THE

9

A

HE TALKED ABOUT THEM, TOO.

10

Q

AND HE SEEM TO, MISS THEM?

11

A

EVIDENTLY HE WASN'T ABLE TO SEE THEM, AND HE DID

8

12

14

ANGRY.

TWINS.

MISS THEM.

Q

13

_)

HEART BROKEN.

THAT SEEM REAL TO YOU?

DID IT SEEM REAL TO YOU

THAT HE MISSED THEM?

15

A

THAT HE MISSED THE BOYS?

16

Q

YEAH.

17

A

THAT IS ALL HE USED TO TALK ABOUT, YOU KNOW.

18

WERE HIS BOYS.

19

Q

WAS DEAN A TOPIC OF DISCUSSION AT HOME AT ALL?

20

A

NO.

21

Q

HAVE YOU TALKED TO YOUR MOTHER ABOUT WHAT WE'RE

22

DOING HERE?

23

A

EXTENSIVELY.

24

Q

INCIDENTALLY, YOUR DAD HAS PASSED AWAY, HAS HE

26

A

YES.

27

Q

HAVE YOU TALKED TO HER ABOUT COMING DOWN HERE?

28

A

YES.

25

THEY

NOT?

Petitioner's App. 18 - 436

ER 610

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 131 of 273
(784 of 1584)

5763

Q

IS SHE COMING DOWN?

2

A

NO.

3

MR. GILLINGHAM:

4

THE COURT:

5

MR. GOLDSTEIN:

I HAVE NOTHING FURTHER.

QUESTIONS?
TWO COME TO MIND.

6

CROSS-EXAMINATION

7
8

BY MR. GOLDSTEIN:
Q

9
10

THIS CHAIN INCIDENT YOU HAVE TALKED ABOUT TOOK PLACE?
A

11

12

-

)

HOW OLD WAS YOUR BROTHER WHEN HE RAN AWAY AND

IT'S GOT TO BE WITHIN -- WITHIN THAT SAME TIME
WOULD SAY NINE, EIGHT OR NINE.

FRAME.

13

Q

HAD YOU RUN AWAY?

14

A

BEG YOUR PARDON?

15

Q

HAD YOU RUN AWAY DURING ANY OF THAT TIME?

16

A

HAD I?

17

IF I RUN AWAY.

18

Q

19

20

NOT KNOWINGLY, NO.

I WOULD HAVE KNOWN

I DON'T REMEMBER RUNNING AWAY AT ALL.

YOU HAD OTHER BROTHERS AND SISTERS AT ABOUT THAT

TIME OR WERE JUST THE TWO OF YOU?
A

THERE WERE JUST THE TWO OF US FOR AWHILE, AND

21

THEN WE HAD OUR YOUNGER SISTER WHO WAS BORN, AND I WAS USUALLY

22

TAKING CARE OF HER.

BABY-SITTING.

23

Q

WHEN WAS THAT?

24

A

SHE WAS BORN IN '62.

25

Q

YOU SAID AT ONE TIME, AS I HEARD YOU, THAT YOUR

26

FOLKS WERE LOOKING FOR AN ALTERNATIVE WHEN YOU WERE TALKING

27

ABOUT SOMETHING CALLED THE JESSIE HOME?

28

A

YES.

Petitioner's App. 18 - 437

ER 611

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 132 of 273
(785 of 1584)

5764

2

A

IT'S

IT'S LIKE

LIKE A CATHOLIC SCHOOL WOULD BE.

4

A DISCIPLINE HOME.

GOSH, IT WOULD BE SOMETHING
IT IS A CHILDREN'S HOME.

5

Q

WHERE IS IT LOCATED?

6

A

AT THAT TIME IT WAS LOCATED IN VALDEZ.

7

Q

WHERE IS THAT IN RELATION TO NOME?

8

A

IT WOULD BE -- LET'S SEE.

10
11

FROM HERE.
Q

RIGHT DOWN THE HIGHWAY

RIGHT WHERE THE -- QUITE AWAYS.
THIS IS THE VALDEZ WE HAVE HEARD ABOUT IN RECENT

MONTHS, THE OIL PORT?

12

A

YES.

13

Q

NOT VOLUNTARILY THE OIL PORT.
IS THAT WHERE MR. CARTER WAS EVENTUALLY SENT OR

14
15

WOUND UP?

16

MR. GILLINGHAM:

17

MR. GOLDSTEIN:

18

19

20

OBJECTION.

VAGUE.

IF YOU DON'T UNDERSTAND,

I WILL ASK

IT A DIFFERENT WAY.
Q

WHEN YOU TALKED TO THE -- IS IT JESSIE LEE

SOMETHING HOME?

21

A

JESSIE LEE CHILDREN'S HOME I THINK IT IS.

22

Q

THIS IS A VOLUNTARY KIND OF THING WHERE PARENTS

23

.-

WHAT IS THAT?

3

9

-

Q

WILL PUT PROBLEM CHILDREN SOMETIMES?

24

A

YOU PAY ROOM AND BOARD FOR THEM.

25

Q

WHAT WERE THE ALTERNATIVES YOU WERE TALKING ABOUT?

26

A

WELL, THEY WERE TRYING TO SEE

WHAT I PICKED

27

UP THEY WERE JUST iRYING TO FIND SOME WAY TO HELP THEM

28

BECAUSE HE WAS -- DISCIPLINE WAS A PROBLEM, AND THEY THOUGHT,

Petitioner's App. 18 - 438

ER 612

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-4

Page: 133 of 273
(786 of 1584)

5765

--

WELL, MAYBE IF HE IS AWAY FROM HOME, THAT MAYBE HE'D APPRECIATE
2

IT MORE WHEN HE GOT BACK.

3

Q

AND THIS WOULD HELP HIM?

4

A

I ASSUME.

5

MR. GOLDSTEIN:

6

THE COURT:

I HAVE NOTHING FURTHER.

MR. GILLINGHAM.

7

REDIRECT EXAMINATION

8
9

10
11

-

BY MR. GILLINGHAM:

Q

THE DISCIPLINE IN THE HOME, JERRY, WAS THERE ONE

OF THE FOUR CHILDREN WHO GOT IT THE WORST?

12

A

13

IT, TOO.

14

Q

15

A

I WANT TO SAY NO BECAUSE WHEN I SCREWED UP I GOT

YOU WANT TO SAY NO, BUT

WHAT IS THE TRUTH?

i

RUNNING AWAY

16

OR WHATEVER.

17

STRONG DISCIPLINE PROBLEM THAT WE HAD TO DEAL WITH.

18

19

Q

IT SEEMED THAT RUNNING AWAY AND STUFF WAS A

SO DID DEAN CATCH IT MORE EVEN THOUGH SOME MIGHT

SAY HE DESERVED IT?

20

A

I WOULDN'T SAY HE CAUGHT IT THAT MUCH MORE.

21

Q

BUT

22

HE WAS THE ONLY ONE THAT WAS EVER CHAINED

TO THE BED?

23

A

24

MR. GILLINGHAM:

25

--

FELT I HADN'T SCREWED UP AS MUCH.

YES.

NOTHING FURTHER:

26

MR. GOLDSTEIN:

27

THE COURT:

28

THANK YOU.

NOTHING.

THANK YOU.

THANK YOU VERY MUCH, SIR.

YOU MAY STEP DOWN.

Petitioner's App. 18 - 439

ER 613

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 56 of 266
(982 of 1584)

SUPERIOR COURT OF THE STATE OF CALIFORNIA

•

FOR THE COUNTY OF LOS ANGELES
DEPARTMENT WEST

ncn

HON. ROBERT W. THOMAS, JUDGE

THE PEOPLE OF THE STATE OF CALIFORNIA,

)

PLAINTIFF,

)

)

)

vs.

)

NO. A 089330

)

DEAN PHILLIP CARTER,

)

VOLUM~ 54

)

DEFENDANT.

)

----·-········ ·····-········- ·-·-------->
REPORTERS' TRANSCRIPT ON APPEAL
THURSDAY, JA~UARY 11, 1990
TUESDAY, JANUARY 30, 1990
PAGES 6148 TO 6295,

INCL.

APPEARANCES:
FOR THE PLAINTIFF;

IRA REINER, DISTRICT ATTORNEY
BY: MARSH GOLDSTEIN, DEPUTY
18-709 CRIMINAL COURTS BUILDING
210 WEST TEMPLE STREET
LOS ANGELES, CALIFORNIA
90012
(213)
458-5351

FOR THE DEFENDANT:

KLE1N & CRAIN
BY:
ROWAN K. KLEIN, ESQ.
12100 WILSHIRE BOULEVARD, SUITE 950
LOS ANGELES, CALIFORNIA
90025

NANCY K. LONG, CSR #2041
OFFICIAL REPORTER

Petitioner's App. 19 - 440

ER 799

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 57 of 266
(983 of 1584)

LXXVI

[]

INDEX_FOR_yOLUMg_54 _____ PAGES_6148_tHROUGH_~ND ______________ _
D6Tg ____________ DATE __________ SESSlON, _____ PAGE ______ VOL.
THURSDAY
JANUARY 11, 1990
(MOTION FOR NEW TRIAL)

A.M.

6148

54

P.M.

6184

54

TUESDAY
JANUARY 30, 1990
A.M.
(JUDGMENT OF DEATH AND SENTENCING)

6249

54

DEFENDANT'S

VOIR

~lI~gs~gs ___________ Ql~gcr __ C~QSS __ ~~Ql8g~r--~~cgQ~~--Ql~~--YQ~~
KUTHE, SHARON

6158

GILLINGHAM, HOWARD

6168
6175

(REOPENED)

54
6175

6176

54
6182

6198

(RECALLED)

6200

CARTER, DEAN PHILLIP
6184

6189

Petitioner's App. 19 - 441

54

ER 800

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 66 of 266
(992 of 1584)

6168
1

MR. BUMER:

MIGHT I JUST An::-i WHt.T I WANTE:=i TO PROP11:;f

2

TO DO WAS TO RAISE THE 6ASIC CONSTITUTlON,.!:.L ISSUES AND RlGi-jTS

3

OF THE DEFENDANT -THE COURT:

4

5

KLEIN.

WELL, YOU CAN DISCUSS THAT WITH MR.

HE IS MR. CARTER'S LAWYER HERE.

6

MR. BUMER:

THANK YOU, YOUR HONOR.

7

MR. KLEIN:

IF I DIDN'T SAY IT,

I MEAN WHAT MR.

8

BUMER WANTS TO HAVE IT MADE CLEAR THAT MR. CARTER DOES NOT

9

HAVE TO REVEAL ANYTHING WHAT HIS DEFENSE WOULD BE IN SAN

10

DfEGO, UNDER THE CONSTITUTION.
THE COURT:

11

YOU MAY PROCEED.

12

THE WITNESS:

13

14

I AGREE.

HOWARD W. GILLINGHAM, G-I-L-L-1-N-G-

H-A-M.

15

HOWARD W. GILLINGHAM,

16
17

CALLED AS A WITNESS BY THE DEFENDANT, HAVING BEEN FIRST DULY

18

SWORN, TESTIFIED AS FOLLOWS:

19

DIRECT EXAMINATION

20
21
22

23
24

BY MR. KLEIN:

Q

MR. GILLINGHAM, YOU REPRESENTED MR. CARTER

STARTING WHEN IN CONNECTION WITH THIS CASE, APPROXIMATELY?
A

AM THINKING.

APRIL 1988

CAME INTO THE

25

CASE, AFTER IT HAD BEGUN, ALONG WITH MISS MARCIA MORRISSEY,

26

REPRESENTING MR. CARTER.

27
28

Q

AFTER YOU CAME INTO THE CASE AND AFTER YOU

FAMILIARIZED YOURSELF WITH THE CASE, DID YOU HAVE DISCUSSIONS

Petitioner's App. 19 - 442

ER 809

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 67 of 266
(993 of 1584)
6lfi9

2

WITH MR. CARTER A60UT WHETHER OR NOT HE WANTED TO PRESENT A
2

DEFENSE IN THIS CASE ANQ WHETHER OR NOT HE WANTED TO TESTIFY

3

IN THE GUILT PHASE OF THIS CASE?

4

A

YES.

5

Q

APPROXIMATELY HOW MANY DISCUSSIONS WOULD YOU

6

SAY YOU HAD WITH HIM BEFORE THE TRIAL STARTED?

7
8

Q

ON ANY OF THESE OCCASIONS, DID MR. CARTER

10

INDICATE TO YOU WHAT HE WANTED TO DO WITH RESPECT TO TESTIFY-

11

ING IN THE CASE?·

12
13

15

A

WHAT HE WANTED TO DO?-

Q

WHAT WAS MR. CARTER'S DESIRE WITH RESPECT TO

YOU HAVE TO CLARIFY

THAT.

14

WHETHER OR NOT HE WOULD TESTIFY IN THE GUILT PHASE?
A

16

"'<II

THAT WOULD BE HARD TO ESTIMATE, ACTU.D..LLY.

LOTS.

9

""'...

A

MY RECOLLECTION IS MR. CARTER WANTED TO PUT ON

17

AT ALL TIMES A FULL-BLOWN DEFENSE, AND PART OF PUTTING ON A

18

FULL-BLOWN DEFENSE WAS THE POSSIBILITY POTENTIAL OF TESTIFY-

19

ING.

Q

20

WHEN IS IT THAT YOU WOULD SAY YOU HAD THE

21

FIRST SERIOUS DISCUSSION WITH MR. CARTER ABOUT THIS, WHEN IT

22

WAS ACTUALLY GOING TO HAPPEN?
A

23

NOT TO BE -- I MEAN, THEY WERE ALL SERIOUS.

24

THER~ WAS NO QUESTION THAT MR. CARTER, FROM EARLY ON, WANTED

25

TO CONDUCT-CONTEST THE GUILT AT THE SPECIAL CIRCUMSTANCE

26

LEVEL.

27

THE TERM "SERIOUS DISCUSSION" WOULD HAVE BEEN AS WE GOT

28

CLOSER WHERE IT WAS TIME TO MAKE SERIOUS DECISIONS AND --

NO QUESTION ABOUT THAT.

THE FIRST SERIOUS -- TO USE

Petitioner's App. 19 - 443

ER 810

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 68 of 266
(994 of 1584)

6 170

Q
2

WHEN WAS THAT?
NEAR THE ENO OF THE CASf IN CHfEF WHf.RE

A

3

WE KNEW

4

AGREE WITH OUR APPROACH, BECAME TIME TO DEAL WITH IT.

5
6
7

MEAN WE DEFINITELY KNEW THAT MR. CARTER DID NOT

Q

WHAT WAS YOUR APPROACH, "YOU" BEING YOU AND

MISS MORRISSEY?
A

OUR APPROACH WAS THIS CASE WAS A POTENTIAL

8

DEATH CASE, AND AT SOME POINT I, ALONG WITH MISS MORRISSEY,

9

MA~E THE DECISION THAT THAT'S HOW IT HAD TO BE LITIGATED.

10

Q

WHAT DO YOU MEAN BY THAT?

11

A

AS AN EXAMPLE, THE REVIEW OF THE VOIR DIRE

12

OF THE JURORS WAS ALMOST ENTIRELY DEATH FOCUSED, SO RIGHT

13

FROM THE BEGINNING --

14

Q

YOUR POSITION, THEN, WAS THAT YOU WERE NOT

15

GOING TO PRESENT ANY DEFENSE OR MR. CARTER TESTIFY AT THE

16

GUILT PHASE?

17

A

UNLESS SOMETHING DEVELOPED, THE TENTATIVE

18

DECISION, AS ANY OF US KNOW ON BOTH SIDES OF THE TABLE

19

YOU HAVE TOUGH DECISIONS TO MAKE, AND SOMETIMES YOU LIKE TO

20

AVOID THEM, BUT THE TENTATIVE DECISION WAS IT WAS GOING TO

21

BE TRIED AS A PENALTY CASE.

22

Q

AGAIN, TO ANSWER MY QUESTION,

IN OTHER WORDS,

23

THE POSITION OF THE ATTORNEYS WAS THAT YOU WERE NOT GOING TO

24

PRESENT A DEFENSE AND MR. CARTER WAS NOT GOING TO TESTIFY AT

25

THE GUILT PHASE?

26

A

YES.

27

Q

NOW, THERE WAS A MARSDEN HEARING ON JULY 5TH

28

OF THIS PAST YEAR.

IN RELATIONSHIP TO THAT DATE, DID YOU AND

Petitioner's App. 19 - 444

ER 811

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 69 of 266
(995 of 1584)
6l 7l

24

MISS MORRISSEY HAVE

"...
""'

CONVERSATION WITH MR. CARTER AclOUT

2

WHETHER OR NOT A DEFENSE WAS GOING TO BE PRESENTE0 ANn WHETHER

3

OR NOT HE WOULD TESTIFY?

4

A

YES.

5

Q

AND WHEN WAS THAT CONVERSATION?

6

A

I MEAN

DON'T RECALL EXACTLY WHEN -- I JUST

7

REMEMBER BEING IN THE LOCKUP, MAYBE DOWN BELOW IN THE HOLQING

8

TANK, AND CERTAINLY AT OR NEAR THE TIME OF THE MARSDEN HEARING,

9

SO AT THE END OF THE PROSECUTION'S CASE.

10

Q

PROBABLY WITHIN A DAY OF JULY STH?

11

A

OH, ABSOLUTELY.

12

Q

YOU EXPRESSED WHAT TO MR. CARTER?

13

A

WELL,

IT BECAME TIME TO MOVE FROM THE TENTATIVE

14

TO THE DEFINITE, AND OUR ASSESSMENT AT THAT TIME WAS WE

15

SHOULD -- IT WAS IN MR. CARTER'S INTEREST TO NOT PUT ON ANY

16

DEFENSE AND TO NOT CALL HIM AS A WITNESS.

17

Q

WHAT WAS MR. CARTER'S RESPONSE TO THAT?

18

A

AGITATED.

19
N

.t.,,,

SAY, HAS BEEN VINDICATED.

TOTAL DISAGREEMENT, WHICH I MUST
WE SORT OF HAD THAT FEELING.

20

Q

WHO HAD THAT FEELING?

21

A

IN OTHER WORDS, WE KNEW THAT DEAN CARTER WANTED

22

TO CONTEST THE GUILT PHASE, BUT HE HAD SOME CONFIDENCE IN US,

23

TOO, SO HE WAS JUST, YOU KNOW --

24
25

Q

HIS POSITION WAS HE WANTED TO PUT ON A DEFENSE,

AND HE WANTED TO TESTIFY?

26

A

THAT IS RIGHT.

27

Q

WERE THERE OTHER DISCUSSIONS WITH MR. CARTER

28

ABOUT THE SUBJECT AFTER THIS MEETING AND PRIOR TO THE MARSDEN

Petitioner's App. 19 - 445

ER 812

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 70 of 266
(996 of 1584)
6 172

rit:AR I NG?
2

DID

3

A

YOU TALK TO H[M AGAIN?

NUMBER ONE,

I AM NOT PUTTING THIS

HJ

THE

JUST REMEMBER TALKING

4

FRAMEWORK OF A PARTICULAR MEETING.

5

TO HI M DO It/ N BE LO \.J , TA LKI NG TO HI M UP S TA I RS , AND WHET HE R IT

6

IS ONt: OR TWO MfETINGS THAT THIS COMES OUT,

7

SO YOU HAVE TO HELP ME WITH THAT.

8

9

Q

SO,

IN OTHER WORDS,

f

I DON'T KNOW,

IT WAS DISCUSSED SEVfR,C.,L

TIMES PRIOR TO THE MARSDEN HEARING AND IN EACH OF THOSE

10

OCCASIONS MR. CARTER INDICATED HE WANTED TO PUT ON A DEFENSE,

11

AND HE WANTED TO.TESTIFY?

12

A

YES, AND IT MIGHT HAVE BEEN FRAMED IN THE

13

NEGATIVE, YOU KNOW, "AREN'T YOU GOING TO DO SOMETHING, YOU

14

KNOW?

15

SO IT WOULD HAVE BEEN LIKE THAT, POSSIBLY, TOO.

16

THINK

17

18

19

WHERE ARE THE WITNESSES?

WHAT ARE YOU GOING TO DO?"
IN FACT,

RECALL THAT SORT OF THING.
Q

HOW WAS IT DECIDED THAT A MARSDEN HEARING WAS

GOING TO BE REQUESTED?
A

WELL,

CERTAINLY KNOW WHEN THERE IS A

20

DISAGREEMENT BETWEEN COUNSEL AND THE DEFENDANT IF HE WANTS

21

TO HAVE THAT AIRED IT OUGHT TO BE AIRED, AND PROBABLY

22

INFORMED HIM -- I DON'T SPECIFICALLY RECALL THAT.

23

SPECULATE,

24

THEN THIS IS WHAT WE SHOULD DO.

25
26

27
28

I

Q

IF I COULD

I PROBABLY INFORMED HIM IF THIS IS THE VEHICLE,

DID YOU HAVE A DISCUSSION ABOUT WHAT WOULD

TRANSPIRE, HOW THE MARSDEN HEARING WOULD BE HANDLED?
A

I TOLD HIM, AS I TOLD HIM OR ANY OTHER CLIENT

ANY TIME ANY PLACE, THAT I WILL DO THE TALKING, AND I WILL

Petitioner's App. 19 - 446

ER 813

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 71 of 266
(997 of 1584)

6l 73

26
REPRESENT TO THE JUDGE WHAT YOU REPRESENTED AND, QIJITE FRANKLY,
2

I REMEMBER GAINING SOME CONFIDENCE THAT T WOULD DO THAT BY

3

REMINDING HIM THAT I HAD DONE THAT ON THE MOTTON TO RECON-

4

SOLIDATE.

5

WOULD PUT EVERYTHING ON THE RECORD, BUT WE DEFINITELY DIS-

6

AGREED WHETHER THERE OUGHT TO BE A MOTION TO RECONSOLIDATE.

7

HE WANTED IT ANOTHER WAY.

8

AND AS I RECALL, HE FOUND THERE WAS NO FURTHER STATEMfNT.

Q

9

"..."'
"'

THAT rs WHERE WE HAD A CONFLICT.

I TOLD HIM I

I SPREAD IT ALL ON THE RECORD,

DID YOU SAY WHETHER OR NOT -- DID YOU SAY

10

ANYTHING TO MR. CARTER ABOUT WHETHER HE SHOULD SPEAK DURING

11

THE MARSDEN HEARING?

12

A

I SPECIFICALLY TOLD HIM HE SHOULD NOT SPEAK.

13

Q

UNLESS WHAT TRANSPIRED?

14

A

OH, UNLESS HE WAS ASKED A QUESTION BY THE

15

JUDGE,

16

I, OR MISS MORRISSEY, GOT IN LITIGATION ABOUT IT, OTHERWISE

17

HE SHOULD NOT SAY ANYTHING BECAUSE I SHOULD MAKE THE

18

REPRESENTATION.

I MADE AN OBJECTION OR DIDN'T, OR MR. GOLDSTEIN AND

19

Q

WHY IS THAT?

20

A

JUST THE WAY I DO THINGS.

"

I BELIEVE THE

21

LAWYER OUGHT TO DO THE TALKING, PROBABLY PRETTY CONSISTENT

22

WITH WHAT HAPPENS, BECAUSE USUALLY I HEAR JUDGES TELL

23

DEFENDANTS TO "KEEP QUI ET.

24

Q

YOU HAVE GOT A LAWYER.

11

WAS IT AFTER THE FIRST MARSDEN HEARING DID

25

MR. CARTER SAY ANYTHING TO YOU ABOUT SOMETHING THAT WASN'T

26

SAID ON THE JULY 5TH MARSDEN HEARING

27

THE COURT?

28

A

THAT HE WANTED SAID·TO

YES, THAT IS EVEN APPARENT AND,

Petitioner's App. 19 - 447

I AM, OF COURSE

ER 814

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 72 of 266
(998 of 1584)
fi l 7 4

27

LOOKING AT THE MARSDEN HEARING TRANSCRIPT.

I

WAS FORGETTING

2

THINGS AND NOT GETTING ~V~RYTHING IN AT THE FIRST APPEARANCE.

3

ONE OF THE OBVIOIJS THINGS THAT WAS FORGOTTEN WAS THE POTfNTTAL

4

OF HIS TESTIMONY.

5

Q

6

COURT UNTIL JULY l0TH?

7
8

A

JUST AN OVERSIGHT.

MR. GOLDSTEIN:

OBJECTION.

THERE IS NO QUESTION

PENDING.

11

THE COURT:

12

THE WITNESS:

13

THE COURT:

14

Q

15

I MUST SAY IN LOOKING AT

THE --

9
10

IS THERE SOME REASON THAT WASN'T STATED TO THE

SUSTAINED.
CAN I ASK MYSELF A QUESTION?
NOT YET.

BY MR. KLEIN:

SO MR. CARTER REMINDED YOU THAT

YOU HAD LEFT OUT THE PART ABOUT HIM WANTING TO TESTIFY?

16

A

YEAH, REMINDED WITH SOME EMPHASIS.

17

Q

DO YOU HAVE ANY MEMORY OF WHY THAT WASN'T PUT

18

ON THE RECORD UNTIL JULY l0TH?

19

A

BECAUSE IT WAS AN OVERSIGHT.

20

Q

WHAT DO YOU MEAN?

21

A

WELL,

IT WAS MUCH LIKE NOW,

I WAS SHOOK.

IT WAS TENSE, AND

22

WE WERE RESTING A DEATH PENALTY CASE AND NOT PUTTING ANYTHING

23

ON, AND THE DEFENDANT WANTED TO DO SOMETHING ELSE.

24

QUESTION:

THE

"DO YOU KNOW WHAT YOU ARE DOING."

25

MR. KLEIN:

I DON'T HAVE ANY OTHER QUESTIONS.

26

THE COURT:

MR. GOLDSTEIN.

27

MR. GOLDSTEIN:

28

THANK YOU.

I II

Petitioner's App. 19 - 448

ER 815

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 73 of 266
(999 of 1584)

6 l 75

CROSS-EXAMINATION
2

BY MR. GOLDSTEIN:

3

Q

IN REC.ALLING THESE M.!1.RSDfN HEARINGS,

I SUSPECT

4

THAT IN VERY FEW OF THEM WAS THERE A REQUEST MADE FOR YOU TO

5

LE,WE?

6

A

YOU GOT ME.

7

Q

WELL,

I WI LL CONTINUE TO CALL THEM "MARSDEN

8

HEARINGS," BUT I AM NOT SUGGESTING BY ANY MEANS THAT

9

WITH THAT CHARACTERIZATION AS ACCURATE.

10

11
12

A

AGREE

BUT YOU ARE REFERRING TO THESE HEARINGS IN THE

TRANSCRIPT?
MR. KLEIN:

EXCUSE ME.

I DON'T MEAN TO INTERRUPT,

13

BUT MAYBE I SHOULD ASK ONE MORE QUESTION,

14

JUST TO CLARIFY, BUT BEFORE HE MAKES HIS EXAMINATION

15

J

THE COURT:

IF I COULD DO THAT

VERY WELL.

16

DIRECT EXAMINATION (REOPENED)

17
18
19
"N
"
"'"'

20

BY MR. KLEIN:

Q

THERE WAS A THIRD MARSDEN HEARING ON JULY 17TH,

MR. GILLINGHAM?

21

A

YEAH -- OH, WAIT.

22

Q

DURING THE COURSE OF THAT HEARING THERE WAS A

23

YES, OKAY.

REQUEST THAT A NEW ATTORNEY BE APPOINTED?

24

A

THAT IS AT THE JULY 17TH OR

25

Q

IT IS PAGE 5393 OF EXHIBIT 3 -- I MEAN EXHIBIT

26

"C" TO THE MOTION, PAGE 5393.

27

A

CAN

28

Q

SURE.

READ THAT?
WHY DON'T YOU READ IT FIRST, AND THEN

Petitioner's App. 19 - 449

ER 816

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 74 of 266
(1000 of 1584)
6176

9

I WILL ASK THE QUESTION.
2
3

A
I

I GOT LOST WITH TrlE FAMILY VISITS.

OKAY.

DIDN'T CONTINUE ON.

4

Q

WAS THERE SOMETHING ELSE -- WAS THERE

A

5

REQUEST TO APPOINT ANOTHER ATTORNEY THAT MR. CARTER WANTED

6

EXPRESSED IN CONNECTION WITH THE MARSDEN HEARING?

7

A

YEAH.

8

Q

AND THIS IS SOMETHING ELSE HE WANTED YOU TO

9

SAY ON JULY STH?

10

A

11

MR. KLEIN:

12

RECALL IT NOW, READING THIS.

JUST DON'T RECALL THAT PART.

THAT COULD BE.

I DON'T HAVE ANY OTHER QUESTIONS, THANK

YOU.

13
14

n

'
"

CROSS-EXAMINATION (CONTINUED)

15

BY MR.,GOLDSTEIN:

16

Q

NOW, MR. GILLINGHAM, TO TALK FIRST ABOUT THE

17

DECISION WHETHER OR NOT TO CALL THESE WITNESSES THAT YOU

18

LISTED ON JULY 5TH.

19

TAKE IT?

YOU HAVE THAT TRANSCRIPT BEFORE YOU,

IF YOU COULD HELP ME WITH THE PAGE.

20

A

I DO.

21

Q

5092 IT BEGINS.

~

YOU FELT,

I TAKE IT, THAT AS

22

A TACTICAL MATTER IT WAS BEST TO FIGHT YOUR BATTLE AT THE

23

PENALTY PHASE RATHER THAN AT THE GUILT PHASE,

IS THAT SO?

24

A

YES.

25

Q

DID YOU HAVE IN MIND IN MAKING THAT DECISION

26

THE PENDENCY OF THE OAKLAND AND SAN DIEGO CASES?

27

A FACTOR IN MAKING THAT DECISION?

28

A

LET ME ANSWER IT THIS WAY.

Petitioner's App. 19 - 450

WAS THAT

IT WAS VERY HARD TO

ER 817

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 75 of 266
(1001 of 1584)
6 1 77

30

'SEPARATE, /1.S I SIT HERE NOW,
2

I SUPPOSE IT WOULD BE -- HA[i TO ~E SOME FACTOR, BUT

3

HAVE A VIVID RECOLLECTION, FOR EXAMPLE, OF CALLING MR. BUMfR,

4

CALLING O.AKLAND COUNSEL, A JOINT DECISION --

5
6

Q

T

DO NOT

THESE ARE DECISIONS YOU AND YOUR CO-COUNSEL

MISS MORRISSEY, WOULD MAKE?

7

A

YES.

8

Q

TAKING INTO CONSIDERATION THE STRENGTHS AND

9
10

WEAKNESSES OF THE GUILT PHASE AND THE PENDENCY OF OTHER
PROBLEMS IN OTHER JURISDICTIONS, TRUE?

11

A

12

MR. KLEIN:

13

MR. GOLDSTEIN:

14

THE COURT:

15

THE WITNESS:

16
17

""'
""

IN TfRMS OF '-iOW MUCH OF A F,:.'.:.CTOR.

TRYING TO -0 BJECT.

IT IS AMBIGUOUS.

HE SEEMS TO UNDERSTAND.

THE OBJECTION IS OVERRULED.
YEAH.

IN TRYING TO KEEP A HANDLE ON A

LOT OF THINGS, A LOT OF BALLS IN THE AIR,

Q

BY MR. GOLDSTEIN:

IF YOU WILL.

A LOT OF CONSEQUENCES, MANY

18

OF WHICH YOU FELT COULD BE BAD FOR THE DEFENDANT BY --

19

DEPENDING ON THE DECISIONS YOU MADE?

20

A

YES, BUT THERE WAS NO QUESTION OUR PRIMARY

21

DECISION WAS THIS CASE, BECAUSE THIS IS WHERE I REPRESENTED

22

MR. CARTER.

23

Q

IN CONSIDERING THESE VARIOUS WITNESSES WHOSE

24

NAMES YOU HAVE LISTED IN THE BEGINNING OF PAGE 5092, THESE ARE

25

WITNESSES

26

PRESENTING A SEPARATE DEFENSE LIKE DIMINISHED CAPACITY, OR

27

SOME DEFENSE LIKE THAT, BUT RATHER AN ATTEMPT TO WEAKEN THE

28

PROSECUTION'S SHOWING, IS THAT A FAIR SUMMARY OF THESE PEOPLE,

COULD IT FAIRLY BE SAID WHO ARE NOT,

Petitioner's App. 19 - 451

IN A SENSE,

ER 818

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 76 of 266
(1002 of 1584)

6173

31

OF THEIR TESTIMONY?
2

SAY A SEPARATE DEFENSE.

4

MATTER WHAT YOU LABEL IT OR CALL IT.

5

CUTE ON THE STAND, BUT I AM JUST SAYING

IT DOESN'T

AM NOT TRYING TO Bf

WE ARE NOT TALKING ABOUT A DEFENSE BASED UPON

A MENTAL ILLNESS OR ALCOHOL OR DRUGS TO BEGIN WITH.

8

OF THESE WITNESSES HAD TO DO WITH THAT TYPE OF DEFENSE, TRUE?
A

AGAIN,

NONE

I AM JUST TRYING TO BE EXACT.

WOULD

10

HAVE TO REVIEW -- THAT DOESN'T POP INTO MY MIND, BUT

11

NOT SURE THAT MY RECOLLECTION OF THOSE WITNESSES THERE WASN'T

12

SOMETHING THERE.

13

JUST TRYING TO BE FAIR TO MY RECOLLECTION.

14

~
~

Q

IF A DEFENSE PREVAILS,

7

9

"

I AM NOT SURE I WOULD OTFFERfNTIP.TE WHf~~ YOU

3

6

.

A

Q

AM

I AM NOT TRYING TO SUGGEST THERE IS.

I AM

LOOKING AT THESE WITNESSES, EDDIS JEFFREY

15

AND CERTAIN WITNESSES WITH RESPECT TO RAY BLEVINS AND HIS

16

DISAGREEMENT WITH THE VICTIM FEMALES, AND A FELLOW BY THE

17

NAME OF WILLIAM SCHROLL, OR SCHROLL, S-C-H-R-0-L-L, ALL OF

18

THESE HAD TO DO WITH A GENERAL DEFENSE RATHER THAN A SPECIFIC

19

DEFENSE, THAT rs TO SAY,

20

EVIDENCE.WAS NOT AS STRONG AS IT LOOKED,

21

A

THAT IT WAS -- THAT THE PROSECUTION'S
IN OTHER WORDS.

WELL, LET ME ANSWER TWO WAYS.

TO GO BACK TO

22

MY RECOLLECTION OF WHAT WITNESSES WOULD TESTIFY, IF I MIGHT

23

INVITE YOUR ATTENTION TO THE TOP OF 5093, YOU HAD RIGHT THERE

24

IN THE HEARING THAT I HAD FORGOTTEN RIGHT THERE WHAT MR.

25

SCHROLL WOULD TESTIFY TO, AND I HAD TO ASK MISS MORRISSEY.

26

I DON'T REMEMBER TODAY, SO FOR ME TO SAY NONE OF THESE

27

WITNESSES HAD A CERTAIN POTENTIAL IN THAT AREA, THAT WOULD

28

NOT BE FAIR TO SAY --

Petitioner's App. 19 - 452

ER 819

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 77 of 266
(1003 of 1584)

52

Q

IN ANY EVENT

2

A

GO AHEAD.

3

Q

4

IN MIND AND DECIDED NOT TO USE ANY OF THESE WITNESSES,

5

SO?

6

WHEN WE MADE THE DECISION, MARCIA AND I, NOT

TO PUT ON THE DEFENSE, THOSE WITNESSES DID NOT STAY IN MY

8

MIND MUCH AFTER THAT.

9

THIS AS A PENALTY CASE, THEY WERE NOT IN MY MIND.

Q

IN OTHER WORDS, WHEN I DECIDED TO TRY

BUT AT THE TIME YOU MADE THE DECISION NOT TO

11

PUT ON ANY DEFENSE AT ALL, YOU HAD AN IDEA WHAT DEFENSES WERE

12

AVAILABLE, DIDN'T YOU?

13

DEFENSES TO FIND OUT WHETHER THEY EXISTED AT ALL, YOU AND

14

YOUR PREDECESSOR, MR. PERLO?

15

MR. KLEIN:

16

THE COURT:

17

18
19

"

A

IS THAT

7

10

"
"'""'

YOU HAD THESE WITNESSfS' POSSIBLE TESTIMONY

20

YOU HAD INVESTIGATED A VARIETY Of

OBJECT.
WELL,

IT IS COMPOUND, NOW.

I THINK WE ARE ENTERING IN AN AREA

THAT NEITHER PARTY WANTED TO GET INTO.
DIDN'T SAY

MR. GOLDSTEIN:
INTO IT AT ALL.

DIDN'T WANT TO GET

AM NOT ASKING FOR SPECIFIC DETAILS AT ALL.

THE COURT:

THINK WE ARE TALKING ABOUT A COMMUNICA-

21

TIONS THING.

22

WHO THEY WERE, WHAT THEY WERE GOING TO TESTIFY TO.

23

A CONSCIENTIOUS DECISION KNOWING WHAT THEIR TESTIMONY WAS

24

GOING TO BE TO NOT PUT THEM ON THE STAND AT THAT POINT,

25

NOT TO CALL THEM, RIGHT?

THE INFERENCES THAT MR. 'GILLINGHAM DIDN'T KNOW

26

THE WITNESS:

27

MR. GOLDSTEIN:

28

Q

YOU MADE

YES.
THANK YOU.

BY MR. GOLDSTEIN:

IN TERMS OF DEALING WITH THE

Petitioner's App. 19 - 453

ER 820

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 78 of 266
(1004 of 1584)
6 18 0

3

DEFENDANT AND HIS POSSIBLE TESTIMONY OR POTENTIAL TESTIMONY,
2

AS I THINK YOU PUT IT,

3

WITHOUT TELLING ME WHAT THE DETAILS WERE THAT YOU WENT OV~R

4

IN DETAIL WITH HIM WHAT HIS POSSIBLE TESTIMONY WOULD BE,

5

DID YOU t'-WT?
A

6

I DIDN'T GO OVER IN DETAIL WITH HIM

7

WHAT HIS TESTIMONY WAS, BECAUSE MY APPROACH TO THE CASE WAS

8

I DID NOT WANT TO PUT DEAN CARTER ON THE STAND.

Q

9

10

12

DIDN'T YOU FIND OUT OR TRY TO FIND OUT WHAT

IT IS HE COULD SAY OR WHAT HE INTENDED TO SAY?
A

11

THERE CERTAINLY WERE DISCUSSIONS OVER A PERIOD

OF WHATEVER IT HAS BEEN THAT

Q

13

HAVE BEEN IN THE CASE, YEAH.

EACH TIME YOU HAD A HEARING OR ASKED FOR A

14

HEARING AT WHICH THE DISTRICT ATTORNEY WAS EXCLUDED -- WE

15

HAVE BEEN CALLING THEM "MARSDEN HEARINGS"

16

WHETHER THAT IS ACCURATE,

17

TIME YOU WANTED TO SPREAD SOMETHING ON THE RECORD -- I THINK

18

THAT WAS YOUR PHRASE -- DID YOU NOT PUT ON THE RECORD AS

19

ACCURATELY AND COMPLETELY AS POSSIBLE AS YOU WERE ABLE TO

20

DO IT A SYNOPSIS OF THE DEFENDANT'S POSITION?
A

21
22
3

NO,

I TAKE IT YOU DISCUSSED THAT WITH HTM.

23
24

I DON I T KNO\-/

I DON'T BELIEVE IT IS -- BUT EACH

IT WAS OBVIOUS I DIDN'T DO A VERY GOOD JOB OF

THAT.
DIDN'T ASK YOU THAT, COUNSELOR.

Q

LISTEN

TO THE QUESTION:
IS IT POSSIBLE

25

DO IT AS ACCURATE?

NO --

26

A

DID

27

Q

DID YOU ATTEMPT IN EACH INSTANCE TO ACCURATELY

28

AND COMPLETELY SUMMARIZE THE DEFENDANT'S POSITION?

Petitioner's App. 19 - 454

ER 821

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 79 of 266
(1005 of 1584)
6181

34

2
3

·A

T~AT WAS MY INTENT, YES.

Q

IN TERMS OF THE MOTION TO RECONSOLIDATE, WHICH

YOU FAVORED AND HE DIDN'T --

4

A

YOU ARE TALKING WAY BACK?

5

Q

WAY BACK, YES.

DID YOU NOT IN THAT HEARING

6

SET FORTH AT SOME LENGTH THE DEFENDANT'S DESIRE NOT TO HAVE

7

THESE MURDERS ALL TRIED IN ONE PROCEEDING?

8

A

YES.

9

Q

AND YOU DISAGREED WITH THAT, OF COURSE?

10

A

YES, WITH HIS POSITION, YES.

11

Q

IN TERMS OF THESE OTHER HEARINGS THAT WE HAD

12

OR THAT YOU HAD,

I SHOULD SAY, YOU MADE THE SAME EFFORTS TO

13

FULLY SET FORTH THE DEFENDANT'S POSITION?

14

MR. KLEIN:

15

Q

16

THE COURT:

OVERRULED.

17

MR. KLEIN:

WHAT HEARINGS, YOUR HONOR?

18

MR. GOLDSTEIN:

19

THE COURT:

IS THAT NOT SO?

I AM ONLY TALKING ABOUT THE MARSDEN

THAT IS MY UNDERSTANDING.

IS THAT YOUR UNDERSTANDING, MR. GILLINGHAM?

21

THE WITNESS:

22

YES.

SPREAD HIS FULL FEELING?

Q

24
25

BY MR. GOLDSTEIN:

HEARINGS.

20

23

OBJECTION, AMBIGUOUS.

CASE,

DID I -- WAS IT MY INTENT TO
YES.

BY MR. GOLDSTEIN:

THAT WAS TRUE IN EACH

IN EACH INSTANCE WHERE THERE WAS SUCH A HEARING?
YEAH, THAT WOULD BE MY INTENT.

26

A

27

MR. GOLDSTEIN:

28

THE COURT:

THANK YOU.

HAVE NOTHING FURTHER.

ANY REDIRECT?

Petitioner's App. 19 - 455

ER 822

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 80 of 266
(1006 of 1584)

35

6182

2

MR. KLEIN:

YES.

THE COURT:

GO ~HEAD.

3

REDIRECT EXAMINATION

4
5

BY

MR.

KLEIN:

Q

6
7

OF WHAT WAS SAID IN THE THREE HEARINGS -- ON JULY TTJL JULY

8

10TH AND JULY 17TH -- BE EXPRESSED TO THE COURT ON JULY 5TH?

9

A

YES.

10

Q

IS THAT RIGHT?

11

A

YES.

12

MR. KLEIN:

NOTHING FURTHER.

13

THE COURT:

ANYTHING FURTHER?

14

MR. GOLDSTRIN:

15

THE COURT:

NO.

THANK YOU, MR. GILLINGHAM.

JUST SO THE RECORD IS CLEAR, I HAD FORGOTTEN

16

"'....N
"'"'

IT IS MR. CARTER'S DESIRE THAT THE SYNTHESIS

17

THE DATES THE JURY BEGAN DELIBERATIONS ON THIS MATTER ON THE

18

10TH OF JULY, SO THE 17TH HEARING WAS A WEEK AFTER THAT?

19

MR. KLEIN:

YES.

20

THE COURT:

IT IS 12 O'CLOCK.

DO WE NOT WANT TO

21

START ANOTHER WITNESS UNTIL AFTER LUNCH?

22

SUPPOSED TO DO SOMETHING?

23

MR. GOLDSTEIN:

24

THE COURT:

25
26

WAS.

IS MR. GILLINGHAM

WAIT, OUTSIDE.
AM NOT QUITE SURE WHAT THE QUESTION

I THINK WE WILL WAIT WITH THIS QUESTION UNTIL THIS

AFTERNOON.

27

MR. KLEIN:

YES.

28

THE COURT:

ONE-TH IR TY.

ARE YOU CALLI NG MISS f\10RRI SSEY?

Petitioner's App. 19 - 456

ER 823

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 81 of 266
(1007 of 1584)

6183
36

MR. KLEIN:
2
3
4

5
6

I AM GOING TO OEC[DE THAT NOW,

BUT I

THINK I AM GOING TO CALL MR. CARTER.
THE COURT:

MR. KLEIN, DO I HAVE PERMISSION TO ASK

MR. GOLDSTEIN JUST A TECHNICAL QUESTION?
MR. KLEIN:

OKAY.

(NOON RECESS TAKEN.)

7

8
9
10

12
13
14

15
16
17
18

19

20
21
22

23
24

25
26

27
28

Petitioner's App. 19 - 457

ER 824

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 82 of 266
(1008 of 1584)

6184

7

SANTA MONICA, CALIFO:<NIA; THURSDAY, JANUARY 11,
2

DEPARTMENT "C"

3

1990,:

1 :45

P.M.

HON. ROBERT W. THOMAS, JUDGE

(APPEARANCES AS HERETOFORE NOTED.)

4

5

THE COURT :

I N THE MATTER OF DE .AN

° HI LL I P e,.c,, RTE R,

THE

6

DEFENDANT AND COUNSEL ARE PRESENT, THE PEOPLE ARE REPRESENTED.

7

THE DEFENSE MµY PROCEED.

8

MR. KLEIN:

CALL MR. CARTER.

9

THE CLERK:

PLEASE RAISE YOUR RIGHT HAND.

10

YOU DO SOLEMNLY SWEAR THAT THE TESTIMONY YOU

11

MAY GIVE IN THE tAUSE NOW PENDING BEFORE THIS COURT SHALL BE

12

THE TRUTH, THE WHOLE TRUTH, AND NOTHING BUT THE TRUTH, SO

13

HELP YOU GOD?

14

THE WITNESS:

15

THE CLERK:

YES.
WOULD YOU TAKE THE WITNESS STAND AND

16

STATE YOUR NAME FOR THE RECORD, AND SPELL YOUR LAST NAME,

17

PLEASE.

18

THE WITNESS:

DEAN CARTER.

19

..,.,",..
.,

20

DEAN PHILIP CARTER,

21

THE DEFENDANT HEREIN, CALLED AS A WITNESS ON HIS OWN BEHALF,

22

HAVING BEEN FIRST DULY SWORN, TESTIFIED AS FOLLOWS:

23
24
25
26

DIRECT EXAMINATION
BY MR. KLEIN:

Q

MR. CARTER, AFTER MR. GILLINGHAM WAS APPOINTED

27

AND MISS MORRISSEY WERE YOUR ATTORNEYS ON THIS CASE, WHEN

28

WOULD THE FIRST TIME BE THAT YOU DISCUSSED WITH MR. GILLINGHAM

Petitioner's App. 19 - 458

ER 825

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 83 of 266
(1009 of 1584)
6185

38

ABOUT STRATEGY CONCERNING A PRESENTATION OF DEFENSE AND YOUR
2

TESTIFYING?
A

3
4

PROBABLY

A

FEW WEEKS A~TER HE WAS ON THE CASE

THE FIRST TIME.

Q

5

NOW, FROM THAT TIME UNTIL THE TRIAL STARTED,

6

ABOUT HOW MANY TIMES DID YOU MEET WITH MR. GILLINGHAM AND

7

DISCUSS THESE TWO SUBJECTS?
A

8
9

I AM REALLY NOT SURE HOW MANY TIMES TH~RE WERE.

THERE WERE A NUMBER OF TIME, MAYBE AROUND 10.

Q

10

NOW, DURING THESE DISCUSSIONS DID YOU EXPRESS

11

TO HIM WHAT YOUR VIEW WAS AS TO WHETHER THERE SHOULD BE A

12

DEFENSE AND WHETHER YOU WOULD TESTIFY DURING THE GUILT PHASE

13

OF THE TRIAL?

14

A

YES.

15

Q

WHAT DID YOU SAY?

16

A

WE LL ,

I TO LD HI M THAT

I \,JAN TED TO P RE S ENT A

17

DEFENSE AND THAT DURING THE GUILT PHASE I WAS MORE CONCERNED

18

ABOUT THE GUILT PHASE AND THAT I FELT IT WAS NECESSARY FOR

19

ME

20
21

TO

TESTIFY.

Q

DISCUSSIONS OF -- LET ME MOVE ON.
DURING THESE DISCUSSIONS PRIOR TO THE TRIAL

22

23

NOW, DURING THESE DISCUSSIONS, WERE THERE

WAS THERE ANY RESOLUTION OF WHAT THE STRATEGY WOULD BE?

24

A

NO.

25

Q

WHAT DID YOU THINK THE STRATEGY WOULD BE

26

27
28

IMMEDIATELY PRIOR TO THE TIME OF TRIAL?
A

WELL,

I HAD ASKED GILLINGHAM ABOUT THAT A

NUMBER OF TIMES AND HIS RESPONSE WAS ALWAYS, "WE CAN'T REALLY

Petitioner's App. 19 - 459

ER 826

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 84 of 266
(1010 of 1584)
6186

9

TELL UNTIL WE GET INTO TRIAL AND SEE WHAT HAPPENS.''
2

3

Q

COURSE OF THE VOIR DIRE ABOUT THIS SUBJECT?

4
5

A

Q

A

9

VOIR DIRE.

13

~

WASN'T HAPPY WITH WHAT HE WAS DOING, WITH WHAT

0

WHAT WAS HE FOCIJSING ON THAT YOU WERE UNHAPPY

A

HE WASN'T REALLY PAYING ANY ATTENTION TO THE

ABOUT?

GUILT ASPECT.

HE WAS MORE CONCERNED ABOUT THE PENALTY PHASE.

15

THAT IS WHAT

FELT, ANYWAY.

Q

NOW, WHEN WAS THE FIRST TIME THAT YOU REALLY

17

HAD A SERIOUS DISCUSSION WITH MR. GILLINGHAM AND/OR MISS

18

MORRISSEY ABOUT THE PRESENTATION OF THE DEFENSE AND ABOUT YOUR

19

TESTIFYING

~

~

I QUESTIONED THE WAY HE WAS CONDUCTING

14

16

N

YEAH.

HE WAS FOCUSING ON.

11

12

WAS THERE ANY DISCUSSION ABOUT THIS SUBJECT

IN THE CONTEXT OF HOW HE WAS CONDUCTING VOIR DIRE?

8

10

I'D ASKED HIM ABOUT IT A COUPLE OF TIME~,AND

HE REALLY DIDN'T HAVE A RESPONSE.

6
7

NOW, WERE THERE ANY DISCUSSIONS DURING THE

AT

THE GUILT PHASE AFTER THE TRIAL STARTED?

20

A

IT WAS THE DAY BEFORE THE PROSECUTION RESTED.

21

Q

WHAT DID MR. GILLINGHAM SAY TO YOU?

22

A

HE TOLD ME THAT HE DIDN'T PLAN TO CALL ANY

~

<
u
0
z
~
~

~

~
~
~

~

c<
u
~

23

WITNESSES AND THAT HE WASN'T GOING TO PUT ON A DEFENSE.

24

AS SOON AS THE

~

25

Q

AND WHAT ABOUT YOUR TESTIFYING?

26

A

PARDON?

27

Q

WHAT ABOUT YOUR TESTIFYING?

28

A

HE ALSO STATED, WELL,

IF HE DIDN'T PUT ON A

Petitioner's App. 19 - 460

ER 827

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 85 of 266
(1011 of 1584)

0

'DEFENSE AND I AM GOING TO TESTIFY,
2

AND HE SA ID

3

NOT GOING TO BE TESTIFYING.

WE ARE NOT GOING TO PUT ON A DEFENSE I WAS

4

Q

WHAT WAS YOUR RESPONSE TO THAT?

5

A

I WAS UPSET.

6

I INDICATED PRETTY STRONGLY THAT

WASN'T HAPPY WITH HIM.

7

Q

DID YOU TELL HIM WHAT YOU WANTED TO DO?

8

A

I TOLD HIM

9

10
11
12
13

WANTED TO CALL WITNESSES, PUT ON

A DEFENSE AND TESTIFY.

Q

AND WAS THERE SOME DISCUSSION ABOUT WHO WAS

GOING TO MAKf. THAT DECISION?
A

HE SAID IT WAS UP TO HIM?

HE SAID THAT HE

KNOWS AS HARD AS IT IS SOMETIMES A LAWYER HAS TO PLAY GOD.

14

Q

DID YOU SAY SOMETHING IN RESPONSE TO THAT?

15

A

YEAH, WELL,

16
17

""',..
"'"'

IF

I ASKED ~IM ABOUT T~AT,

I TOLD HIM THAT MIGHT BE FINE, BUT

DIDN'T APPRECIATE HIM DOING THAT WITH MY LIFE.

Q

AFTER THIS DISCUSSION, WERE THERE OTHER CONVER-

18

SATIONS WITH MR. GILLINGHAM AND/OR MISS MORRISSEY PRIOR TO

19

THE TIME OF THE FIRST MARSDEN HEARING ON JULY 5TH?

20
21

A

TO HIM THAT

WELL, EVERY OPPORTUNITY

HAD I WOULD MENTION

WASN'T HAPPY.

22

Q

DID YOU TELL HIM WHAT YOU WANTED TO BE DONE?

23

A

YES,

24

Q

WHAT DID YOU TELL HIM?

25

A

WELL,

26

WITNESSES

27

DEFENSE, AND

28

Q

I DID.

I TOLD HIM I WANTED THEM TO SUBPOENA THE

WANTED TO CALL, AND THAT I WANTED TO PUT ON A
WANTED TO TESTIFY.
DURING THESE DISCUSSIONS, DID YOU MAKE ANY

Petitioner's App. 19 - 461

ER 828

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 86 of 266
(1012 of 1584)
6188

REQUEST WITH RESPECT TO THE MARSDEN-TYPE OF HEARING?
2

A

YEAH,

I DID.

3

Q

WHAT DID YOU SAY?

4

A

v-/ELL,

I ASKED HIM, YOU KNOW,

IF HE WOULD INDI-

5

CATE TO THE COURT THAT I WAS NOT HAPPY WITH WHAT HE WAS DOING,

6

AND I WANTED TO MAKE SURE IT WAS CLEAR THAT IT WAS OVER MY

7

OBJECTION THAT HE WAS DOING IT.

Q

8
9

BY "UNHAPPY," THAT YOU WANTED TO PRESENT A

DEFENSE AND YOU WANTED TO TESTIFY?

10

A

RIGHT.

11

Q

WAS THERE A DISCUSSION ABOUT WHO SHOULD DO THE

12

TALKING DURING THE MARSDEN HEARING?
A

13

YEAH, HE TOLD ME HE WOULD PRESENT IT TO THE

14

COURT AND FOR ME TO JUST SIT THERE AND LET HIMJ YOU KNOW,

15

GET IT ON THE RECORD.

Q

16

NOW, AFTER THE FIRST MARSDEN HEARING WAS OVER,

17

DID YOU SAY ANYTHING TO MR. GILLINGHAM ABOUT SOMETHING THAT

18

WASN'T SAID IN THE FIRST MARSDEN HEARING?
A

19

YEAH,

I TOLD HIM THAT I DIDN'T THINK HE REALLY

20

MADE IT AS CLEAR AS I WOULD HAVE LIKED; THAT HE HAD LEFT OUT

21

A COUPLE OF THINGS.

22

Q

WHAT HAD HE LEFT OUT?

23

A

I DON'T THINK HE MENTIONED ALL THE WITNESSES

24
25

THAT I WANTED TO CALL, AND HE ALSO DIDN'T TELL THE COURT THAT
WANTED TO TESTIFY ON MY OWN BEHALF.

26

27
28

Q

SO DID HE SAY WHAT HE WAS DOING IN RESPONSE TO

A

YEAH, HE SAID THAT HE WOULD ASK FOR ANOTHER

THAT?

Petitioner's App. 19 - 462

ER 829

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 87 of 266
(1013 of 1584)
6189

2

MARSDEN HEARING AND GET IT ON TYE RECORD.
KLEIN:

2

MR.

3

THE COURT:

I HAVE NO FURTHER QUESTIONS.
MR. GOLDSTEIN.

4

CROSS-EXAMINATION

5

6

BY MR. GOLDSTEIN:

7

Q

WAS MISS MORRISSEY PRESENT DURING THESE CONVER-

9

A

DURING THE TRIAL, YOU MEAN?

10

Q

NO, DURING ANY OF THE CONVERSATIONS THAT WERE

8

SATIONS?

11

HAD OUTSIDE THE TRIAL WHEN YOU WERE IN CUSTODY IN THE BACK OR

12

AT THE JAIL?
A

13

"r..,
"'
N

I DON'T REALLY REMEMBER.

14

WHEN I HAVE TALKED TO HIM.

15

WE DISCUSSED THAT OR NOT.

SHE HAS BEEN THERE

DON'T KNOW IF SHE WAS THERE WHEN

16

Q

17

WANTED TO TESTIFY?

18

A

DOWNSTAIRS, YES.

19

Q

WHEN WAS THAT IN RELATION TO THE HEARING OF

20

THE 10TH WHEN THIS SUBJECT FIRST CAME UP?
MR. KLEIN:

21

22

MR. GOLDSTEIN:

I OBJECT TO THE QUESTION.

IT MIS-

AM SORRY.

LET ME ADD A PHRASE TO

IT.

WHEN THE SUBJECT FIRST CAME UP HERE IN COURT.

25

26

THE WITNESS:

27

Q

28

WELL,

STATES THE EVIDENCE, WHEN THE SUBJECT FIRST CAME UP.

23
24

WAS SHE PRESENT WHEN YOU INDICATED THAT YOU

COULD YOU REPEAT THAT.

BY MR. GOLDSTEIN:

IT APPEARS FROM THE TRAN-

SCRIPT THAT THE FIRST MENTION OF YOUR QUOTE HERE, ""THE

Petitioner's App. 19 - 463

ER 830

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 88 of 266
(1014 of 1584)

POTENTIAL OF MR. CARTER TESTIFYING," THE FIRST TIME THIS EVER
2

I S RA I SED HERE I N CO URT I S O~J THE 1 0 TH , TH I S I S - - I CA LL I T

3

AN AFTERTHOUGHT, BUT TO ADD TO THE MATERIAL THAT HE, MR.

4

GILLINGHAM, TP..Ll<ED ABOUT THE PREVIOUS TIME,

5

5TH, THAT IS THE FIRST TIME YOU WOULD AGREE THAT THIS MATTER

6

WAS EVER DISCUSSED IN OPEN COURT IN THIS MARSDEN HEARING,

7

RIGHT?

8

A

ON THE 10TH, RIGHT.

9

Q

PRIOR TO THAT TIME YOU HAD,

I THINK, ON THE

I TAKE IT,

INCH-

10

CATED TO MR. GILLINGHAM AND MISS MORRISSEY, BOTH, THAT YOU

11

WANTED TO TESTIFY?

12

A

YES,

13

Q

AND YOU THOUGHT IT WAS HI YOUR BEST INTEREST

14

TO DO SO?

15

A

ABSOLUTELY.

16

Q

DID THEY ANSWER TO YOU, EITHER ONE OF THEM,

I HAD.

17

AT ANY TIME, THAT THEY THOUGHT IT WAS IN YOUR BEST INTEREST

18

NOT TO DO SO?

1!1
20

21
22

A

YEAH, THEY DID.

THEY SAID IT WAS A TACTICAL

DECISION.

Q

DID THEY TALK ABOUT THE PENDENCY OF THE CASES

IN OTHER JURISDICTIONS?

23

A

THEY DIDN'T TELL ME ABOUT ANY OTHER CASES.

24

Q

WELL, YOU KNEW ABOUT THE OTHER TWO CASES, RIGHT:

25
26

I MEAN YOU ALREADY HAD YOUR PRELIMINARY HEARING DOWN IN
. SAN DIEGO BY THIS TIME?

27

A

YEAH.

28

Q

DID YOU THINK THAT ANY TESTIMONY THAT YOU GAVE

Petitioner's App. 19 - 464

ER 831

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 89 of 266
(1015 of 1584)

6191

44

HERE IN· LOS ANGELES MIGHT BE USED ,t,.G.ATNST YOU IN SPN 1--i[EGO?
2
3
4

Q

WITHOUT GOING INTO ANY OF THE SUBSTANCE OF

6

WHATEVER YOUR TESTIMONY WOULD BE ON DIRECT, YOU UNDERSTOOD

7

THAT YOU WERE GOING TO BE SlJBJECT TO CROSS-EXAMINATION BY ME?

IF THAT WERE TO BE A DENIAL

8

A

YES.

9

Q

AND THAT I WOULD BE ASKING YOU QUESTIONS ABOUT

YOUR TESTIMONY?

11

A

RIGHT.

12

Q

AND ABOUT THE ITEMS FOUND IN THE CAR THAT WE

ASSERT WERE IN YOUR POSSESSION?

14

A

RIGHT.

15

Q

AND SOME OF THOSE ITEMS INCLUDED THINGS TAKEN

16

N

FEEL -- DON'T REALLY THINK THAT IS A FACTOR INTO THE DECISION.

WHAT THAT TESTIMONY MIGHT BE,

13

"...
"'

I DON'T REALLY THINK THAT ENTERED -- I noN'T

5

10

"'

A

BOTH FROM THE VICTIM IN SAN DIEGO AND IN OAKLAND, CORRECT?

17

A

RIGHT.

18

Q

DID YOU THINK YOU MIGHT BE ASKED QUESTIONS

19

ABOUT THOSE ITEMS?

20

A

I HAD NO DOUBT ABOUT IT.

21

Q

AND BE CALLED TO EXPLAIN HOW THEY CAME INTO

2,2

YOUR POSSESSION?

23

A

YES.

24

Q

DO YOU THINK THOSE ANSWERS WOULD HAVE BEEN

25

COMMUNICATED TO THE AUTHORITIES IN SAN DIEGO AND OAKLAND?

26

A

MORE THAN LIKELY.

27

Q

AND THAT THEY MIGHT BE USED AGAINST YOU IN

28

SOME FORM IN SAN DIEGO AND OAKLAND?

Petitioner's App. 19 - 465

ER 832

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 90 of 266
(1016 of 1584)

+5

2
3

A

I WOULD IMAGINE SO, YES.

Q

DID YOU BELIEVE TYAT YOU WERE GOING TO BE

TRIED IN SAN DIEGO AND OAKLAND?

4

A

YES.

5

Q

SO YOU KNEW THAT IN THE FUTURE THERE -- OR

6

BELIEVED IN THE FUTURE THERE WERE GOING TO BE THESE TWO

7

DEATH-PENALTY TRIALS?

8

A

YES.

9

Q

IN THE PAST WHEN THERE HAVE BEEN DISAGREEMENTS

10

BETWEEN YOU AND YOUR LAWYERS, THERE HAVE BEEN A NUMBER OF

11 ·

HEARINGS IN WHICH THEY WERE EXPRESSED HERE IN COURT, CORRECT?

12

A

YES.

13

Q

YOUR LAWYERS WOULD STATE THE SUBSTANCE OF THE

14

DISAGREEMENT?

15

A

YES, THEY WOULD.

16

Q

YOU FOUND -- WITHDRAW THAT.
WERE YOU OF THE OPINION THAT THOSE SUMMARIES

17
18

WERE ACCURATE?

19

A

PREVIOUS MARSDEN HEARINGS?

20

0

IN ANY OF THE PREVIOUS HEARINGS IN WHICH YOUR

21

LAWYERS AND YOU DISAGREED AND YOUR LAWYER STATED YOUR POSITION

22

A

YEAH, PRETTY MUCH.

23

Q

TO GO BACK TO WHAT I BELIEVE rs THE FIRST

24

TIME AT THE PRELIMINARY HEARING WHEN THE MOTION WAS MADE TO

25

DISMISS THE OAKLAND AND SAN DIEGO CHARGES, THIS WAS DONE AT

26

YOUR REQUEST, WAS IT NOT?

27

A

YES, IT WAS.

28

Q

YOU COMMUN I CA TED THAT TO YOUR LAWYER, MR. PERLO?

Petitioner's App. 19 - 466

ER 833

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 91 of 266
(1017 of 1584)
6193

2
3

Q

AND 1-iE COMMUNICATED THAT BY MAKING THE OoJECTIC1J\

AT THE MUNICIPAL COURT PRELIMINAR) HEARING, RIGHT?
A

RIGHT.

5

Q

HE DID WHAT YOU WANTE8?

6

A

YES, HE DID.

7

Q

AND HE STATED YOUR VIEW COMPLETELY AND

ACCURATELY?

9

A

AS FAR AS I RECALL.

10

Q

YOU REMEMBER BEING ADVISED AT THAT TIME BY ME

11

OF THE CONSEQUENCES OF THAT?

12

A

YES.

13

Q

AND YOU UNDERSTOOD THAT?

14

A

YES,

15

Q

DID YOU HAVE THAT IN MIND WHEN THE TIME CAME

16

I DID.

TO DECIDE WHETHER YOU WOULD TESTIFY HERE AT THE TRIAL?

17

A

18

MR. KLEIN:

19

.

YES.

4

8

..,"...

A

DID I HAVE IT IN MIND WHEN WHAT?
OBJECTION, AMBIGUOUS WHETHER HE WOULD BE --

HAVE IT IN MIND.

20

-THE COURT:

OBJECTION SUSTAINED.

21

MR. GOLDSTEIN:

YOU CAN CLARIFY IT .

"
22
23

I WILL WITHDRAW IT AND GO ON TO

SOMETHING ELSE.

Q

BY MR. GOLDSTEIN:

YOUR FIRST DISAGREEMENT

24

WITH MR. GILLINGHAM,

25

HAD TO DO WITH RECONSOLIDATING THESE CHARGES, A MOTION WAS

26

MADE BEFORE JUDGE THOMAS --

27

MR. KLEIN:

28

Q

I BELIEVE, AT LEAST THAT WE KNOW ABOUT,

OBJECTION.

BY MR. GOLDSTEIN:

THAT MISSTATES THE EVIDENCE.
IS THAT NOT 50?

Petitioner's App. 19 - 467

ER 834

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 92 of 266
(1018 of 1584)
6194

47

2

DURING THOSE PROCEEDINGS, MR. GILLINGHAM AGAIN

4

DIFFERENT, WEREN'T THEY?

5

A

YES, THEY WERE.

6

Q

HE WANTED THE ITEMS TO BE RECONSOLIDATED.

YOU WANTED SEPARATE TRIALS AND STILL DO,

IS THAT TRUE?

8

A

THAT IS RIGHT.

9

Q

WHEN HE STATED THAT POSITION, DID HE STATE

YOUR POSITION ACCURATELY?

11

A

A5 FAR AS I CAN REMEMBER.

12

Q

AND COMPLETELY TO YOUR SATISFACTION?

13

A

WELL, THEY WEREN'T RECONSOLIDATED.

14

Q

NO, NO,

15

A

I WAS SATISFIED WITH WHAT HE DID.

16

Q

WERE YOU SATISFIED WITH THE CONTENT OF WHAT

17

n

Q

STATED YOUR POSITION ANO STATED HIS OWN, AND THEY WERE

10

~

YES.

3

7

.

A

I AM NOT TALKING ABOUT THE RESULTS.

HE SAID, THAT IT WAS ACCURATE?

18

A

YES.

19

Q

THAT IT COMPLETELY AND FAIRLY SUMMARIZED YOUR

20

>

POSITION IN THE MATTER?

21

A

YES.

22

Q

IF IT HADN'T, YOU WOULD HAVE SAID SOMETHING,

23

WOULDN'T YOU?

24

A

I DON'T REALLY KNOW.

25

Q

IN TERMS OF YOUR DISSATISFACTION WITH HIS

26

PUTTING ON A DEFENSE, NOT CALLED THESE WITNESSES AT THE FIRST

27

HEARING IN JULY HERE IN THIS COURTROOM, JULY 5TH,

28

MR. GILLINGHAM STATED A NUMBER OF WITNESSES THAT YOU WISHED TO

Petitioner's App. 19 - 468

I BELIEVE

ER 835

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 93 of 266
(1019 of 1584)
6195

48

HAVE CALLED TO TESTIFY IN YOUR DEFfNSf.
2

DID HE STATE ~LL

OF THE WITNESSES THAT YOU HAD IN MINO?

3

A

AT THf INITIAL MARSDEN?

4

Q

YES.

5

A

NO,

6

Q

WHO WAS NOT THERE?

7

MR. KLEIN:

DON'T BELIEVE HE DID.
WHO WAS NOT LISTED?

BEFORE WE GET INTO THAT,

I ASK THE COURT-

8

ROOM BE CLEARED AND THE GAG ORDER THAT THE COURT MADE

9

INDICATED IT WAS GOING TO MAKE AGAINST MR. GOLDSTEIN.

10

MR. GOLDSTEIN:

11

ME WITHDRAW THAT.

12

Q

13

RATHER THAN GET INTO THAT, THEN, LET

BY MR. GOLDSTEIN:

WERE THERE WITNESSES THAT

MR. GILLINGHAM DID NOT MENTION WHOM YOU WISHED TO HAVE CALLED?

14

A

WERE THERE WITNESSES THAT HE DID NOT MENTION?

15

Q

YES.

16

A

YES.

17

Q

HE MENTIONED AT THIS FIRST HEARING A MAN NAMED

18

EDDIS JEFFREY, CERTAIN WITNESSES WHOM HE DID NOT NAME DEALING

19

WITH RAY BLEVINS AND HIS DISAGREEMENTS WITH MISS KIM, A

20

MR. SCHROLL, OFFICER BLOROR FROM CULVER CITY, A MISS CARVILLE

21

FROM SAN DIEGO, DANNY MOSES FROM CULVER CITY, CERTAIN

22

PATHOLOGISTS WHO WERE NOT NAMED, A MR. PURDY FROM CULVER CITY,

23

AND A MR. TULIO ALSO GENERALLY INVOLVED WITH THE CULVER CITY

24

CASE. WERE THERE OTHERS IN ADDITION TO THOSE PEOPLE WHOM YOU

25

WANTED TO TESTIFY IN YOUR DEFENSE?

26

A

YES.

27

Q

DID YOU TELL MR. GILLINGHAM WHO THEY WERE?

28

A

I BELIEVE I DID.

Petitioner's App. 19 - 469

ER 836

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 94 of 266
(1020 of 1584)
6195

49

·Q
2
3

4

DID YOU AT ANY TIME INSTST THEIR NAMES BE

SPREAD ON THE RECORD?
A

I BELIEVE I MENTIONED MORE THAN WHAT WAS PlJT

ON THE RECORD, YES.

5

Q

CAN'T HEAR YOU.

6

A

SAID I BELIEVE I MENTIONED MORE THAN WHAT

7
8

9
10

WAS PUT ON THE RECORD.

Q

DID YOU TELL HIM YOU WANTED THOSE NAMES

ALSO MENTIONED BY HIM IN OPEN COURT TO INDICATE THE EXTENT OF
YOUR DEFENSE?

11

A

I BELIEVE SO, YES.

12

Q

DID HE EVER DO THAT?

13

A

NO.

14

Q

BUT THE HEARING THAT FOLLOWED ON THE 10TH,

15

IT APPEARS THAT THE ONLY THING THERE WAS THAT WAS MENTIONED

16

WAS THE MATTER OF NOT PUTTING ON THE WITNESSES.

17

PRECLUDED THE POTENTIAL OF MR. CARTER TESTIFYING BASED ON,

18

HOWEVER, WHAT THOSE WITNESSES WOlJLD HAVE TESTIFIED TO AND

19

THE EFFECT OF THEIR TESTIMONY AT THIS HEARING.

20

COMPLETELY AND FAIRLY EXPRESS YOUR POSITION AS FAR AS YOU

21

WERE CONCERNED?

IT ALSO

DID THIS

0

~

~

~

~

~

~

22

A

23

Q

YOU DIDN'T SAY ANYTHING, THOUGH, DID YOU?

24

A

NO.

25

Q

AND NO MENTION WAS MADE AT ALL OF ANY ADDITIONAi

WAS NOT SATISFIED WITH IT, NO.

Q
<
~

~

26

WITNESSES TO THOSE LISTED BY MR. GILLINGHAM EARLIER?

27

A

NO.

28

Q

FIVE DAYS EARLIER?

Petitioner's App. 19 - 470

ER 837

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 95 of 266
(1021 of 1584)

6 197
j

0

A

THERE WERE NO MENTION.

2

Q

THAT IS TRUE,

3

A

TH)n IS TRUE.

4

Q

AND YOU DIDN'T SAY ANYTHING TO MR. GILLINGHAM

rs

lT

NOT?

5

ABOUT THOSE ADDITIONAL WITNESSES, DID YOU, AT THIS HEARil'JG

6

ON THE l0TH?

7

A

NOT DURING THE HEARING, NO.

8

Q

DID YOU REMIND HIM BEFORE THE HEARING?

9

A

I DON'T REMEMBER.

10

Q

DID YOU REMIND HIM AFTER THE HEARING THAT HE

11

HADN'T MENTIONED.THESE WITNESSES?

12

A

I BELIEVE SO, YES.

13

Q

PARDON ME?

14

A

YEAH,

15

Q

WHERE WAS THIS DONE?

16

A

I THINK IT WAS IN THE BACK.

I BELIEVE I DID.

I THINK IT WAS IN

17

Tf-lE BACK.

18

0

THE BACK IN THE HOLDING TANK?

19

A

RIGHT.

20

Q

SO FAR AS YOU KNOW, THOSE ADDITIONAL WITNESSES

21

I HAVE JUST NOW MENTIONED HAVE NEVER BEEN MENTIONED ON THE

22

RECORD AT ANY TIME, IS THAT SO?
I DON'T BELIEVE SO, NO.

23

A

24

MR. GOLDSTEIN:

25

THE COURT:

ANY REDIRECT?

26

MR. KLEIN:

NO, YOUR HONOR.

27

THE COURT:

YOU MAY RETURN TO YOUR SEAT, MR. CARTER.

28

MR. KLEIN:

COULD I JUST HAVE ONE SECOND, YOUR HONOR.

NOTHING FURTHER.

Petitioner's App. 19 - 471

ER 838

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 96 of 266
(1022 of 1584)

6 198
'1

2
3
4

THE COURT:

YES.

MR. KLEIN:

M;l.Y

JUST HAVE ONE SECONO OUTSfl1t.

I M.C.Y

JUST WANT TO RECALL MR. GILLINGHAM VERY BRIEFLY.
THE COURT:

YES.

ARE YOU RECALLING MR. GILLINGHAM?

5

6

MR. KLEil'J:

YES,

7

THE COURT:

JUST TAKE THE STAND AGAIN, MR. GILLINGHAM,

IF THE COURT WOULD PERMIT, THANK YOU.

8

AND STATE YOUR NAME FOR THE RECORD.

9

UNnER OATH.

10

THE WITNESS:

REMEMBER YOU ARE STILL

HOWARD W. GILLINGHAM.

11

HOWARD W. GILLINGHAM,

12

13

RECALLED AS A WITNESS ON BEHALF OF THE DEFENSE, HAVING BEEN

14

PREVIOUSLY DULY SWORN, RESUMED THE STAND AND TESTIFIED FURTHER

15

AS FOLLOWS:

16

DIRECT EXAMINATION

17
18

19

BY MR. KLEIN:

Q

AT THE CONCLUSION OF THE PROSECUTION'S CASE,

20

WHEN YOU HAD THIS ONGOING DISCUSSION WITH MR. CARTER ABOUT

21

HIS DESIRE TO PRESENT A DEFENSE AND TESTIFY,

22

DECIDED THAT YOU WERE GOING TO REQUEST A MARSDEN HEARING?

IT WAS THEN

23

A

YES.

24

Q

NOW, PRIOR TO REQUESTING THE MARSDEN HEARING,

25

DID YOU PREPARE SOME LIST OF WHAT YOU BELIEVED THE DEFENSE

26

WAS GOING TO BE SO THAT YOU COULD PRESENT THAT TO THE COURT?

27
28

A

YEAH,

I DON'T REMEMBER -- I MUST HAVE WRITTEN

IT DOWN, BECAUSE I TEND TO TRY TO WRITE THINGS DOWN THAT I

Petitioner's App. 19 - 472

ER 839

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 97 of 266
(1023 of 1584)
6199

52

OR.ALLY NOTICE, BUT I DU~J'T PHYSIC.ALLY Rf.MfMBfR M),KTNG THUSf,
2

BUT I MUST HAVE MADE SOME SORT OF A LIST -- TN FACT,

3

LOOKING AT THE TRANSCRIPT,

4

MISS MORRISSEY,

5

ROUGH LIST.

IT MAKES ME THINK TT MUST HAVE BEEN A PRETTY

Q

WHEN DID YOU MAKE THE LIST?

7

A

WELL, AS

MAKING THE LIST.

9
10
11

12
13
14

"
""'"'

I HAPPfNfD TO KEEP REFERRING TO

6

8

I .AM

SAID,

I DON'T PHYSICALLY REMEMBER

I DON'T REMEMBER WHERE T MADE TT PHYSICALLY.

Q

AND DID THAT -- WHAT WAS THE PURPOSE OF THAT

A

~ID ME IN MAKING THE REPRESENTATION OF WHAT

LIST?

I FELT NEEDED TO BE MADE IN THE MARSDEN HEARING.

Q

DID YOU ATTEMPT TO LIST EVERY WITNESS THAT

COULD BE CALLED?

15

A

NO, NO.

16

Q

WHY NOT?

17

A

WELL, PART OF IT PROBABLY WAS TIME AND JUST IT

18

DIDN'T SEEM NECESSARY TO ACTUALLY DO IT THOROUGHLY AS WE

19

HAD OUR DIALOGUE EARLIER HERE WHEN IT ENTAILED REVIEWING FILES,

20

ET CETERA, BUT THOSE ARE THINGS THAT CAME TO MIND.

Ol

21

THE COURT:

JUDGE ROTHMAN.

(BRIEF INTERRUPTION.)

22
23

EXCUSE ME.

Q

BY MR. KLEIN:

SO YOU DIDN'T MAKE UP THE LIST

24

BY REVIEWING ALL YOUR FILES AND RECORDS TO DETERMINE WHAT

25

THE DEFENSE COMPLETELY WOULD BE?

26

A

NO.

27

Q

AGAIN,

28

I DON'T RECALL SPECIFICALLY WRITING A

LIST, BUT I AM SURE I MUST HAVE WRITTEN DOWN SOME ROUGH NOTES.

Petitioner's App. 19 - 473

ER 840

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 98 of 266
(1024 of 1584)
6200

IT PROBABLY WAS BY VIRTUE OF MARCIA AND T TALKING, AND T
2

RECALL THAT.

Q

3

4

NOW, THE LIST DID NOT INCLUDE ALL THE PfOPLE

THAT MR. CARTER WANTED TO BE CALLED?

5

A

PROBABLY NOT, YEAH.

6

Q

SOME TI ME AFTER TH)H MARS DEN HEAR I NG, DIn YOU

7

EVER THINK OF COMPLETING THAT LIST IN ANOTHER MARSDEN HEARING?
A

8
9

10

THE RECORD, AS I INDICATED.

Q

so THAT rs WHY YOU DIDN'T DO ANYTHING MORE ON

THAT SUBJECT AT A FUTURE TIME?
A

13
14

I THOUGHT I MADE A REPRESENTATIVE DISPLAY,

IF YOU WILL, TO THE RECORD OF WHAT NEEDED TO BE SPREAD ON

11
12

NO,

NO, THERE WAS NO NEED TO EXHAUST AND SPREAD

ANY MORE ON THE RECORD,

IN MY OPINION, ANYWAY.

15

MR. KLEIN:

I HAVE NOTHING FURTHER.

16

THE COURT:

ANY OTHER QUESTIONS?

17

CROSS-EXAMINATION

18

."
."'
,._

19

BY MR. GOLDSTEIN:

20

Q

WHERE DID YOU GET THESE NAMES?

21

A

I AM SORRY?

22

Q

WHERE DID YOU GET THESE NAMES?

23

A

THE NAMES?

OH, WELL,

24

BLEVINS, B-L-E-V-I-N-S, FOR EXAMPLE.

25

CAME RIGHT TO MI ND.

RECALL SOME OF THEM,
THAT WAS ONE NAME THAT

IN OTHER WORDS --

26

Q

BLEVINS WAS DEAD AT THAT TIME.

27

A

WELL, MAYBE I DIDN'T INDICATE BLEVINS ON THE

28

LIST.

Petitioner's App. 19 - 474

ER 841

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 99 of 266
(1025 of 1584)

6201
,4

2

-0

YOU DID NOT?

A

OKAY.

3

WERE -- TH.AT HAD BEEN

4

PROMINENT.

O~~

Ol)

MINU, BECfaUSt THEY 1t/ERE MORE

BELIEVE I AM REFERRING TO BLUR0R, B-L-0-R-0-R.

Q

5

WELL, THERf rs CERTAIN WITNESSES THtT

WELL, YOU APPARENTLY BETWEEN YOU ANn MISS

6

MORRISSEY COMPILED A LIST OF SOME -- HOWEVER MANY NAMES THERE

7

>RE HERE -- SIX OR EISHT, ANYWAY, FROM -- NINE NAMES AND

8

PERHAPS 10 INCLUDING MORE THAN ONE PATHOLOGIST, THIS WAS

9

APPARENTLY SOMETHING YOU HAD GIVEN SOME THOUGHT TO, WAS IT

10

NOT?
NO,

IT WAS NOT,

BECAUSE THOSE PEOPLE WERE THE

11

A

12

ONES THAT

13

THE ONES THAT OCCURRED TO US BECAUSE THOSE WOULD HAVE BEEN

14

THE MORE PROMINENT -- IF YOU WERE GOING TO CALL

15

WITNESSES -- POTENTIAL WITNESSES.

16

MUCH AS WE DIDN'T PAY ATTENTION TO THE GUILT PHASE, TULIO,

17

T-U-L-I-0, WAS OBVIOUSLY A GENTLt:fl\;.'\N THAT T~E N;'.IMF. CAME UP.

18

I MEAN WE KNEW THAT.

MEAN IN TERMS OF THE MARSDEN HEARING, THOSE ARE

MANY

TULIO, FOR EXAMPLF, AS

AFTER THIS HEARING IN WHICH YOU REVEALED THESE

Q

19

SO

20

NAMES, MR. CARTER APPARENTLY REMINDED YOU THAT YOU HAD

21

FORGOTTEN SO METH I NG HAVING TO DO WITH HIS OWN TEST IMO NY?

22

A

YEAH.

23

Q

DID HE TALK TO YOU ALSO ABOUT OTHER WITNESSES

24

~✓ HOSE

25

WISHED

26

NAMES

WITHDRAW THAT -- OTHER WITNESSES THAT HE

WISHED YOU TO CALL,
A

BUT YOU HAD NOT MENTIONED?

DON'T RECALL THAT.

IN OTHER WORDS, WHAT

27

THAT MEANS, HE COULD HAVE OR HE COULD NOT.

28

RECALL OTHER WITNESSES.

Petitioner's App. 19 - 475

SIMPLY DO NOT

ER 842

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 100 of (1026
266 of 1584)
62()2

j

5

0

HO \,/ LONG Hfa Vf Yr, lJ t3 EEN ;. Lfa WYER?

2

A

HOW LOr--.JG?

3

0

AND HOW LONG INVOLVED IN THE TRIAL, EIT~ER ;s

4

'73.

A LEAD OR CO-COUNSEL UR SECOND SEAT IN CAPITfaL CASES?

5

A

M:.YBE A Yt:AR.

6

Q

THIS IS,

7

IN ESSENCE, YOUR SPECIALTY TODfaY,

IS IT NOT?

8

A

I SUPPOSE.

9

Q

AND IT IS ONE OF THE THINGS THAT YOU FOCUS ON

10

IS THE DEFENSE OF PERSONS CHARGED WITH CfaPITAL CRIMES?

11

A

YcS, YES.

12

Q

HOW MANY OF THESE WOULD YOU SAY YOU HAVE BEEN

13
14

15

INVOLVED IN?
A

AT VARIOUS LEVELS AND ENDING AT VARIOUS TIMES

AND BEGINNING AT VARIOUS TIMES, PROBABLY 15

NOT 15 TRIALS.

16

Q

FIFTEEN SEPARATE INDIVIDUALS?

17

A

DIFFERENT CASES, RIGHT, APPEAL

18

q

IS IT FAIR TO SAY YOU PRIDE YOURSELF ON KNOWING

19

20

21

THE LAW AND FOLLOWING THE LAW AS YOU UNDERSTAND IT?
A

PRIDE MYSELF ON TRYING TO KEEP UP WITH IT.

I DON'T CONSIDER MYSELF TO BE MIKE TIGRAR, T-I-G-R-A-R.

22

Q

WHOEVER THAT IS --

23

A

OFF THE CHARTS WITH BRILLIANCE.

24
25
26

FASHION MYSELF

Q

I DCN'T

I FEEL THAT I HAVE TO WORK AT KEEPING UP.
DO YOU MAKE NOTES OF THESE THINGS WE HAVE

BEEN TALKING ABOUT?

27

A

MEANING THE --

28

Q

THE CONVERSATIONS WITH YOUR CLIENT, SUMMARIES

Petitioner's App. 19 - 476

ER 843

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 101 of (1027
266 of 1584)
6203

OF THE TOPICS
2
3

A

"....
N

.,"'

CO lJ LD

i3 E .

I HP. Vf NO T Rf V I f 1✓ ED ANY .

CO ULD c3 E .

I MIGHT HP.VE.

4
5

::nscussu1, SlJMMf'.lRifS OF HIS VfEWS OF THINGS?

0

AND YOU HAVE KNOWN THAT YOU WERE TO BE A WITNESS

HERE FOR SOME TIME, HAVE YOU NOT?

6

A

YEfa.H.

7

Q

YOU DID NOT GO BACK AND REVIEW ANY OF THOSE?

8

A

NO, TO BE HONEST WITH YOU.

9

Q

I HOPE SO.

10

A

WELL, TO BE HONEST WITH YOU, NO, NOT IN TERMS

11

OF NOTES OF CONVERSATIONS WITH MR. CARTER.

12

IS -- WELL, ONE OF THE THINGS -- FIRST THINGS I DID WAS GET

13

EVERYTHING I NEEDED ROTEN (SIC) TO HIM.

14

LOOK.

PART OF THE REASON

I DID NOT SPECIFICALL~

I HAD A ROUGH RECOLLECTTON OF WHAT TOOK PLACE.

15

MR. GOLDSTEIN:

16

THE COURT:

ANYTHING FURTHER?

17

MR. KLEIN:

NOTHING FURTHER.

18

THE COURT:

THANK YOU, MR. GILLINGHAM.

19

MR. KLEIN:

I DON'T HAVE ANY OTHER EVIDENCE ON THIS

21

THE COURT:

ALL RIGHT.

22

MR. GOLDSTEIN:

23

MR. KLEIN:

20

I HAVE NOTHING FURTHER, THANK YOU.

ISSUE .

WELL,

HAVE NONE.
MEAN AS TO THE -- THE ONLY THING

24

LEFT THAT I HAVE IN THE WAY OF EVIDENCE THAT I WANTED TO

25

PRESENT IS A MORE COMPLETE RECORD CONCERNING WHAT THE DEFENSE

26

~IGHT HAVE BEEN.

27

EVIDENCE.

28

MORRISSEY.

OTHER THAN THAT, I DO NOT HAVE ANY OTHER

IN OTHER It/OROS,

I AM NOT GOING TO CALL MISS

Petitioner's App. 19 - 477

ER 844

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 102 of 266
(1028 of 1584)

6231

74
AS TO THE OTHER TWO ARGUMENTS,

I TH INK THEY

2

ARE IMPLICIT WITHIN ARGUMENT ONE AND TWO THAT THE COURT SHOULD

3

HAVE MADE INQUIRY IN THE MARSDEN HEARING OF MR. CARTER TO

4

RESOLVE BOTH OF THESE ISSUES.

5

COURT WAS AWARE THAT MR. CARTER WANTED TO PRESENT A DEFENSE

6

AND THAT MR. CARTER WANTED TO TESTIFY, THEN I THINK CONTRARY

7

TO WHAT MR. GOLDSTEIN SAYS, ONCE THE COURT IS AWARE OF THAT,

8

I THINK IT IS THE COURT'S OBLIGATION THEN TO TAKE A WAIVER

9

OF MR. CARTER'S CONSTITUTIONAL RIGHT TO TESTIFY, AND THAT IS

10

SET FORTH IN FOOTNOTE 8 IN FIERSON II, WHERE THE COURT SAYS:

11

"THUS NOTHING IN THIS OPINION IS INTENDED TO SUGGEST THAT

12

IN THE ABSENSE OF SUCH AN EXPRESS CONFLICT, THAT BEING THE

13

DISPUTE BETWEEN THE ATTORNEY AND THE CLIENT, THE COURT IS

14

REQUIRED TO OBTAIN, AND ON THE RECORD, PERSONAL WA I VER FROM

15

THE DEFENDANT WHENEVER DEFENSE COUNSEL CHOOSES TO REST WITHOUT

16

PUTTING ON A Uf.FENSE.

THE COURT DIDN'T.

ONCE THE

11

I THINK UNFORTUNATELY WHEN BOTH OF THESE

17
18

EVENTS OCCURRED ON JULY 5TH AND JULY 10TH, THE LAW DOES REQUIRE

19

S UC H A 'vJ A1VE R .

20

I THINK MR. CARTER IS ENTITLED TO THE NEW TRIAL.

21

THE WA I VE R DID N ' T OCCUR .

THE COURT:

FOR THE SAME RE AS ON S
THANK YOU.

ANYTHING FURTHER ON THE MOTION?

22

THE MOTION FOR NEW TRIAL IS DENIED.

23

IT WOULD APPEAR THE NEXT ORDER OF BUSINESS

24

WOULD BE THE 190.4 PROCEEDINGS CONCERNING THE COURT'S REVIEW

25

OF THE JURY VERDICT.

26

CORRECT~ MR. KLEIN?

27

MR. KLEIN:

YES, YOUR HONOR.

28

THE COURT:

AGAIN, THE RECORD SHOULD REFLECT THE

Petitioner's App. 19 - 478

ER 845

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 168 of 266
(1094 of 1584)

DEFENDANT

COURT OF APPEAL
SECOND APPELLATE DISTRICT
STATE OF CALIFORNIA

THE PEOPLE OF THE STATE OF CALIFORNIA
Plaintiff
and Responden~
No ... JQ~9.~~Q ............... .

vs

CARTER, DEAN PHILLIP
Defendant
and Appellant/~

"DEATH PENAL TY"

CLERK'S TRANSCRIPI'
VOLUME IV

Appearances:

Counsel for Plaintiff and Respondent:
THE ATTORNEY GENERAL

Appeal from the Superior Court,
County of Los Angeles
Honorable

ROBERT THOMAS

Judge

Counsel for Defendant and Appellant:

IN PROPRIA PERSONA

Date Mailed to:
Defendant (in pro per)
Defendant's Trial Attorney _ _ _ _ _ _ _ __
Defendant's Appellate Attorney _ _ _ _ _ __
District Attorney _ _ _ _ _ _ _ _ _ _ __
Attorney General

79C7'2 • (REV. 1-85) 11-85

Petitioner's App. 20 - 479

ER 910

Case: 13-99003

04/03/2014

ID: 9045913

HOWARD

W.

DktEntry: 15-5

Page: 170 of (1096
266 of 1584)

GILLINGHAM

L.AWYER
4370

Tl.J.JUNGA

AVENUE,

SJITE

105

NORTH HOLLYWOOD, CALIFORNIA 91604
(818)

763-4775

August 2, 1988

Honorable Robert Thomas
Department West "K"
1725 Main Street
Santa Monica, CA 90401
ATTN:

Michael White
Re: People v. Carter
Case No. A089330

Dear Judge Thomas:
As you know from our appearance on the 26th, there is
lurking, a Motion to Reconsolidate all outstanding Capital
I indicated on the record
Cases into the Los Angeles case.
It is
that Mr. carter had misgivings about such a Motion.
indeed a serious one. Mr. Carter has mentioned that perhaps he
ought to speak with some other counsel, since he and I disagree
This is not in the context of a
about this particular issue.
possible Marsden inquiry. I think it is a good idea, if not
technically required.
Therefore, my recommendation to the Court is to allow
Mr. Carter
Attorney Rowan Klein to speak with Mr. Carter.
As you
specifically mentioned Mr. Klein as a possibility.
know, Mr. Klein was appointed by the Court to deal with a
I have
previous thorny issue of conflict with prior counsel.
contacted Mr. Klein, and he has indicated his willingness with
Court authorization to discuss the matter with Mr. Carter and
give him any independent opinion.
My thought is that the court might inform Mr. White of
the Court's decision, and I will follow up with a telephone
If
call on the 15th to Mr. White as to the authorization.

Petitioner's App. 20 - 480

ER 912

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 171 of 266
(1097 of 1584)

A!l5

Honorable Robert Thomas
August 3, 1988
Page Two

approved, it is my hope that Mr. Klein could see Mr. carter
before our appearance on the 18th and contact me with the
results.

HWG:tlb
cc: Marsh Goldstein

Petitioner's App. 20 - 481

ER 913

Case: 13-99003

ID: 9045913

04/03/2014

DktEntry: 15-5

Page: 180 of(J.6.86 of 1584)

-~

'

~~-~·

~

ft :
•v

-~
'."

.

3

HOWARD W. GILLINGHAM
Lawyer
.
4370 Tujunga Avenue
suite 105
North Holl ywood , CA 91604
( 818) 763-4775

4

Attorney for Defendan t

l

2

5

6

IN THE SUPERIOR COURT FOR THE STATE OF ·CALIFORN IA

7

COUNTY OF LOS ANGELES

8
9

THE PEOPLE OF THE STATE OF CALIFORNIA,
Plaintiff ,

10
vs.

11
12

) Case No . A089330
)
) SUPPLEMENTAL
) DECLARATION IN

SUPPORT OF

)

) REQUEST FOR FUNDS
) PURSUANT TO SECTION

DEAN PHILLIP CARTER

13

987.9 CALIFORN IA
PENAL CODE.

)
)

Defendant .

)

~WJRWIAL

14

I

15
16

17
18
19
20
21
22
23

24

I, Howard W. Gillingha m, declare:
1.

On

or

about

June

24,

1988,

I

applied

to

this

Honorable Court for my first disbu rsement of funds as counsel
for Dean Phillip Carter.
2.

Those

funds

were

received,

special trust account in this matter .
the areas noted here,

and deposited

into my

With the exception of

funds remain available for the various

services praviou~ ly applied for .
3.

Regarding the penalty phase,

as I

indicated to the

25

Court in my letter of July 27, 1988, i t was necessary for the

26

penalty investiga tor and myself to travel to Alaska to locate,

27

interview , and evaluate witnesses for penalty phase .

That has

28

ER922
Petitioner's App. 20 - 482

Case: 13-99003

04/03/2014

ID: 9045913

Page: 181 of(a6.G7 of 1584)

DktEntry: 15-5

~ :·.

accomplished.
as

Of course full documentation of time spent,

receipts

is

on file.

It was anticipated that

further penalty funds ·w ould be needed, and indeed even beyond
:5

this application.

However, at this time, I have a billing from

4

Mr. Cohen for $3 , 750.00 covering the period from August 1, 1988
5

6
7

8
9

10

through September 15, 1988.

that portion of the trust account,

13
14
15

16
17

18
19
20

21
22
23

24
25

26
27

leaving it approximately

$1,900.00 short in paying off this present bill.

order to bring this billing up to date,

I

Therefore, in

am request ing the

amount of $7,500.00 to allow for future contingencies.
One

11

12

There is a balance of $1,787.61 in

future

effort

that

is

apparent,

is

the

need

to

interview a critical guilt and penalty witness, who has since
moved to Atlanta, Georgia.

Since he is a news broadcaster, it

is possible he will be coming to Los Angeles,
event,

no trip would be necessary for Mr.

and in that

Cohen or myself.

However, notwithstanding this indefinite situation, based on my
experience, there is a need to have funds on hand to move with
dispatch.
have

still

For example, even after the many trips to Alaska, we
not

able to

been

carter's childhood.

"crack"

the

situation of Mr.

Even during this last trip,

absolutely refused to even speak with us.

his mother

It could be that at

any moment's notice, there might be movement in that area, and
we would have to be prepared to respond with dispatch.
3.

In addition,

I an requesting $750.00 to replace the

disbursement of $750 . 00 to Rowan Klein.
authorized, and there was disbursed,

The Court previously

the sum of $2,500.00 to

- 2 -

28

ER923
Petitioner's App. 20 - 483

Case: 13-99003

ID: 9045913

04/03/2014

DktEntry: 15-5

Page: 182 of(l6.68 of 1584)

/

cover various miscellaneous legal .functions, including action
in the Ventura Court on a. habeas ·~orpus matter reflecting on
penalty in this case.
Unknown at the time of that authorization, was the future
need, now accomplished, for Mr. Klein to interview Mr. Carter
on three different occasions concerning the most critical legal

·'

r.

motion to date, .the move to reconsolidate all homicides into

.I

the Los Angeles case.

Because of the conflict between Mr •

Carter's trial counsel, and Mr. Carter, it was necessary that
an independent view be given to Mr.

carter,

and Mr.

Klein

accomplished that at no small inconvenience to himself.

J'

on the last occasion, he had to drive straight from his
tt"ial in Santa Maria to the County Jail, where he and I met
...,ith Mr. Carter even after the closing of the attorney room.
T!'.erefore,

I

ar.ticipated

seek here only to reimburse the
with

the

sum

just

disbursed

fund

that

already
was

not

anticipated.
Therefore,
.1

11

I

seek

an

authorization

at

this

time

of

B, 250. oo, to be placed in my trust account pursuant to the
g~idelines promulgated by the Court, and known by myself.
I declare under penalty of perjury that the foreg oing is
t~~e and correct.

~ted:

Executed at North Hollywood, California.

September 23, 1988

'i

'I'
ER 924
Petitioner's App. 20 - 484

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 184 of 266
(1110 of 1584)

DEFENDANT

COURT OF APPEAL
SECOND APPELLATE DISTRICT
STATE OF CALIFORNIA

THE PEOPLE OF THE STATE OF CALIFORNIA
Plaintiff
and Responden~
No ............ M~~~.nQ....... .

vs

CARTER, DEAN PHILLIP
Defendant
and Appellant/~Rt

"DEATH PENALTY"

[
CLERK'S TRANSCRIPI'
VOLUME VI

Appearances:
Counsel for Plaintiff and Respondent:
THE ATTORNEY GENERAL

Appeal from the Superior Court,
County of Los Angeles
Honorable ROBERT THOMAS

Judge

Counsel for Defendant and Appellant:

IN PROPRIA PERSONA

Date Mailed to:
Defendant (in pro per)
Defendant's Trial Attorney _ _ _ _ _ _ _ __
Defendant's Appellate Attorney _ _ _ _ _ __
District Attorney _ _ _ _ _ _ _ _ _ _ __
Attorney General

78C7"2 • (REV. 1-85) 11-85

Petitioner's App. 21 - 485

ER 926

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 193 of 266
(1119 of 1584)

SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES
Dote
HONORABLE

1 f-31
\T:r

DEPT.

7-5-89

Deputy Cle
JUDGE
ROBERT THOi•:AS
C. LEVI:.'NSCN
Reporter
Deputy Sheriff
J. BII.ZYU
C. BAAC',G
·-----------------;=============:;:::=====;===:!:!;= ==:==;::==;::=:==:=============
(Parties and counsel checked if present)

AO~rJPl~ OF THE STATE OF CALIFORNIA
VS .

01

CARTER, DEJ\.i.~
187 03CTS 459
261.2 02CTS

NATURE OF PROCEEDINGS

Counsel for People:

✓

02C'l'S

DEPUTY DISTRICT ATTY:

M. GOIDSTEIN

Counsel for Defendant:

H. GII..Lil:'-l.;JIAM

M. t-ORRISSEY

2-11-86

JURY TRIAL

Trial resurres from 6-29-89 with all counsel, the jury and the
cefendant present as heretofore.
OllT OF T.tlli PRESEi'1CE OF THE JURY:

Court's special e}dlibits 122-182 (each a xeroxed copy of newspaper
crticle) are rrark~d for identification only.
IN TH£ PRESJ::NCE OF THE JURY:

Marcus Kellman, Leeann Johnson, Judith Adams, Rodney Beverly
and Honrez Guard are sworn and testify for the Pecple.
OUT OF THE PRESENCE OF THE JURY:

Court and counsel discuss admissibility of photographic evidence.
Peo:_Jle's moUon to introduce photo of CUllins' neck is grantErl.
People's Exhibit 34-3 (photo of CUllin' s nec!t) is mar!ced for
identification only.
IN 'I'HC PREE-ECE OF T'rlE JURY:

People's EYJi.ibi t 40 (videotape) is mar!ced for

Ju...-y view videota?e.
identification only.
People rest.

OUT OF THE PRESENCE OF

TiiE JURY:

Marsden hearing is held.

See

notes of official Court Reporter.

IN THE PRESEOCE OF THE JURY:

Defer,se rests.
The jury is adnonished and the trial is continued to 7-10-89 at 10:30am
in this departrrent.
MINUTES ENTERED
OUTSIDE THE ?RESENQ;; ,oF THE JURY: Court and cour_sel discuss
~
exhibits. Ccunsel;foYconvene on 7-6-89 at 10: 30am in
over MINUTE ORDERJu':'7 inst~.:::,J----=-COU:;.;:.;,.N;._TY'-Q=ER:.:,:.K_ __,·
,... .,,,c,20, .. this deparmient. ti:>

.,0

c-5

REM

Petitioner's App. 21 - 486

ER 935

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 203 of 266
(1129 of 1584)

1771
SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES
Da1e

HONORABLE

8-1-89
ROBERT THOMAS
C. BRAGG

JUDGE
Depu!y Sheriff

DEPT.

WEC

C. LEVI::t'lSOi.'l
D. MRAZ

Deputy Cle,
Reporter

-------------···--;::::::==================
==:====================
A
(Parties and counHI checked If present)
O8 9 3 3 0

PEOPLE OF THE STATE OF CALIFORNIA
VS

01

Counsel for People:
/2EPUTY DISTRICT ATTY:

CARTER, DEAN PHILLIP V
187 03CTS 459 02CTS
261.2 02CTS

NATURE OF PROCEEDINGS

Counsel for Defendant:

JURY THI AL

i-1. GOLDSTEIN
H. GILLii~GHAi'i ,.__--M. MORRISSEY ~ -

REM

2-11-86

Penalty phase resumes from 7-31-89 with all counsel, the
jury and the defendant present as heretofore.
OUT OF THE PRESENCE OF THE JURY:
Court and counsel discuss verdict forms.
It ap?earing to the court that through inadvertance and clerical
~tM~X~X error, the minute order dated 7-31-89 does not
accurately reflect the Court's order~ such minute order is
corrected i~unc Pro Tune to show Defense Exhibits C-Q,
previously marked for identification only, are received
into evidence.

I~ THE PRESENCE OF THE JURY:
Counsel make closing statements.
The Court instructs the jury. Clerk swears bailiff to
take charge of the jury and alternate jurors.
At 3:35pm, the jury retires to deliberate on the
punishrnent.
At 3:52pm, the jury is admonished and the trial is continued
to 10:00am in this department. The defendant is ordered
to back.
REM

MINUTES ENTERED

8-1-89
76M 41)L C 120 1 d8

MINUTE ORDER

Petitioner's App. 21 - 487

COUNTY CLERK

ER 945

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 206 of 266
(1132 of 1584)

177·1
SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES

1--

8-t-89
ROBERT THOMAS
C. BRAGG

Dote
HONORABLE

JUDGE
Deputy Sheriff

DEPT eWEC

C. LEVENSON
L. ANASTASIOU

Deputy Clerk
Reporter

······-----------F'============~==::::#=====:
:=========~=============
(Parties and counsel checked If present)
0

PE&qf'

6(t~E STATE OF CALIFORNIA
vs

01

L.Jf

CAR'l'ER, DEAN PHILLIP
187 03CTS 459 02CTS
261. 2 02CTS

NATURE OF PROCEEDINGS

~

Counsel for People:

In ~k.. DEPUTY D1sTR1cT ATTY: M.

GOLDSTEIN
~

Counsel for Defendant: H

JURY TRIAL

M:

GILLINGHAM

MORRISSEY -

REM

~

2-11-86

Jury deliberation resumes at 10:20am with all jurors
present as heretofore.
At 11:55am, the jury takes its noon break.
At 1:50pm, the jury resumes deliberating.
At 3:05pm, the jury takes a break.
At 3:13pm, the jury resumes deliberating.
At 4:00pm, the jury is admonished and the trial
is continued to 8-4-89 at 10:00am in this deparmtnet.
The defendant is ordered to return.

REM
MINUTES ENTERED

8-2-89
76M 413l C 121) 1 88

MINUTE ORDER

Petitioner's App. 21 - 488

COUNTY CLERI(

ER 948

Case: 13-99003

04/03/2014

DktEntry: 15-5

ID:9045913

Page: 207 of~3 of 1584)

1776
SUPERIOR COURT OF CALI FORNIA. COUNTY OF LOS ANGELES

DEPT • WEC

8- 3-89
JUDGE
ROBERT THOMAS
C. LEVENSON
Depuiv Sheriff
C . BRAGG
L. ANASTASIOU
··················r=============;:===.===#==,;=;==;=~==.==== == = = =
Oo,e:

HONOl!ASLE

AO 8 9 3 3 O

(l'ortl•• cmd counsel ched<ed If pr..ent)

PEOPLE OF THE STATE Of CALIFORN IA

VCounse l for People :

11) l.,CC,>-mPUTY DISTRICT A TTY: M. GOLDSTEIN ~
CARTER, DEAN PHILLIP Vf
VS

01

187 03CTS 459
261.2 02CTS

NATU~E Of Pl!OCEEOINGS

02CTS

Counsel for Defendant:

JURY TRIAL

H. GILLINGHAM ~
M.MORRRISSEY ~

REM

2- 11- 86

Penalty phase resumes from B-2-89 with all jurors present
a s heretofore. Deliberation resumes a t 10 : 10am.
At 10:35am, the j ury takes a b reakJ
At 10:50am, j ury deliberat i on resumes .
At 10:55am, in open court without the defendant b e ing
~resent, the judge answers the jury's q ue s tion (see
notes of the o f f i cial Court Reporter).
At 10:59am, the jury reti res to del i berate.
At 12:05pm, the j ury takes i ts noon recess .
At 1 : 40pm, the jury resumes deliberating.
OUTSIDE THE PRESENCE OF THE JURY :
Court's Special Exhibits 242-244 (each a xeroxed copy of
a ne ws paper article) are marked for identification
only).
I N THE PRESENCE OF THE JURY:
The j ury is admonished and t he t r i al is continued to
8- 7-89 at 10:0 0am in th is d epar t ment. The defendant
is ordered to return .

MINUTES ENTERED

REM
MINUTE ORDER

~~ty~ 9

ER949
Petitioner's App. 21 - 489

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 208 of 266
(1134 of 1584)

17~8
SUPERIOR COURT Of CALIFORNIA. COUNTY OF LOS ANGELES
Dote

HONORABLE

8-7-89
ROBERT THOMAS

JUDGE

DEPT.

WEC

C. LEVENSON

L. ANASTASIOU
C. BRAGG
Deputy Sheriff
··················;:::===============:::::::!!:::=:::::::;::=:=:::;::::::;::=.===:===========
(Parties and counsel checked If pr..ent)

Nlo~re3dF°rHE STATE OF CALIFORNIA
01

VS

~ I for People:

~n.1TY DISTRICT ATTY: M. GOLDSTEIN

CARTER, DEAN PHILLIP
187 03CTS 459 02CTS
261.2 02CTS

NATURE Of PROCEEDINGS

Counsel for Defendant: H. GILLINGHAM

M. MORRISSEY

REM

JURY TRIAL

2-11-86

Jury deliberations resume from 8-3-89 with all jurors present
as heretofore, at 10:00am.
At 10:30pm, the jury takes a morning break.
At 10:45am, jury deliberation resumes.
At 10:55am, the jury buzzes announcing it has reached
a verdict.
At 11:30am, the jury enters the courtroom with the
fol l~ing verdict. Counsel and the defendant are ~resent.:
TITLE OF COURT AND CAUSE
"We, the Jury in the above-entitled action, fix the
punishment at death.
This 7th day of August, 1989.

Charles Larsen, Foreman.

The verdict is read. The jury is polled. The verdict is
recorded; re-reading is waived. Instructions given and
refused and all verdict forms submitted to the jury are
filed.
Probation and Sentencing is set for 9-15-89 at 9am in
Department West c. The defendant is ordered to return.

MINUTES~D

e-1~01

MINUTE ORDER

Petitioner's App. 21 - 490

COUNTY O.Elll(

ER 950

Case: 13-99007

10/22/2014

ID: 9287557

SUPREME COURT -

1

DktEntry: 17-7

Page: 94 of 225
(1474 of 2466)

STATE OF CALIFORNIA

2
3

4

THE PEOPLE OF THE STATE OF
CALIFORNIA,

5
6

PLAINTIFF-RESPONDE NT,

)
)
)
)
)
)

) SUPREME COURT N0.50~3{)00
)

) FROM SAN DIEGO COUNTY

7
8

)

vs

9

DEAN PHILLIP CARTER,

10

DEFENDANT.

) JUDGE MELINDA J.
)
LASATER
)
)

)

VOLUME LII

)

11
12
13
14
15

APPEARANCES:
FOR THE PLAINTIFF:

EDWIN L. MILLER, JR.,
DISTRICT ATTORNEY
BY: JAMES PIPPIN, AND
ROBERT EICHLER AND
DEPUTY DISTRICT ATTORNEY

FOR THE DEFENDANT:

CHARLES BOMER, ESQ.
1168 UNION STREET, STE.
SAN DIEGO, CA
92101

16
17

18
19
20
21
22

201

JOSEPHINE DEDINA, ESQ.
934 23RD STREET
SAN DIEGO, CA
92102

23
24

25

JOHN R. AVERY, CSR #8605
DAVID DAILY, CSR #6885
OFFICIAL REPORTER
SAN DIEGO, CALIFORNIA 92101

26
27

28

Petitioner's App. 22 - 491

ER 1265

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 95 of 225
(1475 of 2466)

1

IN THE SUPERIOR COURT OF THE STATE OF CALIFORNIA

2

IN AND FOR THE COUNTY OF SAN DIEGO

3

DEPARTMENT NO.

HON.

27

MELINDA J.

LASATER,

JUDGE

4
5

6

THE PEOPLE OF THE STATE OF
CALIFORNIA,

7

9

NO.

PLAINTIFF,

8

CR 90280

vs

10
DEAN PHILLIP CARTER,
11

DEFENDANT.
12
13
14

REPORTER'S TRANSCRIPT
JUNE 10, 1991
VOLUME LII
PAGES 7930-8133

15
16
17
APPEARANCES:
18

PLAINTIFF:
19
20

EDWIN L. MILLER, JR.,
DISTRICT ATTORNEY
BY: JAMES PIPPIN, AND
ROBERT EICHLER
DEPUTY DISTRICT ATTORNEY

21

22

23
24
25
26
27
28

FOR THE DEFENDANT:

CHARLES BUMER, ESQ.
1168 UNION STREET, STE.
SAN DIEGO, CA
92101

201

JOSEPHINE DEDINA, ESQ.
934 23RD STREET
SAN DIEGO, CA
92102
JOHN R. AVERY, CSR #8605
DAVID DAILY, CSR #6885
OFFICIAL REPORTER
SAN DIEGO, CALIFORNIA 92101

Petitioner's App. 22 - 492

ER 1266

Case: 13-99007

10/22/2014

ID: 9287557

DIRECT

2

WITNESS

3

ROBERT J. JENKINS

5
6

Page: 97 of 225
(1477 of 2466)

INDEX (CONTINUED.)

1

4

DktEntry: 17-7

BY
BY
BY
BY
BY

MR.
MR.
MR.
MR.
MR.

BUMER
PIPPIN:
BUMER:
PIPPIN:
BUMER:

CROSS

REDIRECT

RECROSS

8050
8064
8075
8077
8078

7

ROBERT EDWARD STAPLETON, JR.
8

9

BY MR. BUMER:
BY MR. PIPPIN:

8079
8094

10

MELISA GLICK
11

12

BY MR. PIPPIN:
BY MR. PIPPIN:

8104
8113

13
14
15
16
17
18
19
20

21
22
23

24

25
26
27

28

Petitioner's App. 22 - 493

ER 1268

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 179 of 225
(1559 of 2466)

8113
1
2
3

MR. PIPPIN:

THANK YOU, MS. GLICK.

I HAVE NO MORE

QUESTIONS.
THE COURT:

CROSS-EXAMINATION.

4

CROSS-EXAMINATION

5
6

7

8
9

BY MR. PIPPIN:
Q.

JUST A COUPLE OF QUESTIONS.

DID YOU DATE

ANDREW HOLTZ?
A.

NO, ANDREW -- ANDREW WAS VERY INTERESTED IN ME

10

THE VERY FIRST WEEK THAT I SHOWED UP, AND MADE IT CLEAR

11

TO ME THAT HE WOULD BE INTERESTED IN A ROMANTIC

12

RELATIONSHIP.

13

OWN FEELINGS THAT MY FACE WOULD BETRAY ANY TROUBLE I

14

WAS HAVING ON THE AIR, I THOUGHT BETTER OF IT.

15
16
17
18

Q.

HOWEVER, AT MY MOTHER'S URGING AND MY

YOUR ASSOCIATION WITH THE DEFENDANT WAS OVER A

SIX-MONTH PERIOD; IS THAT TRUE?
A.

THAT WAS THE FIRST ASSOCIATION WITH HIM.

HE

LATER CAME BACK TO THE STATION.

19

Q.

DURING WHAT PERIOD OF TIME?

20

A.

AGAIN, I'M NOT ABSOLUTELY CLEAR ABOUT THAT.

21

HE CAME BACK AFTER ANOTHER JOB AND WAS THERE UNTIL I

22

LEFT THE STATION.

23
24

Q.

IN THE INTERIM, YOU'VE HAD SOME LETTERS FROM

HIM, AND THERE HAVE BEEN SOME PHONE CALLS?

25

A.

NO, THAT IS SINCE I LEFT THE STATION.

26

Q.

SINCE HE WAS ARRESTED, HAVE YOU HAD ANY

27

28

COMMUNICATION?
A.

YES.

Petitioner's App. 22 - 494

ER 1350

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 180 of 22
(1560 of 2466)

8118
1

THEY WILL ALL BE HERE ON WEDNESDAY.

2

OH, WAIT A MINUTE.

3

PROBLEM.

4

DO WITH LEAVING

5

THERE IS A PROBLEM.

WAIT A MINUTE.

THERE IS A

I AM NOT SURE IT HAS TO

LETTING THEM GO RIGHT NOW.

THE WE HAD A NEUROLOGICAL STUDY DONE RECENTLY

6

UP AT IRVINE.

7

RESULT OF THAT WAS AN ABNORMAL -- AND I'LL TURN IT OVER

8

TO THE PROSECUTOR, IT WAS A PAT SCAN.

9

ABNORMAL PAT.

10
11

THE ONLY PERSON WHO IS CAPABLE -- THE

THE RESULT WAS

I HAVE NO IDEA WHAT THE LANGUAGE BEYOND

THAT MEANS IN THE REPORT.
THE ONLY PERSON THAT WE CAN FIND -- AND WE'VE

12

BEEN TRYING, MS. GILBERT HAS BEEN TRYING FOR SEVERAL

13

DAYS NOW TO FIND SOMEBODY -- IS THE DIRECTOR OF THE

14

FACILITY AT IRVINE.

15

CONFERENCE IN ITALY.

16

THE COUNTRY TRYING TO FIND SOMEBODY ELSE.

17

AT THE CONFERENCE IN ITALY.

18

CONFERENCE ON THE PAT SCAN IN THIS PARTICULAR AREA.

HE IS ATTENDING A MEDICAL
WE HAVE CALLED LITERALLY ALL OVER
THEY ARE ALL

IT IS A WORLDWIDE

19

THE COURT:

WHEN IS THE CONFERENCE OVER?

20

MR. BUMER:

APPARENTLY THE CONFERENCE IS NOT OVER

21
22

UNTIL THE END OF THE MONTH.
THE COURT:

DO YOU WANT -- LET'S DO THIS.

BECAUSE

23

WE NEED TO TALK A LITTLE BIT ANYWAY, LET'S EXCUSE THE

24

JURY FOR TOMORROW.

25

WORK ON TOMORROW MORNING, BECAUSE WHAT I WOULD LIKE TO

26

TRY TO DO IS AT LEAST -- WELL, ACTUALLY, LET'S JUST LET

27

THE JURY GO AND BRING THEM BACK WEDNESDAY.

28

WE WILL WORK ON WHATEVER WE CAN

YOU WILL HAVE AT LEAST FOUR WITNESSES ON

Petitioner's App. 22 - 495

ER 1351

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 181 of 225
(1561 of 2466)

8119
1

WEDNESDAY, RIGHT?

2

MR. BUMER:

YES.

3

THE COURT:

OKAY.

4

TALK SOME MORE WITH CALENDARS IN HAND.

5
6

LET'S DO THAT, AND THEN WE CAN

(END OF SIDE BAR.)
THE COURT:

LADIES AND GENTLEMEN, I'M GOING TO GIVE

7

YOU THE EVENING RECESS AT THIS TIME.

8

SENSE AT THIS STAGE FOR YOU NOT TO EVEN COME IN

9

TOMORROW.

IT MAKES MORE

WE WERE ONLY GOING TO BE IN SESSION A HALF

10

DAY TOMORROW, BUT BECAUSE OF THE SCHEDULING, FRANKLY,

11

I'M JUST NOT GOING TO BRING YOU IN AT ALL TOMORROW.

12

BUT I WILL BRING YOU IN ON WEDNESDAY, AND I AM NOT

13

REALLY CLEAR ON A TIME LINE AFTER THAT.

14

SO IF YOU WILL KEEP SOME FLEXIBILITY IN YOUR

15

SCHEDULE, AS SOON AS I HAVE A BETTER FEEL FOR HOW WE

16

ARE GOING TO PROCEED, I WILL LET YOU KNOW.

17

ONCE AGAIN, I WANT TO REMIND YOU OF THE

18

ADMONITION.

19

DO NOT DISCUSS THE CASE AMONG YOURSELVES, OR WITH

20

ANYONE ELSE, OR ALLOW ANYONE TO DISCUSS THE CASE WITH

21

YOU OR AROUND YOU.

22

PLEASE DO NOT FORM ANY FURTHER OPINIONS,

AND WHEN I SAY ANY FURTHER OPINIONS, I'M SURE

23

IT'S OBVIOUS, BUT JUST SO IT IS CLEAR FOR THE RECORD,

24

WHAT I'M REFERRING TO IS SINCE YOUR DELIBERATIONS

25

CONCLUDED, SINCE THAT TIME, I DON'T WANT YOU FORMING

26

ANYMORE OPINIONS.

27
28

I REALIZE AT THAT PARTICULAR STAGE YOU DID
FORM SOME OPINIONS, AND THAT'S THE REASON FOR THE

Petitioner's App. 22 - 496

ER 1352

Case: 13-99007

10/22/2014

ID: 9287557

SUPREME COURT

1

DktEntry: 17-7

Page: 201 of (1581
225 of 2466)

STATE OF CALIFORNIA

2
3

4

THE PEOPLE OF THE STATE OF
CALIFORNIA,

5

6

)
}
)
)
)
}

PLAINTIFF-RESPONDENT,

) SUPREME COURT NO 5D:/..3CX>O
) Cf:. 9o ;z. '{!D
) FROM SAN DIEGO COUNTY

vs

) 3UDGE MELINDA J.
)
LASATER

7

)

8

9

DEAN PHILLIP CARTER,

10

DEFENDANT.

)
)

)

VOLUME LIV

)

11
12
13

14
15

APPEARANCES:
FOR THE PLAINTIFF:

EDWIN L. MILLER, JR.,
DISTRICT ATTORNEY
BY: JAMES PIPPIN, AND
ROBERT EICHLER AND
DEPUTY DISTRICT ATTORNEY

FOR THE DEFENDANT:

CHARLES BOMER, ESQ.
1168 UNION STREET, STE.
SAN DIEGO, CA 92101

16
17
18

19
20
21
22

201

JOSEPHINE DEDINA, ESQ.
934 23RD STREET
SAN DIEGO, CA 92102

23
24

25

JOHN R. AVERY, CSR #8605
DAVID DAILY, CSR #6885
OFFICIAL REPORTER
SAN DIEGO, CALIFORNIA 92101

26

27
28

Petitioner's App. 23 - 497

ER 1372

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 202 of 225
(1582 of 2466)

14
VOLUME LIV

1

JONE 13, 1991

2

3
INDEX OF WITNESSES

4

5

WITNESSES:

6

DR. BUCHEBAUM

7

8

UNSWORN TESTIMONY

BY MR. BOMER
BY MR. EICHLER
BY MR. PIPPIN

8314
8317
8324

9

EXHIBITS RECEIVED IN EVIDENCE
10
11
12
13
14
15
16
17
18

19
20

NO. 149 ENVELOPE CONTAINING
149A, 149B, 149C
149A, 149B AND 149C
150 COLOR PHOTO
151 PHOTO
153A, 153B, 153C, 153D,
153E AND l53F PHOTOS, NOME, ALASKA
154A, 1548, 154C, 1540
154E PHOTOS FISHING CABIN, ALASKA
155 LAMINATED MAP ALASKA
156A, 1568 PHOTOS JESSE LEE HOME
157 PHOTO JESSE LEE HOME
158 APLICATION FOR ADMISSION TO JESSE LEE HOME
159A, 159B, 159C, 1590,
159E ABE NEWSLETTERS
160 MAGAZINE ARTICLE
161 XEROX OF WHALING PHOTO AND LETTER
162 UNIVERSITY OF ALASKA BOOKLET RE: SURVIVAL
163 VIDEO CASSETTE - RELEASED TO MR. BOMER
164 BETA CASSETTE - RELEASED TO MR. BOMER
165 VHS COPY OF 164 - RELEASED TO MR. BUMER

21
22
23

24
25
26

27

28

Petitioner's App. 23 - 498

ER 1373

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 203 of 225
(1583 of 2466)

8313
1

LET'S TAKE A RECESS AND GET READY FOR TODAY.

2

(RECESS TAKEN.)

3

THE COURT:

4

HOW ARE YOU DOING?

5

HI, DOCTOR, THIS IS JUDGE LASATER.

I'M TRYING TO GET THE SPEAKER PHONE TO WORK.

6

IT WORKED JUST A MINUTE AGO, BUT NOW IT'S NOT WORKING,

7

SO IT IS GOING TO TAKE A SECOND OR TWO IF YOU CAN BEAR

8

WITH US.

9
10

OKAY.

SPEAKER PHONE NOW.

11
12

DOCTOR, I THINK I HAVE YOU ON THE

OKAY?
ONE SECOND.

13

WE ARE GOING TO TRY ONE MORE TIME.

OKAY.

HANG ON ONE SECOND.

OKAY.

JUST

THANK YOU.

OKAY.

DOCTOR, WE ARE NOW ON THE SPEAKER

14

PHONE.

15

MR. EICHLER FROM THE DISTRICT ATTORNEY'S OFFICE,

16

MS. DEDINA AND MR. BUMER FROM THE DEFENSE TEAM, AND THE

17

COURT REPORTER, WHO IS GOING TO TRY TO TAKE DOWN AT

18

LEAST THE PORTIONS OF IT WHERE I'M PRESENT.

IN CHAMBERS WITH ME IS MR. PIPPIN AND

19

HOW ARE YOU DOING?

20

WHAT DO YOU HAVE IN FRONT OF YOU BECAUSE WE

21
22

CAN'T HEAR YOU.
DR. BUCHSBAUM:

ALL RIGHT.

I HAVE IN FRONT OF ME

23

THE REPORT FROM MY LABORATORY ON DEAN CARTER, WHICH IS

24

THE TWO-PAGE NARRATIVE SUMMARY.

25
26
27
28

SECOND OF ALL, I HAVE THE LETTER FROM YOU,
ASKING FOR REVIEWING THE REPORT.
THIRDLY, I HAVE THE STATISTICAL PRINTOUT FROM
MY LABORATORY THAT SUMMARIZEZ THE CHANGES THAT WE

Petitioner's App. 23 - 499

ER 1374

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 204 of 22
(1584 of 2466)

8314
1

OBSERVED IN MR. CARTER'S BRAIN IN THE CORTICAL SURFACE,

2

THE SECOND PAGE THE INNER PART OF THE TEMPORAL LOBE,

3

AND THEN TWO PAGES THAT DESCRIBE OTHER BRAIN REGIONS.

4

AND I HAVE A FAX ALSO OF A COPY OF

5
6
7
8
9
10

MR. CARTER'S PET SCAN, ALTHOUGH NOT IN COLOR.
THE COURT:

WE COULDN'T FIGURE OUT HOW TO DO THAT

IN COLOR.
DR. BUCHSBAUM:

NOT YET, BUT THAT WILL BE NEXT

YEAR.
THE COURT:

OKAY.

MR. BUMER, I'M GOING TO LET YOU

11

START WITH ANY QUESTIONS THAT YOU MAY HAVE AT THIS

12

STAGE THAT YOU WANT TO ASK WITH ALL OF US PRESENT.

13

WILL GIVE YOU TIME SEPARATELY WITH THE DOCTOR.

14

BY MR. BUMER:

15

Q.

DOCTOR

16

A.

MR. BUMER IS WITH THE DEFENSE?

17

Q.

YES.

18
19
20

ALL RIGHT.

I

DOCTOR, WHAT CAN YOU TELL US UP

FRONT ABOUT THE MATERIALS YOU HAVE ABOUT MR. CARTER?
A.

ALL RIGHT.

NOW, LET ME REMIND YOU THAT THIS

21

IS THE FIRST I'VE SEEN THIS REPORT, AND I DON'T HAVE

22

ANY CLINICAL INFORMATION ON MR. CARTER, SO THAT

23

NORMALLY A DIAGNOSTIC PROCEDURE LIKE THIS IS ADVISORY

24

TO THE PHYSICIAN WHO HAS EXAMINED MR. CARTER; THAT IS,

25

A NEUROLOGIST, THE NEUROSURGEON, OR PSYCHIATRIST, AND

26

THIS PERSON WOULD HAVE A CLINICAL HISTORY SO THEY WOULD

27

KNOW SOMETHING ABOUT -- I KNOW NOTHING ABOUT THE

28

DETAILS OF THE CRIME, THE MEDICAL HISTORY, OR ANYTHING

Petitioner's App. 23 - 500

ER 1375

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 205 of 225
(1585 of 2466)

8315

1

ABOUT A NEUROLOGICAL OR PSYCHIATRIC EXAMINATION.

2

ALL I HAVE IN FRONT OF ME IS A STATISTICAL REVIEW OF

3

THE ABNORMALITIES OF THE BRAIN.

SO

WHAT I CAN SAY ON THE BASIS, JUST OF LOOKING

4

5

AT THE REPORT, IS THAT THERE ARE LARGE NUMBERS OF

6

ABNORMAL BRAIN AREAS THAT SEEM SCATTERED THROUGH THE

7

REGIONS OF THE BRAIN.

8

INJURY, OR IN DEVELOPMENTAL ABNORMALITY ..

9

ABNORMALITIES OF THE BRAIN ARE NOT CLUSTERED IN ANY ONE

THIS IS SOMETIMES SEEN IN HEAD
THE

10

SPECIFIC AREA OF THE BRAIN.

11

WIDESPREAD.

12

CONCLUSION THAT THIS IS AN ABNORMAL PET SCAN, BUT I

13

CANNOT REALLY RELATE THIS TO ANY ASPECT OF THE MEDICAL

14

OR PSYCHIATRIC HISTORY WITHOUT MORE INFORMATION.

15

Q.

THEY ARE SOMEWHAT

SO I AGREE WITH DR. LOTTENBERG'S

CAN YOU TELL US WHAT PARTS OF THE BRAIN HAVE

16

BEEN AFFECTED IN RELATION TO THE FUNCTIONS OF THOSE

17

PARTS OF THE BRAIN?

18

A.

WELL, I CAN COMMENT THAT THERE ARE A NUMBER OF

19

ASYMMETRIES IN THE BRAIN, AND THAT IN THE INNERPART OF

20

THE TEMPORAL LOBE AREAS OFTEN ASSOCIATED WITH MEMORY

21

THERE ARE WIDESPREAD DECREASES ON THE LEFT-HAND SIDE.

22

AND WITHOUT KNOWING ANYTHING ABOUT THE CLINICAL

23

HISTORY, I'M SOMEWHAT RELUCTANT TO COMMENT ON THAT,

24

EXCEPT TO SAY THAT IN GENERAL THOSE ARE AREAS

25

ASSOCIATED WITH MEMORY, AND ESPECIALLY WITH VERBAL

26

MEMORY.

27
28

ON THE SECOND PART OF THE REPORT, WHICH ON MY
FAX IS NUMBERED PAGES 4 AND 5, AND REPRESENT THE

Petitioner's App. 23 - 501

ER 1376

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 206 of 225
(1586 of 2466)

8316

1

STATISTICAL AREAS THROUGHOUT THE BRAIN, WE ALSO SEE A

2

NUMBER OF AREAS OF THE BRAIN WHICH ARE DECREASED.

3

OF THESE ARE IN THE FRONTAL LOBE.

4

IN THE THALAMUS, AND IN PARTS OF THE BRAIN'S VISUAL

5

SYSTEM, AND IN PARTS OF THE CINGULATE GYRUS, AN AREA OF

6

THE BRAIN INVOLVED IN THE REGULATION OF EMOTION.

7

ALSO SEE SOME ABNORMALITIES IN THE HIPPOCAMPUS AREA OF

8

THE BRAIN INVOLVED IN MEMORY, SO THAT THIS COULD BE AN

9

INDIVIDUAL WITH DEFICITS IN THOSE FUNCTIONS.

SOME

THERE ARE ALSO AREAS

WE

BUT

10

WITHOUT MORE DETAIL ABOUT THE CLINICAL HISTORY, HISTORY

11

OF HEAD INJURY, HISTORY OF NEUROLOGICAL DISEASE, BRAIN

12

INFECTIONS, INJURY AT BIRTH, IT WOULD BE HARD TO GIVE A

13

MORE DETAILED STORY.

14

SO IN OTHER WORDS, I AM WHAT YOU WOULD SAY

15

COMPLETELY BLIND NOT HAVING MEDICAL HISTORY OR OTHER

16

INFORMATION ABOUT THE INDIVIDUAL.

17
18
19

Q.

DOCTOR, ON THE REGULATION OF EMOTIONS, HOW

MARKED ARE THE ABNORMALITIES?
A.

THIS IS SOMEWHAT HARD TO SAY WITHOUT

20

INVESTIGATING

21

COLORED PICTURES TO FORM AN IMPRESSION, AND WITHOUT

22

KNOWING SOMETHING ABOUT CORROBORATING EVIDENCE, ABOUT

23

OTHER INFORMATION ABOUT THE PATIENT.

24

WITHOUT, FIRST OF ALL, SEEING THE

I WOULD SAY THIS; THAT WHILE WE ANALYZE A

25

LARGE NUMBER OF AREAS, I THINK THAT THERE ARE 17 OR 18

26

ABNORMAL AREAS IN THE PRINTOUT OF BRAIN AREAS, MY PAGES

27

4 AND 5.

28

CONTROLLED HAS ABOUT THREE AREAS THAT EXCEEDED THREE

A NORMAL PERSON IN OUR SET OF NORMAL

Petitioner's App. 23 - 502

ER 1377

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 207 of 225
(1587 of 2466)

8317
1

STANDARD DEVIATION LIMITS.

2

OR ONE PERSON IN 40, WOULD HAVE AS MANY ABNORMAL AREAS

3

AS ARE SHOWN IN THE REPORT ON MR. CARTER.

4

WOULD PUT IT ON A STATISTICAL BASIS IN THE AREA OF AN

5

ABNORMAL REPORT.

6
7
8
9
10

MR. BUMER:

SO ABOUT ONE PERSON IN 20,

SO THIS

I HAVE NOTHING ELSE AT THE MOMENT, YOUR

HONOR.
THE COURT:

OKAY.

MR. PIPPIN, MR. EICHLER, DO YOU

HAVE ANY QUESTIONS OF THE DOCTOR AT THIS STAGE?
MR. EICHLER:

11

BY MR.

12

Q.

YES.

EICHLER:
DR. BUCHSBAUM, THIS IS ROBERT EICHLER.

LET ME

13

ASK YOU A COUPLE OF QUESTIONS HERE.

14

THAT ONE IN 40 PEOPLE MIGHT HAVE THE NUMBER OF

15

ABNORMALITIES THAT THE DEFENDANT HAS, OR MR. CARTER HAS

16

DEMONSTRATED, HOW MANY PEOPLE HAVE YOU ACTUALLY DONE

17

TESTS ON THIS TO DEVELOP THAT STATISTICAL INFORMATION?

18

A.

YES, WE HAVE.

WHEN YOU INDICATE

I HAVE -- THIS IS SOMETHING

19

THAT I'VE LOOKED AT TO ANSWER THIS KIND OF QUESTION.

20

AND WE HAVE -- I WROTE A COMPUTER PROGRAM TO TABULATE

21

THE NUMBER OF ABNORMAL AREAS IN OUR ENTIRE GROUP OF

22

NORMAL CONTROLS.

23

OF ABNORMAL AREAS IS DEFINITELY ABNORMAL.

24

SO THAT IS WHY I KNOW WHY THIS NUMBER

BY CHANCE ALONE OUT OF A LARGE NUMBER OF BRAIN

25

AREAS YOU MIGHT EXPECT SOME AREAS TO BE ABNORMAL.

26

INDIVIDUAL HAS AN UNUSUAL NUMBER OF ABNORMAL AREAS, AND

27

THAT'S WHY I AGREE WITH THE GENERAL CONCLUSION THAT

28

THIS WAS AN ABNORMAL BRAIN SCAN.

Petitioner's App. 23 - 503

THIS

ER 1378

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 208 of 225
(1588 of 2466)

8318
1

2
3

Q.

HOW MANY PEOPLE ARE IN YOUR CONTROL GROUP FOR

YOUR NORMAL READINGS?
A.

ON THE SAMPLE THAT I TABULATED THAT

4

INFORMATION, THERE ARE 24 PEOPLE, AND I THINK ONLY ONE

5

HAD THAT MANY DEVIATE AREAS, AND THAT IS WHY I KNOW IT

6.

IS APPROXIMATELY UP AT THE FIVE PERCENT LEVEL, WHICH IS

7

THE TYPICAL LEVEL ACCEPTED BY MEDICAL LABORATORIES.

8

IS A LEVEL OF STATISTICAL SIGNIFICANCE.

IT

NOW, THE ACTUAL REPORT THAT YOU HAVE IN FRONT

9
10

OF YOU, THE MEANS M..~Y BE BASED ON A SLIGHTLY LARGER

11

GROUP BECAUSE SINCE THAT TIME OVER THE LAST YEAR WE

12

HAVE COLLECTED ADDITIONAL NORMAL CONTROLS, AND SO I

13

THINK THERE ARE 30 INDIVIDUALS WHO ARE IN THE CURRENT

14

NORMAL CONTROL GROUP.

15

16

17

Q.

NOW, THAT CONTROL GROUP ARE UC IRVINE

STUDENTS; IS THAT CORRECT?
A.

WELL, THEY ARE PEOPLE FROM THE COMMUNITY.

18

THEY ARE A MUCH WIDER RANGE THAN STUDENTS BECAUSE WE

19

WERE ANXIOUS NOT JUST TO HAVE STUDENTS, SO THEY ARE A

20

SOMEWHAT WIDER RANGE INDIVIDUALS.

21

Q.

HOW MANY OF THOSE PEOPLE ARE -- HAVE BEEN

22

INSTITUTIONALIZED IN EITHER A PRISON OR JAIL AT THE

23

TIME OF THE TEST?

24

A.

NONE OF THEM.

25

Q.

WHAT KIND OF NEUROLOGICAL OR PSYCHOLOGICAL

26

INFORMATION DO YOU HAVE ABOUT THOSE PEOPLE FROM YOUR

27

NORMAL STUDY GROUP IN ADDITION TO SIMPLY THE PET SCAN

28

INFORMATION?

Petitioner's App. 23 - 504

ER 1379

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 209 of 225
(1589 of 2466)

8319
1

A.

RIGHT, ALL OF THESE INDIVIDUALS WERE SCREENED.

2

WE COLLECTED MEDICAL INFORMATION, WE DID CHEMICAL

3

LABORATORY TESTS, THEY RECEIVED A BRIEF PSYCHIATRIC

4

EXAMINATION, AND A DETAILED MEDICAL HISTORY ABOUT BRAIN

5

DAMAGE, SO THAT THEY COULD SERVE AS VALUE NORMAL

6

CONTROLS.

7

Q.

NOW, IN YOUR STUDIES, FOR EXAMPLE, IF SOMEONE

8

WERE INSTITUTIONALIZED IN A PRISON FOR THE LAST SEVEN

9

YEARS AND IF THAT WOULD HAVE SOME EFFECT ON THE WAY

10

THEY USE THEIR BRAIN, YOU HAVE NO WAY OF ACCOUNTING FOR

11

THAT; IS THAT CORRECT?

12

A.

WE DON'T HAVE A SPECIFIC STUDY ON INDIVIDUALS

13

WHO HAVE BEEN -- WHO ARE OTHERWISE NORMAL BUT

14

INSTITUTIONALIZED.

15

NOW, WE HAVE DONE STUDIES OF PATIENTS WITH

16

SCHIZOPHRENIA, AND, OF COURSE, THEY ARE

17

INSTITUTIONALIZED.

18

WE HAVE SOME COMPARISONS IN THAT GROUP AMONG

19

PEOPLE WHO HAVE BEEN INSTITUTIONALIZED AND INDIVIDUALS

20

WHO HAVE NOT, BUT WE DO NOT SEE PATTERNS SIMILAR THAT

21

WOULD CREATE THESE ABNORMALITIES.

22

Q.

NOW, CURRENTLY THE MOST PROMISING USE OF THE

23

PET SCAN IS IN DEVELOPING SOME TYPE OF MEANS OF

24

UNDERSTANDING SCHIZOPHRENIA AND THE BRAIN FUNCTIONS

25

THAT ARE AFFECTED THERE; IS THAT CORRECT?

26

A.

THERE ARE A VARIETY OF CLINICAL APPLICATIONS

27

THAT INCLUDE EPILEPSY, IDENTIFYING EPILEPSY FOR SIGNS,

28

IDENTIFYING DIFFERENT KINDS OF DEMENTIA, THE DIAGNOSIS

Petitioner's App. 23 - 505

ER 1380

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 210 of 225
(1590 of 2466)

8320
1

OF ALZHEIMER DISEASE, ASSESSING METABOLISM IN BRAIN

2

TUMORS, AND THEN BASIC RESEARCH IN PSYCHIATRIC ILLNESS,

3

SUCH AS SCHIZOPHRENIA AFFECT DISORDER.

4

I'VE BEEN TALKING ABOUT HERE AT THE CONGRESS OF

5

NEUROBIOLOGICAL SCIENCE IN FLORENCE.

6

Q.

THAT'S WHAT

IF YOU TAKE SOMEONE TO YOUR CLINIC, DO A PET

7

SCAN, AND YOU ARE PROVIDED WITH NO OTHER PSYCHOLOGICAL,

8

NEUROLOGICAL OR PSYCHONEUROLOGICAL STUDIES, AND YOU

9

FIND CERTAIN ABNORMALITIES SUCH AS YOU HAVE HERE, YOU

10

CANNOT SAY THAT, FOR EXAMPLE, AN ABNORMALITY IN A

11

PARTICULAR REGION OF THE BRAIN MEANS THAT THIS PERSON

12

HAS UNCONTROLLABLE RAGES AND WOULD LIKELY BE A SERIAL

13

KILLER?

14

A.

THERE IS NO WAY YOU CAN DO THAT, IS THERE?
NO, I DON'T THINK SO.

AND I THINK THIS WOULD

15

BE TRUE OF ANY MEDICAL TEST OF ANY KIND.

16

CONSIDER A CHEST X-RAY OR AN ELECTROCARDIOGRAM

17

COMPLETELY IN THE ABSENCE OF ANY CLINICAL INFORMATION.

18

FOR INSTANCE, INCLUDING THE AGE OF THE PATIENT.

19
20

ONE WOULD NOT

NOW, I'M ONLY INFERRING THIS IS A MALE BECAUSE
HIS NAME IS DEAN.

21

THE COURT:

22

DR. BUCHSBAUM:

THAT'S A GOOD GUESS.
SO I WOULD THINK WITHOUT ANY

23

CLINICAL INFORMATION WE WOULD BE SOMEWHAT LIMITED IN

24

INTERPRETING IT, BUT I DON'T THINK THAT NECESSARILY

25

MEANS THAT THE TEST IS INVALID.

26

THIS IS A COMMON PART OF MEDICAL PRACTICE,

27

THAT THE PATIENT'S PHYSICAL AND MEDICAL HISTORY IS

28

TAKEN INTO ACCOUNT IN THE INTERPRETATION.

Petitioner's App. 23 - 506

ER 1381

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 211 of 225
(1591 of 2466)

8321
1

THE COURT:

DOCTOR, BEFORE YOU WOULD BE ABLE TO

2

FORM ANY OPINIONS THAT YOU WOULD FEEL COMFORTABLE

3

TESTIFYING TO, WHAT TYPE OF INFORMATION WOULD YOU NEED?

4

DR. BUCHSBAUM:

WELL, FIRST OF ALL I'D LIKE TO SEE

5

THE REPORTING TO A PHYSICIAN WHO'S ACTUALLY EXAMINED

6

MR. CARTER.

7

AND I DON'T KNOW ANYTHING ABOUT THIS CASE.

8

PRESUMABLY THERE ARE OTHER PHYSICIANS INVOLVED WHO

9

EXAMINED THE PATIENT, DONE NEUROLOGICAL AND PSYCHIATRIC

10

HISTORIES, THAT WOULD BE PART OF THIS REVIEW OF THE

11

STATUS OF THE BRAIN.

12

THE COURT:

HOW DOES THAT WORK?

DO YOU MEAN THAT

13

THEY JUST TAKE WHAT YOU'VE GOT AND THEY THEN UTILIZE

14

THE INFORMATION TO FORM OPINIONS, OR IS THAT

15

DR. BUCHSBAUM:

16

PROCESS OF DIAGNOSIS.

17

PNEUMONIA, YOU WOULDN'T GO TO A RADIOLOGIST FOR A CHEST

18

X-RAY, YOU WOULD GO TO AN INTERNIST OR A PULMONARY

19

SPECIALIST, HE WOULD SEND YOU TO THE RADIOLOGIST, THE

20

RADIOLOGIST WOULD EXAMINE THE CHEST X-RAY, AND THEN YOU

21

WOULD BE DIAGNOSED AS HAVING PNEUMONIA OR TUMOR OR

22

TUBERCULOSIS BY THE INTERNIST.

23

THE COURT:

24

DR. BUCHSBAUM:

25

THE COURT:

26

DR. BUCHSBAUM:

THAT WOULD BE PART OF THE NORMAL
SO IN OTHER WORDS, IF YOU HAD

DOES THE
NO.

I'M SORRY.

GO AHEAD.

I CAN CONTRIBUTE TO THIS PROCESS IF

27

I KNEW SOMETHING ABOUT THE PATIENT.

28

ANTICIPATE THAT I WOULD WANT TO KNOW, AS PART OF

Petitioner's App. 23 - 507

SO THAT I WOULD

ER 1382

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 212 of 225
(1592 of 2466)

8322

1

REVIEWING THE SIGNIFICANCE OF THIS, SOMETHING ABOUT THE

2

PATIENT'S PSYCHIATRIC AND NEUROLOGICAL HISTORY AND

3

EXAM.

4

COMPUTERIZED INFORMATION WHICH, ON EXAMINATION OF IT,

5

APPEARS TO SUGGEST ABNORMAL BRAIN FUNCTION.

6

BUT AS IT STANDS NOW, I HAVE JUST THE

THE COURT:

BUT AT THIS POINT, YOU WOULD NOT BE

7

ABLE TO SAY WHAT IMPACT THAT WOULD ACTUALLY HAVE ON THE

8

PERSON'S BEHAVIOR.

9

THE WITNESS:

I WOULD BE ABLE TO MAKE -- HAVE SOME

10

OPINION, BUT IT WOULD BE LIMITED BY THE ABSENCE OF ALL

11

OTHER INFORMATION.

12

AND SUBSTANTIVE OPINION IF I HAD ADDITIONAL INFORMATION

13

ABOUT THE PATIENT.

14

THE COURT:

I WOULD HAVE A MUCH MORE DETAILED

WHAT I'M TRYING TO FIGURE OUT IS HOW

15

MUCH FURTHER WE NEED TO EXPLORE THIS, SO IF YOU'LL BEAR

16

WITH ME.

17

WHAT CAN YOU SAY?

BASED UPON WHAT YOU HAVE IN FRONT OF YOU,

18

DR. BUCHSBAUM:

19

THE COURT:

20

DR. BUCHSBAUM:

BASED ONLY ON THIS?

YES.
BASED ONLY ON THIS, I WOULD SAY

21

THAT THIS BRAIN STUDY DOESN'T REPRESENT A BRAIN STUDY

22

OF A TYPICAL NORMAL INDIVIDUAL; THAT IT HAS A LARGE

23

NUMBER OF SCATTERED ABNORMAL AREAS WHICH INVOLVE AREAS

24

OF THE TEMPORAL LOBE, THE HIPPOCAMPUS, THE CINGULATE

25

GYROS THE AREA OF EMOTION, AND THAT THIS PERSON COULD

26

HAVE ABNORMALITIES OF BEHAVIOR ASSOCIATED WITH MEMORY

27

AND THE REGULATION OF BEHAVIOR.

28

WE KNOW THAT IN A PRELIMINARY· ANALYSIS OF

Petitioner's App. 23 - 508

ER 1383

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 213 of 225
(1593 of 2466)

8323
1

OTHER VIOLENT OFFENDERS, THE CINGULATE GYRUS HAS BEEN

2

ONE OF THE AREAS WHICH HAS HAD ABNORMALITIES COMMON TO

3

THAT WHOLE GROUP OF INDIVIDUALS, AND SO THIS WOULD BE

4

ONE SUSPICION THAT I WOULD HAVE SEEING THAT SEVERAL

5

AREAS IN THE CINGULATE GYRUS WERE ABNORMAL.

6

THE COURT:

OKAY.

AND FOR YOU TO FORM A MORE

7

DEFINITIVE OPINION, YOU WOULD HAVE TO TALK TO SOMEBODY

8

ELSE WHO HAS ACTUALLY DONE OTHER TESTS OF A

9

PSYCHOLOGICAL, PSYCHIATRIC AND/OR NEUROLOGICAL NATURE

10
11

ON THE DEFENDANT; IS THAT CORRECT?
DR. BUCHSBAUM:

I THINK THAT WOULD BE EXTREMELY

12

VALUABLE AS PART OF A GOOD MEDICAL WORK UP OF THIS

13

PARTICULAR PATIENT, REALLY PRESS IT BEYOND WHAT I HAVE

14

DISCUSSED UP TO NOW.

15

SO THE PET SCAN IS ONE STEP IN THIS

16

EVALUATION, AND I FEEL CONFIDENT LOOKING AT IT THAT

17

THIS IS AN ABNORMAL STUDY.

18

STORY, I WOULD FEEL COMFORTABLE KNOWING MORE ABOUT THE

19

PATIENT.

20

THE COURT:

OKAY.

TO GIVE A MORE DETAILED

BUT AS FAR AS ANOTHER EXPERT

21

TESTIFYING, UTILIZING YOUR INFORMATION, IT SEEMS LIKE

22

THEY REALLY DON'T UNDERSTAND THESE RESULTS.

23

EXPERIENCE THEY HAVE TO TALK TO YOU TO BE ABLE TO FORM

24

OPINIONS BASED UPON THESE RESULTS?

25

DR. BUCHSBAUM:

IS YOUR

WELL, IT WOULD DEPEND ON WHO IT

26

WOULD BE.

27

AND NEUROLOGY MIGHT BE ABLE TO READ THE REPORT KNOWING

28

THE HISTORY OF THIS PATIENT AND HAVING SOME

THE PERSON WHO WAS EXPERT IN BRAIN ANATOMY

Petitioner's App. 23 - 509

ER 1384

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 214 of (1594
225 of 2466)

8324
1

INTERPRETATION, BUT I DON'T KNOW WHO HAS BEEN ASKED

2

ABOUT THE INTERPRETATION OF THE REPORT.

3

THE COURT:

4

DR. BUCHSBAUM:

5

OKAY.
WHAT KIND, IN FACT, MEDICAL

INFORMATION IS AVAILABLE ON THIS PERSON.
THE COURT:

6

DOCTOR, BECAUSE OF THE ATTORNEY-CLIENT

7

WORK PRODUCT TYPE OF PRIVILEGE, I'M GOING TO GIVE THE

8

DEFENSE ATTORNEY AN OPPORTUNITY TO TALK TO YOU WITHOUT

9

THE REST OF US PRESENT TO PURSUE SOME OF THOSE

10

QUESTIONS.

11

YOU WOULD.

IF YOU COULD, JUST WAIT FOR ONE MOMENT IF

12

MR. PIPPIN:

13

THE COURT:

14

BY MR. PIPPIN:
Q.

15

MAY I ASK HIM A COUPLE OF QUESTIONS?
SURE.

DOCTOR, MY NAME IS JIM PIPPIN.

I'M A DEPUTY

16

DISTRICT ATTORNEY, TOO.

17

MIGHT.

18

A.

SURELY.

19

Q.

WHEN YOU DESCRIBE THE RESULTS OF THIS TEST AS

20

I HAVE A COUPLE QUESTIONS IF I

ABNORMAL, YOU'RE COMPARING THAT TO 20 PEOPLE OUT OF
A.

21

WELL, I THINK THERE ARE ACTUALLY 30 IN THE

22

SAMPLE AT THE CURRENT TIME THAT THIS STATISTIC IS BASED

23

ON.
OKAY.

24

Q.

25

SELECTED?

26

A.

27

COMMUNITY.

28

Q.

AND THOSE 30 PEOPLE, HOW WERE THEY

WELL, THEY WERE VOLUNTEERS FROM THE IRVINE

NOW, WITH RESPECT TO THAT, YOU STATED THAT OF

Petitioner's App. 23 - 510

ER 1385

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 215 of 225
(1595 of 2466)

8325
1

THOSE PEOPLE THAT YOU USED IN THE TEST GROUP, THEY WERE

2

GIVEN A BATTERY OF TESTS IN ADDITION TO THE PET SCAN.
WERE SOME SOME OF THE PEOPLE EXCLUDED FROM THE

3
4

SAMPLES BECAUSE THEY WERE NOT NORMAL, OR DID EVERYONE

5

THAT WM
A.

6

IN OTHER WORDS, SO THAT INDIVIDUALS WHO HAD A

7

FAMILY HISTORY OF PSYCHIATRIC ILLNESS, HAD NEUROLOGICAL

8

DISEMES, OR HAD A SEVERE INJURY SOMETIME IN THE PAST,

9

THOSE PATIENT WERE EXCLUDED FROM THE GROUP OF NORMAL

10

CONTROLS.
Q.

11

SO YOU MADE A DECISION WHO WM NORMAL, AND

12

THEN USED THAT AS THE NORMAL GROUP KIND OF; IS THAT

13

BASICALLY WHAT YOU DID?
A.

14

THAT IS THE STANDARD PROCEDURE IN DEVELOPING A

15

NORMAL CONTROL GROUP.

16

WANT TO INCLUDE A PERSON WITH A KNOWN HEAD INJURY M

17

PART OF YOUR NORMAL GROUP.
Q.

18

IN OTHER WORDS, YOU WOULDN'T

BUT WHAT IF THAT HEAD INJURY DIDN'T CAUSE ANY

19

BRAIN INJURY, HOW DO YOU KNOW IF THE HEAD JURY CAUSED A

20

BRAIN INJURY?
A.

21

22

WE WOULD DEFINE THAT ABNORMALITY BASED ON A

GROUP OF PEOPLE WHO DIDN'T HAVE A HEAD INJURY.

23

THE COURT:

DOCTOR, WHAT IF THIS PERSON DID -- WHAT

24

IF CARTER HAD A HEAD INJURY, WOULD THAT AFFECT YOUR

25

OPINION?

26

A.

WELL, WHAT I WOULD SAY, LET'S ASSUME, AND THIS

27

IS

28

LET'S ASSUME THAT MR. CARTER DID HAVE A HEAD INJURY.

I DON'T KNOW IF I SHOULD BE HYPOTHETICAL -- BUT

Petitioner's App. 23 - 511

ER 1386

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 216 of 225
(1596 of 2466)

8326

1

LET'S ASSUME THAT FOUR YEARS AGO HE WAS IN AN

2

AUTOMOBILE ACCIDENT, HIS CAR ROLLED OVER, HE WAS

3

UNCONSCIOUS FOR 45 SECONDS, CONFUSED AFTERWARDS, SICK

4

FOR SEVERAL DAYS AND RECOVERED.

5

DESCRIPTION OF PEOPLE WITH CLOSED HEAD INJURY.

6

AND THIS IS THE COMMON

IF WE HAD THIS KIND OF HISTORY, IF WE HAD AN

7

INJURY THAT HE WAS HIT ON ONE PARTICULAR SIDE OF THE

8

HEAD, THEN THE PET SCAN EVIDENCE WOULD BE STRONG

9

CORROBORATING EVIDENCE THAT INDEED THIS HEAD INJURY WAS

10

ASSOCIATED WITH LONG LASTING AND PERMANENT DAMAGE TO

11

THE BRAIN.

12

THE PATIENT AND USING THE LABORATORY INFORMATION WOULD

13

THEN FIND THIS VALUABLE.

SO THAT THE PHYSICIAN MAKING -- EVALUATING

14
15
16
17
18
19
20

21
22
23

24

25
26
27
28

Petitioner's App. 23 - 512

ER 1387

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 217 of (1597
225 of 2466)

8327

1

2

PROMISE.

3

TALK TO HIM,

4

MR.

5

RECORD.

6

I

RECORD.

8

MR.

DEDINA

I

HAVE SOMETHING I'D LIKE ON THE

DON'T KNOW THAT YOU'RE GOING TO BE I'M NOT GOING TO PUT THAT ON THE

EICHLER:

I'D LIKE A COUPLE OTHER THINGS ON

THE RECORD ON THIS.
I'LL LET YOU DC IT AGAIN.

10

THE COURT:

11

MR.

EICHLER:

12

"l'IU't:'

.J.. "'-'W

COURT:

13

MR.

PI PP I ?l:

... .,.A

THE COURT:

"I

BOMER AND MS.

I

THEN YOU CAN TALK TO HIM SOME MORE TOO.

EICHLER:
I

I'LL GIVE YOU GUYS MORE

JUST WANT TO LET MR.

THE COURT:

7

9

OKAY.

THE COURT:

OKAY.
OKAY.
YOU WANT US OUT OF HERE RIGHT NOW?
YEAH.

I'M LEAVING TOO.

15

ACTUALLY DO YOU WANT TO PICKUP A PHONE AND

16

AND TALK TO HIM ON THE PHONE INSTEAD? WOULD THAT BE

17

EASIER?

18

MR.

19

22

THAT MIGHT BE EASIER.

BUMER:

I

DON'T KNOW

HOW TC TURN THIS SPEAKER THING ON.
(RECESS TAKEN.)

20

21

YOU CAN DO IT IN HERE.

THE COURT:
AGAIN,

DOCTOR,

THIS IS JUDGE LASATER.

WE'RE BACK ON THE RECORD.

I

23

WELL,

REALLY WANT TO THANK YOU FOR YOUR TIME AND

24

EFFORT,

25

I'M SURE YOU'D RATHER BE OUT IN FLORENCE DOING

26

SOMETHING A WHOLE LOT MORE FUN.

27
28

ESPECIALLY AT WHAT IS NOW 7:30 YOUR TIME WHEN

THE WITNESS:

THAT'S QUITE ALL RIGHT.

QUITE AN INTERESTING CASE.

I

THIS IS

WAS GLAD TO BE OF

Petitioner's App. 23 - 513

ER 1388

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 218 of (1598
225 of 2466)

8328

l

THE COURT:

I

SURE APPRECIATE IT.

I'M GOING TO

2

ASK THE ATTORNEYS IF THERE IS ANYTHING THAT THEY WANT

3

TO ASK YOU FURTHER ON THE RECORD AT THIS POINT.
MR.

4

BUMER?

5

MR.

SUMER:

NO.

6

THE COURT:

MR.

PIPPIN?

I'M GOING TO ASK HIM IF

7

HE WOULD BE AVAILABL~ TO US LATER ON IF WE NEED HIM,

8

KEEPING THAT IN MIND,

9

WANT TO LET YOU KNOW I'M DOING THAT.

10
11
12
13

I'M NOT TRYING TC PUSH,

I

ANYTHING ELSE YOU WANT TO ASK HIM ON THE
RECORD?
(BY MR.

Q ••

EICHLER)

DR.

BUCHSBAUM,

I

KNOW YOU

HAVE TESTIFIED IN A NUMBER OF CRIMINAL CASES.
ARE YOU AWARE OF ANY OTHER EXPERT IN THE

14

15

FIELD OF P.E.T.

16

CASES?

17

A.

NO.

SCANS WHO HAS TESTIFIED IN CRIMINAL

UNFORTUNATELY,

I'M NOT.

I

THINK WE'RE

18

THE ONLY ONES WHO HAVE COLLECTED THIS SERIES OF

19

PATIENTS.

20

21

Q •

I'M NOT SURE I

QUITE UNDERSTAND WHAT YOU'RE

SAYING.

22

A.

I'M NOT ACTUALLY SURE OF THAT.

23

Q.

WHEN YOU SAY THE SERIES OF PATIENTS,

24

SURE I

25

A.

26
27

28

JUST

I'M NOT

UNDERSTAND WHAT YOU MEAN.
SERIES OF CRIMINAL CASES.

I'M AFRAID I

CALL

THEM PATIENTS.
Q.

HOW MANY IN ALL HAVE BEEN PRESENTED TC YOUR

RESEARCH GROUP THERE AT U.C.I.?

Petitioner's App. 23 - 514

ER 1389

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 219 of ~2599 of 2466)

8329

A.

l

2

I

THINK SOMEWHERE AROUND 13 OVER THE PAST

FIVE YEARS.
Q.

3

(BY MR.

PIPPIN)

OF THOSE 18, WERE THOSE

4

PEOPLE CHARGED WITH MURDER,

5

MURDERS?

SPECIAL CIRCUMSTANCES

6

A.

IN SOME CASES,

7

Q.

HOW MANY WERE CHARGED WITH SPECIAL

3

CIRCUMSTANCE MURDER,

A.

9

10

DO YOU KNOW?

DON'T HAVE THAT.

Q ••

A VIOLENT CRIME?
A.

THAT'S CORRECT.

14

Q.

IN THOSE 18 ,

A.

17

AS I

18

THAT.

WELL,

SAID,

19

I

SCANS

DON'T HAVE THAT EXACT STATISTICS.

WE'RE WORKING ON A STATISTICAL STUDY OF

NOT ALL CF THEM WERE ABNORMAL.
WERE ABNORMAL.

21

22

HOW MANY ABNORMAL P.E.T.

DID YOU FIND?

16

20

DON'T HAVE THAT

BUT THEY WERE ALL CHARGED WITH SOME KIND CF

13

15

I

INFORMATION.

11
12

I

YES.

S0r'-1E

THEM

PERHAPS A MAJORITY.

BUT REMEMBER THAT WE DON'T SEE A RANDOM
EXAMPLE CF VIOLENT OFFENDERS.

23

MANY OF THE VIOLENT OFFENDERS WE HAVE SEEN

24

HAVE BEEN SENT TO US PARTLY BECAUSE THEY HAVE A

25

HISTORY CF A HEAD INJURY AND ARE,

26

LIKELY TC SHOW A P.E .T .

27

28

Q ••

(BY MR.

THEREFORE, MORE

SCAN ABNORMALITY.

EICHLER} AS I

UNDERSTAND IT, WEREN'T

SOME OF THOSE INSTITUTED ON THE ISSUE OF COMPETENCY

ER 1390
Petitioner's App. 23 - 515

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 220 of 225
(1600 of 2466)

8330

1

ALSO?

2

A.

3

TO us.

4

Q •'

THAT WAS

OUR VERY FIRST

IT WAS AN ISSUE
SO,

CASE.

IT

i-JAS

SE:NT

PARANOID SCHIZOPHRENIA.

IN SOME OF THE CASES,

SOME OF THE

5

CRIMINAL CASES YOU HAVE DEALT WITH,

6

SPECIFICALLY DEALING WITH WHETHER OR NOT THE PERSON

7

WAS CRIMINALLY SANE OR INSANE,

8

EXAMPLE;

A.

9

10

THE ISSUES WERE

OR SCHIZOPHRENIC

CR

IS THAT CORRECT?
THAT'S CORRECT,

BUT I

WOULD SAY THE MAJORITY

HAVE REALLY INVOLVED BRAIN DAMAGE.
ANYTHING ELSE?

11

THE COURT:

. ,.,

1 ,,

MR.

EICHLER:

13

THE

COURT:

NOTHING ELSE.
D OC T OR ,

t"1 Arr T

T O O VE R

14

IMPOSE UPON YOU,

15

DECISION IS GOING TO BE IN TERMS CF WHERE WE GO FROM

16

HERE.
I

17
18

12

BUT I

RE AL L Y D C N I T

I

REALLY DON'T KNOW WHAT THE

REALLY DON'T WANT TO DISTURB YOU AT 11 OR

O'CLOCK AT NIGHT AGAIN.
IS THERE

19

A

GOOD WAY THAT WE COULD REACH YOU,

20

IF YOU WOULD BE WILLING TO CONTINUE TO TALK TO US IF

21

WE NEED YOUR ASSISTANCE?
THE WITNESS:

22

23

RIGHT.
THE

24

25

WELL,

I

I

M

SURE

THAT

i•IOULD

BE

ALL

I'M ABOUT TO GO OUT TO DINNER.

I

COURT:

DON'T THINK WE WOULD NEED TC

FOLLOW-UP WITH ANYTHING FURTHER TODAY ACTUALLY.

I

26

THINK WE PROBABLY ASKED YOU WAY TOO MANY

27

QUESTIONS TODAY.

28

NEXT

I

WAS THINKING MORE ABOUT IN THE

DAY OR SO.

Petitioner's App. 23 - 516

ER 1391

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 221 of (1601
225 of 2466)

8331

IF WE NEED TO GET BACK IN TOUCH WITH YOU,

1

2

HOW HARD WOULD IT BE,

3

IT WOULD BE,

4

OR HOW MUCH OF AN INCONVENIENCE

AND WHAT'S THE BEST WAY?

THE WITNESS:

WELL,

THE BEST WAY TO GET IN TOUCH

5

WITH ME PROBABLY WOULD BE TO SEND ME A FAX SAYING

6

YOU'D LIKE TO TALK TO ME ON THE PHONE,

7

APPROXIMATELY THIS TIME OF DAY.·
IS THIS A GOOD TIME FOR YOU?

8

THE COURT:

9

THE WITNESS:

10
11

RIGHT.
REALLY DO

I

THAT WOULD BE GREAT.

THE COURT:
APPRECIATE

AND

IT.

WOULD YOU DC ME A FAVOR AND SEND YOUR BILL

12

SUMER,

AND I WILL MAKE

13

FOR YOUR TIME TODAY TO MR.

14

SURE IT GETS PAID THROUGH OUR SOURCES,

15

ALREADY AUTHORIZED THROUGH WHAT HE'S BEEN ALLOCATED.

16
17
18

THE WITNESS:
RIGHT IF I

19

FINE WITH US.

20

DONE,

21

I WILL TAKE.

ALL RIGHT.

TAKE CARE OF THAT WHEN I
ACTUALLY,

THE COURT:

WHENEVER YOU HAVE TIME

REALLY DO APPRECIATE YOUR ASSISTANCE.

BECAUSE I

THE WITNESS:

I APPRECIATE THAT VERY

CERTAINLY.

AND IF YOU HAVE ANY OTHER INFORMATION THAT

23

YOU'D LIKE ME TO COMMENT ON,

24

THAT IF YOU CAN REACH ME BY FAX HERE,

25

HERE THROUGH SATURDAY MORNING.

28

rs

I JUST WANT TO MAKE SURE THAT IT GETS

MUCH,

27

IS IT ALL

ARRIVE HOME?

22

26

IF IT'S NOT

THE COURT:

OKAY.

I WOULD BE GLAD TO DO

AND THEN I

AND I WILL BE

TAKE IT YOU'RE GOING

SOMEPLACE ELSE?
THE WITNESS:

THAT'S CORRECT.

Petitioner's App. 23 - 517

WELL,

MY OFFICE

ER 1392

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 222 of 225
(1602 of 2466)

8332

1

HAS A LIST OF THE PLACES WHERE I'LL BE.
THE COURT:

3

OKAY.

TO COOPERATE AND GIVE US YOUR NUMBER?

4

THE WITNESS:

5

THE COURT:

6

DO YOU THINK THEY WILL CONTINUE

I'M SURE THAT THEY WILL.
OKAY.

APPRECIATE YOUR

HAVE

7

THE WITNESS:

8

THE COURT:

9

THE WITNESS:
THE COURT:

10

THANKS SO MUCH.
A

I

SURE

GOOD DINNER.

NICE TALKING WITH YOU TODAY.
BYE.
BYE.
SINCE WE HAVE THE COURT REPORTER

LET ME JUST DO A COUPLE THINGS.

WOULD

11

HERE,

12

EVERYBODY LIKE A COUPLE OF MINUTES TO SORT OF

13

REGROUP?

14

BASICALLY WHAT I

NEED TO KNOW FROM THE

15

DEFENSE IS IF YOU'RE GOING TO BE PURSUING THIS OR

16

NOT.
I

17

DON'T KNOW IF YOU NEED A LOT CF TIME TO

18

THINK ABOUT IT,

OR IF IT'S SOMETHING THAT'S FAIRLY

19

EVIDENT TC YOU.

DO YOU WANT TO TALK TO YOUR CLIENT?

20

MR.

BUMER:

YEAH.

I

1

D ALSO LIKE TO BE -- I

21

THE NEXT ORDER OF BUSINESS IS TO GO OVER THE

22

EXHIBITS.

23

THE COURT:

EXHIBITS?

24

MR.

I

25

PRIORS.

BOMER:

THINK

THOUGHT WE WERE GOING OVER THE

26

THE COURT:

SAME THING.

27

MR.

I 1 D LIKE TO BE EXCUSED FOR A FEW

28

BOMER:

THAT'S AN EXHIBIT.

MINUTES AND GO BACK TO MY OFFICE.

Petitioner's App. 23 - 518

I

THINK -MR.

CARTER

ER 1393

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 223 of (1603
225 of 2466)

8368

L4
1

SAN DIEGO, CALIFORNIA, JUNE 13, 1991, 1:30 P.M.

2

PROCEEDINGS

3
4

5

THE COURT:

OKAY.

FOR THE RECORD, WE'VE GOT ALL

THE ATTORNEYS AND THE DEFENDANT.
MR. BOMER, HAVE YOU DECIDED IF YOU ARE GOING

6

7

TO BE PURSUING ANYTHING FURTHER IN TERMS OF THE PET

8

TEST?

9

MR. BOMER:

YES, I HAVE, YOUR HONOR.

10

THE COURT:

AND WHAT IS YOUR DETERMINATION?

11

MR. BOMER:

MY DECISION IS, IT IS A TACTICAL

12
13
14

DECISION THAT WE ARE NOT.
THE COURT:

OKAY.

HAVE YOU HAD A CHANCE TO DISCUSS

THIS DECISION WITH YOUR CLIENT?

15

MR. BOMER:

YES, I HAVE.

16

THE COURT:

OKAY.

COUNSEL, BECAUSE OF SOME OF THE

17

MATTERS OF WHICH I'M AWARE, WHAT I INTEND TO DO AT THIS

18

POINT IS ASK YOUR CLIENT IF HE'S IN AGREEMENT WITH THAT

19

DECISION.

20

YOUR CLIENT?

21

DO YOU OBJECT TO ME ASKING THAT QUESTION OF

MR. BOMER:

YES, I THINK SO, YOUR HONOR.

I, FIRST

22

OF ALL, OBJECT TO ANY OUTSIDE THE STANDARD WAVERS, FOR

23

INSTANCE, IF HE SHOULD -- THAT YOU TAKE IN A GUILTY

24

PLEA AND THAT KIND OF STUFF, I OBJECT TO ANY COLLOQUY

25

WITH MR. CARTER IN THE PRESENCE OF THE PROSECUTION.

26

SECONDLY, I DON'T THINK IT IS NECESSARY.

IT

27

IS PURELY A TACTICAL DECISION ON MY PART BASED ON A

28

CAREFUL CONSIDERATION OF A NUMBER OF THINGS, INCLUDING

Petitioner's App. 23 - 519

ER 1394

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-7

Page: 224 of 225
(1604 of 2466)

8369

1

KELLY/FRYE, AND A NUMBER OF OTHERS.

2

THE COURT:

3

FOR JUST A MOMENT.

4

HAD WITH THE DOCTOR, IT IS APPARENT THAT IT WOULD MOST

5

LIKELY OPEN THE DOOR TO MORE THAN JUST THE TESTIMONY OF

6

THIS PARTICULAR DOCTOR AND OTHER ISSUES, SO I DON'T

7

DISAGREE WITH THE TACTICAL END OF IT.

8
9
10

ALLOW ME THE LUXURY OF BEING PRACTICAL

MR. BUMER:

BASED UPON THE DISCUSSION THAT WE

THAT WAS ONE OF THE FACTORS, AMONG A

NUMBER OF OTHERS, THAT I HAD IN MIND.
THE COURT:

GIVE ME JUST A MOMENT.

11

MR. BUMER, LET ME EXPLAIN TO YOU, PART OF WHAT

12

I'M CONCERNED ABOUT AT THIS PARTICULAR STAGE IS IF THAT

13

IS TRUE, THEN I'M GOING TO BE DOING CERTAIN THINGS

14

BASED UPON THAT REPRESENTATION, AND BASICALLY NOW IS

15

THE TIME TO KNOW WHICH DIRECTION -- AND WHAT I DON'T

16

WANT TO ENCOUNTER IS A MARSDEN HEARING THIS AFTERNOON

17

LATER, TOMORROW MORNING, MONDAY MORNING, WITH THIS

18

ISSUE COMING UP BECAUSE THIS IS THE TIME I REALLY NEED

19

TO DEAL WITH IT.

20

MR. BUMER:

WELL

21

THE COURT:

LET ME TRY APPROACHING IT THIS WAY.

22

ARE YOU AWARE OF ANY DISAGREEMENT BY YOUR CLIENT WITH

23

THIS DECISION?

24

MR. BUMER:

I AM NOT, YOUR HONOR.

25

THE COURT:

OKAY.

26
27

28

I'M SATISFIED AT THIS POINT.

YES.
MR. PIPPIN:

MY ONLY CONCERN IN THIS REGARD IS HOW

WE DEFINE THE WORD "TACTICAL" AS MR. BUMER USES IT WHEN

Petitioner's App. 23 - 520

ER 1395

Case: 13-99007

10/22/2014

ID: 9287557

SUPREME COURT -

1

DktEntry: 17-8

Page: 12 of 256
(1617 of 2466)

STATE OF CALIFORNIA

2
3

4

THE PEOPLE OF THE STATE OF
CALIFORNIA,

5

6

PLAINTIFF-RESPONDENT,

)
)
)
)
)
)

) SUPREME COURT NO . 9 ' 0 2 . ~
>

CR

) FROM SAN DIEGO COUNTY

7

)
8

vs

) JUDGE MELINDA J.
)
LASATER

·9

DEAN PHILLIP CARTER,

10

DEFENDANT.

)
)

)

VOLUME LVI

)

11

12
13

14
15

APPEARANCES:
FOR THE PLAINTIFF:

EDWIN L. MILLER, JR.,
DISTRICT ATTORNEY
BY: JAMES PIPPIN, AND
ROBERT EICHLER AND
DEPUTY DISTRICT ATTORNEY

FOR THE DEFENDANT:

CHARLES BOMER, ESQ.
1168 UNION STREET, STE.
SAN DIEGO, CA
92101

16
17

18
19
20
21
22

201

JOSEPHINE DEDINA, ESQ.
934 23RD STREET
SAN DIEGO, CA
92102

23
24

25

JOHN R. AVERY, CSR #8605
DAVID DAILY, CSR #6885
OFFICIAL REPORTER
SAN DIEGO, CALIFORNIA 92101

26
27
28

Petitioner's App. 24 - 521

ER 1396

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-8

Page: 13 of i15618 of 2466)

l

IN THE SUPERIOR COURT OF THE STATE OF CALIFORNIA

2

IN AND FOR THE COUNT Y OF SAN DIEGO

3

DE P ARTMENT NO.

HON . MELIN DA J.

27

LASATER,

JUDGE

5
6

THE PEOPLE OF THE S TATE OF
CALIFORNIA,

7

PLAINTIFF,

8

NO . CR 90 ~ 80

9

vs
10

DEA N PH ILLI P CARTER,
11

DEFENDANT .
12
13

REPORTER'S TRANSCRIPT
JUNE 14, 199 1
VOLUME LV
PAGES 8448 - 8527

14
15
16

17

APPEARAN CES:
18

FOR THE PLAINTIFF:

EDWIN L . MILLER , JR.,
DISTRICT ATT ORNEY
BY: JAMES PIPPIN , AND
ROBERT EICHLER
DEPUTY DISTRI CT ATTORN EY

FOR THE DEFENDANT :

CHARLES BOMER , ESQ.
1168 UNION STREET, STE.
SAN DIEGO , CA
92101

19
20

21
22

23
24

25

..)

26

27

20 1

JOSEPH I NE DEDINA, ESQ.
934 23RD STREET
SAN DIEGO, CA
92102
JOHN R . AVERY , CSR #86 05
DAVID DAILY , CSR #6885
OFFICIAL REPORTER
SAN DIEGO, CALIFORNIA 92101

28

ER 1397
Petitioner's App. 24 - 522

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-8

Page: 14 of 256
(1619 of 2466)

14

VOLUME LVI

1

JUNE 17, 1991

2

INDEX OF WITNESSES

3
4

WITNESSES:

5

WILLIAM T. MC FARLAND

6
7

BY
BY
BY
BY

MR.
MR.
MR.
MR.

DIRECT

BOMER
EICHLER
BOMER
EICHLER

CROSS

REDIRECT

RECROSS

8537
8538
8544
8545

8
9

10
11
12

INSTRUCTIONS BY THE COURT

8548

13

ARGUMENT BY MR. PIPPIN

8587

14

ARGUMENT BY MR. BOMER

8658

1_5

FINAL INSTRUCTIONS BY THE COURT

8685

16
17
18
19
20

21
22
23

24
25
26

27
28

Petitioner's App. 24 - 523

ER 1398

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-8

Page: 61 of 256
(1666 of 2466)
8638

1

EVIDENCE FROM WITNESSES THAT WELL, THERE ARE A LOT OF

2

ALCOHOLICS IN NOME, AND THE SUICIDE RATE HIGH.
YEAH.

3

I GUESS THAT STUFF IS TRUE, BUT

4

WHAT'S THAT GOT TO DO WITH MURDERS AND PUNISHMENT IN

5

SAN DIEGO?

6
7

HIS MOTHER, WE HEARD EVIDENCE, STILL
OWNS AN APARTMENT BUILDING IN NOME, ALASKA.

8
9
10

SHE CAN'T BE TOO IMPAIRED AS A RESULT OF
THE ABUSE OF ALCOHOL, OR SHE COULDN'T FUNCTION THAT
WELL.

11
12
13

SHE STILL VISITS THE DEFENDANT'S
BROTHER.
YOU DIDN'T HEAR THE KIND OF EVIDENCE

14

THAT AS A RESULT OF ALCOHOLIC PARENTS THAT YOU WOULD

15

EXPECT TO HEAR IF YOU WERE PROPERLY ASKED TO CONSIDER

16

THAT AS A MITIGATING FACTOR.

17

I SUPPOSE IF A PERSON GROWS UP IN A

18

FAMILY WHERE BOTH PARENTS ARE SERIOUS ALCOHOLICS, AND

19

THEY'RE MISTREATED, AND THEY'RE DENIED FOOD, THEY

20

DON'T HAVE A HOME TO LIVE IN, AND THEY'RE LEFT OUT IN

21

THE COLD AND THINGS LIKE THAT, THAT A JURY MIGHT WELL

22

CONSIDER THOSE IN DECIDING, AND WEIGH THAT AGAINST

23

THE AGGRAVATING FACTORS IN DECIDING WHAT THE

24

APPROPRIATE PUNISHMENT IS.

25
26
27
28

BUT YOU DIDN'T HEAR THAT KIND OF
EVIDENCE HERE.
THE ONLY THING YOU HEARD HERE WAS THEY
DRANK TOO MUCH BEER.

YOU HEARD THAT THEY WORKED ALL

Petitioner's App. 24 - 524

ER 1445

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-8

Page: 62 of 256
(1667 of 2466)
8639

1

THE TIME; THEY CARED ABOUT HIS PROBLEMS; THEY TRIED

2

TO GET HIM SOME HELP.
SO I SUGGEST TO YOU THAT THE EVIDENCE

3
4

THAT YOU HEARD ABOUT HIS PARENT'S DRINKING IS NOT

5

MITIGATING AT ALL.
I HAVE THE WORD "DISCIPLINE" WRITTEN UP

6
7

THERE. THERE IS NO EVIDENCE OF ANY CHILD ABUSE.
SO NO EVIDENCE THAT THE DEFENDANT WAS

8
9

ABUSED AS A CHILD.
I THINK THERE WERE SOME QUESTIONS IN

10
11

THAT REGARD ASKED OF YOU DURING JURY SELECTION, IF A

12

CHILD WAS MISTREATED BY HIS PARENTS WHEN HE WAS

13

YOUNG, PERHAPS THAT'S SOMETHING PROPERLY TO CONSIDER

14

IN MAKING THE DECISION YOU HAVE TO MAKE.

THERE IS ABSOLUTELY NO EVIDENCE OF THAT

15
16

IN THIS CASE.

HIS BROTHER SAID YEAH, THEY SPANKED US

17
18

WHEN WE WERE BAD, BOTH OF US.
HIS BROTHER'S AND HIS SISTERS ALL SEEMED

19
20

IT'S NOT A MITIGATING FACTOR.

TO TURN OUT OKAY.
I THINK THE SISTER THAT TESTIFIED, I

21
22

THINK HER NAME WAS POLLY, I'M NOT CLEAR, AND I SHOULD

23

HAVE GONE BACK AND LOOKED, BUT IT WAS CLEAR SHE LOVES

24

HER BROTHER.

25
26
27
28

TO ME IT WAS CLEAR SHE LOVES DEAN
CARTER, HER OLDER BROTHER.
SHE SEEMED TO BE LIKE -- SHE SEEMED TO
BE A NICE YOUNG LADY.

Petitioner's App. 24 - 525

ER 1446

Case: 13-99007

10/22/2014

ID: 9287557

DktEntry: 17-8

Page: 63 of 256
(1668 of 2466)
8640

1

I SUPPOSE IN A DIFFERENT CASE A JURY

2

MIGHT BE ASKED TO CHOOSE LIFE IN PRISON INSTEAD OF

3

THE DEATH PENALTY SO THAT A PERSON'S FAMILY COULD

4

CONTINUE TO SEE THEM; COULD CONTINUE TO TALK TO THEM;

5

COULD CONTINUE TO VISIT THEM.

6

THAT'S SOMETHING THAT -- MAYBE IT'S

7

PROPERLY CONSIDERED BY A JURY IN DECIDING WHETHER TO

8

GIVE LIFE IN PRISON OR DEATH, BUT THE EVIDENCE HERE,

9

I SUGGEST, IS THAT THEY WANT LITTLE TO DO WITH DEAN

10

CARTER, SO IT'S NOT A MITIGATING FACTOR IN THIS CASE.

11
12

HIS CRIMES HAVE BROUGHT SHAME AND
EMBARRASSMENT TO HIS FAMILY.

13

THAT'S WHAT HIS BROTHER TESTIFIED TO.

14

THERE IS NOTHING MITIGATING ABOUT THIS

15

CASE, OR IN THIS CASE BECAUSE OF DEAN CARTER'S FAMILY

16

MEMBERS.

17

EMPLOYMENT, HIS MOM AND DAD, OR MOM AND

18

STEP DAD IT SEEMS WERE ALWAYS EMPLOYED.

19

INDICATION THEY WEREN'T RESPONSIBLE, PRODUCTIVE

20

HARD-WORKING PEOPLE.

21

THERE IS NO

YET SOME EVIDENCE WAS BROUGHT OUT IN THE

22

DEFENSE THAT COULD LEAD YOU TO SPECULATE THAT MAYBE

23

THERE WAS SOMETHING WRONG WITH THEM; MAYBE IT'S THERE

24

FAULT WE'RE HERE; THEY DID SOMETHING WRONG IN RAISING

25

DEAN CARTER.

26

NOT THE CASE.

27

"SYMPATHY," I HAVE THAT WORD UP THERE,

28

AND THREE CATEGORIES UNDERNEATH IT.

I SUPPOSE A

Petitioner's App. 24 - 526

ER 1447

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 216 of (1142
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 114 of 128 Page ID
#:1127

IN THE SUPREME COURT OF THE STATE OF CALIFORNIA

In re DEAN PHILLIP CARTER,
on Habeas Corpus.

______________ ____
,;....._

)
)
)
)
)
)
)
)
)
)

NO.
(Superior Court for
Los Angeles County
No. A-089330;
Related Appeal
No. S014021.)

DECLARATION OF BOWARD W. GILLINGHAM
I, HOWARD W. GILLINGHAM, DECLARE:
1. I am an attorney, licensed to practice law, admitted to
practice in the State of California since 1973, and have been an
inactive member of the Bar of the State of California since 1996.
2. On or about April 8, 1988, I accepted appointment to
represent petitioner, Dean Phillip Carter, by the Superior Court
for Los Angeles County, in place of Ezekiel Perlo; I was aware at
the time of appointment that Marcia A. Morrissey had also been
co-counsel for petitioner.

I accepted appointment in above-

referenced capitally charged murder case with the understanding
of Ms. Morrissey and the Honorable Robert W. Thomas, judge
assigned for all purposes, that I would be lead counsel.

I acted

in that capacity throughout my representation of petitioner from
April 8, 1988 - September 9, 1990, when I was relieved.
1

Exhibit 64-782

Petitioner's App. 25 - 527

ER 955

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 217 of (1143
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 115 of 128 Page ID
#:1128

3. In my capacit y as lead counsel I was respons ible for the
investig ation,

retentio n of expert consult ants, disburse ment of

related funds,

and otherwi se did control and direct the

investig ations and consult ations related to both phases of trial.

I was also in charge of the overall strateg y, tactics , and
decision -making with regard to the investig ation,

retentio n and

consult ation with experts , and other potenti al witness es,

and

designe d and conduct ed jury voir dire and selectio n.
4. At a hearing on petitio ner's Motion for New Trial,

held

January 11, 1990, I testifie d under oath to, among other
subject s, convers ations that occurre d with petition er during
pretria l and trial proceed ings, especia lly about his
dissati sfactio n with decisio ns I had made to not challen ge the
prosecu tion's case in guilt phase.

In additio n to my testimo ny

on January 11, 1989, I have been present ed with one note from
petitio ner, which I am informe d and believe was in my
confide ntial file,

turned- over to appella te counsel for

petition er, and which express ed petitio ner's frustra ti6n with my
closing argumen t to the jury in guilt phase on July 10, 1989; I
did not present the note to the trial court at the time it was
present ed to me, but I stated petitio ner's dissati sfactio n during
an in camera hearing immedia tely thereaf ter.

(See, Appendi x A

[Copy of Note from Petitio ner, 7/10/89 ) and Appendi x B [RT 5292
7 /10/89] .)

2

Exhibit 64-783

Petitioner's App. 25 - 528

ER 956

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 218 of (1144
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 116 of 128 Page ID
#:1129

5. Petitioner had informed me on many occasions prior to
trial that he wanted me to challenge the prosecution's case in
guilt phase, and that he then anticipated he would testify in his
own behalf after the presentation of defense evidence.

There is

no doubt in my mind that petitioner was very upset with me, and
my decision not to challenge any of the prosecution's evidence
was not made in consultation with him.
6.

As a consequence of the animosity and frustration that

had developed between us, I believe the attorney-client
relationship suffered irreparably. I was not only unable to build
rapport or develop the confidence of my client, but I believe
these and other failures and omissions on my part contributed Lo
my inability present a compelling case in mitigation of
petitioner's punishment.
7. During the course of my representation of petitioner, I
traveled to Alaska.

I am informed and believe that prior to my

trip to Nome, previous _inv.estigators and attorneys had traveled
to Alaska, met with family members and local residents, and had
obtained some documentary information regarding petitioner.
Petitioner's mother refused to cooperate with me or my
repres~ntatives in preparation of petitioner's case, and she was
not willing to discuss her life, petitioner's birth father,
circumstances surrounding his birth, his childhood, or any other
subject related to her family.

Petitioner's older brother, Jerry

Carter, and his younger sister, Pollyanne Reasner, were
3

Exhibit 64-784

Petitioner's App. 25 - 529

ER 957

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 219 of (1145
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 117 of 128 Page ID
#:1130

cooperative and testified at penalty phase, as did other persons
..
from Alaska.
8. Although I knew at the time that expert witnesses could
testify in penalty phase of a capital trial,

I failed and omitted

to prepare a social historian or cultural anthropologist to
assist in presentation of petitioner's unique life history and
experiences.

Based on some reported childhood and adAloQ~onr

incidences I was convinced in my mind that petitioner's childhood
and adolescence were neglectful and alienating, and while aware
of his long-term drug and alcohol abuse, as well as other
documented mental health problems, I failed and omitted to
properly prepare a mental health professional to assist in
presentation of those mitigating themes to the jury.

'"
9. With regard to other investigators and attorneys,
with the San Diego defense team representing Dean.

I met

Th;Q ;n~ 1 ,,~

0

~

Charles Burner and his staff associates, petitioner's attorney in
the Superior Court for San Diego County No. 90280 (C:npremo r'A 11 rr
No. S023000), on several occasions, and regularly corresponded
with him as well.

There was some sharing of information between

the two defense teams, but, overall, there were definite
conflicts between us about who should travel to Alaska, the
timing of travel, and what information would be shared.

I

believe that significant conflicts developed between the two
defense teams regarding approaches to petitioner's defense,

such

that it was detrimental to the investigation and pre::,entatiur1 uf
4

Exhibit 64-785

Petitioner's App. 25 - 530

ER 958

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 220 of (1146
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 118 of 128 Page ID
#:1131

petitioner's case.
10.

However, after the collection and review of numerous

life history documents obtained by attorneys and investigators,
and my own familiarity with the charges against petitioner, I was
unable to formulate any coherent strategy or plan to defend
petitioner in guilt or penalty phases of trial.

Although I had

employed time-line charts and other recognized argumentative
tools in other cases I had tried prior to this one, I did not
provide the jury with any illustrative or persuasive guides in
petitioner's behalf.

I was at a loss both before and during

trial as to how to present themes or theories in defense to the
charges against petitioner or in mitigation of punishment.
11.

During sequestered voir dire of prospective jurors from

March 21, 1989 - June 15, 1989, I am informed and believe I
conducted all questioning with the exception of three or four
prospective jurors on one day (April 3, 1989).

Ms. Morrissey

questioned those jurors on April 3, 1989, and it was my decision
that thereafter I would conduct all voir dire.
12.

In this regard, I had consulted with mental health

professionals, but I did not prepare or present a psychiatrist,
psychologist or other mental health professional, to testify as
an expert to any defense, and I had not provided sufficient
information or prepared such a mental health professional to
testify in guilt or penalty phase as to any of the following

5

Exhibit 64-786

Petitioner's App. 25 - 531

ER 959

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 221 of (1147
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 119 of 128 Page ID
#:1132

areas: 1) mental state defenses to the offenses charged or
aggravators alleged, 2) substance abuse, or 3) emotional or
mental deficiencies or disturbances that might not amount to
defenses to the offenses charged, but which could have been
presented as mitigation evidence, or other evidence in
mitigation, such as, 4) organic brain damage 5) the traumatic
effects of early childhood abuse and neglect, 6) unique problems
associated with the indigenous Native Alaskan culture and
environment in Nome, Alaska, during the 1950's-1960's, 7)
institutional life for unwanted children when petitioner was
placed at the Jesse Lee Home in Seward, Alaska, in 1964, 8)
conditions and effects upon petitioner of long-term detention in
juvenile facilities around Anchorage, Alaska, during various
periods of petitioner's life between 1968-1972, and 9) how
petitioner's unique childhood and adolescent psychological
development and adjustment difficulties might have affected his
adult behavior, 10) or.his potential for adjustment to prison.
13.

Furthermore, although I suspected the possibility of

organic brain damage, I have reviewed my own note that shn~,g a
magnetic resonance imaging (MRI) of petitioner's brain was
suggested by a mental health professional I consulted.
Appendix C.)

(See,

I did not request petitioner be examined for

neurological damage by such an examination.

I also did not

request petitioner be examined by positron emission tomography

6

Exhibit 64-787

Petitioner's App. 25 - 532

ER 960

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 222 of (1148
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 120 of 128 Page ID
#:1133

(PET) brain scan.
14.

At the time I was appointed in this case, I also

represented Robert Warren in an automatic appeal from death
judgment in People v. Warren (1988) 45 Cal.3d 471, and upon
reversal in May, 1988, I accepted appointment to represent Mr.
Warren in the re-trial of his penalty phase in the Los Angeles
County Superior Court for Torrance, California.

During the

pendency of petitioner's capital trial, I was assigned to prepare
the Warren case, and was informed by the trial judge, the
Honorade Madge Watai, that we would proceed to trial as soon as
the Carter trial concluded.
proceeded to trial.

In August, 1989, the Warren case

During the time I represented petitioner, I

was experiencing great pressure, both from the court and selfimposed, to prepare for the Warren trial, and I believe this was
another factor that caused me to be anxious and probably
detracted from my responsibiliti es to petitioner.
15. I can now see that there existed at the time of
petitioner's trial an irreconcilable conflict and breakdown in
the attorney-clien t relationship in this case.

Ill

7

Exhibit 64-788

Petitioner's App. 25 - 533

ER 961

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 223 of (1149
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 121 of 128 Page ID
#:1134

I declare under penalty of perjury the foregoing is true and
correct, except as to information and belief, which I am informed
and believe to be correct, to the best of my knowledge, this

~

a

day of ~ , 2000, at

California.

~t:~

Ill

8

Exhibit 64-789

Petitioner's App. 25 - 534

ER 962

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 224 of (1150
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 122 of 128 Page ID
#:1135
INDEX TO APPENDICES
HOWARD W. GILLINGHAM, ESQ.

Source materials referenced in the order they appear in the declaration:

Appendix A

7/ I 0/89 Memo of Dean Phillip Carter

Appendix B

Transcript ofMarsden Hearing [SORT 5292]

Appendix C

6/29189 Memo on Beam Study Results

Exhibit 64-790

Petitioner's App. 25 - 535

ER 963

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 225 of (1151
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 123 of 128 Page ID
#:1136

Appendix A

7/10/89 Memo of Dean Phillip Carter

Exhibit 64-791
----··----·-··-·····-

Petitioner's App. 25 - 536

ER 964

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 226 of (1152
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 124 of 128 Page ID
#:1137

MEMO
File Number_ _ _ _ _ _ __
Date _ _ _ _ _ _ _ _ _ _ __

O Office Co~erence

-,-\

FORM

----

f'-J

172.L

2

Exhibit 64-792

Petitioner's App. 25 - 537

ER 965

o T.

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 227 of (1153
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 125 of 128 Page ID
#:1138

Appendix B

Transcript of Marsden Hearing
[SDRT 5292]

3

Exhibit 64-793

Petitioner's App. 25 - 538

ER 966

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 228 of (1154
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 126 of 128 Page
5292ID
#:1139

LOWING PROCEEDINGS HELD IN

..,_.•_,,

OMMENCED AT 3:32 P.M. WITH

'.\'

)WING PERSONS PRESENT:

r,

CLERK, BAILIFFS, COURT

, COUNSEL FOR THE DEFENDANT,
•EFENDANT.)
t
;..,•,·
.....

_

THE· COURT('

8

9

INTERESTS AROUND.
MR. GILLINGHAM:

10

...

-

-

AND THERE IS A TENDENCY OF

11

PEOPLE TO CONGRATULATE LAWYERS AFTER THEY MAKE CLOSING

12

ARGUMENTS.

13

THE COURT:

,4

MR •. GILLINGHAM:

OKAY.
YOUR HONOR, MR. CARTER ASKED ME

15

TO SPREAD UPON TijE RECORD THAT HE DOES NOT AGREE WITH

16

THE CLOSING ARGUMENT THAT COUNSEL MADE, THAT HE HAD

17

ASKED ME WHAT IT WAS, AND THAT HE WAS NOT INFORMED OF

18

THE TYPE OF ARGUMENT.

19,

-

I UNDERSTAND THAT THERE ARE COMPETING

.-. AND:HE CERTAINLY DOES NOT FEEL THAT IT WAS

20

ADEQUATE, AND·THIS JUST COMPOUNDS THE PROBLEM.OF THE

21

LACK OF DEFENSE BY THE ARGUMENT THAT COUNSEL MADE, AND

22

HE ASKED ME -TO SPREAD THAT UPON THE RECORD.

23

'.

24

····-:··;

25

26
7
28

THE COURT:. THE RECORD IS CLEAR.
._,·OKAY._

WE'LL BE IN RECESS UNTIL TOMORROW.

MR. GILLINGHAM:

WE'D LIKE THIS SEALED AND ALL

OTHER MARSDEN·HEARINGS SEALED.
THE COURT:

THANK YOU, THE COURT WILL BE IN

RECESS UNTI~ TOMORROW •

.

...

Exhibit 64-794

Petitioner's App. 25 - 539

ER 967

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 229 of (1155
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 127 of 128 Page ID
#:1140

Appendix C

6/29/89 Memo on Beam Study Results

5

Exhibit 64-795

Petitioner's App. 25 - 540

ER 968

Case: 13-99003

7
-

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 230 of (1156
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 128 of 128 Page ID
#:1141

MEMO

Numbr
Date
f.o\ Cl~ <_
File

0

Office Conference

.

·--·-

~Tel epho ne Conversation

.ro "'"

1,zL.

· EC

6

Exhibit 64-796

Petitioner's App. 25 - 541

ER 969

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 232 of (1158
266 of 1584)

Filed 09/07/10 Page 19 of 103 Page ID #:1160

IN THE SUPREME COURT OF THE STATE OF CALIFORNIA

In re DEAN PHILLIP CARTER,

)
)
)
)
)
)
)

on Habeas Corpus.

)

___________ ________

)
)

NO.
(Superior Court for
Los Angeles County
No. ~-089330;
Related Appeal
No. S014021.)

DECLARATION OF MARCIA A. MORRISSEY
I, MARCIA A. MORRISSEY, DECLARE:
1. I am an attorney, licensed to practice law, and admitted
to practice in the State of California in 1975, and in good
standing in all courts to which I have been admitted.
2. On or about June 3, 1986, I accepted appointment in the
above-referenced case for all proceedings in the trial court, and
initially associated at the request of Ezekiel Perlo, attorney
for Mr. Carter at that time. On or about April 1, 1988, Mr. Perlo
was substituted out of the case as a result of petitioner's
request, upon judicial findings that a total breakdown in the
attorney-client relationship had occurred.
3. On or about April 8 ,- 1988, Howard Gillingham was
substituted in as counsel of record.

Mr. Gillingham was

1

Exhibit 66-815

Petitioner's App. 26 - 542

ER 970

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 233 of (1159
266 of 1584)

Filed 09/07/10 Page 20 of 103 Page ID #:1161

substituted in as lead counsel for the defense.

I had not yet

tr{~d a capital murder case and my role was to be as "second
chairu in the case.
4. During the course of my representation of petitioner from
June 1986 - September, 1989, petitioner consistently stated he
wanted defense counsel to challenge the prosecution's case
against him in guilt phase and in aggravation, and to present
evidence in his behalf; he expressed an interest in testifying.
Petitioner was certainly interested in his case and requested
police and investigative reports, and often asked for progress
reports on defense investigation.

·s.

I was of the opinion that there were viable defense

theories to present to a jury in petitioner's behalf. I discussed
some of those theories with petitioner, and on July 10, 1989, I
presented arguments to the trial court on Motion for Judgment of
Acquittal under Penal Code Section 1118.1, which represented many
of my views as to weaknesses in the prosecution's case-in-chief.
6. Petitioner advised me of his dissatisfactio n with lead
counsel, Mr. Gillingham, on several occasions. I related
petitioner's concerns to Mr. Gillingham but do not know whether
he took any steps to address problems that had arisen with
petitioner.
7.

Prior to and during trial Mr. Gillingham and I did not

engage in any detailed discussions about whether defenses would

2

Exhibit 66-816

Petitioner's App. 26 - 543

ER 971

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 234 of (1160
266 of 1584)

Filed 09/07/10 Page 21 of 103 Page ID #:1162

be mounted against the prosecution's case, whether we would
present defense evidence as petitioner wanted, or whether
petitioner would testify.

Mr. Gillingham did not consult me

prior to or during trial about those decisions, and to the best
of my knowledge he made the decisions on his own.

There was one

time during trial when he left the courthouse with defense
investigator, Casey Cohen, and I was not included in whatever
they did thereafter.
8.

I was not consulted as to whether an opening statement

would be given and I was not provided a preview of the nature of
Mr. Gillingham's closing statement in guilt phase; I was not
offered an opportunity to present argument to the jury in either
phase, but was in fact advised by Mr. Gillingham that only he
would present argument.
9.

I specifically recall having a conversation with Mr.

Gillingham during a break in my cross-examination of Jennifer
Rose Steward, the key witness presented by the prosecution in
aggravation at penalty phase, in which Mr. Gillingham informed me
it was time to terminate my examination of Ms. Steward, because I
was allegedly "alienating the jury .... n

I was also not informed

by Mr. Gillingham that he intended to introduce Superior Court
for Ventura County convictions from the Steward case, which he
did

after my cross-examination of Ms. Steward, and in spite of

court rulings that we had obtained excluding those convictions.

3

Exhibit 66-817

Petitioner's App. 26 - 544

ER 972

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

10.

DktEntry: 15-5

Page: 235 of (1161
266 of 1584)

Filed 09/07/10 Page 22 of 103 Page ID #:1163

For the most part, I acceded to Mr. Gillingham's trial

tactics and strategies, against petitioner's stated desire for
aggressive advocacy.

I believed at that time that Mr. Gillingham

had the requisite experience and skills to lead and control
petitioner's defense, and because of my respect for his
credentials and reputation, and my own lack of experience in
capital litigation, I deferred to his judgment in every aspect of
representation of petitioner.
11. Furtnermore, I had traveled to Alaska and conducted
interviews with persons familiar with petitioner's life history,
and in preparation for penalty phase, met with numerous potential
mitigation witnesses.

I did meet with petitioner's mother in

Nome, Alaska, but do not know the reasons for her refusal to
cooperate with me or other representatives in preparation of
petitioner's case; however, she was not willing to discuss her
life, petitioner's birth father, circumstances surrounding his
birth, his childhood, or any other subject related to her family.
12. Mr. Gillingham did not consult me as to which witnesses
to call to testify in mitigation or how to present mitigation
themes.

After cross-examining Ms. Steward, I was not asked to

question any mitigation witnesses or to present argument in
petitioner's behalf at penalty phase.

4

Exhibit 66-818

Petitioner's App. 26 - 545

ER 973

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 236 of (1162
266 of 1584)

Filed 09/07/10 Page 23 of 103 Page ID #:1164

I declare under penalty_of perjury the foregoing is true and
correct, except as to information and belief, which I am informed
and believe to be correct, to the best of mt\,:no~ledge, this

l'l-

tt

r

IY~

day of-~---.,_~.,__, 2000, at-"'~='--"""__,;'--------'
I
California.

\

~~'
MARCIA A. MORRIS~

Ill

5

Exhibit 66-819

Petitioner's App. 26 - 546

ER 974

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 238 of (1164
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 102 of 128 Page ID
#:1115

IN THE SUPREME COURT OF THE STATE OF CALIFORNIA
In re DEAN PHILLIP CARTER,

)
)
)
)
)
)
)
)
)

on Habeas Corpus.

NO.
(Superior Court for
Los Angeles County
No. A-089330;
Related Appeal·
No. S014021.)

-------- -------- ---- )
DECLARATION OF JOSEPHINE DEDINA
I, JOSEPHINE DEDINA, DECLARE:
1. I am an attorney licensed to practice law in the state of
California (No. 81796), since 1978, and I am in good standing in
all courts to which I am admitted to practice. On or about
October 21, 1986, I was appointed, and associated with attorney
Charles Ted Burner, who _is_deceased, to assist as "second chair"
in the representation of petitioner in a capital murder case
filed in Superior Court for San Diego County No. 90280; I
assisted Mr. Burner in the pretrial investigation and preparation,
and at both phases of trial.

Mr. Burner was also assisted by

paralegal, Kathleen Gilberd, and Marion Pasas and Chuck Hile,
investigators.
2. Over the period in which I was employed (1987-1991) on
the San Diego case, I worked with Mr. Burner, Ms. Pasas, Ms.
1

Exhibit 62-770

----~---

····-··------····-····

Petitioner's App. 27 - 547

ER 975

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 239 of (1165
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 103 of 128 Page ID
#:1116
Gilberd, and petitioner, among others, in preparing the case for
trial in San Diego, which was scheduled to follow petitioner's
trial in Superior Court for Los Angeles County (Supreme Court No.
14021); I am informed and believe petitioner's penalty phase
concluded on or about August 7, 1989, and his San Diego trial
began with jury selection on or about March 1, 1991 and concluded
in June, 1991.

Petitioner's case was the first capital murder

case in which I was associated as counsel of record.
2. As a part of my duties, I attended meetings with Mr.
Burner, Ms. Pasas, Ms .. Gilberd, and others associated with the San
Diego defense team.

On numerous occasions from June 20, 1987 -

August, 7, 1989, I also met and conversed with the Los Angeles'
defense attorneys Marcia Morrissey and Howard Gillingham.
3. During the course of my association with Mr. Burner on the
San Diego defense team, I recall strained relations between the
Los Angeles and San Diego defense attorneys, especially between
Mr. Burner and Mr. Gillingtam.

From my conversations with Mr.

Burner, as well my own observations and experiences, relations
between the Los Angeles and San Diego attorneys and support
staffs were competitive and suspicious, rather than trustworthy,
and I believe those relations were not in petitioner's best
interests.
4.

From my conversations with Mr. Burner, I am informed and

believe that Ms. Morrissey expressed her frustrations about Mr.
Gillingham's lack of leadership.
2

Exhibit 62-771

Petitioner's App. 27 - 548

ER 976

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 240 of (1166
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 104 of 128 Page ID
#:1117
5. I was informed and believed prior to the Los Angeles trial
that the Los Angeles defense team fully intended to challenge the
prosecution's case-in-chief in guilt phase and aggravation
evidence in penalty phase; it was my understanding that the Los
Angeles team had focused its efforts on mounting defenses to
guilt phase and aggravation evidence, while the San Diego defense
team had primarily investigated and prepared for penalty phase.
6. As part of my duties I was assigned to attend and observe
as much of the Los Angeles trial as possible, and I attended much
of the five-week guilt and penalty phases from June 20-August 7,
1989. I also attended several of the sequestered voir dire
sessions in which Mr. Gillingham examined prospective jurors
during the months of March-May, 1989.

I was concerned about the

lack of any unifying mitigation themes, or the appearance of any
defense strategies, during jury selection.
7. Prior to trial in Los Angeles I was informed and believed
lead counsel, Mr. Gilltngqam, had a good reputation as an
experienced capital defense attorney.

As a consequence, I was

extremely surprised by the lack of a vigorous challenge to the
witnesses presented by the prosecution at the Los Angeles trial.
On the opening day of trial, for example, Deputy District
Attorney Marsh Goldstein described in detail what he expected the
evidence would prove, and he did so in a clear, articulate
manner.

Mr. Gillingham, however, did not present an opening

3

Exhibit 62-772

Petitioner's App. 27 - 549

ER 977

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 241 of (1167
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 105 of 128 Page ID
#:1118
statement then or at the end of the state's case-in-chief, and he
appeared to be distracted and disinterested in court during the
guilt phase of trial.

Mr. Gillingham was clearly in charge of

the defense decisions, and I know from conversations with Mr.
Burner, that Ms. Morrissey was disturbed by Mr. Gillingham's
approach to the case.

She did, however, remain passive during

the course of the trial with one exception:

During cross-

examination of Ms. Steward, who was presented by the prosecution
as an aggravation witness in penalty phase, Ms. Morrissey did
vigorously examine the witness.
8. At petitioner's request, I met with him at various times
over noon and other court recesses during the Los Angeles trial.
During guilt phase of trial, Mr. Carter expressed his frustration
with Mr. Gillingham.

Towards the end of the guilt phase I recall

meeting with petitioner several times and he was upset on each
occasion; he told me, "Nobody's listening to me," and "Nobody's
listening to what I wa~t,~ or similar words.
9.

I was shocked by Mr. Gillingham's superficial effort in

petitioner's behalf during jury selection, and at the guilt phase
of trial, and I recall discussing my concerns with San Diego
defense team members at the time.

He did not appear to talk to

petitioner at counsel table and appeared to me to be out of touch
with Mr. Carter.

In penalty phase, although Mr. Gillingham

appeared much more involved as he presented mitigation witnesses,
the defense effort lacked coheiion and did not present mitigation
4

Exhibit 62-773

Petitioner's App. 27 - 550

ER 978

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-5

Page: 242 of (1168
266 of 1584)

Case 2:06-cv-04532-RGK Document 47-4 Filed 09/07/10 Page 106 of 128 Page ID
#:1119
themes.

Mr. Gillingham's closing argument was rambling, he

appeared confused, and he was clearly at a loss as to how to
argue the case for a life sentence.
I declare under penalty of perjury the foregoing is true and
correct, except as to information and belief, which I am informed
and believe to be correct, to the best of my knowledge, this
_ _....:.,../_ day of

~~-

, 2 0 00, at

S

Y~

0-t.--

0
,

California.

JOSEPHINE DEDINA

Ill

5

Exhibit 62-774

Petitioner's App. 27 - 551

ER 979

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 244 of (1170
266 of 1584)

Filed 09/07/10 Page 25 of 103 Page ID #:1166

IN THE SUPREME COURT OF THE STATE OF CALIFORNIA

In re DEAN PHILLIP CARTER,
on Habeas Corpus.

____________________

)
)
)
)
)
)
)
)
)
)

NO.
(Superior Court for
Los Angeles County
No. A-089330;
Related Appeal
No. S014021.)

DECLARATION OF MARION L. PASAS
I, MARION L. PASAS, DECLARE:
1. I am an investigator licensed in the State of California
(No. 8476), since 1982, and I have been continuously employed as
a private investigator since that time.

In June 1986, I was

retained by attorney Charles Ted Burner, who is deceased, to
assist him in the representation of petitioner-in a capital
murder case filed in Superior Court for San Diego County No.
90280.

I assisted Mr. Burner in the pretrial investigation and

preparation, and at both phases of trial.

Mr. Burner was also

assisted by co-counsel, Josephine Dedina, his staff paralegal,
Kathleen.Gilberd, and private investigator, Chuck Hile.

1

Exhibit 67-821

Petitioner's App. 28 - 552

ER 980

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 245 of (1171
266 of 1584)

Filed 09/07/10 Page 26 of 103 Page ID #:1167

2. Over the period in which I was employed (1986-1991) on
the San Diego case, I worked with Mr. Burner, Ms. Dedina, Ms.
Gilberd, and petitioner, among others, in preparing the case for
trial in San Diego, which was scheduled to follow petitioner's
trial in Superior Court for Los Angeles County (Supreme Court No.
14021); I am informed and believe petitioner's penalty phase
concluded on or about August 7, 1989, and his San Diego trial
began with jury selection on or about March 1, 1991 and concluded
in June, 1991.
3. As a part of my duties, I attended meetings with Mr.
Burner, Ms. Dedina, Ms. Gilberd, and others associated with the
San Diego defense team.

On several occasions from June 20, 1987

- August, 7, 1989, I also met and conversed with the Los Angeles'·
defense team investigator, Casey Cohen, and attorneys Marcia
Morrissey and Howard Gillingham. On several occasions I
participated in joint meetings with San Diego counsel and
investigators for both teams.
4. Shortly after I was retained by Mr. Burner, I was advised
to make immediate travel arrangements for investigation into
petitioner's family history and background in Alaska.

I knew

little about the case, Native Alaska culture, or petitioner's
life history at that point in time.

To the best of my

recollection, on my first trip to Alaska in 1986, I was not
provided any information as to the progress of the Los Angeles
investigation, and to the best of my knowledge, I did not speak
2

Exhibit 67-822

Petitioner's App. 28 - 553

ER 981

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 246 of (1172
266 of 1584)

Filed 09/07/10 Page 27 of 103 Page ID #:1168

with any member of the Los Angeles defense team prior to my
initial trip.
5. During the course of my employment as a defense
investigator for Mr. Burner, I often observed tension and strain
between the Los Angeles and San Diego defense attorneys.

From my

conversations with Mr. Burner, as well my own observations and
experiences, the Los Angeles attorneys and support staff created
a competitive atmosphere, as opposed to a collaborative effort,
and they were suspicious rather and trustworthy.

I believe the

poor relationship between the Los Angeles and San Diego attorneys
and staffs subverted petitioner's interests.
6. As part of my duties I was assigned to attend and observe
as much of the Los Angeles trial as possible, and I attended much
of the five-week guilt and penalty phases from June 20-August 7,
1989.

Prior to trial in Los Angeles I was informed and believed

lead counsel, Mr. Gillingham, had a good reputation as an
experienced capital defense attorney.

I was not only surprised

by the lack of any defense effort to challenge the witnesses
presented by the prosecution .at the Los Angeles trial, but lead
counsel, Mr. Gillingham, acted ambivalent towards Mr. Carter. In
fact,

I was shocked by Mr. Gillingham's minimal effort in

petitioner's behalf, and was so disturbed by it I recall
discussing my concerns with San Diego defense team members at the
time.

3

Exhibit 67-823

Petitioner's App. 28 - 554

ER 982

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 247 of (1173
266 of 1584)

Filed 09/07/10 Page 28 of 103 Page ID #:1169

I declare under penalty of perjury the foregoin g is true and
correct , except as to informa tion and belief, which I am informe d
and believe to be correct , to the

:S ~ a y o f ~ ,
Califor nia.

U

2000,

Ill

4

Exhibit 67-824

Petitioner's App. 28 - 555

ER 983

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 249 of (1175
266 of 1584)

Filed 09/07/10 Page 36 of 103 Page ID #:1177

Casey Cohen
9401 Wilshire Blvd., Suite 875 • Beverly Hills, CA 90212 • (213) 550-3945
Mailing Address: P.O. Box 480241 • Los Angeles, CA 90048

Criminal
Justice
Consultant

May 16, 1987

To:

Zeke Perlo/Marcia Morrissey

From:

Casey Cohen

Subject:

Dean Carter

EDNA BUFFAS INTERVIEW

Monday, May 11, 1987
Originally scheduled to meet with this witness at her place of
employment (The Nome Police Department-where she is a dispatcher)
we were disappointed to find that she had left without waiting
for us when she got off work at 5 p.m.
Later in the evening Zeke and I took a taxi out to her house,
approximately 6 miles from Nome. To get there you just ask the
driver to take you to Edna Buffas. Her husband is a fire captain
on the Nome Fire Department.
Edna is a fairly tough appearing country woman. She has "always"
known the Carters. Her father worked with Jim Carter. She says
Jim was a "very nice man, very fair." Edna and her husband used
to socialize with the Carters. Dean, she says, "was wild just
like the rest of us ••• " She says Dean was spoiled. She says
he got into trouble. But later in the interview it became clear
that she used these terms and descriptions not in the negative
sense, but with a kind of af f·ection for Dean.
Edna goes back to before Esther and Jim married. There was Esther
with he~ two sons. And Esther worked all the time. She had two
sons and no husband and she had to work to tak~ care of the boys.
Later she married Jim and he adopted the boys. Until that time
the boys were growing up with out a father and without supervision.
Jerry was the more levelheaded of the two boys. Dean was spoiled
before Jim came on the scene and "tried to tame him down."
Edna asks that we never let know Esther that she thinks Esther is
"simple ••• She's viry nice but simple." She is not s~art but she
is a lvoing person. She gets rattled real easy. She's hysterical.

11'1
Exhibit 70-832

COURT REPORTS• CASEWORK SERVICES• REHABILITATION PROGRAM DESIGN & REFERRAL

Petitioner's App. 29 - 556

ER 984

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 250 of (1176
266 of 1584)

Filed 09/07/10 Page 37 of 103 Page ID #:1178

Edna Buffas Interview
5/ 11/ 87
Page 2 .

Edna confirms that the Esther we are seeing is the real person.
Barely able to handle the slightest amount of stress. She falls
apart. Edna said that if her son were in trouble she would be
fighting tooth and nail to help him. Esther doesn't have that
kind of toughness. She's just a nice, caring, simple minded women
who gets hysterical under pressure.
Edna says that Dean had a strict stepfather in Jim. He was a
real good man, real nice ..• The Carters had a camp at Osborne.
Edna was only there twice.
Edna says she couldn't think of anything that might have improved
the Carter family. I pressed her hard to be honest with us. The only
thing she could think of was that possibly the boys would have been
better off if Jim had come into the family earlier so that Esther
wouldn't have had to work so much.
Edna says there was a period of time in which she didn't see Dean
for a very long time. Then he came back married. "I was impressed ...
Here was this tall, handsome kid, settled down ... " Then Dean and
his wife left and she never saw him again.
Edna said Dean was a happy-go-lucky kid. In fact she used that
expression 3 or 4 times to describe him.
Edna says that one time she was driving a
celebration in town. All of a sudden Dean
cab and "knocked himself silly ... and then
She's referring to the accident that Dean

cab during some kind of
ran into the side of the
went into convulsions."
mentioned.

Edna was Guy Martin's ex-sister-in-la w.
Reaction to Dean's arrest: "It couldn't be Dean. That just wasn't
Dean. I've never known him to be violent like that. He was carefree,
happy-go-lucky and I've never known him to be violent."
Edna says that Dean drank once in a while but that drugs were
unheard of around Nome back when Dean was younger.
Edna says she's been in the Carter house. She and her husband lived
right next door for a while. The house wasn't big. When she visited
she always stayed in the front room or the kitchen. She never saw
Dean's bedroom.
Edna does cite the fact that bean got into a lot of trouble when he
was young and this was embarrassing to Jim Carter. It was common
knowledge. People in town talked about the "police chief whose
son got into trouble. Dean was forever running away. He drove
his mother nuts.

llS
Exhibit 70-833

Petitioner's App. 29 - 557

ER 985

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 251 of (1177
266 of 1584)

Filed 09/07/10 Page 38 of 103 Page ID #:1179

Edna Buffas Interview
5/11/87
Page 3.
Edna has heard Jim Carter griping and complaining about Dean.
She says "Ba~ically Dean was a nice kid. I liked him. I liked
him a lot." She doesn't know what else she could tell us to help.
She would be willing to come to Los Angeles and testify if
required.
When she says Dean was "spoiled rotten," she is saying it with
love in her heart as a grandmother would talk about a grandchild.
Dean Reminded Edna of her husband. He liked to have fun and
enjoy life. He was just a good kid out to enjoy life.
Edna had heard of Dean committing a burglary. She goes back to
saying he would be better off if his mother had been stronger.
Esther couldn't handle pressure then nor can she now.
Edna
been
When
Edna

knows about McLaughin. She doesn't think Dean should have
sent there nor to Jesse Lee. He should have stayed home.
asked about who was more assertive in the Jim-Esther marriage,
says, "Jim was pussy whipped."

Asked if Jim and Esther had fights, "Oh, shit ya!" And the fights
were usually over Dean. Esther defended Dean and Jim yelled at
her, always shouting, enver physical.
Edna has heard that Jim beat Dean when he screwed up or got caught
and she wouldn't put it past Jim to lock Dean up.
Edna tried to approach Esther after Dean's arrest. Perhaps she
wanted to talk about it or offer support. In any event Esther
broke down and couldn't talk. "She just sits back and cries."
Edna knows that Dean liked children and played with kids and was
good with them. Edna knew Esther when she (Edna) was just a kid.
She just remembers Esther working.
Following the interview.Edna drove us back into town. She drank
from a can of beer while driving us. She said, "The cops could
piss off if they didn't like it." Edna has been police dispatcher
in Nome for 6 years.

Exhibit 70-834

Petitioner's App. 29 - 558

ER 986

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 253 of (1179
266 of 1584)

Filed 09/07/10 Page 58 of 103 Page ID #:1199

Casey Cohen
9401 Wilshire Blvd., Suite 875 • Beverly Hills, CA 90212 • (213) 550-3945
Mailing Address: P.O. Box 480241 • Los Angeles, CA 90048

Criminal
Justice
Consultant

July 6, 1987

To:

Zeke Perlo/Marcia Morrissey

From:

Casey Cohen

Subject:

Dean Carter
INTERVIEW WITH POLLYANNE JUNE REASNER

Sunday, June 14, 1987

Polly drove down to Anchorage to meet Marcia and I at the Sheraton
Hotel. She is 25 years old. She has three daughters (5,3, and 2 years
old). She's a housewife with an 11th grade education. She married
at age 18 to her husband, Robert, a plumber.
Polly and her husband
hold Christian Education Licenses in the Assembly of God Church.
They are qualified to run a "Christian school." Polly says she
and her sister attended Assembly of God church their entire life.
Dean was 8 years old when Pollx;was born.
Polly says her mother was a great mother who worked the entire
time the kids were growing up.
She says her father was very respected.
He died when she was 12. She thinks of him as a "great dad."
Polly lived in the corner house (the one we photographed) in Nome
until she was around 8 years old.
Her memories of Dean are very
sketchy. Mainly she recalls a couple of times when he came home.
She had heard her mother and father discuss Dean who she understood
was in McLaughlin. She was upset once because she couldn't go see
him.
Polly says that Dean telepnoned once in a while but that no one
in the family ever talked about him. When Polly was around 12 years
old she got interested in her brother and wanted to know where he
was. Her understanding of why he was gone was that he once broke
into some place. To this date, however, she really doesn't know
where Dean was during her childhood nor why he was gone. She says
they never talked about problems at home or with Dean. She never
recalls Dean being at the Campsite at Osborne.

COURT REPORTS• CASEWORK SERVICES• REHABILITATION PROGRAM DESIGN & REFERRAL

Exhibit 74-854

Petitioner's App. 30 - 559

ER 987

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 254 of (1180
266 of 1584)

Filed 09/07/10 Page 59 of 103 Page ID #:1200

~ •:4/87 Polly Reasner Interview
?age 2

?olly's only knowledge of Dean's instant offense came from
~ews broadcasts or what she read in the newspapers. She seems
to have lacked curiosity to pursue the matter further. She says
she loves her brother and wishes she had gotten to know him
better.
The little Polly does know about Dean comes from when she was
older and she got to know him in Anchorage. This is the only
-::.:re they had any meaningful contact.
?olly seems to have had some difficulty in her early life but
3he didn't elaborate. She says she was born in 1963. In 1978,
~hen she was 15 years old, she moved in with her future husband.
~~ound the time when her father died she and her husband got
·:e:!."y religious.
?olly says she and her mother had a good relationship until the
father died. Then they moved to Anchorage. That's when mothe~caughter problems began.
Polly tells of her father being police chief of Nome and how
both her parents drank at the Bering Sea Saloon where they
~ere friends of the owner. They drank "weekeneds, Friday nights,
the middle of the week."
?olly took care of her younger sister when the parents were awa~
drinking. She couldn't specify what time her parents usually goL
home when they were out drinking. She recalls once when they
got home at 4 a.m. She "assumes" they got home earlier most of
-::.:--,e time.
Polly said she never gave any thought to her brothers having
different natural fathers. It appears that even during the insta~-=1nterview she is under the impression that the boys had the same
father and he was Jim Carter. She says the older brother has
blue eyes and curly hair. Jim Carter had blue eyes.
Polly doesn't believe in the death penalty. She doesn't believe
~eople should take another person's life.
?olly says that when Dean lived in Anchorage his wife "played a
lot of games ... tried to get Dean and mom to fight ... She lied tc
Jean and mother ... "
Polly says Dean was a very good father to the children.
?olly likes to do crafts as a hobby. Last spring she saw Dean's
ex-wife at a fair and tried to talk to her. Kathy said to her,
"I don't want anything to do with you and your murdering brother.·

lt>1

Exhibit 74-855

Petitioner's App. 30 - 560

ER 988

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 255 of (1181
266 of 1584)

Filed 09/07/10 Page 60 of 103 Page ID #:1201

6/14/87 Polly Reasner Interview
Page 3

Polly can't recall the last time she saw Dean. She says he came
out to visit her at home about 3 times. He came out on a motorcycle
once just to go for a drive. "He drove up but he couldn't stay long."
Polly says it was a long time before she even knew he'd left Alaska.
The last time Polly and her older brother talked about Dean was
when Marion Pasas came to Alaska. Dean had told Polly not to talk
to Pasas. Polly and her older brother respected Dean's wishes.
Polly says her husband did talk to Pasas for a long time. Polly
says she felt Pasas had a hard time in Nome.
?olly says her father was a police chief but at some point became
a state trooperr He gave driver's license tests. She doesn't
know a lot about what he did. She says her father saw a lot of
bad things (in life) and protected the kids. Polly is four years
older than her sister.
Polly mentioned Beth Farley, a friend from their Nome school days.
She recalled that Beth Farley used to date her brother, Jerry.
She recalls a school teacher who lived in her mother's apartment
who took acid with Dean.
Polly said that BOB HAMILTON was
Jerry's wife's brother.
Polly says she and Goldie are best friends. Jerry went to
AMU in Anchorage. That's the Methodist University.
Polly said there were poor communications in the Carter family.
They don't talk about things.
Esther worked at the jail under the post office. She was a matron.
Polly can't understand why her mother is clamming up now and
not helping more by giving us information.
Polly mentioned people Dean has telephoned. He telephoned a girl
named JUDY DOUFTHIT, whose parents are William and Charlette
Daufthit in Wasilla. Judy lives in Fairbanks.
Polly says that in their.childhood Dean wasn't like part of the
family. He was away and no one talked about him. She says that
in the family their father made the decisions but the mother
enforced them. They never questioned their father. They were
taught that little girls should be seen and not heard.
Polly knows now that communications are very important to having
a good healthy family. This is how she's raising her family.
She says there wasn't "unity" in her home as a child because both
parents worked. Polly wants to be able to talk to her daughter.
She recognizes now she wasn't able to talk to her mother when
she was young.
jt)t

Exhibit 74-856

Petitioner's App. 30 - 561

ER 989

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 257 of (1183
266 of 1584)

Filed 09/07/10 Page 44 of 103 Page ID #:1185

Casey Cohen
l 213) 550-3945
Mailing Address: P.O. Box 480241 • Los Angeles, CA 90048

Date:

10/17/87

To:

Zeke Perlo/Marcia Morrissey

Subject:

INTERVIEW WITH JERRY CARTER

Criminal
Justice
-Consultant

This morning at 7:30 a.m. Zeke and I met with Jerry Carter for a
five hour interview.. The following is a summary of what took
place.
Jerry Carter is Dean's older brother. Initially we had to spend
some time gaining his confidence. He was very reluctant to talk
to anyone about his brother. Furthermore, he had some questions
he wanted answered because he believed that up till now his
brother has
not
completely
leveled with
him
about
his
predicament. In fact, he said, his brother has telephoned and
told him that everything is looking okay etc. This, we know from
other witnesses, Dean has done before.
First a description of Jerry.
Jerry is a solid individual both physically and, seemingly,
emotionally. He appears to be a very honest individual who asks
honesty from others. He is also a very mild mannered type guy who
appears to be easy going but with strength in reserve. He seems
to be family oriented. He has a good job that he likes
maintaining equipment for the school district. He is mechanical.
He has technical aptitudes. He is security oriented in that he
wants to have a good stable job and be able to plan his future.
In this regard we encountered a problem he is having with Dean's
situation. It appears that throughout his lifetime Jerry has been
embarrassed by Dean. He seems to have suffered in childhood to
the extent that his. brother was an embarrassment. Then, he got

uo
COURT REPORTS• CASEWORK SERVICES• REHABILITATION PROGRAM DESIGN & REFERRAL

Exhibit 72-840

Petitioner's App. 31 - 562

ER 990

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 258 of (1184
266 of 1584)

Filed 09/07/10 Page 45 of 103 Page ID #:1186

Jerry Carter
Page 2

older and established himself in a small, closekni t community.
Then Dean gets into trouble in Southern California in a manner
that's brought a lot of attention to his case in Alaska. There
have been some pressures on Jerry as a result of this case, with
at least one parent confronting him directly by telling him that
he is being watched. That means that a parent was telling him
that there was concern about Jerry being around the children when
his brother is some kind of weirdo murderer. So, the point of
this is that Jerry is still be afflicted with fall out from his
brother's problems. In this case it is worse because there is
some implied threat to his job. At one point Jerry was thinking
about moving away as a result of this. Jerry admits that he is
angry. But he is also ambivalent. He still cares about Dean. He
is also concerned about their mother. He says his mother suffers
terribly from Dean's predicament. She tries to put it out of her
mind. She drinks. She uses other denial mechanisms. But Jerry is
concerned that this won't last for ever and that one day she will
have to confront the truth and, in his words, "I don't know what
will happen." He mentions how someone should level with her.
We broached the subject of Dean's childhood with Jerry. At first
he was just a bit suspicious that we might be trying to build up
a case against their parents. We assured him we were not trying
to malign anyone or make a case against anyone. Zeke and I both
believe that Jerry was telling the truth when he described the
childhood.
In essence there was no observable abuse beyond the "norm".
In
other words, as Jerry sees things, Dean had a lot of problems as
a young kid. He was constantly getting into trouble and he was
always trying to run away. The main problem was the running away.
Dean was always taking off and sometimes he would live in a box
for two or three days. He would steal food or other items. Then
he would be returned home. Jerry recalls his parents taking Dean
to a psychologist (or some other kind of professional) in
Anchorage when he was young. He remembers how they put Dean in
Jesse Lee Home to try and get control of him. He even remembers
his dad putting a 50' leash of some kind on Dean so he couldn't
get away. Eventually Dean got into trouble and state authorities
got involved. Thereafter Jerry didn't see Dean that much.
Jerry talked about how both parents were working and he was left
in charge of Dean and later the two girls. He recalls that Dean
wouldn't behave or mind him. He recalls further embarrassment
from Dean's problems. He recalls anger because Dean ran off and
left him to do Dean's chores and take care of the girls.
Jerry
says that both he and Dean were spanked (sometimes with a branch
that they had to go outside and select) but in each instance it

II I

Exhibit 72-841

Petitioner's App. 31 - 563

ER 991

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 259 of (1185
266 of 1584)

Filed 09/07/10 Page 46 of 103 Page ID #:1187

Jerry carter
Page 3

was for something they deserved. Jerry does not talk of any cruel
or unusual punishmen t taking place.
A great deal of this interview actually consisted of conversat ion
with Jerry.
our initial feeling was that if there was testimony
about any cruelty in Dean's childhood that Jerry wouldn't make a
good witness because he looks to normal and that would only raise
a question in the juries mind as to how one brother could turn
out so well in a bad family.
As the interview progresse d we felt that there was no history of
child abuse so significa nt that it would tie in with a general
theory as-to why Dean ends up murdering anyone. Instead we saw
Jerry as a different kind of witness. We feel Jerry could be the
family member to ·basically come to court to tell of some of the
good things about Dean, and to say that he is loved by family
members and to spare his life, etc. Jerry is ambivalen t about
getting involved but he said that if it had to be done he would
rather be the family member to help rather than their mother.
He also acknowled ged that, hard as it might be, he might feel
worse if Dean were executed and he hadn't done anything to help.
Jerry talked to us about the last time he saw Dean. He said that
Dean came through for a few days and stayed at his (Jerry's)
house. Dean showed up without advance notice. I asked Jerry if he
saw anything different about Dean at this visit than he had seen
during the previous time he'd seen Dean. He said, there was. He
said that Dean was "hardcore " on the issue of his wife (Kathy) .
He said Dean was really angry at her for not allowing visits. He
said Dean told him that he wasn't going to pay child support if
he couldn't see his children. In effect, the impressio n I got
from Jerry's remarks was that Dean didn't give a damn about
anything anymore. He was sort of giving up on the straight life
and taking off.
Jerry spoke about other aspects of Dean than negatives . He
acknowled ged that he was angry about a life time of embarrass ment
in the shadow of Dean's misbehavi or. But, he said, Dean was not a
violent person. He couldn't see Dean actually hurting anyone. He
said Dean was gentle. He said that when Dean last visited him he
would get down on the floor and play with his (Jerry's) two
children.
One of the main emotional points in the interview was when Jerry
talked about his frustratio n as a youth when he looked forward to
playing on the same basketbal l team as Dean. There was a point in
high school when Jerry and Dean were going to overlap one year.
It was at that point that they might be on the same team. Jerry
actually looked forward to that year. But when that year came

Exhibit 72-842

Petitioner's App. 31 - 564

ER 992

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 260 of (1186
266 of 1584)

Filed 09/07/10 Page 47 of 103 Page ID #:1188

Jerry Carter
Page 4

Dean was screwed up in some way and couldn't play. This was a big
let down to Jerry.
Jerry says that his dad was the police chief during an era when
there was a mayor system in Nome. Later they switched to a city
manager system. The first city manager didn't get along with his
dad and there was friction. It was obvious that his dad was going
to soon be out of that job. It was also apparent from Jerry's
remarks that Dean's getting into trouble added to the problem.
People did whisper about Mr. Carter not being able to control his
own son. Mr. Carter also helped Dean out of his jams. This was a
source of irritation to the city manager among other things.
After Carter left the job of police chief he went into
electronics work and he also transported prisoners. He was a
bailiff. He also served subpoenas
A few years ago, in the spring of 1985, Jerry Carter was taking a
computer course near San Jose. At that time he decided to visit
Dean. He drove down to Los Angeles. But when he got to the jail
he was unable to locate his brother. He says the sheriffs told
him his brother wasn't there. He gave up. But he also says he was
half-hearted about trying to see him. Even on the drive to Los
Angeles he was half thinking about not wanting to see Dean. He
says he was afraid he would break down if he saw his brother in
the Los Angeles County Jail.
He also says that his brother
looked good the last time he saw him and he wanted to remember
him that way.
Both Zeke and I felt Jerry was honestly wrestling with the issue
of his brother's trial and possible penalty phase. We believe he
was trying to help. He was trying to work through a lot of long
standing, complex emotional issues. He was torn in several
directions during the interview and when looking toward the
future. He is angry about being stigmatized. He is protective of
his mother.
Jerry also talked about Nome. He said one has to see Nome in the
dead of winter to appreciate the depression people suffer who
live there. Jerry doesn't have any desire to ever return to Nome.
He talked about how it is only light for two or three hours a day
and even that is only a deep overcast. You never see the sun. It
is dark and cold the remainder of the time and people are
clustered in small quarters with people who start to get on their
nerves. There are a lot of suicides. There's a lot of depression.
It's a small community. People either drink or look to the church
for communal activity.
Jerry acknowledged that both his parents drank a lot. He talked

113

Exhibit 72-843

Petitioner's App. 31 - 565

ER 993

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 261 of (1187
266 of 1584)

Filed 09/07/10 Page 48 of 103 Page ID #:1189

Jerry carter
Page 5
about how they would finish off a case of beer in one evening at
Jerry reveals (but doesn't say so directly )
their summer camp.
some dissatis faction with his mother's drinking . He says he can
tell when she's drinking . She will telephon e. He will say to her,
"Mom, you've been drinking . Call me when you are sober." And he
won't want to talk to her when she's drunk.
Jerry said that Nome has a certain amount of transien t populati on
and a certain amount of newcome rs. But there is an old-time group
that's been there for years. These people think of each other as
a family. They are protecti ve of each other. They gossip.
These oldtime rs are protecti ve of Mrs. Carter. They were well
aware when we were in Nome asking question s about the Carter
family. Jerry says there was a point when several of the old time
men were going to ask Zeke and I to leave town and leave Mrs.
Carter alone.
Jerry told of one time when Dean ran away that he went looking
They were driving
for him with a policema n named Guy Martin.
along looking for Dean. Then they stopped. Martin asked a guy if
he had seen Dean. The guy said he hadn't seen him. Then Martin
said, "Well I've got my ace tracker here (pointin g to Jerry)."
Jerry got angry and said, "You talk to much," and got out of the
car.

Comment s:
In retrospe ct, after talking to Jerry, it appears that a penalty
phase defense would be focused as follows: To use Jerry only to
tell the good about. Dean and to plead with the jury to spare his
life. To not try and constru ct a theory around any kind of child
abuse. To lay out Dean's life as it occurred . To recount how he
perceive d some problem deeply enough to try and run away from
home from age 7 onward. To tell how he got into trouble, went to
institut ions, and eventua lly grew up. Then, as an adult he
rehabil itates himself, gets a good job, marries, and settles
down. But problem s in the marriag e develop.
Note: Jerry tells us that after Dean's marriage he got into a
fight with a former boyfrien d of his wife. As a result a gang was
looking for Dean. Dean was scared. That's why he moved to Nome.
As marital problems . develope d Dean's
stab at the straigh t life didn't
disillus ioned, and disguste d. He was
falls complet ely apart and reverts

scene falls apart. His one
work out. He was angry,
very angry at his wife. He
to his former patterns . He

Exhibit 72-844

Petitioner's App. 31 - 566

ER 994

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 262 of (1188
266 of 1584)

Filed 09/07/10 Page 49 of 103 Page ID #:1190

Jerry Carter
P~ge 6

says, in effect, I "tried to go straight and do right and all I
did was get hurt. Now I'll go back to being the renegade outcast
I always was. Only this time he has a real sensitivity to any
further rejection by women.
And the whole mood of his
deterioration is exacerbated by the use of drugs.
The above will have to be elaborated on at another time.

IIS'
Exhibit 72-845

Petitioner's App. 31 - 567

ER 995

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 264 of (1190
266 of 1584)

Filed 09/07/10 Page 30 of 103 Page ID #:1171

PEOPLE VS. DEAN CARTER
INTERVIEW:

DATE, TIME
LOCATION
OF INTERVIEW:

BERTHA ADSUNA
Nome Alaska
(907) 443-2328

&

STATEMENT:

Mrs. Adsuna was interviewed after she testified at the
L.A. penalty phase. This interview occurred in her
hotel room.
Mrs. Adsuna explained that she came to Nome from an outlying village when she was in her twenties to live with
a family for whom she was going to work.
She stated
at that time a relative of hers was working at the hospital
with Esther Carter and told her that she didn't like
Esther and therefore Bertha made no attempts to have anything
to do with Esther.
Berta also recalled an incident when one of her relatives
was invited to a friend's house for dinner with her children.
Esther Carter was also invited and brought her two sons,
Dean and Jerry.
Bertha's relative recalled how Esther
allowed Jerry to eat at the table with her, hut made
Dean eat on the floor.
According to Bertha, this was
just uncalled for and they would have never done anything
like this in their family.
Bertha saw this as a sign that
Esther treated Dean and Jerry differently and she never
cared about Dean.
Bertha stated that she did get to know Esther at a later
date when they both worked at the jail as matrons. Basically
the job was to cook for the inmates.
She stated that
none of the inmates liked Esther because she didn't take
any care in fixing food for them.
In contrast, Bertha
said she tried to make the food as good as she could for
the inmates and that they liked her for this.
In addition,
Bertha stated that Esther seemed to be bossy and no well
liked. Bertha also stated that it was well known that Esther
was quite a drinker and although she herself did not drink,
Bertha stated that she was aware of Esther's drinking because
she was always late coming to work because of her hangover.
All in all, Bertha spoke quite disparagingly about Dean's
mother, Esther.
It would appear from the way she discussed
her that Esther had a poor reputation in town. Essentially
she had a reputation of a woman who would go to the bars
and get drunk and was rather loose.

MARION

L.

PASAS PRIVATE INVESTICATIQNS •

934

23RD STREET• SAN DIEGO,

CA 92102 • (619) 233-3099

Exhibit 68-826

Petitioner's App. 32 - 568

ER 996

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-5

Page: 265 of (1191
266 of 1584)

Filed 09/07/10 Page 31 of 103 Page ID #:1172

LE VS. DEAN CARTER
_ \ .... RVIEW: -· BERTHA ADSUNA

Page 2 of 2

In addition, Bertha described Dean's brother Jerry as a
boy who got away with a great many things because he
was favored by.his mother. Also, Jerry did not identify
with Eskimos at all and appeared to think like his mother
that "Eskimos w•re not good enough". Bertha explained
that Esther seemed to repudiate her Eskimo heritage as
did Jerry.
In contrast, Bertha described Dean as different .
She
stated that Deari was always friendly to everyone, even
as a boy. She stated that Dean was willing to help anyone
and seemed completel y different .
She described him a~
a person burning for love for everyone. Bertha recalled
pean when he worked with the elders at the elders conferenc e.
She stated that the elders loved him because he seemed to
care and was willing to help them.
Bertha described Dean's
return to Nome as a successfu l video cameraman as being
as though "he had gone through d storm and come through as
a human being".
Bertha stated that she feels that Dean's mother never real:~
cared for him; that she would never talk about Dean at all,even when asked.
She stated that she talked about her
grandchil dren, but would never discuss Dean.
Bertha was asked if she knew anything about the abuse Dean
may have suffered. She indicated she knew nothing about
Dean being chained to~ bed and was truly shocked to hear
that he had been sent away by his parents to the Jesse Lee
Home in Seward.· She stated emphatica lly the Jesse Lee Home
was an orphanage and she could not believe that Esther
would have sent ·him away to that place. She stated if it
had been Jerry, she would never have done that to him.
Bertha states that Grace Edmonds is now in the Pioneer Home
in Anchorage . She stated that she knows Nurse Swanberg
estremely well an~ that she. still resides in Nome and that
she would be happy to gi-ve us her phone number.
She states
if anybody knows anything about the abuse that Mrs. Swanberg
would.
In addition to thi~ informati on about Dean and his farnilv
directly, Mr~ .Ad.suna is a wealth of informatio n regarding
Nome life as sh• has lived there since she was in her early
twenties.

,

MARION L PASA.~ PIUVATE INVu.rtGATIONS •

934 23RD STRUT• SAN

DIEGO,

CA 92102 • (619) 233-3099

Exhibit 68-827

Petitioner's App. 32 - 569

ER 997

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 11 of 298
(1203 of 1584)

Filed 09/07/10 Page 1 of 92 Page ID #:1369

DECLARATION OF MINDY S. ROSENBERG, Ph.D.
I, Mindy S. Rosenberg, declare:
PROFESSIONAL BACKGROUND
I am a licensed psychologist in the State of California. In 1984, I received
my Ph.D. in clinical-community psychology from the University of Virginia in
Charlottesville, Virginia and my M.A. from the same program in 1980. My
doctoral dissertation was on the impact of spouse abuse on children's behavior,
perceived competence and social problem solving abilities. My master's thesis
was on the interpretations of children's behavior by abusive and non-abusive
mothers in their perceptions of intent, children's disposition, maternal competence
and stress. I completed my psychology internship in 1982-1983 with the
Department of Psychology within the Psychiatry section of Yale University's
School of Medicine in New Haven, Connecticut. In June 2003, I completed the
Neuropsychology post-graduate certificate program through the Fielding Institute,
Santa Barbara, California.
I am a Fellow of the American Psychological Association with specific
membership in Division 12 (Clinical Psychology, Fellow status), Division 37
(Child, Youth and Family Services, Fellow status) and Division 40
(Neuropsychology). I am also a member of the National Academy of
Neuropsychology and the Northern California Neuropsychology Forum.
From 1983 to 1985, I was on the faculty of the University of Denver's
psychology department, and then became a psychology faculty member at Yale
University in 1985-1989. I then set up a private practice in Sausalito, California
and became an adjunct faculty member with the University of California,
Berkeley's psychology department and the Wright Institute, a graduate psychology
1

Exhibit 78-1014

Petitioner's App. 33 - 570

ER 998

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 12 of 298
(1204 of 1584)

Filed 09/07/10 Page 2 of 92 Page ID #:1370

program also in Berkeley. Through my private practice, I have provided
psychotherapy to children, adolescents, and adults; conducted psychological
evaluations; and provided testimony as an expert witness in juvenile and criminal
cases, including capital cases.
I have published extensively in the area of domestic violence and child
maltreatment and its impact on children's development. Included in my
publications are three books and numerous peer-reviewed articles and book
chapters on various aspects of child maltreatment and family trauma and its effects
on child and adolescent psychological outcome. I have also been invited to speak
at numerous conferences and workshops, both nationally and internationally, on
similar topics. A copy of my curriculum vita is attached as Appendix A to this
declaration.

REFERRAL QUESTIONS
In 1997, I was consulted by state appointed habeas corpus counsel, Phillip
H. Cherney, for Petitioner, Dean Phillip Carter and prepared a declaration for
submission in Mr. Carter's state habeas proceedings. In 2007, I was contacted by
Mr. Carter's federal habeas counsel, the Federal Public Defender's Office, and
asked to revise my declaration to incorporate the materials gathered by federal
post-conviction counsel.
Both state and federal counsel asked me to evaluate Mr. Carter's social
history and background in order to:
1.

Identify the critical social, cultural, emotional, cognitive and
behavioral factors contributing to Mr. Carter's development and
functioning in childhood, adolescence and young adulthood;

2.

Determine whether Mr. Carter experienced childhood trauma,
including physical and psychological maltreatment;
2

Exhibit 78-1015

Petitioner's App. 33 - 571

ER 999

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

3.

DktEntry: 15-6

Page: 13 of 298
(1205 of 1584)

Filed 09/07/10 Page 3 of 92 Page ID #:1371

Identify the effects of any such childhood trauma and maltreatment on
Mr. Carter's subsequent psychological functioning and development;
and

4.

Render an opinion as to mitigation themes, if any, which could have
been developed at the time of Mr. Carter's capital trials.

As a part of my consultation and review, I interviewed petitioner, Dean Carter,
hereafter referred to as "Dean," at San Quentin prison, on June 25, 1997 (1 hr),
September 24, 1997 (2.5 hrs.), November 19, 1997 (2 hrs), December 21, 1998 (4
hrs) and December 23, 1998 (4 hrs), a total of 13.5 hours. In addition, I reviewed
an extensive package of documents provided to me, including transcripts of all
penalty phase witnesses presented by defense counsel at both of Dean's capital
trials (Los Angeles and San Diego).
I have considered the testimony, declarations, investigative reports as to
Dean's childhood and adolescence, with persons having direct knowledge of
Dean's background, and educational, juvenile and criminal records, including
probation and mental health evaluations, as listed in the appendices hereto.
SUMMARY CONCLUSIONS

The documents I reviewed, along with my interviews with Dean, indicate
that Dean's early childhood experiences led to the development of severe
psychological and social problems in adulthood. An individual's psychological
development is influenced by the interplay between biological and environmental
factors. The biological factors that Dean experienced was his family's history of
severe alcoholism and direct prenatal exposure to the toxic effects of alcohol. The
environmental factors included extreme and chronic abuse and neglect, racial
discrimination and multiple institutional placements, beginning at an early age.
While his "family" includes his nuclear family ("the Carters"), Dean spent much of
3

Exhibit 78-1016

Petitioner's App. 33 - 572

ER 1000

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 14 of 298
(1206 of 1584)

Filed 09/07/10 Page 4 of 92 Page ID #:1372

his childhood, pre-adolescent and adolescent years in juvenile institutions and
foster care. Although the institutionalizations removed Dean from his abusive
home, they did little to remedy the deleterious effects of the chronic and severe
trauma he experienced.
Based on review of case materials and expert declarations, Dean's prenatal
exposure to alcohol indicates a high likelihood of diffuse brain damage and severe
impairment in cognitive and emotional functioning. The effects of this brain
damage were further exacerbated by the deleterious consequences of his chronic,
malignant, parental caretaking environment.
Dean's experiences in his family led to the development of particularly
severe deficits in a number of critical areas. As a result of his parents' violence
and alcoholism, Dean developed problems with affect disregulation as a child that
persisted into adulthood. Having been raised by parents who vacillated between
emotional neglect and domination and control, he was unable to develop a healthy
internal self-structure. As a result, his life outside institutional placement was
chaotic, and he has only been able to function adequately in an environment with
sufficient external structure to give his life organization and direction.
Dean's childhood experiences led to the development of severe impairment
in interpersonal relationships. As a result of early and extreme emotional rejection
and isolation (e.g., being chained and left in the house alone while the parents were
out drinking), he has developed an exquisite sensitivity to abandonment and
rejection. When a situation triggers this core theme, he could become flooded with
overwhelming and intense emotions of terror and rage. Due to his problems with
affect regulation, he would be unlikely to be able to manage these emotions in an
adaptive manner.

4

Exhibit 78-1017

Petitioner's App. 33 - 573

ER 1001

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 15 of 298
(1207 of 1584)

Filed 09/07/10 Page 5 of 92 Page ID #:1373

CULTURAL AND ENVIRONMENTAL SETTING
Dean was born on August 30, 1955, and raised primarily in Nome, Alaska,
which is over 500 miles by land from Alaska's largest city, Anchorage.

Nome,

which appears to be derived from a Native Alaskan malapropism of the English
word Name, is situated on the southwestern point of the Seward Peninsula facing
the Bering Sea, less than two hundred miles from the Arctic Circle. It cannot be
reached directly by automobile or train, and is ordinarily reached by ship, airplane
or dog sled.
Northern Alaska's weather conditions present a formidable challenge to its
population. In the winter months, Nome is often snowbound and sub-zero
temperatures are the norm; daylight is restricted to a few hours. From JuneAugust, darkness may be limited to a few hours. Weather cycles, particularly in
winter, restrict outdoor activities, and alcoholism has long been a major problem
for Native Alaskans, especially in Northern Alaska. (7, Psychiatric Problems and
Cultural Transitions in Alaska, supra, 209; The Inupiat and Arctic Alaska, N.
Chance (1990; Harcourt Brace),[excerpted chapters]; The Last Light Breaking,
supra, p. 30; Testimony of Linda Ellana, Ph.D. [SDRT 7904) The high incidence
of alcoholism among Native Alaskans has been linked also to depression, anxiety
and other mental diseases and disorders. (The Arctic Hysterias of the North
Alaskan Eskimos (1972) Anthropological Studies, E.F. Foulks; Testimony of
Linda Ellama, Ph.D. (SDRT 7904; 7910.) This was certainly the case in Dean's
family, where alcoholism and other mental health problems were evident.
Nome developed from a small Inupiat Eskimo village to a bustling town
during the gold rush of 1898, infusing Native Alaskan culture with a flood of
American, Russian and European ancestral migrants. (See John Murray, Alaska
5

Exhibit 78-1018

Petitioner's App. 33 - 574

ER 1002

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 16 of 298
(1208 of 1584)

Filed 09/07/10 Page 6 of 92 Page ID #:1374

(1999 Compass America Guide], pp. 45-50, 289, 297-300; M. Phillips and T. Inui,
The Interaction of Mental Illness, Criminal Behavior and Culture: Native Alaskan
Mentally Criminal Offenders, Culture, Medicine and Psychiatry (1986) 123-49.)
Unlike other Native American groups, Native Alaskans, of which Eskimos
are the largest group, do not live on reservations, so the influx of non-Natives
directly influenced the life-style of Native Alaskans. (Id., at 125.) Acculturation,
or the process of adaptation of non-Western ethnic groups to Western life-styles,
has been a significant factor of influence for Native Alaskans, and the processes
have been frequently associated with disintegration of traditional cultures and
psychosocial dysfunction of the groups' members. (Id.) Inupiat Eskimos have
maintained a subsistence-based culture of fishing, hunting, and gathering in an
extremely harsh environment over two thousand years, and differences with
Western culture continue to be significant sources of conflict. (Id.; Deel. of Fred
Wemark; Inupiat Ithitqusiat, August 24, 1996, "The Arctic Venturer: Preserving
the Inupiat Values" (Ballot, S.), p. 30, "Responsibility to Tribe: Education"
(Wilson),p.31; "Spirituality" (Asik), pp. 35-36; "Two Worlds One Whale" (Lord),
pp. 58-65, 87, 86 Sierra 4 (July/August 2000); Nick Jans, The Last Light-Breaking,
Living Among Alaska's Inupiat Eskimos (1993, Alaska Northwest Books), pp. 30,
42.)
The attempted transition from the "bush" to urban centers, including to "big
villages" like Nome, has led researchers to conclude that Eskimos suffer from
denigration of native culture and personality, which in tum had resulted in
extremely unhealthy social environments. (J.D. Bloom, M.D., Psychiatric
Problems and Cultural Transitions in Alaska, Journal of the Arctic Institute of
North America, (1972) Volume 25, Number 3, pp. 203-215.) Psychological and
social problems, including increased alcoholism, substance abuse, and criminal
6

Exhibit 78-1019

Petitioner's App. 33 - 575

ER 1003

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 17 of ~009 of 1584)

Filed 09/07/10 Page 7 of 92 Page ID #:1375

activity, are not unique to Native Alaskans from cross-cultural transition, but
socio-cultural disintegration and resultant psychological and emotional illness as a
result of cultural contact and change is a well documented part of Native Alaskan
cultural history, and many of the studies of their unique culture-bound problems
occurred during the 1950's-1970's. (Id. at 212; J.D. Bloom, Cross-Cultural
Forensic Psychiatry in Alaska, Bulletin of the American Academy of Psychiatry
and the Law (1975), Volume 111, Number 4.)
While inter-marriage between Caucasian and Native Alaskan adults was not
uncommon, it was not until 1980 that 40% of Native children claimed one
Caucasian parent. In the 1950-1960, when Dean was growing up in Nome, the
population ranged between 2,000 and 3,000, and acceptance of children of mixed
heritage was problematic. (Id.; LART 5740-41; Testimony of Linda Ellana, Ph.D.
(SDRT 7436; 7901-03; 7907; see also, Deel. of Fred Wemark).)
Dean, a child of mixed ethnic heritage, experienced first-hand the internal
confusion of wanting to align himself with one ethnicity over another, and feeling
discriminated against by people in his environment.
FAMILY HISTORY
Maternal Background

Dean's mother, Esther Dorothy Stoney, was bom-1929 in
Noorvik, Alaska. Noorvik was a village of roughly two hundred people. The
villagers lived in log cabins with dirt floors. Esther was born in a tent. Her
mother, Vera Starbuck, was Inupiat. At thirteen-years-old, Vera met Esther's
father, George Lablin, a Caucasian. Esther was born when Vera was about
fourteen years old. (Cohen Interview with Ida Everin, 7/6/ 87, 9/7/87; Deel. of
Oman.)

7

Exhibit 78-1020

ER 1004
Petitioner's App. 33 - 576

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 18 of 298
(1210 of 1584)

Filed 09/07/10 Page 8 of 92 Page ID #:1376

Vera was an alcoholic who reportedly suffered from unspecified mental
problems. She worked as a housekeeper for a family in Nome and was habitually
borrowing "advances" on her paycheck to buy alcohol. (Deel. of Roscoe Wilke.)
When Vera moved to Nome for the winters, Dean remembers taking cans of food
to her house to ensure that she had something in the house to eat. She eventually
died from cirrhosis of the liver, the result of years of alcohol abuse. (Cohen
Interview with Ida Everin, 7/6/87, 9/7/87; Deel. of Oman.)
Esther Stoney was "adopted" in early childhood by an elderly Inupiat
couple, Polly Kiana, and, her husband, Jim Stoney. Informal adoption into another
family was not unusual for Inupiat children. (Deel. of Lela Oman; E. Adamson
Hoebel, Law-Ways of the Primitive Eskimos, 31 Journal of Criminal Law &
Criminology, pp. 663, 670-72 (1953).) Polly Kiana Stoney, Esther's adopted
mother, had no legs. Esther assisted her with many chores, including fishing for
food. Polly's husband, Jim, Esther's adopted father, died when Esther was very
young. Polly and Esther, poor people who subsisted on welfare, never left
Noorvik, except to go to traditional fish camps. (Cohen Int. with Ida Everin,
7/6/87, 9/7/87; Cohen Int. with Esther Carter, 6/16/87; Deel. of Lela Oman; see
also, Deel. of Fred Wemark.)
Because Esther was not a full-blooded Eskimo, other children in the village
routinely discriminated her against. This kind of discrimination against mixed race
children was common, and Dean experienced it as well. (Cohen Int. with Ida
Everin, 7/6/87, 9/7/87; Deel. of Lela Oman; see also, Deel. of Fred Wemark.)
In her early teens, Esther moved in with Polly Kiana's niece, Lela Oman,
and her husband, Carl, who lived in Candle, Alaska. The family owned a bed and
breakfast and had five children. Esther worked taking care of the children,

8

Exhibit 78-1021

Petitioner's App. 33 - 577

ER 1005

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 19 of ~811 of 1584)

Filed 09/07/10 Page 9 of 92 Page ID #:1377

washing dishes, fixing the beds and, later, helping with the cooking. (Deel. of Lela
Oman; Deel. of Esther Carter.)
When Esther was sixteen, the Oman family moved to Nome, Alaska and
took Esther with them. Esther eventually moved into her own apartment. Jerry
Carter, Esther's first child, was born o n - 195 l , when Esther was
twenty-two years old. Dean was born four years later. The boys' fathers are
unknown. Jerry's father is thought to be a man named Chuck Reader, but Mr.
Reader denies knowledge of Jerry's biological father. Many Nome residents
suspect that military men passing through town fathered Jerry and Dean. (Deel. of
Chuck Reader; Deel. of Lilly Rose; Deel. of Catherine Dickson.)
Paternal Background

Virtually nothing is known about Dean's natural father. Efforts to uncover
the truth about Dean's biological father have uncovered only rumor, suspicion, and
poorly documented historical data. Perhaps for cultural or other reasons, including
his mother's refusal to identify Dean's father, Dean's biological father remains a
mystery. "Earl Ramey" has been rumored to be Dean's father, but parentage has
never been verified and no one by that name has ever been identified as related to
Dean. (LART 5937-38; Probation Report of Kenneth E. Brown, 1/25/71; Cohen
Interview with Esther Carter, 6/16/87; Deel. of Lela Oman.)
It is likely, however, that Dean is part Caucasian, although that is based

upon reasonable assumption and personal observation. Dean is at least onequarter lnupiat. (Birth Cert.; Deel. of Lela Oman, Application to Jesse Lee Home,
9/10/64; Nome School Records; Seward School Records.)

Stepfather's History
In 1960, when Dean was five and Jerry was eight, Esther met and married
James Carter. (Deel. of Esther Carter.) James Carter allegedly adopted Dean and
9

Exhibit 78-1022

ER 1006
Petitioner's App. 33 - 578

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 20 of ~812 of 1584)

Filed 09/07/1D Page 10 of 92 Page ID # : 1378

Jerry, but no legal records confirm the adoption. Both boys took the surname
Carter. What father figure Dean had, was found in James Carter.
Esther and James Carter eventually had two children of their own,
Pollyanne, b o ~ 1963 and Goldie, bom-1967. One child
apparently died in childbirth between Dean and Pollyanne. The girls knew Dean
only slightly and intermittently, since shortly after Pollyanne's birth, he was only
intermittently living in the Carter home. (SDRT 7531 ; 7546; 7547-7549; Cohen
Int. with Pollyanne Reasner, 7/6/87; Case History Summary of S. R. Sobel,
Counselor, 1/17/75.)
James Carter was born

1919, in Pasco, Washington, and died

in Seattle, Washington, - 1 9 7 6 . (Death Certificate; Cohen Int. with Esther
Carter, 6/22/88.) James Carter was ten years older than Esther and had the
appearance of an "old man." He was "a big, intimidating guy," who always
seemed "grouchy and irritable." (Deel. of Beverly Gelzer.) "Jim was a big strong
man standing well over six-feet tall .... Jim was stem and people didn't talk back
to him." (Deel. of Cherryl Stavish.) People in Nome remember his generally
unpleasant demeanor. "James was antisocial and he was not the type of person I
would have befriended," states one contemporary. (Deel. of Catherine Dickson.)
When James and Esther met, James Carter was an officer with the local police.
From 1964 to 197 1, he served as the chief-of-police and later became an Alaska
State Trooper. (Jesse Lee Home Appl.; Pre-Sentence Report of Paul Tannenbaum,
10/27/77; Death Cert.) James' s position in law enforcement gave him significant
power and authority in the small community of Nome. "He was drunk on his
authority as the Chief of Police in Nome." (Deel. of Catherine Dickson.)
James Carter was also known for his "tendency to be condescending towards
natives." (Deel. of Catherine Dickson.) In 1971, when Dean was a teenager,
10

Exhibit 78-1023

ER 1007
Petitioner's App. 33 - 579

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 21 of 298
(1213 of 1584)

Filed 09/07/10 Page 11 of 92 Page ID #:1379

James Carter worked as a dormitory aid at William Beltz School, a high school in
Nome, Alaska devoted to educating Native children from the Alaskan bush. James
Carter was fired within a few months because he had characterized Native
Alaskans in extremely derogatory terms, calling them "worthless, lazy, trouble
causers." (Testimony of Linda Ellana, Ph.D. [SDRT 7900]; See also Prob. Rep. of
Kenneth E. Brown, 1/25/71.)
The Carters' Abusive Marriage

A controlling man, James Carter abused both his wife and his children.
Esther remembers, "he made sure we followed all his rules at home, or else."
(Deel. of Esther Carter.) Following a pattern typical to abusers, James Carter was
extremely "jealous" and would push Esther around. (Id.) A contemporary recalls
seeing Esther with bruises, a black eye, and broken glasses. (Deel. of Cherryl
Stavish.)
Like many abusers, James Carter displayed an unwillingness to confront
anyone of equal strength. A fellow police officer recalls, "James Carter was not
the type to confront someone his own size, and rarely made his own arrests. James
usually called another officer for assistance if he needed to arrest someone."
(Deel. of Arthur "Guy" Martin.)
A close friend, Edna Buffas, describes Esther Carter as a "simple minded
woman who gets hysterical under pressure." (Cohen Int. with Edna Buffas,
5/16/87; LART 5740; Deel. of Lela Oman.) Esther acknowledged that she was
incredibly naYve and followed James Carter's commands without question,
claiming that James "wore the pants." In other words, "whatever he says goes."
(Deel. of Esther Carter.)
Dean at first described his parents' marriage as a close one, yet upon further
questioning, a different picture emerged. Esther and James argued and the
11

Exhibit 78-1024

Petitioner's App. 33 - 580

ER 1008

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 22 of 298
(1214 of 1584)

Filed 09/07/10 Page 12 of 92 Page ID #:1380

arguments escalated into physical violence. Dean described his mother as "strong
and quick," "stubborn like a bulldog," frequently "nagging and pushing, with a
mean streak." James contributed to the arguments by "egging her on, sometimes
too far." According to Dean, their arguments were primarily related to jealousy,
with Esther often losing her temper and hitting her husband with an object, her fists
or slapping him with her hands. He recalls times that he and Jerry broke up their
fights; Dean siding with his mother and Jerry with James. Dean observed directly
the arguments and violence, but he also heard them argue in the other room with
furniture being thrown around. Dean does not recall his stepfather hitting his
mother in front of him.
It is common for children from violent families not to have explicit

memories of specific violent incidents. Children in these situations try to avoid
their parents' arguments and fights for several reasons. The fighting is emotionally
traumatic to them and potentially dangerous physically, and children attempt to
protect themselves from being unintended victims. One way in which children
attempt to regulate the intense emotions associated with observing their parents'
violence is by trying not to think about the experiences, and, by not thinking about
these experiences, they forget.

Parental Alcoholism
Nome was referred to as "sin city," because of the residents' heavy alcohol
drinking. It seemed to Esther that people drank more in Nome then elsewhere in
Alaska. (Deel. of Esther Carter.) Dean reported that the Nome bars opened at 6:00
a.m., stayed open all day and all night until 5:00 a.m., closed for one hour and then
re-opened again. Nome was a small town and the majority of the socializing
occurred in neighborhood bars. When his parents were not at their respective jobs,
they drank.
12

Exhibit 78-1025

Petitioner's App. 33 - 581

ER 1009

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 23 of 298
(1215 of 1584)

Filed 09/07/10 Page 13 of 92 Page ID #:1381

Esther developed a significant alcohol problem in Nome, at times drinking
throughout the day. (Deel. of Esther Carter.) Lily Rose remembers meeting Esther
when she first moved to Nome. Lily was in her early twenties and Esther was a
few years her junior. Esther and Lily became good friends and on the weekends,
the two went out drinking together. (Deel. of Lilly Rose.) Esther also went out to
bars during the week with other friends. (Id.)
After Esther became pregnant with Dean, she continued drinking regularly.
Lilly Rose recalls,
I don't recall seeing Esther pregnant from Jerry, her first son, however
I do know that Esther continued to drink throughout her pregnancy
with Dean. When Esther was expecting Dean, I used to see her
around town at bars drinking, especially during the weekend.
(Deel. of Lilly Rose.)
James Carter was also known to be a "heavy drinker." He "had all the
characteristics of a heavy drinker. For example, his nose was red and swollen."
(Deel. of Arthur "Guy" Martin.) Esther acknowledges that her and her husband's
alcohol abuse caused conflict and physical confrontations. (Deel. of Esther
Carter.) Her eldest son, Jerry, and her daughter, Pollyanne Reasner, joined others
in describing their mother, as well as James Carter, as heavy drinkers, abusive to
one another and their children. (LART 5755-56; 5769-70; SDRT 7437-39; 7444;
7549-50; 7583; 7589; Cohen Interview with Pollyanne Reasner, 6/14/87; Cohen
Interview with Jerry Carter 10/17/87.)
Many Nome residents also described the Carters' alcohol abuse. Roscoe
Wilke remembers, "[t]hey both drank a hell of a lot of alcohol." (Deel. of Roscoe
Wilke, 4/4/07) Another contemporary recalls, "Esther and James Carter were
heavy alcohol drinkers. I remember seeing them at bars drinking all the time."
13

Exhibit 78-1026

Petitioner's App. 33 - 582

ER 1010

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 24 of ~816 of 1584)

Filed 09/07/1D Page 14 of 92 Page ID # : 1382

(Deel. of Lilly Rose.) Chuck Reader "would regularly go out drinking with Jim
Carter and Esther Carter. Esther could really drink." (Deel. of Charles "Chuck"
Reader.) Dean's childhood friend often found Jim and Esther drinking when he
visited the Carter family home. (Deel. of Vaughn Johnson.)

EARLY CHILD DEVELOPMENT
Dean was born at Nome's Norton Sound Regional Hospital on or about
1955. His birth certificate indicates "Dean Phillip Stoney" was born on
but the birth date o f - 1 9 5 5 has been used as custom.
His Inupiat name is "Mulluq" although his mother refused to teach him the
Native language and he was forbidden to speak it. (Deel. of Fred Wemark.) No
father is listed on the birth certificate and Dean has never met his biological father.
Dean's mother described him as a baby that did not cry much, but has offered little
else about her infant son. (Cohen Int. with Esther Carter, 6/16/87.)
Lela Oman, a practical nurse and family friend, witnessed Dean's birth.
Dean's head was larger than normal. Lela also noted other abnormalities of
Dean's skull, which alarmed her. There is no indication that Esther sought
additional medical attention for her infant son. (Deel. of Lela Oman.)
Dean, his mother and brother, and later with James Carter, lived in a small
house between the Snake River and Dry Creek, within two blocks of the vacant lot
where the abandoned "old gold house" had been situated, and which in the 1970's
was converted into a park, known as the (contaminated) "Steadman Field." (Deel.
of Lela Oman; Weston Report.) Nome was a gold mining town and the old gold
dredges became a place for Dean to play and to hide from his abusive home.
(Deel. of Vaughn Johnson.)
Given Esther's alcoholism and her pervasive neglect, it is extremely likely
that Dean's first five years were troubled. Dean's difficulties, however, escalated
14

Exhibit 78-1027

ERlOll
Petitioner's App. 33 - 583

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 25 of 298
(1217 of 1584)

Filed 09/07/10 Page 15 of 92 Page ID #:1383

with the introduction of James Carter into the household. Esther remembers, "as
soon as [her] husband Jim came into the picture, Dean began to act up and he ran
away constantly." (Deel. of Esther Carter.)
On or about April 15, 1962, when Dean was six-years-old, he was struck by
a taxicab driven by Edna Buffas. The streets were crowded and Ms. Buffas did not
see Dean as he entered the street. She does not recall whether Dean was rendered
unconscious by the blow, but he did appear to be shaking and "in some sort of
convulsions." Hospital records note an accident did occur but injuries reported are
minor. (Pasas Interview with Edna Buffas, 9/30/86; Norton Sound Hospital
Record, 4/15/62.) Dean's recollection of the experience is of a "white light in a
black tunnel," and of regaining consciousness in his stepfather's automobile; he
recalls James Carter was crying at the time. Dean remembers receiving an ice pack
at the hospital for his head. When he returned home after the accident, he recalls
that his mother was indifferent to him, but his stepfather showed some feeling.
Esther's actions at the time of the accident exemplify her failure to address
even Dean's basic emotional needs, which was likely the case from the moment he
was born. Although Dean recalls his stepfather responding to him at that moment
in a humane way, the preponderance of data indicates that this was an aberration of
the typical behavioral response by his stepfather.
As a child, Dean is remembered as "slow" and "not the sharpest kid around."
(Deel. of Lilly Rose, Deel. of Roscoe Wilke.) People had the impression that
"something was off about [Dean]; Dean just seemed different." (Deel. of Beverly
Gelzer.) "I only saw Dean Carter a few times" a local police officer recalls, "but I
always thought there was something wrong with the boy; he was different." (Deel.
of Cecil Johnson.) According to a childhood contemporary, Beverly Gelzer,

15

Exhibit 78-1028

Petitioner's App. 33 - 584

ER 1012

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 26 of 298
(1218 of 1584)

Filed 09/07/10 Page 16 of 92 Page ID #:1384

Dean had a hard time relating to the other kids. Sometimes when we
were playing, the other kids would look at Dean and say what don't
you understand?' There seemed to be a different process going on in
his head. Dean would try to be funny, but his jokes weren't funny and
sometimes they made no sense. He tried very hard to fit in.
(Deel. of Beverly Gelzer.) Even now, his childhood contemporaries comment of
Dean's lack of attention span and difficulty remembering things. (Id.)
It was obvious to all that Jerry was the favored child. He was perceived of
as "smart," and he excelled in school and sports. (Deel. of Lilly Rose.) "Jerry was
sharper and more on the ball than Dean." (Deel. of Beverly Gelzer.) Jerry was
pampered and petted by Esther, who reserved her affection entirely for him. (Deel.
of Charles Reader.) "I never saw Esther be affectionate or speak kindly to Dean."
(Deel. of Nancy Green.)
Dean became the scapegoat for the family. Dean was blamed for every
"bad" act he committed with no insight into the family's contribution to his
behavioral concerns. Dean was, and by his mother still is, perceived of as "acting
up." (Deel. of Esther Carter.) Instead of acknowledging their role in Dean's "cry
for help" behavior, the Carters' determined that he had been "born bad." When
Dean would disappear for days at a time, the other Carter children would explain,
"Dean was a bad boy." (Deel. of Cherryl Stavish.) Every possible wrongdoing was
laid at Dean's door without question.
The rejection of Dean was exacerbated by the Carters' positive treatment of
Jerry. "Jim Carter never had anything nice to say about Dean but put Jerry on a
pedestal when comparing the two boys. He would constantly refer to Dean as "that
bastard." (Deel. of Cherryl Stavish.) Adults in the community observed that
Esther Carter "singled out" Dean in a "negative" way during these childhood years.
16

Exhibit 78-1029

Petitioner's App. 33 - 585

ER 1013

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 27 of 298
(1219 of 1584)

Filed 09/07/10 Page 17 of 92 Page ID #:1385

Harriet Brown, a missionary in Nome, picked up Dean and Jerry to take them to
Sunday school for a brief time in 1961, and she observed the "very definite"
(negative) way in which Dean's parents treated him as compared to Jerry. (SDRT
7616-24.) Bertha Adsuna, an Eskimo elder, had known Dean's mother since Esther
had moved to Nome, and recalled Dean as "mostly alone" in the yard outside the
Carter home; he was sadly "cast down" by his mother, while Jerry was "protected."
She observed Esther give Jerry cookies, while Dean was excluded; Jerry had new
clothes, while Dean had hand-me-downs. (SDRT 7578-86.) She observed on one
occasion that Esther required Dean to eat off the floor, while Jerry was allowed to
eat at the table. (Pasas Interview with Bertha Adsuna, July 1989.) Beth Farley,
Jerry's contemporary, also recalled Dean during these childhood years as always
being alone at the Carter house, "like he didn't belong" in the family. (SDRT
7642-66.) The family looked upon Dean as ifhe were "an orphan." (LART 5746.)
Ruth Butts, also Jerry's age, observed similar isolation, neglect and rejection.
(SDRT 7681-96.)
There is also evidence that Jerry joined his parents in abusing Dean. A
neighbor remembers that Esther and Jerry both picked on Dean and "when they
weren't picking on him or making fun of him, they were ignoring him." (Deel. of
Nancy Green.) Jerry seemed "to be in control of Dean." (Deel. of Beverly
Gelzer.) Despite his privileged role, Jerry showed signs of his exposure to the
childhood trauma. A neighbor girl remembers Jerry "jumping" on her and trying
to sexually assault her when playing a game of hide-and-seek. (Id.)
Although the reports of Dean's abuse are far more extensive, at least in his
early years, Jerry suffered abuse as well. (See e.g. Deel. of Arthur Martin, Deel. of
Michael Ahmasuk.) It would not be unusual for someone in Jerry's position, older,
stronger, and smarter to try to deflect the abuse to someone younger and smaller.
17

Exhibit 78-1030

Petitioner's App. 33 - 586

ER 1014

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 28 of 298
(1220 of 1584)

Filed 09/07/10 Page 18 of 92 Page ID #:1386

In abusive families, survival is key, and children find different strategies to achieve
that goal. If survival requires taking the side of the abusive parent against another
victim, to protect themselves, some do so. As Jerry was able to succeed in sports
and school, he may have been largely successful.
The Carters' pattern of scapegoating Dean and coddling Jerry continued as
long as Dean was in the family home. On one occasion, a family friend believed
that Jerry might have been involved in stealing his daughter's motorcycle. But the
Carters "would not allow [him] to speak to Jerry. Jim and Esther refused to even
consider that Jerry might have done something wrong. They just assumed if
someone had taken something, it had to be Dean." (Deel. of Charles Reader.)
CHILDHOOD ABUSE

Dean was the victim of extreme, intense and unconscionable physical and
emotional abuse that began in his early childhood. Whether the abuse began with
James Carter's entrance into Dean's life or James Carter simply escalated the
violence is unclear. It is certain, however, that James Carter regularly abused
Dean.
Dean's parents chained him like an animal. Esther admitted that James
chained Dean to his bed "many times." (Deel. of Esther Carter.) Looking back on
this form of early childhood restraint, a juvenile court probation officer reported,
"when Dean was very young ...the Carters would leave him chained to a bed post
so they could go out socializing." (Prob. Rep. of Kenneth Brown, 1/25/71.) Jerry
Carter recalled that Dean was also chained up when his parents went to work.
(SDRT 7451-52; 7469-71.) Dean may have been chained to his bed for periods as
long as two weeks unchained only to use the bathroom. (S. R. Sobel, Oreg. Corrl.
Records.)

18

Exhibit 78-1031

Petitioner's App. 33 - 587

ER 1015

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 29 of 298
(1221 of 1584)

Filed 09/07/10 Page 19 of 92 Page ID #:1387

In 1964, a Carter neighbor contacted Guy Martin, a police officer, to
investigate possible abuse at the Carter home. He entered the home to find both
Dean and Jerry chained to the floor. Next to the boys was a bowl of water. "I
could see the boys had been crying." (Deel. of Arthur "Guy" Martin.) According
to the neighbor, "boys were chained every time James and Esther went out to
drink, which was frequently because they were both heavy drinkers." (Id.) Dean
Carter was thought to be nine or ten years old at the time. A local water
deliveryman also reported seeing Dean chained to the ground when he delivered
water to the Carter family. (Deel. of Catherine Dickson.)
Dean's childhood peer Vaughn Johnson recalls that Dean would disappear
for "days at a time." Vaughn "once asked Esther where Dean was, but she didn't
give [him] an answer." (Deel. of Vaughn Johnson.) At school, Dean told his
classmates that Jim Carter locked him in the closet. (Deel. of Michael Ahmasuk.)
The Carters' abuse of Dean was so prevalent that "whenever [his classmates] did
not see Dean for a few hours, [they] assumed Jim Carter had locked him in a
closet." (Deel. of Michael Ahmasuk.)
The "closet" Dean was kept in may have been discovered by a friend of
Dean's younger sister who peeled back a piece of wood paneling in a bedroom in
the Carter home to reveal a "room the size of a jail cell" that had in it "only an
army-type bed. The only window in the room, which was small, had bars on it."
(Deel. of Cherryl Stavish.) A similar "jail" cell was found at the Carter summer
camp. Cherryl Stavish "discovered a small shed about fifty feet from the Carter's
main cabin. When [she] looked inside the shed there were bars on the very small
single pane window and nothing inside. To [her], it looked like a short 'jail cell."'
(Id.)

19

Exhibit 78-1032

Petitioner's App. 33 - 588

ER 1016

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 30 of 298
(1222 of 1584)

Filed 09/07/10 Page 20 of 92 Page ID #:1388

When Dean was six years old, he started leaving home without warning or
explanation; more than once he is reported to have stayed out over night. (LART
5780-81; Cohen Int. with Jerry Carter, 10/17/87.) Dean's recollections are of
"wandering about town," but he has no memory or insight into other reasons for
leaving home at such a young age. Mostly, Dean recalls being alone in the dark at
night, and feeling fearful about returning home because of the physical beatings
that awaited him.
Over the next three-four years, Dean would repeatedly "run away" from
home. On one occasion he was located in a nearby tool shed two days after
disappearing. Twice, Dean attempted to stow away on an airplane in order to leave
his family. Once, he hid in the cargo bay while the plane flew to Anchorage, a fivehour, cold flight in the middle of winter. He was found when the plane landed and
was sent back to Nome. (See, LART 5755; SDRT 7440-43.)
As Dean's attempts to escape his alcoholic, abusive home escalated, the
Carters further justified their abuse and took little steps to hide it. Chuck Reader
remembers visiting a friend at a summer camp across the way from the Carter
family. "When I arrived, the Johnsons and the Carters were having a picnic. As
the kids played around the camp ground, I noticed Dean hopping around the cabin
while chained at both ankles." When confronted about his abusive treatment of
Dean, Jim Carter responded only, "can't let him loose." Later, the neighbor would
tell Chuck that the Carters kept Dean chained up, locked up and secluded most of
the time. (Deel. of Charles "Chuck" Reader.) Even today, Esther Carter describes
these humiliating, demeaning and physically abusive practices as "discipline."
(Id.)

Esther Carter acknowledges that Jim Carter "used a belt" to discipline Dean.
(Deel. of Esther Carter.) Dean remembers his stepfather using a barbershop strap
20

Exhibit 78-1033

Petitioner's App. 33 - 589

ER 1017

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 31 of 298
(1223 of 1584)

Filed 09/07/10 Page 21 of 92 Page ID #:1389

and leather belt to whip him on his legs and buttocks. A neighbor child heard
Dean's cries from across the camp and was told later that Jim Carter beat Dean
with a two-by-four. (Deel. of Beverly Gelzer.) Dean remembered feeling afraid of
his parents and angry at their brutality. He recalled thinking even at a young age,
that "this wasn't the way you treat your kids." As a result of his parents' physical
abuse, Dean had bruises on his legs, back, butt, and welts on other parts of his
body that hurt and made it painful to sit down. He recalled that the frequency of
beatings could be unpredictable, sometimes occurring as much as two to three
times per week, and other times every couple of weeks or longer. Sometimes his
parents would be drinking when they beat Dean, sometimes they would sober.
(See also, LART 5756; SDRT 7437-38; 7453.)

Esther Carter, although she now contends that she disagreed with Jim
Carter's treatment of Dean, did nothing to stop it.
My husband Jim disciplined Dean in ways that I did not approve of
but because he was bigger and taller than me, I was very afraid of
him. There was really nothing I could say or do to stop the abuse.
(Deel. of Esther Carter.)
Esther, in fact, claims not to know details of James's abusive treatment, "I don't
know what happened between my son Dean and my husband Jim when I was
away." (Id.)
It may well be that Esther's presence provided minimal protection or
comfort to Dean. Attachment bonds are extremely strong. Children and adults will
routinely tum toward an abusive attachment figure for comfort and protection.
Jerry recalls one occasion when Esther came home late one night from drinking.
Dean pleaded with her to stay home, but she rebuffed him. As she again left home,
around 2:00 a.m., Dean grabbed onto the rear bumper of the automobile and he
21

Exhibit 78-1034

Petitioner's App. 33 - 590

ER 1018

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 32 of 298
(1224 of 1584)

Filed 09/07/10 Page 22 of 92 Page ID #:1390

was dragged as she pulled away. Esther returned to the house, carrying Dean,
whose feet were bleeding and tom. But she did not stay, dumping Dean off and
heading back to the bar. (SDRT 7450-51; LART 5756-59.)
Esther Carter was also an active participant in Dean's abuse. Dean recalls
his mother using whatever was available, including her fists, a switch, extension or
electrical cord, a boot or shoe, to beat him everywhere about his body, seeming to
"not want to stop once she got started." She would work herself into a frenzy,
screaming and cursing as she beat Dean "really hard," and the beatings would last
"a really long time." She is also remembered as being generally "mean" to Dean,
picking on him, teasing him and never showing him any affection. (Deel. of
Nancy Green.)
Victims of marital violence find a variety of ways to physically and
emotionally survive the abuse. Although Esther was a victim, she also knew how
to protect herself by fighting back and at times, even precipitated arguments and
physical violence. Not all battered women are helpless, defenseless victims. There
is category of violent marriages where the abuse is mutual. Although Esther was
physically aggressive to her husband, it does not take away the fact that she was
also frightened of him and lived under his domination and control. Victims often
build up tremendous rage that can be directed toward their spouse or their children.
In the Carter family, both Esther and James turned their frustration and rage with
one another against Dean.
As Dean grew older, his isolation increased. In typical abusive fashion, his
parents' abuse oscillated. Friends of the Carters' younger children recall that there
was rarely socializing at the Carter household and that the Carters' daughters were
rarely allowed to have friends over. (Deel. of Cherryl Stavish.) Although they

22

Exhibit 78-1035

Petitioner's App. 33 - 591

ER 1019

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 33 of 298
(1225 of 1584)

Filed 09/07/10 Page 23 of 92 Page ID #:1391

frequently chained him up they also occasionally locked him out. A Nome
townsman recalls:
Once, when Dean Carter was only twelve or thirteen years old, I came
across him sitting alone on the school steps. He was crying. It was
late, around 11 :30 at night, and it worried me to see him out so late
alone. I asked him why he was out and Dean told me that his father
wouldn't let him in the house.
(Deel. of Roscoe Wilke.)
The Carters' abusive practices of "chaining" and beating Dean continued
into his critical adolescent years. When Dean was fourteen or fifteen years old,
Cherryl Stavish, a friend of his younger sister saw Dean chained in the rain to the
Carter family's summer cabin.
It had been pouring rain for a few days. When we returned to the

Johnson family cabin after a day in Nome, I saw Dean handcuffed and
shackled by the ankles to the outside stilts of the Carter cabin. Dean
was wet, cold, and hungry. From the look of him, Dean must have
been chained to the cabin for hours and hours.
(Deel. of Cherryl Stavish.) Distraught by what she'd seen, Cherryl asked the father
of the family she was staying with to intervene.
At first, Mr. Johnson told us to go into the cabin. Once we were all
inside, Mr. Johnson decided he should go check on Dean and maybe
cut him loose. Mr. Johnson's daughter, Wendy (my age) and I
begged to go with him so we could bring Dean something to eat and
a blanket. Mr. Johnson finally agreed, and all three ofus walked
over to the Carter cabin. After Mr. Johnson spoke to Dean, he
worked to cut Dean loose. Dean told Mr. Johnson that Jim Carter
23

Exhibit 78-1036

Petitioner's App. 33 - 592

ER 1020

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 34 of 298
(1226 of 1584)

Filed 09/07/10 Page 24 of 92 Page ID #:1392

had chained Dean to the cabin. Dean would not say anything more
about it.
(Deel. of Cherryl Stavish.)
A contemporary of Dean's recalls seeing Dean as a young teenager
handcuffed and chained the back of the family's camp house. (Deel. of Vaughn
Johnson, 3/3/07.) When asked, Dean said that James Carter had chained him there;
the friend simply left. (Id.) Dean's sister Pollyanne, eight-years younger than
Dean, listened to her father beat Dean through the thin walls separating their
rooms. (Deel. of Cherryl Stavish.)
In Nome, it was common practice to chain sled dogs closely to their
doghouses. The chain provided just enough length for the dog to get into the
house, but not enough rope for the dog to stray more than a few feet from the
chain's point of origin. (Deel. of Marion Pasas.) The descriptions of Dean chained
to his home seem markedly similar to this customary treatment of dogs.
The extent and depth of the child abuse Dean suffered went well beyond the
image of James Carter as a strict disciplinarian that was portrayed at trial. In fact,
the trial testimony perpetuated the false notion of Jrunes Carter's abuse as
"discipline."
It is highly likely that the abuse of Dean Carter was significantly worse than
what was publicly known. Abusers tend to minimize and deny the extent and
degree of their abuse to themselves and to others. James Carter was no different.
Esther Carter contends that he was "private and secretive" about things. (Deel. of
Esther Carter.) Shortly before he died, Jim Carter admitted to Esther that he had
done terrible things to Dean and expressed regret. (Id.) Knowledge of the full
extent of Jim Carter's maltreatment likely died with him.

24

Exhibit 78-1037

Petitioner's App. 33 - 593

ER 1021

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 35 of 298
(1227 of 1584)

Filed 09/07/10 Page 25 of 92 Page ID #:1393

Victims also frequently minimize their abuse because talking or even
thinking about their experiences triggers intense emotional reactions. Because they
were never taught adequate emotion regulation strategies, the flooding of traumatic
emotional memory can overwhelm their ability to cope, and can often lead to
depression, anxiety, and/or severe acting out. Therefore, not thinking about
traumatic experiences early on cuts off emotional reactions, which are necessary to
punctuate events so that we can remember them later. This becomes a problem
when current situations evoke overwhelming emotional reactions that tax the
individual's ability to regulate affect in an adaptive manner. Another reason why
victims may not remember specific acts of violence is when there are so many acts
that occur over a long period of time, victims may develop a generalized
experience rather than recalling each specific individual act.
LACK OF SOCIETAL INTERVENTION OR PROTECTION
Although "the word in town" was that James Carter abused both Dean and
Jerry nothing was done to prevent it. (Deel. of Catherine Dickson.) For example,
one local man recalls that although he "did not really know the Carter family" it
was "well known" that the Carters "locked up their kids." (Deel. of Robbie
Fagerstrom.) Dean's childhood friend recalls, "nobody would say anything about
Dean's disappearances." (Deel. of Vaughn Johnson.) Even Dean's desperate
attempts to escape his home life, although considered "a very big deal" in Nome,
were not sufficient to cause any intervention. (Deel. of Beverly Glazer.)
James Carter's position as chief-of-police made the notion of complaining to
the police difficult. A townswoman related a conversation she had with Robert
Sherman, a deliveryman who witnessed Dean chained inside the Carter home. "I
remember Robert's facial expressions of disbelief as he took off his cap and rubbed
his head when talking about Dean." Despite the two's disgust, they did nothing.
25

Exhibit 78-1038

Petitioner's App. 33 - 594

ER 1022

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 36 of 298
(1228 of 1584)

Filed 09/07/10 Page 26 of 92 Page ID #:1394

"I also remember that we discussed the fact that as the Chief of Police, how could
anyone stand up against James Carter." (Deel. of Catherine Dickson.)
One neighbor, Sophie Swanson, tried to reach out to the police. In typical
small town fashion, Sophie Swanson contacted Guy Martin, a patrolman and a
family friend. Although Guy Martin was off-duty, Sophie contacted him because
she and Guy's mother were close friends. Sophie told Guy that she thought the
Carter boys were being abused and asked Guy Martin to check on them. Guy
Martin found the Carter home empty except for Dean or Jerry, who were chained
to the floor. (Deel. of Arthur "Guy" Martin.)
Although Guy Martin was "enraged," he did no more than verbally confront
Jim Carter who told him "to mind [his] own business or else." (Deel. of Arthur
"Guy" Martin.) Sometime later, before he left the police department, Guy Martin
told James Carter "he'd better take care of it or [Martin] would." (Id.) Again,
James Carter's position interceded to prevent any action from being taken and guy
took no further action. "I regret not reporting [the abuse] to the district attorney
but at the time I was young and this would have meant turning over my superior,
the man I reported to." (Id.)
Small town culture also factored into the townspeople's reluctance to
intercede. In 1964, for example, there were four officers on the Nome police force,
Robert Oliver, James Carter, Larry Minnix and Guy Martin. (Deel. of Arthur
Martin.) Both James Carter and Larry Minnix would serve as chief-of-police.
(Deel. of Lilly Rose.) Minnix's wife, Lillian Minnix, was a good friend and
drinking partner of Esther Carter. (Id.) After he became police chief, Chief
Minnix told a junior officer Cecil Johnson "Esther and James Carter chained the
boys (Jerry and Dean) to the bed when they went out drinking and when they went
to work." (Deel. of Cecil Johnson.) Although Cecil Johnson recalls Chief Minnix
26

Exhibit 78-1039

Petitioner's App. 33 - 595

ER 1023

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 37 of 298
(1229 of 1584)

Filed 09/07/10 Page 27 of 92 Page ID #:1395

as a "righteous man" he acknowledges that Minnix never took any action on the
abuse, because "people mind their business in Nome." (Deel. of Cecil Johnson.)
Beverly Gelzer, whose family had a fish camp near the Carters knew of the abuse
and was not surprised that nothing was done to protect Dean. "It is part of the
small town way not to talk about personal things." (Deel. of Beverly Gelzer.)
Racism against Native Alaskan's also played a part in the societal failure to
intervene to protect Dean. Esther and Dean were part Native and Alaskan "racism
and discrimination were prevalent in Nome back then . . .. In those days, even if
people knew that certain things were going on like child abuse, it was quickly
dismissed especially if it involved Natives." (Deel. of Catherine Dickson.)
EDUCATION
Dean's education was sporadic and irregular, occurring in Nome and in
various institutions. Throughout his educational career, he consistently reported
serious problems with attention and concentration that went untreated. Despite
high average intelligence (Psychological Evaluation by Marianne Hagen, Ph.D.,
6/1/77; Deel. ofMyla Young, Ph.D.), Dean performed poorly in school and was
unable to apply his cognitive strengths to academic benefit. Problems with
attention and concentration are hallmark indicators of potential brain damage, and
should have been evaluated in greater detail.
According to Dean, the Nome elementary, junior high and high schools were
all located in one building. There were approximately twenty students per class
and two classes per grade ("A" and "B" sections). The "A" section was composed
primarily of Caucasian children, while the "B" section included "native" children.
The children in the "B" section were considered the less intelligent of the two
groups. In what would have been Dean's senior year, the high school was moved
to a separate building about 4 miles out of town.
27

Exhibit 78-1040

Petitioner's App. 33 - 596

ER 1024

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 38 of 298
(1230 of 1584)

Filed 09/07/10 Page 28 of 92 Page ID #:1396

Dean entered the first grade at Nome Elementary School in September 1961,
at age 6, but was absent a total of fifteen days and was noted as tardy six times.
(Nome School Records.) Dean recalled that as young as six years old, he felt
"apart" and "different" from other children, and uncomfortable in the presence of
Caucasian children. Based on his report, Dean was first placed in the "A" section
but then moved to the "B" section with "native" children, with whom he felt more
comfortable. Dean noted that he found it difficult to concentrate on schoolwork
and "day dreamed" most of the time. At the time, the reasons for Dean's
difficulties with attention and concentration were not clear-whether they were
organically based, whether he was preoccupied with problems at home, a
combination of the two, or indicative of some other problem. However, the school
did not evaluate him further.
Dean first experienced name-calling at public school in first grade, and
recalls being labeled a "halfbreed" by other children and parents. (SDRT 766566.) The use of terms, such as, "Salmon Cruncher" and "Fish Head Soup," were
common epithets used against children of mixed heritage in Alaska, who were
neither accepted by whites nor Native Alaskans. (SDRT 7751.) Dean recalls that
he identified more with Eskimo traditions and peers, unlike his siblings. His
mother, however, refused to allow him to learn Inupiaq, the native Eskimo tongue;
Esther told her son that she had been beaten physically by the missionaries when
she had spoken her native language as a child.
Dean appears to have been qualified to matriculate to second grade with a
"C" average from first grade, but there are no grades or attendance records for
Dean in second grade. (See, Nome School Records.) Dean recalled that he began
to skip school when he was in the second grade. His mother was in bed after
working the late shift or graveyard shift by the time he went to school, and his
28

Exhibit 78-1041

Petitioner's App. 33 - 597

ER 1025

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 39 of 298
(1231 of 1584)

Filed 09/07/10 Page 29 of 92 Page ID #:1397

stepfather was beginning his shift at the police station. Therefore, there was no
one to send Dean off to school and make sure he went to class, he felt a lack of
caring and interest from his parents, and knew that if he showed up at school late,
he would get into "trouble" i.e., be beaten with his stepfather's barber strap.
Dean apparently attended third grade at Nome Elementary School, at least
for one semester. Again, his "C" grades were noted. But records do not indicate
why Dean attended school only in the fall semester in 1963, or why there was no
attendance records for Dean during his second-grade years. (Nome School
Records.)
After Dean was sent to the Jesse Lee Home, he attended the local public
school, Bayview Elementary, where he barely completed the first semester of the
fourth grade. (Appl. for Admission; Seward School Records.) Dean recalls being
prescribed his first set of lenses to correct blurred vision, and he believes his
scholastic performance improved for a time, but his grades were all "D," except for
a "C" in reading and an "F" in arithmetic. (Seward School Records.)
Dean's feelings of "isolation" did not go unnoticed by at least one of his
schoolmates at Bayview Elementary, Joyce Wemark Birdinground. (Deel. of
Joyce Wemark-Birdinground.) She recalls Dean as being very lonely, emotionally
withdrawn, and extremely quiet and detached from his surroundings.
Dean returned to the Carter home in Nome in spring, 1965. Psychological
problems and conflicts with his parents and his community had not been resolved.
Dean completed the fourth grade at Nome Elementary School as a nine year old,
but he continued to run away from home. Although Dean's attendance was
sporadic over the next two years, he completed the sixth grade at Nome
Elementary in 1967.

29

Exhibit 78-1042

Petitioner's App. 33 - 598

ER 1026

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 40 of 298
(1232 of 1584)

Filed 09/07/10 Page 30 of 92 Page ID #:1398

Dean recalled liking his fifth and sixth grade teacher (Mr. Mann), and for the
first time, began to enjoy school and felt that "learning could be fun." This was the
first time Dean had a male teacher, and the first time that he felt someone took an
interest in him, encouraging and supporting his schoolwork. By Dean's report, he
stayed out of trouble most of those two years. He also reported helping out an
older, blind woman by "being her eyes."
When Dean was at Alcantra youth facility in February 1969, he was able to
continue with school. His seventh grade teacher initially considered him immature
for his age, easily distracted, and in need of direction and reassurance. (Wasecha
Report, 3 /11/69.) But in March 1969, the same teacher observed that Dean was
unable to work on assignments because he was restless and unable to concentrate.
(Ibid.)
When Dean was released from a youth facility to his parents in fall, 1969, he
entered the second semester of ninth grade as a fourteen year old at Nome Public
School. His academic performance was barely passing, and his attendance
sporadic. (Prob. Rep. of Kenneth E. Brown, 1/25/71; Nome School Records.) His
relationships at home did not improve, but drug use escalated, as is discussed in
more detail hereafter.
The following year (1970), when Dean was fifteen, he entered the tenth
grade, which was the last grade of formal education he would complete. His first
semester attendance was again poor and his grades were failing in each of four
classes. His school attendance and performance for eleventh grade are marked as
incomplete. (Nome School Records.)
As Dean came into adolescence, the dynamics in his family continued
unabated, and he was increasingly rejected and isolated from them and from other
sources of potential support in the community. Although he had above-average
30

Exhibit 78-1043

Petitioner's App. 33 - 599

ER 1027

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 41 of 298
(1233 of 1584)

Filed 09/07/10 Page 31 of 92 Page ID #:1399

intelligence (Psychological Evaluation by Marianne Hagen, Ph.D., 6/1/77; Deel. of
Myla Young, Ph.D.), he consistently had trouble with schoolwork and did not
make significant connections with any teachers who might have helped him out,
other than a relatively short-lived connection with his elementary school teacher
Mr. Mann. School records do not disclose that Dean ever received any
intervention. As neuropsychological and intelligence tests disclose, Dean has
probably compensated for many psychological deficits with above-average
intelligence. (Deel. ofMyla Young, Ph.D.)
Alaska juvenile court and institutional records are consistent with Dean's
recollection of his childhood experience at school. He is observed by one of his
8th grade teachers at Alcantra Youth Camp as an "independent" student but
"restless in class and cannot work at length on assignments ... ," and two years
later as an "intelligent but disoriented youth." (Wasecha Report, 3/11/69; Prob.
Rep. of Kenneth E. Brown, 1/25/71.)
INSTITUTIONALIZATION
When Dean was nine-years old the Carters took the incredible step of
sending him to an orphanage. Over the next seventeen years, from age nine (1964)
to age twenty-six (1981), Dean spent over three-quarters of his life
institutionalized, and, as discussed hereafter, all evidence confirms that in the
institutions where Dean was housed did not provide any therapeutic intervention.
At nine, Dean was sent to a Methodist home for unwanted Native Alaskan
children, Jesse Lee Home, in Seward, Alaska. Parents of the children "either
couldn't or wouldn't raise them, or they were sick." (SDRT 7717; Deel. of Fred
Wemark, Deel. ofFlorita Richardson, and Deel. of Monty Richardson.) Dean was
rejected by his parents, uprooted from Nome, and sent 1,200 miles away to a
strange place, where he received no therapeutic intervention or special education.
31

Exhibit 78-1044

Petitioner's App. 33 - 600

ER 1028

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 42 of 298
(1234 of 1584)

Filed 09/07/10 Page 32 of 92 Page ID #:1400

Many of the children at the home were there because they were orphaned or
their parents suffered from tuberculosis, which was epidemic in Alaska in the
1940-1950's. (Id.) Clearly, there were children who were long-term residents of
the home, and whose parents did love them, but who were unable to care for them
because of illness. (Id.) Dean, on the other hand, entered Jesse Lee Home in
Seward, Alaska, as "unwanted."
Dean describes his experience at the home as that of an "outsider," someone
who again felt rejected and socially ostracized. As those familiar with life at the
home point out, it was not uncommon for the children at Jesse Lee Home to
exclude children such as Dean, because he was identified as someone who would
probably not live with them for long; as a survival mechanism, the long-term
residents rejected the short-term children, such as Dean. (Deel. of Fred Wemark.)
By all accounts, the children who resided at the Jesse Lee Home were
psychologically problematic, yet there were no mental health professionals at the
home, and staff were not specially trained or educated. (Id.; SDRT 7748; Deel. of
Florita Richardson, and Deel. Monty Richardson.) Instead, this was a traditional
dependency home, where Dean was warehoused for lack of a better alternative.
(Deel. of Fred Wemark, Deel. of Flori ta Richardson, and Deel. of Monty
Richardson.) Thus, Dean's initial experience with institutional life, which is a long
one, began without meaningful mental health intervention.
Esther Carter now contends that Jim Carter made all of the arrangements to
send Dean to the Jesse Lee Home. Although she may not have agreed, Esther did
nothing to stop it. "I did not stand up for my son or for my own self." (Deel. of
Esther Carter.) During the months that Dean was at the Jesse Lee Home, the
Carters did not visit him once. (Id.) He received no letters, no Christmas present
and no indication that he was thought about during the time he was away. He felt
32

Exhibit 78-1045

Petitioner's App. 33 - 601

ER 1029

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 43 of 298
(1235 of 1584)

Filed 09/07/10 Page 33 of 92 Page ID #:1401

his family "didn't care about me, so why should I feel close to them?" This was a
recurrent theme that began early in Dean's life, and replayed itself throughout his
childhood and adolescence.
The experience of being sent so far away from his family without any
contact at such a young age, where the importance of maintaining connection is
crucial to one's psychological development, only heightened and intensified the
lack of a caring connection between Dean and his family. (Natl. Register, Jesse
Lee Home.) Dean's feelings of isolation and detachment had deep roots by age
nine, and his experience was reinforced in Seward.
In August 1968, shortly before Dean's thirteenth birthday, he was arrested
for burglary of a home in Nome, and found to be in possession of a handgun. Dean
was made a ward of the juvenile court, and, after an undocumented evaluation, was
placed at Alcantra Youth Camp outside Anchorage. (Prob. Rep. of Kenneth E.
Brown, 9/10/70; SDRT 7772.)
Although he would spend the next fifteen months at the unsecured youth
facility, he ran away (three times), and, was taken to a more secure facility in the
City of Anchorage, McLaughlin Youth Center. (Id.) Dean was one of the
youngest residents at the McLaughlin facility. He was observed by one counselor,
Bertram Matsumoto, as an extremely introverted, shy, immature youth, and was
described by another counselor, Thomas Finegan, as looking like "somebody
rebounding from a flashbulb going off in their face ... , very withdrawn." (SDRT
7760; 772-82) Under close supervision at McLaughlin, Dean appeared to accept
responsibility for job assignments. (Prob. Rep. of Barton Penny, 4/30/73.)
Although much needed psychological services were not provided, Dean was
becoming a well-adjusted "institutionalized" person.

33

Exhibit 78-1046

Petitioner's App. 33 - 602

ER 1030

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 44 of 298
(1236 of 1584)

Filed 09/07/10 Page 34 of 92 Page ID #:1402

On Christmas Eve 1970, at age fifteen, Dean was caught inside a stranger's
home, eating their food. (Finding of Fact, 1/20/71; Prob. Rep. Of Kenneth Brown,
9/10/1970.) He was placed in a foster home in Anchorage after the latter incident.
In the Probation Report of Kenneth Brown prepared for the Alaska Juvenile Court,
January 25, 1971, the officer wrote, "there is some evidence that indicates that he
wanted to be caught in order to escape his home situation and to get out of Nome."
(Id.)

Officer Brown noted that "inter-family relationships" in the Carter home
were "very poor." (Id.) He confirmed that James Carter "resents Dean ... ," and
Esther Carter informed him that "she prefers to give her attention to Jerry." (Id.)
Upon interviewing Esther and James Carter, Officer Brown observed that Dean's
parents "just cannot understand what is wrong with their son [and] Mrs. Carter told
me on many occasions that she has just given up on Dean ... , [because] in their
view he seems to have been "born a bad egg." (Id.) In his words, Dean evidently
did not receive the attention and guidance that he wanted and needed at home.
(Id.) He aptly suggested to the juvenile court that Dean's "developmental problems

began very early in life due to a rather neurotic family arrangement." (Id.) Officer
Brown recommended a foster home placement in lieu of juvenile detention facility
because "what he has never had and what he desperately needs is a stable and
loving home." (Id.)
Dean was sent to Anchorage in February 1971, and spent eight months in the
foster care of Dale and Patricia Rymer at Fort Richardson in Anchorage, Alaska.
(Prob. Rep. of Barton Penny, 4/30/73.) Virtually nothing is known of the Rymers,
but Dean did attend A.J. Dimond School in Anchorage, a high school that was part
of the Alaska juvenile correctional system. (Psych. Eval. by Marianne Hagen,
Ph.D., 6/1/71.)
34

Exhibit 78-1047

Petitioner's App. 33 - 603

ER 1031

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 45 of 298
(1237 of 1584)

Filed 09/07/10 Page 35 of 92 Page ID #:1403

On July 11, 1971, Dean was arrested for joyriding, breaking and entering,
and assault, accompanied by his foster "brother," Bill Crismore. Dean was again
adjudicated ward of the Juvenile Court and placed in custody at the secured
juvenile facility at McLaughlin in Anchorage. (Prob. Rep. of Barton Penny,
4/30/73.) From July 1971-July 1972, Dean was housed at McLaughlin Youth
Center. (Id.) During the year that he was at McLaughlin, Dean reports working at
a cafeteria at Alaska Methodist University, and taking up boxing through Golden
Gloves.
Dean, as always, was not a disciplinary problem at McLaughlin, according
to youth counselors Finegan and Matsumoto, who once again supervised him.
(SDRT 7762; 7768; 7778; 7782.) Dean described McLaughlin Youth Center as a
"warehouse for kids," a place " where he learned about life" and "a way out of
Nome." He acknowledges that he learned about cooking there, and was able to
obtain a job using those skills at the Alaskan Methodist University's snack bar in
Anchorage.
Dean was released into his parents custody in Nome in July 1972, and at
seventeen years-three months, he enlisted in the United States Army, November 1,
1972. Within the month he was reported Absent Without Leave from the U.S.
Army post at Fort Ord, Monterey, California, where he was in basic training; he
was disciplined, but reinstated. (Prob. Rep. of Barton Penny, 4/30/73; Memo to
Barton Penny, 4/5/73; Enlistment Contract and Article 15 Records, 11/1/72,
11/18/72.)
In February 1973, Dean was arrested in Salinas on suspicion of burglary and
joyriding, but charges were dropped; he was "AWOL" again in early March 1973.
After this incident, Dean was discharged from the Army. (Id.)

35

Exhibit 78-1048

Petitioner's App. 33 - 604

ER 1032

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 46 of 298
(1238 of 1584)

Filed 09/07/10 Page 36 of 92 Page ID #:1404

With "no sense of direction in his life," Dean at seventeen years eight
months, returned to Alaska. (Prob. Rep. of Barton Penny, 4/30/73.) In Ketchikan,
Alaska, which is at the southern tip of Alaska, Dean and other juveniles, broke into
several local businesses in Ketchikan, and Dean was arrested and charged with
burglary. (Id.) Dean claimed he was trying to obtain money to make the return
trip to Nome; he admitted the allegations in the charging petition. (Id.) Dean's
parents refused to participate in juvenile court proceedings, and the Probation
Officer assigned Dean's case, Barton Penny, referred to earlier records in his
assessment of Dean's family situation. (Id.) Although Dean again made light of
his parents' rejection, he expressed a desire to return to Nome. Dean candidly
admitted though that he was "unable to cope with the way he [James Carter] teases
him and shows favoritism to the other children." (Id. at 4.) Mr. Penny referred
Dean for mental health evaluation and recommendation as to whether Dean should
be treated as a juvenile or adult. (Id.)
On April 13, 1973, Donald B. Kennoyer, a Clinical Psychologist at Gateway
Community Mental Health Center, recommended that Dean be treated as a
juvenile. (Kennoyer Report, 4/13/72.) Dr. Kennoyer found Dean "quite likeable,"
and made a "strong recommendation that the boy be handled as a juvenile in court
...." (Id.) Dr. Kennoyer concluded, "I do not feel that the prognosis for the boy is

exceptionally good, but any method of treatment to be effective, must involve
some personality reintegration along the lines of developing both emotional and
social maturity and personal responsibility ... , with well defined routines
including personal counseling where the intent of the treatment is to help develop
personality responsibility." (Id.) Dean, unable to comprehend his motives,
describes his reason for committing burglaries in terms, such as, "it seemed like a
good thing to do" and "it was a dumb thing to do ...." (Prob. Rep. of Barton
36

Exhibit 78-1049

Petitioner's App. 33 - 605

ER 1033

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 47 of ~839 of 1584)

Filed 09/07/1D Page 37 of 92 Page ID #:1405

Penny.) The Probation Officer, Barton Penny, recommends Dean be treated as a
juvenile because, among other things, he is "impulsive ... remains immature ... ,
[and] has no sense of direction in his life .... " (Id.) As others had learned, Mr.
Penny also found he was "unable to communicate with Mr. and Mrs. Carter, [and]
the record has been very revealing as far a determining their attitude and concern
for Dean's present circumstances ... , [that is] they have resigned themselves to the
[alleged] fact that " Dean must have been born bad." (Id.)
The juvenile court in Juneau, Alaska, committed Dean to a further term of
detention, and upon interstate acceptance, he was transferred to California Youth
Authority in Stockton, California in May 1973. (Memo of Classification
Committee, 5/8/73.) By his eighteenth birthday ( - 1 9 7 3 ) , Dean had spent
three months at the California Youth Authority in Stockton, and he remained in
CYA custody for next six months before being released on parole in Northern
California. (Dept. of Youth Authority, 5/15/72; Prob. Rep. of Barton Penny,
4/ 30/73.) Although some records were retained in the Alaska Department of

Corrections' file, no records have been located at CYA itself. What is known,
however, is that Dean was committed to the California Youth Authority in May
1973, and released roughly six months later; his time was divided between the
DeWitt Nelson Vocational Center in Stockton and at the Ben Lomond Camp in
Ben Lomond, California.
As was the case with McLaughlin Youth Center in Anchorage, DeWitt
Nelson and Ben Lomond facilities provided another form of regimentation and
structure for Dean, but he received no therapeutic intervention there, or anywhere
else in the juvenile justice system. Dean was never reported to be violent or out of
control in an institutional setting, but, in fact, from his childhood experience in
Jesse Lee Home through his last term in a juvenile facility he appears to have
37

Exhibit 78-1050

ER 1034
Petitioner's App. 33 - 606

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 48 of i!lB40 of 1584)

Filed 09/07/10 Page 38 of 92 Page ID #:1406

become the kind of "institutionalized" individual who performed well in a
structured setting. (See, Testimony of J. W. L. Park [SDRT 8183-8201].)
As demonstrat ed by mental health evaluations conducted in 1974, the
anxious, depressed young man, who was described by McLaughli n Youth Center
counselor Thomas Finegan in 1969, as looking like "somebody rebounding from a
flashbulb going off in their face ... , [and] very withdrawn" (SORT 7760-61; 7772-

7821 ), has not been positively influenced by his experiences in the juvenile
institutions to which he was committed.
By Dean's nineteenth birthday (-

1974) he had traveled back to

Alaska, met up with a foster brother (Bill Crisrnore) from Anchorage, and drove
with him to California. Dean was arrested in Corvallis, Oregon, in August 1974
for possession of hashish oil; he served 60 days in a county jail in Oregon. (S.R.
Sobel Case History Report, 1/17/95.)
Shortly after his release, Dean was arrested for burglaries committed on or
about November 19, 1974, convicted, and sentenced on or about December 20,
1974, to Oregon Departmen t of Corrections to serve three years in prison. (Id.)
Upon entry into the Oregon penal system, Dean was evaluated by a counselor who
observed him to exhibit "anxieties, nervousness, fears, tension and depressed mood
... ," and he further described Dean as "inunatur~, undirected young man of
average intelligence." (S.R. Sobel Report, 1/17/75.) Sobel noted Dean "likes to
think of himself as 'footloose and fancy free."' (Id.) And also he observed that
Dean "[a)ppears to have a rather inadequate self-concep t, [and] claims his major
strengths are ' being able to hide his feelings."' [Sic]. (Id.)
Dean remained in prison through the next two years ( 19-21) and was
released from prison in March 1977. (Oregon Correctional Entry/Discharge Form,

3/3/77.) In May 1977, at age twenty-one, Dean, was arrested for burglary again.
38

Exhibit 78- 1051

ER 1035
Petitioner's App. 33 - 607

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 49 of 298
(1241 of 1584)

Filed 09/07/10 Page 39 of 92 Page ID #:1407

YOUNG-AD ULT PSYCHOLO GICAL EVALUATIONS
While in Anchorage, in June 1971, at age fifteen, Dean was evaluated by a
mental health professional, apparently for the first time. At Dean's request, his
youth counselor, Mr. Bader, referred him to counseling so that he could qualify for
a work program. (Id.) Marianne Hagen, Ph.D., evaluated Dean for promotion into
a program at A.J. Dimond School, an alternative high school in Anchorage, where
Dean was attending the tenth grade. (Psych. Eval. by Marianne Hagen, Ph.D.,
6/1/71.)
Dr. Hagen determined that Dean functioned with "the basic ability and
academic skills necessary to function in high school ... ," but she found that his
"primary difficulties center around his difficulties with relationships, a tendency to
over-react, and a high anxiety level." (Id.) She referred to "Dean's perceptual
skills [as] generally good but again in this area there is distress which is apparently
caused by his high anxiety level and other emotional adjustment difficulties." (Id.)
She viewed test data as supportive of general level of intellectual functioning
within the "high average range except in areas that are sensitive to an emotional
tension of anxiety." (Id.) He was observed to mask his anxieties with an evasive,
breezy, hands off approach, but because of "high anxiety and other emotional
adjustment difficulties ... , Dean tends to build up to a point of over-reaction ... ,
and perhaps some breaks in judgment." (Id.) She foresaw a "pattern of emotional
response [that] will continue to create problems for him." (Id.) Once again, there
was no indication of therapeutic intervention, and Dean was left to cope with his
feelings of anxiety and isolation alone.
After his 1974 arrest and conviction, a psychiatrist, J. Rennebohm, M.D.,
saw Dean four times within four months (January-May, 1975). (Rennebohm
Reports, 1/17/95; 4/3/75; 5/1/75; 5/29/75.) Dr. Rennebohm described nineteen39

Exhibit 78-1052

Petitioner's App. 33 - 608

ER 1036

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 50 of 298
(1242 of 1584)

Filed 09/07/10 Page 40 of 92 Page ID #:1408

year-old Dean as of above average intelligence, but "[d]ynamically, it would
appear that he has operated much of his life with goals that are rather vague, an
uncertain sense of self, and, somehow, an especially active conscience ... [and] it
is, therefore, that much of his thinking revolves around self-reproach." (Id.) In
this initial report,
Dr. Rennebohm notes Dean's "problems are essentially those of chronic
anxiety tension recently aggravated by a depression condition." (Id.) Dr.
Rennebohm prescribes Sinequan for symptoms of depression and insomnia. (Id.)
Dr. Rennebohm interviewed Dean again on April 3, 1975, and he described him as
engaged in "a substantial measure of conscience activity ... and committed to
doing right and staying out of trouble ... [but] he does not have a clear-cut sense
of personal identity ... and that which is present includes a strong inclination
toward self-disdain." (Rennebohm Report, 4/3/75.) Dr. Rennebohm alters his
prescription, and orders Prolixin and Librium to alleviate problem[ s] of anxiety
and depression, which has been manifested mainly in insomnia and irritability. It
(Id.)
Dr. Rennebohm next saw Dean on May 1, 1975, prescribed Benadryl and
continued Librium, but noted "the prospects for definitive and constructive action
on his part in this regard [rehabilitation] does not appear strong .... "
(Rennebohm Report, 5/1/75.)
Dr. Rennebohm last saw Dean on May 29, 1975, and again ordered
continuation of Benadryl and Librium, but wrote, Dean "is, however, still
markedly anxious, which is an indication that his conflicts are not yet fully
resolved." (Id.)
After his May 1977 arrest, a court-appointed psychiatrist, Robert
McManmon, M.D., described "repeated non-violent offenses and no history of
40

Exhibit 78-1053

Petitioner's App. 33 - 609

ER 1037

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 51 of 298
(1243 of 1584)

Filed 09/07/10 Page 41 of 92 Page ID #:1409

alcohol abuse [with a] history of depressive symptoms ... [who] tend[ s] to see
things in a rather concrete way with little insight .... " (McManmon Report,
11/18/77.)
Two years later (age 23), while at Eagle River Correctional Facility in the
Alaska State Department of Corrections, Dean was examined by prison
psychologist, Kathi Smith, Ph.D. (Report of Kathi Smith, 3/22/78.) While raw
data is not supplied, Dr. Smith reports that after administering the Minnesota
Multiphasic Personalty Inventory (MMPI), results are indicative of a young man
who is "somewhat depressed, restless, and having difficulty controlling impulse."
(/d.) She suggests data "raises the question of [unspecified] psychiatric problem."

(Id.)

USE OF ILLICIT DRUGS
Dean recalled that he began using drugs during the time he was committed
to McLaughlin. He described trading cigarettes for psilocybin from an older boy at
the Youth Center, and said it made him "laugh and have waves of good feeling,"
which was different from his usual emotional experience. After he began working
at the university's snack bar, he met students there who sold him LSD, and others
offered him opium-cured marijuana in their dorm rooms. He reported that
although McLaughlin was intended to be a structured, strict environment, it was
easy for the youths to engage in drinking and substance use without the counselors'
knowledge or guidance.
Dean used LSD and other psychoactive drugs frequently throughout his
youth and into adult life. He describes use of psychoactive substances and
methamphetamine. In a September 7, 1972 medical examination for military
service he described use of LSD fifteen times, amphetamines three times, and
marijuana occasionally. (Military Exam Records, 9/7/72.) Dean described his
41

Exhibit 78-1054

Petitioner's App. 33 - 610

ER 1038

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 52 of 298
(1244 of 1584)

Filed 09/07/10 Page 42 of 92 Page ID #:1410

early use of psychedelic drugs as causing "bad trips." Dean was reportedly also
using "speed" when he was arrested in Oregon in 1974, and at the time of his
evaluation (January 1975), complained of"frequent dizziness." (S. R. Sobel Rep.,
1/17/75, p. 3.) As pointed out, Dean's use of alcohol as a juvenile is minimal; use
increases only after he is paroled in 1979 from Alaska Department of Corrections.
(LART 5898; 5873.) He attributes his abstention from alcohol prior to that time as
a reaction to the affects of alcoholism in his own family and community, where
alcoholism is rampant. In addition, at age I 0, he seems particularly effected by
learning that a neighbor had frozen to death while drunk.
At the time of the capital crimes, Dean was using cocaine heavily and had
developed a serious cocaine dependency. By 1981, Dean was considered a
"regular" drug user by his friends. (LART 5854.) In 1983, Dean was referring to
cocaine as "marching powder." (LART 5847.) In December of 1983, a friend saw
Dean in the airport and "he didn't look like he used to. He was kind of slouchy
and kind of dirty. His hair wasn't combed back. His eyes were red and he was
shaky .... he just looked horrible." (LART 5848.) In late 1983, early 1984,
Dean's drinking and cocaine use had escalated to the point it appeared "out-ofcontrol." (LART 5869.) And friends noted he was withdrawn and depressed.
(SDRT 8011-12.) In March of 1984, a female friend described Dean as high most
of the time. (SDRT 3820-3909.)
OPINIONS AND CONCLUSIONS

Dean's maternal and paternal family history is marked by significant
pathology in the form of fetal exposure to alcohol; marital violence; rampant
parental alcoholism; ethnic discrimination; severe and malignant emotional
neglect, physical abuse, and psychological maltreatment. This was the context into
which Dean was conceived and subsequently entered life. These events led to
42

Exhibit 78-1055

Petitioner's App. 33 - 611

ER 1039

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 53 of 298
(1245 of 1584)

Filed 09/07/10 Page 43 of 92 Page ID #:1411

Dean's development of cognitive impairment, extreme deficits in affect and
behavior regulation, maladaptive and rigid problem solving, and a range of
psychiatric disorders.
Dean's early institutionalization and recurring out-of-home placements,
while accomplishing the goal of separating him from a rejecting and abusive
family, did not provide the necessary psychological treatment that he desperately
needed. In addition, because his parents never came to visit him, it only reinforced
his belief that he was unlovable and alone in the world. After each placement,
Dean was returned to his family, with the only change being his parents'
heightened conviction of their son's inherent "defectiveness," with no insight that
they were the cause of his physical and mental condition.
Research on children's reactions to traumatic and stressful life events
indicates that single, acute stressors are not necessarily associated with
significantly increased risk of psychological disorder in adolescence or young
adulthood. However, multiple stressors and traumas, especially of a chronic
nature, places children at far greater risk for psychopathology in later life.
Multiple stressors and traumas do not have an additive effect, but tend to combine
exponentially. For all types of childhood trauma, dimensions of severity and
chronicity have been associated with the most deleterious psychological outcomes.
The specific childhood traumas in Dean's life will first be described with relevant
examples provided, followed by the long-term psychological effects.
Neglect
Neglect is the failure to provide basic necessities that endangers the child's
well being. Neglect can result in damage to the child's physical, emotional, social
or intellectual development. Neglect includes, but is not limited to, such categories
as: (a) inadequate supervision: the child is left alone for inappropriate periods of
43

Exhibit 78-1056

Petitioner's App. 33 - 612

ER 1040

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 54 of 298
(1246 of 1584)

Filed 09/07/10 Page 44 of 92 Page ID #:1412

time given the child's age; the parent or care giver is drunk or under the influence
of drugs while the child is in their care; the parent or caregiver pays no attention to
the child's schooling needs; (b) inattention to physical needs: no awareness of the
child's need for nutritious food, adequate clothing, and/or personal hygiene; (c)
abandonment: the child is deserted without making prior arrangements for
reasonable care and supervision; (d) emotional neglect: the child lacks positive
emotional support or stimulation from the parent or caregiver; (e) medical and
educational neglect: failure to provide adequate and necessary medical and mental
health care, and appropriate educational services.
Dean was exposed to at least three forms of neglect that have been
corroborated during his childhood and adolescence: inadequate supervision by his
parents; emotional neglect; and medical and educational neglect. However, it is the
chronic emotional neglect and rejection that is the underpinning of all forms of
abuse and contributes to the most devastating outcomes for the child. Chronic
emotional neglect leads to a deep sense of defectiveness, believing one is unloved
and unlovable, and feeling alone in the world. Infants and children learn to cope
with these extreme situations by deactivating or suppressing their emotional need
for connection and/or defensively acting as if they do not need love and attention.
If their attachment figure is not there to soothe them in times of distress, they have
no other option but to shut down emotionally. When the parent returns, they may
seek soothing or attention, even if the parent is not likely to respond. For example,
even after years of abuse and neglect, Dean still did not want his mother to leave to
go drinking, and jeopardized his own life to stop his mother from leaving him, as
described by his brother Jerry. Dean came to understand that alcohol and its pursuit
were unquestionably a higher priority to his parents than his own emotional and
physical welfare.
44

Exhibit 78-1057

Petitioner's App. 33 - 613

ER 1041

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 55 of 298
(1247 of 1584)

Filed 09/07/10 Page 45 of 92 Page ID #:1413

When Dean's parents were not under the influence of alcohol, they
continued to neglect his emotional needs and pay whatever attention they were
capable ofto Jerry, Dean's older half-brother, and later on, to Dean's two younger
half-sisters, Pollyanne and Goldie. Dean recalled that his parents did not talk with
him, did not try to understand him, and he felt like an outsider in his own family.
When he was sent to the Jesse Lee Home, he was in effect, emotionally abandoned,
since there was no contact with his parents or brother during the time he lived at
the Home. Even though the Carter family might not have had the financial
resources to visit or telephone their son, there was nothing preventing them from
sending a letter-even once-to reassure Dean of their concern and care. From
Dean's perspective, the lack of contact when he was so far away further validated
his core belief that his mother and stepfather fundamentally did not love him or
care about what happened to him. For a young boy (nine years old), a six-month
separation from one's family is experienced as a much longer time, since young
children perceive time differently than do adults.
Neglectful parents tend to ignore or fail to see their children's physical or
emotional needs. Chronic neglect often results in too little cognitive and social
stimulation, a lack of necessary routines, and can result in children experiencing
danger due to lack of supervision.
Dean's parents failed to obtain appropriate medical, mental health and
educational services for him. Early intervention is key to mitigating the effects of
early neglect and abuse on children, and this opportunity was lost, not only by the
Carter's family but by deficiencies in Nome's educational system and the juvenile
justice system.
Dean did not receive corrective lenses, for example, until he was nine years
old and at the Jesse Lee Home, even though his eyesight had been poor prior to
45

Exhibit 78-1058

Petitioner's App. 33 - 614

ER 1042

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 56 of 298
(1248 of 1584)

Filed 09/07/10 Page 46 of 92 Page ID #:1414

that time. In addition, although Dean evidenced problems in attention and
concentration and had difficulty arriving at school on time or at all, no one made
the decision to have his educational skills formally addressed, or for him to have a
psychological evaluation, or to have the family involved in school meetings with
teachers to identify obstacles that were hindering Dean's potential for success.
The reasons for Dean's educational and mental health neglect may be
complicated by several other factors, including: a) his stepfather's status as Chief
of Police for the City of Nome and reputation as a strict disciplinarian, i.e.,
teachers may have been intimidated by James Carter; b) Dean's mixed ethnicity or
"half-breed" status, denoting second-class treatment; and/or c) limited awareness
that children's acting out behavior may be a "cry for help" that is emanating from
depression, anger, isolation, emotional rejection, physical abuse, or other
complicated feelings and situations. Regardless, Dean did not receive a
psychological evaluation until he was fifteen years old. Although Dr. Hagen
identified several areas of concern, Dean did not receive counseling or therapy for
the problems indicated, e.g., low scholastic achievement given his above-average
intelligence level, high anxiety, tending to over-react emotionally and have lapses
in judgment in the face of anxiety.
Physical Abuse
Physical abuse is defined as the non-accidental infliction of physical force
by parents or caregivers against a child that results in injury. These acts are judged
by a combination of community and medical standards to be outside the realm of
healthy childrearing. The abusive behavior that was perpetrated against Dean by
his mother and stepfather would have qualified as physical abuse by child
protective service workers. Dean's parents used objects to inflict their discipline,
including a barber shop strap, leather belt, switch, extension or electrical cord, a
46

Exhibit 78-1059

Petitioner's App. 33 - 615

ER 1043

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 57 of 298
(1249 of 1584)

Filed 09/07/10 Page 47 of 92 Page ID #:1415

boot, and a shoe, and their fists; all of which left painful bruises and welts that
discolored Dean's skin and made it difficult for him to sit or lay down. James
chained Dean to the bedpost, outside, and other places with his wife's support,
sometimes up to two weeks at a time with only bathroom breaks allowed.
Unlike the insidious and slowly evolving effects that chronic neglect can
have, physical abuse is experienced as an overwhelming assault on the child's
physical and psychological being. Children are ill equipped to process these
traumatic events and the subsequent terror they evoke, and have little choice but to
"cope" the best ways they can. These coping strategies may include withdrawal,
avoidance, fantasy, and in the most severe cases, dissociation. If the victim does
not have access to good intervention to help process these traumatic events, then
the associated terror and rage originally experienced with the trauma can be
reactivated (e.g., feeling criticized or rejected can trigger intense and
overwhelming emotional reactions).
Harsh, punitive, and abusive behavior can often have opposite effect of what
was intended. The more that James and Esther were physically brutal to Dean, the
more he wanted to stay away from home to avoid their mistreatment, and the more
their behavior validated his core belief that he was unwanted by them. The
situation ultimately escalated to his first institutional placement at the Jesse Lee
Home, where he followed the program's structure and found respite from the
abuse. No one in the schools or community attempted to investigate why Dean
insisted on staying away from home so frequently.

Psychological Maltreatment
Experts believe that psychological maltreatment almost always accompanies
other forms of abuse and neglect, and that it is often more destructive in its impact.
Psychological maltreatment is defined as a pattern of behaviors and/or
47

Exhibit 78-1060

Petitioner's App. 33 - 616

ER 1044

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 58 of 298
(1250 of 1584)

Filed 09/07/10 Page 48 of 92 Page ID #:1416

verbalizations that jeopardize the child's psychological development, including
self-esteem, social competence, and the capacity for intimacy and for healthy and
positive interpersonal relationships. It includes acts of terrorizing, spurning,
isolation and corruption.
Terrorizing involves situations that stimulate intense fear and dread, and
create an atmosphere of unpredictable threat of brutal punishment. Situations in
which loved ones threatened with, or sustain injury, are also considered terrorizing
for children. In Dean's family, observing his mother's physical violence against
his father was an example of terrorizing behavior. There were times that Dean and
his brother, Jerry, intervened to stop the escalating violence, with Dean attempting
to subdue his mother, who was the more violent and unpredictable of the two
parents. Other examples of terrorizing situations were when Dean was the object
of his mother's anger, and he experienced brutal beatings from her and from his
stepfather. Jerry was also physically beaten, although much less frequently than
Dean, but observing his brother's beatings was yet another category of terrorizing
behavior.
Children's frequent experiences of terrorizing situations can produce
emotional flooding of fear and dread that can overwhelm a child's ability to
modulate his emotions, especially painful ones. When children have difficulty
with emotion regulation, they tend to over-or under-react to emotional situations,
sometimes alternating widely between the two, and they may also feel excessive
anxiety and have little to no ability to calm themselves down when they do feel
anxious or fearful.
Spuming includes acts of hostile degradation and rejection. Degradation
refers to behaviors or verbalizations that shame or humiliates a child, whereas
rejection is defined as behaviors or verbalizations that communicate to the child
48

Exhibit 78-1061

Petitioner's App. 33 - 617

ER 1045

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 59 of 298
(1251 of 1584)

Filed 09/07/10 Page 49 of 92 Page ID #:1417

that they are neither valued nor loved. Scapegoating also can be included under
the category of spuming, which is when one child is identified and blamed for
causing all the problems of the family. In Dean's situation, he was clearly
identified as the "problem child" of the Carter family, and treated dramatically
different than his brother, Jerry, as described above in paragraph 34 by neighbors
and other adults in the community.
Dean was rejected by his mother and stepfather, and treated as though he
were an "outsider" rather than a family member. Consistent rejection and
scapegoating, coupled with abusive and neglectful caretaking, communicated to
Dean that he was unworthy, unwanted, and "bad." He lacked parental guidance to
help him pursue a direction, which was highly unfortunate, since his above-average
intelligence could have been channeled into several directions, but it went
unnoticed and unappreciated.
Isolation refers to separating the child from others, such as not allowing
them to leave the house or locking them in a closet or room so that they cannot
pursue developmentally relevant activities with their peers. Dean experienced this
category of psychological maltreatment when he was chained to the bedpost for
days at a time, up to two weeks, only being allowed bathroom breaks. He was not
allowed to have friends over to his house, nor participate in activities that would
have been appropriate for his age group (seven to eight years old). Dean perceived
his parents' actions as treating him like an animal, and not caring about he impact
of their behavior on him.
Corrupting refers to parents and caregivers modeling pathological behavior
that encourages or reinforces antisocial, deviant, or destructive conduct. This type
of behavior can negatively distort a child's perspective of others and what he can
expect from being in relationship to another. In Dean's case, his parents engaged
49

Exhibit 78-1062

Petitioner's App. 33 - 618

ER 1046

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 60 of 298
(1252 of 1584)

Filed 09/07/10 Page 50 of 92 Page ID #:1418

in patterns of explosive, violent behavior and alcoholism, without recognizing or
caring about the psychological effects of these behaviors on Dean or the other
children.
The Effects of Child Maltreatement
In summary, Dean experienced multiple traumatic events, including
pervasive neglect, physical abuse, and psychological maltreatment in forms of
repeated terrorizing, spuming, isolating, and corrupting behaviors. The physical
abuse that Dean experienced existed against a daily backdrop of parental emotional
neglect, empathic failure, limited understanding of children's developmental needs
beyond providing the physical basics of shelter, food and clothing, and
psychological cruelty. Any one of these parenting practices has been associated
with poor mental health outcomes for children. The combination of child abuse
and emotional neglect occurring during critical developmental stages of Dean's life
(e.g., beginning in early childhood and continuing through adolescence),
witnessing domestic violence and discord, impaired general parenting, exacerbated
by parental alcoholism, and multiple out-of-home placements, put Dean at
significant risk of impaired psychological development and social functioning.
Moreover, it should be noted that the main perpetrators of abuse were
Dean's parents: the effects of maltreatment on children are especially pronounced
when the abuser is someone whom the child would normally seek for caretaking
and protection. This situation places the child in the untenable position of
experiencing fear without solution: the very person whom they seek for protection
is also the source of their fear. Abuse interferes with the child's ability to trust, feel
secure and safe in their relationships, and perceive the world as a positive, or at
least a relatively benign place to live.

50

Exhibit 78-1063

Petitioner's App. 33 - 619

ER 1047

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 61 of 298
(1253 of 1584)

Filed 09/07/10 Page 51 of 92 Page ID #:1419

Parenting styles and children's self-regulation. Research and clinical
literature on parent-child relationships has long documented the association
between child and adolescent psychopathology and parenting or family
dysfunction. Child maltreatment is an extreme example of disturbance involving
the parent-child relationship and places children at even greater risk of psychiatric
and psychological difficulties. Traumas such as neglect, physical abuse, and
psychological maltreatment has been shown to interfere with healthy development
of behavioral self-control; emotional understanding, tolerance and expression;
social judgment and interpersonal relationships; and perceptions of the self and
others.
Dean was exposed to extremes in parenting behavior from neglect with little
or no adult guidance, to unpredictable violent outbursts of anger, authoritarian
caregiving, with the emphasis on severe restriction and domination through fear.
Each one of these parenting styles has been associated with behavioral and
interpersonal difficulties, and the alternating combination is particularly
detrimental to the development of healthy behavior regulation. Under favorable
conditions, parents help children to develop their own self-regulatory mechanisms
(i.e., the ability to stop disruptive behavior and engage in socially acceptable
behavior) by providing structure, consistency, and appropriate consequences for
specified actions. Children and parents shape each other in this process, as parents
gradually change their expectations over time to match the increasing cognitive
and emotional maturity of their children. The majority of evidence indicates that
reliance on authoritarian, power-assertive and excessively physical means of
punishment is associated with elevated rates of aggression, impaired self-control,
and poor social competence in peer relationships. Rather than developing internal

51

Exhibit 78-1064

Petitioner's App. 33 - 620

ER 1048

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 62 of 298
(1254 of 1584)

Filed 09/07/10 Page 52 of 92 Page ID #:1420

mechanisms to regulate one's behavior, an abused child such as Dean learns to
focus outward on surviving others' disregulated assaults.
Reliance on external versus internal structure. According to probation
reports, Dean tended to do well in juvenile facilities and responded to a clear
external structure. Unfortunately, but not unexpectedly, he was unable to maintain
that structure in his life when he returned to Nome and to his family and home.
One of the problems with programs for juvenile offenders, and it certainly is the
case here, is the lack of family involvement and follow-up services, so that the
youth goes back to the same environment that contributed to the problematic
behavior without an effective plan to continue what change might have been made.
Abusive, authoritarian, and unpredictable child rearing practices like those of
Esther and James' actually encouraged Dean to rely on external structure rather
than develop his own internalized behavior guidelines. He was a lost soul, trying
to avoid the place that clearly gave him the most physical and emotional pain, but
without a clear idea of what he was heading towards.
Emotion regulation. Healthy emotional functioning involves the ability to
identify and experience a range of positive and negative emotional states, to
regulate one's expression of emotion, as well as to empathize with another's
emotional experience. Seriously disturbed parent-child relationships and children's
experience of trauma at the hands of parents or caregivers often interferes with
healthy emotional development, such that children and adolescents may have a
limited and shallow range of affect, difficulties with emotion regulation, problems
tolerating painful emotional states, evidence a mood disorder, feel cut off and
emotionally isolated from others or lack empathy for others' situations.
For Dean, the emotional isolation, anxiety, sadness, and other painful affects
associated with the traumas he experienced was too overwhelming to be processed
52

Exhibit 78-1065

Petitioner's App. 33 - 621

ER 1049

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 63 of 298
(1255 of 1584)

Filed 09/07/10 Page 53 of 92 Page ID #:1421

fully. Because he suffered emotional deprivation and neglect from very early
childhood, he had little to no exposure of being soothed and having a caring person
help him gradually increase his tolerance for different negative affective states.
Consequently, his ability to soothe himself was extremely limited and he resorted
to running away, withdrawing, and spacing out, as ways to escape painful affect.
Over time, he added substance use as another way to cope with dysphoria and
stress. All of these strategies had a short-term gain ofrelieving the immediate
stress and discomfort, but the long-term trade-off was that Dean developed
extremely limited psychological responses to cope with negative affective states.
Moreover, Dean essentially lacked an emotionally constructive support system that
could help him with these tasks. Caregivers were either medicating their own
emotional pain by abusing substances or were unmodulated in their emotional
reactions towards Dean.
Interpersonal relationships. Children and adolescents who have suffered
extensive neglect and abuse almost invariably have difficulties with interpersonal
relationships. Because the neglectful and abusive treatment occurred in the context
of an interpersonal relationship, destructive patterns of relating have been
experienced as the normal way of being with others, and setup specific
expectations for future relationships. Adults maltreated as children such as Dean
often describe difficulties being able to trust others; expect rejection and
abandonment; dread being made vulnerable, humiliated, powerless or betrayed;
crave closeness but fear intimacy; can be overly dependent in relating to others
once they have found someone with whom they can be intimate, and may not see
the other person's strengths and limitations realistically, but through the filter of
their own needs and past experiences.

53

Exhibit 78-1066

Petitioner's App. 33 - 622

ER 1050

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 64 of 298
(1256 of 1584)

Filed 09/07/10 Page 54 of 92 Page ID #:1422

Dean's experience of extreme rejection by his mother was likely to cause
him to become exquisitely sensitive to rejection by others, particularly women.
Extreme parental rejection causes a child to both believe that he is unlovable and
unlikely to receive love from others. When these dynamics, and the resultant
internal models of self and others, are combined with severe unresolved trauma, an
incident of interpersonal rejection could potentially cause an individual to become
flooded with powerful and overwhelming emotions of fear and anger. If that
individual has not learned how to regulate strong affect, it could lead to devastating
consequences.
The toll of physical abuse, domestic discord and violence on children's
emotional development and problem solving abilities can be extensive. Dean
observed adult emotional behavior that was repeatedly explosive, labile, and
unpredictable. His parents did not comfort him after he witnessed their brutal
attacks on one another or on himself, nor did they engage in other parenting
behaviors that could facilitate Dean's ability to soothe himself when faced with
stress. Dean's parents did not resonate with their son's emotional life and were not
emotionally available to respond to him empathically.
Parents and caregivers who are emotionally responsive and attuned to their
children, who provide a balance between soothing and stimulating activities, play a
critical role in helping their children modulate their own physiological arousal.
Clearly, this was not the case for Dean. In addition, caregivers who continually
"solve" interpersonal conflict through dominance, threat or violence fail to model
constructive ways to resolve differences of opinion or strong emotions. Children
who observe this destructive interactional style tend to have a limited repertoire of
problem solving strategies themselves, especially when they are in the midst of
stressful and emotional situations.
54

Exhibit 78-1067

Petitioner's App. 33 - 623

ER 1051

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 65 of 298
(1257 of 1584)

Filed 09/07/10 Page 55 of 92 Page ID #:1423

Based on psychological reports and others' perceptions, Dean was
withdrawn, anxious, and had difficulty modulating his behavior and emotions in
the face of stress, was described as "over-reactive," rather than someone who could
make clear, assertive, mature and flexible responses to problems encountered. He
was also at risk for using substances to block uncomfortable feelings rather than
being able to tolerate them on his own or with the help of others.
The developing self. Research and clinical findings indicate that some of
the most devastating effects of childhood maltreatment are on the individual's
lowered sense of self-worth, self-understanding and self-efficacy. When parents
and caretakers' neglect, assault, reject and degrade their children, they
communicate a lack of basic respect. Without formal (e.g., therapy) or informal
(e.g., a supportive relationship with an adult) intervention to counter the effects of
such treatment, these children are at risk for internalizing the deleterious messages
about themselves, and may develop a working internal model of the self that is
unworthy, ineffective, incompetent, and unable to be self-reliant.
Abusive parenting practices not only contribute to low self-esteem but a
sense of inner, core badness. Dean's parents believed that Dean was "born bad,"
and took no responsibility for their own contribution to the problems with which
their son struggled. Dean had difficulties recognizing and sustaining the positive
attributes and talents that he had, particularly during stressful times.
MITIGATION EVIDENCE AVAILABLE AND ACCESSIBILITY TO
RESEARCH DATA.
The mitigation evidence presented in the penalty phase of Dean Carter's trial
did not adequately reflect the type of information that could have been presented to
the jury. A psychologist presented with the material provided to me could and
would have been in a position to identify child abuse, neglect, psychological
55

Exhibit 78-1068

Petitioner's App. 33 - 624

ER 1052

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 66 of 298
(1258 of 1584)

Filed 09/07/10 Page 56 of 92 Page ID #:1424

maltreatment, domestic violence and its effects, as well as cultural and other useful
information about Dean's unique life history. A qualified expert could and would
have concentrated on the effects of these experiences, and in combination with
other factors, such as, the unique cultural and biosocial background in Nome,
Alaska, experts' findings.
Research and clinical information about the types of traumas to which Dean
was exposed was plentiful by the time this trial commenced in 1989. For example,
concepts of mental cruelty, emotional neglect, authoritarian child rearing, and other
forms of harmful parenting practices have been in the mental health and
developmental literature for some time and were certainly accessible by the early
l 980's. By the time of trial, clinical and research information upon these topics
had expanded enormously. Discussion and research on the concept of
psychological maltreatment as it was addressed in this declaration was available in
two major textbooks published in 1986 (Garbarino, J.; Guttman, E., & Seeley, J.W.
The Psychologically-Battered Child (San Francisco, Jessey-Bass) and 1987
(Brassard, M.R.; Germain, R. & Hart, S.N., Psychological Maltreatment of
Children and Youth (New York, Pergamon Press), with continuing published
research on the topic by Stuart Hart and Marla Brassard.)
In addition, there was considerable literature on physical maltreatment and
its psychological effects from various theoretical perspectives, including
psychological, psychiatric, and social work backgrounds. All fifty states were
required to report child maltreatment by the mid-19701 s, and the mental health
professions had a solid research base of information about identification, etiology,
sequelae, and the treatment of child abuse by the time that Dean's case went to
trial. For example, in 1975, R.D. Parke and W.C. Collmer published on the first
comprehensive research reviews on child abuse entitled, "Child Abuse: An
56

Exhibit 78-1069

Petitioner's App. 33 - 625

ER 1053

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 67 of 298
(1259 of 1584)

Filed 09/07/10 Page 57 of 92 Page ID #:1425

Interdisciplinary Analysis," in (E.M. Hetherlington Ed.), Child Development
Research, Volume 5 (Chicago, University of Chicago Press). Five years later in
1980, Jay Belsky, a research psychologist, wrote and updated review article for the
35 American Psychologist, pp. 321-335, entitled, "Child Maltreatment: An
Ecological Integration," in which he integrates a wealth of research data on child
abuse from various theoretical perspectives, including psychological, psychiatric,
and sociological. In 1987, David Wolfe wrote a book entitled, Child Abuse:
Implications-for Child Development and Psychopathology, (Newbury Park, Sage
Press), which provides a comprehensive overview of child abuse, severe parentchild conflict and abuse, and a developmental perspective of abused children.
These are only a few of the multitude of articles, book chapters, and books
available at the time of trial that could have informed thinking about petitioner's
case.
Research and conceptualization on the effects of witnessing domestic
violence on children was also accessible by the early 1980's (Jaffe, P., Wolfe,
D.A., Wilson, S.K., Zak, L. "Violence and Child Adjustment: A Comparative
Analysis of Girls and Boys Behavioral Symptoms," (1986) American Journal of
Psychiatry, pp. 143-177).
Further, research and inter-disciplinary studies regarding the unique cultural,
social and psychological factors presented Native Alaskans, and particularly
Inupiat Eskimos, was accessible, as documented and incorporated here.

CONCLUSION
Dean Carter suffered pervasive child maltreatment beginning in early
childhood and continuing through adolescence. This maltreatment included
neglect, physical abuse, and psychological maltreatment in the forms of terrorizing,
spuming, isolating, and corrupting. Exposure to these sustained and repetitive
57

Exhibit 78-1070

Petitioner's App. 33 - 626

ER 1054

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-6

Page: 68 of 298
(1260 of 1584)

Filed 09/07/10 Page 58 of 92 Page ID #:1426

re, a
traumas in combination with other risk factors, such as prenatal alcohol exposu
rejectio n,
unique cultural and environmenlal backgr ound, ethnic discrim ination and
nity and institutional failures~ including multiple out-of-home placements

commu

in
without treatment, and substance abuse, contributed to serious impairments
psychological funcliuning, including problems with behavior and emotio nal
worth.
regulation, interpersonal relationships, problem solving, and issues of self

adult
These factors formed the psychological context from which to view Dean's
functio ning and behavi or.

Inclusion of the mitigation themes described above, and all the information
ted a
that was gathered from Dean's family and background, would have presen
h.ave then
comple te and integra ted picture of his life to the jury. The jury would

been able to understand what occurred to Dean throughout his early and later
.
childhood and adolescence, and how be was shaped by a multitude of factors

as
I declare under penalty of perjury the foregoing is true and correct, except
correct, to the
to information and belief, which I am infom1ed and believe to be
California.
of my knowle dge, t h i s ~day of June, 2007, at ~;d,,l{c:;ct,t,;_{-v
best

5· !ke, ,,,b wy
-l ~
Tu MIND
Y S.OSE NBER G
DR.

58

Exhibit 78-1071

Petitioner's App. 33 - 627

ER 1055

Petitioner's App. 34 - 628

Case: 13-99003

04/03/2014

ID: 9045913

Page: 71 of 298
(1263 of 1584)

"

Filed 09/07/10 Page 9 of 54 Page ID #:374

t

=

Case 2:06-cv-04532-RGK Document 46-1

DktEntry: 15-6

Exhibit 3-009

Petitioner's App. 34 - 629

ER 1057

Petitioner's App. 34 - 630

Petitioner's App. 34 - 631

Petitioner's App. 35 - 632

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 46-1

DktEntry: 15-6

Page: 76 of 298
(1268 of 1584)

Filed 09/07/10 Page 14 of 54 Page ID #:379

Exhibit 4-014

Petitioner's App. 35 - 633

ER 1061

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 46-1

, :._.:;.•,:.;~,~, .Ii!U••• ....

.:~.;~ ·.;=Li.~~~.;~~~.t

DktEntry: 15-6

Filed 09/07/10 Page 44 of 54 Page ID #:409

r

•-M•-

Page: 78 of 298
(1270 of 1584)

(
··.;.,

-5F:.f9 ... ·.,·, ~J-;,.;:~:7.......

Mr WoHocha

Do,,n b vory u1n.:11;,endor.t. 11 Ile 'l.lor}:.'l :,c.io.-::.;, -..1u. ot:..:rs; 1-;. :i!J::ca:-: ::•:.t
~ d(lo)n•t vunt to; Jot, ho will 1t4lyu on tuo pQri?he:-y ot cla::: aci~v~tic:: ~J
lonr. oo ho con do w~t. ho ~r~ or.d not clo3:s octivitioo.
Iii• pro~na:s in cloaa hoo o~own D?orodic i:.provc:cnt, oa?ecicll;, a~nco
h1o rot.1u·n trora Anchoro,:o. Laat !cw cl:i:,o ho• s boon ri,:stloa: in clas:, .:ir.~
cur.not vork ot. lon:th on uoair,M~nto.
Achicvei:ont: Lon:!u:ico 1a 'bo:st.; i:ath i: cotter; :science llt::I soc::.al ::-:.;;<.i.:.:,:

•.;~~::::7.,

.
.
nt". Roberta Shop:
D oVGrAGO, Do:in ha.a loat in~o:>t iU\d has r.ot a.cco:r.p~!.:.hoo ~ 7c~ s1...-.cc :-:.:::.:
.;.:-.::
pro.Jee-:.
a.
::o
t.h.:i.n
return trom M.l'.C. Ho would rotha:- clo.:n up :shop
=c .-.:·:::;..<
this quite Cl lot. H• 1a ahort on pa.t.ianc•,however, ho is ::lea.=~:-.and dooa not cau:se1 IUlY' trouhle1.iie ha:s shown :so:na llnS?or-:.:::-4>:is:.:.:, _.;i:.-~::.~- :-.:-.·; s
:soir.o etuboornea:s,but over con.as this when counsela~ witt.oul. ::-..:.l.!.:=c.

."°

I,

M~ini:: ·ooa.r, 111 a.chieve~·~t.:, in reod1:.,'!· is S!)arse:
75% av1:re_c<1 )_ •
· '.iha r. he hos done 1a .::cod (:.OL Lao. -

Exhibit 11-044
• •

.-,-,..

•

• "'!' ••• ••.\ -

Petitioner's App. 36 - 634

ER 1062

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 46-1

DktEntry: 15-6

Page: 80 of 298
(1272 of 1584)

Filed 09/07/10 Page 29 of 54 Page ID #:394
\

.. :•\ f: .
o "". •

''

•,

-.

!' • •,~

I

.·

,.

~\)·:·.

·,:\:i~:}\:,'·...--,·::···
:.

Exhibit 8-029

Petitioner's App. 37 - 635

13~··
ER 1063

Case: 13-99003

04/03/2014

ID: 9045913

Page: 81 of 298
(1273 of 1584)

!~ . ·.

Case 2:06-cv-04532-RGK Document 46-1

3

JUN 87~:--~

DktEntry: 15-6

-::,1~'.!f~il'.!~iiC::'T-----~' ,., . ~--·

c

·r·

Filed 09/07/10 Page 30 of 54 Page ID #:395

~

~

~c~~';...-AJA·~-©:J~i.,.

c

~~~I~-. w~Jrifif
J;ififf~O>¼
JJ;'" ·· · .,...-.
.h .r~. / .ri Ti ~;{~~11!f~Jj'.:
W~~'\A .J)

~·-,:·'r~(//:if'-'~[/:)·.·.··

c~

· JUN 3 o1970,

!At&.,,J ~ ~~q:
c)u.4,

. l.J

.

.

-~
.·

'

.

.....

. OCT- 1 !) -1970
'

.

.I'/£..'
.
::,· ··.1·

. ~ ·.: . . . . :.•:··~:·.·;·:: ·~ ,-':•'. f' .. '.·.

_,,··

,'

Exhibit 8-030

Petitioner's App. 37 - 636

,·

1'33
('.

ER 1064

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 46-1

DktEntry: 15-6

Page: 91 of 298
(1283 of 1584)

Filed 09/07/10 Page 18 of 54 Page ID #:383

~✓-'.

,._
~

-'"'

·'

"\

,.

co

"'
"°

~.=:.i

0

;;;;
,/

Exhibit 6-018

Petitioner's App. 38 - 637

.;~

0
.,·

C

ER 1072

yS

Ca se: 13 -99 00 3

04 /03 /20 14

Case 2:06-cv-04532-R GK

ID: 90 45 91 3

Document 46-1

DktEntry: 15-6

Pa ge: 92 of ~B 84 of 15
84 )

Filed 09/07/10 Page 19
of 54 Page ID #:384

0

Ex hibit 6-0 19

ER 1073
Petitioner's App. 38 - 638

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 46-1

DktEntry: 15-6

Page: 93 of 298
(1285 of 1584)

Filed 09/07/10 Page 20 of 54 Page ID #:385

0-,

C:

C

-

..

C
C

Exhibit 6-020

.

.I

,\.:

I,.!'.:

-\ C

5b .:.:,,!
.c
.•

c:;

Petitioner's App. 38 - 639

ER 1074

Case: 13-99003

04/03/2014

ID:9045913

Case 2:06-cv-04532-RGK Document 46-1

DktEntry: 15-6

Page: 98 of ~890 of 1584)

Filed 09/07/10 Page 32 of 54 Page ID #:397

<

r

.. ~ c;_,_,_.__ ··- ••·.•

- - .' _::)..,,.,., , \I: CO?._"'..:A,.,._..,, ...;:, : •••~. Sv,~.1 .... ._...,,..,..._

.c-:-..:...,:.•=::.
• ......~_.:.:

j.,jj,S:~ . .

~=

Apr:....

.

. a.

-

A.91 J

CA.~. Ou." ?.

:03: ss
?E:-ITIOii lou.'!BE!'S : 73-23 C?: 73-2~ C?; 73- 25 ·: ?; 73-;: C?; 73-j 2 -:."'
sc.,.1Q: or :0,70~,~o;,: utc.~ Ci-:-; ?o:.:.:e :.a;:=.e."-:
Wiil:ilEA!lOllfS

or MWOR:

iJc<lll P. Cartel" hilS been in custccy :;i.-.ce Apr.:.: ., 1973 .1.=,:e:- :;ei.-.:; d.--:-c:.:v.:

the ;;ct:chik.i.n Cicy Police 0cp.L""tmcm:. and cha..--;.ed with :i.s c-;:u."ts of "'-'-"1: :"--/

in a Cwulln&; H counts of BreaJ<:izli t fate:-:..--. a D,.;e.lli.-,,: i:'.ouse a.'\d C.....-:.-;·i.- ..; "
Cor.cealed Weapon.

A petition he4ri."& was held April 1a, 1973, a,: -...hlc.~

was adjudicated a delinqi.ent ~ d ar.d com..:.ned to -he C4......,

a,-.,:1

,i.~"'

:,ea.-.

c-.:s,oc; c: -:::-.e

D:!parm,ant of Health & Social Servic es , Division of Corrections U'l"::i.:;. h:.s :s::.
birthC:.,.y tor plac:ea:ent in a s11i:tabl e correctional fa.c:il.:::·;,

Cliem:'s a.-rtomey,

au

Council (Pl;bilc Cefe.-.ce:-l ; i>.ssis.:a."t Dis-:::-ict .>.::::-:-.e:: .

PI'esidi.ni Judge for this hearing was Judge Thar..s i!. St...,=-:.

lltASONS FOR HEA.'UNG:
A<:c:o~ t:o Ket:~ City Police reFOrtS dated Oli/Cl/73 numbers, 73030927 ;

730~0782 and 282487, it: is alleged 'that Dean P. Carter, along whh :ou:- ot'-.e,

juveniles , ~~ 15 dcunt:cwn business buiJ.dir,.gs

.

a.oo

14 family he.Tes.

Sc;):-

.

sequent charges were filed, Burglary Not: in a CWelli.ng ( 14 counts ) AS ~.:.. 20 . : cc
and Burglaty

Cartying

&

in a twelling ClS counts l AS ll. 20. 080.

Conceal.ad Weapon,

AS ll,SS.010.

Dean was also

c.".a.--gec ·.::.-:.-.

when arrested he was carryi.-,s a .,;;

z;..agn1;111 revolver l.lllder his belt.

71-'o other charges have been filed aga.ir-.st Cea., s.:emiing f ::cm an esca;:e a--:-::"::-.; ;:

.t:.i:e bei:i.:; held at the i<e-cc:iukan Ce,=t.:".on facili.:y; i>sseult S Ba.:,e.··y, _.:..:; :..:.. :: _. : :
,.:::. A-;-:e-r.pted Escape, AS ll, JO .090.

:·a· . _..,_.._;.;

_ ,'

7:,e su:...a.;1 of this inc:ice.", as .::~s-:,i..::-~: ·; ·

', li.se, detenticn si.,pe.'Vi.sor on 04/0o/73, is as :ol.:cws :

13~

•Exhibit 9-032
ER 1077
Petitioner's App. 39 - 640

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 46-1

DktEntry: 15-6

Page: 99 of 298
(1291 of 1584)

Filed 09/07/10 Page 33 of 54 Page ID #:398

(

(

~~::..::::::• S CC\.IT. ?Z?O?::'
?Z: c_:._~?,, :ea.., ?.
?a.&e 2

R!:,.:OSC::s FOil HEAR!j;G (cont. ) :
"At 20145 hour:., Carter c:.me cut of -c.'1e bac.'< ccor of t."1.e :e::e:-.:::.:::-,
lio.T.e and tried to pull t'1e leek off u".e bac."< ga,e. I ..,.as i.:: t.'--.e
shop with my work crew from the Si:atc Jail. : hea..-c i:.':e baC:-: ::::c::close and went out of the shoo -co see wha-: t:.1..,e noise ·~·as. _ -:::.:.::
Carter to i;o back inside and i1c told 1r.e to Op<!n -t,c 3a:c. • -·-··
to:cl him w&.u.rl to go back ir.:aide and s"\:a..'"":ed 'CCf,icl.---:.S h.i.;r.. -,-, . --::,· -.
told rr.e to open t"le gate ar.a then tried to kid: r..e L-,. ::-.c "'"'= · - .
I tu..-ncd sideway:. to
a.r.d received a kick in ·the righ, ;~;:-~.::
lower abco:r.en, I sh~ved him up against the door and he g:sa:::je:: =scI'l.lb brush lying near the door ar.d raised it as though ":o :-.:. :: ::-.c
with it, I picked up a piece of pipe lying near the door ar.c. ::-a:.s~::
it to defend 111ysel.f and at t:."le same time I called ar.d re.ac.:...,ed :-:e:-.:·_,McNeill and James Martinez, who were work:..ng ir. the shop, -co cc~e
out. Carter saw the two irma.tes C011'.e out of the shop, he char.;ed
his mind about fighting anyrrore ar.d la.id the brush dcwn ar.:: sa.:.:! :-.e
would go inside."

r:.ir,

KINOR'S STATEMENT:

r.aa.n

readily acmi-::s his involv~m: in u'1e r..a~e::-s thl.S far cesc:-::.::.,~c

that

ilS

0

x:- ·;' -' -::;

far as the burglaries are conc=ed, he was anempting to .Lose .,- ..-z.: =C

he coul.d ge-c to N01r.e on his way bac.1< frc:n Cal:'...for.ua.

"It se~rr.ec :.:..'<e "'

Said he met some friends here i,.-,. l<e'tc.~<:.:.r. who also needed mor.ey

'.i;CCC :.::""'·

a.-.::. sc::-.=-'.::-.e ::-.::-.-

tior.ed he had a scre-,1driver and kr,e,1 hew to brea~ in doors wi-c.'lou-: a.:::;c:-.e '::-.::·..-:.::-.;.
As far as his esca-;ie atte:npt is cor.ce."T.ed, Dean had linle to offe::.

:ie is ·,.-.:.:::-.c·..;::

expla.na.tions other than, "it was a dt..T.b thing -co ~. "

PARD-11'' S STATI:-!ENT:
No statement has been attained from t.11e youth's parents except for a s;-:o:-: :.:-:-:e::-

received April lO, 1973 explaining why they were unable to attend t.'1.e ;:eti::icr.
hearing,

'Ihis letter reads as follows:
"Due to nv f:i.nancial situation I find that my wife and :;:ysel:
will be unable to ir.a.lce the trip 'CO Ketchikan. We are 1..'11:ib:.e
to lccate a reliable person to stay with our two younger gi::-:.s.
We feel that Mr, Council, t.'1.e Assis-::ant Public Defender, is
very capable of handling -c.'1is case."

~-=

is, i'-D-1ever, the impression of t!"~is of.:'icer, aiter speaki.-.g ',.Ji't.1. :ea..~; ::.'2

.:o;..;-.:.e:0:- from McLaughlin Youth Ce."'!ter, Mr. Covington; and af-::er evC.:1-:a;;.:_.-.J .:i.s

~-.: rew:-c, his parents, fer the

:tCS, part

:-.ave given up as -fe:: as :eti~.._.:; ;:-:'"::

.:.:.;.-:: ?~"-Y a major role in hel;:ing :~-. :r.ake a :;,roper social ac:u.s-=:-.e.-.-:.

Exhibit 9-033

Petitioner's App. 39 - 641

ER 1078

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 46-1

DktEntry: 15-6

Page: 100 of (1292
298 of 1584)

Filed 09/07/10 Page 34 of 54 Page ID #:399

'-'"'~
.··_)\J~J•·
··-·----,-er_, __ l\tI)

__ ; , . . ~ .

VV•"'\...

~ , Dean
?age 3

:~;

p.

.

?R!OR RECORD:
~~c::-.c, ;--~~::-:....:.

& Ente?ring
Assault With a Ilcm~crouz Weapon

08/05/68

Dre.lld.ng

12/23/70

Breaking & Enterbg

07/ll/71

Joyriding
!:lreaking & Enterint; ..
Assault With a Da.ng~rous Weapon

~~Cii.C, /..:_.,::..;:-::..:

I't should be also be noted tha't, a,: .he tir..e of this wri't:.ir.g, i;,?a., is ;;:-:.:;;__ :-:--::-:.

Fort Ord, California where he was attending basic t:raining ;.,,it'1 the un.i::ec S:.a::-;;s

Mar/•
Dean was

firs: declared a. delin::tuent child at age 12, Augus't:

26, 1968, af-:e:- ec-:-.-.:.s

. mitti.ng to a. peti.ti.cn of Breaking & E.,tering and Assa.ult With a Deadly ¼eai:;or..

inc.id~t occurr'ed in Nome, Al.a.ska, August 4, 1968, when he a.tte::ip,:ed i:o e:-::e:- hous.e belonging to Mr. Alex Eoror.ds.

'Hhen confron'ted by t.'ie

.pistol and held it, while cocked, on l'.r. Ei:!.-n::mds.

CwT.e!",

he ?ic..~e-=.

Because of -::."1is offer.se

a.

2..-..:

:ie-

ca.use of his poor adjustment in the ho.-r.e of his pa.ren~, Dean was _ccm..inec -:::: -::-.e
Al~tra. Youth Camp (09/13/68).

While t'1ere his behavior was desc-i;)ed as p;;:.•1e

aggressive, dependent, will need llllJCh attention.

His a.djustmen-cs we-""e :::::::-..3:.::-:.:---2.:

less than desirable and he ran frail the ca;np t.'1ree t:i.-...es.

Eve.-•.:ual:.y ::-.i:.-:-:e:-3 :-:::-:.-

:;,lei:ely deteriora.i:ed and he was fi."'.a.Uy t::"ansfe-r-red -co t'.cLc.1.:;:,2..:..,

:o;.;-::--. :~:-:-=~~- =---.:.

closed supervision. His behavior ur.der close supe::vision i.T,proved c;_cick.:.y <=--.::

nificantly.

~=-.;-

A:t McLaughlin Yout.'1 Cer.t:e:- he was c:escribed as able to ,:a'..;e :--2..'5-;::;:-..3::.::::_::.::. :::

a.nd accept job tasks.

In March 1970, Dean was :-eJ,ea.sed fro;;i r'.c:...S.·~, ':::u-::--. :e:::e.:-

to his pa.rents in N0111e where he remained until. Jar.uaxy l97l when he aga.i., .::;,..:.-.:: i.:_-:.-

self in difficulty facing a charge of Burglar/ in a twelling.

He was a;;ai.r. ac:.~·~:::,:;cc

delinquent, placed on probation and in foster care of :-'.r. a.r.d i'L"S. Ryrre:- c.: ..!...-.::.-...o:-~~",
Al.a.ska,

Dean's fos,:er care remained somewhat s1:able 1.:.,ti.l July ll, 19 71 when a..'":'=s-:;ec. :.::
.-l."'\chorage for Joyrid.ir.g, Breaking & En-:ering and Assaul,: & oa.i:--:ery.

A.:-::::-

"";2-:.:.

.)&.i.-:i adjudged a del.in:luent he wa.s re't:UIT.ec:. 1:0 :-'.cl.a.UihJ,in Youth C.mi:er, .~.~;;-..:.z-: :;:

:s.7::..

F.e remained with th~ prograr.-; ~ill

~w.y

::,972 when he was releaser. __

101
Exhibit 9-034

Petitioner's App. 39 - 642

ER 1079

Case: 13-99003

04/03/2014

ID:9045913

DktEntry: 15-6

Filed _09/07/10 Page 35 of 54 Page ID #:400

Case 2:06-cv-04532-RGK_ pqcument 46.- 1

G

···•-- -- -· ;) c:;:;,;..\: 1\;.;1,,J:., ./
F.:::; c.;.::.z_~, ~ ? • -·,rr

?£;•

Page: 101 of~3 of 1584)

~

Dc.ll\ i= 4 l6 yc.sr, 8 rrcnt.'\ old c::l<i.T.o .:ale .

:!e

•,1.;s

born

f..., yea:- bacJc ado;rted.Dc,an.

Mi.--ior M-5 lived in Notr.e his en~...:e life e.xc~pt: for a peri.cd of i:•s-::.-c-..::~:.::-,:....::.::~-::.::-.
a1: Mc!..Aughl.in and Alc:.anea You1:h Camp plU!l fos,:er care near And,orage.

is ~ e d of ~ a , two boys

u-,d t',10

ii='ls .. Cean is oe 2r.d

Hr. Esl:har Carter is cn,iloyed a1: the Ncr..e S.a'te Jail as a fe.-:we
Carter is effli)loy4d

]:)Jr~-,

U

&

of fo"r -::,-.~le.:-~::.
ll'.aC'Cn.

~\:' • .;<',7,'ZS

'r--

doX'ffli~Ory &id• ~'t the Wil..liam au-:Z :ii~ Sc..'":.::o!. , no::':.~ ,

--..

.!.l,;5

:..:..:a·

his'!~years,(12- 16- :!./2) ar.d while 001: ~ - ~i.~t:i.'t'-'-::ic::, !:ee.-. :-e-

ll'Jl.i_ned in the h0!te of his ~ t " S or L"\ ,:he ca...--e of fosi:e:- po!..-en-::s.
care W4S

IT. .vid Mrs. Ryn:er of Anchorage , Alaska.

L;.s-::

ranged ircm C's 1:0 F's.

t -2 r.

;;;-•"••

.:..n i:rai..-ur.g

:·.=-

:o ::ecc:::e ~

01:!ler th4l'I that he ex;:,re.sses r.o fu~_ pL!nl".i.."lg,

when questioned, Dean appe.a..-s

1:0

relat:a -..ell t:o his paren,:s.

""" 0 :::-,j..,,- '-~' -,-,,

he has much affection for his nx:>i:her and el..air.,s he likes his s ,:ep-f a:=-.e..1:0

'"'

0

A1: the t:::..-r.e of t.'u.s writi."lg he expresses r.o ces~::-: ::

ther his ed-:cat:i.on bu,: does cl.ai:n t ha,: he is inte.."eSted

l:>1.:sn pilot.

:cs~:r

He clai:rs -:o have cc:::;,:'Z:cc

gr.:idcs of ! onr-4.l. edUCAtion received i.'1 No::-.e ar.d L"\ 'Che Ar.choraga erea .

able

7r.e :.:-ci.'--;

:,1.,,;

cope with the way he teases hiJII and shc,.,,s favoritism to the o-c.".e:-

:.s ·.:.-.-

&.::.:.=:-,.--,.

He c::la.iJns 'that if he could, he woul.d like to re,:urn to the home of hi.s :;:a...-e.'\-::'l :..,
Noma and seek out sane ~la;mem: so he could train .as a bush pilo1: .

'D1ough this officer.has been unable

1:0

camiunicate with 11:-. ar.d ITs. Ca..-te:-, :.'".e

recard has bun very reveal.in& as far as de1:enning the.i=- atti:tude ar.d co..ce..""l\ :c,::-

~ • • present cireullstanc:es,
F.,.stration

".:ea."\

!!LISi:

I1: would a.ppear that after experienci.-ig years

ar.d nuch ·tutila .effort

hava lleen born bad."

o:

they have resigned then.selves to 1:.'\e :ac-: :.·.a.:

Their i.n;>ressions as NJ.ate<:! to a ~i:,,.~::.c:i -: ::·~:c,-

ir. .:o..-uwr-J of l97l are as follows: ·
'':-!to, .vid ~ . James Car';er say i::ia,: "ti-,ey jus1: cannot ur.ders,:,_-_cj
w;.at iii Wf0l'li wii:h the.i.r son. :-'.rs. CA..'"ter has 1:old me on :r.a:.y
· occ:asions that sh• has i).Ven u;, on Ile..."\ and in their view he
seems. to have been born .t. !:lad cez. ::Otl\ appear anxious to h.:1v~
him ~1: of their heme ar.: ::.., sw..e S-?nini: where he will be f::::-~ ~ _
-:::, anC?r.c X.:·.co~ . 'Ihe ?.!:e:r:s Cw e;.:.~~it cori.c~ over -:.....ei:- ....;:·
.::\!'t sec -:o !eel they a%"c :-:.,~J:::,:~s -:o Oe of a..- ,y beneii-: -co -;.....:
:.,,J'j

Q~ •:.:.; .,

-=-~•

II

Exhibit 9-035

ER 1080
Petitioner's App. 39 - 643

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 46-1

DktEntry: 15-6

Filed 09/07/10 Page 36 of 54 Page ID #:401

r

'

c:~:1.:~rrs cou~

Page: 102 of (1294
298 of 1584)

?Z?C~
RZ: O.~-:!R, 'Cean ? .
?a,;e S

?::?.30i :AL HIS70RY ( con't. ) :
De.:.n, thoUQl :-elad.ri& well

1r0;;t fccl.iJ11;:; about his

"°

t'u:i

parcnti:.

officer, holS been ur..ililc

or hiz brot'1cr-.:: .::.r.d si:;tcr:;.

questioning has been ·brief and withci...t detail.

"CO

;:,rovice · --··-:---

Hi:; re:::;::c;-.:;c .•

f.is effect in -:.':is <l:"e.::. =.-:

::-.-= -:.::...--:.2

of t'1iz writing seems ,to be eir.o'tic;-.!ess .

i'

.I
I

MILITARY HISTORY:
Dean joined the Uni-ted Stat:es

Amr:/, Novernbe,:, l, 1972.

iti.ated at Fort Ord, Ca.l.i.forni.a..

~

ni.s basic r:-,;.,, __p; ..a:;

· --

fi.r::t ~fi_cW:'t'/ whih i.-:. -c,'-,e se::-,ica:; ccc•..:.-:·:c-::

on November 18th, when he Neeived an Article 15 for being Af-/OL.

On Feb~/ :!.S, :_373

he was placed in jail in l"t:mterey Ccw-,-::y Jail, Sa:i.,a.s, Ca.li.fo::ni.a fc:- s;.;.s;,;:..:ic:-.
,::
Su.r.;l.ary and Joyriding.

O\arges were drop~ed di...e to illegal sea.."'C"\.

-:::-. :~--:.:-. 2~---:.

Dean absented himself from his unit one! at the ti.--:e of 'th.is writi.""-6 :-e::--=-.:..-:.s -- - ..
-status.

A letter frcm Captain Allen G. Shevelar.d c:.a:t:ed April 6, :i.Si3 :-e:.:::s -

follcws:
"This unit plans to request a discl-..a.."'ge for Carter under p.."Ovisior..s
of AR635-0206 or Chapter 13 ARS00-200 for Freq1.;ent !lisc::::-ec.:. -:a:::-:
Acts Aginst ::i.ther Mili'taiy or Civil.i.an Authorities . "
·
Subsequent telephone conversation wi't:h Cap-::ai., S'nevel.a.I'.d indicated -::-:a-: ,.;,.-.-::e..:- .~
circumstance s will the Ar.rr;/ take Dean bad<: and -c.'1at regardless of wha:t c.:.",,c".:. . .:.~,.
the civilian ~urts pla.n,he will be dis~ed.
E'/AUJATION:

After several years of exposure 'to what appe.a.:-s.t to· be professiona l g,.;.:.car.ce a.-.d

supervision , both in the corrmuni'ty as well as at an institution al level, ~ .
would seem in charac'ter and behavior as well as attitude 'Co have gair.ed l.i~.:.e -·
w~ of developnent ·of an acceptable life style.

It is evident 'that af'ter e=ir.i::~

:us

:-ecord he remains i.i:.r.an.re, lac.1<s a sense of responsiliil i ty, is .:.:;:~~s.:.·1e, :-~
poor j~.ent and displays a definite di.sregii...---d for not only his wel.:a:-e :;~-: :::.::

we:iu-e of others around him.

'Ihe o.ily real d.i:ferer.ce in his behavicr.

,,a,;

-J;:;:.::s o:.

-::o whc.-: he firs't developed delil'lquen't: 'behavioral patterns , is t.l-ia.1: r.cw -:..'-.ey 'r.av-a
::;ecc::..e sop.'usticate d and more ser~us.

:..:, :·.:..; :::~ or re.tl

A:.o.-.g with this he has no serse o • ....._-._._ ... -

moriva-cion "tCWa.-cs =..:,lcyi..a.-:-:: or .fem.al ed~c,i:ricn.

Exhibit 9-036

Petitioner's App. 39 - 644

ER 1081

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 46-1

DktEntry: 15-6

Page: 103 of (1295
298 of 1584)

Filed 09/07/10 Page 37 of 54 Page ID #:402

- • • - · - • ' o.J \..uw.·..., l~.-vf"
?Z: ~ , ~ ? • .
Pa6e 6

F.'/AlJJATICN (cont.):

se":tl.,i;.

His pciren-c fce?l they c.m r.o lo~cr

take hi.11 back into their regiment

his access to com:11..n.i tj' reso~es.

arc

Ccl..'"C

for

r.ir.., the m:.::.:..:.r.:-; ·. .-::..:. .:. ~.::

it would see'l\ he is ur,air.cnab::.c ,::; :::-"•·: > _

It is evidem:, a,: t.u.s t:i.-::e ar.:,·.. c.:;, -:.-.=-:

:,e

:-:=-S

no choice but to return to clokec supervision.
Not much can be said that has not, by o-c.'1er pe."'Sons d.i::-ect.;.y ::-e:..a::ec :::: :.-.:..s :::.::.s,2,
already been said.

Dean continues to display a personality suc.'1 t.'-.a:c ·,;:. -::.::..;::: =·~---:.".;;,::-

professional efforts at reintegration he wil: cont..1ue to er-.gage h ca·---.._,.,,-- -·-

criminal behavior and ha.ve little c:.'ia.r.ce at ever· making an acce,nab::.e· soc:.=.:. ~j1,.;s--::-

ment.

Therefore it is the recc:mnendation of .this officer that Dean ? . ~ e r ;;e ---~ -,,,..:
to the c:a..""e and custody of the Ccrnnissione:- of -c.'1e Departnem: o: EeC..:.-:.'".

~

:cc:.2.:..

Services, Division of Corrections until his 23th birt.'1day and fu.'""t..11.er :::a: :-.e

::e:

pl.1ced in a suitab~e treatment facility -suc.ri as ·the· California Yout.': A~-:.'",~:-:. -=:1.
In way of specific trea'Ollent for th.is you'th, I would agree wi t."I c:=e:-.--::s :::: :>:·.
Donald D. Keney~ of the G.ateway Corr.rnunitj' Mental Healm Center when he sc.:.;.::
"I do rot feel that the prognosis f~the boy is excepticna2.2.y gc-c-:: :,1.::
any method of treatment to be effective :rusi: i.1volve sorr.e ~e.'"Scr~ -=-;
.reintegration along the lines of developir.g bo-c."I emotional and sec:.=..:.
matuci.tj' and persona! responsibility . I feel suc.'1 treat:r.er:t .:.s r.c;;;-::
likely initiated in controlled con:ti.ti.ons with wel: cefined rout.r.es
incl\Jding petsonal-eouns_el.i.'1g where the ini:ent of the treatr.e."l't sys-::e::i
is to help develop personality· responsil>ilitj '. tL
•

Respect:ully submi ~ec,

~- ,:Zn:t«-,e____ ~
-earton E'emy
/
?rcba.tion-?aro le Sui)c...~,.:..,.::;:?-; ..;,
=.a.ti! or Dictation:

April 30, 1973

Exhibit 9-037

Petitioner's App. 39 - 645

/C/0

ER 1082

Case: 13-99003

04/03/2014

ID:9 045 913

DktEntry: 15-6

Page: 105 of~ 7 of 1584)

I'"

b1tr SS• t:,' Jrtl .,... u

we•• <vw .

J,n,n Ue

•ff - ..tiaa Mck to 2/73; ~ r t y o u ..

~

cw u1• fraa .,_I.a&

/74, witll.
Appr aialc elJ U/lt /1( urou p; 11/20
Ml Ona
Nffia& • 60 . ., tona fer Criai
vt::-n M
irca llaatoo C-tJ Joil,
llur&l ,onoo or otC -.* i>vr1 u.1-.
1S
elJ
aJMt
oppro
u
t
e-,.c
•
.
NCeat
,._ u., neU ctN of cw IMars loriN , c.boN tut occur re.t 11/lt/ 74 tllnN P 11/20 /74 .
.
N u ~ y c.Yi
x of riqo , wtc.u o a otller -11 icliNl. _t lleql ort... • •pa ~t aa,le
d Dean • n.eft ,
11, pl--4 svUt7 to • aud w-r , lec:Oll
9!4! f-ue u1 Nercu e v. DooWom,ooatn
co,
c.rn atlJ NrTi al • prol> ott.ou ry
(1.-5, 0$Cl)
••itil l& HDtn cf.a& in lnto a CoUllty.
Dtly
PS:OM
,
C.Oq o Cine
.
'faai bl
ot cuiaa UM ADd relov •t a ocial
rNido
,
aob~
obtoi
Ntioa
iDfor
ial
~ »o effic
~ fou. r abov a to Ilia.
U latlla r D.
cloi.M •tbo r'o cauo a eNU. Ule, r . .Uaat ..s
• jaU. ca.-s)
ot
!!U!l!li Jo effic .iol wrtn
utroo
•
u
-,10,
u,
AlN
_,
.
CU'tl ler, u, noU1 A1 ot

!!l::: .iOf f•M:

AAc!l orqo,
Jerry I., Carto r, 23, rNid ial 1D

IQU ppt

'
;
I.

di
I

..:.,

"•.-=-:

r•
c:ouJ. e x. Carte r, 7, ronol ia1 "1tb •tile
al ncord o, (l-S)
of tu .....,,_ • ibliA p llaft • J c.riaiA
. . .iNat clo1M tut Utllr &l·
km U IIGM, .UU U,., 55, ~ barb, fo.-- rly
pn,1 opaa tol lieto rf1
u, 51, ,..r ti.alt
Cart
J
tller
•t~fa
aarrW
r
9 laie •tu

-~...;.t

faUIN ,

•1•

C1ua

i

1

,

••n. liau

4
etata troop er, rNU ..t
clli.e f., polic e, . _ , Aluk a, p...- t.17
to • child raa'•
loaf.N d vt.tla parODto, •1• I, -caac :e4

-w .

a 4£.eto at, •tau " raloU oaabi p,n - . !
,•• I

Coof licta nor
~ . .r-&a l " - ahor 6
for _ . . _ - t ....t Ilia
fatllf
eupa
ClaSa
•
~
to
·
,anac a1 atllo rity COllt iaNd, ol.eo ~ ~ J • • •
12, 1961, ~ -1tt ed -to
web
two
for
Alca nro
a'tlllo
to
N
witll
dlda
u a ruul c ol kqla ry. ltoJed
Al- tn 'llllotb ad C:-.r vaeio o CU,
luNe q-tl7 covt
.
cs-.
•
,
•
r
,
-tlaa
9
wo nlau ed to
'l•tla C.Ce r for oppro ziaota lJ c:-u
r, wn be •t&7e 4 a1a -e11 a-'for
6uto n..ft .
-'Ct .M to Jld.au s)aUD T-it
r U -tlla latar
Coate
'IOIICII
tra
ilca11
to
ud
latur
-.
,-na tal a...
o to pona tol i . - aa• 16. ilt•r cau.
~~lou
•
,
r
,
-tu
14
offic er
lu,,e l • AleA Ua
anu t, prope rty o f f - . l'nut iolllconrt cted
1-eed
u:por
17,
...
cs,
-unell 1ao. Appr u:iaat olJ l or 4 -tla a later
tlaat Ila jua tba ·.a.s.,. le dU ftlN
Jld.au al,lia Toutla C.tu • • Hlltr oct
leCl&
•f a.rs1 or,. diadl ar. .d f r • .a.s.,, c tD Colife naio lOIIU Mtao rit)'l DoVlt e llolao o aod
MaU vttla Ca11 foai4 lie 'litoa tlloa -c11 1 latar , aa• 11, Clas . lie wo rel...ed oo
lS
""'•o<1_,,t1,
a. 1.-oN 'loutJI CU,, -rolau aol
lie ret- 4 _. aco, - appru iaato lJ 711 w.ua,
' , ~ • to Alaa u,

a.-

to •-

to

..,.._c.e,

·.~

3,

Uoau.

-...U .t, 19,

l)

1~.

"°°

-~ --- -~
· ~--=~-~ ~-s. ·-~-~
·-=
;-~-~-~-~-~~~~~T-,eF-·~~-~

·:""!i .

~

..~
........

;:~

·~

...

·:....! 1

. , ,,..,,.,,c-; -

··
- ·-=
-~
2 ··5,• ,.gg g :::• ❖:::~.:- . •

-..::f.
-;

··r

:-:t

~

l~I
Exhibit 10-039
· -- --·· ·- - - - -

Petitioner's App. 40 - 646

ER 1083

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 46-2

··-··

:.

.........

.,· ..;,·

.·•

DktEntry: 15-6

Page: 116 of (1308
298 of 1584)

Filed 09/07/10 Page 29 of 91 Page ID #:448

:..

~:·!". ·. . •. -·.' -

PSYCHOLOGICAL EVALUA(· ~ (

ltathi Smith, P• ycholoaical Counselor II

I?:
DA'IE:

March 22, 1978

Dean C&rtar ia 22 yura old, single, and presently serving 3 years for B.I.A.D .•
'Ihia. is his second falony incarcaratio n; ha reports that he has spent 7 years
in correctiona l Httin}is, most of that time aa a juvenile.
nia Taylor-Jolma on Temperamant Analysis indicates a mildly ao.xious person who
praters to ba alona or vith one other person and feels uncomfortab le in groups.
He is amotionally datachad and find • it hard to put feelings into words. He is
a logical thinker, tolarant of othars and appropriate ly usertive. He presents
aa overly • elf-controll ad, Th• attitude scale reflects that he is presenting
a true picture of himaelf, Dean agrees vith the TJTA picture with the exception
that he aees himsalf as 1110re emotional.
The MMPI re • ulta appaar to be valid, Dean ia described as s0111ewhat depressed,
rutla ••, and having difficulty controlling impulses, Kia behavior is selfpunitive in that· ha feal• guilt over misbehavior , ~but is not dece=ed by the
guilt. Ha has conflicts centering around dependency needs •. Repression and
danial of problem areaa are likely; he may davalop anxiety attacks, he may
reapond to reaaauranca , but he ia likely to resist a psychologic al interpretation of his problema, He is somewhat suapicioua of others. Th• ~ I raises
the question of psychiatric problema, but discussion with Mr. Carter does not
indicata, to me, a need for psychiatric intervention at this ti.ma. The MMPI
ahowa a low likalihood of habitual criminalism, parole violation or prison
homosexuali ty, Th• prediction regarding habitual criminalism should be ap- ·
praised with caution in view of~. Carter'• 7 yaars of prior incarceratio n.
merely that'Mr, Carter's life atyl• may be more resistant to change
Thia
than the MMl'I indicatas, and not necessarily that ha is a "hardened criminal".

uana

In an initial intarview, Mr, Carter strikes me aa a pleasant, assertive young
not u inhibited u the TJU • ugge • t •• He appaars bright and be seems
confidant, Ha explains that he ·is anx1o·ua and tenH - • taying up late, ha'rlng
trouble getting to sleep, and probably worrying about his problems. He has
some insight into the reaaou for his situation, but ha would need to develop
more insight and/or ba in a atata of peychologic al pain bafore ha would see a
rauon for p • yc:hotharapy . Vocational training and moral support would probably do him more 1OOd at this time. Mr. Carter is already trained as a paincer,
and in metal .and wood rapair. Re wants now to go into jet mechanics at Anchoraga Co~ity College on a school furlough of aoma aort. While at ~.R.C.C.,
ha would like to taka colleae courses and work as a paintar or in maintenance .
Ha states that h• drinks socially ouly and doe • not have a drug proble~.

11&11,

I rec-nd: school/voca tional i,nvolvement aa moat appropriate for Mr. Carter
while at E.R,C,C ••

Exhibit 24-083

Petitioner's App. 41 - 647

ER 1092

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

DktEntry: 15-6

Page: 123 of (1315
298 of 1584)

Filed 09/07/10 Page 90 of 128 Page ID #:1103

IN THE SUPREME COURT OF THE STATE OF CALIFORNIA

In re DEAN PHILLIP CARTER,
NO.

on Habeas Corpus.

(Superior Court for
San Diego County
No. 90280
Related Appeal
No. S023000.)

DECLARATION OF MYLA H. YOUNG, Ph.D.
I, MYLA H. YOUNG, DECLARE:
PROFESSIONAL BACKGROUND AND REFERRAL QUESTIONS
1. I am a clinical psychologist, licensed in the State of
California (PSY 11916) since 1990, and a certified Diplomate of
the American Board of Professional Neuropsychology.

I have been

employed at the California Medical Facility at Vacaville the past
ten years, and I maintain a private practice in Daly City,
California, which includes consultations and forensic
evaluations.

My particular area of expertise is in intellectual,

neuropsychological and personality assessment.

Exhibit 61-758

Petitioner's App. 42 - 648

ER 1096

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

2.

DktEntry: 15-6

Page: 124 of (1316
298 of 1584)

Filed 09/07/10 Page 91 of 128 Page ID #:1104

I received a Bachelor of Arts degree magna cum laude

from the University of Guam (1975) in psychology, a Master's of
Arts Degree magna cum laude in experimental psychology from
Towson State University (1977) in Baltimore, Maryland, and my
Doctorate in clinical psychology from the California School of
Professional Psychology (1988) in Berkeley, California.
3.

Since 1989, I have worked for the California Department

of Mental Health at the Correctional Medical Facility at Vacaville.
My responsibilities include the psychological evaluation of
inmates within the California Department of Corrections,
supervision and training of psychology interns, and research
evaluating psychiatrically hospitalized inmates within the
correctional facility.

For the first two and one-half years of

my employment, I served as a psychology representative to an
interdisciplinary treatment team providing evaluation,
stabilization, and treatment to men who, while incarcerated,
required acute and/or subacute psychiatric treatment.

For the

past eight years I have been the program consultant for
psychological services provided to inmates in an
interdisciplinary treatment program.

In this role I have, among

other duties, conducted several research studies to evaluate the
functioning of inmates in psychiatric treatment programs, and for
the past six years I have been engaged in a research study
describing intellectual, neuropsychological, and personality

2

Exhibit 61-759

Petitioner's App. 42 - 649

ER 1097

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

DktEntry: 15-6

Page: 125 of (1317
298 of 1584)

Filed 09/07/10 Page 92 of 128 Page ID #:1105

functioning of psychiatrically hospitalized inmates.

In 1993 I

was awarded the Superior Accomplishment Award, and in 1999 the
Outstanding Accomplishment Award, by the State of California for

work-related performance at the Correctional Medical Facility.
In addition, my private practice focuses on neuropsychological
and personality assessment for forensic purposes, and I am a
neuropsychiatric consultant for Psychiatric Associates San
Francisco Spine Care Medical Group.

4.

As a pre-doctoral candidate, I was an intern at McAuley

Neuropsychiatric Institute of St. Mary's Hospital in San
Francisco, California from July 1985 - July, 1987, and from
January, 1988 - June, 1989, I was granted a post-doctoral
fellowship in neuropsychology at University of California at San
Francisco, San Francisco General Hospital.

Since April, 1996, I

have been a member of the Adjunct Faculty at the California
School of Professional Psychology as an instructor of
Neuropsychological Assessment, Cognitive Bases of Behavior, and
other related subjects.

I have provided technical presentation

at mental health conferences on forensic and neuropsychological
issues at Asilomar Conference Center in Monterey, Patton State
Hospital, the Department of Corrections at Pelican Bay and
Folsom, and the Correctional Medical Facility at Vacaville, and
have authored several scholarly articles on violence in the
community, violence in prison, self-harm in prison, and the

3

Exhibit 61-760

Petitioner's App. 42 - 650

ER 1098

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

assessment of Psychopathy.

DktEntry: 15-6

Page: 126 of (1318
298 of 1584)

Filed 09/07/10 Page 93 of 128 Page ID #:1106

In addition to being a Diplomate of

the American Board of Professional Neuropsychology,

I am a member

of the International Neuropsychological Society, National Academy
of Neuropsychology, Society for Personality Assessment, American
Psychological Association and the California Psychological
Association.

5.

As both a private forensic consultant, and with the

California Department of Mental Health, and since 1996, I have
conducted several hundred neuropsychological and personality
assessments of children, adolescents and adults.

I have

qualified as an expert witness in the courts of California and
Nevada, and United States District Court for Northern California.
6.

I was consulted by the attorney of record in these

proceedings, Phillip H. Cherney, for Petitioner, Dean Phillip
Carter, a forty-four-year-old Native Alaskan male, who is
currently on death row at San Quentin Prison.

I was asked to

examine petitioner, hereafter referred to as "Dean," and to
conduct a neuropsychological assessment in order to:
a.

Evaluate Dean's intellectual and
neuropsychological functioning levels; and,

b.

Determine if there are any impairments in
neuropsychological functioning, what areas
he might be impaired in, and to report
findings and opinions.

4

Exhibit 61-761

Petitioner's App. 42 - 651

ER 1099

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

DktEntry: 15-6

Page: 127 of (1319
298 of 1584)

Filed 09/07/10 Page 94 of 128 Page ID #:1107

NEUROPSYCHOLOGICAL ASSESSMENT PROCEDURES AND TEST RESULTS
7.

At the request of his attorney, I met on two separate

occasions (December 16, 1998 and July 21, 1999) with Dean at San
Quentin State Prison.

Testing was completed in a private, quiet

room, and was without interruption.

The following tests were

administered:
Rey 15 Item Test
Test of Malingering Memory (TOMM)
Wechsler Intelligence Scale III (WAIS III)
Peabody Individual Achievement Test (PIAT-R)
Sensory Perceptual Examination
Finger Tapping Test
Grooved Peg Board
Tactual Performance Test
Seashore Rhythm Test
Speech Sounds Perception Test
Visual Search and Attention Test (VSAT)
Stroop Color Wood Test
Paced Auditory Serial Attention Test (PASAT)
California Verbal Learning Test (CVLT)
Rey Complex Figure
Aphasia Test
Category Test
Wisconsin Card Sorting Test

5

Exhibit 61-762

Petitioner's App. 42 - 652

ER 1100

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

8.

DktEntry: 15-6

Page: 128 of (1320
298 of 1584)

Filed 09/07/10 Page 95 of 128 Page ID #:1108

Dean's attitude towards testing was evaluated using two

tests specifically developed to detect "malingering," by
measuring his performance within and across tests, and by
observing his behavior during testing.

His performance on two

tests (Test of Malingering Memory and 15 Item Test), specifically
developed to evaluate for "malingering," indicated that he was
not attempting to fake his performance.

The consistency and

performance both within and across neuropsychological testing
also indicates that he was not attempting to fake his
performance.

My observation of his effort put into testing

further supports the conclusion that Dean was not attempting to
fake his performance.

This evaluation is a valid representative

of Dean's intellectual and neuropsychological functioning.
9.
WAIS-III.

Dean's intellectual functioning was evaluated using the
Dean completed 10 years of formal education.

The

level of his intellectual functioning was unanticipated.

Dean's

overall intellectual functioning is in the High Average-Superior
Range (FIQ=116, 86%ile), with essentially equal abilities for
verbal comprehension (VIQ=114, 82%ile) and for thinking in visual
images (PIQ=116, 86%ile).

This means that Dean has the biological

capacity for intellectual accomplishment, and, despite his
limited educational experience, he has learned from his
environment.

6

Exhibit 61-763

Petitioner's App. 42 - 653

ER 1101

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

10.

DktEntry: 15-6

Page: 129 of (1321
298 of 1584)

Filed 09/07/10 Page 96 of 128 Page ID #:1109

As a general rule, neuropsychological performance is

evaluated using normative standards which adjust for age and
education.

In this case, Dean's neuropsychological performance

would be compared to that of other individuals who are 43 years
old and have 10 years of formal education.

Because of his high

intellectually ability, Dean's performance was evaluated two ways:
1) in the typical way, comparing his performance to individuals
with similar age and education, and 2) using his own level of
intellectual functioning as a baseline and comparing his
performance on each neuropsychological test with that marker.
11.

Applying the typical statistical methods of evaluating

Dean's neuropsychological performance, and comparing his test
performance to that of other individuals who are 43 years old and
have 10 years of education, Dean demonstrates impaired 1)
attention, 2) verbal memory, 3) arithmetic, and 4) complex
psychomotor functioning.

His performance on three tests of

attention (Seashore Rhythm, Speech Sounds Perception Test, and
Paced Auditory Serial Attention Test) was mildly impaired.

His

performance on one test of memory and learning (California Verbal
Learning Test) was mildly impaired.

His arithmetic ability as

tested (PIAT-R Arithmetic Subscale) was moderately impaired.

His

complex psychomotor functioning (Rey Complex Figure Copy Trial)
was moderately-severely impaired.

Using the least restrictive

criteria, these results indicate that Dean experiences brain
impairment.
7

Exhibit 61-764

Petitioner's App. 42 - 654

ER 1102

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

12.

DktEntry: 15-6

Page: 130 of (1322
298 of 1584)

Filed 09/07/10 Page 97 of 128 Page ID #:1110

A more accurate way of evaluating Dean's

neuropsychological functioning, however, is to use his overall
intellectual ability as the appropriate marker for his
functioning.

As stated in paragraph 9 above, Dean's overall

intellectual ability is in the 86 th %ile (T61).

Using this

criteria, Dean's test results demonstrate diffuse brain
impairment.

Of particular concern, his performance on tests

which evaluate executive functioning (thinking, reasoning,
problem solving, using alternative ways of solving problems,
impulse control, etc.), was impaired.

Also of concern, his

performance across all tests of attention and concentration
(Seashore, Speech Sounds, VSAT, Stroop, PASAT) was impaired.

Impaired executive functioning and impaired attention indicate
impaired frontal lobe/subcortical brain areas, as well as
impaired transfer of information across brain hemispheres.
13.

Frontal lobes of the brain are critical to human

functioning.

This is the area of the brain that allows

individuals to think, reason, problem solve, control impulses,
respond to information from the environment, change behaviors
based on that feedback, and anticipate the consequences of their
actions prior to carrying out those actions.

Test results

described in paragraph 11-12 imply impaired functioning of
anterior brain regions and raise concern that Dean experiences
frontal lobe impairment.

8

Exhibit 61-765

Petitioner's App. 42 - 655

ER 1103

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

DktEntry: 15-6

Page: 131 of (1323
298 of 1584)

Filed 09/07/10 Page 98 of 128 Page ID #:1111

LIFE AND CASE HISTORY BACKGROUND REVIEWED
AFTER NEUROPSYCHOLOGICAL TESTS CONDUCTED
14.

When I conducted intelligence and neuropsychological

tests, I was not provided information about Dean's life history
or the facts surrounding the cases at issue.

After I completed

my initial assessment of Dean from the tests I administered,

I

was provided copies of, and factual statements from Appellant's
Opening Brief and Respondent's Brief filed in the abovereferenced direct appeal, in order to familiarize myself with the
evidence surrounding the guilt and penalty phases of trial.

In

addition, I was provided transcripts from the defense penalty
phases of the Los Angeles and San Diego trials (California
Supreme Court Case Numbers S014021 and S023000), and a series of
life history documents to review, which included the following:
1.

Declaration of Mindy S. Rosenberg, and
appendices thereto, including probation
reports, psychological evaluations, and
prison records;

2.

Medical history of head trauma and excerpts
from the U.S. Environmental Protection Agency
reports regarding neurotoxins located
in Nome, Alaska in studies conducted in 1986-88;

3.

In camera testimony of Monte S. Buchsbaum, M.D.,
from San Diego Superior Court No. 90280

9

Exhibit 61-766

Petitioner's App. 42 - 656

ER 1104

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

DktEntry: 15-6

Page: 132 of (1324
298 of 1584)

Filed 09/07/10 Page 99 of 128 Page ID #:1112

(Supreme Court No. S023000), June, 1991;
4.

Declaration of Adrian Raine, D. Phil., as
it relates to a PET scan conducted in June, 1991,
and review of the PET scan.

FINDINGS AND OPINIONS
15.

In summary, and based upon the foregoing,

it is my

opinion that it is probable Dean Carter has had long-term
neurological deficits and diffuse brain dysfunction, and it is
also probable that he suffers impaired functioning of anterior
brain regions and experiences frontal lobe impairment.

Precise

etiology of this impairment, at this time, is not known.
Information that I have gained from the previously described
documents, however, suggests that some combination of prenatal
exposure to neurotoxins, childhood/adolescent exposure to
neurotoxins, drug abuse, multiple head traumas, and persistent
childhood rejection and abuse combine to explain Dean's brain
impairment.
I declare under penalty of perjury the foregoing is true and
correct, except as to information and belief, which I am informed
and believe to be correct, to the best of my knowledge, this
day of

'O>C-.V"c:b

I~+~

, 2001, at Daly City, California.

10

Exhibit 61-767

Petitioner's App. 42 - 657

ER 1105

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

DktEntry: 15-6

Page: 134 of (1326
298 of 1584)

Filed 09/07/10 Page 67 of 128 Page ID #:1080

IN THE SUPREME COURT OF THE STATE OF CALIFORNIA

In re. DEAN PHILLIP CARTER,
on Habeas Corpus.

________ ________ ___

)
)
)
)
)
)
)
)
)
)

NO.
(Superior Court for
Los Angeles County
No. A-089330;
Related Appeal
No. S014021.)

DECLARATION OF ADRIAN RAINE, D. PHIL.
I, ADRIAN RAINE, DECLARE:
1. I am a tenured Professor of Psychology in the Department
of Psychology at University of Southern California, Research
Associate at the Social Science Research Institute at the same
university, Adjunct Associate Professor of Psychiatry at Western
Psychiatric Institute and Clinic, University of Pittsburgh,
Director of. the Joint Child Health Project, Mauritius.
2.

I am a British national living in the United States

since 1987, and was educated at Oxford University, Jesus College,
1

Exhibit 59-735

Petitioner's App. 43 - 658

ER 1106

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

DktEntry: 15-6

Page: 135 of (1327
298 of 1584)

Filed 09/07/10 Page 68 of 128 Page ID #:1081

where I received Bachelor (1977) and Master's (1982) degrees in
Experimental Psychology; I received a Doctor of Philosophy
(D.Phil)in Psychology from York University, England, in 1982, and
taught in the Department of Psychiatry at the University of
Nottingham, England.

Since 1987, I have taught at the University

of Southern California, and was Associate Chair of the Department
of Psychology at University of Southern California between 19911993; I was also a consultant to the National Academy of
Sciences' Panel on the Understanding and Control of Violence
between 1990-1992.

I was awarded the Young Psychologist of the

Year by the British Psychological Association in 1980, an award
for Distinguished Research in Psychology by the Department of
Psychology at the University of Southern California in 1993, a
Research Scientist Development Award in 1993 by the National
Institute on Mental Health, an Independent Scientist Award from
the National Institute of .Mental Health in 1999, and the Joseph
Zubin Memorial Award from the New York State Psychiatric
Institute in 1998. I was given an endowed Chair, the Robert G.
Wright Professor of Psychology from the University of Southern
California in 1999. Among other professional memberships,
belong to the

I

American Psychological Association, American

Psychological Society, American Society of Criminology,

Society

for Psychophysiolo gical Research, and Society for Research in
2

Exhibit 59-736

Petitioner's App. 43 - 659

ER 1107

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

DktEntry: 15-6

Page: 136 of (1328
298 of 1584)

Filed 09/07/10 Page 69 of 128 Page ID #:1082

Psychopathology.
3. My particular academic and research interest, as it
relates to this specific case, is in biological correlates of
serious violence and the implications of such findings for
psychological, social and legal purposes.

My research has

focused special attention on neurological studies and
technologies that assist in measuring brain dysfunction and
abnormalities.

I have participated and/or directed in numerous

experimental psychological studies related to the subjects
addressed in this declaration, and have received numerous grants
for research (over $6.7 million).

I have been invited and

presented over one hundred papers to professional groups in
experimental psychology in several countries, and am an ad hoc
consultant to twenty scholarly journals, including American
Journal of Psychiatry, Journal of Psychiatry Research, Journal of
Abnormal Psychiatry, ArchLves of General Psychiatry, Behavioral
and Brain Sciences, Criminal Behavior and Mental Health, and
Journal of Research in Crime and Delinquency.

I have authored or

co-authored over one hundred articles that have appeared in
professional publications and scientific journals, and three
books, including the most recently published, Biosocial Bases of
Violence (1997, Plenum Press).
4.

I am the first author of Selective Reductions in
3

Exhibit 59-737

Petitioner's App. 43 - 660

ER 1108

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

DktEntry: 15-6

Page: 137 of (1329
298 of 1584)

Filed 09/07/10 Page 70 of 128 Page ID #:1083

Prefrontal Glucose Metabolism in Murderers (Biological Psychiatry
1994), hereafter referred to as "Selective Reductions study," and
the first author of Brain abnormalities in murderers indicated by

positron emission tomography (Biological Psychiatry, 1997) which
reported on an enlarged sample, both of which were the result of
an experimental study conducted at the University of California
at Irvine Imaging Center (UCI)

in early 1990's.

I have been

associated with Monte S. Buchsbaum, M.D., one of the authors of
the study, whose previous research in this area is referred to in
the article, and whose testimony in petitioner's related case,
referred to as an exhibit.

is

(See, Appendix 47, SDRT 8313-8328,

6/13/91, San Diego Superior Court No. 90280 [California Supreme
Court No. S023000] .)

I am familiar with Dr. Buchsbaum's research

and expertise, and have reviewed the described testimony from the
San Diego proceedings.
5. An integral factor in conducting the Selective Reductions
study was the advent of brain imaging in general over the
preceding decade (1980's), and positron emission topography (PET)
in particular, which allows for direct quantification of glucose
metabolism in selected brain areas; earlier technologies, such as
electroencephalograph ic (EEG) studies are more indirect and less
powerful.

The main aim of the study was to test the hypothesis

that violent offenders are characterized by prefrontal lobe
4

Exhibit 59-738

Petitioner's App. 43 - 661

ER 1109

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

DktEntry: 15-6

Page: 138 of (1330
298 of 1584)

Filed 09/07/10 Page 71 of 128 Page ID #:1084

dysfunction, as indicated by a selective reduction in glucose
metabolism during performance of neurological tasks in the
prefrontal cortex.

Prior to the publication of the results of

our study, the scientific community had recognized that a
decisive link between prefrontal lobe dysfunction and violence,
and in addition to the Selective Reductions study, current
neuropsycholog ical research provides strong evidence that such a
correlation exists.
6. In the Selective Reductions study, the PET brain scans of
twenty-two murderers and twenty-two controls subjects were
examined.

Twenty of the subjects were either charged with murder

(three with attempted murder)or had been convicted; some were
pending trial, others preparing for sentencing phases, or in
post-convictio n proceedings. While results of the study clea-rly
demonstrate there are significant differences in brain structure
and function of the forty~one violent offenders examined, from
those subjects examined in the control group, the findings do not
indicate that severe violence is a product of biological factors
alone, nor that social processes are unimportant in explaining
violence.

Indeed, the study provides a basis upon which future

brain-imaging studies may build in the contexts of law,
psychiatry and society.

There is every reason to believe that

prenatal and birth complications, childhood abuse and neglect,
5

Exhibit 59-739

Petitioner's App. 43 - 662

ER 1110

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

DktEntry: 15-6

Page: 139 of (1331
298 of 1584)

Filed 09/07/10 Page 72 of 128 Page ID #:1085

head trauma, drug abuse, and other factors, may contribute to
brain dysfunction and violence.

Some of these factors have been

discussed in detail in scientific literature, including articles
I have authored in Archives of General Psychiatry, December, 1994
(American Medical Assoc.), entitled, Birth Complications Combined
With Early Maternal Rejection at Age 1 Year Predispose to Violent
Crime at Age 18 Years, and Cerebrum (1999), Murderous Minds: Can
We See the Mark of Cain?
7.

Of the twenty-two subjects in the Selective Reductions

study, the reasons for referral were diverse, including histories
of schizophrenia, head injury or organic brain damage,
psychoactive drug abuse, affective disorder, epilepsy,
hyperactivity and learning disability, passive-aggressive or
paranoid personality disorder, and all subjects were screened to
assure that neither medication and drug use had occurred for two
weeks prior to testing.
8. In 1997 we published an update of the above-referenced
study in Biological Psychiatry, pp. 495-508, and increased the
sample size from 22 to 41 convicted murderers, and from 22 to 41
control subjects.

We again found poorer functioning of the

prefrontal cortex compared to controls, but in addition they
showed poorer functioning of the corpus callosum, abnormalities
in the thalamus·, hippocampus, and amygadala.
6

Exhibit 59-740

Petitioner's App. 43 - 663

ER 1111

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

DktEntry: 15-6

Page: 140 of (1332
298 of 1584)

Filed 09/07/10 Page 73 of 128 Page ID #:1086

9. Petitioner, Dean Phillip Carter, was one of the subjects
who underwent a PET scan at U.C. Irvine, on or about May 30,
1991, and his results were integrated into the study.

I am in

possession of petitioner's PET scan and raw data compiled from
the scan since 1991, as they related to the Selective Reductions
study.

I have also been provided a transcript of the testimony

of Monte S. Buchsbaum, M.D., elicited on June 13, 1991 in a
separate murder trial, in which Dr. Buchsbaum rendered an opinion
as to the "unusual abnormalities," depicted in petitioner's brain
scan, as well as his reference to a lack of information about
petitioner's medical background and life history.

I am informed

and believe the testimony of Dr. Buchsbaum occurred after the
trial of the instant murder case, in which petitioner was
convicted by a jury of murder in July, 1990.

( See Appendix 4 7

see also, Exhibit 5, Declaration of Kathleen Gilberd.)

REFERENCE QUESTION
10. Petitioner's attorney, Phillip H. Cherney, requested that
I review the above-referenced materials, and consult with him
with respect to the following question:
Does the 1991 PET scan of Dean Phillip Carter
depict any abnormalities of brain functioning,
and, if so, how might abnormalities effect him?
11. Prior to answering·the reference question, and in
7

Exhibit 59-741

Petitioner's App. 43 - 664

ER 1112

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

DktEntry: 15-6

Page: 141 of (1333
298 of 1584)

Filed 09/07/10 Page 74 of 128 Page ID #:1087

preparation of this declaration, I reviewed the petitioner's PET
scan, raw data test results, comparisons to other subjects within
the Selective Reductions study, as well as Dr. Buchsbaum's
In addition, I reviewed the neuropsychological test

testimony.

results conducted by Myla H. Young in 1999, her declaration, and
a summary of life history documents provided to me by Mr.
Cherney.

(Exhibitl4, Declaration of Myla H. Young,

12. Based upon the foregoing,

Ph.D.)

it was, and continues to be, my

opinion that petitioner's brain PET scan from May 30, 1991,
depicts significantly abnormal brain functioning. The lateral and
medial prefrontal cortex, corpus callosum, and occipital cortex
all show evidence of reduced functioning.

The hippocampus and

thalamus also show evidence of abnormal asymmetries of function,
while the midbrain is the one area that shows increased
functioning.
13.

The midbrain is thought to be the more "primitive" area

of the brain and involved in part in the generation of impulsive
aggressive feelings. The prefrontal cortex is an area involved in
regulating and controlling impulsive behavior and feelings, and
when functioning poorly the individual is less able to regulate
and inhibit their behavior in a socially-appropriate manner. The
corpus callosum allows the two cerebral hemispheres of the brain
to communicate with each other; if this is functioning poorly, it
8

Exhibit 59-742

Petitioner's App. 43 - 665

ER 1113

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

DktEntry: 15-6

Page: 142 of (1334
298 of 1584)

Filed 09/07/10 Page 75 of 128 Page ID #:1088

is possible that the more dominant, "logical" left hemisphere,
may be less able to regulate and control the more nonverbal
"emotional" right hemisphere.

The functional significance of the

hippocampus and thalamus is unclear at the present time.

The

occipital cortex is critical to processing visual stimuli.
14. Neuropsychological test data recently compiled by Dr.
Young indicates abnormally poor performance in several areas of
brain functioning,and Dr. Young's conclusion of diffuse brain
impairment is consistent with, and corroborative of, findings in
the 1991 PET scan.
15. Based upon the foregoing it was, and continues to be, my
opinion that significant abnormalities are depicted in the
petitioner's 1991 PET scan, and the petitioner's ability to think,
reason, problem solve, control his emotions and impulses, would
be significantly compromised by these brain dysfunctions.
risk factors,

When

such as prenatal and birth complications, childhood

abuse and neglect, head traumas, exposure to neurotoxins, such as
mercury, are additionally present, these combined factors may
particularly contribute to brain dysfunction and abnormalities
consistent with those depicted in the petitioner's PET scan.
I declare under penalty of perjury the foregoing is true and
correct, except as to information and belief, which I am informed
and believe to be correct, to the best of my knowledge, this
9

Exhibit 59-743

Petitioner's App. 43 - 666

ER 1114

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

\?,

day of

T~

DktEntry: 15-6

Page: 143 of (1335
298 of 1584)

Filed 09/07/10 Page 76 of 128 Page ID #:1089

/ 2000, at

California.

ADRIAN RAINE, D. PHIL.

10

Exhibit 59-744

Petitioner's App. 43 - 667

ER 1115

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-4

DktEntry: 15-6

Page: 144 of (1336
298 of 1584)

Filed 09/07/10 Page 77 of 128 Page ID #:1090

INDEX TO APPENDICES
ADRIAN RAINE, D. PHIL.

Source materials referenced in the order they appear in the declaration:

Appendix 47

Testimony ofMonte S. Buchsbaum, MD. [SDRT 8313 - 8328]

Exhibit 59-745

Petitioner's App. 43 - 668

ER 1116

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 146 of (1338
298 of 1584)

Filed 09/07/10 Page 62 of 103 Page ID #:1203

IN THE SUPREME COURT OF THE STATE OF CALIFORNIA

In re DEAN PHILLIP CARTER,

)
)

on Habeas Corpus.

)

NO.

.)
)
)
)
)
)
)

(Superior Court for
Los Angeles County
No. A-089330;
Related Appeal
No. S014021.)

______________________

DECLARATION OF DAVID VERNON FOSTER, M.D.
I,

1.

DAVID VERNON FOSTER,

state:

I am a physician licensed to practice in the states

of California.

I received a B.A. degree in 1968 from Pacific

Union College in Angwin, California.

I studied under

developmental psychologist Jean Piaget in Geneva, SwitzerlanQ,
and in 1973 I received my M.D. degree from Loma Linda
University in Loma Linda, California.

I completed a medical

internship at White Memorial Medical Center in Los Angeles
(1973-1974) and a residency at the Los Angeles county/USC
Medical Center (1974-1977).

Subsequently, I completed a

fellowship in child psychiatry at the UCLA Neuropsychiatric
Institute (1977-1979).

I am a Diplomate of the American Board

Exhibit 75-858

Petitioner's App. 44 - 669

ER 1117

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 147 of (1339
298 of 1584)

Filed 09/07/10 Page 63 of 103 Page ID #:1204

of Psychiatry and Neurology and am Board Certified in Chi~d
and Adolescent Psychiatry.
2.

I currently maintain a private practice in Auburn,

California, specializing in child, adolescent, and adult
neuropsychiatry, and in the diagnosis and treatment of
traumatic stress disorders.

From 1995 to 1999 I served as

Medical Director of Auburn Oaks Counseling Center, which
provides partial hospitalization and intensive outpatient
services as part of a larger integrated delivery system
operated by Behavioral Health Corporation.

I am a staff

member at the BHC parent hospital Heritage Oaks Hospital in
Sacramento, California.

I am also consulting staff at Char~er

Hospital in Roseville where I serve as consultant to the
Medical Director on program development for their adolescent
program and clinical management of their adolescent patients.
I also serve on the board of directors for the Placer County
Children's Collaborative, an innovative effort to integrate
the delivery of services to severely emotionally disturbed
children and youth and their families, and those who are at
high risk of emotional, educational, and behavioral problems.
In acidition I am Medical Consultant to the Director of the
Placer County System of Care Project for Children and Youth at
Risk, and Medical Director of Sierra Psychiatric Associates

in

2

Exhibit 75-859

Petitioner's App. 44 - 670

ER 1118

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

Auburn.

DktEntry: 15-6

Page: 148 of (1340
298 of 1584)

Filed 09/07/10 Page 64 of 103 Page ID #:1205

I am also Consultant to the Director of The Cencer

for the Study of Trauma and Violence and Social Change
affiliated with the Drew University School of Medicine and the
Los Angeles County Department of Probation.
3.

From 1989 to 1993 I was Medical Director of
From

Adolescent Services at Charter Hospital of Sacramento.

1987 to 1989, I was Chief of Children's Mental Health for the
Hawaii State Department of Health.

During this time I also

was an Attending Psychiatrist at Kahi Mohala Hospital in Ewa
Beach, Hawaii.

Prior to that, from 1979 to 1987, I held

several positions at New England Memorial Hospital in
Stoneham, Massachusetts, including Director of Adult and
Adolescent Inpatient Services, Acting Director of the
Department of Human Services (1985), Acting Chief of
Psychiatry (1984-1985), Acting Director of the Child Inpatient
Psychiatric Unit (1982-1984), Psychiatric Supervisor of
Outpatient Services (1979-1983), and Senior Clinical
Supervisor of Child Inpatient Services (1979-1983).

I am

founder and former Co-Director (1981-1984) of the Center fo~
Family Treatment in Stoneham.
4.

I was a Clinical Instructor in Psychiatry at Harvard

Medical School from 1979 to 1987.

During that period,

I also

supervised residents and fellows in psychiatry and child

3

Exhibit 75-860

Petitioner's App. 44 - 671

ER 1119

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 149 of (1341
298 of 1584)

Filed 09/07/10 Page 65 of 103 Page ID #:1206

psychiatry, and pre- and postdoctoral fellows in psychology ac
Cambridge Hospital's Department of Psychiatry.

I was

responsible, with other colleagues, for teaching courses in
child psychopharmacology and psychopathology to fellows in
child psychiatry.

From 1980 to 1984, I was a lecturer in

child psychiatry, family therapy and biopsychosocial medicine
in the family practice residency program of Boston
University's School of Medicine.

I have served as a

consultant to physicians, rehabilitation programs and health
care providers, both public and private.

I have lectured

extensively on behavioral neurology and brain and behavior
relationships.

I also am author of papers and presentation on

a variety of subjects, including adolescent development and
the use of biopsychosocial data in the assessment and
treatment of mental illness, and on the standards of practice
in mental health evaluations in capital cases.
5.

I have been involved in a range of criminal cases

and have testified or submitted declarations in state and
federal court for both the prosecution and the defense.

I

have conducted many psychiatric assessments of prisoners,
including competency evaluations, in county and state prisons.
On occasion, I have found that a prisoner was malingering or
have found it necessary to advise counsel that my findings

4

Exhibit 75-861

Petitioner's App. 44 - 672

ER 1120

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 150 of (1342
298 of 1584)

Filed 09/07/10 Page 66 of 103 Page ID #:1207

would not support a claim of incompetency,

insanity a:: :::--,'=

time of the alleged offense, or other mental health de:e~s~.
6.

Organizations and societies to which I have belonged

include the American Psychiatric Association, American Me::::i,~a.:._
Association, California Medical Association, Hawaiian
Psychiatric Association, and the Northern California Regio~a.:._
Organization of Child and Adolescent Psychiatry, the
Massachusetts Psychiatric Society, Massachusetts Medical
Society, and New England Council of Child Psychiatry.
7.

At the request of counsel for Dean Carter,

Phil.:._:;

H. Cherney, I conducted a psychiatric examination of Mr.
Carter at San Quentin State Prison on July 10, 2000.

This

included a mental status examination, neurological
examination, a structured psychiatric diagnostic interv~ew,

_

Luria-Nebraska screening test for possible neurological
impairments, a Dissociative Experiences Scale, a House-TreePerson Test, and an open-ended interview designed to elicit

3

medical and psychiatric history as well as any evidence of
malingering. Total interview time was four and one half-hours.
8.

The steps required in a competent mental health

evaluation are outlined in Kaplan and Sadock's Comprehensive
Textbook of Psychiatry (p 543, 4th ed. 1985).
An accurate medical and social history.

These are:

l)

Every attempt must be

5

Exhibit 75-862

Petitioner's App. 44 - 673

ER 1121

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 151 of (1343
298 of 1584)

Filed 09/07/10 Page 67 of 103 Page ID #:1208

made to get historical data not only from the accused, bu:
2) A thorough physical ano

also from independent sources.
neurological examination.

3) A complete psychiatric and

mental status evaluation.

4) Since mental status examination

cannot be relied upon alone to diagnose the presence or
absence of organic impairments, mental retardation, ar.c c:::-.e::
disabilities, the use of specific specialists must be
considered where appropriate. 5) Diagnostic studies such as
neuropsychological testing and other appropriate tests must
always be considered, and the failure to use them justified.
With the above data it is often possible for the

9.

trained neuropsychiatrist and neuropsychologist to determine
the individual's brain-mind states in the present and, give~
adequate historical data, to deduce their state in defined
past situations.

In this declaration we strive to make~-

clear enough so that the average citizen can understana how
our conclusions are logical and consistent with the evidenc:e .
. REFERENCE QUESTIONS AND MATERIALS REVIEWED

10.

Current counsel for Dean Carter, Phillip H. Cherney,

asked me to conduct a psychiatric examination and evaluat~~:.
of Mr. Carter.

The purpose of my examination was to determine

Mr. Carter's mental status currently, when in custody,

at the

time of his trial, statements made at the time of his arrest,

6

Exhibit 75-863

Petitioner's App. 44 - 674

ER 1122

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 152 of (1344
298 of 1584)

Filed 09/07/10 Page 68 of 103 Page ID #:1209

at the time of the crimes for which he has been sentenced
death, and at the time of the allegedly aggravating ac~s.
was also asked to determine the factors that influenced 0.:~
functioning and development,

including genetic predispositi0ns

to mental illness, the effect of severe physical,

and

psychological abuse,

and neglect, and his attempts to c0pe

with substance use.

As noted,

the evaluation consisted o:

interview with the client at San Quentin State Prison.

~~

:= also

reviewed extensive documentation of Mr. Carter's family,
social, medical and developmental history,

including:

educational records, medical records, declarations from
witnesses familiar with Mr. Carter and his family, materi.a.2..s
relating to Mr. Carter's arrest for the acts for which ~e has
been sentenced to death, materials relating to Mr. Carter ' prior convictions, and portions of the trial testimony
these cases.

,n

(See, Appendices 1, 9, 10, 13-20, 22-29, .:.:.--=~',

and 52.)
11.

Additionally,

I read the declarations of friends and

others who know Mr. Carter's family,

and cultural history a~d

have witnessed significant aspects of his social and
psychological development.

(See, Appendices 1-52.)

also reviewed the statements and testimony of family mem.oer5
and other witnesses to Mr. Carter's childhood and adult

7

Exhibit 75-864

Petitioner's App. 44 - 675

ER 1123

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

development.

DktEntry: 15-6

Page: 153 of (1345
298 of 1584)

Filed 09/07/10 Page 69 of 103 Page ID #:1210

These materials provide external validatio~ cf

Mr. Carter's social history, detailed in the Declaratic~ -~

Mindy Rosenberg, Ph.D., Ex.

The convergent data present in

8.

the consulted information offer a thorough and reliable
accounting of Mr. Carter's life and are'incorporated in~~ t~is
declaration.
12.

These are the kinds of materials routinely re~ien

upon by experts in the field of psychiatry to reach an expert
medical opinion. As noted above,

in performing a forensic

psychiatric assessment such as that requested in this case,
it is customary (indeed critical) that the psychiatrist
review all available school, medical, law enforcement,
incarceration, employment, psychiatric, psychological a~d
social service records available as well as vital statistic~
pertaining to the client, key family members, and freque~t
care givers.

It is also customary and proper to review s~cr~

statements and testimony of individuals who can provide
information regarding the behavior, characteristics anc
experiences of the client, his family members and the
This was also the customary

community in which he lived.

standard at the time of Mr. Carter's capital trial.

8

Exhibit 75-865

Petitioner's App. 44 - 676

ER 1124

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

13.

DktEntry: 15-6

Page: 154 of (1346
298 of 1584)

Filed 09/07/10 Page 70 of 103 Page ID #:1211

In performing a forensic psychiatric assessmenc,

is also customary for the evaluator to request that
information provided by the client be corroborated by oc~e~
sources of information (such as documents regarding the
underlying facts or the sworn statements of witnesses
familiar with the facts).

Finally, it is customary for

someone performing a forensic evaluation to have the clie~c's
counsel to provide him or her with additional informatio~
regarding the underlying facts,

if in the course of the

evaluation it appears that a particular set of facts playec _
role in the client's life.

This was also customary at the

time of Mr. Carter's capital trial.

SUMMARY OF FINDINGS
14.

Based on my psychiatric examination of Mr. Carc2r,

my review of the extensive historical material available c~
me, the Declarations of Mindy S. Rosenberg, Ph.D., Ex.
Myla H.

15,

Young,

Ph.D., Ex.

8,

and Adrian Raine, D. Phi_;_., ~_..

14,

I have formed professional opinions regarding Mr. Car:e~

's psychiatric, neurological, developmental, and physical
defects.

I have also formed professional opinions regarding

Mr. Carter's competency to stand trial, his adult behavior
and functioning, his current mental status, his mencal s:a:~~
at the time of the acts for which he was convicted, his

9

Exhibit 75-866

Petitioner's App. 44 - 677

ER 1125

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 155 of (1347
298 of 1584)

Filed 09/07/10 Page 71 of 103 Page ID #:1212

mental status at the time of his arrest, and his mental
stat~s at the time of the alleged aggravating acts.

I hold

my opinions to a reasonable degree of medical certainty.

T~e

facts upon which these opinions are based are outlined be~o~.
In summary, my findings are as follows:
15.

Before Birth, Mr. Carter was genetically

predisposed to a number of mental defects.

Mr. Carter's

family history is positive for addictive disease
(alcoholism), depression and other severe mood disorders.
16.

Childhood and Adolescent Abuse: Mr. Carter's

childhood exposed him to a wide-variety of dangers.

Among

these dangers was physical and emotional abuse and neglecL.
Mr. Carter was raised in an abusive and neglectful fami~y.
where he alternately experienced physical violence ana
self-destroying humiliation, shame, and helplessness at the
hands of both his mother and stepfather and numbing
emotional neglect and abandonment at the hands of the very
same people.

This early experience of trauma put hi~

danger of a wide variety of psychological disorders.

1n

His

early experience of violence and neglect did irreparable
damage to the chemistry and physiology of his brain, and to
his ability to develop an integrated and coherent awareness
and sense of self over time.

lO

Exhibit 75-867

Petitioner's App. 44 - 678

ER 1126

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

17.

DktEntry: 15-6

Page: 156 of (1348
298 of 1584)

Filed 09/07/10 Page 72 of 103 Page ID #:1213

In addition he suffered physisc:

Brain Damage:

traumas to his brain, including head trauma as a child and
adolescent from beatings by family and peers,

falls,

and

from motor vehicle accidents as six year old and as c young
adult.

(See Appendix 27, Pasas Interview with Edna Buffas,

9/30/86, Appendix 28,

Norton Sound Hospital Records,

4/15/62, and Appendix 48,
5/24/77 - 5/26/77.)

Providence Hospital Records,

Mr. Carter was also exposed to

significant neurotoxins as a child.

The isolated village

where he grew up was built on and around toxic pilings fro~
gold mining days that were full of mercury and other known
neurotoxins.

Mr. Carter would run away from home and slee~

in the dust of these tailings for days at a time or play
for hours in the mine tailings.

(Appendix 9, 1987

Technical Assistance Team "Weston Report" to the Uni reci
States Environmental Protection Agency, Appendix 49, Epler,
High Levels of Mercury, Arsenic Discovered at Nome
Playground (Anchorage Daily News), Appendix 50, Complia~~~
Order by Consent, Alaska Dept. of Environmental
Conservation vs. Alaska Gold Company, and Appendix 51,
Amendment to Compliance Order by Consent, Alaska Department
of Environmental Conservation vs. Alaska Gold Company.)

It

11

Exhibit 75-868

Petitioner's App. 44 - 679

ER 1127

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 157 of (1349
298 of 1584)

Filed 09/07/10 Page 73 of 103 Page ID #:1214

is also highly probable that Mr. Carter was exposed ~c
significant amounts of alcohol in utero, which is a know~
neurotoxin to the fetus.
indisputable proof of

Whatever the cause there is

Mr. Carter's brain damage available

from a Positron Emission Tomography (PET)

scan which shc~s

damage to those areas of the brain required for judgmen~,
insight, impulse control, and evaluation of reality and
appLopriate reality based responses.

Mr. Carter's

Neuropsychological testing also indicates damage to areas
of the brain involved in evaluation, judgment and impulse
control.
18.

Psychiatric Disorders:

Mr. Carter was abando~ed

and abused as a child and developed a traumatically based
attachment disorder and mood disorder which increases ones
vulnerability to stress and amplifies stress responses.

'-

2

began treating his pain at an early age with drugs and
therefore also suffered from severe drug dependence whi=~
further impaired his ability to accurately perceive and
understand the world around him, his ability to respond
adequately to complex situations, and his ability to
function normally.

There is credible evidence that Mr.

Carter suffers from a major affective disorder and suffers
severe mood swings.

Affective disorders like bipolar

12

Exhibit 75-869

Petitioner's App. 44 - 680

ER 1128

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 158 of (1350
298 of 1584)

Filed 09/07/10 Page 74 of 103 Page ID #:1215

disorder and major depression are biological conditions
with a genetic predisposition that is particularly ~ike~j
to manifest as a result of severe stress or loss.

All of

these disorders are chronic long-standing conditions in Mr.
Carter that were vulnerable to acute exacerbation
(especially under duress).

They were present before,

during, and after the crimes for which Mr. Carter is
convicted and sentenced to death.

They are all disorders

that were recognized in the American Psychiatric
Association's Diagnostic and Statistical Manual of Mental
Disorders available at the time of Mr. Carter's trial

(DSM

III) as well as the most resent edition (DSM IV).
19.

Stressors Before the Crimes. It is amazing that

Mr. Carter was able to function at all in any realm.
Stunningly, in his adult life between the ages of 23-28 he
was able to piece together a semblance of normality by
becoming a television camera man and by marrying and
fathering children.

In spite of these improbable

accomplishments, Mr. Carter decompensated under the weigh~
of the cumulative stress of his life and under the duress
of chronic drug and alcohol addiction.

Ill

13

Exhibit 75-870

Petitioner's App. 44 - 681

ER 1129

Case: 13-99003

04/03/2014

ID:9045913

. Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 159 o f ~ l of 1584)

Filed 09/07/10 Page 75 of 103 Page ID #:1216

SOCIAL HISTORY OF DEAN CARTER AND HIS FAMILY
20.

I have reviewed the Declaration of Mindy S .

Rosenberg, Ph.D., Ex.8, a l ong with rela ted appendices,

which provi de the personal, historical basis for proper
assessment.

As more completely descr ibed by Dr . Rosenberg ,

who~e declaration I have read, considered, and consulted ,~
conjunction with my interview of Dean, the f ol lowing
summarizes his life history : Parenta l abuse, neglecc,
isolation, rejection and multiple out-of-home placements
and institutionalization were prevalent .

He was born into

a unique cultural sett i ng of mixed racia l and ethnic
heritage in Nome, Alaska, where d is crimination and conf l ic~
with the dominant Western cul ture were ma j or psychoso cial
factors. His mother, Esther Stoney, whose own mother wa s
Eskimo , was unmarried at the time of Dean 's birth (-

1 955), and had one child (Jerry) at the time, who is

four years older t han Dean.

Dean's alleged biological

fa t her , Earl Ramey, never l ived in Esther's home, and has
not had any contact or involvement with Dean.

Dean was

born into a "fami l y" and community where alcohol ism was
common .

From his earliest days, Dean was phys i cal l y

abused, and e motionally shunned and rejected by h i s ~o ~h e ~ .
His step-father, James Carte r , who adopted Dean when he wa5
approximately five years old, was known i n the community as
14

Exhibit 75-871

ER 1130
Petitioner's App. 44 - 682

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 160 of (1352
298 of 1584)

Filed 09/07/10 Page 76 of 103 Page ID #:1217

intolerant and prejudiced towards Native Alaskans, whi=r. -·
well documented by the sworn testimony of Linda Ellana,
Ph.D., a cultural anthropologist at the University of
Alaska.
Ph.D.

(See, Appendix 10, Testimony

of Linda Ellena,

[SDRT 7890 - 7919]; see also, Declaration of Mindy ~.

Rosenberg, Ph.D., Ex.

8.) Both parents have been

universally described as heavy drinkers, who frequently
fought at home, becoming violent with one another and che
children.

(Appendix 22, Cohen Interview with Pollyanne

Reasner, 7/6/87; Appendix 23, Cohen Interview with Jer:::-y
Carter, 10/17/87; LART 5755 - 5757

[Testimony of Jerry

Carter]; Declaration of Mindy S. Rosenberg, Ph.D., Ex.
21.

8.

As a young child Dean was desperate for the

attention and love of his mother.

On one occasion, when he

was six years old, in the middle of the night he latched
onto the rear bumper of his mother's car as she attempted
to drive away from home, after refusing Dean's pleas for
her to stay. In this desperate gesture the soles of his
feet were lacerated, and his mother had to return home.
Dean was, however, "cast down" by his mother, and there is
ample additional evidence that Dean's mother, as well ~s
his step-father, viewed him as "born a bad egg," while hi~

15

Exhibit 75-872

Petitioner's App. 44 - 683

ER 1131

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 161 of (1353
298 of 1584)

Filed 09/07/10 Page 77 of 103 Page ID #:1218

older brother, Jerry, was praised and loved.

(Ibid.:

Appendix 13, Probation Report of Kenneth E. Brown, l/2S;7::..
and Appendix 29, Probation Report of Barton Penny,
4/30/73.)
22.

Dean was so deeply affected by being shunned~~~

rejected as a child that he began running away from home
the age of six.

2~

He describes wandering into the abando~e~

building known as the "old gold house, and of the many
episodes described over the next three years, he would
leave the shelter of "home" for the harsh Arctic
environment surrounding Nome.

He attempted to stow away :::::-.

airplanes on two occasions, and was located in a shed
his home on another.

(LART 5755,

~22~

5774; SDRT 7440-7443.

a final solution to Dean's "problem," as perceived by his
parents, he was chained to his bed, and is reported co have
been chained up for weeks at a time.
SDRT 7451-7452;

(LART 5757-5759;

7469-7471; Appendix 25, Case Histor:/

Summary of S.R. Sobel, Counselor, 1/17/75.)
23.

From his earliest childhood Dean experienced

familial rejection and was targeted for abuse within the
family.

He also experienced racial denigration by pee~s

and parents of both ethnic groups from which he was

16

Exhibit 75-873

Petitioner's App. 44 - 684

ER 1132

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

descended.

DktEntry: 15-6

Page: 162 of (1354
298 of 1584)

Filed 09/07/10 Page 78 of 103 Page ID #:1219

He would often wander the streets and a vaca~-

lot a few blocks from his home.

Dean was not recogr.i:eo

a unique and valuable individual by any person or group
with whom he had contact, and what minimal supporc he ma;
have received, did not ameliorate the effects of his
everyday experience of abuse and rejection.

(SDRT 7665-6E

Fred Wemark, Exhibit 10; Appendix 26, Pasas Interview wit~
Bertha Adsuna, July 1989.)

24.

At the age of nine, his parents sent Dean co

Seward, Alaska, to the Jesse Lee Home,

an orphanage and

home for "unwanted" Native Alaskan children.
15,

(Appendices

30, see also, SDRT 7714 - 7756 [Sue Broughton].'

was uprooted from Nome and sent 1,200 miles away, and he
was identified as an undesirable.

For the next 9 months

his description of life at Jesse Lee Home is one of bei~g
on "isolation."

His recollections are vague, but

he di~

not feel that he belonged or that he was engaged with
anyone or any activity.

He was fascinated with the

buildings at the Jesse Lee Home, but again describes his
experience as an "outsider," and someone who is once agai~
socially· ostracized.

As the Declarations of Fred Wemark,

17

Exhibit 75-874

Petitioner's App. 44 - 685

ER 1133

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 163 of (1355
298 of 1584)

Filed 09/07/10 Page 79 of 103 Page ID #:1220

Ex. 10, Florita Richardson, Ex. 11, and Monty Richardson,
Ex. 12, and Joyce Wemark-Birdinground, Ex. 13,

document,

Jesse Lee Home did not provide therapeutic intervention,

and Dean was observed to be distant, distracted and lonely
(ibid.).

This was Dean's first experience with

institutional life:

For the next 15 years,

from age nine

(1964) to age twenty-three (1979), Dean spent

nearly half

of his life institutionalized.
25.

Dean's childhood and teen years continued the

patterns of rejection and i~olation.

He begins entering

other people's homes to steal at a very early age, probably
at age six.

(Appendix 29, Barton Penny Report,

4/5/73.)

:Jr,

one occasion, Christmas Eve 1970, at age fifteen,

he is

caught inside another's home, eating their food.

(Appendi:·:

35, Finding of Fact,

1/20/71 and Appendix 36, Memo to

Barton Penny, 4/5/73.) He is placed in a foster home in

Anchorage after the latter incident.

(Ibid.)

He is

described by youth counselors as a young teenager as
appearing very immature for his age, and appearing as if a
"flash bulb went off in his face."

(Id., SDRT 7760; 7772 -

7782 [Testimony of Matsumoto and Finegan].) He runs away
three times from a juvenile detention facility outside the

18

Exhibit 75-875

Petitioner's App. 44 - 686

ER 1134

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 164 of (1356
298 of 1584)

Filed 09/07/10 Page 80 of 103 Page ID #:1221

Anchorage area, where he is detained, and again, each t:i:n€:
he is placed far away from Nome.
History Summary of S.R.

(Id., Appendix 25, Case

Sobel, Counselor, 1/17/75, Append.i..:-:

29, Probation Report of Barton Penny, 4/30/73.)

26.

Dean's childhood and youth can be summarized as

one of grave uncertainty and insecurity in a harsh
environment where he feels of isolated and rejected within
his family and community, and he is anxious and often feels
depressed, acting out of impulse rather than plan.

He

has

difficulties with attention and concentration is school,
and as described in greater detail hereafter, he struggles
to understand his impulsiveness, and anxiety and depressio~
are predominant symptoms observed by others.

While he is

accurately seen as relatively intelligent, he is also
perceived by adults in the juvenile justice system as
affecting a "breezy" exterior while trying to cope with a
multitude of internal problems.

(Id., Appendix 29,

Probation Report of Barton Penny, 4/3073; Appendix 31,
Psychiatric Evaluation by Marrianne Hagen, Ph.D., 6/1/71.

J

There is no therapeutic intervention and Dean's own abili~v
to cope with his impulses, and the rejection of his family,
is limited; he often feels anxious and depressed.

(Ibid.:

19

Exhibit 75-876

Petitioner's App. 44 - 687

ER 1135

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

27.

DktEntry: 15-6

Page: 165 of (1357
298 of 1584)

Filed 09/07/10 Page 81 of 103 Page ID #:1222

Dean began using marijuana,

LSD and other

psychoactive drugs at age eleven or twelve,

and he used

them frequently throughout his youth and into adult life.
He describes use of psychoactive substances use many times,
and he began using methamphetamine in 1974, experiencing
"frequent dizziness" as a side effect of the latter.

(Appendix 25, Case History Summary of S.R. Sobel,
Counselor, 1/17/75.)

In a- September 7, 1972 medical

examination for military service he described use of LSD
fifteen times, amphetamines three times,
occasionally.
9/7/72.)

and marijuana

(Appendix 46, Military Exam Records,

In the past Dean described early use of

psychedelic drugs as causing "bad trips," but, he is alsc
experienced intense stimulation by the use of drugs.

~e

does not, however, appear to have been an abuser of alcohc:
in his youth,

in part because of his reaction to his

parents' heavy abuse, and at age 10 he was impacted on
learning that a neighbor had frozen to death while drunk.

(Appendix 44, Report of Robert McManmon, M.D., 11/18/77.)
28.

Dean's use of alcohol was minimal, until,

he was

paroled in 1979 from Alaska Department of Corrections.
After 1981, the dissolution of his brief marriage,

and

20

Exhibit 75-877

Petitioner's App. 44 - 688

ER 1136

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 166 of (1358
298 of 1584)

Filed 09/07/10 Page 82 of 103 Page ID #:1223

unttl his arrest on capital murder charges in April,
Dean's use of alcohol escalate d tremend ously.

1984,

As one

person, Mary Alexand er, describ ed him, he "looked te::::-r ib.:..e"
when she saw him in 1982

(RT 5821), and by early 1984,

alcohol and cocaine abuse increas ed as Dean's life
unravel ed.
29.

Dean's combine d use of alcohol abuse and cocaine

led others to become deeply concern ed about him.

As

describ ed by Robert Jenkins , by early 1984, Dean was
drinkin g excessi vely and abusing cocaine to the point where
he was "clearl y out of control " (RT 5869), and in telephon e
convers ations he sounded "parano id" and often "incohe rent..
(RT 5874; see also, SDRT 8060; 8069.)

0

Others who had know~

him over the few years since his release from Eagle
Mountai n Correct ional Facilit y observe d Dean to show
"flashe s of anger" (Andrew Holtz [RT 5898)), and accordin g
to another friend, Melinda Eggars, he was acting "spaceci
out, incoher ent" and appeare d "depres sed, kind of out o~
it" (RT 5841-42 ) in early 1984, even "slouch y and kind of
dirty"

(RT 5448) as Paula Von Gemming en related .

Carol

Bain describ ed him as withdraw n and "depres sed" when he
visited her in Hawaii at the end of 1983.

(SDRT 8011-12 .:

Susan Layland , a bar waitres s in San Diego,

describ ed her

21

Exhibit 75-878

Petitioner's App. 44 - 689

ER 1137

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 167 of (1359
298 of 1584)

Filed 09/07/10 Page 83 of 103 Page ID #:1224

relationship with Dean in March, 1984, as revolving around
alcohol, drugs and sex, and they were "high most of the
time.n (SDRT 3909-3820.)
30.

Rose Steward, the prosecution witness who

testified in the penalty phase in aggravation in Los
Angeles, and also in the San Diego case, observed Dean's
use of alcohol, marijuana and cocaine during two weeks in
March, 1984.
13; 3577-78.)

(RT 5672; 5504; 5611-5615; SDRT 3462-63; 3512In addition to the physical assault to her,

Ms. Steward described Dean as alternately angry and then
"crying and hugging hern (RT 5721), and having a "glazedu
lool: in his eyes (RT 5722).

Ms. Steward described Dean as

violent and in a "trancen during the altercation, the~ "he
put his head in his handsn as if "he didn't know what haa
happened.u
31.

(SDRT 3469-70.)
Dean also reportedly informed Ms. Steward at tne

end of the assault that took place on March 29, and Andre~
Holtz shortly thereafter in a telephone conversation,

in

which sounded "very depressed,n possibly·suicidal, that he
needed psychiatric help.

(RT 5904-5905; 5722.)

I//

22

Exhibit 75-879

Petitioner's App. 44 - 690

ER 1138

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 168 of (1360
298 of 1584)

Filed 09/07/10 Page 84 of 103 Page ID #:1225

OTHER EVALUATIONS

32.

School Records.

School records indicate that

~ean was an average to poor student in the Nome public
elementar y school system.

Attendanc e is sporadic.

He aid

not attend school in the second grade at all, but
eventuall y he was allowed to move to third grade.

This

period (1961-62) , when he was approxim ately six-seven years
old, also coincides with a time when he was struck by a ca~
and injured, several episodes in which he began to run
away,

culminat ing in being chained to the bed.

As he

spent the better part of the fourth grade at Jesse Lee Home
in Seward, where he attended Bayview Elementa ry, and he
returned to Nome to finish.

(Appendix 17, Seward Public

School Records; Appendix 15, Applicati on to Jesse Lee Hom2,

9/10/64.)

At Jesse Lee Home, Dean describes his inability

to see clearly from the front row in class; he is
prescribe d lenses for the first time and his vision
improves dramatic ally.

(Ibid.; see also, Declarati on of

Mindy S. Rosenber g, Ph.D., Ex.

8.)

As Alaska juvenile

instituti onal records reveal, Dean is observed by one of
his 9tn grade teachers at Alcantra Youth Camp as an
"independ ent" student, "restless in class and cannot work

23

Exhibit 75-880

Petitioner's App. 44 - 691

ER 1139

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 169 of (1361
298 of 1584)

Filed 09/07/10 Page 85 of 103 Page ID #:1226

at length on assignments ... ," and two years later as "an
intelligent but disoriented youth."

(Appendix 32, Wasecha

Report, 3/11/69; Appendix 13, Probation Report of Kenneth
E. Brown, 1/25/71.)

In 1975, at age 19, Dean is also

described by a psychiatrist as having "above average
intelligence." (Appendix 33, Report of J. Rennebohm, :1.D.,
1/17/75; see also, Appendix 31, Psychiatric Evaluatior. by
Marrianne Hagen, Ph.D., 6/1/71.)

grade.
33.

He completed the tenth

(Appendix 16, Nome Public School Records.)
Juvenile and Young Adult Evaluations.

The theme

of lack of special-education or therapeutic intervention
continues throughout the reports generated during Dean's
institutional confinement, and is discussed in greater
depth in the Declaration of Mindy S. Rosenberg, Ph.D., Ex.
8.

The reports provide contemporaneous portraits of ~ean,

the Carter family dynamics, and a doubtful prognosis for
Dean's future.

Of particular note, a probation report

prepared for the Alaska Juvenile Court, January 25,

1971,

when Dean is 15 years old, after the commission of a
burglary in Nome on Christmas Eve, 1970, the officer points
out that "there is some evidence that indicates that he
wanted to be caught in order to escape his home situation

24

Exhibit 75-881

Petitioner's App. 44 - 692

ER 1140

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

and to get out of Nome."

DktEntry: 15-6

Page: 170 of (1362
298 of 1584)

Filed 09/07/10 Page 86 of 103 Page ID #:1227

(Appendix 13,

Kenneth E. Brown, 1/25/71.)

Probation Report o~

Upon interviewing Esther and

Jim Carter, the Probation Officer Kenneth Brown notes
Dean's parents "just cannot understand what is wrong wi~h
their son [and] Mrs. Carter told me on many occasions tha~
she has just given up on Dean ... ,

[because] in their vie',<

he seems to have been born a bad egg."

(Ibid.)

In Office:

Brown's words, "Dean evidently did not receive the
at.tention and guidance which he wanted and needed at: home."
(Ibid.)

He points out to the juvenile court that Dean's

"developmental problems began very early in life due ~o
rather neurotic family arrangement."
analysis

(Ibid.)

~

In the fina:

the officer recommends a foster home placement in

lieu of juvenile detention facility because "what he has
never had and what he desperately needs is a stable and
loving home." (Ibid.)
34.

Sixth months later, June, 1971, Dean is evaluatej

for the first time by a psychologist, Marianne Hagan,
Ph~D., as part of an evaluation for promotion into a
program at A.J. Dimond School, an alternative high school
in Ar,chorage, where Dean is attending the tenth grade.
(Appendix 31, Psychiatric Evaluation of Marianne Hagan,

25

Exhibit 75-882

Petitioner's App. 44 - 693

ER 1141

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

Ph.D.,

6/1/71.)

DktEntry: 15-6

Page: 171 of (1363
298 of 1584)

Filed 09/07/10 Page 87 of 103 Page ID #:1228

Dr. Hagen determines that Dean functions

with "the basic ability and academic skills necessary to
function in high school ... ," but she finds that his
"primary difficultie s center around his difficultie s with
relationshi ps, a tendency to over-react, and a high anxiety
level."

(Ibid.)

She refers to "Dean's perceptual skills

[as] generally good but again in this area there is
distress which is apparently caused by his high anxiety
level and other emotional adjustment difficultie s."
She views test

(Ibid.

data supports a "general level of

intellectua l functioning within the 'high average'

range

except in areas that are sensitive to an emotional tensio~
of anxiety."

(Ibid.)

He is observed to mask

anxieties

with an "evasive, breezy, hands off approach," but because
of "high anxiety and other emotional adjustment
difficultie s ... , Dean tends to build up to a point of
over-reacti on ... , and perhaps some breaks in judgment."
(Ibid.)

She foresees a "pattern of emotional response

[that] will continue to create problems for him." (Ibid.)
35.

At age 17, in April, 1973, Dean was arrested

again for burglary, and he was seen by Donald D. Kennoye~
at Gateway Community Mental Health Center in Ketchikan,

26

Exhibit 75-883

Petitioner's App. 44 - 694

ER 1142

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 172 of (1364
298 of 1584)

Filed 09/07/10 Page 88 of 103 Page ID #:1229

Alaska, reg~rding a recommendation as to whether Dean
should be treated as an adult.

Dr. Kenoyer recommended

Dean be treated as a juvenile, finding him to be "quite
likeable," but following with "the prognosis for the boy is
[not] exceptionally good."

(Appendix 38, Report of Donald

B. Kennoyer, Ph.D., 4113172; Appendix 36, Memo to Bart
Penny, 415173; Appendix 29, Probation Report of Barton
Penny, 4130/73.)

Dean's own reason for committing a series

of burglaries was that "it seemed like a good thing to do"
and "it was a dumb thing to do," while the Probation
Officer, Barton Penny,

recommended Dean be treated as a

juvenile because, among other things, he was "impulsive
remains immature ... ,
life .... "

[and] has no sense of direction in his

(Ibid.) As others have learned, Mr. Penny also

found he "has been unable to communicate with Mr. and Mrs.
Carter,

[and] the record has been very revealing as far a

determining their attitude and concern for Dean's present
circumstances ... ,
to the [alleged]

[that is]

they have resigned themselves

fact that 'Dean must have been born bad.'"

(Ibid.)
Ill

27

Exhibit 75-884

Petitioner's App. 44 - 695

ER 1143

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

36.

DktEntry: 15-6

Page: 173 of (1365
298 of 1584)

Filed 09/07/10 Page 89 of 103 Page ID #:1230

On January 17, 1975, Dean, 19 years old, enterej

the Oregon Department of Corrections for adult burglary
convictions.

A counselor observed Dean appeared on intake

as "an immature, undirected young man of average
intelligence ... , who likes to think of himself as 'foot
loose and fancy free.'"

(Appendix 25, Case History Summary·

of S.R. Sobel, Counselor, 1/17/75.)

Dean was also seen

over the next four months by a psychiatrist,
M.D.

(Appendix 42,Reports of J. Rennebohm,

J. Rennebohm,

1/17/75,

4/3/

7

'.°,

5/1/75, and 5/29/75.)
37.

Dr. Rennebohm described Dean as possessing above-

average intelligence, but "[d]ynamically , it would appea~
that he has operated much of his life with goals that are
rather vague, an uncertain sense of self, and, somehow, an
especially active conscience . . .

[ and] it is, therefo:!::'e,

that much of his thinking revolves around self-reproach. u
(Appendices 33, Report of J.

Rennebohm, 1/17/75, and 42,

Reports of J. Rennebohm, 1/17/75, 4/3/75, 5/1/75, and

5/29/75.)

In this initial interview, Dr. Rennebohm noted

Dean's "problems are essentially those of chronic anxiety
ten~ion recently aggravated by a depression condition.u

28

Exhibit 75-885

Petitioner's App. 44 - 696

ER 1144

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

{Ibid.)

Page: 174 of (1366
298 of 1584)

Filed 09/07/10 Page 90 of 103 Page ID #:1231

Dr. Rennebohm prescribed Sinequan for symptoms o:

depression and insomnia.
38.

DktEntry: 15-6

(Ibid.)

Dr. Rennebohm interviewed Dean again on April 3,

1975, and he described him as engaged in "a substantial
measure of conscience activity ... and committed to doing
right and staying out of trouble . . .

[but] he does not ha 1e
0

a clear-cut sense of personal identity ... and that which
is present includes a strong inclination toward selfdisdain." (Appendix 42, Report of J. Rennebohm,

4/3/75.)

Dr. Rennebohm altered his prescription, ordering Prolixin
and Librium to alleviate "problem[s] of anxiety and
depression, which has been manifested mainly in insomnia
and irritability." (Ibid.)
39.

Dr. Rennebohm next saw Dean on May 1, 1975,

prescribed Benadryl and continued Librium, but noted "the
prospects for definitive and constructive action on his
part in this regard [rehabilitation] does not appear
strong .... "
40.

(Appendix 42, Report of J. Rennebohm,

5/ l / 7 5. 1

Dr. Rennebohm last saw Dean on May 29, 1975, and

again ordered continuation of Benadryl and Librium, but
wrote, Dean "is, however, still markedly anxious, which~~

29

Exhibit 75-886

Petitioner's App. 44 - 697

ER 1145

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 175 of (1367
298 of 1584)

Filed 09/07/10 Page 91 of 103 Page ID #:1232

an indication that his conflicts are not yet fully
resolved."

(Appendix 42, Report of J. Rennebohm,

5 / 2 9 .'

7

~

•

Dean remained in prison through the next two years and was
released in March, 1977.

(Appendix 43, Oregon Correctional

Entry Data/Discharge Form, 3/3/77.)
41.

In May, 1977, at age 21, Dean, employed to handle

cargo by Servair at the airport in Anchorage, Alaska, wass
arrested for burglary again.

As observed by a court-

appointed psychiatrist, Robert McManmon, M.D., Dean has
"repeated non-violent offenses and no history of alcohol
abuse [with a] history of depressive symptoms ... ,
tend[s]

to see things in a rather concrete way with little

insight .... "
M.D.,

[who]

(Appendix 44, Report of Robert McManmon,

11/18/77.)
42.

While imprisoned (January, 1978-January, 1979),

at Eagle River Correctional Facility in the Alaska State
Department of Corrections, Dean, 23 years of age, was
examined by prison psychologist, Kathi Smith, Ph.D.
(Appendix 45, Report of Kathi Smith, 3/22/78.)

She

administered the Minnesota Mul tiphasic Personalty Invento!:"~:
(:MMPI), concluding that test data disclosed a young man
"somewhat depressed, restless, and having difficulty

30

Exhibit 75-887

Petitioner's App. 44 - 698

ER 1146

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

controlling impulses.

11

DktEntry: 15-6

Page: 176 of (1368
298 of 1584)

Filed 09/07/10 Page 92 of 103 Page ID #:1233

(Ibid.)

She suggested testing data

"raises the question of [unspecified] psychiatric
problems.
43.

(Ibid.)

11

It is noteworthy that until his release from

Eagle River Correctional Facility in 1979 at age 23,

Dean

spent the majority of his life in one institutional setting
or another.

In none of these settings (Jesse Lee Home,

Alcantra, McLaughlin, DeWitt Nelson, Ben Lomond Youth Camp
or Oregon State Correctional Center) was Dean ever
perceived as a discipline problem, and shortly before his
release from the Honor Unit at Eagle River Correctional
Center he was seen as a "most positive influence on other
inmates .... 11
SDRT 7789-90.)

(Appendix 45, Report of Kathi Smith,

3/22/78;

After early runaway episodes when he was a

young teenager, Dean in fact adjusted well to the
discipline and confinement of institutional life, and there
are no significant incidences.
Testimony of James W.L.

44.

(See also, Appendix

41,

Park [SDRT 8183-8202) .)

Until his arrest on murder and rape charges

~ ..

April, 1984, at age 28, Dean spent a little over five year~
(March, 1979-April, 1984) of his life without arrest or
conviction on criminal charges.

As is well documented in

31

Exhibit 75-888

Petitioner's App. 44 - 699

ER 1147

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 177 of (1369
298 of 1584)

Filed 09/07/10 Page 93 of 103 Page ID #:1234

the testimony in both of Dean's trials, he learned
photography and cinematography at Eagle River Correctiona~
Fa~ility, and, as is also fully documented, began his new
career with the Department of Corrections and the State o=
Alaska.

(See, LART 5785-5792; SDRT 7847-7866; 7947-7964.J

After release from prison in spring 1979 Dean was gainfully
employed as a camera man for Channel 2 in Anchorage, then
the University of Alaska, and he worked on and off as a
photographer, including for the Native Alaskan Kawerak,
Inc., up to the breakup of his marriage to Kathleen Fulle~.
(LART 5893-96; 5881-5889; 5849-5854; 5801-5810; SDRT 785054; 7870~71; 7966-7974; 8025-8030; 8079-8085; 8104-8110;
7874-75.

See also, Appendix 52, Alaska Superior Court

Records, Case No.
45.

June,
sons

82-4012, 6/29/82 .)

By all accounts his brief marriage

(June,

1980 -

1982) reached a high point with the birth of twin

(James and Jonathan) January 7, 1981, and its low

point with their separation at the end of December, 1981.
(LART 5820-23; SDRT 7870-71; 7997-8000; 8004; Appendix 52,
Alaska Superior Court Records, Case No.

82-4012, 6/29/8:

.

32

Exhibit 75-889

Petitioner's App. 44 - 700

ER 1148

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 178 of (1370
298 of 1584)

Filed 09/07/10 Page 94 of 103 Page ID #:1235

NEUROPSYCHIATRIC EVALUATION OF DEAN CARTER
46.

On July 10, 2000 I conducted a neurological and

psychiatric examination of Mr. Carter at San Quentin State
Prison.

The psychiatric evaluation included a mental

status examination, a structured psychiatric diagnostic
interview, a Luria-Nebraska screening test for possible
neurological impairments, the Dissociative Experiences
Scale (DES), a House-Tree-Person (HTP) test to evaluate
visual motor integration, and psychological and emotional
functioning,

self concept, and self development.

The

interview also included an open-ended interview designed

r-

elicit a medical and psychiatric history as well as any
evidence of malingering. Total examination time was four
and one half hours.

Mr. Carter is a large man

approximately six foot three inches tall and two hundred
fifty pounds.

He wore graying black hair combed back fro~

his face, has brown eyes, covered by brown plastic rimmed
glasses, an unclipped mustache and tufts of uneven beard
hair on his roundish face. He was dressed in prison blue
over long johns and wore his collar open at the top.

33

Exhibit 75-890

Petitioner's App. 44 - 701

ER 1149

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

47.

DktEntry: 15-6

Page: 179 of (1371
298 of 1584)

Filed 09/07/10 Page 95 of 103 Page ID #:1236

He was pleasant in demeanor and expression, and

was initially fairly voluble.

He frequently attempted.to

break the tension of the interview with efforts at humor
and frequently displayed a wry smile that was at times
incongruous with the serious content of his difficult
childhood or the difficult circumstances of his
imprisonment.

His thought processes were generally

logical, but frequently tangential (going off on a tangent
and not returning to the original topic), and at times
circumstantial (going off on tangents but returning to the
original topic).

(Tangentiality and circumstantiality are

frequently found in brain damaged people.)

He was alert,

oriented to person, place, and time, and cooperative witb.
all aspects of the evaluation.

Immediate memory was intac~

with ability to repeat seven digits forward and five digitE
backwards.

Recent memory was impaired with ability to

recall only three of four items after ten minutes.
remote memory had gaps in his recall.

His

His earliest memory

was of Christmas of his third year, remembering being
awakened by his brother who was shaking him and saying,
"There's Santa Clause!" and seeing a "flash of red" as
someone ran across the room.

When he was informed at seve~

or eight by a peer that there was no Santa Clause he states

34

Exhibit 75-891

Petitioner's App. 44 - 702

ER 1150

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 180 of (1372
298 of 1584)

Filed 09/07/10 Page 96 of 103 Page ID #:1237

that this consolidated his belief that he could not trus~
grown ups.

He remembers frequent beatings by his mo~~er

and step-father and runaways from the age of six or befcre,
but tends to gloss over his painful memories with "good
timesu of "hunting, fishing,

camping, playing basketball,"

which independent witnesses report he was frequently left
out of by his step-father and brother.

He is quick to

excuse his parents for their beatings of him and sending
him to out of home placement at an early age.
the best they could.

"They did

What were they supposed to do with

me?"
48.

This minimizing and dismissive response was

typical of all efforts to assess his mood and affective
status.

His history, choice of stimulant drug use, and

previous psychological testing results indicate a history
of depression and mood swings, but Mr. Carter minimizes
mooc symptoms.

However, Mr. Carter does admit that he was

severely stressed by the breakup of his marriage and that
his stimulant drug abuse increased at that time.
49.

It is after his divorce that his life seems to

fall apart.

He continues to believe that the KGB was

35

Exhibit 75-892

Petitioner's App. 44 - 703

ER 1151

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

following him in Anchorage.

DktEntry: 15-6

Page: 181 of (1373
298 of 1584)

Filed 09/07/10 Page 97 of 103 Page ID #:1238

Because of these perceptions

and the accompanying fear that his life was in danger, he
began to move around from friend to friend and finally
became so concerned that he left suddenly in the middle o:
the night for Seattle where he had a friend.

In Seattle he

again became convinced that the KGB were following him so
he again suddenly left his job at a news station and went
to Hawaii.

He finally ended up in San Diego.

There his

drinking and massive drug use continued -- as did his
He reports that drug use started at chirceen

paranoia.

when he was locked up at McLaughlin Youth Center in
Anchorage.
severe.

By the time he was 18 his drug use had become

He used hallucinogens

(primarily LSD), but became

dependent on amphetamine or cocaine usage, which would go
on runs of about six days "until I was psychotic and would
crash."

He made attempts to get away from drugs like

coming to California at 19 "just to get away from Alaska
and all the drugs."

Instead he again ended up in trouble

due to his impulsive behavior and poor judgement.

On

impulse he decided to go see a girl he knew in Oregon.
There he was arrested for not having the headlight on of
the stolen motorcycle he was riding.

This pattern of

self-defeating behavior was a pattern described throughout

36

Exhibit 75-893

Petitioner's App. 44 - 704

ER 1152

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 182 of (1374
298 of 1584)

Filed 09/07/10 Page 98 of 103 Page ID #:1239

his life: "I couldn't seem to think before I acted or to
not do stupid things.n
50.

Neurological examination was significant for an

upturned Babinski reflex on the left.

This is consistent

with cortical damage in the right hemesphere.

CONCLUSIONS
51.

A review of Mr. Carter's developmental, medical,

and social history, the

neuropsychological testing, brain

PET scan, and psychiatric and neurological evaluation
results in an overwhelming convergence of data proving that
Mr. Carter has brain damage to those parts of his brain
needed for the executive functions of insight,
and impulse control in actual situations.

judgment,

Persons with

such damage can, in the abstract report appropriate
responses to given situations, but cannot be relied upon to
guide their own behavior in actual situations.

In real

life situations - most especially when stressed or under
the influence of alcohol or drugs - they are more like
sleep walkers reacting to unconscious or emotionally
triggered impulses and not guided by conscious and

37

Exhibit 75-894

Petitioner's App. 44 - 705

ER 1153

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 47-5

DktEntry: 15-6

Page: 183 of (1375
298 of 1584)

Filed 09/07/10 Page 99 of 103 Page ID #:1240

rational decision making processes.

Mr. Carter also has

been intermittently delusional and still believes that he
was being followed by the KGB.

This psychotic thinking

would further compromise his decision making.

It can be

stated with medical certainty that Mr. Carter's
neurological and psychiatric problems are long standing and
were present during the time frame of the crimes for which
he is convicted and sentenced to death.

Ill

38

Exhibit 75-895

Petitioner's App. 44 - 706

ER 1154

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 184 of (1376
298 of 1584)

Case 2:06-cv-04532-RGK Document 47-5 Filed 09/07/10 Page 100 of 103 Page ID
#:1241

I declare under penalty of perjury under the laws of the United States and California that

the foregoing is true and co~t to the best of my knowledge. _
Executed this
/ ~ , of July 2000.

~ { / ~ ~ b/1..W
DAVID VERNON FOSTER, M.D.

39

Exhibit 75-896

Petitioner's App. 44 - 707

ER 1155

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 185 of (1377
298 of 1584)

Case 2:06-cv-04532-RGK Document 47-5 Filed 09/07/10 Page 101 of 103 Page ID
#:1242
INDEX TO APPENDICES
DAVID V. FOSTER, M.D.
Source materials referenced in the order they appear in the declaration:

Appendix 1

Birth Certificate of Dean Phillip Carter

Appendix 2

John Murray, Alaska (1999 Compass America Guide), pp. 45-50, 289, 297-300

Appendix 3

M. Phillips and T. Inui, The Interaction ofMental Illness, Criminal Behavior and
Culture: Native Alaskan Mentally Ill Criminal Offenders, Culture, Medicine and
Psychiatry. 10 (1986) 123-149

Appendix 4

lnupiat /thitqusiat, August 24, 1996, "The Arctic Venturer: Preserving the Inupiaq
Values" (Ballot, S.), P. 30, "Responsibility to Tribe: Education" (Wilson), p. 31;
"Spirituality" (Asik), pp. 35-36

Appendix 5

"Two Worlds One Whale" (Lord), pp. 58-65, 87, 86 Sierra 4 (July/August 2000)

Appendix 6

Nick Jans, The Last Light Breaking. Living Among Alaska's Inupiat Eskimos (1993,
Alaska Northwest Books), pp. 30, 42

Appendix 7

J.D. Bloom, M.D., Psychiatric Problems and Cultural Transitions in Alaska, Journal
of the Arctic Institute ofNorth America, (1972) Volume 25, Number 3, pp. 205-215

Appendix 8

J.D. Bloom, Cross-Cultural Forensic Psychiatry in Alaska, Bulletin of the American
Academy of Psychiatry and the Law (1975), Volume ill, Number 4

Appendix 9

1987 Technical Assistance Team "Weston Report" to the United States
Environmental Protection Agency

Appendix 10

Testimony of Linda Ellanna (SORT 7890 - 7919]

Appendix 11

N. Chance, The Inupiat and Arctic Alaska (1990; Harcourt Brace)

Appendix 12

E.F. Foulks, The Arctic Hysterias of the North Alaskan Eskimos (1972)
Anthropological Studies

Appendix 13

Probation Report of Kenneth E. Brown, 1/25/71

Appendix 14

Cohen Interview with Esther Carter, 6/16/87

Appendix 15

Application to Jesse Lee Home, 9/10/64

Appendix 16

Nome Public School Records

Exhibit 75-897

Petitioner's App. 44 - 708

ER 1156

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 186 of (1378
298 of 1584)

Case 2:06-cv-04532-RGK Document 47-5 Filed 09/07/10 Page 102 of 103 Page ID
#:1243
Appendix 17

Seward Public School Records

Appendix 18

Death Certificate of James Woodward Carter

Appendix 19

Pre-Sentence Report of Paul Tannenbaum, 10/27/77

Appendix 20

Cohen Interviews with Ida Everin, 1/6/87 and 9/7/87

Appendix 21

E. Adamson Hoebel, Law-Ways of the Primitive Eskimos, 31 Journal of Criminal Law
& Criminology (1953) 663, 670-72

Appendix 22

Cohen Interview with Pollyanne Reasner, 7/6/87

Appendix 23

Cohen Interview with Jerry Carter, 10/17/87

Appendix 24

Cohen Interview with Edna Bu/fas, 5/16/87

Appendix 25

Case History Summary of S.R. Sobel, Counselor, 1/17/75

Appendix 26

Pasas Interview with Bertha Adsuna, July 1989

Appendix 27

Pasas Interview with Edna Bu/fas, 9/30/86

Appendix 28

Norton Sound Hospital Record, 4/15/62

Appendix 29

Probation Report of Barton Penny, 4/30/73

Appendix 30

National Register of Historic Places, Jesse Lee Home for Children, United States
Department of the Interior, National Park Service (8-86), pp. 1, 17

Appendix 31

Psychiatric Evaluation by Marrianne Hagen, Ph.D., 6/1/71

Appendix 32

Wasecha Report, 3/11/69

Appendix 33

Report of J. Rennebohm, MD., 1/17/75

Appendix 34

Report of Kenneth E. Brown, 9/10/70

Appendix 35

Finding of Fact, 1/20/71

Appendix 36

Memo to Bart Penny, 4/5/13

Appendix 37

Enlistment Contract and Article 15 Records, 11/01/72, 11/18/72

Appendix 38

Report of Donald B. Kennoyer, Ph.D., 4/13/72

Appendix 39

Memorandum of Classification Committee, 5/8/73

Exhibit 75-898

Petitioner's App. 44 - 709

ER 1157

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 187 of (1379
298 of 1584)

Case 2:06-cv-04532-RGK Document 47-5 Filed 09/07/10 Page 103 of 103 Page ID
#:1244
Appendix 40

Department of Youth Authority Letter, 5/15/73

Appendix 41

Testimony of James W.L. Park [SORT 8183 - 8201]

Appendix 42

Reports of J. Rennebohm, MD., 1/17/75, 4/3/75, 5/1/75, and 5/29/75

Appendix 43

Oregon Correctional Entry Data/Discharge Form, 3/3/77

Appendix 44

Report of Robert McManmon, MD., 11/18/77

Appendix 45

Report of Kathi Smith, 3/22/78

Appendix 46

Military Exam Records, 9/7/72

Appendix 47

Testimony ofMonte S. Buchsbaum, MD. [SORT 8313 - 8328]

Appendix 48

Providence Hospital Records, 5/24/77 - 5/26/77

Appendix 49

Epler, High Levels ofMercury, Arsenic Discovered at Nome Playground
(Anchorage Daily News)

Appendix 50

Compliance Order by Consent, Alaska Department of Environmental
Conservation vs. Alaska Gold Company

Appendix 51

Amendment to Compliance Order by Consent, Alaska Department of Environmental
Conservation vs. Alaska Gold Company

Appendix 52

Alaska Superior Court Records, Case No. 82-4012, 6/29/82

Exhibit 75-899

Petitioner's App. 44 - 710

ER 1158

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 189 of (1381
298 of 1584)

Filed 09/07/10 Page 72 of 114 Page ID #:1326

DECLARATION OF NATALIE NOVICK BROWN, PH.D.

I, NATALIE NOVICK BROWN, DECLARE:
1.

I am a psychologist licensed in the States of Washington (PYl 965) and Florida (PY6219).

I also am certified as an evaluator and treatment provider for the Division of Developmental
Disabilities in the State of Washington. For the past 12 years, I have specialized in the evaluation
and treatment of individuals with fetal alcohol impairment. My training in this field began in
1994 when I accepted a postdoctoral fellowship with Dr. Ann Streissguth at the University of
Washington in Seattle. Dr. Streissguth is a pioneer researcher in Fetal Alcohol Syndrome (FAS),
Fetal Alcohol Effects (FAE), and Alcohol Related Neurodevelopmental Disorder (ARND),
which are now commonly referred to by the umbrella term "Fetal Alcohol Spectrum Disorders,"
or FASD. Up until her retirement last year, Dr. Streissguth was the director of the University's
Fetal Alcohol and Drug Unit as well as a prolific research scientist and highly respected
international expert in the FASD field. After completing a year of training and research with Dr.
Streissguth in 1995, I began evaluating and treating youth and adults with FASD or suspected
FASD. I estimate that since 1995, I have evaluated and treated more than 300 children and adults
affected by prenatal alcohol exposure. In addition, I currently hold a faculty position at the
University of Washington as a Clinical Assistant Professor in the Department of Psychiatry and
Behavioral Sciences. In this position, I consult with staff at the Fetal Alcohol and Drug Unit and
screen adults and juveniles for FASD referred by the local drug and mental health courts. I also

Declaration: Natalie Novick Brown
Page 1 of 43

Exhibit 77-971

Petitioner's App. 45 - 711

ER 1159

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 190 of (1382
298 of 1584)

Filed 09/07/10 Page 73 of 114 Page ID #:1327

evaluate and diagnose individuals referred by the Division of Developmental Disabilities who
may have fetal alcohol impairment. I currently provide individual therapy to FASD youth in an
effort to prevent adverse life outcomes (i.e., "secondary disabilities") and to adults with F ASD,
many of whom are sex offenders in Washington State's Community Protection Program. I have
authored several scholarly articles and two book chapters on F ASD and provided technical
presentations on the behavioral and developmental effects of prenatal alcohol exposure at mental
health and legal conferences. Most recently, I was invited to Harvard to present information
about FASD to the American Bar Association's national conference on children and the law. In
the course of my work, I have conducted and/or reviewed hundreds of evaluations involving
F ASD diagnoses and am quite familiar with the diagnostic criteria and process of evaluation. I
have qualified as an FASD expert witness in the courts of Washington, Florida, South Carolina,
and New Jersey.
2.

I have been retained by attorneys of record Brad D. Levenson and Amanda R. Touchton

to conduct an assessment to determine if Dean Phillip Carter's behavioral history and
development are consistent with an FASD diagnosis and, if so, whether FASD would fully
account for all of the data regarding Mr. Carter's psychosocial functioning (i.e., his criminal and
non-criminal behavioral history from childhood into adulthood). Dean Phillip Carter is a 51year-old Native Alaskan male who is currently on death row at San Quentin State Prison as a
result of capital murders committed in San Diego County and Los Angeles County in 1984.
3.

Procedures in the current analysis involved a review of declarations from Drs. Myla H.

Young, Adrian Raine, David V. Foster, and Mindy Rosenberg. I also reviewed declarations
from Lilly Rose, Beverly Gelzer, Cecil Johnson, Catherine Dickson, and Lela Kiana Oman as
Declaration: Natalie Novick Brown
Page 2 of 43

Exhibit 77-972

Petitioner's App. 45 - 712

ER 1160

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 191 of (1383
298 of 1584)

Filed 09/07/10 Page 74 of 114 Page ID #:1328

well as the following primary source records: childhood photographs of Dean Phillip Carter, A.J.
Diamond school records dated 1973, Alcantar Youth Center records dated 9/3/68 and 11/5/68,
Mr. Carter's birth certificate, McLaughlin Youth Center educational records, Nome Elementary
School records, Nome-Beltz Regional High School records, and Seward Elementary School
records 1964-65.
4.

Fetal Alcohol Syndrome, or FAS, is one of several conditions included under the

umbrella term Fetal Alcohol Spectrum Disorders (F ASD). Other FASD conditions include
Alcohol Related Neurodevelopmental Disorder (ARND), Alcohol Related Birth Defects (ARBD),
static encephalopathy/alcohol exposed, Possible or Partial Fetal Alcohol Syndrome (PF AS), and
Fetal Alcohol Effects (FAE). Although the two latter terms have been superseded in diagnostic
formulations developed by the Institute of Medicine (IOM 1996) and the Center for Disease
Control and Prevention (CDC, 2004), they are still used by some diagnosticians.
5.

Fetal Alcohol Syndrome was first recognized in the United States and discussed in a

public paper by researchers at the University of Washington in 1973 (Jones & Smith, 1973).
These researchers identified three diagnostic features associated with the syndrome: 1) preand/or postnatal growth deficiency, 2) a characteristic set of facial anomalies (referred to as
"facial dysmorphology"), and 3) central nervous system (CNS) dysfunction. In the late 1970s, a
study of alcohol related damage in the central nervous system suggested that structural brain

damage might be the basis for many of the neurodevelopmental abnormalities and resulting
behavior problems observed in FAS-affected individuals (Clarren & Smith, 1978). Since the
1970s, the three primary diagnostic criteria for FAS have not changed.

Declaration: Natalie Novick Brown
Page 3 of 43

Exhibit 77-973

Petitioner's App. 45 - 713

ER 1161

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

6.

DktEntry: 15-6

Page: 192 of (1384
298 of 1584)

Filed 09/07/10 Page 75 of 114 Page ID #:1329

F ASD diagnoses involve permanent birth defects caused by maternal consumption of

alcohol during any point in pregnancy. Alcohol is a teratogen that inhibits and disrupts fetal
development by causing structural and functional damage to developing cells, organs, and
systems, including the brain and central nervous system. Because alcohol causes damage
throughout the developing fetus, physical anomalies and neurobehavioral defects can be
widespread.

Hence, the condition is referred to as a "syndrome."

The most serious and

pervasive damage occurs in the central nervous system. In particular, brain imaging studies over
the last decade have shown that prenatal alcohol exposure causes significant malformation in
brain structures (e.g., corpus callosum, frontal lobes, basal ganglia, cerebellum, hippocampus)
necessary for normal development and functioning (e.g., Bookstein et al., 2001, 2002a, 2002b).
Notably, even individuals who do not display the characteristic facial features associated with
FAS may have brain damage as severe as those who do (Mattson & Riley, 1994). In other words,
brain damage with its associated CNS dysfunction typically accompanies any diagnosis under
the FASD umbrella.
7.

By 1978, after more than 250 published case reports, it was clear that FAS was only one

of several identifiable disorders associated with maternal alcohol abuse. Hence, the term Fetal
Alcohol Effects, or FAE, was developed to classify additional manifestations (Clarren & Smith,
1978).

While individuals with FAE did not display the growth deficits or primary facial

abnormalities associated with FAS (e.g., short palpebral fissures, flat philtrum, and thin upper
lip), research consistently showed that compared to individuals diagnosed with FAS, those with
FAE could suffer from as many or more of the functional deficits (Streissguth & O'Malley,

Declaration: Natalie Novick Brown
Page 4 of 43

Exhibit 77-974

Petitioner's App. 45 - 714

ER 1162

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 193 of (1385
298 of 1584)

Filed 09/07/10 Page 76 of 114 Page ID #:1330

2000). Thus, even without facial stigmata, the cognitive-behavioral problems stemming from
underlying brain damage could be as severe in individuals with FAE as those with FAS.
F ASD Diagnostic Criteria

8.

According to diagnostic standards in place since the 1970s, the following triad of criteria

must be met for a diagnosis of FAS:
•

growth deficiency;

•

facial dysmorphology; and

•

CNS dysfunction (structural, neurological, and/or functional abnormalities).

The fourth criterion, prenatal alcohol exposure, can be classified as confirmed, probable, or
unknown. Confirmed or probable prenatal alcohol exposure is not necessary for a diagnosis of
FAS if the three other criteria are met.
9.

In addition to the primary diagnostic criteria noted above, individuals affected by prenatal

alcohol exposure may also display numerous additional anomalies, including additional facial
abnormalities (e.g., flat midface, short nose, micrognathia (undersized jaw), low nasal bridge,
epicanthal folds, eye asymmetries, eyelid tsosis (dropping eyelids), microophthalmia (small
eyes), cleft lip/palate), heart defects (ventricular septal defects are most commonly seen,
followed by atrial septal defects), kidney problems (e.g., horseshoe, aplastic, dysplastic, or
hypoplastic kidneys), skeletal anomalies (e.g., joint anomalies including abnormal position and
function, altered palmar crease patterns, small distal phalanges, and small fifth fingernails),
ocular problems (e.g., strabismus and optic nerve hypoplasia which may cause light sensitivity,
decreased visual acuity, or involuntary eye movements), dental problems (e.g., narrow maxillary
dental arches, high arched palate, misaligned/misshapen secondary teeth), and occasional
Declaration: Natalie Novick Brown
Page 5 of 43

Exhibit 77-975

Petitioner's App. 45 - 715

ER 1163

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 194 of (1386
298 of 1584)

Filed 09/07/10 Page 77 of 114 Page ID #:1331

abnormalities (e.g., webbed neck, short neck, Tetralogy of Fallot, coarctation of the aorta, Spina
bifida, polythelia or supernumerary nipple, and hydrocephalus).
1O.

Currently, FAS is the only expression of prenatal alcohol exposure defined by the

International Statistical Classification of Diseases and Related Health Problems (ICD) and
assigned an JCD-1 O diagnosis. To make this diagnosis, a multidisciplinary evaluation is optimal
to assess each of the four key features involved in FAS. The diagnostic team typically includes at
least the following: medical doctor, psychologist, and social worker or substance abuse
professional. Structural brain damage is typically determined through imaging techniques and
assessed by specialists trained to measure subtle structural anomalies. Assessment of hard and/or
soft signs of neurological damage is the responsibility of a neurologist and/or neuropsychologist.
Functional assessment of behavioral and developmental abnormalities is typically the
responsibility of a psychologist, aided by the assessments of social workers/historians and other
specialists. Functional assessment involves an extensive record review and focuses on clinically
significant impairments in three or more of ten brain domains: learning disabilities, academic
achievement, impulse control, social perception, communication, abstraction, math skills,
memory, attention, judgment. Finally, a physician assesses growth deficiency, FAS facial
features, and other physical and/or structural anomalies. When evaluating an individual in the
community, these professionals often work together as a team to develop an integrated,
multidisciplinary diagnosis of an FASD condition.
11.

In 1996, the Institute of Medicine (IOM) codified the diagnostic standards that had been

in place for approximately two decades. This diagnostic formulation (see Appendix A) is used
extensively in the United States and other countries to diagnose FASD conditions. In 2002,
Declaration: Natalie Novick Brown
Page 6 of 43

Exhibit 77-976

Petitioner's App. 45 - 716

ER 1164

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 195 of (1387
298 of 1584)

Filed 09/07/10 Page 78 of 114 Page ID #:1332

Congress authorized the Center for Disease Control (CDC) to make diagnostic criteria for FAS
even more precise in terms of measurement. As a result, in 2004 the CDC produced Fetal

Alcohol Syndrome: Guidelines for Referral and Diagnosis, which established specific
measurement criteria for the four elements of an FAS diagnosis (i.e., prenatal alcohol exposure,
facial dysmorphology, growth deficits, and CNS abnormalities).
12.

Notably, even with the increasing precision over time in terms of how to measure the

abnormalities associated with FASD, the original diagnostic criteria established in 1973 have
never changed. After its discovery in the United States in 1973, research on FASD proliferated.
By 1981, the U.S. Surgeon General had declared FAS a national health problem, and by 1989,
Congress had mandated labels on all alcoholic beverage containers warning pregnant women not
to drink. By 1991, not only had the primary functional deficits associated with FASD been
thoroughly described in the literature, researchers also were discovering the lifelong effects of
F ASD on CNS dysfunction (i.e., "secondary disabilities"). Thus, by the time of Dean Phillip
Carter's capital trials in Los Angeles (1989) and San Diego (1991), the condition was definitely
not a new or novel concept in medicine or psychology.
Central Nervous System Damage
13.

The mechanisms that underlie CNS damage begin at the molecular and cellular levels and

are generally investigated in animal studies and in nerve cells grown in culture. Prenatal alcohol
exposure is associated with increased susceptibility to cell damage caused by free radicals that
kill brain cells, affecting the formation and migration of brain cells and altering the production or
function of regulatory substances that help promote the orderly growth and differentiation of
neurons (Michaelis & Michaelis, 1994). Neurons, or brain cells, are the building blocks of the
Declaration: Natalie Novick Brown
Page 7 of 43

Exhibit 77-977

Petitioner's App. 45 - 717

ER 1165

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 196 of (1388
298 of 1584)

Filed 09/07/10 Page 79 of 114 Page ID #:1333

brain. Within the fetus, embryonic cells destined to become brain neurons grow in number,
move to their ultimate locations, and mature into a wide variety of functionally distinct neuronal
cell types. Once in place, these neurons form connections with other brain cells in a
predetermined pattern. Damage can occur at any point in this process.
14.

The first FASD autopsy involved an infant diagnosed with FAS who died shortly after

birth in 1973. Examination revealed extensive brain damage, including microcephaly (small head
circumference), cell migration anomalies, callosal dysgenesis (malformation of the corpus
callosum), and a massive neuroglial, leptomeningeal heterotopia (i.e., clumps of gray matter
located in the wrong part of the brain) covering the left hemisphere (Mattson & Riley, 2002).
Autopsies since that time have shown consistent structural abnormalities in the brains of FASaffected infants.

In fact, relatively recent advances in brain imaging research have revealed

reduced overall brain size in some individuals living with FASD and disproportionate reductions
in the size of specific brain structures (Roebuck, Mattson, & Riley, 1998). Notably, FASD is the
only known factor reliably associated with alterations in the geometry of the corpus callosum
(Riley, et al., 1995; Swayze, et al., 1997). The corpus callosum is the band of nerve fibers deep
in the brain that functions as the communication link between the right and left lobes.
Approximately 7 percent of children with FAS lack a corpus callosum altogether, an incidence
rate 20 times higher than that in the general population (Riley, et al., 1995). Damage to the
corpus callosum and adjacent prefrontal cortex has been associated with a relatively consistent
pattern of executive function deficits in F ASD-affected individuals (Bookstein et al., 2001 ). An
FASD diagnosis is particularly significant in terms of mitigation because of these impairments in

Declaration: Natalie Novick Brown
Page 8 of 43

Exhibit 77-978

Petitioner's App. 45 - 718

ER 1166

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 197 of (1389
298 of 1584)

Filed 09/07/10 Page 80 of 114 Page ID #:1334

executive functioning, which profoundly impact the way an individual functions across his
lifespan.
15.

Studies also have shown that prenatal alcohol exposure damages the basal ganglia

(another deep-brain structure), which impairs spatial memory and set shifting in animals
(Mattson, et al., 1996; Mattson & Riley, 1999) and a variety of cognitive processes in humans
(Bannister, 1992). Another frequent finding is reduced size of the cerebellum (Mattson, et al.,
1994; Sowell, et al., 1996), a structure involved in balance, gait, coordination, and cognition
(Riley, et al., 1995).
Dose, Exposure, and Timing

16.

Alcohol exposure at any point in gestation damages the CNS since the brain develops

throughout the entire pregnancy (Guerri, 2002). The minimum quantity of alcohol required to
produce adverse fetal consequences is still unknown (Roebuck, Mattson, & Riley, 1999).
Moderate alcohol consumption can be harmful, especially in the case of binge drinking (Barr, et
al., 2006). For example, a recent study found that one episode of binge drinking (defined as
seven drinks in one episode) was more harmful to the fetus than one drink per day for seven days
(Mattson, Schoenfeld, & Riley, 2001). Another study found FASD in children whose mothers
consumed just two drinks per day at certain stages of pregnancy (May, et al., 2006). Even very
light drinking can cause abnormalities. For example, a large-scale prospective study involving
31,000 pregnancies found that consumption of just one drink per day was associated with
increased risk of growth retardation, which is one of the four FASD criteria (Mills, et al., 1984).
In another study, an average of one-quarter ounce of absolute alcohol daily had adverse effects
on children's verbal language and comprehension skills (Gusella & Fried, 1984). Current
Declaration: Natalie Novick Brown
Page 9 of 43

Exhibit 77-979

Petitioner's App. 45 - 719

ER 1167

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 198 of (1390
298 of 1584)

Filed 09/07/10 Page 81 of 114 Page ID #:1335

recommendations on clinical thresholds of alcohol consumption during pregnancy do not support
the concept of a "safe level" of alcohol consumption in terms of possible damage to the fetus.
Primary Disabilities

17.

CNS damage may manifest in a number of cognitive and functional deficits, which are

referred to in the FASD literature as "primary disabilities." Often, primary disabilities are
mistaken as behavior problems under the volitional control of the child (e.g., attention problems
in school) when underlying brain damage is actually the source of the difficulty (Mal bin, 1993).
Recent studies have found that specific neurobehavioral functions are almost always impaired in
individuals with FASD, including verbal memory (Mattson, et al., 1996a), visual-spatial learning
(Uecker & Nadel, 1996), attention (Mattson & Riley, 1998), reaction time (Streissguth, et al.,
1986), and executive functioning (Roebuck, Mattson, & Riley, 1999). These, plus a number of
other primary disabilities have an additive effect on an individual's ability to function
appropriately and effectively.
18.

Primary disabilities stemming from FASD are generally categorized into ten domains:
a. achievement (e.g., learning disabilities, decreasing academic performance as
schoolwork becomes more complex, poor academic achievement in relation to IQ);
b. adaptive behavior (e.g., poor daily living skills and developmental delays);
c. attention (e.g., attention deficits and hyperactivity);
d. cognition (e.g., mental retardation in a minority of cases, confusion under pressure,
poor abstract skills, difficulty distinguishing between fantasy and reality, slower
cognitive processing, poor abstracting abilities);

Declaration: Natalie Novick Brown
Page 10 of 43

Exhibit 77-980

Petitioner's App. 45 - 720

ER 1168

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 199 of (1391
298 of 1584)

Filed 09/07/10 Page 82 of 114 Page ID #:1336

e. executive functioning (e.g., deficient impulse control, poor social awareness
including self- and other-awareness, poor emotion modulation, perseveration, poor
judgment, faulty reasoning, deficient cause and effect reasoning, poor generalization
skills and difficulty learning from experience);
f.

language (e.g., expressive and/or receptive language disorders, concrete perspective,
difficulty understanding metaphor/ idioms I sarcasm);

g. memory (e.g., poor working and short-term memory, inconsistent memory and
knowledge base);
h. motor skills (e.g., poor handwriting and other fine motor skills; delayed gross motor
skill development);
i.

sensory integration and soft neurological signs (e.g., sensory integration disorders,
tactile defensiveness, under-lover-sensitivity to stimuli); and

j.

social communication (e.g., intrusiveness, inability to read nonverbal or social cues,
"chatty" but without substance, poor boundary awareness).

19.

In infancy, primary disabilities are often first noticed in infants who show early evidence

of self-regulation problems, such as passivity, difficulties in self-soothing, over-sensitivity to
environmental stimuli, or difficulty in reciprocal social interaction. An example of the latter is
an infant who resists the nurturing touch of a caregiver. Examples of functional deficits in early
childhood (i.e., toddlers) include delayed development in one or more functional capacities (e.g.,
motor skills, verbal skills, social skills, self-modulation of emotions, behavioral self-regulation).
During elementary school years, functional deficits may manifest as communication disorders,
attention deficits, learning disorders, poor impulse control, problems in social perception,
Declaration: Natalie Novick Brown
Page 11 of 43

Exhibit 77-981

Petitioner's App. 45 - 721

ER 1169

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 200 of (1392
298 of 1584)

Filed 09/07/10 Page 83 of 114 Page ID #:1337

interpersonal communication deficits, and problems in working memory. Elementary school
children with F ASD are unable to defer gratification or control urges and often take things that
don't belong to them. Unable to understand their own cognitive limitations or explain their lack
of control to others, they typically choose what they perceive as the path of least resistance and
lie about their behavior in a transparent attempt to avoid discipline. Consequently, F ASDaffected children often have recurrent problems with both stealing and lying. In later childhood,
functional deficits are observed as abstraction difficulties (particularly in mathematics when
coursework becomes complex and less dependent upon rote memorization), impulse control and
judgment problems, and socialization deficits. It is often in the adolescent years that social skill
deficits become obvious to professionals beyond the school environment. For example, youth
who have not developed the ability to make and keep friends begin gravitating toward delinquent
youth who accept them simply on the basis of their willingness to engage in similar antisocial
conduct. This is typically the time when alcohol consumption and drug use begin, and rulebreaking behaviors escalate to law-breaking behaviors.
20.

In addition, once FASD-impaired youth enter puberty, which may be somewhat delayed,

functional deficits significantly impact how they handle their developing sexuality. Maintaining
appropriate sexual boundaries is a complex behavior requiring multiple skills, including self- and
other-awareness (e.g., boundaries), memory (e.g., retaining knowledge about appropriate social
behavior), impulse control (e.g., restraining inappropriate sexual urges), and self-regulation (e.g.,
stopping inappropriate behavior in the face of negative environmental cues). Most unimpaired
children are sexually socialized in a subtle and gradual manner as they assimilate information
from parents, television, movies, social interaction with peers, and other environmental sources.
Declaration: Natalie Novick Brown
Page 12 of 43

Exhibit 77-982

Petitioner's App. 45 - 722

ER 1170

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 201 of (1393
298 of 1584)

Filed 09/07/10 Page 84 of 114 Page ID #:1338

However, if the ability to distinguish between appropriate and inappropriate environmental cues
and integrate them into one's behavioral repertoire is compromised by multiple functional
deficits, the process can go awry. Consequently, sexual boundary violations - both minor and
major -- are frequently seen in individuals with FASD.
Deficits in executive functioning have profound real-life implications for people with

21.

F ASD.

Executive functions control emotions, urges, and impulses and channel them into

appropriate behaviors. Executive functioning is based on underlying cognitive skills such as
social awareness, self-awareness, ability to organize thoughts and behavior, planning, time
perception, internal ordering, working memory, inhibition skill, motor control, emotion
regulation, motivation, decision making, and judgment. When executive functions are
compromised by prenatal alcohol exposure, an individual may:
•

be unable to figure out solutions spontaneously;

•

lie and fabricate improbable stories to either avoid punishment or hold others' attention;

•

have difficulty perceiving, prioritizing, processing, and retrieving information;

•

act without thinking;

•

lack personal boundaries and not recognize them in others;

•

be unable to control sexual impulses or anger;

•

have difficulty with abstract concepts or time and money;

•

need frequent cues and reminders of appropriate behavior;

•

be vulnerable to personal exploitation by others;

•

show impairment in motor skills (particularly fine motor skills);

Declaration: Natalie Novick Brown
Page 13 of 43

Exhibit 77-983

Petitioner's App. 45 - 723

ER 1171

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 202 of (1394
298 of 1584)

Filed 09/07/10 Page 85 of 114 Page ID #:1339

•

display exaggerated, roller-coaster emotions;

•

lack empathy and/or remorse;

•

need external motivators;

•

be unable to generalize and apply consequences from past actions to future actions;

•

be unable to weigh pros and cons when making decisions; and

•

engage in a wide range of socially inappropriate or illegal behaviors, such as stealing
items for personal use from friends, family, or neighbors; shoplifting, particularly items
for immediate consumption (e.g., food or cigarettes); committing crimes at the behest of
more sophisticated criminals; committing the same kind of crime over and over; engaging
in panic behaviors such as running away or lashing out when cornered and overwhelmed
by environmental stimuli; committing inexplicably foolish crimes involving obvious risk
of apprehension; repeatedly engaging in relatively minor crimes without escalating to
more serious offenses (e.g., repeated pattern of shoplifting or burglary); giving guileless
confessions when apprehended by the authorities that most offenders would never make;
and obtaining multiple technical violations while on probation or parole.

In other words, executive functions involve all of the skills that enable individuals to analyze
what it is they want, determine how they might get it, decide whether their plan is appropriate
(and legal), revise their plan if it seems inefficient or ineffective, and then carry out their
intentions, sometimes changing their behavior midstream if they realize it is unproductive or
yielding unwanted results. It is widely accepted that executive functions play a central role in
complex social behaviors such as understanding how our actions impact others (e.g., empathy)

Declaration: Natalie Novick Brown
Page 14 of 43

Exhibit 77-984

Petitioner's App. 45 - 724

ER 1172

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 203 of (1395
298 of 1584)

Filed 09/07/10 Page 86 of 114 Page ID #:1340

and controlling anger and frustration. Socialization (Connor et al., 2000) and moral reasoning
(Schonfeld, et al., 2005) depend on intact executive functioning (Connor et al., 2000). While
individuals with intact executive functioning can make pro-social choices about their behavior
and consider consequences before acting, those with deficient executive skills act before thinking
and function only to the level of socialization that their brain impairments permit (Connor et al.,
2000).
Prenatal Alcohol Exposure

22.

The first criterion in an FASD diagnosis is prenatal alcohol exposure. The standard for

meeting this criterion in the late 1980s and early 1990s was documentation of alcohol
consumption by the birth mother at any point during the index pregnancy. It was known at the
time of Dean Phillip Carter's trials that even light drinking (average of one-quarter ounce of
absolute alcohol daily) could have adverse effects on a child's verbal language and
comprehension skills (Gusella & Fried, 1984). Acceptable documentation of maternal drinking
included clinical observation, self-report, report of heavy alcohol use during pregnancy by a
reliable informant, medical records documenting positive blood alcohol levels or alcohol
treatment, or other social, legal, or medical problems related to drinking during the index
pregnancy. FAS also could be diagnosed in the case of unknown prenatal exposure to alcohol.
The designation "unknown" prenatal alcohol exposure indicates there is neither confirmed
presence nor confirmed absence of exposure (e.g., the individual was adopted and prenatal
exposure is unknown or the birth mother was an alcoholic but confirmed evidence of exposure
does not exist). In Dean Phillip Carter's case, direct observation of the birth mother drinking
during her pregnancy confirms prenatal alcohol exposure.

Lilly Rose (close friend of birth

Declaration: Natalie Novick Brown
Page 15 of 43

Exhibit 77-985

Petitioner's App. 45 - 725

ER 1173

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 204 of (1396
298 of 1584)

Filed 09/07/10 Page 87 of 114 Page ID #:1341

mother Esther Carter) reported that she observed Ms. Carter drinking alcohol during her
pregnancy with Dean Phillip Carter:
.. .I do know that Esther continued to drink throughout her pregnancy with Dean. When

Esther was expecting Dean, I used to see her around town at bars drinking, especially
during the weekends.
Sworn testimony from a credible individual who directly observed the birth mother consuming
alcohol during pregnancy was an accepted standard in FASD diagnosis for confirmed prenatal
alcohol exposure at the time of Dean Phillip Carter's trials. Such testimony still meets this
standard today.

Facial Dysmorphology
23.

The classic facial dysmorphology associated with FAS is seen in a small minority of

cases, typically in young children before they enter puberty. Malformation of the face reflects
alcohol consumption during a small window of time (i.e., 6-8 weeks after conception) during the
first trimester of pregnancy when facial features are forming in the fetus. When FASD-affected
individuals go through puberty, the facial stigmata fade and often disappear entirely. In Dean
Phillip Carter's case, childhood photos indicate the possibility of FAS facial abnormalities. In
addition, Lela Oman, a practical nurse and family friend, recalled in her declaration that Mr.
Carter had an enlarged head in infancy and other skull irregularities (Declaration, p. 3-4).
Confirmation of facial dysmorphology is the domain of a medical doctor trained in this area.

Growth Deficit
24.

Growth deficits, variably defined, have been documented consistently in individuals with

FAS (CDC, 2004). These observations use a variety of parameters (e.g., height, weight, head
Declaration: Natalie Novick Brown
Page 16 of 43

Exhibit 77-986

Petitioner's App. 45 - 726

ER 1174

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 205 of (1397
298 of 1584)

Filed 09/07/10 Page 88 of 114 Page ID #:1342

th
circumference), severity levels (e.g., below the 25 percentile, below the 10

th

percentile, or

below the 3rd or 2nd percentiles), and timing of growth problems (e.g., current, birth, or present at
any point during life). As with facial dysmorphology, growth deficits also tend to disappear with
puberty. According to current CDC guidelines, the relevant growth parameters are height or
weight at or below the 10th percentile at any single point in time (adjusted for age, sex,
gestational age, and race/ethnicity). At the time of Dean Phillip Carter's trials, disproportionate
weight to height (or both) were the standard diagnostic criteria for growth deficit. In Dean Phillip
Carter's case, none of the records I reviewed included his height or weight. Confirmation of
growth deficiency falls within the diagnostic domain of a medical doctor if such records can be
located.
CNS Abnormalities

25.

The third FAS diagnostic criterion involves CNS abnormalities in the structural,

neurological, and/or functional domains. CNS abnormalities are the key feature of any FASD
diagnosis that relate to mitigation because they affect behavior. As noted previously, alcohol
exposure at any point in pregnancy can cause significant brain damage. More than 2000
scientific papers regarding the teratogenic effects of alcohol exposure on CNS development have
been published over the past 30 years, a large number of which focus on the behavioral
manifestation of brain damage. CNS functional impairments stemming from structural brain
damage are permanent and irreparable (Streissguth, et al., 1991). Damage to the central nervous
system can vary from subtle impairments to catastrophic damage that disrupts virtually every
domain of functioning (Stratton, et al., 1996). The extent of damage depends on the amount,
timing, and frequency of alcohol exposure as well as the genetic predispositions of the fetus and
Declaration: Natalie Novick Brown
Page 17 of 43

Exhibit 77-987

Petitioner's App. 45 - 727

ER 1175

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 206 of (1398
298 of 1584)

Filed 09/07/10 Page 89 of 114 Page ID #:1343

mother (IOM, 1996; West, 1986). For example, longitudinal studies have found that many adults
affected by FASD have complex mental health disorders and are unable to sustain independent
living (Streissguth & O'Malley, 2000). Diagnostically, CNS abnormalities may be established in
one or more of the following categories:
a)

Structural Abnormalities:

•
•

head circumference at or below the 10th percentile, adjusted for age and sex; or
clinically significant brain abnormalities observable through imaging techniques (e.g.,
reduction in size, or change in shape, of the corpus callosum, cerebellum, or basal ganglia)
as assessed by an appropriately trained professional.

Dean Phillip Carter underwent a positron emission topography (PET) scan in 1991 as one of the
subjects in a prefrontal glucose metabolism study conducted by psychologist Adrian Raine. Dr.
Raine opined in a declaration in 2000 that:

.. .petitioner's bran PET scan from May 3 0, 1991, depicts significantly abnormal brain
functioning. The lateral and medial prefrontal cortex, corpus callosum, and occipital
cortex all show evidence of reduced functioning. The hippocampus and thalamus also
show evidence of abnormal asymmetries of function, while the midbrain is the one area
that shows increased functioning.
b)

Neurological Abnormalities:

•
•

seizures not due to a postnatal insult or fever, or
other soft neurological signs outside normal limits (e.g., coordination problems and
difficulty with motor control, visual motor difficulties, nystagmus ).

Declaration: Natalie Novick Brown
Page 18 of 43

Exhibit 77-988

Petitioner's App. 45 - 728

ER 1176

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 207 of (1399
298 of 1584)

Filed 09/07/10 Page 90 of 114 Page ID #:1344

In terms of differential diagnosis, along with structural damage, abnormal neurological findings
can be most predictive of underlying CNS abnormality due to prenatal alcohol exposure rather
than later environmental traumas. In the case of Dean Phillip Carter, neuropsychologist Myla
Young opined in her declaration that testing and evaluation indicated "long-term neurological
deficits" and "diffuse brain impairment." She noted in particular that there was evidence of
impaired executive functioning, suggesting damage to the frontal lobes and subcortical brain
areas, and impaired transfer of information across brain hemispheres, suggesting damage to the
corpus callosum. Testing revealed specific deficits in attention and concentration, verbal memory
and learning, arithmetic, and complex psychomotor functioning. Testing by psychiatrist David
Foster in 2000 found "cortical damage in the right hemisphere" based on Mr. Carter's "upturned
Babinski reflex" on his left side (David Foster Declaration, 7-18-00).
c)

Functional Abnormalities:

According to the CDC, for functional deficits it is generally accepted that multiple locations in
the brain (and corresponding functional capabilities) are affected by prenatal exposure to alcohol.
To address this issue, functional deficits that fulfill the CNS abnormality criteria can be met in
two ways:
1) a global cognitive deficit (e.g., cognitive or intellectual deficits representing multiple
rd
domains of performance below the 3 percentile, or 2 standard deviations below the

mean for standardized testing) or significant developmental delay in children too
young for an IQ assessment; or
2) deficits in three or more specific functional domains:

Declaration: Natalie Novick Brown
Page 19 of 43

Exhibit 77-989

Petitioner's App. 45 - 729

ER 1177

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 208 of (1400
298 of 1584)

Filed 09/07/10 Page 91 of 114 Page ID #:1345

cognitive deficits or significant developmental discrepancies (e.g., specific
learning disabilities - especially math and/or visual-spatial deficits; uneven profile of
cognitive skills; poor academic achievement (even in the presence of average or
higher IQ); discrepancy between verbal and nonverbal skills; slowed movements or
reactions to stimuli);

executive function deficits (e.g., poor organization, planning, or strategy use;
concrete thinking; lack of inhibition; difficulty grasping cause and effect; inability to
delay gratification; difficulty following multi-step directions; perseveration or
difficulty changing strategies or thinking of things in a different way; poor judgment;
inability to generalize or apply knowledge to new situations);

motor function delays or deficits (e.g., poor suck in infants; delayed motor
milestones; difficulty with writing or drawing; clumsiness; balance problems; tremors;
poor dexterity);

attention deficits or hyperactivity (e.g., described by adults as "busy"; inattentive;
easily distracted; difficulty calming down; overly active; difficulty completing tasks;
trouble with transitions);

social skill deficits (e.g., lack of stranger fear; often scapegoated; naivete and
gullibility; easily taken advantage of; inappropriate choice of friends; preference for
younger friends; immaturity; superficial interactions; adaptive skills significantly
below cognitive potential; inappropriate sexual behaviors; difficulty understanding
the perspectives of others; poor social cognition; clinically significant inappropriate
initiations or interactions); and
Declaration: Natalie Novick Brown
Page 20 of 43

Exhibit 77-990

Petitioner's App. 45 - 730

ER 1178

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 209 of (1401
298 of 1584)

Filed 09/07/10 Page 92 of 114 Page ID #:1346

other deficits (e.g., tactile defensiveness and oral sensitivity; pragmatic language
problems such as difficulty reading facial expression; memory deficits such as
forgetting well-learned material or needing many trials to remember; difficulty
responding appropriately to common parenting practices such as not understanding
cause-and-effect discipline).
Functional abnormalities are documented in Dean Phillip Carter by the following:
Cognitive Deficits I Developmental Discrepancies
Records document learning disabilities, a specific math deficit, and developmental delays m
Dean Phillip Carter.
•

Leaming disabilities are evident in Mr. Carter's school records. According to his high
average IQ scores in testing by Dr. Myla Young in 2000, he should have been capable of
attaining at least average grades. However, grade transcripts reveal below average grades
from fourth grade on. By tenth grade, he was failing all four of his classes, including
three non-academic classes (i.e., vocational carpentry, driver education, and typing).

•

According to neuropsychologist Myla Young, testing revealed moderate impairments in
Mr. Carter's arithmetic ability. Seward school records from fourth grade indicate Ds in
all subjects except a C in reading and an F in arithmetic. A note from the Alcantar Youth
th
Center in 1973 (8 grade) indicated Mr. Carter was "weak" in math. Elementary school

transcripts indicated that as arithmetic classes become more complex in elementary
school, Mr. Carter's academic performance in math deteriorated.
•

Delays in social and emotional development are documented in a note from the Alcantar
th
Youth center in 1973 (8 grade) that indicated Mr. Carter was "immature." He also was

Declaration: Natalie Novick Brown
Page 21 of 43

Exhibit 77-991

Petitioner's App. 45 - 731

ER 1179

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 210 of (1402
298 of 1584)

Filed 09/07/10 Page 93 of 114 Page ID #:1347

described by a prison counselor in 1975 as "immature" and "undirected" (David Foster
Declaration, 7/18/00, p. 28).
Executive Function Deficits
Records in Dean Phillip Carter's case confirm executive function deficits in multiple domains:
•

According to neuropsychologist Myla Young, despite Mr. Carter's high average IQ,
testing revealed deficits in several areas of executive functioning, including verbal
memory, thinking, reasoning, problems solving, using alternative ways of solving
problems, and impulse control.

•

According to psychiatrist Dr. David Foster, a psychologist who evaluated Mr. Carter in
1971 (i.e., Dr. Marianne Hagan) concluded that one of Mr. Carter's primary problems

was his ability to control his emotions. Dr. Hagan reportedly noted a high level of anxiety
and tendency to overreact. She also reportedly noted possible "breaks in judgment,"
another aspect of executive functioning (David Foster Declaration, 7/18/00, p. 26).
•

Dr. David Foster also describes a comment from Mr. Carter's probation officer Barton
Penny, who reportedly described Mr. Carter as "impulsive" (Declaration, 7-18-00, p. 27).

•

Dr. David Foster also notes that in 1977, Mr. Carter was described by a court-ordered
psychiatrist as "rather concrete with little insight" who noted he had engaged in "repeated
non-violent offenses" (David Foster Declaration, 7/18/00, p. 30).

•

According to Dr. Foster (Declaration, 7/18/00), testing in 1978 by a psychologist at the
Eagle River Correctional Facility in Alaska found that Mr. Carter self-reported "having
difficulty controlling impulses" (David Foster Declaration, 7/18/00, p. 30-1).

Declaration: Natalie Novick Brown
Page 22 of 43

Exhibit 77-992

Petitioner's App. 45 - 732

ER 1180

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

•

DktEntry: 15-6

Page: 211 of (1403
298 of 1584)

Filed 09/07/10 Page 94 of 114 Page ID #:1348

In his own testing, Dr. Foster found impairment in Mr. Carter's recent and remote
memory (David Foster Declaration, 7/18/00, p. 34). He also noted a comment by Mr.
Carter that indicated an impulse control deficit: "I couldn't seem to think before I acted
or to not do stupid things" (p. 37).

Motor Skill Deficits
Motor skill deficits reflect damage to the cerebellum as well as the corpus callosum (Meyer,
Kotch, & Riley, 1990). In Dean Phillip Carter's case, neuropsychologist Myla Young noted
moderate to severe impairment in complex psychomotor functioning (Myla Young Declaration,
7/14/00, p. 7).

Attention Deficits I Hyperactivity
Attention deficit and hyperactivity disorders are highly correlated with F ASD. The attention
problems stem in part from difficulty in tuning out extraneous stimuli so as to focus on the target
stimulus. Hyperactivity is associated with decreased size of the corpus callosum (Zimmerberg &
Michus, 1990) and stems in part from deficient ability to self-soothe and moderate reactivity to
external and internal stimuli. Records document both attention problems and hyperactivity in
Dean Phillip Carter.
•

According to neuropsychologist Myla Young, testing revealed an attention deficit in Mr.
Carter (Myla Young Declaration, 7/14/00, p. 7-8).

•

A note from the Alcantar Youth Center in 1973 (8

th

grade) indicates that Mr. Carter is

"restless" in class, "cannot work at length on assignments," and is "short on patience."
•

According to social historian Mindy Rosenberg, although Mr. Carter had above average
intelligence, he reported it was difficult for him to concentrate on schoolwork and he

Declaration: Natalie Novick Brown
Page 23 of 43

Exhibit 77-993

Petitioner's App. 45 - 733

ER 1181

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 212 of (1404
298 of 1584)

Filed 09/07/10 Page 95 of 114 Page ID #:1349

daydreamed most of the time he was in class (Mindy Rosenberg Declaration, 7/14/00, p.,
19, 31).
Social Skill Deficits
Social skills enable an individual to interact appropriately with others. Social skills require intact
executive functioning and depend on the ability to accurate perceive and understand subtle social
cues, encode that information into memory, access the information quickly when new situations
require interactions with others, simultaneously screen the information for appropriate versus
inappropriate behavior, inhibit impulses that are inconsistent with the stored pro-social "model,"
and engage in social behavior while monitoring the impact of that behavior on others and
perhaps fine-tuning the behavior as one interacts. Simply put, appropriate social behavior is a
highly complex skill built on interconnected, underlying executive skills. F ASD-affected youth
invariably have social skill deficits. Children with FASD have significant difficulty making
friends. Their social perception deficits interfere with their ability to detect subtle social cues
and interact easily with others. Social perception deficits also interfere with the development of
empathy. Youth and adults with F ASD often fabricate stories or exaggerate events in an effort to
hold the interest of peers and fit in. Because they lack awareness of their effect on others (i.e.,
social boundaries), they sometimes stand too close to others or touch inappropriately. As a result
of these skill deficits, the childhood histories of individuals with F ASD typically reflect
loneliness and isolation from peers. As they grow older, they often have problems understanding
appropriate sexual expression and acting accordingly - a problem observed in nearly half of all
individuals affected by F ASD. Lack of sexual outlets can lead to unusual sexual interests and
behaviors (e.g., sexual fetishes). Social skills deficits can affect self-concept development, which
Declaration: Natalie Novick Brown
Page 24 of 43

Exhibit 77-994

Petitioner's App. 45 - 734

ER 1182

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 213 of (1405
298 of 1584)

Filed 09/07/10 Page 96 of 114 Page ID #:1350

coupled with executive function deficits also can affect sexual expression. Records indicate that
Dean Phillip Carter had problems in this area as well.
•

A note from the Alcantar Youth Center in 1973 (8 th grade) indicates that Mr. Carter
"works poorly with others."

•

According to psychiatrist Dr. David Foster, a psychologist found in 1971 that one of Mr.
Carter's primary problems centered on his "difficulties with relationships" (David Foster
Declaration, 7/18/00, p. 26).

Data Convergence

26.

To a reasonable degree of psychological certainty, data support a strong conclusion that

Dean Phillip Carter meets criteria for FASD.

Confirmed prenatal alcohol exposure in

combination with structural, neurological, and functional CNS deficits consistent with FASD
would have qualified him for a specific diagnosis of Fetal Alcohol Effects (FAE) in 1989 and
1991. Recent evaluations in 2000 by specialists in three separate fields (i.e., Drs. Myla Young,
David Foster, and Adrian Raine) are consistent with this conclusion. These evaluations
converged on a single diagnostic finding Mr. Carter had diffuse brain damage that most likely
affected his frontal lobes and prefrontal cortex, corpus callosum, occipital cortex, hippocampus,
thalamus, and midbrain.
Differential Diagnosis
27.

Brain injury can be caused and/or exacerbated by a number of things such as genetic

factors, birth complications, childhood abuse and neglect, head trauma, mental illness, medical
disorder, and/or exposure to neurotoxins (including sustained drug and/or alcohol abuse).
Evidence of prenatal alcohol exposure in the current case establishes FASD as a primary
Declaration: Natalie Novick Brown
Page 25 of 43

Exhibit 77-995

Petitioner's App. 45 - 735

ER 1183

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 214 of (1406
298 of 1584)

Filed 09/07/10 Page 97 of 114 Page ID #:1351

explanation for all of his behavior from infancy through the capital crimes at issue. However,
other factors may have had an additive effect as well. For example, Dr. Mindy Rosenberg made
a cogent case for the possibility that pervasive child maltreatment may have exacerbated his
functional problems.

The ability of FASD-affected individuals to cope effectively with

environment stressors and influences is severely limited due to executive function deficits. Often,
these individuals tum to alcohol and/or drugs to escape environmental pressures, which is the
route Mr. Carter followed.

Alcohol and drugs would only serve to increase his underlying

functional impairments, particularly impulse control and judgment. While acute intoxication
may have been a factor in his functioning at the time of the rape and murder, evidence is
insufficient to establish substance-related impairment as the sole explanation for his conduct
either in the capital crimes at issue or across his lifespan. Although the record is silent with
respect to the existence of any genetic factors or birth complications that might have
compromised Mr. Carter's functioning, postnatal brain damage is a possibility as he suffered a
head injury at age six. However, Dr. Mindy Rosenberg notes hospital reports that his injuries
were minor (Mindy Rosenberg Declaration, p. 25). With respect to mental illness, while there is
a record of ongoing anxiety and depression in Mr. Carter's history, acute mental illness is ruled
out as an explanatory factor because there is insufficient evidence of impairment severe enough
to compromise his capacity to know right from wrong.
28.

Personality disorders often explain criminal conduct, particularly antisocial personality

disorder.

According to the DSM-IV-TR, antisocial personality disorder requires evidence of

conduct disordered behavior prior to age 15 that involves a "repetitive and persistent pattern" of
aggression, property destruction, deceitfulness or theft, and serious rule violations. In Mr.
Declaration: Natalie Novick Brown
Page 26 of 43

Exhibit 77-996

Petitioner's App. 45 - 736

ER 1184

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 215 of (1407
298 of 1584)

Filed 09/07/10 Page 98 of 114 Page ID #:1352

Carter's case, there is evidence of early behavior problems in two of these categories (i.e.,
deceitfulness or theft and rule violations). My understanding of his childhood history generally
comes from Drs. David Foster (Declaration, 7/18/00) and Mindy Rosenberg (Declaration,
7/14/00), who reviewed multiple declarations and primary source documents regarding Mr.
Carter's childhood.
29.

According to both Drs. Foster and Rosenberg, Dean Phillip Carter suffered significant

parental abuse, neglect, isolation, and rejection in his formative years. His mother was an
alcoholic, and when he was five, she married a man who was reportedly alcoholic as well and
prejudiced against Native Alaskans. This man eventually adopted Mr. Carter. Both his mother
and adoptive father reportedly shunned him and favored his older brother. At the age of nine, he
was sent to an orphanage, which began a 15-year period of institutionalization in multiple
facilities (i.e., age 9 to 23). The first evidence of a functional problem occurred at age six when
he began running away from home and entering other people's homes to steal things. Around the
age of 12, he began using drugs and was arrested for burglary and placed in a youth camp. At
age 15, he was caught inside the home of a family, eating their food. While some of these
behaviors reveal a desire to escape from his surroundings both physically and psychologically,
there is insufficient evidence of pervasive conduct-disordered behavior across many domains
that might reveal developing hostility toward others.
30.

Stealing in FASD-affected children is common. The behavior stems from multiple

neurodevelopmental and executive functioning deficits, including lack of boundary awareness,
deficient impulse control, inability to delay gratification, inability to consider consequences,
inability to generalize, and poor judgment. Because FASD-affected individuals tend to lack the
Declaration: Natalie Novick Brown
Page 27 of 43

Exhibit 77-997

Petitioner's App. 45 - 737

ER 1185

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-1

DktEntry: 15-6

Page: 216 of (1408
298 of 1584)

Filed 09/07/10 Page 99 of 114 Page ID #:1353

ability to link cause with effect and generalize from one instance to another, discipline regarding
an inappropriate behavior in one context will not generalize to a new context. Thus, the
individual will view each and every opportunity for stealing as completely unrelated to the
previous episode. Those with FASD will typically begin stealing early in their lives and
frequently, regardless of consequence. This appears to have been the case with Mr. Carter. His
childhood pattern of taking things that did not belong to him eventually evolved into burglary in
his teen and adult years despite multiple arrests. According to Dr. Foster's declaration (7/18/00),
when arrested at age 17 following a string of burglaries, Mr. Carter's statement to his probation
officer ("it seemed like a good thing to do") indicates that executive function deficits were more
likely the catalyst for his stealing than antisocial dynamics as there was no goal-oriented motive
to his behavior.
31.

Given these data, antisocial personality disorder is ruled out as an explanatory factor in

Mr. Carter's offense conduct for two reasons: the diagnosis addresses only an isolated segment
of his behavior that was uncharacteristic of his functioning in his adult years, and it does not
account for his lifelong functional deficits. According to the DSM-IV-TR, the characteristics of
antisocial or any personality disorder must be pervasive across a broad range of personal and
social situations and must not occur solely when the person has a substance-related disorder.
According to Dr. Foster (Declaration, 7/18/00), there is considerable evidence to question both of
these requirements in Mr. Carter's case:

It is noteworthy that until his release from Eagle River Correctional Facility in 1979 at
age 23, Dean spent the majority of his life in one institutional setting or another. In none of
these settings (Jesse Lee Home, Alcantra, McLaughlin, DeWitt Nelson, Ben Lomond Youth
Declaration: Natalie Novick Brown
Page 28 of 43

Exhibit 77-998

Petitioner's App. 45 - 738

ER 1186

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 217 of (1409
298 of 1584)

Case 2:06-cv-04532-RGK Document 49-1 Filed 09/07/10 Page 100 of 114 Page ID
#:1354

Camp or Oregon State Correctional Center) was Dean ever perceived as a discipline
problem, and shortly before his release from the Honor Unit at Eagle River Correctional
Center, he was seen as a "most positive influence on other inmates .... " (quoted from
Appendix 45, Report of Kathi Smith, 3-22-78; SDRT 7789-90).
The pattern of behavior depicted above is consistent with the consistent finding that FASDaffected individuals tend to do better in structured settings where there are guidelines and cues
on how to behave and do much less well when left to their own devices, especially in times of
stress.
32.

Following his incarceration, the five years Mr. Carter spent in the community prior to his

arrest on murder and rape charges in April 1984 were characterized by prosocial behavior
inconsistent with a personality disorder. As noted by Dr. Foster, after learning photography and
cinematography in prison, Mr. Carter was gainfully employed as a camera man for a television
station in Anchorage and then for the University of Alaska, with occasional work as a
photographer. He also married in 1980 and fathered twin sons. According to Dr. Foster, it was
only after the breakup of his marriage in December 1981 that Mr. Carter began to disintegrate.
He reported in his evaluation with Dr. Foster that he was quite stressed with losing his family
and increased his drug use in an attempt to cope. He also reported other information indicating
that his ability to cope was overtaxed: he became paranoid and perceived he was being followed
by the KGB, he began moving around from friend to friend, he abruptly left his job at a news
station in Seattle and went to Hawaii, and he began to use "massive" quantities of drugs as well
as abuse alcohol. In short, this history indicates that Mr. Carter was able to cope during periods

Declaration: Natalie Novick Brown
Page 29 of 43

Exhibit 77-999

Petitioner's App. 45 - 739

ER 1187

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 218 of (1410
298 of 1584)

Case 2:06-cv-04532-RGK Document 49-1 Filed 09/07/10 Page 101 of 114 Page ID
#:1355

in his life that were relatively stress-free and somewhat structured but lacked the cognitive
capacity to cope when events became unstable and stressful.
33.

In addition to the fact that antisocial personality disorder explains only an isolated portion

of Dean Phillip Carter's history and doesn't account for his functional deficits, there is a third
reason why the diagnosis should not be applied in his case.

The diagnostic criteria for

Personality Disorder in the DSM-IV-TR note that the enduring pattern of personality-disordered
behavior must not be due to a general medical condition (p. 689). The DSM' s appendix states
that the ICD is the "official coding system" for general medical conditions, which includes
"Toxic Effects of Alcohol" as one of the general medical conditions listed. Thus, if one follows
diagnostic guidelines in the DSM-IV-TR, in the event that an underlying medical condition
exists, other diagnoses (such as personality disorders) should be excluded unless it can be shown
that the symptoms manifested at times when the medical condition was not present. As FASD is

the lifelong result of the toxic effects of alcohol, it is the underlying medical condition. An
FASD condition accounts for all of Mr. Carter's behavioral history: from infancy to the present,

from innocuous but odd non-criminal behaviors to significant antisocial events, and whether he
was intoxicated on substances or not.
34.

There is a tendency among diagnosticians to view criminal conduct as evidence of

antisocial personality disorder or other personality disorders involving Cluster B symptoms (i.e.,
histrionic and narcissistic traits). Because training in F ASD is not a standard part of any medical
school or graduate curriculum, the condition is often missed even by the most learned
diagnosticians. Consequently, adolescents and adults with F ASD who have not been diagnosed
in early childhood typically present as individuals with "complex" psychopathology and a long
Declaration: Natalie Novick Brown
Page 30 of 43

Exhibit 77-1000

Petitioner's App. 45 - 740

ER 1188

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 219 of (1411
298 of 1584)

Case 2:06-cv-04532-RGK Document 49-1 Filed 09/07/10 Page 102 of 114 Page ID
#:1356

list of diagnoses they've received over the years, each of which may explain a portion of their
behavior but not all of their behavior. Records indicate that in Mr. Carter's case, it wasn't until
he was almost 16 that he was seen by a psychologist as part of an evaluation for promotion into
an alternative high school, and she focused on his mood symptoms and executive function
deficits (i.e., anxiety, social deficits, and emotion control deficits) rather than an underlying
problem (David Foster Declaration, 7/18/00, p. 25-6). He was seen again at age 17 by a mental
health provider for determination as to whether he should be adjudicated as an adult, who
focused on another executive function deficit (i.e., immaturity) rather than an underlying
problem (David Foster Declaration, 7/18/00, p. 26-7). Subsequent mental health professionals
who examined him also detected some of the executive function deficits but not the underlying
issue. For example, in 1975 (age 19) a psychiatrist in the Department of Corrections noted mood
problems and self-concept issues in Mr. Carter (David Foster Declaration, 7/18/00, p. 28), in
1977 (age 21) a court-appointed psychiatrist noticed abstraction deficits and limited insight
(David Foster Declaration, 7/18/00, p. 30), and in 1978 (age 22) a prison psychologist noted
impulse control problems (David Foster Declaration, 7/18/00, p. 30-1 ).
Secondary Disabilities

35.

Overall, the functional deficits documented in Mr. Carter's file are consistent with the

type of primary disabilities typically seen in individuals diagnosed with FASD, and his conduct
from childhood into adulthood is consistent with the histories of FASD-affected individuals who
experience pervasive adverse life outcomes or "secondary disabilities" because their primary
disabilities are not diagnosed and treated during childhood. According to research that began to
be published in the 1980s and culminated with a major publication in the mid-1990s, disabilities
Declaration: Natalie Novick Brown
Page 31 of 43

Exhibit 77-1001

Petitioner's App. 45 - 741

ER 1189

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 220 of (1412
298 of 1584)

Case 2:06-cv-04532-RGK Document 49-1 Filed 09/07/10 Page 103 of 114 Page ID
#:1357

stemming from FASD are categorized as either "primary" or "secondary" depending upon
whether they are a direct manifestation of CNS abnormalities or whether they are mediated by
environmental influences. "Primary disabilities" are defined as functional deficits that stern
directly from structural brain damage and CNS dysfunction caused by prenatal ethanol exposure
(e.g., Streissguth et al., 1996). Individuals with F ASD are typically born with some or many of
these primary disabilities, which include the ten broad deficits noted Section 18 above.
"Secondary disabilities" reflect the adverse life outcomes that an individual experiences as he
enters adolescence and adulthood that presumably could have been ameliorated if there had been
early diagnosis and intervention. Environmental factors exert positive or negative influences on
the expression of secondary disabilities but have nothing to do with primary disabilities, which
are inherent in the individual's brain damage. With effective treatment of primary disabilities,
secondary disabilities can be prevented or at least reduced (Streissguth, 1997). However, without
early diagnosis and treatment, secondary disabilities manifest in adolescence and adulthood as
severe problems in psychosocial functioning. Secondary disabilities include mental health
problems, disrupted school experience, trouble with the law, confinement, inappropriate sexual
behavior, alcohol and drug problems, dependent living, and problems with employment. A
surprisingly large number of individuals with fetal alcohol impairment display numerous
secondary disabilities (Streissguth et al., 1996; Streissguth & O'Malley, 2000). For example,
90% have mental health problems such as ADHD, depression, or other mental illness; 60% are
arrested, charged, and/or convicted of a crime; 50% display inappropriate sexual behavior (e.g.,
sexual advances, sexual touching, or promiscuity); 50% are confined in institutional settings (i.e.,

Declaration: Natalie Novick Brown
Page 32 of 43

Exhibit 77-1002

Petitioner's App. 45 - 742

ER 1190

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 221 of (1413
298 of 1584)

Case 2:06-cv-04532-RGK Document 49-1 Filed 09/07/10 Page 104 of 114 Page ID
#:1358

psychiatric hospital, jail, prison, residential substance abuse treatment); and 35% have alcohol or
drug abuse problems (Streissguth, et al., 1996).
36.

In general, Dean Phillip Carter displayed almost every major primary disability typically

seen in individuals with FASD. Beginning in adolescence, he also began displaying a number of
secondary disabilities because his primary disabilities were not diagnosed and treated in
childhood. In his declaration (7 /18/00), Dr. Foster documented the following secondary
disabilities in Mr. Carter's history: mental health problems, alcohol and drug problems, disrupted
school experience, inappropriate sexual behavior, trouble with the law, and confinement.
37.

When faced with events that trigger negative emotions, individuals with FASD often

overreact and behave impulsively because of executive function deficits. For example, it is not
uncommon for these individuals to run away, make dramatic suicidal gestures, or lash out in
unfocused aggression when faced with stress as they lack the ability to handle frustration well or
identify and communicate their distress appropriately. In some individuals with FASD, executive
functions are so severely affected that there is chronic difficulty in functioning appropriately in
virtually every context. In other affected individuals, executive function impairment is noticeable
only at certain times, such as when the individual is severely stressed, encounters multiple
unfamiliar stimuli, and/or is under the influence of a substance that further compromises
executive functioning (e.g., alcohol and/or drugs). This latter example may be relevant with
respect to Mr. Carter's behavior in March and April of 1984, which apparently occurred in the
context of multiple stressors (e.g., loss of his family, severe drug and alcohol abuse, escalating
paranoia, and homelessness).

Declaration: Natalie Novick Brown
Page 33 of 43

Exhibit 77-1003

Petitioner's App. 45 - 743

ER 1191

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 222 of (1414
298 of 1584)

Case 2:06-cv-04532-RGK Document 49-1 Filed 09/07/10 Page 105 of 114 Page ID
#:1359

Conclusion

38.

By the time of Dean Phillip Carter's first trial in 1989, the U.S. surgeon general had

issued a health advisory regarding the danger of drinking alcohol during pregnancy, warning
labels had been placed on all alcoholic beverage containers, and FAS had been recognized for
many years as a major known cause of neurodevelopmental disabilities. By the time of his
second trial in 1991, the life-long implications of these disabilities (i.e., secondary disabilities)
had been recognized for several years (Streissguth, 1990; Streissguth & Randels, 1988;
Streissguth, et al., 1991) and follow-up studies had demonstrated the ongoing adverse effects of
prenatal alcohol exposure into adolescence and adulthood (Streissguth, Aase et al., 1991;
Streissguth, Clarren, & Jones, 1985). However, when Mr. Carter was a child and teenager in the
1950s and 1960s, no one knew about the functional deficits and long-term effects that prenatal
alcohol exposure could cause. It wasn't until he was 18 that the term "Fetal Alcohol Syndrome"
was identified publicly in the United States (Jones & Smith, 1973). However, by the time of his
first trial in 1989, researchers had been publishing information for five years about Fetal Alcohol
Effects (Abel, 1984).

Moreover, by the late 1980s and early 1990s there were numerous

publications regarding the impact of prenatal alcohol exposure on the developing brain (West,
1986), including information that this damage caused long-term behavioral and developmental
disturbances (Spohr & Steinhausen, 1987; Streissguth & Randels, 1988; Streissguth, 1990).
Thus, by 1989 and 1991 -- the years of Mr. Carter's trials -- any expert with knowledge about
FASD could have testified about the primary disabilities and long-term social and behavioral
ramifications of prenatal alcohol exposure in general, and any expert armed with the information

Declaration: Natalie Novick Brown
Page 34 of 43

Exhibit 77-1004

Petitioner's App. 45 - 744

ER 1192

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 223 of (1415
298 of 1584)

Case 2:06-cv-04532-RGK Document 49-1 Filed 09/07/10 Page 106 of 114 Page ID
#:1360

provided to me could have testified about the effects of FASD on Mr. Carter's lifelong
functioning and offense conduct.
39.

The awareness that FASD 1s a birth defect with pervasive and permanent

neurodevelopmental effects has led to increasing awareness in the legal profession that a
different level of attribution is warranted for individuals with this condition (Fast, Conry, &
Loock, 1999; Baumbach, 2002).

Rather than assuming individuals become unmotivated,

manipulative, antisocial, and self-defeating solely because of poor parenting experiences and/or
free will, research over the last 15 years has shown consistently that untreated primary

disabilities are the basis for maladaptive behaviors. Notwithstanding the fact that environmental
influences can play a significant role in the expression of secondary disabilities, it also has been
established in the scientific research that individuals with FASD have structural brain damage
that makes it highly unlikely they will be able to successfully withstand the negative influence of
environmental risk factors without appropriate support and treatment that begins in childhood.
40.

As Streissguth and colleagues noted recently (Streissguth et al., 2004), one of the

strongest correlates of adverse outcomes in individuals with FASD is lack of an early diagnosis:
"The longer the delay in receiving diagnostic information, the greater the odds of adverse
outcomes." Thus, the research suggests that for Dean Phillip Carter's brutal aggression to have
been prevented, he needed appropriate identification and intervention in childhood. While he
might have been identified as a child at risk and referred for evaluation had he been born in the
1990s, unfortunately he was born too early to be detected in routine screening by medical or
school personnel and referred for medical evaluation. Thus, it was the timing of his birth that
prevented him from being diagnosed and treated as a child for FASD.

Had he received

Declaration: Natalie Novick Brown
Page 35 of 43

Exhibit 77-1005

Petitioner's App. 45 - 745

ER 1193

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 224 of (1416
298 of 1584)

Case 2:06-cv-04532-RGK Document 49-1 Filed 09/07/10 Page 107 of 114 Page ID
#:1361

appropriate treatment for his primary disabilities in childhood, it is highly likely that his
secondary disabilities would have been more manageable and less extreme, if they had
developed at all. This conclusion is based upon multiple studies of secondary disabilities in the
1980s and beyond (Abel, 1984; Aronson & Olegard, 1987; Spohr & Steinhausen, 1987;
Streissguth et al., 1985, 1996; Streissguth et al., 1999; Yates et al., 1998), including research that
I participated in during my postgraduate training.

I declare under penalty of perjury that the foregoing is true and correct and that this declaration
was executed in Seattle, Washington, on June 4, 2007.

Dr. Natalie Novick Brown

Declaration: Natalie Novick Brown
Page 36 of 43

Exhibit 77-1006

Petitioner's App. 45 - 746

ER 1194

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 225 of (1417
298 of 1584)

Case 2:06-cv-04532-RGK Document 49-1 Filed 09/07/10 Page 108 of 114 Page ID
#:1362

Appendix A
Institute of Medicine FASD Criteria
In 1996, the Institute of Medicine (IOM) developed five diagnostic categories related to fetal
alcohol exposure:
Category 1.

Fetal Alcohol Syndrome (FAS) with Confirmed Maternal Alcohol
Exposure

Requires:
a.
confirmed maternal alcohol exposure
b.
facial dysmorphia, including short palpebral fissures and abnormalities of the
premaxillary zone (e.g., flat upper lip, flat philtrum, flat midface)
c.
growth retardation, such as low birth weight, lack of weight gain over time,
disproportional low weight to height
d.
neurodevelopmental abnormalities of the Central Nervous System (CNS), such as
small head size at birth and structural brain abnormalities with neurological hard or
soft signs (e.g., impaired fine motor skills, neurosensory hearing loss, poor tandem
gait, poor eye-hand coordination)

Category 2.

FAS Without Confirmed Maternal Alcohol Exposure

Requires:
b. through d. above

Category 3.
Requires:
a.
b.
c.
d.
e.

Partial FAS With Confirmed Maternal Alcohol Exposure

confirmed maternal alcohol exposure
some components of the FAS facial pattern
growth retardation as in Category 1
CNS neurodevelopmental abnormalities as in Category 1
Complex pattern of behavioral or cognitive abnormalities inconsistent with
developmental level and unexplained by genetic background or environmental
conditions (e.g., learning difficulties, deficits in school performance, poor impulse
control, problems in social perception, language deficits, poor capacity for abstraction,
specific deficits in mathematical skills, and problems in memory, attention, or
judgment)

Declaration: Natalie Novick Brown
Page 37 of 43

Exhibit 77-1007

Petitioner's App. 45 - 747

ER 1195

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 226 of (1418
298 of 1584)

Case 2:06-cv-04532-RGK Document 49-1 Filed 09/07/10 Page 109 of 114 Page ID
#:1363

Category 4.

Alcohol-Related Birth Defects (ARBO)

Requires:
confirmed maternal alcohol exposure
a.
one or more congenital defects including malformations and dysplasias of the heart,
b.
bone, kidney, vision, or hearing systems

Category 5.

Alcohol-Related Neurodevelopmental Disorder (ARNO)

Requires:
confirmed maternal alcohol exposure
a.
CNS neurodevelopmental abnormalities as in Category 1 and/or
b.
complex pattern of behavioral or cognitive deficits as in Category 3
c.

Declaration: Natalie Novick Brown
Page 38 of 43

Exhibit 77-1008

Petitioner's App. 45 - 748

ER 1196

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 227 of (1419
298 of 1584)

Case 2:06-cv-04532-RGK Document 49-1 Filed 09/07/10 Page 110 of 114 Page ID
#:1364

Appendix B
References
Abel, E.L. (1984). Fetal alcohol syndrome and fetal alcohol effects. New York: Plenum Press.
Abel, E.L., Jacobson, S., & Sherwin, B.T. (1983). In utero alcohol exposure: Functional and
structural brain damage. Neurobehavioral Toxicology and Teratology, 5, 363-366.
Aronson, M. & Olegard, R. (1987). Children ofalcoholic mothers. Pediatrician, 14, 57-61.
Astley, SJ. (2004). Diagnostic Guide for Fetal Alcohol Spectrum Disorders: The 4-Digit
Diagnostic Code. Seattle: University of Washington.
Bannister, R. (1992). Brain and Bannister's Clinical Neurology.
University Press.

ih

ed. New York: Oxford

Barr, H.M., Bookstein, F.L., O'Malley, K. D., Connor, P.D., Huggins, J.E., & Streissguth, A.P.
(2006). Binge drinking during pregnancy as a predictor of psychiatric disorders on the structured
clinical interview for DSM-IV in young adult offspring. American Journal of Psychiatry, 163, 6,
1061-1066.
Baumbach, J. (2002). Some implications of prenatal alcohol exposure for the treatment of
adolescents with sexual offending behaviors. Sexual Abuse: A Journal of Research and
Treatment, 14 (4), 313-327.
Bookstein, F.L., Sampson, P.D., Streissguth, A.P., & Connor, P.D. (2001). Geometric
morphometrics of corpus callosum and sub-cortical structures in the fetal-alcohol-affected brain.
Teratology, 64, 4-32.
Bookstein, F.L., Streissguth, A.P., Sampson, P.D., Connor, P.D., & Barr, H.M. (2002). Corpus
callosum shape and neuropsychological deficits in adult males with heavy fetal alcohol exposure.
Neurolmage, 15, 233-251.
Bookstein, F.L., Sampson, P.D., Connor, P.D., & Streissguth, A.P. (2002). Midline corpus
callosum is a neuroanatomical focus of fetal alcohol damage. The Anatomical Record, 269, 162174.
Centers for Disease Control and Prevention (2004). Fetal Alcohol Syndrome: Guidelines for
Referral and Diagnosis. National Center on Birth Defects and Developmental Disabilities, CDC,
Department of Health and Human Services in coordination with National Task Force on Fetal
Alcohol Syndrome and Fetal Alcohol Effect.
Chudley, A.E., Contry, J., Cook, J.L., Loock, C., Rosales, T., & LeBlanc, N. (2005). Fetal
alcohol spectrum disorder: Canadian guidelines for diagnosis. Canadian Medical Association
Journal, 172, 1-21.

Exhibit 77-1009

Petitioner's App. 45 - 749

ER 1197

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 228 of (1420
298 of 1584)

Case 2:06-cv-04532-RGK Document 49-1 Filed 09/07/10 Page 111 of 114 Page ID
#:1365

Clarren, S.K., & Smith, D.W. (1973). The fetal alcohol syndrome. New England Journal of
Medicine, 298, 1063-1067.
Connor, P.D., Sampson, P.D., Bookstein, F.L., Barr, H.M., & Streissguth, A.P. (2000). Direct
and indirect effects of prenatal alcohol damage on executive function. Developmental
Neuropsychology, 18, 331-354.
Fast, D.K., Conry, J., & Loock, C.A. (1999). Identifying fetal alcohol syndrome among youth in
the criminal justice system. Developmental and Behavioral Pediatrics, 20 (5), 370-372.
Fenton, T.R. (2003). A new growth chart for preterm babies: Babson and Benda's chart updated
with recent data and a new format. Pediatrics, 3, 13-23.
Guerri, C. (2002). Mechanisms involved in central nervous system dysfunctions induced by
prenatal ethanol exposure. Neurotoxicity Research 4, 4, 327-335.

Guidelines for Perinatal Care. 5th edition. Elk Grove Village, IL: American Academy of
Pediatrics. Washington (DC): American College of Obstetricians and Gynecologists, 2002.
Gusella, J.L., & Fried, P.A. (1984). Effects of maternal social drinking and smoking on offspring
at 13 months. Neurobehavioral Toxicology and Teratology, 6, 1, 13-17.
Institute of Medicine (1996). Fetal alcohol syndrome: Diagnosis, Epidemiology, Prevention, and
Treatment. Stratton, K., Howe, C., & Battaglie, F. (Eds.). Washington, DC: National Academy
Press.
Jones, K.L., & Smith, D.W. (1973). Recognition of the fetal alcohol syndrome in early infancy.
Lancet, 836, 999.
Malbin, D. (1993). Fetal Alcohol Syndrome, Fetal Alcohol Effects: Strategies for Professionals.
Center City, MN: Hazelden.
Mattson, S.N., & Riley, E.P. (1998).A review of the neurobehavioral deficits in children with
fetal alcohol syndrome or prenatal exposure to alcohol. Alcohol Clinical Experimental Research,
22, 2, 279-294.
Mattson, S.N., & Riley, E.P. (1999). Implicit and explicit memory functioning in children with
heavy prenatal alcohol exposure. Journal of International Neuropsychological Society, 5, 5, 462271.
Mattson, S.N., & Riley, E.P. (2002). Neurobehavioral and neuroanatomical effects of heavy
prenatal exposure to alcohol. In Streissguth, A., & Kantor, J. (Eds.), The Challenge of Fetal
Alcohol Syndrome: Overcoming Secondary Disabilities, Seattle: University of Washington Press,
p.10.

Exhibit 77-1010

Petitioner's App. 45 - 750

ER 1198

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 229 of (1421
298 of 1584)

Case 2:06-cv-04532-RGK Document 49-1 Filed 09/07/10 Page 112 of 114 Page ID
#:1366

Mattson, S.N., Riley, E.P., Delis, D.C., Stem, C., & Jones, K.L. (1996a). Verbal learning and
memory in children with fetal alcohol syndrome. Alcohol Clinical Experimental Research, 20, 5,
810-816.
Mattson, S.N., Riley, E.P., Sowell, E.R., et al. (1996b). A decrease in the size of the basal
ganglia in children with fetal alcohol syndrome. Alcohol Clinical Experimental Research, 20, 6,
1088-1093.
May, P.A., et al. (2006). Epidemiology of FASD in a province in Italy: Prevalence and
characteristics of children in a random sample of schools. Alcoholism: Clinical and Experimental
Research, 30, 9, 1562-75.
Meyer, L.S., Kotch, L.E., & Riley, E.P. (1990). Neonatal ethanol exposure: Functional
alterations associated with cerebellar growth retardation. Neurotoxicological Teratology, 12 (1),
15-22.
Mills, J.L., Granbard, B.I., Harley, E.E., Rhoads, G.G., Berendes, H.W. (1984). Maternal alcohol
consumption and birth weight: How much drinking in pregnancy is safe? JAMA, 252, 1875-79.
Phillips, E.E. (1992). Effects of alcohol on the development of glial cell and myelin, in Alcohol
and Neurobiology: Brain development and hormone regulation (pp. 83-108). Watson, R.R. (Ed.).
Boca Raton: CRC Press.
Randall, C.L. (1977). Teratogenic effects of in utero ethanol exposure. In Blum, K., Bord, D., &
Hamilton, M. (Eds.). Alcohol and opiates: Neurochemical and behavioral mechanisms. New
York: Academic Press.
Riley, E.P, Mattson, S.N., Sowell, E.R., et al. (1995). Abnormalities of the corpus callosum in
children prenatally exposed to alcohol. Alcohol Clinical Experimental Research, 19, 5, 11981202.
Roebuck, T.M., Mattson, S.N., & Riley, E.P. (1998). A review of the neuroanatomical findings
in children with fetal alcohol syndrome or prenatal exposure to alcohol. Alcohol Clinical
Experimental Research, 22, 2, 339-344.
Shonfeld, A.M., Mattson, S.N., & Riley, E.P. (2005). Moral maturity and delinquency after
prenatal alcohol exposure. Journal of Studies on Alcohol, 66, 545-554.
Sowell, E.R., Jernigan, T.L., Mattson, S.N., et al. (1996). Abnormal development of the
cerebellar vermis in children prenatally exposed to alcohol: Size reduction in lobules I-V.
Alcohol Clinical Experimental Research, 20, 1, 31-34.
Spear, L. (2000). Modeling adolescent development and alcohol use in animals. Alcohol
Research Health, 24, 2, 115-123.

Exhibit 77-1011

Petitioner's App. 45 - 751

ER 1199

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 230 of (1422
298 of 1584)

Case 2:06-cv-04532-RGK Document 49-1 Filed 09/07/10 Page 113 of 114 Page ID
#:1367

Spohr & Steinhausen (1987). Follow-up studies of children with fetal alcohol syndrome.
Neuropediatrics, 18, 13-17.
Streissguth, A.P. (1978). Fetal alcohol syndrome: An epidemiologic perspective. American
Journal of Epidemiology, 107, 467-478.
Streissguth, A.P. (1990). Prenatal alcohol induced brain damage and long term postnatal
consequences. Alcoholism: Clinical and Experimental Research, 14, 648-649.
Streissguth, A.P. (1997). Fetal alcohol syndrome: A guide for families and communities. MD:
Pearl H. Brooks Publishing Company.
Streissguth, A.P., Aase, J.M., Clarren, S.K., Randels, S.P., LaDue, R. A., & Smith, D.F. (1991).
Fetal Alcohol Syndrome in adolescents and adults. JAMA, 265, 1961-1967.
Streissguth, A.P., Barr, H.M., Bookstein, F.L., Sampson, P.D., & Olson, H.C. (1999). The long
term neurocognitive consequences of prenatal alcohol exposure: A 14-year study. Psychological
Science, JO (3), 186-190.
Streissguth, A.P., Barr, H.M., Kogan, J., & Bookstein, F.L. (1996). Understanding the
occurrence of secondary disabilities in clients with fetal alcohol syndrome (FAS) and fetal
alcohol effects (FAE): Final report to the Centers for Disease Control on Grant No.
RO4/CCR008515 (Tech. Report No. 96-16). Seattle: University of Washington, Fetal Alcohol
and Drug Unit.
Streissguth, A.P., Barr, H.M., Sampson, P.D., et al. (1986). Attention, distraction, and reaction
time at age 7 years and prenatal alcohol exposure. Neurobehavioral Toxicology Teratology, 8, 16,
717-725.
Streissguth, A.P., Clarren, S.K, & Jones, K.L. (1985). Natural history of the fetal alcohol
syndrome: A ten-year follow-up of eleven patients. Lancet, 2, 85-91.
Streissguth, A.P. & Kanter, J. (Eds.) (1997). The challenge of fetal alcohol syndrome:
Overcoming secondary disabilities.
Streissguth, A.P., Landesman-Dwyer, S., Martin, J.C., Smith, D.W. (1980). Teratogenic effects
of alcohol in humans and laboratory animals. Science, 209, 353-361.
Streissguth, A.P., & Randels, S. (1988). Long term effects of fetal alcohol syndrome In G.C.
Robinson & R.W. Armstrong (Eds.), Alcohol and Child/Family Health (pp. 135-150).
Vancouver: University of British Columbia.
Swayze, II, V.W., Johnson, V.P., Hanson, J.W., et al. (1997). Magnetic resonance imaging of
brain anomalies in fetal alcohol syndrome. Pediatrics, 99, 2, 232-240.

Exhibit 77-1012

Petitioner's App. 45 - 752

ER 1200

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

Page: 231 of (1423
298 of 1584)

Case 2:06-cv-04532-RGK Document 49-1 Filed 09/07/10 Page 114 of 114 Page ID
#:1368

and spatial memory deficits
Uecker, A., & Nadel. L. (1996). Spatial locations gone awry: Object
3.
209-22
in children with fetal alcohol syndrome. Neuropsychologia, 34, 3,
Oxford University Press.
West, J.R. (Ed.) (1986). Alcoho l and brain development. New York:
T.S. (1998). Effect of fetal
Yates, W.R., Cadoret, R. J. Troughton, E.P., Stewart, M., & Giunta,
dependence. Alcoholism
drug
and
,
alcohol
e,
alcohol exposu re on adult sympto ms of nicotin
0.
Clinical and Experimental Research, 22, 914-92
callosum: Influence of
Zimme rberg, B., & Michus L.A. (1990). Sex differences in corpus
h, 537, 115-122.
prenatal alcohol exposure and maternal undemutrition. Brain Researc

Exhibit 77-1013

Petitioner's App. 45 - 753

ER 1201

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 233 of(1425
298 of 1584)

Filed 09/07/10 Page 29 of 86 Page ID #:1542

DECLARATION OF PAUL D. CONNOR. Ph.D.

I, Paul D. Connor, declare:
I.

Background and Qualifications

1.

I am a former Assistant Professor and now a clinical faculty member in

the Department of Psychiatry and Behavioral Sciences' Fetal Alcohol and Drug Unit
(FADU) at the University of Washington. I received my Bachelor's degree in
psychology from the University of Washington, and my Ph.D. in clinical
psychology, with a specialization in neuropsychology, from Brigham Young
University.
2.

I served my internship at Henry Ford Hospital in Detroit, Michigan,

specializing in neuropsychology, before I returned to the University of Washington
for a post-doctoral fellowship in neuropsychology and fetal alcohol research. For
the past thirteen years, I have been the neuropsychologist for the Fetal Alcohol and
Drug Unit participating in the study of the damaging effects on the brain, cognition,
and mental health functioning caused by prenatal alcohol exposure.
3.

I served as the Project Director of the Seattle Longitudinal Prospective

Study, a study that enrolled approximately 500 subjects prior to birth with known
levels of prenatal alcohol exposure ranging from abstinence to relatively heavy
exposure. I was a Co-Investigator for a study of structural MRI and
neuropsychological functioning in patients diagnosed with Fetal Alcohol Syndrome
(FAS) and Fetal Alcohol Effects (FAE).
4.

I was also the Principal Investigator for a study of functional MRI that

assesses brain activation in relation to several tests of cognitive function known to
be impaired in patients with FAS and FAE. I have authored and co-authored
several articles and book chapters on the neuropsychological, neuroimaging, and
psychiatric implications of long term effects of prenatal alcohol exposure into

Exhibit 96-1187

Petitioner's App. 46 - 754

ER 1202

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 234 of(1426
298 of 1584)

Filed 09/07/10 Page 30 of 86 Page ID #:1543

adolescence and adulthood, and I am a member of several professional societies.
5.

I also have a private practice offering neuropsychological assessment

services for adults with known or suspected prenatal alcohol damage in both clinical
and forensic settings. I am the Neuropsychological Director of FASD Experts
(www.FASDExperts.com). (See attached resume.)
II.

Reference Question and Data Considered in Forming Opinion
6.

I was retained by Mr. Carter's attorneys, Deputy Federal Public

Defenders Brad Levenson and Alexandra Yates, to evaluate Mr. Carter for Fetal
Alcohol Spectrum Disorders (F ASD).
7.

I performed a clinical and neuropsychological assessment in order to

determine if Mr. Carter's pattern of cognitive functioning is consistent with a
diagnosis on this spectrum.
8.

I also reviewed the following relevant ancillary materials:

a.

Psychological Evaluation of Dean P. Carter by Marianne Hagen,

School Psychologist, dated June 1, 1971;
b.

Evaluation Record of Dean Carter by Gateway Community Mental

Health, dated May 1, 1973;
c.

Report of Psychiatric Evaluation of Dean Carter by Dr. Robert

McManmon, dated November 18, 1977;
d.

MMPI Report of Dean P. Carter, dated March 6, 1978;

e.

Psychological Evaluation and Taylor-Johnson Temperament Analysis

of Dean Carter by Kathi Smith, dated March 2, 1978;
f.

Psychological Evaluation of Dean Carter by Dr. Michael P. Maloney,

dated September 12, 1987;
g.

Psychological Evaluation of Dean Carter by Dr. Paul S.D. Berg, dated

June 5, 1989;
2

Exhibit 96-1188

Petitioner's App. 46 - 755

ER 1203

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

h.

DktEntry: 15-6

Page: 235 of(1427
298 of 1584)

Filed 09/07/10 Page 31 of 86 Page ID #:1544

Neurological Consultation, Evaluation & Assessment of Dean Carter

by Dr. Arthur P. Kowell, dated January 10, 1989;
I.

Neuropsychiatric Committee Examination Summary of Dean Carter,

State of California Department of Corrections, San Quentin State Prison, dated June
8, 1990;
J.

AFEES Report of Medical History of Dean Carter: Anchorage, Alaska,

dated September 7, 1972;
k.

Providence Hospital Medical Records of Dean Carter: Anchorage,

Alaska, dated May 24, 1977;

1.

Norton Sound Regional Medical Records of Dean Carter: Nome,

Alaska from 1961 to 1980;
m.

Nome Public School Records of Dean Carter from 1961-1972;

n.

Anchorage School District Records of Dean Carter from 1969-1973;

o.

Testimony of Monte S. Buchsbaum, M.D., dated June 13, 1991;

p.

Declaration ofMyla H. Young, Ph.D., dated March 19, 2001;

q.

Declaration of David V. Foster, M.D., dated March 30, 2001;

r.

Declaration of Mindy S. Rosenberg, Ph.D., dated June 14, 2007;

s.

Declaration of Natalie Novick Brown, dated June 4, 2007;

t.

Declaration of Adrain Raine, dated March 31, 2001; and

u.

Declaration of Richard Adler, M.D.

The materials I have reviewed are the kinds of materials routinely relied upon by
experts in my field to reach a professional opinion both today and at the time of Mr.
Carter's trials.
9.

As will be discussed in more detail below, based on my clinical and

neuropsychological examination of Mr. Carter and the review of the
above-mentioned materials, and others to be discussed below, it is my opinion,
3

Exhibit 96-1189

Petitioner's App. 46 - 756

ER 1204

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 236 of(1428
298 of 1584)

Filed 09/07/10 Page 32 of 86 Page ID #:1545

which I hold to a reasonable degree of medical certainty, that Mr. Carter evidences a
complex pattern or behavior of cognitive abnormalities that are inconsistent with
developmental level and cannot be explained by familial background or
environment alone.

III.

Diagnostic Features of FASD
10.

FASD is an umbrella term used to denote the presence of significant

damage caused by prenatal consumption of alcohol. It encompasses a number of
specific diagnoses.
11.

The first, and most recognized, is FAS. In 2004, the Centers for

Disease Control and Prevention (CDC) developed a set of guidelines for the
diagnosis of FAS that included three main diagnostic features:
Specific Pattern of Facial Features: the first diagnostic feature of FAS is a
specific pattern of facial features including: ( 1) short palpebral fissures; (2) smooth
or flat philtrum; and (3) thin upper lip. All three of these facial features must be
present at some point in the person's life for a diagnosis of FAS. However, facial
features often ameliorate as an individual passes through puberty, such that someone
who may have had the full facial features as a child may not retain these facial
features to the same degree in adulthood.
Growth Deficiency: The second symptom for a diagnosis of FAS is growth
deficiency, defined as height and/or weight below the tenth percentile at some point
in the person's life, especially as a child.
Evidence of Central Nervous System (CNS) Abnormalities: The third
symptom group, and the one most germane to my area of practice, is evidence of
CNS abnormalities. This can include such hard signs as abnormal neuroimaging,
microcephaly, neurologic impairments (motor deficiency), seizures, soft
neurological signs, and functional deficits as measured by neuropsychological
4

Exhibit 96-1190

Petitioner's App. 46 - 757

ER 1205

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 237 of(1429
298 of 1584)

Filed 09/07/10 Page 33 of 86 Page ID #:1546

testing. Functional deficits are defined as intellectual functioning two standard
deviations below average and/or deficits at least one standard deviation below
average in at least three domains of cognitive functioning (e.g. motor functioning,
executive functioning, memory, attention, social skills, and cognitive or
developmental deficits or discrepancies).
In 1989 and 1991, the current diagnostic criteria described above had not yet
been fully delineated. However, there were diagnostic criteria that had been
generally accepted from the 1973 paper by Jones and Smith (Jones, K. L., & Smith,
D. W. (1973) - Recognition of the fetal alcohol syndrome in early infancy - Lancet,
2(7836), 999-1001) and the 1978 paper by Clarren and Smith (Clarren, S. K., &
Smith, D. W. (1978) - The fetal alcohol syndrome - New England Journal of

Medicine, 35( 10), 4-7). The physical features criteria used at that time are very
similar to the criteria in use today. The CNS component of the diagnosis was much
less well described, as a significant portion of the research on the effects on
cognitive functioning in FAS was still underway and, at the time, was primarily
being conducted with children. In addition, during these years, the diagnosis had
primarily been made in children. However, it would have been possible, though
more challenging, to make this diagnosis in an adult.
12.

The second main diagnosis under the F ASD umbrella is Alcohol

Related Neurodevelopmental Disorder (ARND). In the 1970s this diagnosis was
termed Fetal Alcohol Effects (FAE). The term FAE, however, was replaced by
ARND in 1996 by the Institute of Medicine. In ARND, there often are no physical
features (such as facial anomalies or growth deficiencies). However, the same set
of CNS abnormalities seen in FAS, are present in ARND. Therefore, the same
guidelines developed by the CDC for FAS can be applied for the diagnosis of
ARND. There has been ample research in the United States that has demonstrated
5

Exhibit 96-1191

Petitioner's App. 46 - 758

ER 1206

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 238 of(1430
298 of 1584)

Filed 09/07/10 Page 34 of 86 Page ID #:1547

no difference between FAS and ARNO in the presentation of CNS abnormalities in
neurological, neuroimaging, or neuropsychological signs.
13.

Alcohol is a fairly nonspecific teratogen. When consumed during

pregnancy, it can have a variety of impacts on the developing fetus depending on the
timing and the amount of alcohol consumed. Therefore, the presentation of FASO
can be quite varied. If alcohol is consumed very early in pregnancy (within the first
six to eight weeks) the facial features of FAS will often result in addition to
cognitive deficits. If alcohol is consumed after this relatively short window of time,
the individual will likely not display facial features consistent with FAS. However,
if alcohol is consumed later in pregnancy, the cognitive deficits can still result.
Therefore, exposure to alcohol at anytime during pregnancy can lead to cognitive
deficits. Alcohol can negatively impact the development of neurons at multiple
stages of neuronal development. It can have an impact at the stages of cell
generation, reproduction, migration, and cell interconnectivity.
14.

Typically, a person with FASO does not have the global deficit of

cognitive functioning. Instead, cognitive functioning is "patchy" -- some functions
are intact while other functions are impaired.
15.

In research on FASO, it is relatively rare to see individuals with

intellectual functioning that is within the mentally retarded range. One study found
that only approximately 20% of individuals with FASO had IQs below 70. Indeed,
the IQ range of persons with FASO can extend from scores as low as the 40' s to as
high as 140. Therefore, intellectual functioning, by itself, is not a good indication
of the cognitive functioning in individuals with FASO.
16.

When looking at individuals with FASO, it is quite common to see a

variability of functioning on an IQ test. Often there is a "split" between functioning
on language-based tasks versus non-language-based tasks. The most significant
6

Exhibit 96-1192

Petitioner's App. 46 - 759

ER 1207

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 239 of(1431
298 of 1584)

Filed 09/07/10 Page 35 of 86 Page ID #:1548

deficits are in academic functioning (especially arithmetic), executive functions, and
social or adaptive functioning.
17.

These are the issues that I address when assessing a client for FASD.

Other neurological insults, such as traumatic brain injury, stroke, hypoxia, and
prolonged fever, among others, can have similar effects on cognitive functioning.
Therefore, it is important to take all of these potential insults into consideration
when determining if the client's functioning is consistent with FASO.
IV.

Background Information and Clinical Examination

18.

Mr. Carter is a 53-year-old man who is currently on death row at San

Quentin State Prison, California, as a result of capital murder convictions suffered in
San Diego County in 1989 and Los Angeles County in 1991.
19.

I met with Mr. Carter on December 18, 2008. I interviewed Mr. Carter

regarding his current functioning and background history.
20.

Based on reports, Mr. Carter's mother was observed to have consumed

alcohol while she was pregnant with him. Lily Rose, a friend of Mr. Carter's
mother, observed Mrs. Carter in bars drinking throughout the course of her
pregnancy with Mr. Carter, especially on weekends.
21.

Alcoholism was prominent in Mr. Carter's family, including his

grandmother, mother, and step-father. Based upon a lack ofrecords, it is not clear if
there were any complications with Mr. Carter's birth or any early developmental
delays.
22.

Over the years, Mr. Carter's health has been fairly good. It is reported

that Mr. Carter was exposed to toxins as a child when he would play amongst the
tailings from mining operations in Nome, Alaska.
23.

When Mr. Carter was approximately five years old, he was run over by

a car and knocked unconscious. He reports that he woke up in the police car on the
7

Exhibit 96-1193

Petitioner's App. 46 - 760

ER 1208

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 240 of(1432
298 of 1584)

Filed 09/07/10 Page 36 of 86 Page ID #:1549

way to the hospital, possibly five to ten minutes after the accident. In Dr. Kowell's
report, the length of unconsciousness following this accident was described as one to
two hours. Mr. Carter did not know if there were any residual deficits following
this accident.
24.

When Mr. Carter was approximately twenty-one years old, he was

involved in a motor vehicle accident, striking his head and breaking several teeth. He
reports that he was rendered unconscious at the time of the accident, briefly
returning to consciousness during the extraction process, but falling unconscious
again until after he had been taken to the hospital. Medical records at the time of
this accident indicate that Mr. Carter suffered a concussion, but that a skull X-ray
taken indicated no skull abnormalities.
25.

Mr. Carter indicates that he used to box for a couple of years, but never

was knocked out, though he did suffer some rib injuries.
26.

In 1989, Mr. Carter received an MRI and EEG. As reported by Dr.

Kowell, the tests indicated no intracerebral abnormalities, although there were
indications of considerable sinus troubles. However, it was unlikely that a
neuroradiologist at that time would have looked for neuroimaging signs that are
consistent with FASD. The research on neuroimaging findings began in the late
1980s and has continued to this day. In addition, the neuroimaging findings of
structural abnormalities associated with F ASD are often fairly subtle, requiring
careful measurement of brain structures, in order to identify. It is quite likely that a
clinically read image would not have picked up on the structural changes.
Therefore, an image read as clinically normal does not, of itself, negate the
possibility of brain damage secondary to prenatal alcohol exposure. Furthermore,
based on current diagnostic guidelines, the presence of structural abnormalities is
but one of the symptoms used to diagnose the condition, not the sole required
8

Exhibit 96-1194

Petitioner's App. 46 - 761

ER 1209

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 241 of(1433
298 of 1584)

Filed 09/07/10 Page 37 of 86 Page ID #:1550

symptom.
27.

Mr. Carter has also received a PET scan that was interpreted by both

Dr. Monte Buchsbaum at trial and later, in a declaration by habeas expert Dr. Adrian
Raine.
28.

Dr. Raine indicated that "[t]he lateral and medial prefrontal cortex,

corpus callosum, and occipital cortex all show evidence of reduced functioning. The
hippocampus and thalamus also show evidence of abnormal asymmetries of
function, while the midbrain is the one area that shows increased functioning." Dr.
Raine concluded that the PET scan "depicts significantly abnormal brain
functioning."
29.

In his 1989 testimony, Dr. Buchsbaum opined that, although he had not

seen any of the historical information on Mr. Carter, the PET scan showed
considerable abnormalities that could be seen in individuals with head injuries or
who had developmental abnormalities. Dr. Buchsbaum also commented that the
abnormalities seen in the PET scan were not clustered in any specific region but
were widespread.
30.

When interpreting the PET scans, Dr. David Foster indicated the

imaging "shows damage to those areas of the brain required for judgment, insight,
impulse control, and evaluation of reality and appropriate reality based responses."
He further indicated that "neuropsychological testing [conducted by Dr. Myla
Young] also indicates damage to areas of the brain involved in evaluation,judgment,
and impulse control."
31.

Mr. Carter reports that he has difficulties with memory and that these

difficulties have occurred throughout his life. According to Mr. Carter, he
especially has troubles with people's names. Mr. Carter states that when he sees a
person's face, he feels that he recognizes the person but is often not be able to put a
9

Exhibit 96-1195

Petitioner's App. 46 - 762

ER 1210

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 242 of(1434
298 of 1584)

Filed 09/07/10 Page 38 of 86 Page ID #:1551

name to the face. He reports that if others remind him, he will be able to recall
information.
32.

When in school, Mr. Carter benefitted from repetition to assist him in

remembering information. He would usually not pick up a concept on the first
presentation, but would be able to improve his performance with repetition.
33.

Mr. Carter indicates that over the last ten years, he has had increasing

difficulties with attention problems. Mr. Carter also reports that even as a young
child he had considerable difficulties with attention, distraction, and hyperactivity,
especially in school. He notices that he will become easily sidetracked in
conversations.
34.

According to Mr. Carter, he has had difficulties with arithmetic skills

throughout his life. Money management was also a considerable difficulty for him
when he was not incarcerated. When he was married, he indicated that both he and
his wife would handle the finances.
35.

Records indicate that Mr. Carter began to display behavioral

difficulties at a very early age. He began running away from home when he was
approximately six years old. Various reports have described Mr. Carter as
"immature," "undirected," and "impulsive" even at a very early age. Mr. Carter
indicates that he always had behavioral difficulties and would do "stupid things"
even before his two head injuries, described above. As a child, Mr. Carter was
noted by others to be "slow," and "not the sharpest kid around." Dr. Mindy
Rosenberg concluded that "Dean's prenatal exposure to alcohol indicates high
likelihood of diffuse brain damage and severe impairment in cognitive and
emotional functioning. The effects of this brain damage were further exacerbated
by the deleterious consequences of his chronic, malignant, parental caretaking
environment."
10

Exhibit 96-1196

Petitioner's App. 46 - 763

ER 1211

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

36.

DktEntry: 15-6

Page: 243 of(1435
298 of 1584)

Filed 09/07/10 Page 39 of 86 Page ID #:1552

Mr. Carter indicated that he always felt a desire to have structure in his

life, but had great difficulty following through on developing it. For a short time,
he was in the military, but went AWOL a number of times, so was discharged. He
reported that when he looks back on this, he felt he could have done well in the
military because of the structure that it involves, but that he had a hard time getting
used to the structure.
37.

Mr. Carter was also noted to have difficulty with relationships, tending

to avoid them.
38.

Although he received his GED when he was seventeen years old while

serving in the military, Mr. Carter did not attend school regularly since the seventh
grade. Between the first and sixth grades, he averaged Cs in his classes. During the
seventh grade, Mr. Carter received predominantly Cs and Ds. In high school, he
typically received B, C, and F grades. Mr. Carter dropped out of school in the tenth
grade. Prior to this, Mr. Carter had many absences. He never received special
education, though he was enrolled in a number of reform and boarding schools for
behavioral troubles.
39.

A psychological evaluation conducted while Mr. Carter was in tenth

grade indicated a Verbal IQ in the average range, Performance IQ in the high
average range, and Full Scale IQ within the high average range, when tested with the
Wechsler Intelligence Scale for Children (WISC). Academic testing indicated Mr.
Carter's reading at the eighth grade level, passage comprehension at the seventh
grade level, and arithmetic functioning at the sixth grade level. It was noted on this
report that although his knowledge and basic arithmetic skills were relatively good,
Mr. Carter tended to make errors through a failure to observe signs and through
"careless" errors. It was also noted during this assessment that Mr. Carter
demonstrated high levels of anxiety and that he "tends to build up to a point of
11

Exhibit 96-1197

Petitioner's App. 46 - 764

ER 1212

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 244 of(1436
298 of 1584)

Filed 09/07/10 Page 40 of 86 Page ID #:1553

over-reaction and once there continues to be over-reactive."
40.

In a 1987 testing by Dr. Michael Maloney, Mr. Carter's estimated IQ

was between 115 and "120+" based on a screening test of word knowledge. In
1988, when tested by Dr. Paul Berg, the Raven Standard Progressive Matrices
indicated Mr. Carter's IQ as 131.
41.

Mr. Carter reports he held many jobs during his life. He has worked in

kitchens cooking and baking in institutional settings. He worked as a baggage
handler for an airline, and did maintenance work on airplanes. His longest
employment was as a television cameraman and still photographer, doing this work
between 1979 and 1984.
42.

Mr. Carter began using tobacco when he was nine or ten years old. He

would smoke one to two packs of cigarettes per day until his mid forties. He began
seriously drinking alcohol in his twenties. After his divorce, Mr. Carter began
drinking more heavily and would often binge drink on the weekends. As reported
by Mr. Carter, he began smoking marijuana when he was a pre-teen, and would use
whenever he could get the drug. He used hallucinogens relatively frequently as a
teenager, and began using cocaine when he was around eighteen or nineteen years
old, initially using only occasionally. Between the ages of twenty-one and
twenty-four, Mr. Carter would use cocaine on a daily basis. He cut back on his
usage during his marriage but quickly returned to heavy use after his separation.
43.

Regarding his mental health, Mr. Carter indicates that he tends to "live

in the moment." Several past psychological evaluations of Mr. Carter have
documented some difficulties with depression, restlessness, and troubles with
anxiety. These reports have also indicated that Mr. Carter has difficulty with
controlling impulses.
44.

In 1978, Kathy Smith (a psychological counselor) indicated that Mr.
12

Exhibit 96-1198

Petitioner's App. 46 - 765

ER 1213

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 245 of(1437
298 of 1584)

Filed 09/07/10 Page 41 of 86 Page ID #:1554

Carter was mildly anxious. In his evaluation of Mr. Carter in 1987, Dr. Michael
Maloney reported that MMPI and MCMI testing indicated a lack of psychological
insight, denying of psychological difficulties, high levels of impulsivity with poor
frustration tolerance, poor judgment, immaturity, and easy excitability and boredom.
45.

Dr. Foster indicated that Mr. Carter presented with a major affective

disorder with severe mood swings. In the past, Mr. Carter was prescribed
Sinequan, Librium, and Benadryl for depression and insomnia while incarcerated.
He currently is not prescribed any medications for mental health concerns.
46.

It would appear that Mr. Carter experienced considerable chaos in his

early childhood. There was indication of physical and emotional abuse. It was
reported that his parents would chain him to the bed and would whip him with a
barber shop strap. It was felt by Dr. Foster, in his declaration of 2001, that Mr.
Carter began treating the pain of an abusive environment with substances at an early
age which "further impaired his ability to accurately perceive and understand the
world around him, his ability to respond adequately to complex situations, and his
ability to function normally." Dr. Rosenberg concluded that in addition to
biological factors of family history of alcoholism and prenatal alcohol exposure, Mr.
Carter's early childhood experiences led to the development of severe psychological
and social problems in adulthood.

V.

Neuropsychological Testing Results
4 7.

The purpose of the neuropsychological assessment in a forensic setting

is to determine if an individual's cognitive functioning is consistent with the
cognitive deficits of F ASD, taking into consideration other potential etiologies.
Following this, it is usually a medical doctor, such as Dr. Richard Adler, who will
take this assessment into consideration when making the final medical diagnosis of
FASD.
13

Exhibit 96-1199

Petitioner's App. 46 - 766

ER 1214

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 246 of(1438
298 of 1584)

Filed 09/07/10 Page 42 of 86 Page ID #:1555

A.

Behavioral Observations

48.

Mr. Carter was a well groomed tall and large man. He was not noted to

display a tremor during the testing. He was quite friendly, on occasion joking with
the examiner.
49.

In general, Mr. Carter appeared to speak well for himself with a good

font of knowledge. This may mislead people to believe that Mr. Carter is
functioning at a high level. Mr. Carter would ask for a lot of feedback on his
performance during tasks. At times he felt he was doing poorly on tasks and would
say "I am a genius" quite sarcastically.
50.

Mr. Carter asked for a lot of repetition of questions and instructions and

at times appeared to be over-analyzing tasks. He took quite a bit of time to
complete all tasks in order to make sure he was doing them correctly. Despite this,
he worked very hard on all tasks that were presented to him. There was no indication
of thought disorder or current suicidal or homicidal ideation. Mr. Carter's behavior
while taking the tests indicates that they are an accurate representation of his current
cognitive status.
B.

Neuropsychological Measures

51.

Due to time constraints while testing Mr. Carter at San Quentin, I was

unable to complete a full neuropsychological assessment on the one day that I was
able to meet with him. 1 However, in 1998 and 1999 he was evaluated by Myla
Young, Ph.D. who was able to administer a full neuropsychological battery. There
was considerable consistency between results of the tests that I administered during
1

I administered the following testing: Wechsler Adult Intelligence Scale - Third Edition
(WAIS-III); Woodcock Johnson Tests of Achievement - 3rd Edition (WJ-III); California
Verbal Leaming Test - 2nd Edition (CVLT-2); Wisconsin Card Sorting Test- 4th Edition
(WCST); Ruffs Figural Fluency Test (RFF); Stroop Color and Word Test Trail Making
Test (TMT); Consonant Trigrams Test (CTT); and Green's Word Memory Test (WMT)
(partial administration).
14

Exhibit 96-1200

Petitioner's App. 46 - 767

ER 1215

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 247 of(1439
298 of 1584)

Filed 09/07/10 Page 43 of 86 Page ID #:1556

my evaluation and similar tests administered by Dr. Young. Therefore, both the
current testing and information from the assessment by Dr. Young will be combined
below to describe Mr. Carter's pattern of neuropsychological functioning. In
situations where developmental disabilities are concerned, it is not expected that
there would be significant changes in a person's neuropsychological functioning
over the years, as opposed to cases of degenerative disorders where functioning is
expected to decline. Therefore, it is common practice that past testing is taken into
account when conducting a neuropsychological evaluation.

Intelligence and Academic Achievement
52.

Intellectual functioning, as measured by the Wechsler Adult

Intelligence Scale - Third Edition (WAIS-III), was within the high average range.
Verbal IQ was measured at 113, performance IQ at 119, and full-scale IQ at 116. Mr.
Carter's areas of greatest strength were on the following tasks: arranging images to
create a sensible story (very superior range); definition of words ( superior range);
common sense problem solving (high average to superior range); and assembling
blocks to match an exemplar (high average range). His area of greatest weakness
was on a task of short term attention span (low average range). The balance of tasks
were performed within the average range. Mr. Carter's performance on current
intellectual testing was remarkably consistent with testing conducted by Dr. Young.
On that testing, verbal IQ was measured at 114, performance IQ at 116, and
full-scale IQ at 116. As Dr. Young indicated, Mr. Carter's level of intellectual
functioning is surprising given his level of academic achievement (10th grade of
formal education and subsequent GED).
53.

Academic achievement, as measured by the Woodcock Johnson Tests

of Achievement- Third Edition (WJ-III), indicated that Mr. Carter's performance
was quite a bit lower than his measured intellectual functioning, but relatively
15

Exhibit 96-1201

Petitioner's App. 46 - 768

ER 1216

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 248 of(1440
298 of 1584)

Filed 09/07/10 Page 44 of 86 Page ID #:1557

consistent with his level of formal education in the majority of areas. His areas of
greatest strength were on tasks of passage comprehension, where he was functioning
at a level beyond the eighteenth grade, and spelling, where he was functioning at a
fourteenth grade level. Word pronunciation was performed at a tenth grade level,
consistent with his formal education level.
54.

Mr. Carter's area of greatest weakness was on a task of arithmetic

functioning with graduated levels of difficulty. On this task, Mr. Carter was
performing at a seventh grade level, three years below his level of education.
Similarly, in the testing by Dr. Young, Mr. Carter's area of greatest weakness in
academic testing was in the area of arithmetic. Mr. Carter's pattern of performance
on academic testing indicates the presence of a learning disability (Mathematics
Disorder) and is very consistent with past research on individuals with FASD. In
these studies, academic functioning, and especially arithmetic functioning, has been
found to be well below expectations based on intellectual functioning and levels of
education.
Learning, Memory, and Attention

55.

Mr. Carter's initial performance on a list learning task was within the

low average range, recalling five of the sixteen items that were presented. He
benefitted greatly from repetition, such that by the final trial, he was functioning
within the high average range, recalling fourteen of the sixteen items. His overall
performance on this task was within the high average to superior range (T-Score =
65). When Mr. Carter was asked to recall the items on the list after a short delay
period, Mr. Carter was able to recall the majority of items initially encoded,
functioning within the high average range. Following a long delay period, he again
was functioning within the high average range. He tended to benefit from cuing of
information, recalling more items than he did on free recall of information,
16

Exhibit 96-1202

Petitioner's App. 46 - 769

ER 1217

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 249 of(1441
298 of 1584)

Filed 09/07/10 Page 45 of 86 Page ID #:1558

functioning within the high average to superior range following a short delay and
within the high average range following a long delay.
56.

On a recognition trial in which Mr. Carter was given a long list of items

and asked to identify those that were presented on the learning trials, he correctly
endorsed fourteen of the sixteen items (average range). His performance on current
verbal memory testing is somewhat inconsistent with testing conducted by Dr.
Young. In that assessment, he was noted to have verbal memory functioning within
the mildly impaired range. Based on the length of time between the two assessments,
it is unlikely that this difference in functioning could be due to learning effects.
57.

Mr. Carter was administered two tasks designed to measure his effort.

On the first, a forced choice component of the CVL T (described above), he correctly
identified all sixteen of the items, indicating very good effort. Due to time
constraints, Mr. Carter was unable to complete the full Green's Word Memory Test.
On the one portion that he was able to complete before testing was terminated, he
was able to identify 85% of the items on the immediate recognition trial. This is
somewhat lower than might be expected but is still considered to be an indication of
adequate effort. When combined with CVL T performance and observation of Mr.
Carter's behavior while being assessed, it is my professional opinion that he put out
very good effort on all tasks and thus the testing is an accurate assessment of his
neuropsychological functioning. Indeed, Dr. Young concluded, based on her
observations and two tests of effort, that, Mr. Carter was not attempting to fake his
performance.
58.

In her assessment of Mr. Carter, Dr. Young administered the Rey

Complex Figure Test. Though she did not comment in her declaration on Mr.
Carter's performance on the memory components of this test, she indicated that Mr.
Carter displayed moderate to severe impairment on the copy trial of this test. This
17

Exhibit 96-1203

Petitioner's App. 46 - 770

ER 1218

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 250 of(1442
298 of 1584)

Filed 09/07/10 Page 46 of 86 Page ID #:1559

indicates significant impairment in complex psychomotor functioning. Research
has shown that individuals with FASD often have difficulties with complex
psychomotor of visual spatial functioning. Dr. Young administered a series of
attention tasks to Mr. Carter in her assessment. She indicated that Mr. Carter
demonstrated mildly impaired functioning on the Seashore Rhythm Test, Speech
Sounds Perception Test, and the Paced Auditory Attention Test. In addition,
current testing indicated low average performance on a task of short-term attention
from the WAIS-III. Taken together, there is indication that Mr. Carter displays
deficits in attention functioning. Furthermore, when compared with his high
intellectual functioning, his performance on attention tasks is significantly impaired.
Mr. Carter's performance is consistent with past research on individuals with FASD,
in which attention functioning is often impacted.
Executive Functioning

59.

Executive functions are described as the ability to problem solve, learn

from past mistakes, inhibit responses, multitask, shift attention, and generate
information.
60.

On a task of visual tracking, Mr. Carter performed within the average

range. When test complexity was increased to include shifting attention during the
visual tracking task, he again performed within the average range.
61.

On a test requiring the generation of unique figural designs, Mr. Carter

performed within the average range. There was no indication of a perseverative
response style on this task. He demonstrated performance within the average range
on a task of response inhibition.
62.

On a working memory task in which Mr. Carter was required to

remember a series ofletters while performing a distraction task (counting backwards
by "3s"), he performed within the mildly impaired range when the distraction task
18

Exhibit 96-1204

Petitioner's App. 46 - 771

ER 1219

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 251 of(1443
298 of 1584)

Filed 09/07/10 Page 47 of 86 Page ID #:1560

was of relatively short duration (nine second delay). When the duration of the
distraction task was increased (eighteen second delay), he performed within the
moderately impaired range.
63.

On a task of visual problem-solving, where he was asked to make

judgments on matching stimuli in which multiple matching criteria could be applied,

Mr. Carter performed, overall, within the average range. He was able to identify all
six of the sorting strategies (average range) and identified the first sorting strategy
relatively quickly (average range).
64.

Taken as a whole, Mr. Carter demonstrated a significant deficit in his

ability to multi task and appropriately maintain multiple pieces of information
simultaneously. The balance of tasks were performed within the average range.
However, when compared with his level of intellectual functioning, Mr. Carter
demonstrates significant deficits on tasks of executive functioning. This is the
same finding that Dr. Young observed during her assessment of Mr. Carter. This
relative deficit indicates that Mr. Carter does not appear to be able to successfully
apply his strong intellectual abilities to appropriately solve problems, handle
multiple tasks, or appropriately shift his attention. Executive function deficits are
frequently seen in research on individuals with FASD.
VI.

Adaptive Functioning Assessment Results
65.

The Vineland Scales of Adaptive Behavior-II (VABS-11) (a measure of

personal and social skills from birth to adulthood), was administered to three
individuals who have known Mr. Carter well. The respondents included Rob
Stapleton, a long time friend, Mary Wondzell, a former employer, and Pat Rimmer,
Mr. Carter's foster mother. The interviews were conducted by Joan Sienkiewicz, a
nurse, who has extensive experience administering these interviews.
66.

Mr. Carter earned an overall Adaptive Composite of 86 from Mr.
19

Exhibit 96-1205

Petitioner's App. 46 - 772

ER 1220

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 252 of(1444
298 of 1584)

Filed 09/07/10 Page 48 of 86 Page ID #:1561

Stapleton ( 18th percentile, adequate range) and 78 from Ms. Rimmer (7th percentile,
moderately low range). Ms. Wondzell was not able to provide sufficient
information to determine a composite score. An average score on the VABS-II is
I 00 (standard deviation = 15) with the average range extending from 85 to 115.
Based on Mr. Stapleton's report, Mr. Carter's scores were 0.9 standard deviations
below average and 2 standard deviations below his level of intellectual functioning.
Ms. Rimmer's report indicated his performance to be 1.5 standard deviations below
average and 2.5 standard deviations below his level of intellectual functioning. Mr.
Carter's adaptive functioning in relation to intellectual functioning indicates
significant levels of deficit in his adaptive abilities. This is entirely consistent with
past research on FASD that demonstrates significant deficits in adaptive functions,
especially in relation to intellectual functioning.
67.

The Vineland assesses three areas of adaptive functioning:

Communication, Daily Living Skills, and Socialization.
68.

Mr. Carter's functional Communication Skills, overall, fall within the

adequate range and were considered by all informants to be his area of greatest
strength. All three respondents agreed that Mr. Carter's area of particular weakness
was in Expressive Skills where he was functioning at a twelve year, three month old
level. Both Ms. Wondzell and Ms. Rimmer indicated that another area of weakness
was in Written Skills where Mr. Carter was reported to function at a moderately low
level (thirteen years, and fifteen years, three months, respectively).
69.

Mr. Stapleton also indicated that Daily Living Skills were another area

of relative strength for Mr. Carter with a relative weakness in Community Skills that
were rated in the moderately low range. By contrast, Ms. Rimmer indicated that
Mr. Carter had relative weaknesses in Personal and Domestic Skills and was
functioning at an age equivalent of seventeen years (moderately low range).
20

Exhibit 96-1206

Petitioner's App. 46 - 773

ER 1221

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

70.

DktEntry: 15-6

Page: 253 of(1445
298 of 1584)

Filed 09/07/10 Page 49 of 86 Page ID #:1562

Both Mr. Stapleton and Ms. Rimmer agreed that Mr. Carter's overall

Socialization Skills were an area of considerable weakness for him (overall
functioning within the moderately low range). They agreed that Mr. Carter's area
of greatest weakness was in Coping Skills, with Mr. Stapleton reporting Carter's age
level at eleven years, six months, and Ms. Rimmer indicating an age level of ten
years, ten months in this domain.
71.

Though there are some discrepancies in adaptive functioning reports by

the respondents, there is also considerable overlap, which indicates that Mr. Carter
demonstrates significant difficulties in his day-to-day adaptive abilities and that
these difficulties are severe when considered against his quite high intellectual
functioning.
VII. Summary of Findings
72.

Mr. Carter's pattern of neuropsychological performance on this

assessment and the one conducted by Dr. Young in 1998 and 1999, indicate several
areas of relative cognitive strength in the presence of a number of areas of deficit.
Figure 1 graphically represents Mr. Carter's pattern of performance on the current
testing where all scores are converted to standard deviations from the mean (a score
of 0). With the exception of intellectual functioning, standard deviations below
"-1" represent areas of impaired functioning. As can be seen in Figure 1, Mr. Carter
demonstrated deficits in the executive function of multitasking, and adaptive
functions. Arithmetic functioning was significantly below expectations based on
his level of education.
73.

In addition to this, Dr. Young found Mr. Carter to have deficits in

attention functioning and complex psychomotor functioning. If his
neuropsychological functioning is considered relative to his intellectual functioning,
Mr. Carter shows deficits in academic functioning, attention, psychomotor
21

Exhibit 96-1207

Petitioner's App. 46 - 774

ER 1222

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 254 of(1446
298 of 1584)

Filed 09/07/10 Page 50 of 86 Page ID #:1563

functioning, executive functions, and adaptive functioning. Mr. Carter's
performance is consistent with the diagnoses of Cognitive Disorder, NOS (DSM-IV
code 294.9) and Mathematics Disorder (DSM-V code 315.1 ). It is likely that the
neuropsychological deficits displayed by Mr. Carter could have a negative impact
on his ability to develop appropriate problem solving strategies in complex
situations and to respond appropriately ifhe is in situations that require considerable
amounts of multitasking.
74.

There is evidence that Mr. Carter's mother consumed alcohol during

pregnancy, therefore consideration of a diagnosis on the fetal alcohol spectrum is
appropriate here. The diagnostic guidelines developed by the CDC for diagnosing
FASD require at least three domains of cognitive functioning that are at least one
standard deviation below average. In Mr. Carter's case, he demonstrates four
domains that achieve this level of deficit (executive functioning, attention,
psychomotor functioning, and adaptive functions). In addition, a previous analysis
of PET imaging has demonstrated abnormalities in neural functioning. Combined,
these findings demonstrate ample evidence of CNS abnormalities as required by the
CDC guidelines and are consistent with a diagnosis on the fetal alcohol spectrum.
Mr. Carter's intellectual functioning is quite high. If only his intellectual
functioning were addressed, it would be reasonable to assume that Mr. Carter would
be able to handle real-life situations quite well. However, he demonstrates both
relative and absolute deficits in several abilities including executive functioning and
adaptive functioning. This strongly indicates that he is not able to appropriately
apply his intellectual skills in the real world. Thus, his very high intellectual
functioning serves to mask his lack of ability to handle complex situations in ways
that are appropriate. This type of situation is entirely consistent with research on
individuals with FASD. They very frequently will not be able to apply knowledge
22

Exhibit 96-1208

Petitioner's App. 46 - 775

ER 1223

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 255 of(1447
298 of 1584)

Filed 09/07/10 Page 51 of 86 Page ID #:1564

or intelligence to handling complicated situations, and tend to evidence behaviors
that appear to be more impaired than expected based on intelligence levels. It is
often important to think of individuals with FASD as functioning at an adolescent or
even preadolescent level, rather than at their chronological age, when trying to
understand their inability to handle situations appropriately.
7 5.

There are a number of insults and traumas in addition to prenatal

alcohol exposure that can occur and may have similar impacts on cognitive
functioning. Therefore, it is important to address these other potential etiologies. In
Mr. Carter's case, he has experienced at least two head injuries that have caused a
loss of consciousness. Indeed, the cognitive consequences of traumatic brain injury
could be quite similar to that of prenatal alcohol exposure. However, there is
indication that Mr. Carter was demonstrating some level of cognitive difficulty prior
to receiving his first head injury at the age of five. It is possible that the subsequent
head injuries could have had a synergistic effect on later cognitive development.
There is also some concern that Mr. Carter may have been exposed to environmental
toxins during his childhood while playing among the tailings of gold mines. Again,
some of the toxins could have had a negative effect on later development.
However, as in the case of the head injuries described above, Mr. Carter began
showing evidence of disruptive behaviors and cognitive difficulties before the
potential toxic exposure from the mining sites.
76.

Mr. Carter appears to have experienced a fairly chaotic childhood with

evidence of physical and emotional abuse. There has been growing research
indicating that these traumatic experiences can have a negative impact on cognitive
development. However, chaotic family environments are an all too common
occurrence for individuals who were exposed to alcohol prenatally. In one study,
72% of individuals with FASD had experienced some form of physical abuse in
23

Exhibit 96-1209

Petitioner's App. 46 - 776

ER 1224

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 256 of(1448
298 of 1584)

Filed 09/07/10 Page 52 of 86 Page ID #:1565

their lives. Therefore, the chaotic family environment could have had an additive
effect on Mr. Carter's cognitive development.
77.

The final potentially competing etiology that could describe the

neuropsychological deficits displayed by Mr. Carter is his history of substance
abuse. However, there is considerable research evidence in both animal and human
studies that subjects exposed to alcohol prenatally have a much higher risk of
alcohol and drug problems later in life. Furthermore, there is indication that Mr.
Carter was demonstrating behavioral and cognitive difficulties prior to his onset of
substance use.
78.

All of the above-mentioned possible etiologies could have had an

additive impact on Mr. Carter's neuropsychological development. However, there
is considerable indication that he was having difficulties with his functioning from
the earliest stages of life.
79.

During his examination of Mr. Carter, Dr. Richard Adler concluded

that Mr. Carter displayed physical features that indicated a diagnosis of Partial Fetal
Alcohol Syndrome. The current neuropsychological testing certainly supports this
diagnosis, with Mr. Carter demonstrating deficits in neuropsychological functioning
in several areas and considerably poorer neuropsychological and adaptive
functioning than would be expected based on his level of intellectual functioning.
It is my opinion, which I hold to a reasonable degree of medical certainty, that

a diagnosis on the fetal alcohol spectrum disorder is warranted in Mr. Carter's case.
Were I asked in 1989/1991 about the consistency of the neuropsychological findings
with a diagnosis of Partial Fetal Alcohol Syndrome, my conclusion would be the
same as it is here. Based on Dr. Adler's examination, Mr. Carter demonstrates
several features that are consistent with those of Fetal Alcohol Syndrome.
However, as mentioned previously, research on the neuropsychological effects of
24

Exhibit 96-1210

Petitioner's App. 46 - 777

ER 1225

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 257 of(1449
298 of 1584)

Filed 09/07/10 Page 53 of 86 Page ID #:1566

Fetal Alcohol Syndrome was still being undertaken in the late 1980s and 1990s and
was focused primarily in children, so information would have needed to be
extrapolated to adults at that time. Despite this, with information about prenatal
alcohol exposure, demonstration of physical anomalies related to FAS, and
neuropsychological deficits, this diagnosis could have been made during Mr.
Carter's prior trials.
I declare under penalty of perjury that the foregoing is true and correct and
that this declaration was executed in Seatt~-o-n=-o"""-n-M_a_·r---==-------"'-E:a,,L----=::::..-----

Dr. Paul D. Connor

25

Exhibit 96-1211

Petitioner's App. 46 - 778

ER 1226

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 258 of (1450
298 of 1584)

Filed 09/07/10 Page 54 of 86 Page ID #:1567
1

CURRICULUM VITAE
Paul David Connor
EDUCATION
1988
1995

B.S., University of Washington, Seattle, WA, Psychology
Ph.D., Brigham Young University, Provo, UT, Clinical
Psychology/Neuropsychology

POSTGRADUATE TRAINING
1994-95
1995-1999

Internship, Henry Ford Health System, Detroit, MI, Neuropsychology
Senior Postdoctoral Fellow, University of Washington, Seattle, WA, Fetal
Alcohol Research and Neuropsychology

FACULTY POSITIONS
1999-2002

Acting Instructor, University of Washington, Psychiatry and Behavioral
Sciences, Fetal Alcohol and Drug Unit
2002-2005
Acting Assistant Professor, University of Washington, Psychiatry and
Behavioral Sciences, Fetal Alcohol and Drug Unit
2005-Present Assistant Professor, University of Washington, Psychiatry and Behavioral
Sciences, Fetal Alcohol and Drug Unit
2002-Present Research Affiliate of the Center on Human Development and Disability
LICENSURE TO PRACTICE
1997

Licensed Psychologist #PY00002050, Washington State

PROFESSIONAL ORGANIZATIONS
American Psychological Association
International Neuropsychological Society
National Academy of Neuropsychology, Program Committee 2007-2008
Pacific Northwest Neuropsychological Society, President 2004-2005
Research Society on Alcoholism
SPECIAL LOCAL and UNIVERSITY RESPONSIBILITIES
1998-Present
2003-Present
2003-Present
2004-Present
2004-Present

UW Substance Abuse Theme Committee
UW MSRTP Application Committee
Board Member of Fetal Alcohol Syndrome Information Service
UW FASD Training Alliance
Dept of Psychiatry and Behavioral Sciences Addictions and Trauma Work
Group

Exhibit 96-1212

Petitioner's App. 46 - 779

ER 1227

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 259 of (1451
298 of 1584)

Filed 09/07/10 Page 55 of 86 Page ID #:1568
2

SCIENTIFIC REVIEW COMMITTEES
June 2002
Feb 2004
Nov 2004
Jun 2007
July 2007

NIAAA Biomedical Research Review Committee ZAA1-DD-20
NIAAA Neurotoxicology and Alcohol Study Section
UW Research Royalty Fund
ADAI Small Grant Review Committee
NIAAA Review Committee ZAA1 CC 13

AD-HOC MANUSCRIPT REVIEWS FOR JOURNALS
Neuropsychology Review
Alcoholism: Clinical and Experimental Research
Child Neuropsychology
Alcohol Health and Research World
Developmental Neuropsychology
Brain Injury and Behavior
RESEARCH FUNDING
1995-1999
1999-2000
1996-2002
1999-2004
2002-2005
2003-2006
2004-2006

2004-2009

National Institute on Alcohol Abuse and Alcoholism, Grant No. R01 AA0145520-23. “Alcohol Intake During Pregnancy: Offspring Development.” Ann P.
Streissguth, principal investigator. Total direct costs: $1,363,749.
UW ADAI, Grant. “Regional Metabolic Changes in Brain Function Associated
with Acute Alcohol Intoxication: A Functional Neuroimaging Study”. Kenneth
Maravilla, principal investigator.
National Institute on Alcohol Abuse and Alcoholism, Grant No. R01 AA1083601-06. “Neuroanatomic-Psychologic Analyses of FAS/FAE Deficits.” Ann P.
Streissguth, principal investigator. Total direct costs: $888,175.
National Institute on Alcohol Abuse and Alcoholism, Grant No. R37 AA0145524-28. “Alcohol Intake During Pregnancy: Offspring Development.” Ann P.
Streissguth, principal investigator. Total direct costs: $1,363,749.
National Institute on Alcohol Abuse and Alcoholism, Grant No. R01
A/HD12419-01A2. “Functional MRI of Cognitive Activation in FAS/FAE.”
Paul D. Connor, principal investigator. Total direct costs: $600,000.
National Institute on Alcohol Abuse and Alcoholism, Grant No. R01 AA1083607-10. “Neuroanatomic-Psychologic Analyses of FAS/FAE Deficits.” Ann P.
Streissguth, principal investigator. Total direct costs: $750,000.
National Institute on Alcohol Abuse and Alcoholism, Grant No. U01. “Detecting
FASD from Newborn Ultrasound and Infant Behavior” Ann P. Streissguth,
principal investigator. Part of The Riley Consortium “Crosscultural Longitudinal
Assessment of FASD”.
National Institute on Alcohol Abuse and Alcoholism, Grant No. R37 AA0145529-34. “Alcohol Intake During Pregnancy: Offspring Development.” Ann P.
Streissguth, principal investigator.

Exhibit 96-1213

Petitioner's App. 46 - 780

ER 1228

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 260 of (1452
298 of 1584)

Filed 09/07/10 Page 56 of 86 Page ID #:1569
3

MANUSCRIPTS IN REFEREED JOURNALS
1. Connor, P.D. and Streissguth, A.P. (1996). Effects of prenatal exposure to alcohol across
the life span. Alcohol Health and Research World. 20(3), 170-174.
2. Connor, P.D., Streissguth, A.P., Sampson, P.D., Bookstein, F.L., Barr, H.M. (1999).
Individual differences in auditory and visual attention among fetal alcohol-affected
adults. Alcoholism: Clinical and Experimental Research. 23(8), 1395-1402.
3. Connor, P.D., Sampson, P.D., Bookstein, F.L., Barr, H.M., Streissguth, A.P. (2000).
Direct and indirect effects of prenatal alcohol damage on executive function.
Developmental Neuropsychology. 18(3), 331-354.
4. Bookstein, F.L., Sampson, P.D., Streissguth, A.P., Connor, P.D. (2001). Geometric
morphometrics of corpus callosum and subcortical structures in the fetal- alcoholaffected brain. Teratology. 64, 4-32.
5. Bookstein, F.L., Streissguth, A.P., Sampson, P.D., Connor, P.D., Barr, H.M. (2002).
Corpus callosum shape and neuropsychological deficits in adult males with heavy fetal
alcohol exposure. NeuroImage. 15, 233-251.
6. Bookstein, F.L., Sampson, P.D., Connor, P.D., Streissguth, A.P. (2002). The midline
corpus callosum is a neuroanatomical focus of fetal alcohol damage. The New Anatomist,
269, 162-174.
7. Baer, J.S., Sampson, P.D., Barr, H.M., Connor, P.D., Streissguth, A.P. (2003). A 21-year
longitudinal analysis of the effects of prenatal alcohol exposure on young adult drinking.
Archives of General Psychiatry, 60, 377-385.
8. Grant, T., Huggins, J., Connor, P., Pedersen, J., Whitney, N., Streissguth, A. (2004). A
pilot community intervention for young women with fetal alcohol spectrum disorders.
Community Mental Health Journal, 40 (6), 499-511.
9. Grant, T., Huggins, J., Connor, P., Streissguth, A. (2005). Quality of life and
psychosocial profile among young women with fetal alcohol spectrum disorders. Mental
Health Aspects of Developmental Disabilities, 8(2), 33-39.
10. Bookstein, FL, Connor, PD, Covell, KD, Barr, HM, Gleason, CA, Sze, RW, McBroom,
JA, Streissguth, AP (2005). Preliminary evidence that prenatal alcohol damage may be
visible in averaged ultrasound images of the neonatal human corpus callosum. Alcohol:
An International Biomedical Journal, 36(3), 151-160.
11. Connor, PD, Sampson, PD, Streissguth, AP, Bookstein, FL, Barr, HM (2006). Effects of
prenatal alcohol exposure on fine motor coordination and balance: A study of two adult
samples. Neuropsychologia, 44(5), 744-751.

Exhibit 96-1214

Petitioner's App. 46 - 781

ER 1229

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 261 of (1453
298 of 1584)

Filed 09/07/10 Page 57 of 86 Page ID #:1570
4

12. Barr, HM, Bookstein, FL, O’Malley, KD, Connor, PD, Huggins, JE, Streissguth, AP
(2006). Binge drinking during pregnancy as a predictor of psychiatric disorders on the
structured clinical interview for DSM-IV in young adult offspring. The American Journal
of Psychiatry, 163(6), 1061-1065.
13. Bookstein, FL, Streissguth, AP, Connor, PD, Sampson, PD. (2006). Damage to the
human cerebellum from prenatal alcohol exposure: The anatomy of a simple biometrical
explanation. The New Anatomist. 289B, 195-209.
14. Bookstein, FL, Connor, PD, Huggins, JE, Barr, HM, Pimentel, KD, Streissguth, AP.
(2007). Many infants prenatally exposed to high levels of alcohol show one particular
anomaly of the corpus callosum. Alcoholism: Clinical and Experimental Research, 31(5),
1-12.
BOOK CHAPTERS and OTHER PUBLICATIONS
1. Kopera-Frye, K., Connor, P.D., Streissguth, A.P. (2000). Recent advances in fetal alcohol
syndrome: Implications for diagnosis, intervention, and prevention. In Seitz, H.K.,
Lieber, C.S., & Simanowski, U.A. (eds.), Handbuch Alkohol, Alkoholismus,
Alkoholbedingte Organschäden (2nd Ed.). Heidelberg, Germany: Johann Ambrosius
Barth Verlag.
2. Streissguth, A.P., Connor, P.D. (2001). Fetal alcohol syndrome and other effects of
prenatal alcohol: Developmental cognitive neuroscience implications. In Nelson, C.A. &
Luciana M. (Eds.) The Handbook of Developmental and Cognitive Neuroscience.
Cambridge, MA: The MIT Press.
3. Connor, P.D., Huggins, J.E. (2006). Prenatal development: Fetal alcohol spectrum
disorders. In Thies, K.M., Travers, J.F. (Eds.). The Handbook of Human Development
for Health Professionals. Thorofare, NJ: SLACK, Inc.
4. Connor, P.D. (2001). Synthesizing animal and human studies of prenatal alcohol
exposure. Journal of the International Neuropsychological Society. 7(5), 648-649.
5. Connor, P.D. (2004). Prison: A warehouse for individuals with FASD. Iceberg, 14 (2),
http://www.fasiceberg.org/newsletters/Vol14Num2 Apr2004.htm#warehouse.
PUBLISHED ABSTRACTS
1. Norman, M.A., Lajiness-O'Neill, R.R., Nilsson, D.E., Walker, M.L., Boyer, R.S., Connor, P.
D., and Bigler, E.D.(1994). Quantitative neuroimaging outcome in benign hydrocephalus.
Archives of Clinical Neuropsychology. 9, 168-169.
2. Connor, P.D., Gale, S.D., Johnson, S.C., Anderson, C.V., Bigler, E.D., and Blatter, D.D.
(1995). Cingulate degeneration following traumatic brain injury: Quantitative neuroimaging,

Exhibit 96-1215

Petitioner's App. 46 - 782

ER 1230

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 262 of (1454
298 of 1584)

Filed 09/07/10 Page 58 of 86 Page ID #:1571
5

memory and executive functions. Journal of the International Neuropsychological Society.
1(2), 174.
3. Connor, P.D. and Streissguth, A.P. (1997). Auditory and visual attention in adults with fetal
alcohol syndrome. Journal of the International Neuropsychological Society. 3(1), 56.
4. Connor, P.D. and Streissguth, A.P. (1997) Verbal fluency, word reading and color naming in
adults with fetal alcohol syndrome and fetal alcohol effects. Alcoholism: Clinical and
Experimental Research, 21(3 Suppl), 116A.
5. Connor, P.D., Streissguth, A.P., Sampson, P.D., Bookstein, F.L., Barr, H., and Wegelin, J.
(1998). Fluency and speed of information processing as related to quantitative neuroimaging
in fetal alcohol syndrome and fetal alcohol effects: Preliminary findings. Journal of the
International Neuropsychological Society, 4(1), 21.
6. Connor, P.D., Streissguth, A.P., Barr, H.M., Sampson, P.D., and Bookstein, F.L. (1998).
Psychiatric symptomatology and characteristic behaviors in adults with fetal alcohol
syndrome and fetal alcohol effects. Alcoholism: Clinical and Experimental Research, 22(3
Suppl), 61A.
7. Streissguth, A.P., Connor, P.D., Sampson, P.D., Barr, H.M., Bookstein, F.L., and Wegelin, J.
(1998). Fetal alcohol syndrome: Relationships between CNS structure and function.
Alcoholism: Clinical and Experimental Research, 22(3 Suppl), 58A.
8. Connor, P.D., Streissguth, A.P., Sampson, P.D., Bookstein, F.L., Barr, H.M. (1999).
Executive functioning deficits in adults prenatally exposed to alcohol. Alcoholism: Clinical
and Experimental Research. 23(5), 31A.
9. Bookstein, F.L., Streissguth, A.P., Sampson, P.D., Connor, P.D., Barr, H.M. (1999). Corpus
callosum shape and neuropsychological deficits in adult males with heavy alcohol exposure.
Alcoholism: Clinical and Experimental Research. 23(5), 28A.
10. Streissguth, A.P., Barr, H.M., Sampson, P.D., Bookstein, F.L., Connor, P.D. (1999). Adult
IQ as related to prenatal alcohol exposure, FAS, FAE, ARND, and child IQ in a large
sample. Alcoholism: Clinical and Experimental Research. 23(5), 107A.
11. Streissguth, A.P., Barr, H.M., Connor, P., Sampson, P.D., Bookstein, F.L. (1999). The fetal
alcohol syndrome: Relationship between CNS structure and neuropsychological
performance. In R.A. Saul & M.C. Phelan (Eds.), Proceedings of the Greenwood Genetics
Center , (18:147-148). Greenville, S.C.: Keys Printing, Inc.
12. Connor, P.D., Streissguth, A.P., Sampson, P.D., Bookstein, F.L., Barr, H.M., Toth, S.K.
(2000). Motor coordination in adult males with fetal alcohol syndrome and fetal alcohol
effects. Journal of the International Neuropsychological Society, 6(2), 237-238.

Exhibit 96-1216

Petitioner's App. 46 - 783

ER 1231

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 263 of (1455
298 of 1584)

Filed 09/07/10 Page 59 of 86 Page ID #:1572
6

13. Connor, P., & Mahurin, R. (2001). A preliminary study of working memory in fetal alcohol
damage using fMRI. International Neuropsychological Society, 7(2), 206.
14. Bookstein, F.L., Sampson, P.D., Connor, P.D., Streissguth, A.P. (2001). Excess variance of
subcortical brain shape in fetal alcohol spectrum disorders: An analysis by landmark location
data. Teratology, 63(6), 251.
15. Huggins, J.E., Connor, P.D., Barr, H.M., Streissguth, A.P. (2001). Quality of life in adults
with fetal alcohol spectrum disorders (FASD). Alcoholism: Clinical and Experimental
Research, 25(5), 125A.
16. Huggins, J.E., Connor, P.D., O’Malley, K., Barr, H.M., Streissguth, A.P. (2001).
Suicide/parasuicide behavior in adults with fetal alcohol spectrum disorders (FASD).
Alcoholism: Clinical and Experimental Research, 25(5), 123A.
17. Baer, J.S., Sampson, P.D., Barr, H.M., Connor, P.D., Streissguth, A.P. (2001). Prenatal
alcohol exposure and young adult drinking: A 21-year longitudinal analysis. Alcoholism:
Clinical and Experimental Research, 25(5), 123A.
18. Streissguth, AP, Barr, HM, Sampson, PD, Connor, PD, Bookstein, FL. (2001) Young adult
outcomes of prenatal alcohol exposure from a large population-based study. Alcohol and
Alcoholism, 36(5), 437.
19. Connor, PD, Bookstein, FL, Barr, HM, Sampson, PD, Streissguth, AP. (2002). Assessing
prenatal alcohol damage: Test of Nonverbal Intelligence-2 (TONI-2) vs. WAIS-R.
Alcoholism: Clinical and Experimental Research, 26(5), 175A.
20. Streissguth, AP, Sampson, PD, Bookstein, FL, Connor, PD, Barr, HM. (2002). 21-year doseresponse effects of prenatal alcohol exposure on cognition. Alcoholism: Clinical and
Experimental Research, 26(5), 93A.
21. Connor, PD, Barr, HM, Streissguth, AP. (2003). Two scoring methods of the Rey-Osterreith
in adults with fetal alcohol damage. Journal of the International Neuropsychological
Association, 9(2), 201.
22. Connor, P., Mahurin, RK, Dehaene, S. (2004). Subtraction ability in patients with fetal
alcohol spectrum disorders: an fMRI study. Archives of Clinical Neuropsychology, 19, 917.
23. Connor, PD., Mahurin, R.K. (2005). Working memory in patients with fetal alcohol spectrum
disorders: An fMRI study. Journal of the International Neuropsychological Society.
24. Connor, PD, Mahurin, RK (2005). Decreased cerebellar activation in patients with fetal
alcohol spectrum disorders. Alcoholism: Clinical and Experimental Research, 29(5), 45A.

Exhibit 96-1217

Petitioner's App. 46 - 784

ER 1232

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 264 of (1456
298 of 1584)

Filed 09/07/10 Page 60 of 86 Page ID #:1573
7

INVITED ADDRESSES
Sep 1996
Apr 1997
Jun 1998
Oct 1998
Apr 1999
Jun 1999
Nov 2001
Dec 2001
Dec 2002
Oct 2003
Dec 2003

Feb 2004
Mar 2004
Apr 2004

Northwest Oregon FAS Conference, Forest Grove, OR. “Implications of
secondary disabilities of fetal alcohol syndrome and fetal alcohol effects
on intervention strategies.”
Juvenile Court Workers Conference, Lake Chelan, WA. “Fetal Alcohol
Syndrome and Fetal Alcohol Effects: Brain Damage, Long-Term
Consequences, and Treatment Concerns.”
FAS Study Group meetings, Hilton Head SC. “Perseverative styles of
performance: Troubles learning from mistakes in patients with FAS and
FAE.”
Seattle Mental Health, Seattle, WA. “Fetal Alcohol Syndrome and Fetal
Alcohol Effects: Brain Damage, Long-Term Consequences, and
Treatment Concerns.”
Association of the Advanced Practice of Psychiatric Nurses, Tacoma,
WA. “Fetal Alcohol Syndrome and Fetal Alcohol Effects: Brain Damage,
Long-Term Consequences, and Treatment Concerns.”
Department of Health and Welfare Idaho, Twin Falls, ID. “Fetal Alcohol
Syndrome and Fetal Alcohol Effects: Diagnosis, Neuroanatomy, and
Neuropsychology”
Valley Family Care Residents Training for March of Dimes Grant
(Preventing Double Jeopardy). “Developing Successful Interventions for
Clients with FAS or ARND.”
Carolyn Downs Clinic, Obstetrics didactics training for March of Dimes
Grant (Preventing Double Jeopardy). “Developing Successful
Interventions for Clients with FAS or ARND.”
Monroe State Prison Special Offenders Unit “Fetal Alcohol Spectrum
Disorders: Diagnosis, Prevalence, Neuropsychological and Mental Health
Implications.”
11th Annual MeritCare Pediatric Neuroscience Conference, Fargo, ND.
“Fetal Alcohol Spectrum Disorders: Brain, Cognition, and Long-Term
Consequences.” 6-hour CE course.
Forensic Psychiatric Services Commission’s Colloquium on Cognitive
Impairment, Simon Fraser University, Vancouver, BC. “Efficacy of
Neuroimaging and Neuropsychology for Patients with Fetal Alcohol
Spectrum Disorders.”
Edmonds Community College, Human Sexuality. “Fetal Alcohol
Spectrum Disorders.”
Western State Hospital, Grand Rounds. “Fetal Alcohol Spectrum
Disorders: Diagnosis, Prevalence, Neuropsychological and Mental Health
Implications.”
Joint Meeting of the Mental Health Advisory Board and the Chemical
Dependency Administrative Board. “Developing Successful Interventions
for Clients with FAS or ARND.”

Exhibit 96-1218

Petitioner's App. 46 - 785

ER 1233

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 265 of (1457
298 of 1584)

Filed 09/07/10 Page 61 of 86 Page ID #:1574
8

Aug 2004
Oct 2004
Mar 2005
June 2005
July 2005
Oct 2005
Nov 2005
Nov 2005
May 2006
May 2006
Jun 2006
Jun 2006
Jun 2006

Sep 2006
Oct 2006
Nov 2006

Seattle Mental Health. “Fetal Alcohol Spectrum Disorders: An
Interdisciplinary Perspective Identification, Treatment, and Community
Involvement.”
School of Nursing , Graduate course 556. “Fetal Alcohol Spectrum
Disorders.”
13th Annual Children’s Justice Conference, Seattle, WA. “Fetal Alcohol
Spectrum Disorders: Brain, Cognition, and Long-Term Consequences.”
Center for Sexual Assault and Traumatic Stress, Seattle, WA. “Fetal
Alcohol Spectrum Disorders: Brain Cognition, and Long-Term
Consequences.”
fMRI/Brain Imaging Interest Group, Department of Radiology, University
of Washington. “Neuroimaging Studies of FASD.”
Idaho Health Care Conference, Idaho State University. Plenary session
“FASD Across the Lifespan” Psychosocial Workshop “Assessment and
Treatment of FASD: A Neuropsychological Approach”.
Northwest Chapter of the American Association of Neuroscience Nurses,
Swedish Hospital. “Fetal Alcohol Spectrum Disorders: Brain, Cognition,
and Long-Term Consequences.”
School of Nursing, Graduate course 556. “Fetal Alcohol Spectrum
Disorders.”
DDD Region 1 Training, Lecture and Workshop Series. Two full day
work shops in Wenatchee and Spokane, WA. “Fetal Alcohol Spectrum
Disorders: Brain, Cognition, and Long-Term Consequences.”
Spruce Street Secure Crisis Residential Center didactics course, Seattle.
“Fetal Alcohol Spectrum Disorders: Brain, Cognition, and Long-Term
Consequences.”
Mercy Medical Center 1st Annual FASD Conference, Sioux City, IA.
“Fetal Alcohol Spectrum Disorders: Brain, Cognition, and Long-Term
Consequences.”
National Association of Drug Court Professionals, Seattle, WA. “Law and
Disorder: Understanding Fetal Alcohol Spectrum Disorders within the
Legal System.”
After an FASD Diagnosis: Then What? Strategies for effective
interventions with youth with FASD and their families. Mount Vernon,
WA. “Fetal Alcohol Spectrum Disorders: Brain, Cognition, and LongTerm Consequences.”
National Task Force on Fetal Alcohol Syndrome and Fetal Alcohol Effect.
Atlanta, GA. “Neuroimaging Studies of Infants, Adolescents, and Adults
with FASD: Perspectives from the Far Northwest.”
Washington WIC: Exceptional and Extraordinary, Bellevue, WA. “What
Happens to a Fetus Exposed to Alcohol? Long-Term Effects of Prenatal
Alcohol Exposure on the Brain and Behavior.”
School of Nursing, Graduate course 556. “Fetal Alcohol Spectrum
Disorders.”

Exhibit 96-1219

Petitioner's App. 46 - 786

ER 1234

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 266 of (1458
298 of 1584)

Filed 09/07/10 Page 62 of 86 Page ID #:1575
9

Mar 2007
Apr 2007
Apr 2007
Apr 2007
May 2007
Aug 2007
Sep 2007
Sep 2007
Oct 2007
Mar 2008

Apr 2008
Apr 2008

Substance Use and Brain Development Conference, Eugene, OR. “The
Impact of Prenatal Alcohol Exposure on Brain and Behavior
Development.”
Juvenile Justice at risk youth and truancy court, Seattle, WA. “Fetal
Alcohol Spectrum Disorders and the Justice System.”
Annual MRFASTC Booster Session, St. Louis, MO. “The Brain and
Behavior in Individuals with FASD.”
Alaskan Dietetics Association Annual Meeting, Anchorage, AK. “Fetal
Alcohol Spectrum Disorders: Brain, Cognition, and Long-Term
Consequences.”
SATUCI Impact of Fetal Alcohol Spectrum Disorders On Schools,
Families, and Communities, Marshalltown, IA. “Fetal Alcohol Spectrum
Disorders: Brain, Cognition, and Long-Term Consequences.”
Merrill Scott Symposium, Yakima, WA. “Fetal Alcohol Spectrum
Disorders: Brain, Cognition, and Long-Term Consequences.”
Elements of Success: Helping Individuals with FASD and Co-occurring
Disorders Conference, Federal Way, WA. “Adults with FASD: From
Research to Clinical Practice.”
Indian Health Services FASD Training, Seattle, WA. “Fetal Alcohol
Spectrum Disorders: Brain, Cognition, and Long-Term Consequences.”
Spokane Child Abuse and Neglect Prevention Center Training, Spokane,
WA. “Fetal Alcohol Spectrum Disorders: Brain, Cognition, and LongTerm Consequences.”
Nurses’ Advisory Committee for Perinatal Education “Pot O’ Gold
Conference: Perinatal/Neonatal Challenges 2008”, Spokane, WA. “Fetal
Alcohol Spectrum Disorders: Brain, Cognition, and Long-Term
Consequences.”
NorCal SOT 2008 Spring Meeting, Menlo Park, CA. “As if Brain damage
Wasn’t Enough – The Lifelong Impact of FASD on Social Interaction.”
The Forensic FASD Diagnostic Team: What? When? Who? How? Why?
– a 3 day meeting with New Zealand practitioners. Seattle, WA. “The
Role of Neuropsychological Testing in FASD.”

DEPARTMENTAL TEACHING
Feb 2000
Feb 2001
Mar 2002

Department of Psychiatry and Behavioral Sciences, University of
Washington, Psychology Residency didactics. “A Neuropsychological
Perspective on Fetal Alcohol Syndrome”
Department of Psychiatry and Behavioral Sciences, University of
Washington, Psychology Residency didactics. “A Neuropsychological
Perspective on Fetal Alcohol Effects.”
Department of Psychiatry and Behavioral Sciences, University of
Washington, Psychology Residency didactics. “A Neuropsychological
Perspective on Fetal Alcohol Effects.”

Exhibit 96-1220

Petitioner's App. 46 - 787

ER 1235

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 267 of (1459
298 of 1584)

Filed 09/07/10 Page 63 of 86 Page ID #:1576
10

Sep 2002
Nov 2002
Mar 2003
Aug 2003
Feb 2004
Apr 2004
Feb 2005
Mar 2005
Mar 2005
Dec 2005

Dec 2005
Mar 2006
Oct 2006

Department of Psychiatry and Behavioral Sciences, University of
Washington, R3 Medical School Didactics “Disorders of Brain
Development: Fetal Alcohol Syndrome & Fetal Alcohol Effects.”
Children’s Child Psychiatry Didactics for Psychiatry Residents and
Developmental Pediatricians “Development of Executive Functions:
Specific Examples in Fetal Alcohol Spectrum Disorders.”
Department of Psychiatry and Behavioral Sciences, University of
Washington, Psychology Residency didactics. “A Neuropsychological
Perspective on Fetal Alcohol Effects.”
Department of Psychiatry and Behavioral Sciences, University of
Washington, R3 Medical School Didactics “Disorders of Brain
Development: Fetal Alcohol Syndrome & Fetal Alcohol Effects.”
Department of Psychiatry and Behavioral Sciences, University of
Washington, Child Psychiatry Residents Didactics. “Brain Development:
Executive Functions in Childhood and Adolescents.”
Department of Psychiatry and Behavioral Sciences, University of
Washington, Psychology Residency didactics. “A Neuropsychological
Perspective on Fetal Alcohol Effects.”
Department of Psychiatry and Behavioral Sciences, University of
Washington, Child Psychiatry Residents Didactics. “Brain Development:
Executive Functions in Childhood and Adolescents.”
Department of Psychiatry and Behavioral Sciences, University of
Washington, Neurosciences Seminar. “Neuroimaging Studies of FASD.”
Department of Psychiatry and Behavioral Sciences, University of
Washington, Psychology Residency didactics. “A Neuropsychological
Perspective on Fetal Alcohol Effects.”
Department of Psychiatry and Behavioral Sciences, University of
Washington, Child Psychiatry Residents Didactics. “Development of the
Central Nervous System from the Prenatal Period On: The Special
Example of Fetal Alcohol Spectrum Disorders.”
Department of Psychiatry and Behavioral Sciences, University of
Washington, Friday Noon Conference. “Fetal Alcohol Spectrum
Disorders.”
Department of Psychiatry and Behavioral Sciences, University of
Washington, Psychology Residency didactics. “A Neuropsychological
Perspective on Fetal Alcohol Effects.”
Department of Psychiatry and Behavioral Sciences, University of
Washington, Child Psychiatry Residents Didactics. “Development of the
Central Nervous System from the Prenatal Period On: The Special
Example of Fetal Alcohol Spectrum Disorders.”

Exhibit 96-1221

Petitioner's App. 46 - 788

ER 1236

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 268 of (1460
298 of 1584)

Filed 09/07/10 Page 64 of 86 Page ID #:1577
11

PAPERS PRESENTED AT SCIENTIFIC MEETINGS
Feb 1995
Feb 1997
Jul 1997
Jun 1999
Nov 2001
Jul 2007

International Neuropsychological Society, Seattle, WA. “Cingulate
degeneration following traumatic brain injury: Quantitative neuroimaging,
memory and executive functions.”
International Neuropsychological Society, Honolulu, HI. “Fluency and
speed of information processing as related to quantitative neuroimaging in
fetal alcohol syndrome and fetal alcohol effects: Preliminary findings.”
FAS Study Group, San Francisco, CA. “Brain study: Preliminary findings
of a study of patients with FAS and FAE.”
FAS Study Group, Santa Barbara, CA. “Executive Function Deficits in
Adults Prenatally Exposed to Alcohol.”
National Academy of Neuropsychology, San Francisco, CA. CE course
entitled “Fetal Alcohol Syndrome: Brain and Cognition.”
Research Society on Alcoholism, Chicago, IL. “Screening for Fetal
Alcohol Exposure in Human Neonates Using the Corpus Callosum.”

MEDIA PRESENTATIONS
Nov 2000
Feb 2004
Mar 2004
May 2007

Filmed Interview for Decouverte, a Science and Technology Canadian
Broadcasting Company TV program from Montreal.
Interview with Laurie McHale for CHDD Outlook article.
Filmed interview with Michael Skinner for video “Recovering Hope
Mothers Speak Out about Fetal Alcohol Spectrum Disorders” sponsored
by SAMHSA’s FASD Center for Excellence.
Interviewed by Chicago Tribune for article on FASD and DDD in Illinois

Exhibit 96-1222

Petitioner's App. 46 - 789

ER 1237

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 270 of(1462
298 of 1584)

Filed 09/07/10 Page 1 of 86 Page ID #:1514

DECLARATION OF RICHARD S. ADLER, M.D.
I, Richard S. Adler, M.D., hereby state and declare as follows:
1.
I am a board-certified adult, child, and adolescent psychiatrist
practicing in the State of Washington. Deputy Federal Public Defenders Brad
Levenson and Alexandra Yates referred their client, Dean Phillip Carter, for an
examination to determine whether a diagnosis of Fetal Alcohol Spectrum Disorder
is appropriate in his case.
2.
Attached is a true and correct copy of my forensic psychiatric
evaluation, dated March 24, 2009. If called as a witness, I would testify to the
opinions and observations contained therein.
3.
As explained in detail in my report, it is my professional opinion that
Mr. Carter suffers from Partial Fetal Alcohol Syndrome. If asked in 1989 to 1991
to conduct a similar evaluation, I would have made the equivalent diagnosis then
that I am making now.
I declare under penalty of perjury under the laws of the United States of
America and the State of Washington that the foregoing is true and correct.
DATED:

Exhibit 95-1159

Petitioner's App. 47 - 790

ER 1238

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

For ensi c

6 24

(206)

-

6 24

WA

M.D.

Ps yc hiatry

Avenue ,

Seattle,
(206)

ADLER ,

Clinical

&

Page: 271 of(1~3 of 1584)

Filed 09/07/ 10 Page 2 of 86 Page ID #:1515

RICHARDS.

1700 S eventh

DktEntry: 15-6

Suite

210

98101

3800•OFFI CE
-

38 0 1 • FAX

RICHADLER@l\iSN.COly!
WWW.RICHARDADLERMD .C OM

FORENSIC PSYCHIATRIC EVALUATION

Evaluee:
Cause:
Report Date:

Dean Phillip Carter (DOB -1955)
U.S. District Court No. CV-06-1343-BEN(CAB)
March 24, 2009

Dean Carter is a 53 year old man referred by his lawyers, Mr. Brad Levenson and Ms.
Alexandra Yates, Deputy Federal Public Defenders.
I was requested to conduct a face-to-face examination of Mr. Carter for the purpose of
assessing whether he has the physical manifestations of Fetal Alcohol Spectrum Disorder
(FASD), reviewing relevant materials, and if appropriate, making a specific diagnosis of
FASD.
I am a Board-certified Adult, Child and Adolescent Psychiatrist. I graduated from the
Forensic Psychiatry Training Program at the University Of Washington School of
Medicine. I presently hold a faculty appointment at the University of Washington School
of Medicine in the Department of Psychiatry and Behavioral Health Sciences. I am the
Medical Director of FASD Experts (www.FASDExperts.com). FASD Experts has
generated the first known Model Standard for the forensic evaluation of FASD. 1 I have
experience in forensic civil and criminal (as well as clinical) matters concerning FASD.
My resume is provided as an attachment.

Based on my examination of Mr. Carter and review of relevant ancillary materials,
it is my opinion that Mr. Carter has Partial Fetal Alcohol Syndrome.

1

Fetal Alcohol Spectrum Disorder in the Legal System: A Multidisciplinary Assessment Model for Adults
and Adolescents. Presentation at the 3•d International Conference on Fetal Alcohol Spectrum Disorder,
March 11, 2009, Victoria, British Columbia, Canada.

Exhibit 95-1160

ER 1239
Petitioner's App. 47 - 791

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 272 of(1464
298 of 1584)

Filed 09/07/10 Page 3 of 86 Page ID #:1516

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 2 of 18

The following were relied upon in arriving at my opinion:
1) Examination of Mr. Carter, January 26, 2009, San Quentin State Prison, San Quentin,
California:
a) A clinical interview was conducted in the presence of Defense Investigator, Ms.
Rebecca Dobkin, 11 :00 a.m. to 12:30 p.m.,
b) The physical examination was conducted from 3:45 p.m. to 4:15 p.m. This was
conducted in the Infirmary, in the direct presence of two correctional officers.
2) Declaration of Natalie Novick-Brown, Ph.D., June 4, 2007, 43 pages,
3) Declaration of Paul Connor, Ph.D., neuropsychologist, March 2009, 24 pages,
4) Childhood pictures of Mr. Carter,
5) Personal Symptom Checklists (PSCs) completed by Ms. Pat Rimmer, Mr. Ed Cole,
Rob Stapleton,
6) Declaration of Lilly Rose, March 3, 2007, 3 pages,
7) Declaration of Vaughn Johnson, March 3, 2007, 2 pages,
8) Declaration of Arthur "Guy" Martin, March 1, 2007, 5 pages,
9) Declaration of Lela Kiana Oman, July 13, 2000, 4 pages,
10) Declaration of Charles "Chuck" Reader, April 4, 2007, 3 pages,
11) Declaration of Roscoe Wilke, April 4, 2007, 2 pages,
12) Testimony of Bertha Adsuna, SD 50 RT 7578, 7583-90,
13) Testimony of Jerry Lee Carter, LA 49 RT 5750, 5754-57,
14) Testimony of Jerry Lee Carter, SD 49 RT 7435-40, 7444-46,
15)Testimony of Pollyanne Reasner, SD 50 RT 5766, 5768-71,
16)Testimony of Pollyanne Reasner, LA 49 RT 7547-51.
This is the kind of information routinely relied upon by psychiatrists in order to offer
their expert opinions. Information relevant to establishing any diagnosis is addressed in
this report. Other historical material that is well-documented elsewhere will not be
reiterated.
NOTIFICATION OF RIGHTS AND LIMITS OF CONFIDENTIALITY:
Prior to the formal evaluation, Mr. Carter was informed of the purposes of the
examination, the limits upon its confidentiality, and that a report would be generated
from my examination. Mr. Carter was informed that the evaluation could result in
recommendations for treatment. Mr. Carter demonstrated a factual and rational
understanding of these notifications. After this, Mr. Carter was asked explicitly if he
wished to proceed, and Mr. Carter indicated a willingness to do so.

Exhibit 95-1161

Petitioner's App. 47 - 792

ER 1240

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 273 of(1465
298 of 1584)

Filed 09/07/10 Page 4 of 86 Page ID #:1517

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 3 of 18

RELEVANT HISTORY:
Mr. Carter reported that he was born at the Maynard McDougal Memorial Hospital in
Nome, Alaska, which is no longer open. He was told that he had "a big head" at birth.
His father was in the Air Force. He indicated that he never knew his father. He is his
mother's only child by this man. His mother married his step-father when Mr. Carter was
4- 5 years old. His mother was a matron in a jail. She is a Native Alaskan (Nupiak). He
described her as "pretty mean ... not a people person." His step-father was the chief of
police.
Mr. Carter told me that as a child he "got in trouble a lot," had a lot of "beatings ... I was a
difficult child .. .I stole, skipped school."
Mr. Carter has no significant medical history, other than two episodes of head trauma.
The first occurred at age five (5). He reports being "run over" by a car, but without
sequelae. The second was at age 21 or 22, while he was driving. He reported possible
alteration of consciousness and a several day admission to Providence Hospital in
Anchorage. He also participated in boxing beginning at age 15 or 16, but could not
provide details regarding significant head trauma.
Mr. Carter denied any history of seizures or tics. He takes a variety of vitamins and an
aspirin daily. He denied any medication allergies.
Mr. Carter denied any physical symptoms presently on Review of Systems. He has had
"bronchitis" on and off since age 12 or 13. Mr. Carter did not know of any geneticallyinherited illnesses that afflicted his family, but did report that his mother and maternal
grandmother were alcoholics.
Mr. Carter has not taken much in the way of psychiatric medications, other than
medications "for sleep" while incarcerated in Oregon and Los Angeles County Jail
(Sinequan, Benadryl in both settings).
PHYSICAL EXAMINATION:
Mr. Carter reported himself to be 6'2" - 6'3" tall. Mr. Carter was weighed in sneakers to
be 291 pounds.
He appeared in no apparent distress. Although his temperature was not obtained, by touch
he was grossly afebrile, and he was not sweating. No rashes or erythema were noted.
HEENT: Examination of his head revealed a grossly normocephalic (cranial) appearance.

Exhibit 95-1162

Petitioner's App. 47 - 793

ER 1241

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 274 of(1466
298 of 1584)

Filed 09/07/10 Page 5 of 86 Page ID #:1518

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 4 of 18

Mr. Carter's orbitofrontal (i.e. head) circumference was 62 centimeters. The ears (pinnae
and eternal auditory meati) appeared grossly normal. Hearing was equal bilaterally by
tuning fork of 128 Hz, and air conduction> bone conduction bilaterally.
Examination of his eyes was grossly normal externally. Extraocular movements were
grossly intact. Examination of the fundi revealed no marked pathology. No corneal or
lens opacities were present. Examination of the oropharynx revealed no abnormalities.
FASD-Related Facial Features {see photograph below):
1. Palpebral fissures (using a see-through ruler):
a. Right: 30 mm in length,
b. Left: 30 mm in length.
2. Evaluation of the philtrum revealed "smoothness" consistent with a score of 4/5
maximum.
3. Evaluation of upper lip revealed "thinness" consistent with a score of 4/5
maximum.
Examination of the neck showed no adenopathy. There was no apparent thyromegaly.
Examination of the back did not reveal any abnormalities. There was no localized
tenderness, nor clear scoliosis. Lungs were clear to auscultation and percussion
bilaterally.
Examination of the anterior chest was within normal limits. There was some prominent
adipose tissue of the upper chest. No axillary adenopathy was noted. There were no
heaves or thrusts. Auscultation revealed normal heart sounds, without murmurs or rubs.
Abdominal examination featured normal bowel sounds and no tenderness on palpation.
There was no hepatomegaly or splenomegaly appreciated.
Genitourinary and rectal examinations were deferred given the nature of the consultative
question.
Extremities: grossly within normal limits although bilaterally. There was no edema at the
lower extremities.
Neurological/Neuromuscular/Sensory examination: Mental Status Examination is
provided in a separate section below. Cranial nerves II - XII were grossly within normal
limits. Reflexes were difficult to elicit, and appeared generally decreased. There was
downward flexion of toe (absent Babinski) bilaterally.
Muscle strength was 5/5 throughout, and equal bilaterally. Normal heel and toe walking.
There were no abnormalities of gait, including heel-toe maneuver.

Exhibit 95-1163

Petitioner's App. 47 - 794

ER 1242

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 275 of(1467
298 of 1584)

Filed 09/07/10 Page 6 of 86 Page ID #:1519

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 5 of 18

Sensation normal to light touch and "brush." There was a suggestion of deficient "letter
recognition" when written on surfaces of hands and feet by the examiner.

MENTAL STATUS EXAMINATION:
Mr. Carter appeared his stated age. He was dressed in prison garb and appropriately
groomed. He was cooperative and readily engageable. However, his overall manner was
jocular and nonchalant. Eye contact was direct.
His motoric activity was within normal limits. There were no tics, twitches, stereotypies
or abnormal involuntary movements noted.
His speech was normal in quantity, tone, volume and rate. His productions were
spontaneous.
Mr. Carter rated himself as 10 - 20 /100 globally. He rated his mood as 5/10 on a scale of
1 (low) to 10 (maximum).
Mr. Carter's affect appeared appropriate and the range of his affect was appropriate, but
subtly constricted.
Mr. Carter's thoughts appeared coherent and goal-directed. He neither exhibited nor
endorsed any delusions of control, reference, thought broadcasting, thought insertion,
somatic problems, erotomania, religion or grandiosity.
When asked whether he had present suicidal and homicidal ideations, he denied any. He
denied auditory, visual, olfactory and somatic hallucinations
Mr. Carter reported the day and date correctly, as well as the season, the month and year.
He correctly identified the facility, floor, city, county and state. He could recall a list of
three items immediately after presentation and two of the three items several minutes
later.
He spelled "world" correctly, both forward and backwards. Mr. Carter was able to do
"serial sevens" correctly from 100 to 44.
Mr. Carter was able to name two common items presented visually. He could repeat a
short phrase correctly. He was able to carry out a simple three-step directive. He was
able to read and carry out a simple one-step directive. When asked to write a sentence, he
wrote in cursive: "Here I am." He was able to copy a diagram consisting of two
intersecting pentagons, although he copied these a bit smaller than the original and the

Exhibit 95-1164

Petitioner's App. 47 - 795

ER 1243

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 276 of(1468
298 of 1584)

Filed 09/07/10 Page 7 of 86 Page ID #:1520

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 6 of 18

form was not exact. He was able to correctly draw a "flower in a pot" and a clock
reflecting the time at 6:15.
Mr. Carter identified the President as Obama. He reported that the California Governor is
"Amie." Mr. Carter was able to name five large cities in the state of California. He
identified the last major holiday as "MLK Day." He reported that a recent significant
current event as "the Inauguration," and knew about the upcoming Super Bowl.
When asked about the meaning of"Rome wasn't built in a day" he replied: "You can't
expect everything right now." When asked about "A stitch in time saves nine," he
responded "If you prepare, it save nine minutes later." As for "A rolling stone gathers no
moss," he replied that it means "If you're on the move, nothing can stick to you ... you
don't have roots." When asked about the meaning of "The tongue is the enemy of the
neck," he indicated that "If you run your mouth, you can get your neck chopped ... maybe
something from the French Revolution."
Mr. Carter reported intact sleep overall. He also reported an intact appetite and rated his
energy as 5/10 1 (low) to 10 (maximum). Mr. Carter stated that he can concentrate on
things "if interested." He reported his memory as variable.

DIGITAL ANALYSIS OF FAS-RELATED FACIAL FEATURES PRESENTLY:
The method employed is detailed in Astley SJ, Clarren SK: "Measuring the Facial
Phenotype of Individuals with Prenatal Alcohol Exposure Correlations with Brain
Dysfunction," Alcohol & Alcoholism, Volume 36 (2), pp. 147 - 159, 2001. In addition to
direct physical examination (including measurement) of Mr. Carter, digital photographs
were obtained and analyzed using the Fetal Alcohol Syndrome Facial Photographic
Analysis Software, Version 1.0.0, SJ Astley, Ph.D., FAS Diagnostic and Prevention
Network, University of Washington, Seattle, WA, 2003.
Facial features are rated on a scale from 1 (not affected) to 5 (severely affected) and then
translated to an "ABC Score" per the protocol. The program analyzes "Lip Circularity,"
which is a more accurate assessment for Upper Lip Smoothness.
The Palpebral Fissure - Philtrum - Lip Score Combination in Mr. Carter's case is
"ACC." This Combination correlates to a 4-Digit Diagnostic Code Rank of 2 which is
characterized as "FAS features mild." The full FAS Facial Photographic Analysis Report
is provided as an attachment. Although a series of photographs was obtained, the frontal
photograph (with a sticker on his forehead to provide a "standard" to measure facial
features) follows:

Exhibit 95-1165

Petitioner's App. 47 - 796

ER 1244

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 277 of (1469
298 of 1584)

Filed 09/07/10 Page 8 of 86 Page ID #:1521

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 7 of 18

A brief summary of the data is also provided below:

Right
(mm)

Left
(nun)

Rating
l (none) to 5
(extreme)

ABC
Score

Palpebral Fissure Length

33.0

35.6

NIA

A

Philtrum Smoothness

NIA
NIA

NIA
NIA

4

C
C

Upper Lip Smoothness
(Circularity)

5

REVIEW OF CHILDHOOD PICTURES:
Examination of pictures provided by counsel (see next page), reflect both a smooth
philtrum and smoothness of the upper lip. Since there is no standardized marker in the
picture (akin to the adhesive paper "dot" used in my examination), digitalized evaluation
of the palpebral fissure lengths cannot be performed. The ideal picture for examination
features a "neutral," non-smiling face.

Exhibit 95-1166

Petitioner's App. 47 - 797

ER 1245

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 278 of (1470
298 of 1584)

Filed 09/07/10 Page 9 of 86 Page ID #:1522

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 8 of 18

FETAL ALCOHOL BEHAVIOR SCALE (FABS):

Exhibit 95-1167

Petitioner's App. 47 - 798

ER 1246

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 279 of(1471
298 of 1584)

Filed 09/07/10 Page 10 of 86 Page ID #:1523

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 9 of 18

The FABS was developed at the University of Washington in research on individuals
with fetal alcohol behavior disorders. 2 The behaviors assessed in this scale correspond to
those most frequently observed in individuals with FASD conditions and fall in the
following general categories: communication and speech, personal manner, emotions,
motor skills and activities, academic/work performance, social skills/interactions, and
bodily/physiologic functions.
The FABS consists of 36 items culled from the original 68 items on the Personal
Behaviors Checklist (PBC).
The PBC was provided to: (1) Ms. Pat Rimmer, Mr. Carter's prior foster mother around
age 14 and (2) Mr. Rob Stapleton, who described himself as "knew [Mr. Carter] in early
80's," and (3) Mr. Ed Cole, whose association/familiarity with Mr. Carter was not
conveyed.
Ms. Rimmer endorsed a total of 35 items. Of the items she endorsed, 21 of them are items
identified as making up the 36 FABS items. Thus, 21 of the 35 she endorsed are relevant
(60%). The score of21 isfour times the mean for non-FASD persons, and the same as
the score for the FASD cohort in the original study.
Mean:
Normal
Cohort

Median:
FASD
Cohort

Total
Ms.
Rimmer's
Possible
Score ,,...,,...,,1,,,,-,,,,...,,..,..,,,,,,.,
Score

Mr. Stapleton endorsed only 5 items of the FABS items. Mr. Cole endorsed 2 of the
FABS items. [Ms. Rimmer's FABS results are considered most probative because she
was Mr. Carter's foster mother when he was in his youth].
NEUROPSYCHOLOGICAL TESTING:
Dr. Connor indicated in his declaration that due to time constraints he was unable to
complete a full neuropsychological assessment on the one day that he was able to meet
with Mr. Carter (at page 14). Tests results (as presented graphically below) were thus
augmented by results of an evaluation by Myla Young, Ph.D. in 1998 and 1999. Dr.
Connor noted that there was "considerable consistency between results of the tests I
administered during my evaluation and similar tests administered by Dr. Young,"
supporting the decision to utilize the prior results.

2

Streissguth AP, Bookstein FL, Barr HM et al. A Fetal Alcohol Behavior Scale. Alcohol Clin Exp Res
22(2) 326 - 333, 1998.

Exhibit 95-1168

Petitioner's App. 47 - 799

ER 1247

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 280 of(1472
298 of 1584)

Filed 09/07/10 Page 11 of 86 Page ID #:1524

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 10 of 18
Dr. Connor points out that one of the diagnostic systems used 3 requires that there must
be at least three (3) domains of cognitive functioning that are impaired and the
impairment must be at least one standard deviation below average. These are more
stringent diagnostic criteria than the one proposed by the Institute of Medicine, 4 provided
in detail later in my report.
In his review of Mr. Carter's neuropsychological test data, Dr. Connor identified four (4)
domains of impairment:
1.
2.
3.
4.

Executive Functioning,
Attention,
Psychomotor Functioning (i.e. Visuospatial Performance),
Adaptive Functions.

[Mr. Carter's deficits are particularly notable in relation to his above average IQ of 116.
This manner of analysis is not part of the official CDC guidelines. However, the IOM
Guidelines, in my opinion, do permit a professional to take the discrepancy between the
IQ and other CNS attributes into account.]
Dr. Connor also highlighted the prior CNS impairment demonstrated on PET Scan.
Dr. Connor addressed the issue of the "differential diagnosis," in this matter, particularly
addressing the prior episodes ofreported: (1) Traumatic Brain Injury (the first occurring
at age 5), (2) exposure to the tailings of gold mining, (3) chaotic childhood including
physical and emotional abuse and (4) substance abuse.
Dr. Connor concluded that in the face of reports of behavioral problems that preceded all
of those elements, if anything, these influences would have likely had an additive but not
causative role.

3

Betrand H, Floyd RL, Weber MK, et al. Fetal Alcohol Syndrome: Guidelines for Referral and Diagnosis.
Atlanta, GA: US Department of Health and Human Services, Centers for Disease Control, 2004.
http://www.cdc.gov/ncbddd/fas/F AS_guidelines_accessible.pdf
4
Fetal Alcohol Syndrome: Diagnosis, Epidemiology, Prevention, and Treatment. Stratton K, Howe C,
Battaglia F (editors). National Academy Press; Washington, D.C. 1996.

Exhibit 95-1169

Petitioner's App. 47 - 800

ER 1248

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 281 of(1473
298 of 1584)

Filed 09/07/10 Page 12 of 86 Page ID #:1525

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 11 of18

2

Adaptive Function Adaptive Function
-,----I~/~AcE.!ca~d~em~ic.!._s_ ____!~!!2_!:y__ ___fE~x~ec~ugtiv~ec.:!F:..'::!u:!!.nc!e!_tt!.2.O:!!;nSL.__ _ __,,.l\.Q.ti..~p.L.et.on....----r--'P!'..ia~tE,R:!!im!!!m!!!e~r_

1 ...j........,-.,IC----"'l-------l'---4---1--\--------------1-----1------

§ 0.5
·~
-~

+-----'~----4--+½--I--....+--------~~--------------

-+-Carter

0

t=:I -0.5 +-<ie--efi,.--=----,!,,--~-,5---,!=!c....l--->a!-+~~-,;;..--,,,;.-..,...------.-;;...._~_;q'----">--~_;.._--;;l~Q-_m_~~~~_...,,_

_.,_Average

"'O

~

-1

B-1.s

(/l

+-------.i--:ir-+-;i...,_,lr+,...•

---ir-ir-+-..iir--ir-*-li--:li-++-1!-\-li--lPFltr-ir-+--it-

-.-impaired

+------=----~+-----t-------=:..:.._---.\----.,-:.:_~~~---=---~r+--1----=~~~~

-2 - f - - - - - - - - - - + - - + - - - - - - - ~ - - - - - - - 1 - - - - - - - - - -

·2.5 - f - - - - - - - - - - + - - + - - - - - - - - - - - - - - - 1 - - - - - - - - - -3 ~ - - - - - - - - ~ ~ - - - - - - - - - - - - ~ - - - - - ~ - - - -

Figure 1

N europsychological Tests

Dr. Connor's examination of Mr. Carter included the following:
•

•
•

Full Scale IQ of 116
o Notably low score on Digit Span (7)
o Notably low score on Digit Symbol - Coding (9)
Woodcock Johnson Test of Achievement- 3rd Edition
o Calculation at Grade Equivalent 7.5. Age Equivalent 12-11
Consonant Trigrams Test
o 18 Second Delay Trials - 1st percentile

Dr. Connor diagnosed Mr. Carter with Cognitive Disorder, NOS (DSM-IV Code 294.9),
and Mathematics Disorder (DSM-IV Code 315.1).
At page 22 he concluded that: "Combined, these findings demonstrate ample evidence of
CNS abnormalities ... consistent with a diagnosis on the fetal alcohol spectrum."
DECLARATION, NATALIE NOVICK-BROWN, PH.D.:
At page 15, Dr. Brown stated: "In Dean Phillip Carter's case, direct observation of the
birth mother drinking during her pregnancy confirms prenatal alcohol exposure. Lilly
Rose (close friend of birth mother Esther Carter) reported ... '/ do know that Esther
continued to drink throughout her pregnancy with Dean. When Esther was expecting
Dean, I used to see her around town at bars drinking, especially during the weekends.'"
Dr. Brown referred to this information as "sworn testimony from a credible individual,"
meeting the accepted standard to establish a history of prenatal exposure.

Exhibit 95-1170

Petitioner's App. 47 - 801

ER 1249

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 282 of(1474
298 of 1584)

Filed 09/07/10 Page 13 of 86 Page ID #:1526

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 12 of 18

At page 17, Dr. Brown related that "none of the records I reviewed included his height or
weight," limiting her ability to assess whether Mr. Carter's growth information would
potentially satisfy one of the other diagnostic elements.
Noting that CDC diagnostic criteria include "clinically significant brain abnormalities
observable through imaging techniques," Dr. Brown summarized the findings of Dr.
Adrian Raine 5• According to Dr. Raine, a positron emission topography (PET) scan of
Mr. Carter's brain:
" ... depicts significantly abnormal brain functioning. The lateral
and medial prefrontal cortex, corpus callosum, and occipital
cortex all show evidence of reduced functioning. The
hippocampus and thalamus also show evidence of abnormal
asymmetries of function ... "
Dr. Brown's review of records supported a finding of (1) learning disabilities, (2) a
specific math deficit and (3) developmental delays.
In particular, Dr. Brown noted that despite high average IQ scores, "grade transcripts
reveal below average grades from fourth grade on ... Elementary school transcripts
indicated that as arithmetic classes become more complex ... Mr. Carter's academic
performance in math deteriorated." Mr. Carter was noted in 8th grade to be "immature,"
and two years later to be "immature" and "undirected."
Dr. Brown, in an extensive review of Mr. Carter's history, concluded: "An FASD
condition accounts for all of Mr. Carter's behavioral history: from infancy to the present,
from innocuous but odd non-criminal behaviors to significant antisocial events, and
whether he was intoxicated on substances or not." (at page 30)

ADDITIONAL INFORMATION REGARDING MATERNAL ALCOHOL USE:
Mr. Charles Reader submitted a declaration. He indicated that he met Esther Carter in
1948 while he was bartending at the Nevada Saloon in Nome. He stated that "Esther
could really drink" at page 1, item #3.
Ms. Lilly Rose also submitted a declaration. She indicated that she was born in 1930. She
was friendly with Mr. Carter's mother beginning when the two were in their 20's.

5

From a declaration in 2000, referencing a May 30, 1991 brain positron emission topography study (i.e.,
PET scan).

Exhibit 95-1171

Petitioner's App. 47 - 802

ER 1250

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 283 of(1475
298 of 1584)

Filed 09/07/10 Page 14 of 86 Page ID #:1527

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 13 of 18

She indicated that "Esther went out more than me because she also went out drinking on
weekdays [in addition to weekends] ... on a regular basis ... I would not be surprised if
there is something wrong with Dean due to Esther's drinking when she was pregnant." (at
pages 1 -2).
She also stated that "After she got married [to Mr. Carter] ... Esther continued to drink for
many years. Esther and James Carter were heavy alcohol drinkers. I remember seeing
them at bars drinking all the time."
Ms. Adsuna testified about Mr. Carter's mother's use of alcohol after his birth, but before
the marriage to Mr. Carter's stepfather. She stated that she had seen the mother go in and
out of bars "staggering a little" from alcohol (at p. 7583, lines 19-26).
Younger half-sister, Ms. Pollyanne Reasner, testified that the parents " ... got drunk all the
time. It wasn't just once a month" (at p. 7550, lines 3 -4).
A peer, Mr. Vaughn Johnson, submitted a declaration. Item 7 at page 1 states; "I
remember that Jim and Esther Carter were heavy drinkers. When I went to the Carter
house, Jim and Esther were often drinking."
Patrolman Arthur "Guy" Martin submitted a declaration. At page 3, item 17 he stated that
the Carter parents "were both heavy drinkers." Mr. Martin worked with Mr. Carter on
the Nome, Alaska police force.

DIAGNOSIS:
Axis I:
Axis II:
Axis III:
Axis IV:
Axis V:

Cognitive Disorder, NOS (DSM-IV Code 294.9)
Mathematics Disorder (DSM-IV Code 315 .1)
Deferred
Partial Fetal Alcohol Syndrome
Stressors: Extreme: Incarceration on Death Row for years
Global Assessment of Functioning: 70/100 maximum currently, 70/100
prior year

Exhibit 95-1172

Petitioner's App. 47 - 803

ER 1251

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 284 of(1476
298 of 1584)

Filed 09/07/10 Page 15 of 86 Page ID #:1528

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 14 of 18

OPINION/DISCUSSION:
Diagnosis of Partial Fetal Alcohol Syndrome (PF AS):
The Diagnostic Criteria for PFAS are contained in: Fetal Alcohol Syndrome: Diagnosis,
Epidemiology, Prevention, and Treatment. Stratton K, Howe C, Battaglia F (editors).
National Academy Press; Washington, D.C. 1996. These are the Institute of Medicine
(i.e., IOM) criteria. The Centers for Disease Control (CDC) report (2006), on the other
hand, only provides diagnostic criteria for Fetal Alcohol Syndrome.
The criteria used here were established by the Institute of Medicine at the direction of the
U.S. Congress pursuant to Section 705 in Public Law 102-321. At page 76, Table 4-1,
the diagnostic criteria for PF AS are provided:
A.

Confirmed maternal alcohol exposure· which is a pattern of excessive intake
characterized by substantial, regular intake or heavy episodic drinking. Evidence
of this pattern may include frequent episodes of intoxication, development of
tolerance or withdrawal, social problems related to drinking, legal problems
related to drinking, engaging in physically hazardous behavior while drinking, or
alcohol-related medical problems such as hepatic disease.
[AND]

B.

Evidence of some components of the pattern of characteristic facial anomalies
[AND Either C or D or E]:

C.

Evidence of growth retardation, as in at least one of the following:
low birth weight for gestational age
decelerating weight over time not due to nutrition
disproportional low weight to height

D.

Evidence of CNS neurodevelopmental abnormalities, as in:
decreased cranial size at birth
structural brain abnormalities (e.g., microcephaly, partial or complete
agenesis of the corpus callosum, cerebellar hypoplasia)
neurological hard or soft signs (as age appropriate) such as impaired fine
motor skills, neurosensory hearing loss, poor tandem gait, poor eye-hand
coordination

E.

Evidence of a complex pattern of behavior or cognitive abnormalities that are
inconsistent with developmental level and cannot be explained by familial
background or environment alone, such as learning difficulties; deficits in school
performance; poor impulse control; problems in social perception; deficits in

Exhibit 95-1173

Petitioner's App. 47 - 804

ER 1252

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 285 of(1477
298 of 1584)

Filed 09/07/10 Page 16 of 86 Page ID #:1529

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 15 of 18

higher level receptive and expressive language; poor capacity for abstraction or
metacognition; specific deficits in mathematical skills; or problems in memory,
attention, or judgment
The diagnostic criteria for Partial FAS are revisited in the table below along with the
particular data upon which Mr. Carter meets these criteria.

Diagnostic Criteria for Partial Fetal Alcohol Syndrome (PF AS)
Dean Carter
Area
Defined by
Data
Criterion
Met?
(A) Confirmed
IOM Criteria
Sworn
YES
Maternal Alcohol
(1996)
testimony of
Exposure
Ms. Lilly Rose.
(Additional
support for the
conclusion that
Mr. Carter's
mother drank
heavily/was an
alcoholic
includes sworn
testimony of:
Mr. Arthur
"Guy" Martin,
Mr. Charles
"Chuck"
Reader, , Mr.,
Mr. Vaughn
Johnson, Ms.
Bertha Adsuna,
and Ms. Polly
Anne Reasner.)
(B) Evidence of
IOM Criteria
Smooth
YES
Some Components
philtrum, upper
(1996)
of the pattern of
lip, etc.
Characteristic Facial
Abnormalities
Learning
Learning
YES
(E) Evidence of a
complex pattern of
difficulties,
difficulties,
behavior or
deficits in school poor school

Exhibit 95-1174

Petitioner's App. 47 - 805

ER 1253

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 286 of(1478
298 of 1584)

Filed 09/07/10 Page 17 of 86 Page ID #:1530

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 16 of 18

cognitive
abnormalities that
are inconsistent with
developmental level
and cannot be
explained by
familial background
or environment
alone.

performance,
poor impulse
control, problems
in social
perception,
deficits in higher
level receptive
and expressive
language, poor
capacity for
abstraction or
metacognition,
specific deficits
in mathematics
skills; or
problems in
memory,
attention or
judgment.

performance,
specific
deficits in
mathematics,
problems in
memory,
executive
function,
psychomotor
functioning,
social/adaptive
functioning

Regarding the issue of maternal alcohol exposure, the information summarized above
documents regular intake resulting infrequent episodes of intoxication. The sworn
testimony and/or declarations included above reflect alcohol abuse before, during and
(long) after the mother's pregnancy with Mr. Carter. This information meets the "A"
criteria.
The facial appearance of Mr. Carter has features typical of FAS, not only at present
(confirmed by examination and computerized digital analysis), but also in numerous
photographs from childhood, satisfying the "B" criteria.
Furthermore, Mr. Carter abundantly meets the "E" criteria from the IOM and he also
meets the more stringent CDC criteria for CNS impairments.
FAS was first described by Jones and Smith in 1973. 6 At that time the cardinal features of
the syndrome were identified as: (1) prenatal alcohol exposure, (2) growth deficiency, (3)
a constellation of facial features and (4) CNS dysfunction. Early on, an impressionistic or
"gestalt" approach was used in evaluating the abnormal facial features (i.e. facial
"dsymorphology").

6

Jones KL, Smith OW. Recognition of the fetal alcohol syndrome in early infancy. Lancet 836,999, 1973.

Exhibit 95-1175

Petitioner's App. 47 - 806

ER 1254

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 287 of(1479
298 of 1584)

Filed 09/07/10 Page 18 of 86 Page ID #:1531

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 17 of 18

By 1978, alternate manifestations of prenatal alcohol exposure were appreciated that did
not include growth deficits and were termed Fetal Alcohol Effects (akin to our present
diagnostic label of Partial Fetal Alcohol Syndrome). 7
In 1989 - 1991, provided a credible report regarding prenatal alcohol exposure, alongside
the appearance of a flattened philtrum and thinned upper lip, and well-documented CNS
dysfunction, it can be expected that a prudent evaluator could have made a diagnosis of a
Fetal Alcohol Spectrum Disorder, particularly Fetal Alcohol Effect. In fact, as a Child
Psychiatrist at that time, based on such information I would have made the (equivalent)
diagnosis then, just as I am making it now.
On another note, PET scan findings are not explicitly referenced in either the IOM or
CDC criteria. The CDC criteria appear to allude to "structural" (e.g. shape, size)
abnormalities. PET scans reflect "functional" impairments. It is worthwhile to point out
that Dr. Raine identified perfusion/blood flow deficiencies (reflecting decreased function)
in the Corpus Callosum area of the brain in Mr. Carter. It is important to note that the
Corpus Callosum is an area of the brain shown to be affected by prenatal alcohol by
Diffusion Tensor Imaging, another functional radiological technique 8 •
Mr. Carter is diagnosed with Partial Fetal Alcohol Syndrome as opposed to Fetal Alcohol
Syndrome. One of the central differentiating features here is that he has two, but not all
three of the facial stigmata of FAS. The face changes over time, making the diagnosis of
FAS in adults difficult, especially in the absence of analyzable pictures with a
standardized marker permitting digital measurement.
For the sake of completeness, it should be emphasized that the diagnosis of FAS versus
the diagnosis of Partial FAS appears to be 'a distinction without a difference' when it
comes to the level of functional impairment and life outcomes for the affected
individual9•
In actuality, persons like Mr. Carter, who are prenatally-affected by alcohol but who have
higher IQs tend NOT to have their disability detected in a timely fashion and thus suffer
more serious life sequelae of this condition.

7

Clarren SK and Smith DW. The fetal alcohol syndrome. New England Journal of Medicine, 298, 1063 1067, 1978.
8
Ma X, Coles CD, Lynch ME, et al. Evaluation of Corpus Callosum Anisotropy in Young Adults with
Fetal Alcohol Syndrome to Diffusion Tensor Imaging. Alcohol Clin Exp Res 29(7): 1214- 1222, 2005.
9
Streissguth AP, Barr HM, Kogan J, et al: Understanding the occurrence of secondary disabilities in clients
with fetal alcohol syndrome (FAS) and fetal alcohol effects (FAE): Final Report to the Centers for Disease
Control on Grant No. RO4/CCR0085 l 5 (Tech. Report No. 96-16). Seattle: University of Washington, Fetal
Alcohol and Drug Unit, 1996

Exhibit 95-1176

Petitioner's App. 47 - 807

ER 1255

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 288 of(1480
298 of 1584)

Filed 09/07/10 Page 19 of 86 Page ID #:1532

Forensic Psychiatric Evaluation
Mr. Dean Carter
March 24, 2009
Page 18 of 18

Thank you for permitting me to evaluate Mr. Carter. I hope I have answered the
consultative questions in a complete and readily-understandable fashion. If you have
questions or concerns, please do not hesitate to contact me.

Respectfully submitted,

Richard S. Adler, M.D.

Exhibit 95-1177

Petitioner's App. 47 - 808

ER 1256

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 289 of(1481
298 of 1584)

Filed 09/07/10 Page 20 of 86 Page ID #:1533

RICHARDS. ADLER, M.D.
Forensic & Clinical Psychiatry
1700 Seventh Avenue, Suite 210
Seattle, WA 98101
(206) 624 - 3800•OFFICE
(206) 624 - 3801•FAX

EDUCATION

1998-2000

Senior Fellow in Forensic Psychiatry
University of Washington School of Medicine
Seattle, WA

1986 - 1988

Fellow in Child Psychiatry
Massachusetts General Hospital /Harvard Medical School
Boston, MA 02114

1984 - 1986

Resident in Adult Psychiatry
McLean Hospital/Harvard Medical School, Belmont, MA 024 78
Included rotations in Consult - liaison
Adolescent and Family Treatment Unit at McLean
Hospital

1983 - 1984

Internship year in Adult Psychiatry
McLean Hospital/Harvard Medical School
Six months medical internship at Mt. Auburn
MGH, two months of Inpatient Geriatric Psychiatry,
two months of Substance Abuse Psychiatry

1978 - 1983

Albany Medical College of Union University (AMC)
Albany, NY 12208
Doctor of Medicine
Alpha Omega Alpha Honor Society
Shaeffer Prize in Pathology
Honor Committee Member 1978 - 1980

Exhibit 95-1178

Petitioner's App. 47 - 809

ER 1257

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 290 of(1482
298 of 1584)

Filed 09/07/10 Page 21 of 86 Page ID #:1534
Adler Resume

Page 2 of8

1980 - 1981

Research in Gastrointestinal Pathology
Brigham and Women's Hospital
Department of Pathology, Ramzi Cotran, M.D., Chief
Boston, MA 02115
American Gastroenterological Association Award for
Medical Student Research - Poster Presentation

1976 - 1982

Rensselaer Polytechnic Institute (RPI)
Troy, NY 12180
Bachelor of Science in Biology
Summa cum laude, RPI - AMC 6-year Biomedical Program

POSITIONS
5/08 - present

Medical Director
FASD Experts.com - Interdisciplinary collaborative forensic and
clinical evaluation of Fetal Alcohol Spectrum Disorders

2/97 - present

Private Practice
Forensic and clinical psychiatric practice in child and adult
psychiatry

2007 - present

Clinical Instructor
University of Washington School of Medicine
Seattle, WA

2007 - present

Clinical Instructor
Antioch University Seattle
2326 6th Ave, Seattle, WA 98121

3/00 - present

Speakers Bureau and National Advisory Board
McNeil Consumer Healthcare, makers of Concerta ®

Exhibit 95-1179

Petitioner's App. 47 - 810

ER 1258

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 291 of(1483
298 of 1584)

Filed 09/07/10 Page 22 of 86 Page ID #:1535
Adler Resume

Page 3 of8

2006 - 2008

Psychiatric Consultant
Renton Academy
Employed by the Renton School District to provide on-site
psychiatric services for a new specialty school informed by the ReEducation Approach pioneered by Nicholas Hobbs, Ph.D.

2006

National Advisory Panel
Cephalon, Inc., makers of Sparlon ® (modafanil)
New Drug Application (FDA) pending

2/97 - 6/08

Staff Psychiatrist
Children's Hospital & Medical Center
Seattle,WA
Patient evaluation and psychopharmacologic
management, team consultation two days a week

7/00 - 12/00

Staff Psychiatrist
Western State Hospital
Program for Forensic Evaluations in Corrections and the
Community, Tacoma, WA 98498
Carl Redick, Psy.D, Director

7/98 -6/00

Acting Clinical Instructor (*)
Children's Hospital & Medical Center, Lake City Way Satellite
(206) 368-4949
Individual and group supervision of Child Psychiatry Fellows,
Adult Psychiatry Residents, Psychology Interns at a University of
Washington Medical School teaching site.
(*) During the Senior Fellowship in Forensic Psychiatry (see
Education), University of Washington regulations require that the
instructorship be regarded as "acting".

1/98 - 7/98

Clinical Instructor
Children's Hospital & Medical Center, Lake City Way Satellite

8/96 - 6/98

Staff Psychiatrist
Seattle Mental Health Institute, 1600 East Olive Street,
Seattle, WA 98122. (206) 324-2400
Provided staff consultation and treatment to adults, children and
adolescents, including The Deaf Services unit, in a large CMHC
with a wide continuum of care.

Exhibit 95-1180

Petitioner's App. 47 - 811

ER 1259

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 292 of(1484
298 of 1584)

Filed 09/07/10 Page 23 of 86 Page ID #:1536
Adler Resume
Page 4 of8

8/91 - 7/96

Medical Director & Founding President
Comprehensive Psychiatric Group, 120 East Main Street,
Salisbury, MD 21801.
Region's largest multi-disciplinary mental health
practice with Addictions, Eating Disorders and
extensive Group Psychotherapy Programs.

3/95 - 7/95

Consultant - Behavioral Health Services
Peninsula Regional Medical Center (PRMC)
100 East Carroll Street, Salisbury, MD 21801
Retained to design integrated and managed carefriendly inpatient, outpatient, consult-liaison and
emergency mental health services.

1/94 -12/95

Community Affiliate, Peninsula Regional Medical Center

11/91-12/93

Attending Psychiatrist, Peninsula Regional Medical Center
Inpatient, emergency and consult - liaison services

7/88 - 6/92

Medical Director, Mental Health Clinic
Somerset County Health Department, Westover, MD 21871
National Health Service Corps Scholarship Placement.
Included consultation to Colbourne Substance Abuse
Center, Crisfield, MD & Somerset County Sheriff's
Department, Public Schools, and Developmental Center.

7/88 - 6/91

Medical Director, Mental Health Clinics
Worcester County Health Department, Snow Hill, MD
21863.
National Health Service Corps Scholarship Placement

7/86 - 6/88

Part-time private practice
Boston, MA

10/86 - 6/88

Ciba-Geigy Clinical Trial of Clomipramine for ObsessiveCompulsive Disorder in Children and
Adolescents. Massachusetts General Hospital, Boston, MA
Co-investigator with Joseph Biederman, MD.

Exhibit 95-1181

Petitioner's App. 47 - 812

ER 1260

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 293 of(1485
298 of 1584)

Filed 09/07/10 Page 24 of 86 Page ID #:1537
Adler Resume

Page 5 of8

1986 - 1990

Doctor-on-Call
Pembroke Hospital, Pembroke, MA
150 bed Private Psychiatric Hospital

1985 - 1990

Doctor-on-Call
Norwood Hospital, Norwood, MA
21 bed locked psychiatric unit in a suburban community
General hospital with Emergency Room and Consultliaison consultation services.

1985 - 1986

Psychopharmacology Consultant
Cutler Counseling Center, Norwood, MA
Non-profit, community outpatient facility

LICENSES
1996 1988 - 1996
1984 - 1991

Washington
Maryland
Massachusetts

33536
D36903
54358

(3/12/96)
(6/18/88)
(6/1/84)

CERTIFICATIONS
1992

Child and Adolescent Psychiatry
American Board of Psychiatry and Neurology, #2903

1990

Adult Psychiatry
American Board of Psychiatry and Neurology, #33030

1984

National Board of Medical Examiners, #262751

Exhibit 95-1182

Petitioner's App. 47 - 813

ER 1261

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 294 of(1486
298 of 1584)

Filed 09/07/10 Page 25 of 86 Page ID #:1538
Adler Resume
Page 6 of8

MAJOR COMMITTEE ASSIGNMENTS
2005 -

Chairman, Ethics Committee
Washington State Psychiatric Association

1998

Managed Care Committee
Division of Child & Adolescent Psychiatry, Children's Hospital
and Regional Medical Center, Seattle, WA

1995

Representative of the Maryland Psychiatric Society to the
Rural Psychiatry Task Force
American Psychiatric Association Annual Meeting
May, Miami Beach, FL

1992 - 1996

Board of Directors
Life Crisis Center, 216 East Main Street, Salisbury,
Chairman, Executive Director Search Committee (1994)

1993

Select Committee, Quality Council
Peninsula Regional Medical Center
Empowered to re-engineer Emergency Room
Psychiatric Services. Developed satisfaction
assessment tool

1992 - 1993

Utilization Review Committee
Peninsula Regional Medical Center

1991 - 1993

Founding President
Eastern Shore Psychiatrists' Group
Established to provide networking opportunities

1991

Physicians' Steering Committee
Atlantic General Hospital, Berlin, MD
Providing input on design of new community General
hospital

1988 - 1992

Utilization Review Committee
Peyton Psychogeriatric Unit
McCready Hospital, Crisfield, MD
Specialty in-patient locked unit for chronically
mentally ill geriatric patients

Exhibit 95-1183

Petitioner's App. 47 - 814

ER 1262

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 295 of(1487
298 of 1584)

Filed 09/07/10 Page 26 of 86 Page ID #:1539
Adler Resume

Page 7 of8

MEMBERSHIPS
1996 1984 1991 - 1996
1988 - 1996
1986 - 1988

American Academy of Psychiatry and the Law
American Psychiatric Association
Eastern Shore Psychiatrists' Group
Maryland Psychiatric Society
Massachusetts Psychiatric Society

PUBLICATIONS & PRESENTATIONS
2008

"Fetal Alcohol Spectrum Disorder in the Educational Context"
Lake Washington School District, Redmond, WA
3-hour In-service

2008

"Collaboration Between Attorneys and Mental Health
Experts: Beyond the Basics" - Continuing Legal Education
TeamChild, Seattle, WA (www.TeamChild.org)
( 1) "Vetting the Expert"
(2) "Bringing it all Home" - Program Discussant with Jeff
Robinson

2007

"Parenting Evaluations - A Critical Review and Practice
Skills"
Washington State Bar Association - Continuing Legal Education
Washington State Convention and Trade Center, Seattle, WA,
August 8, 2007
Doubletree Inn, Suite B, Spokane, WA, August 21, 2007
www.wsbacle.org

2004 & 2006

"How to Help Your Client Survive a Parenting Evaluation in
Washington"
National Business Institute Seminar, Washington State Convention
and Trade Center, Seattle, WA. November 5, 2004 & November
10, 2006. www.nbi-sems.com

2002

"Child Abuse and Neglect"
Western State Hospital Forensic Seminar Series
Greg Gaggliardi, Ph.D., Seminar Director

Exhibit 95-1184

Petitioner's App. 47 - 815

ER 1263

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-4

DktEntry: 15-6

Page: 296 of(1488
298 of 1584)

Filed 09/07/10 Page 27 of 86 Page ID #:1540
Adler Resume
Page 8 of8

2000

"Pediatric Psychopharmacology: The Cutting Edge"
Washington State and British Columbia Associations of School
Psychologists Fall Conference, Vancouver, B.C.

1999

"Pediatric Psychopharmacology: The Cutting Edge"
Child and Adolescent Neuropsychiatry Conference, Children's
Hospital and Regional Medical Center, Seattle, WA

1998

"The Broad Bandwidth of Autism Spectrum Disorders"
Child and Adolescent Neuropsychiatry Conference, Children's
Hospital and Regional Medical Center, Seattle, WA

1997

"No Need to Panic: Anxiety Disorders Update for the
Clinician." Child and Adolescent Neuropsychiatry Conference,
Children's Hospital and Regional Medical Center, Seattle, WA

1991

"The Transition from Resident to Medical Director", American
Psychiatric Annual Meeting, Course: Administration in Austerity.
Paul Rodenhauser, M.D., Course Director.

1990

Adler RS, Jellinek MS. Special Article: "After Teen Suicide:
Issues for Pediatricians Who Are Asked to Consult to Schools".
Pediatrics. 86:6, 982 - 7.

1990

Adler RS. Out-of-Control Behavior. The Massachusetts General
Hospital: Psychiatric Aspects of General Hospital Pediatrics.
Jellinek MS, Herzog DB, Eds. Chicago: Year Book Medical
Publishers, pp. 298-304.

1990

Adler RS, Jellinek M. Suicide. Ibid. pp. 324 - 30.

1985

Adler RS, Nafradi J, Szabo S. "Cysteamine-induced Duodenal
Ulcer is not Site-specific: Effect of Local Modulating Factors".
J. Experimental Pathology 2:2, 111-22.

1983

Adler RS, Gallagher GT, Szabo S. "Duodenal Ulcerogens
Cysteamine and Proprionitrile Decrease Duodenal
Neutralization of Acid in the Rat". Digestive Diseases and
Sciences 28:8, 716-23.

Exhibit 95-1185

Petitioner's App. 47 - 816

ER 1264

Case: 13-99003

04/03/2014

ID: 9045913

DktEntry: 15-6

FAS
Facial
Photographic
Analysis
Report
Case
2:06 cv-04532
RGK Document
49-4 Filed
09/07/10

Page: 297 of(1489
298 of 1584)

Page 28 of 86 Page ID #:1541
IDENTIFICATION

Name

Dean

Phillip

First

Middle

Carter
Last

Subject I.D.
Source of Photo

None
RSA SONY Netcam
Male
Alaskan Native/Caucasian
Birth Date
8/30/1955

Gender
Race

1;

Normal PFL Charts: .t:@ll

PHOTO ASSESSMENT

Lip-Philtrum Guide: Caucasian
Frontal

¾View

Lateral

File Name
DSC00038.JPG
---------Oate of Photo
1126/2009
---------Age (yrs) in photo ----"--53'---.4_1_ _ _ _ _ _ _ _ _ _ _ _ __
Date of Photo Assessment _ _ _1"""/=27'--'-/=20.C....0'-'9'----Photo Assessor ____..;,,.R'""S""'A,;,....__ __
Length of Real Internal Measure of Scale(sticker) placed on forehead (mm) _ _;_19=·-=-05=--Length of Internal Measure of Scale in Frontal Photo (pixels)
117.0
Left Palpebral Fissure Length:
Right Palpebral Fissure Length:
Mean Palpebral Fissure Length*:
Inner Canthal Distance:

In
In
In
In

photo
photo
photo
photo

(pixels)
(pixels)
(pixels)
(pixels)

Flat Philtrum (5-point rank):
Thin Upper Lip:

Circularity (perimeter/area) ___l1iL
clown eyebrows
flat midface

Other anomalies present:

None reported

Comments:
Other syndromes present:

None reported

D
D

True Length (mm)
True Length (mm)
True Length (mm)
True Distance (mm)

199.0
184.3
191.7
217.1

In Frontal Photo
5-Point rank (Circ)*

ptosis
protruding ears

D
D

35.6
33.0
34.3
35.3

1;

Z-score 3.91
Z-score _l&L
Z-score 2.87
Z-score 1.64

4

In¼ Photo

4

5

5-Point rank (Scale)

4

strabismus
flat nasal bridge

D
D

epicanthal folds
hypertelorism

D
D

PHOTO QUALITY
Frontal

¾View

Lateral

Side showing
Head rotation (5-point rank/dei:irees)to subject's RiQht (+) or Left(-)
Head tilt (5-point rank)toward subject's RiQht (+) or Left(·) shoulder
Head tip (dei:irees) Up(+) or Down(-) from Frankfort Horizontal Plane
Exposure (3-point rank)
Focus (3-point rank)
Facial Expression (3-point rank) _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __
Reliability of ABC-Score for palpebral fissure lenQth (5-point rank) _ _ _ _ _ __
Reliability of ABC-Score for philtrum (5-point rank) _ _ _ _ _ _ _ _ _ _ _ _ __
Reliability of ABC-Score for upper lip (5-point rank) _ _ _ _ _ __

••1•1ii•ii'1il
ABC-Score
No Picture
Available

No Picture
Available

A

C

C

PFL

Philtrum

Lip

Data Used

4-0 ig it Di agnostic Code for Face _ _. . .:2: . : -'-F-'-A""S.. .:.fe.: . .a: . :t-=-ur:..::ec...:::s....:.m.:..:.ic:,,;ld=----DSC00038.JPG
University of Washington FAS DPN FAS Facial Photographic Analysis Software © 2009

Exhibit 95-1186

Petitioner's App. 47 - 817

ER 1265

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-3

DktEntry: 15-7

Page: 29 of (1519
94
of 1584)

Filed 09/07/10 Page 4 of 53 Page ID #:1464

DECLARATI ON OF CHERRYL (BABE) STAVISH

I, Cherryl (Babe) Stavish, declare as follows:
I.

I am the daughter of Charles and Marie Reader, and I grew up in

Nome, Alaska.
2.

My parents were friends with James and Esther Carter. The Carters

did not socialize much, and I don't ever recall the Caters having social gatherings
at their home.
3.

I was born in 1963, and am roughly the same age as Dean Carter's

younger sister, Pollyanne June Carter. Pollyanne and I were raised together and
were great friends; we also went to school together.
4.

Pollyanne was rarely allowed to have friends over to her house to

socialize - she would always come to her friends home(s) or summer camp(s) to
socialize. While all of us had birthday parties at our houses, Pollyanne never had
birthday parties at her house.
5.

Because this did not make sense to me, I once asked Esther Carter,

Dean and Pollyanne's mother, why Pollyanne was not allowed to have birthday
parties at her home. The upshot was that Esther allowed Pollyanne a small party
for Pollyanne's sixth or seventh birthday. I can remember she was only allowed to
have over a very few select friends (four or five perhaps, including myself).

Exhibit 91-1109

Petitioner's App. 48 - 818

ER 1281

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-3

6.

DktEntry: 15-7

Page: 30 of (1520
94
of 1584)

Filed 09/07/10 Page 5 of 53 Page ID #:1465

The day of the party, Dean's step-father, Jim, was not at home. After

the party, while Pollyanne was asking her mother whether she could spend the
night at my house, I went snooping in Pollyanne and Goldie's bedroom. Their
bedroom was wood paneled and by one wall I saw a piece of wood paneling that
was sticking slightly out from the rest of the wall. When I "opened" the piece of
paneling, I discovered a hidden room. The room was the size of a small jail cell
and had in it only an army-type bed. The only window in the room, which was
small, had bars on it. I had a feeling this is where Dean was kept.
7.

When Pollyanne came back into the room, she told me "We are not

supposed to look in there." Pollyanne then told me she was not allowed to sleep
over at my house. When I asked Pollyanne whether I could spend the night at her
house, she said, "No, I'm not allowed to have anyone sleep over."
8.

In the summer, some families in Nome would spend their summers

gathering subsistence foods and living at their cabins. Most cabins were wood
dwellings in the nearby Alaskan countryside. The Carter family had a large cabin
on stilts (roughly three feet above the tundra). The Johnson family had a cabin
right across the street from the Carters summer cabin. This camp area is called
Osborne, Alaska, and was about six miles from Nome.

Exhibit 91-1110

Petitioner's App. 48 - 819

ER 1282

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-3

9.

DktEntry: 15-7

Page: 31 of (1521
94
of 1584)

Filed 09/07/10 Page 6 of 53 Page ID #:1466

Either the summer after my discovery of the hidden room, or the

following summer, I recall an incident that occurred when I was spending the
summer with the Johnson family. It had been pouring rain for a few days. When
we returned to the Johnson family cabin after a day in Nome, I saw Dean
handcuffed and shackled by the ankles to the outside stilts of the Carter cabin.
Dean was wet, cold, and hungry. From the look of him, Dean must have been
chained to the cabin for hours and hours.
10.

At first, Mr. Johnson told us to go into the cabin. Once we were all

inside, Mr. Johnson decided he should go check on Dean and maybe cut him
loose. Mr. Johnson's daughte~n dy (my age) and I begged to go with him so
we could bring Dean something to eat and a blanket. Mr. Johnson finally agreed,
and all three ofus walked over to the Carter cabin. After Mr. Johnson spoke to
Dean, he worked to cut Dean loose. Dean told Mr. Johnson that Jim Carter had
chained Dean to the cabin. Dean would not say anything more about it. I did not
see Dean much after that, until I was in high school.
11.

'

Later that same summer, Mel"WJ'l1 Johnson and I discovered a small

shed about fifty feet from the Carter's main cabin. When we looked inside the
shed there were bars on the very small single payne window and nothing inside.

Exhibit 91-1111

-------- ----···-- ----···-· Petitioner's App. 48 - 820

ER 1283

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-3

DktEntry: 15-7

Page: 32 of (1522
94
of 1584)

Filed 09/07/10 Page 7 of 53 Page ID #:1467

To me, it looked like a short "jail cell."
12.

I recall that when I was at the Johnson summer camp in Osborne,

three or four days would go by in which no one would see Dean although the other
Carter children would be playing outside. When I asked the other Carter kids
where Dean was I was told, "Dean was a bad boy."
13.

My dad, and some of our family friends, would tell me "Dean was

always running away." I suspected it was to get away from Jim Carter. Dean's
running away was common knowledge in Nome.
14.

Jim Carter was a big strong man, standing well over six feet tall. Jim

was the police chief in Nome. Jim was stem and people did not talk back to him.
15.

Esther Carter was quiet. And while she would scold her daughters, I

never saw her being aggressive with them or spank them. As far as I knew, it was
Jim Carter who was the disciplinarian in the family.
16.

c.,op

I believe, but have no proof, that Jim Carter used to "beat the jJrlf out
(J.....

of Esther." I recall seeing Esther with bruises, black eye,, and broken glasses.
17.

Jim Carter never had anything nice to say about Dean but put Jeny on

a pedestal when comparing the two boys. He would constantly refer to Dean as
"that bastard."

Exhibit 91-1112

Petitioner's App. 48 - 821

ER 1284

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-3

18.

DktEntry: 15-7

Page: 33 of (1523
94
of 1584)

Filed 09/07/10 Page 8 of 53 Page ID #:1468

When I was a teenager, I asked Pollyanne about Jim's abuse of Dean.

Pollyanne said that although she did not see anything, she used to hear Jim
beating/whipping Dean through the thin walls separating their rooms. I remember
seeing a leather strap hanging on the wall in their house.
19.

I met with an investigator named Casey Cohen in May of 1987. I told

him about the incident in which Dean was chained to the summer cabin, how Dean
was kept in a room that looked like a jail cell, and that everyone in Nome knew
about Dean's abuse at the hands of Jim Carter.
20.

On February 6, 2007, I met with a lawyer and two investigators from

the Office of the Federal Public Defender. The lawyer explained to me that their
Office represents Dean in federal post-conviction proceedings. I have read and
reviewed this five page declaration.
I declare under penalty of perjury under the laws of the United States of
America and of the State of California that the foregoing is true and correct to the
best of my recollection.
Executed on March 2, 2007 in Hope, Alaska.

Exhibit 91-1113

Petitioner's App. 48 - 822

ER 1285

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-7

Page: 35 of~25 of 1584)

Filed 09/07/10 Page 85 of 92 Page ID #:1453

DECLARATION OF ARTHUR "GUY" MARTIN

I, Arthur "Guy" Martin, declare as follows:
I.

I was born in Nome, Alaska o n - 9 4 2 .

2.

When I was a toddler, my brothers and I were sent to Holy Cross, an

orphanage located in the southwestern part of Alaska. In the orphanage, I was
mistreated. All of the children were beaten with straps and belts.
3.

I returned to Nome when I was about ten years old. It was then that I

first met Esther Carter. Esther was living with a man who cut hair.
4.

In 1960, I joined the army. I was eventually stationed in Georgia,

Washington, and Germany.
5.

After about three years, I returned to Nome where I worked as a jailer.

6.

When I turned twenty-one, I enrolled in the Alaska State Police

Academy. I was sent to Anchorage, Alaska where I completed a 480 hour course
that took approximately two months.
7.

I returned to Nome in the Fall of 1964 to work as a police officer.

8.

At that time, there were four officers on the Nome police force:

Robert Oliver, Chief of Police; James Carter, Assistant Chief of Police; Larry
Minnix, patrolman; and myself, also a patrolman.

/}11?.
A.M.

Exhibit 88-1098

ER 1286
Petitioner's App. 49 - 823

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

9.

DktEntry: 15-7

Page: 36 of (1526
94
of 1584)

Filed 09/07/10 Page 86 of 92 Page ID #:1454

James Carter was known to be a drinker and had all the characteristics

of a heavy drinker. For example, his nose was red and swollen. James Carter was
not the type to confront someone his own size, and rarely made his own arrests.
James usually called another officer for assistance if he needed to arrest someone.
10.

James Carter was married to Esther Carter. Esther's two boys from

previous relationships, Jerry and Dean, were living with them.
11.

Sometime around 1964, I received a telephone call from Sophie

Swanson, a family friend. The Swansons lived next door to the Carter family.
Sophie said that there was a lot of noise coming from next door and that she
thought there was trouble. She told me that she thought the Carter boys, Dean and
Jerry, were being abused and she asked me to check on them.
12.

Sophie called me, even though I was off-duty, because she and my

mother were close friends. Sophie was a very respectable person in the
community. She was the kind of person that if she called there must really be a
problem.
13.

I went to the Carter home. It was daytime. I knocked, but no one

answered. I pushed open the door and went in. Inside, I found Dean and Jerry
Carter chained to the floor, like the Count of Monte Cristo. Next to the boys, I

1/;r?,
2

A.M.

Exhibit 88-1099

Petitioner's App. 49 - 824

ER 1287

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-7

Page: 37 of (1527
94
of 1584)

Filed 09/07/10 Page 87 of 92 Page ID #:1455

found a bowl with water. I could see the chain on Dean, but I don't remember
seeing the chain on Jerry.
14.

Dean was younger, less than ten. Jerry was older, over ten. I could

see the boys had been crying. Dean seemed more upset than Jerry, who was
subdued. I know abuse when I see it and the Carter boys were definitely being
abused.
15.

I don't recall saying anything to the boys or them saying anything to

me. Because of my prior experience of abuse, I became enraged at Jim Carter. I
flew out of the house and to the police station. I recall only a couple of occasions
during my lifetime that I had been that angry.
16.

I went to the police department to confront James. When I found

him, James told me to "mind my own business or else." I tried to provoke a
physical confrontation with James, but it did not work.
17.

I later talked to Sophie about what I had seen. Sophie told me that

she knew that the boys were being chained and said that it had been going on for
a long time. She thought that the boys were chained every time James and Esther
went out to drink, which was frequently because they were both heavy drinkers.
18.

Before leaving the police department, I told James Carter that he

IJ;n
3

A.M.

Exhibit 88-1100

Petitioner's App. 49 - 825

ER 1288

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-7

Page: 38 of (1528
94
of 1584)

Filed 09/07/10 Page 88 of 92 Page ID #:1456

better take care of it or I would.
19.

I regret not reporting this incident to the district attorney but at the

time I was young and it would have meant turning over my superior, the man I
reported to. This was the only time James and I discussed this matter.
20.

In the mid-1980's, two individuals who represented Dean Carter

visited Nome. Esther Carter asked me not to say anything to them and specifically
asked me not to tell them about the abuse. Nome is a small and private
community. I respected Esther's wishes.
21.

If I had been subpoenaed to testify at Dean's trial, I would have told

them everything I have stated in this declaration.
II
II
II
II
II
II
II
II

4

/Jn
A.M.

Exhibit 88-1101

Petitioner's App. 49 - 826

ER 1289

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

22.

DktEntry: 15-7

Page: 39 of (1529
94
of 1584)

Filed 09/07/10 Page 89 of 92 Page ID #:1457

On February 27 and 28, 2007, I met with an investigator from the

Office of the Federal Public Defender. The investigator explained to me that their
Office represents Dean in federal post-conviction proceedings. I have read and
reviewed this five page declaration.
I declare under penalty of perjury under the laws of the United States of
America and of the State of California that the foregoing is true and correct to the
best of my recollection.
Executed on MarchL, 2007 in Nome, Alaska.

f2A:1eU
Arthur "Guy" Martin

5

Exhibit 88-1102

Petitioner's App. 49 - 827

ER 1290

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-7

Page: 41 of (1531
94
of 1584)

Filed 09/07/10 Page 83 of 92 Page ID #:1451

DECLARATION OF VAUGHN JOHNSON

I, Vaughn Johnson, declare as follows:
1.

I was born in Nome, Alaska in 1954.

2.

My family lived in the summer camp next door to the Carter's in

Osborn, Alaska.
3.

One day when I was a young teenager, I went to the Carters to see if

anyone was home. I went around to the back of their camp house and saw Dean
Carter handcuffed and chained to the house outside.
4.

I asked Dean what had happened and he told me Jim Carter had

chained him. I left and Dean's parents came back later that day and unchained
him.
5.

Dean and I and our friends used to go to the gold dredges near the

FAA housing. We played there once a week or so for a couple of years.
6.

Dean used to disappear for days at a time. I once asked Esther where

Dean was, but she didn't give me an answer. Nobody would say anything about
Dean's disappearances.
7.

I remember that Jim and Esther Carter were heavy drinkers. When I

went to the Carter house, Jim and Esther were often drinking.

1

za
TI

Exhibit 87-1096

Petitioner's App. 50 - 828

ER 1291

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

8.

DktEntry: 15-7

Page: 42 of (1532
94
of 1584)

Filed 09/07/10 Page 84 of 92 Page ID #:1452

On March 1, 2007, I met with an investigator from the Office of the

Federal Public Defender. The investigator explained to me that their Office
represents Dean in federal post-conviction proceedings. I have read and reviewed
this two page declaration.
I declare under penalty of perjury under the laws of the United States of
America and of the State of California that the foregoing is true and correct to the
best of my recollection.
Executed on March_i, 2007 in Nome, Alaska.

2

Exhibit 87-1097

Petitioner's App. 50 - 829

ER 1292

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-7

Page: 44 of (1534
94
of 1584)

Filed 09/07/10 Page 90 of 92 Page ID #:1458

DECLARATION OF CHARLES "CHUCK" READER

I, Charles Reader, declare as follows:
1.

I was born in Berlin, North Dakota in 1927.

2.

After leaving the military, I moved to Nome, Alaska where my sister

and brothers had previously moved.
3.

Around 1948, I met Esther Carter while I was bartending at the

Nevada Saloon in Nome. I would regularly go out drinking with Esther and Jim
Carter. Esther could really drink.
4.

I recall that Esther dated a GI for about three years. I do not know

who the biological father or fathers were of Dean and Jerry Carter.
5.

Esther was a very stubborn person. She did not like to talk about her

private life.
6.

I only saw Dean a couple of times during Dean's younger years.

However, I do have a vivid recollection of the day I saw Dean in Osborne.
7.

I was spending the weekend in my cabin in Dexter, which was a few

miles from Osborne. At some point I went to see my good friend, Ivan Johnson.
Ivan's cabin was located in front of the Carter's cabin. When I arrived, the

e.r?
CR

Exhibit 89-1103

Petitioner's App. 51 - 830

ER 1293

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-7

Page: 45 of (1535
94
of 1584)

Filed 09/07/10 Page 91 of 92 Page ID #:1459

Johnsons and the Carters were having a picnic. As the kids played around the
campgrounds, I noticed Dean hopping around the cabin while chained at both
ankles.
8.

At first I thought it was some kind of a joke or game the kids were

playing. It was not until later that afternoon that I realized Dean had been chained
intentionally by Jim Carter. When I asked Jim why on earth would he do
something like that to his kid, Jim acted as if it was routine. Jim said, "Can't let
him loose." Later, Ivan told me that Esther and Jim kept Dean chained up, locked,
and secluded almost all the time.
9.

I also noticed that Jerry was favored by Esther and Jim. Jerry was

pampered and could do pretty much what he wanted. It was obvious to me that
Jerry could do no wrong in Esther's eyes.
10.

Once my daughter had her motorcycle stolen. I thought that Jerry

Carter had taken it. When I went to talk to Jerry, Jim Carter became really angry
and defensive. Jim and Esther would not allow me to speak to Jerry. Jim and
Esther refused to even consider that Jerry might have done something wrong.
They just assumed that if someone had taken something, it had to be Dean.
@._

If'

CR

Exhibit 89-1104

Petitioner's App. 51 - 831

ER 1294

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

11.

DktEntry: 15-7

Page: 46 of (1536
94
of 1584)

Filed 09/07/10 Page 92 of 92 Page ID #:1460

I saw Dean again when he returned to Nome with his wife and

children. Dean and his family lived next door. Dean seemed happy and clearly
loved his children.
12.

I have never been interviewed by anyone regarding Dean Carter in the

past. Had I been interviewed or subpoenaed to testify at Dean's trial, I would have
told them everything I have stated in this declaration.
13.

On April 3, 2007, I spoke with an investigator from the Office of the

Federal Public Defender. The investigator explained to me that their Office
represents Dean Carter in federal post-conviction proceedings. I have read and
reviewed this three page declaration.
I declare under penalty of perjury under the laws of the United States of
America and of the State of California that the foregoing is true and correct to the
best of my recollection.
Executed on April _!!:/_, 2007 in Anchorage, Alaska.

e~~
Charles "Chuck" Reader

Exhibit 89-1105

Petitioner's App. 51 - 832

ER 1295

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-7

Page: 48 of (1538
94
of 1584)

Filed 09/07/10 Page 69 of 92 Page ID #:1437

DECLARATION OF CATHERINE "GIRLIE" DICKSON
I, Catherine "Girlie" Dickson, declare as follows:
1.

I was born in 193 7 in a mining village about 3 9 miles southwest of

Nome, Alaska.
2.

In 1943, my family moved to Nome and I have been living here ever

3.

I first met Esther Carter around 1950.

4.

I met Esther through my friend Minna Williams. Minna lived behind

smce.

my parents' house in a small cabin by herself and her infant. Minna was very
young and already a single mother when I met her. I used to babysit Minna's son
when Minna went out. Minna, Esther, and another local girl named Lilly
Tungwenuk, would go out to dance and party. The girls would go out to party and
to meet G.I. men. I recall Esther at the time did not have any children.
5.

I later heard that Esther was expecting a baby and that the father of

her unborn child was Chuck Reader. Chuck Reader was considered a "lady's
man," having lots of girlfriends including Esther. Esther was seen many times
outside the Quyanna Club, a club located outside the city limits, waiting for Chuck
Reader to pick her up.

e..~.
CD

Exhibit 82-1082

Petitioner's App. 52 - 833

ER 1296

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

6.

DktEntry: 15-7

Page: 49 of (1539
94
of 1584)

Filed 09/07/10 Page 70 of 92 Page ID #:1438

Esther gave birth to her first son, Jerry, and then she had another son,

Dean, some years later. Dean's biological father is believed to have been one of
the military guys she went out with.
7.

Esther married James Carter. James was antisocial and he was not the

type of person that I would have befriended. He was different from the Nome
residents and had the tendency to be condescending towards Natives. He was
drunk on his authority as the Chief of Police in Nome.
8.

After Esther and James got married, the word in town was that James

was abusive towards Dean and Jerry.
9.

Back then, life was very different in Nome than it is now. For

example, we did not have running water in our homes so our water was provided
by Moonlight Water. Two of the delivery guys who worked for Moonlight Water
were family friends. Their names were Robert M. Sherman and Roscoe J. Wilke.
Robert and Roscoe stopped by my house for snacks occasionally when delivering
water in the neighborhood. I recall Robert telling me that he could not believe
how James Carter was capable of mistreating the boys. Robert told me that he saw
Dean chained up when he delivered water to the Carter family. I remember
Robert's facial expressions of disbelief as he took off his cap and rubbed his head

2

a.~
CD

Exhibit 82-1083

Petitioner's App. 52 - 834

ER 1297

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-7

Page: 50 of (1540
94
of 1584)

Filed 09/07/10 Page 71 of 92 Page ID #:1439

that as the
when talking about Dean. I also remember that we discussed the fact
Chief of Police, how could anyone stand up against James Carter.
10.

Racism and discrimination were prevalent in Nome back then, and it

things were
is still a factor today. In those days, even if people knew that certain
ed
going on, like child abuse, it was quickly dismissed especially if it involv
Natives.
11.

I have never been interviewed by anyone regarding Dean Carter in the

I would have
past. Had I been interviewed or subpoenaed to testify at Dean' s trial,
told them everything I have stated in this declaration.
12.

On March 2, 2007, I met with an investigator from the Office of the

Federal Public Defender. The investigator explained to me that their Office
reviewed
represents Dean in federal post-conviction proceedings. I have read and
this three page declaration.
of
I declare under penalty of perjury under the laws of the United States
t to the
America and of the State of California that the foregoing is true and correc
best of my recollection.
Executed on March.1 , 2007 in Nome, Alaska.

~•'~
(2. d r t
e «ll-..ry-,
.,~

Catherine "Girlie" Dickson

3

Exhibit 82-1084

Petitioner's App. 52 - 835

ER 1298

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-7

Page: 52 of~42 of 1584)

Filed 09/07/10 Page 80 of 92 Page ID #:1448

DECLARATION OF CECIL JOHNSON
I, Cecil Johnson, declare as follows:

I.

I was born on

2.

I first came to Nome in 1964 from Anchorage where I had worked as

1928.

a United States Marshal from 1954 through 1959. I then joined the Alaska State
Troopers and was transferred to Nome.
3.

When I arrived in Nome, Robert Oliver was the Chief of Police.

James Carter and Larry Minnix were police officers. As a State Trooper, my
jurisdiction was statewide, however, most of the issues I dealt with concerned
matters in the surrounding villages. I hardly dealt with issues involving the city
and in fact traveled to the villages most of the time. City matters were taken care
of by the Nome police officers. Larry Minnix became the Chief of Police in
Nome not long after my arrival.
4.

I knew that James and Esther Carter were drinkers and although I did

not socialize with them, I used to see them go in and out of bars all the time. In
fact, Esther and Lillian Minnix, Chief Minnix' s wife, were drinking buddies.
5.

Chief Minnix told me many times that Esther and James Carter

chained the boys (Jerry and Dean) to the bed when they went out drinking and

Exhibit 86-1093

ER 1299
Petitioner's App. 53 - 836

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-7

Page: 53 of (1543
94
of 1584)

Filed 09/07/10 Page 81 of 92 Page ID #:1449

when they went to work. Chief Minnix was a righteous man and therefore I knew
he was telling me the truth about the Carter boys. Chief Minnix never took any
action on the abuse, because people mind their business in Nome
6.

In my opinion, James Carter didn't give a damn about those boys

because they were not his.
7.

I would not be surprised if a lot of people in Nome knew what was

going on at the Carter home. I used to worry at the thought of a fire. Jesus, if the
house would have caught on fire, the kids would have been burned to death.
8.

I believe James Carter used to be a wrestler because he had

cauliflower ears.
9.

I only saw Dean Carter a few times but I always thought that there

was something wrong with the boy; he was different. I don't know why I felt this
way but I recall having these thoughts about Dean.
10.

I was never interviewed by anyone regarding Dean Carter in the past.

Had I been interviewed or subpoenaed to testify at Dean's trial, I would have told
them everything I have stated in this declaration.
II I
Ill

2

~
Initials

Exhibit 86-1094

Petitioner's App. 53 - 837

ER 1300

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

11.

DktEntry: 15-7

Page: 54 of (1544
94
of 1584)

Filed 09/07/10 Page 82 of 92 Page ID #:1450

On March 2, 2007, I met with an investigator from the Office of the

Federal Public Defender. The investigator explained to me that their Office
represents Dean in federal post-conviction proceedings. I have read and reviewed
this three page declaration.
I declare under penalty of perjury under the laws of the United States of
America and of the State of California that the foregoing is true and correct to the
best of my recollection.
Executed on March :;sNf._2007 in Nome, Alaska.

CECILJ~

3

Exhibit 86-1095

Petitioner's App. 53 - 838

ER 1301

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

DktEntry: 15-7

Page: 56 of (1546
94
of 1584)

Filed 09/07/10 Page 63 of 92 Page ID #:1431

DECLARATION OF MICHAEL AHMASUK
I, Michael Ahmasuk, declare as follows:
1.

I was born in Nome, Alaska in 1955.

2.

While growing up, I used to live next door to the Carter family.

3.

Dean and I were in the same school class off and on for about a ten

year period.
4.

Dean told his friends that Jim Carter used to lock him in a closet.

5.

After school, all ofus kids would go outside and play.

6.

Whenever we did not see Dean for a few hours, we assumed Jim

Carter had locked him in the closet.
7.

The next day at school, Dean would not talk about it.

8.

When we were all playing outside, Jim Carter would call Dean into

the house but let Jerry stay outside.

9.

I don't believe Jerry was locked up like Dean was.

10.

IfI had been subpoenaed to testify at Dean's trial, I would have told

them everything I have stated in this declaration.

II
II

~
M.A.

Exhibit 80-1076

Petitioner's App. 54 - 839

ER 1302

Case: 13-99003

04/03/2014

ID: 9045913

Case 2:06-cv-04532-RGK Document 49-2

11.

DktEntry: 15-7

Page: 57 of (1547
94
of 1584)

Filed 09/07/10 Page 64 of 92 Page ID #:1432

On February 28, 2007, I met with an investigator from the Office of

the Federal Public Defender. The investigator explained to me that their Office
represents Dean Carter in federal post-conviction proceedings. I have read and
reviewed this two page declaration.
I declare under penalty of perjury under the laws of the United States of
America and of the State of Alaska that the foregoing is true and correct to the
best of my recollection.
Executed on March

J., 2007 in Nome, Alaska.

Michael Ahmasuk

2

Exhibit 80-1077

Petitioner's App. 54 - 840

ER 1303

